<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-302]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-302, Pt. 2

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                     Legislative Branch

                                                         Appropriations

                                                       Fiscal Year 2007





                                         109th CONGRESS, SECOND SESSION

                                                              H.R. 5521

PART 2
        ARCHITECT OF THE CAPITOL
        CAPITOL GUIDE BOARD
        CONGRESSIONAL BUDGET OFFICE
        GOVERNMENT ACCOUNTABILITY OFFICE
        GOVERNMENT PRINTING OFFICE
        LIBRARY OF CONGRESS
        OFFICE OF COMPLIANCE
        U.S. CAPITOL POLICE BOARD
        U.S. SENATE




                                                 S. Hrg. 109-302, Pt. 2

         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

                     COMMITTEE ON APPROPRIATIONS 

                         UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 5521

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2007, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

             Architect of the Capitol (except House items)
                          Capitol Guide Board
                      Congressional Budget Office
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                       U.S. Capitol Police Board
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpoaccess.gov/
                          congress/index.html

                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-434 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001















                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                    WAYNE ALLARD, Colorado, Chairman
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)

                         Administrative Support

                              Sarah Wilson


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Wednesday, March 1, 2006

Library of Congress..............................................     1

                       Wednesday, March 15, 2006

U.S. Senate: Office of the Secretary.............................    75
Architect of the Capitol.........................................   141

                        Wednesday, April 5, 2006

U.S. Senate: Sergeant at Arms and Doorkeeper.....................   167
U.S. Capitol Police Board........................................   199
Capitol Guide Board..............................................   217

                       Wednesday, April 26, 2006

Government Accountability Office.................................   223

                         Wednesday, May 3, 2006

Office of Compliance.............................................   269
Government Printing Office.......................................   295
Congressional Budget Office......................................   309






























 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:27 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                          LIBRARY OF CONGRESS

STATEMENT OF JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS; CHAIRMAN OF THE BOARD, OPEN WORLD 
            LEADERSHIP PROGRAM
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        JULIA HUFF, CHIEF OF OPERATIONS, COPYRIGHT OFFICE
        KURT CYLKE, DIRECTOR, BOOKS FOR THE BLIND AND PHYSICALLY 
            HANDICAPPED
        KARL SCHORNAGEL, INSPECTOR GENERAL


                   statement of senator wayne allard


    Senator Allard. The subcommittee will come to order. I am 
going to do the unprecedented thing and get us started ahead of 
time, ahead of schedule. I am told we have our witnesses here, 
everybody of interest that is going to be present for the 
hearing. So we will go ahead and get you seated for the 
proceeding, and we will start out with my making a few comments 
and then we will call on the first panelist to make their 
presentation.
    We meet today to take testimony from Dr. James Billington, 
Librarian of Congress, on the Library's budget request for 
fiscal year 2007. We welcome Dr. Billington, who is accompanied 
by Deputy Librarian Don Scott, and the Library's top team. The 
request for appropriation totals $588 million, along with 
offsetting collections of $40 million, for a total budget of 
$628 million, an increase of about 4 percent over this year's 
budget.
    This is a relatively modest request and we appreciate that 
you have not requested a large number of new projects and 
initiatives. However, within the Architect of the Capitol's 
(AOC) budget a total of $102 million is requested for Library 
buildings and grounds, including a new $54 million logistics 
warehouse for the Library. This appropriation request 
represents a 50 percent increase over the fiscal year 2006 
budget for Library buildings and grounds and will be very tough 
to accommodate.
    In particular, questions have been raised as to whether the 
design for the warehouse is gold-plated and whether more cost-
effective alternatives have been explored thoroughly.
    Other issues we would like to be updated on today include 
the status of the new National Audio-Visual Conservation Center 
(NAVCC) in Culpeper, Virginia, which I had the opportunity to 
visit in December; plans for converting the books for the blind 
and physically handicapped to digital format; and the ongoing 
realignment of the Congressional Research Service.
    Dr. Billington will also submit testimony for the record as 
chairman of the Open World Leadership Center. This program is 
slated for a $14.4 million budget, a $540,000 increase of 4 
percent over the 2006 level.
    Those are my opening comments. Now we will go to the panel 
that we have before us. I will call on Dr. Billington for his 
testimony, and also welcome General Scott. It is good to have 
you with us this morning.


                   opening statement of the librarian


    Dr. Billington. Thank you, Mr. Chairman. I really 
appreciate the opportunity to present the Library of Congress 
fiscal 2007 budget request to the subcommittee. I have provided 
details of the Library's accomplishments and goals in my 
written statement. We have approached this budget submission 
keenly aware of the fiscal challenges that this subcommittee, 
as well as the Congress as a whole, faces, Mr. Chairman.
    The Congress and the Library faces unprecedented challenges 
itself if it is to sustain in the exploding digital age its 
historic mission of acquiring, preserving, and making 
accessible the world's largest and most globally inclusive 
collection of human knowledge. That mission has never been more 
important for our service to the Congress or for our overall 
national needs than it is now in the midst of the information 
age and the globalization process.


                        workforce transformation


    In order to sustain high-quality services at a time of 
radical change in the ways knowledge is communicated and 
developed, the Library must undertake an institutional 
workforce transformation. Sixty-five percent of our budget is 
for people; 40 percent of our workforce will be eligible to 
retire by the year 2010. We need knowledge navigators imbued 
with a new set of skills, in many cases capable of seamlessly 
integrating digital materials with books and other traditional 
artifactual items, books and so forth, in order to provide 
users with comprehensive and objective knowledge that is 
useable and the practical wisdom that has always been a part of 
our democratic function.
    The Library is already leading the national effort to 
archive the Internet, an enormous task, and we must help 
develop standards for the electronic sharing of bibliographic 
records, just as the Library has historically done for the 
print world with its cataloguing records.
    Incidentally, we catalogued more than 313,000 books and 
periodicals last year, more than ever before in the Library's 
history. So the traditional needs continue as the digital 
demands explode.
    The Library must begin its transformation of functions, 
facilities, and people with the reallocation of existing 
resources. Our current process of analysis and planning adheres 
to the spirit of the Government Performance and Results Act 
(GPRA) and we will produce in calendar year 2007 a 
comprehensive strategic plan from which the budget submission 
for fiscal year 2009 will be derived, and the extended nature 
of resource needs for 2013 will be outlined. This planning 
process is already informing our budget process, but that is 
the schedule on which it will be formally implemented.


          national audio-visual conservation center--culpeper


    The 4.1 percent increase we request for fiscal 2007 is 
almost entirely for mandatory pay and price level increases. 
Our fiscal year 2007 request for the National Audio-Visual 
Conservation Center in Culpeper, Virginia, represents a 
decrease of $1.2 million from the fiscal year 2006 request. 
This project is progressing well. We expect to complete 
construction and begin moving collections and staff in May of 
this year.
    The unique facility will allow us to preserve more quickly 
and effectively hundreds of thousands of items in our 
audiovisual collection that are a critically important part of 
America's cultural heritage, but very vulnerable to degradation 
and very much in need of calibrated conservation, which we will 
be able to provide with the largest and most up to date such 
facility in the world.
    This project would not have been possible without the 
financial support of the Congress and an unusually generous 
private funding from David Woodley Packard and the Packard 
Humanities Institute.


                      acquisitions budget request


    We are very grateful for the additional resources we were 
provided in the past two fiscal years for acquisitions, but we 
are still falling behind in our all-important current 
acquisitions, which is the absolute core requirement of this 
institution so that it can properly serve the Congress and the 
Nation.
    In fiscal year 2007 I respectfully but urgently ask that 
the Congress continue supporting our acquisitions with an 
additional $2 million. These funds will allow us to continue 
collecting materials that we uniquely bring from all areas of 
the world, particularly from lesser known and lesser understood 
regions that are becoming increasingly important for our 
Nation, both for economic and security needs. It is important 
that we sustain the schedule that we have established and have 
been falling behind on for acquisitions.


                        other budget priorities


    But beyond these two important ongoing priorities, we have 
limited our budget request to three new projects, all of which 
total less than $2 million: $1 million for the Copyright Office 
to begin a record preservation project, an initiative requested 
by Congress in fiscal 2005; $781,000 to begin our workforce 
transformation by enhancing the staff digital competencies, 
career development, and recruitment; and $150,000 to begin 
preparing a major exhibition in 2009 marking the bicentennial 
of Abraham Lincoln's birth. This total project will cost $1.4 
million, will include a traveling exhibit, and will be a major 
effort for this important milestone.


                            logistics center


    Let me mention finally, as you brought up, the request in 
the Architect of the Capitol's budget for $54.2 million to 
construct a Library logistics center at Fort Meade. I 
understand and sympathize with the subcommittee's concern 
regarding the cost of this facility and I will be working with 
the Architect of the Capitol to find ways to reduce its cost. 
This facility is critically needed for the Library's day to day 
distribution and logistics needs and will provide a long-term 
cost saving to the Government by consolidating costly and 
outmoded storage space from three locations into one modern, 
safer and more secure location.


                          prepared statements


    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The statements follow:]
               Prepared Statements of James H. Billington
                          library of congress
    I appreciate the opportunity to appear before you today to discuss 
the past accomplishments and future goals of the Library of Congress in 
the context of our fiscal year 2007 budget request. I would like to 
thank this Committee for the strong support it has always shown the 
Library's programs, and I ask for your support again to ensure that the 
Library maintains its prestigious place as the world's largest 
repository of human knowledge and the main research arm of the United 
States Congress.
    With all the unique distinction that this institution has achieved 
in the print world, it now faces the unprecedented challenge of 
sustaining its leadership amidst the revolutionary changes of the 
digital world. Information-seekers now have many (and often more 
convenient) ways of finding what they need. But they are often 
overwhelmed or misled by the profusion of unfiltered and often 
inaccurate information on the World Wide Web. The Library of Congress 
must redefine its role in this new environment. This institution-wide 
process is now underway--and will be embedded in the new strategic plan 
that we are developing for the entire Library for 2008-2013.
    The budget request we have submitted to you includes the following 
basic assumptions:
  --The Library of Congress must continue to build comprehensive, 
        world-wide collections in all formats so that Members of 
        Congress, scholars, school students, and the American people 
        will have access to valid, high-quality information for their 
        work, their research, and their civic participation.
  --A comprehensive institutional workforce transformation will be 
        required for staff to continue providing the highest levels of 
        service to the Congress and to the public.
  --There is no change in the Library's historic mission of acquiring, 
        preserving, and making its materials accessible and useful to 
        the Congress and the nation. The aim is to blend the new 
        digital materials into the traditional artifactual collections 
        so that knowledge and information can be objectively and 
        comprehensively provided by an integrated library.
  --The transformation of functions, of facilities, and of people must 
        begin with a reallocation of existing resources. The current 
        process of analysis and planning will produce, in the course of 
        calendar 2006, the strategic plan that will determine the 
        extent and nature of resource needs for future budget 
        submissions.
                    the library of congress of today
    Library of Congress collections are made up of more than 132 
million artifactual items in more than 470 languages including: 30 
million books (among them more than 5,000 printed before the year 
1500); 14 million photographs; 5.2 million maps; 3 million audio 
materials; 981,000 films, television, and video items; 5.3 million 
pieces of music; 59 million manuscripts; and hundreds of thousands of 
scientific and government documents.
    And these collections continue to grow. More than 13,000 items are 
added to the Library's collections every day. These materials are 
organized, cataloged, and served to readers in on-site reading rooms 
and through cultural programs and exhibitions. A steadily increasing 
number of materials are made available free of charge on the Internet.
    The Library's collections gather in not only regularly published 
materials, but arcane reports that have limited distribution, 
international ephemera that illuminate other cultures and socio-
political movements, and special collections that have been carefully 
assessed by our curators and acquired by our donors. Among the many new 
materials acquired by the Library in fiscal year 2005 are:
  --The unique Jay I. Kislak Collection of nearly 4,000 items 
        documenting the early history of the Americas.
  --38,555 individual oral histories collected from interviews with 
        U.S. war veterans.
  --Original music manuscripts of Felix Mendelssohn, Jerome Kern, 
        George Gershwin, and Woody Guthrie.
  --The Bernard Krisher Collection, containing 450 taped interviews 
        with Asian dignitaries documenting major developments in Asia 
        from 1962-1983.
  --The personal and professional papers of the late Chief Executive 
        Officer and Publisher of the Washington Post, Katharine Graham.
  --The Cuban Exile Collection, 234 microfilm reels of materials 
        documenting the Cuban-American experience.
  --Factiva, a full-text online database of publications and up-to-the 
        minute reports and news focusing on global developments and 
        business from 118 countries in 22 languages.
  --A collection of 454 charts of the coast of China from the Chinese 
        Navy Headquarters, the Navigation Guarantee Department. A 
        complete set of modern hydrographic charts of the Chinese 
        coastline and areas of the South China Sea.
  --The American Colony of Jerusalem Collection, a Christian society 
        formed in Jerusalem in 1881 by an American, Horatio Gates 
        Spafford, and his wife Anna Lawson Spafford.
    Library of Congress services include:
  --Fulfilling our priority mission of service to the Congress through 
        the objective research and analysis done exclusively for the 
        Congress by the Congressional Research Service. Our Law Library 
        also largely serves the Congress. Overall, the Library provides 
        a wide range of services from analysis on current public policy 
        issues to responses to constituent requests.
  --In fiscal year 2005, the Library performed the following major 
        services to the Congress and its constituents:
    --Delivered more than 900,000 replies to members of Congress, 
            covering nearly 200 current policy areas and providing 
            access to 1,400 regularly updated research products.
    --Registered about 532,000 copyright claims.
    --Circulated nearly 24 million books and magazines free of charge 
            to the blind and physically handicapped.
    --Assisted local libraries all over the nation by cataloging nearly 
            313,000 books and serials--the highest number in the 
            Library's history.
    Library of Congress digital leadership includes:
  --Providing free internet access to its entire catalog, to more than 
        10 million primary documents of American history and culture, 
        to a growing body of similarly unique and multi-medial 
        materials from six other major national libraries, and to 
        extensive information about the Congress. In fiscal year 2005, 
        our web site, www.loc.gov, recorded more than 3.8 billion 
        hits--a 14 percent increase in usage over fiscal year 2004.
  --Coordinating the development and implementation of a comprehensive 
        national plan mandated by the Congress for preserving important 
        but often ephemeral materials on the Internet. The Library has 
        enlisted eight national consortia involving 36 institutions 
        across the country to share in this massive project. The 
        Library has already collected 128 terabytes; and our partners 
        are expected to collect an estimated 100 terabytes. The 
        materials include digital maps, photographs, TV programming, 
        news, and datasets.
                  building the library for the future
The Library's Vision and Strategic Plan
    The Library's vision is to sustain in the digital world of the 21st 
century its historic mission of acquiring, preserving, and making 
maximally accessible to the public and useful for the Congress a 
universal collection of human knowledge. The challenge now is to bring 
the best of the traditional library into the digital environment. This 
will require holding fast to the principles of equitable access and 
long-term preservation while seamlessly integrating new digital 
materials with traditional artifactual items and helping develop 
standards and protocols for the electronic sharing of bibliographic 
records just as the Library did for the print world with its cataloging 
records.
    The Library has developed a Library-wide framework for program 
assessment of every division and support office. Congressional support 
has already enabled us to reengineer copyright functions and to create 
a National Audio-Visual Conservation Center. And we are developing new 
roles for key staff to become objective ``knowledge navigators'' who 
can make knowledge useful from both the artifactual and the digital 
world.
    The institution is undertaking a comprehensive strategic planning 
process that adheres to the spirit of GPRA and will guide us in what 
will have to be a major transformation of our workforce. We must find 
ways to transfer the widely recognized skills of our best traditional 
librarians on to the more broadly and democratically accessible Web and 
into K-12 education which is making increasing use of the Library's 
online resources. We must continue to integrate and be open to new 
technology and best business practices library-wide--and to maximize 
fairness and diversity in building the workforce of the future.
    This work will continue in fiscal year 2006, culminating in a 
comprehensive new strategic plan for fiscal year 2008-2013, from which 
all future budget requests will be derived. Our fiscal year 2007 
request already reflects the Library's improved strategic planning 
process and has led us to ask for no new additional FTEs and a 
historically low 4 percent budgetary increase despite the many 
challenges that the Library will face in fiscal year 2007.
             the library's fiscal year 2007 budget request
    In fiscal year 2007, the Library requests a total budget of 
$628.465 million ($588.131 million in net appropriations and $40.334 
million in authority to use receipts), an increase of $24.842 million 
or 4.1 percent above the fiscal year 2006 level. The total includes 
$23.969 million in mandatory pay and price level increases and $4.896 
million in program increases, offset by $4.023 million in non-recurring 
costs.
    Requested funding supports 4,258 full-time equivalents (FTEs), a 
net decrease of 44 FTEs below the fiscal year 2006 level of 4,302.
    The Library's programs and activities are funded by four salaries 
and expenses (S&E) appropriations which support management of the 
Library, the National and Law Library Services, Copyright 
administration, Congressional Research Service, and Library Services to 
the Blind and Physically Handicapped.
    Fiscal year 2007 funding is allocated as follows:
  --Library of Congress, S&E ($409.294 million/2,902 FTEs), which 
        includes:
    --National Library ($312.590 million/2,264 FTEs)
                --National Library--Basic
                --Purchase of Library Materials (GENPAC)
                --Office of Strategic Initiatives
                --Cataloging Distribution Service
    --Law Library ($14.026 million/101 FTEs)
    --Management Support Services ($82.723 million/537 FTEs)
  --Copyright Office, S&E ($59.189 million/523 FTEs)
  --Congressional Research Service, S&E ($104.279 million/705 FTEs)
  --Books for the Blind and Physically Handicapped, S&E ($55.703 
        million/128 FTEs)
                    the library's funding priorities
Mandatory Pay and Price Level Increases
    The Library is requesting an additional $23.969 million to maintain 
current services. This is the amount needed to support the 
annualization of the fiscal year 2006 pay raise, the fiscal year 2007 
pay raise, within grade increases, and unavoidable inflation and vendor 
price increases. These funds are needed simply to sustain current 
business operations and to prevent a reduction in staff that would 
severely affect the Library's ability to manage its programs in support 
of its mission and strategic objectives.
Unfunded Mandates
    The Library is requesting $2.171 million for one unfunded mandate: 
the Department of State (DOS) Capital Security Cost-Sharing Program.
    In fiscal year 2005, the DOS, mandated by the Executive branch, 
began its 14-year program to finance the construction of approximately 
150 embassy compounds, requiring increasing contributions from all 
agencies with an overseas presence, including the Library. The Library 
has argued that the DOS methodology for assessing agencies is unfair 
since it is based on the number of overseas personnel rather than on 
actual services or space provided by DOS in diplomatic facilities. The 
Library's yearly assessment was $1.2 million in fiscal year 2005 and 
$2.4 million in fiscal year 2006. The proposed bill for fiscal year 
2007 is $4.572 million, an increase of $2.171 million. If funding is 
not provided for the next phase of the program, the Library will have 
insufficient resources to operate its overseas offices. This would 
result in the curtailment--and in some cases termination--of 
international acquisitions programs in areas that are of increasing 
importance to the nation (Islamabad, Cairo, Jakarta, Nairobi, New Delhi 
and Rio de Janeiro). The Library continues to negotiate with the DOS 
and will alert the Committees if DOS agrees to any downward adjustments 
of their assessment.
Major Ongoing Projects
    The Library is requesting $794,000 for two ongoing major projects 
that are either in their last year of development or on a time-
sensitive schedule that must be maintained if the entire project is to 
succeed.
  --National Audio-Visual Conservation Center (NAVCC), Culpeper, VA.--A 
        five-year plan for the completion of NAVCC was included in the 
        Library's fiscal year 2004 budget. Fiscal year 2007 represents 
        the fourth year in the Library's five-year cost model, which is 
        adjusted annually to align with shifts in the construction 
        schedule of the Packard Humanities Institute and the Library's 
        occupancy schedule. In 2005, the Phase 1 Central Plant was 
        turned over to the AOC and the Collections Building to the 
        Library. In 2006, construction will be completed and the entire 
        property transferred to the government. Staff relocations will 
        take place, as will the procurement and integration of digital 
        preservation equipment and systems within the NAVCC's audio-
        visual conservation facility. Funding is needed in fiscal year 
        2007 to continue purchasing equipment for the facility as well 
        as for operations support. Total requested fiscal year 2007 
        funding of $13.9 million reflects a net decrease of $1.206 
        million and -6 FTEs from fiscal year 2006.
  --Acquisitions (GENPAC/Electronic Materials).--Advances in technology 
        have opened opportunities for the Library to acquire materials 
        from parts of the world about which, until recently, there had 
        been little knowledge. National interest, especially with 
        respect to security and trade, dictates that we acquire 
        emerging electronic publications and other difficult-to-find 
        resources that document other cultures and nations. The GENPAC 
        appropriation, which funds the purchase of all-important 
        current collections materials, declined precipitously in its 
        purchasing power during the 1990s. Consistent with our fiscal 
        year 2005-2006 budget requests for a multi-year, $4.2 million 
        base increase to the GENPAC budget, the Library is requesting 
        the next incremental adjustment of $2 million, which will bring 
        the total base adjustment up to $3.3 million. Funding is needed 
        to help keep pace with the greatly increased cost of serial and 
        electronic materials that risks seriously eroding the 
        foundation of the many services provided by the Library to the 
        Congress and the nation.
New Projects
    The Library is requesting $1.931 million for three new critical 
initiatives as follows:
  --Copyright Records Preservation.--A six-year, $6 million initiative 
        is needed to image digitally 70 million pages of pre-1978 
        public records that are deteriorating, jeopardizing the 
        mandatory preservation of, and access to, these unique records 
        of American creativity. In fiscal year 2007, the Library is 
        requesting the first $1 million, which will permit the scanning 
        of 10 million page images.
  --Workforce Transformation Project.--Renewal and development of the 
        Library workforce is essential to retrain staff with the 
        necessary skills for the digital age, and to capture for the 
        future the vast knowledge of large numbers of experienced staff 
        who are near retirement. In fiscal year 2007, the Library will 
        begin a program to enhance digital competencies, leadership 
        skills, career development, recruitment, and other workforce 
        counseling and services. These activities are particularly 
        important for sustaining the Library's commitment to a diverse 
        workforce. Funding of $781,000 is requested, and will support 
        initiatives to:
    --Define and develop digital competencies
    --Build an aspiring leaders program for GS 5-9 employees
    --Enhance Library-wide training through the Center for Learning and 
            Development
    --Create a summer intern recruitment program and a talent pool for 
            permanent employment
    --Expand interpreting services.
  --Abraham Lincoln Bicentennial Exhibition.--The Library is planning a 
        major Abraham Lincoln Bicentennial Exhibition in 2009. The 
        exhibition will be a centerpiece of the nationwide celebration 
        to mark the bicentennial of Lincoln's birth. The Library will 
        draw on its unparalleled Lincoln materials to focus on 
        Lincoln's rise to national prominence and the thinking and 
        writing that underlie his career. A total of $1.442 million 
        will be needed for this project, of which $150,000 is requested 
        in fiscal year 2007. The balance of $1.292 million will be 
        requested in fiscal year 2008. Multi-year (3 year) authority is 
        requested for the fiscal year 2007 funding. Funding will 
        support the design of the exhibition and travel needed to visit 
        other venues and/or other institutions that will be lending 
        materials to the Library exhibition.
Other Program Changes
    Congress created and passed the Library of Congress Digital 
Collections and Educational Curricula Act of 2005. Beginning in fiscal 
year 2006, the Act moved the administrative and programmatic ownership 
of the Adventure of the American Mind (AAM) from the Educational and 
Research Consortium to the Library.
    While no additional funding is requested in fiscal year 2007 for 
the Library's new AAM National Program, the Library is requesting a 
change in the way the base funding of $5.801 million is used. Whereas 
this entire amount was earmarked for grants in fiscal year 2006, we 
would like the fiscal year 2007 funding to support both administrative 
($1.791 million) needs and grant awards ($4.01 million). In addition, 
the Library will begin developing standards-based, field-tested 
curricula, using a train-the-trainer model to create a network of 
partners from all parts of the country.
  architect of the capitol--library of congress buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC is 
requesting an fiscal year 2007 budget of $102.2 million, of which 
$62.265 million supports projects specifically requested by the 
Library. Included is $54.2 million to construct a 166,000 square foot 
logistics warehouse at Fort Meade, replacing and consolidating current 
long-term and temporary facilities leased and maintained by the 
Library.
    The significant increase over the fiscal year 2006 budget request 
level is the result of deferring maintenance and upgrades to the 
Library's buildings on Capitol Hill and the delays in the Fort Meade 
construction plan. Costs are higher because more maintenance and 
upgrade projects need to be completed concurrently. Deferments and 
delays have created longer lists of projects. The cost increase is 
compounded by inflationary pressures and by the steadily growing risks 
in health, safety, and security to the Library's staff and collections. 
The cost of maintenance and upgrades will increase exponentially if the 
Library cannot stop, or at least slow down, the rate of deterioration 
of its buildings, and return to its construction plan and schedule.
                proposed changes to legislative language
    The Library has proposed language to improve employment options 
elsewhere in the Federal Government for Library staff. The first 
provision confers competitive status to Library employees who have 
successfully completed their probationary period at the Library--the 
basic eligibility to be noncompetitively selected to fill vacancies in 
the competitive service of the Federal Government. This will enable 
Library staff to apply for positions in the executive branch on an 
equal footing with ``career'' executive branch employees. A related 
provision would enhance the employability of Library employees 
displaced because of a reduction in force (RIF) or failure to accept a 
transfer to an alternative work location. This provision would give 
staff who have been separated, priority for selection for competitive 
service positions comparable to that enjoyed by separated employees 
from other federal agencies.
    We also propose new appropriation language to address the 
requirement specified in the Cooperative Acquisitions Program Revolving 
Fund legislation (CAP), Public Law 105-55, that the revolving fund 
receive its own audit by March 31 following the end of each fiscal 
year. The Library requests that the March 31 audit requirement be 
rescinded and that the CAP be subject to the same audit requirement as 
the Library's other revolving funds.
    The fiscal year 2006 administrative provision limiting the 
Library's assessment for embassy construction to equal to or less than 
the unreimbursed value of the services provided to the Library on State 
Department diplomatic facilities must also be maintained in fiscal year 
2007.
                               conclusion
    The Library of Congress' priorities expressed in the fiscal year 
2007 budget request have a common theme: that of enhancing and 
transforming the staff, the collections they manage, and the buildings 
that house them. These requests will make it possible for the Library 
to improve the quality of its service in keeping with the high ideal of 
a knowledge-based democracy and a creativity-enhancing society. This 
budget will help us prepare for the many changes needed to sustain and 
expand the opportunities for a free people to benefit from an open and 
universal stream of knowledge and information. The Library looks 
forward to working with and for the Congress as we seek to build these 
opportunities in fiscal year 2007, and in the years ahead.
                                 ______
                                 
                      open world leadership center
    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to present testimony on the Open World Leadership Center's 
budget request for fiscal year 2007. The Center, whose board of 
trustees I chair, conducts the only foreign-visitor program in the U.S. 
legislative branch and sponsors the largest U.S.-Russia inbound 
exchange. All of us at Open World are very grateful for our home and 
support in the legislative branch and for congressional participation 
in our programs and on our governing board. The Consolidated 
Appropriations Act passed in December 2004 made the chair of this 
subcommittee ex officio a member of Open World's board, and my fellow 
trustees and I are pleased and honored to have you join us, Mr. 
Chairman. We look forward to working with you as we make important 
decisions on the future of Open World.
    During an important year of assessment and change, the Board and 
staff began to review all aspects of the program in order to produce in 
fiscal year 2006 a comprehensive strategic plan for the future. This 
review is being led by Board member James Collins, who played a key 
role in launching the program when he was Ambassador to Russia.
    Geraldine Otremba completed her outstanding leadership of the able 
and dedicated staff of the Center in September 2005. Aletta Waterhouse, 
who had also done great work with the program from its beginning, 
served very well as Interim Executive Director. The Board will name a 
new Executive Director in early spring of 2006.
    The Center's budget request of $14.4 million (Appendix A) for 
fiscal year 2007 reflects an increase of $0.54 million (4.0 percent) 
over fiscal year 2006 funding. This funding will enable the Center to 
continue its proven mission of hosting young leaders from Russia; 
expand its important program for Ukraine; and conduct smaller programs 
for such other countries as the Board of Trustees will approve in 
consultation with the Appropriations Committees. The budget increase 
over fiscal year 2006 is due to increases of salaries and benefits (11 
percent of increase), airfares and impact of changing exchange rates 
(60 percent of increase), and domestic transportation, per diem and 
other programmatic costs (29 percent).
    In 2005, Open World welcomed its 10,000th participant in its sixth 
year of operation. We began calendar year 2005 by organizing a major 
post-Orange Revolution exchange to six U.S. states for Ukrainian 
judges, election experts, NGO managers, and journalists. We ended the 
year with a local-government study tour in Maine for a delegation from 
the Solovetsky Islands, home to one of the Soviet Union's first prison 
camps and one of Russia's greatest monasteries.
    Open World brought 1,552 Russians and Ukrainians to the United 
States in calendar 2005 to work with their American counterparts while 
experiencing our democracy and civil society. The Chief Justice of the 
Russian Supreme Court had planning sessions at the U.S. Supreme Court 
on U.S.-Russian judicial cooperation; two teams of Russian child-trauma 
experts helping Beslan victims consulted with Pennsylvania social 
agencies on their mental and social support services, and a delegation 
of Ukrainian journalists shared their experiences during the Orange 
Revolution at a forum in Cincinnati.
    Open World's plans for calendar year 2006 include programs on 
accountable governance for officials from municipalities created under 
Russia's recent law on local self-governance; expanding our two-year-
old exchange for Ukrainian leaders; and providing programs on elections 
to both Russian and Ukrainian leaders. We will also continue our rule 
of law program, which has benefited so much from the involvement of 
U.S. Supreme Court justices and many other prominent members of the 
American judiciary, including Chief U.S. Bankruptcy Judge Sidney B. 
Brooks of Denver, Colorado, and U.S. District Judge Michael M. Mihm of 
Peoria, Illinois. As I discuss below, this calendar year the Center's 
board--in consultation with the members of the Appropriations 
Committees--must also make important decisions about whether and where 
Open World should expand in Eurasia.
Program Leadership
    Senator Ted Stevens (AK) serves as honorary chairman of the Open 
World Leadership Center's board. The congressionally appointed members 
are Senate Majority Leader Bill Frist (TN), Senator Carl Levin (MI), 
and Representative Robert E. ``Bud'' Cramer (AL). The second 
congressionally appointed seat reserved for a member of the House of 
Representatives is currently vacant. Public Law 108-447, as amended by 
Public Law 109-13, added to the Board the chair of the Committee on 
Appropriations of the House of Representatives or designee and the 
chair of the Subcommittee on Legislative Branch of the Committee on 
Appropriations of the Senate. Former U.S. Ambassador to Russia James F. 
Collins, Walter Scott, Jr., Chairman of Level 3 Communications, former 
Representative Amo Houghton, and former U.S. Ambassador to Spain George 
Argyros are the current citizen members. I sit on the Board in my 
capacity as Librarian of Congress, and I currently serve as chairman. 
The Board of Trustees met on December 5, 2005, and reviewed the budget 
request and program plans presented below.
            Program Objectives:
    Open World program enhances professional relationships and 
understanding between political and civic leaders of participating 
countries and the United States. It is designed to enable emerging 
young leaders from the selected countries to:
  --build mutual understanding with their U.S. counterparts and share 
        approaches to common challenges;
  --observe U.S. government, business, volunteer, and community leaders 
        carrying out their daily responsibilities;
  --experience how the separation of powers, checks and balances, 
        freedom of the press, and other key elements of America's 
        democratic system make the government more accountable and 
        transparent;
  --develop an understanding of the U.S. free enterprise system;
  --learn how U.S. citizens organize and take initiative to address 
        social and civic needs;
  --participate in American family and community activities; and
  --establish lasting professional and personal ties with their U.S. 
        hosts and counterparts.
    Open World provides the highest-caliber program for the U.S. visit 
so that Open World participants return to their countries with a 
meaningful understanding of America's democracy and market economy.
    Open World has refined and focused on a few key themes central to 
democracy-building in order to improve the quality and focus of the 
U.S. program.
    The catalytic effect of the 10-day U.S. stay is extended by 
fostering continued post-visit communication between participants and 
their American hosts and contacts, their fellow Open World alumni, and 
alumni of other USG-sponsored exchange programs.
    In calendar 2005, Russian alumni participated in 168 interregional 
conferences, workshops, meetings, and professional seminars sponsored 
by Open World. A major conference for the program's Lithuanian alumni 
was held in the capital city of Vilnius, and three events were held for 
alumni in Ukraine.
    Open World's multilingual website with online forums (and assisted 
Russian/English translation for cross-cultural communication) helps 
maintain communication among delegates, American hosts, and other 
interested parties. Open World also operates two listservs for Russian 
alumni, one with news of grants, competitions, and other sources of 
financial support, the other with weekly updates on Open World news and 
announcements and opportunities for cooperation and partnership with 
fellow alumni. All alumni activities and the website are supported 
through private funding.
Measures of Success
    In addition to conducting the qualitative assessments described 
above, the Center also tracks quantitative program performance measures 
to ensure that Open World is meeting its mission of focusing on a 
geographically and professionally broad cross-section of emerging 
leaders who might not otherwise have the opportunity to visit the 
United States:
  --Delegates have come from all the political regions of Russia and 
        virtually all those of Ukraine, Lithuania, and Uzbekistan.
  --84 percent of Russian participants live outside Moscow and St. 
        Petersburg.
  --More than 5,000 federal, regional, and local government officials 
        have participated, including 156 members of parliament and 935 
        judges.
  --The average age of Open World delegates is 38.
  --92 percent of delegates are first-time visitors to the United 
        States.
  --Only 12.5 percent of delegates report having ``above average'' or 
        better English-language skills. (Several U.S. exchange programs 
        require some English-language skills. By not requiring 
        knowledge of English, Open World is able to choose from a much 
        larger candidate pool of young leaders. Interpretation is 
        provided for all Open World delegations.)
  --49 percent of delegates are women. (Women did not have significant 
        leadership opportunities in the Soviet Union.)
  --The distribution of delegates among Russia's seven ``super-
        regions'' roughly matches that of the country's general 
        population.
Open World in America
    Open World delegates are hosted by a large and dedicated group of 
American citizens who live in cities, towns, and rural communities 
throughout the United States:
  --Since Open World's inception in 1999, more than 5,300 U.S. families 
        have hosted participants in more than 1,500 communities in all 
        50 states.
  --In 2005, the 204 locally based Open World host organizations in 147 
        congressional districts included universities and community 
        colleges, library systems, Rotary clubs and other service 
        organizations, sister-city associations, courts, and 
        nonprofits.
    American hosts' generosity toward and enthusiasm for Open World are 
a mainstay of the program. In 2005, interested host communities' demand 
for Open World visitors exceeded supply by 34 percent. Americans' 
enthusiasm for the Open World Program is reflected in their generous 
giving. In 2005, Americans gave an estimated $1.9 million worth of in-
kind contributions through volunteer home hosting of delegates, a ratio 
of one dollar in contributions for every seven dollars in appropriated 
funds.
    Visiting delegates, in turn, have impacted American communities by 
sharing ideas with their professional counterparts, university faculty 
and students, governors and state legislators, American war veterans, 
and other American citizens in a variety of forums such as group 
discussions, Rotary Club breakfasts, and town hall meetings.
    During a 2005 Open World visit to Appleton, Wisconsin, for example, 
a Russian delegate from Kurgan Region, which borders Kazakhstan, 
proposed an idea at a Rotary club event. Since there were so many World 
War II veterans in attendance, the delegate suggested an exchange of 
letters between Wisconsin World War II veterans and their Kurgan 
counterparts. One such letter from a member of the Appleton-Kurgan 
Sister City Program reads, in part:

    ``WWII efforts created a significant result in history and provided 
a great victory which was achieved with the help of the Russians for 
the benefit of the world. Many people, especially among our Russian 
friends, lost family members . . . Some of my schoolmates lost their 
lives as well. They made the ultimate sacrifice from which all of us in 
the years since the war have benefited.''

    Students from Appleton North High School became interested in the 
correspondence and decided to interview local veterans, record their 
stories digitally, and make them available online. The letters also 
inspired an op-ed article in the local paper on Memorial Day last year 
and will be displayed at the Appleton Public Library. We understand the 
U.S. Consulate in Yekaterinburg as well as Fox Cities Online are 
interested in displaying the letters on their websites. In short, the 
Open World delegation's visit to Wisconsin is having a wide ripple 
effect.
    Two other examples of interchanges that benefited the American host 
communities come from Urbana, Illinois, and Harrisburg, Pennsylvania. 
In Urbana, a visiting Open World rule of law delegate made a detailed 
presentation on the differences between the Russian and American court 
systems to the Champaign County circuit court judges, state's attorney, 
and public defender; this was followed up by a lively question and 
answer session. And in Harrisburg, the two Open World teams of child-
trauma experts working with Beslan victims shared their harrowing 
experiences and the latest information on Russian child-trauma theory 
and practice during presentations to social-service providers and 
community leaders.
    As a result of the Open World Program, American professional 
leaders are also expanding their own international networks, opening up 
multiple channels of dialogue to integrate new ideas and values. Today 
one of the best ways to connect with the Supreme Court of Ukraine might 
be through Charles R. Simpson III, a federal district court judge in 
Louisville, Kentucky. One of Judge Simpson's 2005 Open World delegates, 
Ukrainian appellate judge Tatyana Valentinovna Shevchenko, recently e-
mailed him with the news that she had just been appointed to her 
country's high court.
The Importance of Russia
    The Board believes that Open World should maintain a high level of 
hosting from Russia. As Secretary of State Condoleezza Rice stated in a 
February 12, 2006 interview, we must challenge ``Russia as a whole . . 
. the Russian people, to fully integrate [democratic institutional] 
values into their future.'' Michael McFaul of the Carnegie Endowment 
for International Peace recently asserted the need for ``exchanges, 
connections, anything that increases connectivity between Russian and 
American society.''
    The Open World Program is playing a growing role in helping 
Russia's emerging leaders experience first hand the workings of our 
democratic institutions to. The ranks of Russian Open World 
participants include:
  --719 senior regional administrators and 163 regional legislators;
  -- more than 1,000 mayors, city council members, municipal 
        departmental heads, and executive-level city officials;
  --887 judges;
  --588 NGO directors; and
  --188 print editors and 68 heads of TV and radio stations.
    In addition, the Open World experience has contributed to the 
establishment or strengthening of 65 sister-organization and Rotary 
International partner relations, including 17 partnerships between U.S. 
and Russian legal communities.
Calendar Year 2005 Activities
            Russia
    Among the 1,410 Russian participants in calendar year 2005, 
delegates came from a wide range of regional ethnic groups, and had 
hosting experiences in 47 U.S. states and the District of Columbia. 
Open World's hosting themes were economic development, the environment, 
health and social services, rule of law, women as leaders, and, for the 
first time, local governance. Under the health/social services theme, 
several Open World teams concentrated on AIDS prevention and treatment, 
disability issues, or substance abuse prevention and treatment. Open 
World also hosted two delegations of Russian nonproliferation 
specialists who worked with their counterparts at two U.S. Department 
of Energy national laboratories.
    A highlight of our 2005 Russia program was a rule of law exchange 
hosted by Chief U.S. Bankruptcy Judge Sidney B. Brooks of Denver, 
Colorado, for a high-level delegation of Russian Supreme Commercial 
Court justices and regional commercial-court chief judges. The Russians 
held talks with federal and state judges and University of Denver law 
professors, observed court proceedings, took a workshop on alternative 
dispute resolution, and were briefed by the state attorney general on 
his office's role and structure. The delegates also attended the U.S. 
district court's weekly press briefing and analyzed it with court staff 
afterward. Thanks to the relationships established by this and earlier 
commercial-court exchanges, the head of Russia's Supreme Commercial 
Court will visit the United States later this month on a trip supported 
by the Department of State and Open World.
    As a result of legislation passed in 2003, the Open World Russia 
program now also includes up-and-coming arts administrators and artists 
in a range of media--important leaders to the development of a 
democratic society. Support from the National Endowment for the Arts 
enables the Russian Cultural Leaders Program to offer two- and three-
week residencies to these participants. The 2005 cultural program were 
brought Russian writers to the University of Mississippi to participate 
in the Oxford Conference on the Book, and brought Russian documentary 
filmmakers to the Athens Center for Film and Video in Athens, Ohio, for 
an intensive residency.
            Ukraine
    Ukraine was selected in 2003 for an Open World program because of 
its strategic position in Eurasia, its large and educated population, 
and its important potential contribution to regional stability.
    The 142 young Ukrainian leaders that Open World welcomed in 
calendar year 2005 were hosted in 14 states and the District of 
Columbia. The theme for Ukraine in 2005 was ``civil society,'' with 
subthemes in independent media, electoral processes, NGO development, 
and rule of law. Open World initiated a judge-to-judge program similar 
to its highly successful judicial exchange with Russia. Forty-two 
Ukrainian judges, including a Supreme Court justice and two members of 
the Supreme Commercial Court, were hosted in eight different states. In 
a number of the American communities that hosted Ukrainian leaders, the 
impact of the Orange Revolution was discussed in presentations, 
roundtables, and panels.
    The September 13, 2005 mayoral primary in Cincinnati provided the 
backdrop for one of this year's most successful Ukrainian exchanges: a 
study trip on American media and elections for a delegation of print 
and broadcast journalists. Hosted locally by the Cincinnati-Ukraine 
Partnership, the delegates observed mayoral candidates being 
interviewed by the press, spent a half day with key editors of the 
Cincinnati Enquirer, had a workshop on public relations and the press, 
and observed balloting at the Board of Elections on election night. 
They also sat in on newspaper editorial meetings and a live television 
news broadcast, allowing them to feel, as one delegation member said, 
like ``part of the editorial team.''
Open World 2006 and Plans for 2007
    For 2006, the Board of Trustees approved continuing the successful 
Open World programs for Russia (civic, cultural, and rule of law) and 
the rule of law and civic programs for Ukraine. I appointed a panel to 
assess and make recommendations for Board consideration on four major 
issues: (1) whether Open World should expand to other countries, and if 
so, which, (2) whether country programs should be linked by region, (3) 
what the scope and nature of alumni programs should be, and (4) what 
improvements could be made to the Russia and Ukraine programs. The 
panel will submit an overall strategic plan for board approval by June 
2006. The Board will notify the Appropriations Committee of any 
countries selected for new Open World programs. Any program expansion 
will be initiated in calendar 2006 and fully implemented in 2007. By 
September 30, 2006, Open World will finish implementing the financial 
management and administrative recommendations in the Government 
Accountability Office's March 2004 report on Open World.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 participants total. Actual 
allocations of hosting to individual countries will be adjusted to 
conform to Board of Trustees recommendations and consultation with the 
Appropriations Committees. The requested funding support is also needed 
for anticipated fiscal year 2007 pay increases and to cover the 
Department of State Capital Security Cost Sharing charge for the 
Center's two Foreign National Staff.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($1.197 million)
  --Contracts ($8.48 million--awarded to U.S.-based entities) that 
        include: Coordinating the delegate nomination and vetting 
        process; obtaining visas and other travel documents; arranging 
        and paying for air travel; coordinating with grantees and 
        placing delegates; and providing health insurance for 
        participants.
  --Grants ($4.72 million--awarded to U.S. host organizations) that 
        include the cost of providing: Professional programming for 
        delegates; meals outside of those provided by home hosts; 
        cultural activities; local transportation; professional 
        interpretation; and administrative support.
                               conclusion
    The fiscal year 2007 budget request will enable the Open World 
Leadership Center to continue to make major contributions to an 
understanding of democracy, civil society, and free enterprise in a 
region of vital importance to the Congress and the nation. This 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.
    I thank the Subcommittee for its continued support of the Open 
World Program.

   APPENDIX A.--OPEN WORLD LEADERSHIP CENTER BUDGET--FISCAL YEAR 2007
------------------------------------------------------------------------
                                                            Fiscal year
                       Description                        2007 estimated
                                                            obligations
------------------------------------------------------------------------
11.1 Personnel Compensation.............................        $944,100
12.1 Personnel Benefits.................................         252,400
21.0 Travel.............................................          97,500
22.0 Transportation.....................................           2,200
23.0 Rent, Comm., Utilities.............................           8,100
24.0 Printing...........................................           4,100
25.1 Other Services/Contracts...........................       8,386,000
26.0 Supplies...........................................           4,100
31.0 Equipment..........................................          16,500
41.0 Grants.............................................       4,685,000
                                                         ---------------
      Total, fiscal year 2007 budget request............      14,400,000
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of Marybeth Peters, The Register of Copyrights
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the Copyright Office's fiscal year 2007 budget 
request.
    The Copyright Office is requesting the Committee's approval of four 
program changes for the Copyright BASIC appropriation. There are three 
offsetting collections authority changes and one in net appropriations. 
In offsetting collections, we are requesting a $1,590,901 decrease in 
the Reengineering Program funding due to fewer funds in the no year 
account, an $850,000 decrease due to a decrease in renewal receipts, 
and a $600,000 increase due to an overall increase in receipts from 
other service fees. In new net appropriation authority, the Office 
requests $1 million to digitally image the pre-1978 public records to 
mitigate the risk of loss and to make them available online. I will 
discuss these requests in more detail, after I provide an overview of 
the Office's work and accomplishments.
          review of copyright office work and accomplishments
    The Copyright Office's mission is to promote creativity by 
sustaining an effective national copyright system. We do this by 
administering the copyright law; providing policy and legal assistance 
to the Congress, the administration, and the judiciary; and by 
informing and educating the public about our nation's copyright system. 
The demands in these areas are growing and becoming more complex with 
the evolution and increased use of digital technology.
    I will briefly highlight some of the Office's current and past work 
and our plans for fiscal year 2006.
Policy and Legal Work
    We have continued to work closely with the Senate Committee on the 
Judiciary, its Subcommittee on Intellectual Property, and its House 
counterpart. In May, I testified before the Senate Subcommittee on 
International Piracy of Intellectual Property, highlighting the fact 
that piracy is one of the most enduring copyright problems throughout 
the world and the Office's efforts, together with other Federal 
agencies, to reduce piracy to the lowest levels possible.
    I also testified twice last year on ways to modernize music 
licensing in a digital world. In June, I testified before the House 
Subcommittee and in July, I testified before the Senate Subcommittee. 
During the first hearing, I focused on the possibility of permitting 
``music rights organizations'' to license on a consolidated basis both 
the public performance right of a musical work as well as its 
reproduction and distribution rights. In the second hearing, I 
considered alternative solutions to the music licensing dilemma, 
including a blanket statutory license for digital phonorecord 
deliveries. These hearings and meetings with representatives of the 
affected industries produced a consensus that Section 115 of the 
copyright law should be modernized to reflect the needs and realities 
of the online world. However, there was no agreement as to how such 
modernization should be structured and implemented. Further work is 
needed in this area and I will continue to work with the interested 
parties and Congress on legislative solutions to the music licensing 
problem in this and the next fiscal year.
    I testified before the Senate Committee on the Judiciary in 
September to examine legal and policy issues in the wake of the Supreme 
Court's June 27, 2005, decision in Metro-Goldwyn-Mayer Studios, Inc. v. 
Grokster, Ltd. which clarified the doctrine of secondary liability as 
it would apply to those who offer products and services in a way that 
induces others to engage in copyright infringement. I testified that 
the Court's ruling seemed to strike an appropriate balance between the 
rights of copyright holders and the flexibility necessary to enable and 
encourage technologists to continue to develop new products and, thus, 
there was no immediate need for new legislation. I used the word 
``seemed'' because, at the time of the hearing, only three months had 
passed since the ruling and it was simply too early to tell whether 
Grokster would provide sufficient guidance for the years and 
circumstances to come.
    The Office implemented a new preregistration system, as required by 
the Family Entertainment and Copyright Act of 2005, Public Law 109-9, 
within the statutory six-month time frame. Preregistration of an 
unpublished work being prepared for commercial distribution allows a 
copyright owner to bring an infringement action before the authorized 
publication of the work and full registration, making it possible, upon 
full registration, to recover statutory damages and attorney fees. The 
electronic preregistration filing system became operational on November 
15, 2005.
    The Office also conducted two studies in 2005. First, Senators 
Orrin Hatch and Patrick Leahy requested that we examine the issue of 
``orphan works,'' copyrighted works whose owners are difficult or 
impossible to locate, to determine whether there are compelling 
concerns that merit a legislative, regulatory or other solution; and if 
so, what type of solution could effectively address these concerns 
without conflicting with the legitimate interests of authors and right 
holders. As part of our efforts to produce this study, the Office 
collected over 850 written comments from the public and held roundtable 
meetings with dozens of interested parties in the summer of 2005 in 
both Washington, D.C. and Berkeley, CA. The Report on Orphan Works was 
delivered to Congress in January 2006. Second, at the request of 
Congress, we have also conducted a study to examine the harm to 
copyright owners whose programming is retransmitted by satellite 
carriers under a statutory license in Section 119. This report was also 
delivered to Congress in January 2006.
    In addition, the Office has initiated its triennial rulemaking on 
exceptions from section 1201 prohibition on circumvention of 
technological measures that control access to copyrighted works and has 
received public comments. In addition, we will conduct hearings in 
Washington, D.C. and Palo Alto, CA. to elicit further information from 
the public. The study will be concluded in fiscal year 2007, at which 
time, I will make my recommendations to the Librarian of Congress on 
classes of works that should be exempted from the section 1201 
prohibition on circumvention.
    We have also been actively involved in the implementation of the 
Copyright Royalty and Distribution Reform Act of 2004 (CRDRA), Public 
Law 108-419, which became effective on May 31, 2005. This Act phases 
out the Copyright Arbitration Royalty Panels (CARPs), a program 
administered by the Copyright Office, and replaces them with a new 
Library program which is independent of the Copyright Office and 
employs three full-time Copyright Royalty Judges (CRJs) and three 
staff. This organization is known as the Copyright Royalty Board. At 
the outset of the program, I worked diligently with my colleagues to 
identify and recruit the three highly qualified individuals who the 
Librarian appointed to the Board in January 2006.
    The primary responsibilities of the CRJs, as with the CARPs which 
preceded them, are to set rates and terms for the various statutory 
licenses contained in the Copyright Act and to determine the 
distribution of royalty fees collected by the Copyright Office pursuant 
to certain of these licenses. The CRJs have the additional 
responsibility to promulgate notice and recordkeeping regulations to 
administer some of the statutory licenses. In accordance with the rate 
setting schedule set forth in the law, the Board has initiated three 
rate setting proceedings and it will conduct hearings in fiscal year 
2007 to set rates for the transmission of sound recordings over the 
internet.
    We have worked closely with the Board to insure a smooth transition 
from the old system to the new and we have taken steps to conclude open 
and pending distribution and rate setting proceedings that were 
commenced under the Copyright Arbitration Royalty Panel (CARP) program. 
The conclusion of these proceedings, however, does not end my 
involvement in the determination of statutory rates and distributions 
of royalty fees. Under the Reform Act, the Board must seek a legal 
opinion from me on any novel question of copyright law and may seek a 
written determination on other material questions of substantive law. 
Such determinations shall be binding as precedent upon the Copyright 
Royalty Judges in subsequent proceedings.
    During fiscal year 2007, we will continue to take an active role in 
a number of important copyright cases, many of which challenge the 
constitutionality of various provisions of the Copyright Act, and 
continue to provide ongoing advice to executive branch agencies on 
international matters, particularly, the United States Trade 
Representative, the Department of Commerce, and the Department of 
State; and participate in numerous multinational, regional and 
bilateral negotiations.
Registration and Recordation
    Registration of claims to copyright, including renewals, and 
recordation of documents, such as assignments, security interests, and 
mergers, are critical parts of the U.S. copyright system. Timely 
registration secures to owners certain benefits and provides a public 
record of copyright ownership. The Office has significantly improved 
its delivery times for these services since 2001.
    During fiscal year 2005, the Copyright Office received 600,535 
claims to copyright covering more than a million works and registered 
531,720 claims. The Office maintained an average of 80-90 days to issue 
a registration certificate, a significant improvement over processing 
times at the beginning of the decade. We also reduced the average 
processing time for the creation and posting of online copyright 
records by 50 percent.
    The Copyright Office records documents relating to copyrighted 
works, mask works, and vessel hull designs and creates records of those 
documents. These documents frequently concern popular and economically 
significant works. The Office recorded 11,874 documents covering more 
than 350,000 titles of works in fiscal year 2005. The average time to 
record a document was 50-60 days.
    These achievements took place during a period marked by a 
significant investment of staff resources to reengineer Copyright 
Office processes and to move online copyright records from legacy 
systems to a database in Endeavor System's Voyager.
    We expect a significant decrease in renewal registrations in 2007, 
due to the expiration of the renewal provision in the law. Renewal 
registrations only apply to works that were copyrighted before January 
1, 1978, the effective date of the current copyright law. Before 1978, 
if a work was published with the required notice of copyright or an 
unpublished work was registered in the Copyright Office, it received an 
initial term of copyright protection of 28 years, and a renewal term 
that initially was 28 years and today is 67 years. To receive the 
renewal term, a renewal registration had to be made in the last year of 
the initial term, i.e., the 28th year. The last date for 28th year 
renewals was December 31, 2005.
    The law was changed in 1992 to make renewal registration voluntary. 
This law applies to works copyrighted between January 1, 1964, and 
December 31, 1977. There were certain benefits gained by renewing in 
the 28th year, but if no renewal claim was registered in the 28th year 
of the term, renewal was automatically secured on the last day of that 
year. However, even if renewal is automatically secured, i.e., no 
renewal application was submitted in the 28th year of the initial term 
of copyright, a renewal claim may be submitted after the 28th year and 
some benefits flow from such a registration. A number of such 
registrations are made each year and we expect to receive 2,000 to 
3,000 renewals in this category compared to the 16,000 to 18,000 
renewals we have been receiving per year.
    The President signed the Family Entertainment and Copyright Act 
(FECA), Public Law 109-9, on April 27, 2005. As mentioned earlier, this 
legislation amended the copyright law by the addition of a new 
provision, Sec. 408(f), establishing preregistration. Preregistration, 
as distinct from registration, is available only for unpublished 
copyrighted works in categories that the Register of Copyrights finds 
to have had a history of infringement prior to commercial distribution. 
Unlike registration, preregistration requires only an application which 
includes a description of the work and a fee. Preregistration is an 
online service only; it is part of the new information technology 
system called eCO (Electronic Copyright Office). From April 2005 
through the end of the fiscal year, the Office completed intensive work 
to prepare the electronic preregistration application form and help 
text, and to do the related IT development, process analysis, and 
training required to implement on November 15, 2005. Much of the 
development work that was done for the preregistration system will be 
applied directly to the electronic registration system that will be 
piloted in April 2006.
Public Information and Education
    The Copyright Office responded to 362,263 requests for direct 
reference services and electronically published thirty-nine issues of 
its electronic newsletter NewsNet--a source that alerts over 5,000 
subscribers to Congressional hearings, new and proposed regulations, 
deadlines for comments, new publications, other copyright-related 
subjects, and news about the Copyright Office.
    The Office website continued to play a key role in disseminating 
information to the copyright community and the general public. The 
Office logged close to 30 million external hits to key web pages in 
fiscal year 2005, representing a 49 percent increase over the previous 
year. The website received several enhancements, including introduction 
of RSS (Really Simple Syndication) feeds by which members of the public 
can receive instant notification of updates and revisions on pages that 
change frequently. There is a new history page that includes 
biographies of former Registers of Copyright, annual reports dating 
back to 1870, and previous copyright acts. The website is also part of 
LCNet, a new gateway for members of Congress and their staff.
Licensing Activities
    The Copyright Office administers certain provisions of the 
copyright law's statutory licenses. The Licensing Division collects 
royalty fees from cable operators for retransmitting television and 
radio broadcasts, from satellite carriers for retransmitting 
``superstation'' and network signals, and from importers and 
manufacturers of digital audio recording products for later 
distribution to copyright owners. In calendar year 2005, the Office 
collected $212.6 million in royalty funds and distributed $150.7 
million to copyright owners.
Reengineering Program
    The Copyright Office's seven-year Reengineering Program initiative 
is to redesign delivery of its public services. This program is 
customer driven to prepare our Office for the future growth in 
electronic submissions. The Office had planned for the reengineering 
implementation to be completed in the first half of fiscal year 2007, 
to include moving staff offsite so that its space in the Madison 
Building could be renovated in one phase. However, due to 
infrastructure and offsite lease requirements, the program cannot be 
completed until the third quarter of fiscal year 2007. The program has 
four major components--process, information technology, facilities, and 
organization that will be fully implemented in fiscal year 2007.
            Process
    Accomplishments in the process component closely tracked IT 
development. Pilot projects began in fiscal year 2005 to test both the 
new processes and the new IT system, eCO. In the Registration Pilot, 
several thousand actual copyright registrations for motion pictures 
were made using most of the new processes--incoming paper forms were 
scanned, hard copy deposits were bar-coded and tracked, and all 
internal processing and correspondence was done in the eCO system.
    Other pilots included the Deposit Selection Pilot, during which 
examiners successfully made selection decisions for certain routine 
monographs and musical works for the Library of Congress. In an 
Electronic Deposit Pilot, selected publishers submitted electronic 
versions of works via the internet, in preparation for electronic 
registration and possible future deposit of electronic formats for the 
Library's collections. As I mentioned earlier, the new preregistration 
service was implemented in eCO with an online-only application and 
completely paperless process. This service successfully uses Treasury's 
Pay.Gov for fee payments.
            Information Technology (IT)
    During fiscal year 2005, the Copyright Technology Office (CTO) 
continued to work closely with the system development contractor SRA 
International, on the analysis, design, and building of the new 
Copyright IT systems infrastructure that will support the reengineered 
business processes. The CTO also made further significant progress on 
the conversion of the historical files of copyright registrations and 
recordations to MARC format and the preparation for access to the 
records through the Voyager system.
    To ensure compliance with the Library's new system security 
regulation and newly issued security directives, the Office established 
a Security Review Board (SRB), made up of Copyright staff and 
consultants. During the 10 weeks preceding the implementation of the 
Registration Pilot, the SRB created a System Security Plan defining the 
security requirements, conducted a risk assessment, carried out a 
security compliance test and evaluation, and made recommendations to 
Copyright Office management about the security status of the software 
for this pilot. As a result, the Office received an interim 
authorization to operate and the system moved to production.
    In fiscal year 2006, the Office plans to expand its implementation 
of an on-line web portal--eCO Service--to allow the public to apply for 
copyright services online and pay with a credit card or bank account 
through Pay.Gov. Claims processing through the web portal will 
initially be a pilot to allow for full testing of the system before 
making it available to all the public in 2007. Additionally, we will 
use eCO to search a Voyager database of copyright records dating back 
to January 1, 1978.
    In fiscal year 2007 the Office plans to complete the IT component 
by transforming eCO Service from a pilot to full operational capability 
for processing copyright claims and issuing registration certificates, 
processing statements of account for statutory licenses, processing 
acquisition demands under section 407, and recording transfers, 
assignments, and other documents.
            Facilities
    In November 2004, the Library appointed a project manager funded by 
the Copyright Office to oversee the Madison Building renovation project 
and coordinate attendant swing space moves within Capitol Hill and 
offsite. The Copyright Office hired a move management company to 
oversee the moves offsite and back to the Madison Building. In late 
September 2005, after an extensive search for temporary offsite lease 
space, the Library signed occupancy agreements with Government Services 
Administration (GSA) for space within two buildings in Crystal City, 
VA. In December 2005, an RFP was issued for construction of the offsite 
rental space. A contract was awarded in February 2006 and construction 
began in late February. Most of the Office's staff will move offsite in 
early July 2006. The remaining operations and staff will be located in 
the Adams and Madison buildings. We expect all staff to return to the 
Madison renovated space in July 2007.
            Organization
    The Office completed new and revised position descriptions to 
support the new processes for most of the divisions in the new 
organizational structure. Preliminary work was done to prepare for the 
``cross-walk'' of staff from current to new positions and from the 
current divisions and sub-units to the new ones. The Office began 
drafting documents required for the reorganization package as specified 
in Library of Congress regulations. In fiscal year 2007, the new 
organization and positions will be implemented, coinciding with the 
return of the staff to the Madison Building and the implementation of 
new processes.
                    fiscal year 2007 budget request
Reengineering
    No new funding is needed for reengineering for fiscal year 2007. 
Rather, the Office is reducing its offsetting collections base by 
$1,590,911 as a result of fewer funds remaining in the no-year account.
Renewal Receipts
    With respect to renewal registrations, the Office is reducing its 
offsetting collections authority by $850,000 and five staff due to the 
fact that the number of renewal registrations will decrease 
significantly in fiscal year 2007.
    When renewal registration was required, the Office registered 
approximately 52,000 claims. Since the enactment of the automatic 
renewal provision in 1992, the number of renewal claims have decreased 
each year. In fiscal year 2005, the Office received approximately 
15,893 renewal claims bringing in fees of approximately $1.2 million. 
In fiscal year 2006, we believe that amount will drop to about $500,000 
and in fiscal year 2007 to about $150,000. Our records show that 
approximately 5,500 renewal claims were received in October, November, 
and December 2004. This has decreased to 4,839 for the same period in 
2005 and is expected to decline throughout the rest of fiscal year 
2006.
Overall Fees Increased
    Over the past two years, the overall fees collected for the Basic 
Fund have gradually increased and are projected in fiscal year 2007 to 
exceed the normal receipts level of approximately $23 million by 
$600,000. This is based on more dollars being received across all the 
fee products, not from a change in the fee schedule. Based on this 
trend, the Office requests a permanent $600,000 increase in offsetting 
collections authority.
Copyright Records Preservation
    The Office requests funding to digitize the pre-1978 copyright 
records. The key objectives of this record digitization project are (1) 
disaster preparedness preservation of pre-1978 public records and (2) 
provision of online access to those public records. Copyright records 
are vital to the mission of the Library of Congress and the Copyright 
Office and they are important to the public and the copyright 
industries that are a significant part of the global economy. The pre-
1978 records document the ownership and copyright status of millions of 
creative works. Loss of these sole-copy public records due to a site 
disaster would trigger a complex and expensive intellectual property 
ownership dilemma. Additionally, the unavailability of pre-1978 records 
online has been raised as a major issue in the study on the problem of 
``orphan works.''
    During fiscal year 2005, the Copyright Office, with the Library's 
Office of Strategic Initiatives, completed the Copyright Records 
Project study of the feasibility of digitizing millions of these paper 
records and developing technical approaches for integrating the 
resulting digital records with post-1977 digital records. The project 
team completed testing of vendor capabilities to digitize and index 
sample records. A comprehensive report of the project provided 
implementation strategies, cost estimates, and a recommendation for how 
the conversion could be handled in two stages.
    The first stage would cost approximately $6,000,000 over a six year 
period and would achieve the preservation goal and very basic online 
access. The second stage would add item level indexing, enhanced 
searching and retrieval, costing between $5,000,000 and $65,000,000 
depending on the extent of fields indexed. The Copyright Office is 
requesting for fiscal year 2007 the initial $1 million to begin the 
first stage.
                          future fee increase
    On November 13, 1997, Congress enacted the Technical Amendments 
Act, some provisions of which are now codified in 17 U.S.C. Sec. 708. 
The law requires the Register of Copyrights, whenever appropriate, to 
conduct a study of costs incurred by the Office for the registration of 
claims, the recordation of documents and other special services. On the 
basis of the study and public policy considerations and subject to 
congressional review, the Register is authorized to increase statutory 
and related fees to recover reasonable costs adjusted for inflation. 
Furthermore, the new fees should be fair and equitable and give due 
consideration to the objectives of the copyright system.
    The last time the Copyright Office raised fees was July 2002. The 
basic filing fee was set in 1999 and has not increased since that time. 
Historically, a change in the charge for services usually causes a drop 
in customer demand in the fiscal year following the increase and then a 
gradual rise in demand over the next two years. The possibility for 
raising fees was considered in 2001-2002. Because the Office had just 
begun its reengineering project to implement electronic registrations, 
and that project was to have been completed in 2006, the fee increase 
was postponed to coincide with the implementation of the new electronic 
system. However, since the implementation date for the new system is 
now summer 2007, we believe that we should move forward with a change 
to fees now.
    I have received fee recommendations based on a cost study developed 
by a task group. We will complete the required economic analysis and 
propose a schedule of fees to Congress in March 2006 to be effective 
July 1, 2006. The Office will publish a notice in the Federal Register 
to announce a proposed fee schedule. Based on a year's experience under 
the revised fee schedule and the new business processes, the Office 
expects to adjust the mix of net appropriation and offsetting 
collections authority in its fiscal year 2008 BASIC budget submission 
to Congress.
                               conclusion
    Mr. Chairman, I ask you to support the fiscal year 2007 Copyright 
Basic budget request for a permanent net decrease in offsetting 
collections for the BASIC appropriation and a one time $1 million 
increase in net appropriations for the Digital Imaging project.
    Our fiscal year 2007 budget will allow us to implement the final 
steps of our Reengineering Program. Once implemented, the Office plans 
to further reduce both its net appropriations and offsetting 
collections authority in the fiscal year 2008 budget request as well as 
adjust the net appropriations and offsetting collections based on the 
implementation of new fees. We appreciate your continued support for 
the Reengineering Project that will transform the way we do business 
and meet the public's demand for electronic services.
    I thank the Committee for its past support of the Copyright Office 
requests and for your consideration of this request in this challenging 
time of transition and progress.

                         LOGISTICS CENTER COST

    Senator Allard. Thank you very much. I have a few 
questions. It should not take us too long this morning to get 
you on your way.
    On the logistics warehouse, I am glad to see that you 
recognize that this is a pretty big chunk that we are looking 
at. The total overhead is about 18 percent. You have 10 percent 
that is being assessed by the Architect and you have 8 percent 
by the Corps of Engineers. It sounds excessive. I wonder if, 
with two supervising agencies, we have a duplication of effort. 
I wonder if you could comment on that.
    Dr. Billington. Well, I think I would defer to General 
Scott on this issue, except to say that the basic construction 
cost, the $41 million, is about what was approved for the last 
two book modules approved last year, and there is this question 
of construction oversight fees, as you indicate.
    I would just say briefly that the importance of this can 
hardly be overestimated. It is essential to effect this kind of 
consolidation for the Library's entire distribution function. 
It is not just a warehouse; it is a logistics center that will 
more efficiently do what is being done less efficiently at four 
separate locations at higher costs, to be precise.

                        LOGISTICS CENTER REVIEW

    We plan to discuss on a line by line basis in a very 
careful way all estimated costs with the Architect of the 
Capitol. But I will defer to General Scott, who has been more 
deeply involved in the planning.
    General Scott. Thank you, Dr. Billington. Thank you, Mr. 
Chairman.
    The Library is very concerned about the oversight costs and 
contingency reserves. These are costs as you correctly point 
out, by the AOC and the Corps of Engineers, which we have no 
control or influence over. However, we have and will continue 
to engage them to ask them to help us look for ways that we can 
reduce those costs and still receive the kind of expert 
construction oversight that is required to put up that 
facility.
    We also, as Dr. Billington mentioned, will go through a 
line by line study to ensure that any type of savings that we 
can propose will be realized and we can reduce the price.
    One of the other additional costs related to that facility 
came about as a result of concern from some of the citizens of 
that area who wanted there to be more of a look to blend with 
the neighborhood of the Fort Meade facilities. That has added 
more money than would otherwise be needed.
    So we will revisit all these estimated costs, but in the 
end we are very much concerned about them. We are engaged with 
the AOC and we will appreciate anything the subcommittee can do 
to help us work with the AOC to reduce these costs.

             GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)

    Senator Allard. I am going to have my staff talk with the 
Corps of Engineers as well as the Architect of the Capitol on 
these administrative costs and express to them my concerns 
about how high they are.
    Now, we do not have the Architect of the Capitol under what 
is referred to as the performance assessment and review tool 
(PART) program. This is the method that the Office of 
Management and Budget uses to measure performance within the 
agencies of the Federal Government. The legislative agencies 
are not required to be under this. Executive branch agencies 
are required to justify actions and assess results that we can 
measure here in Congress.
    And if they do not measure very well, it impacts how 
favorably their budget is considered. If they are rated as, for 
example, ineffective or results not demonstrated, their budget 
would be cut.

                        FEDERAL AGENCY OVERHEAD

    So, you are the customer of the Army Corps of Engineers, 
and we will have our staff talk to them. When we have these 
overhead costs, we need to be sure they can justify them, that 
they are measurable from a customer satisfaction standpoint. 
Frankly, I want to see more of our legislative agencies under 
that program because as legislators and policymakers it gives 
us the ability to measure performance of the various agencies.
    And while we are on the subject, we would encourage the 
Library of Congress to also look at this kind of accountability 
when you report to the subcommittee, because it is valuable for 
policymakers and it does help us do a better job for the 
taxpayers of this country.
    This particular article, just for your information, we got 
this out of Congressional Quarterly, page 538 and 539, so you 
can look at the program if you are not familiar with it. This 
is an opportunity for us to have more accountability and 
oversight of these agencies. I think they are way too high, 
these administrative costs.

      GOVERNMENT PERFORMANCE AND RESULTS ACT AND LIBRARY PLANNING

    General Scott. We certainly appreciate your assistance in 
this, Mr. Chairman. Yes, we too appreciate the value of GPRA 
standards because we have been implementing GPRA since 1997. To 
a certain degree, the cost savings that we have been able to 
show with this 2007 budget came as a result of follow-on to 
GPRA and coming up with an annual activity and performance 
plan. From that plan we create the operating plan that we give 
to the Congress. So we appreciate GPRA, and we certainly 
appreciate what you might do to help us.
    Senator Allard. The nice thing about it is you are not 
necessarily just counting beans. What you do hope to put in 
place are some goals and objectives that are measurable from a 
consumer standpoint: Who is using that agency? Who is using 
their services? And how are those customers' needs being met? 
So I think it helps us all do a better job in that. We have to 
measure results.

                      COPYRIGHT DEPOSITS FACILITY

    Also, one other question now. You have requested money for 
this logistics warehouse. In the 2005 budget, we had a 
copyright deposits facility project. Would you explain to me 
why we now have the logistics warehouse that seems to have a 
higher priority than the copyright facility when the copyright 
facility was requested back in the 2005 budget?
    Dr. Billington. Well, the copyright deposits facility is 
extremely important. It is very difficult to make choices of 
this kind, but the logistics center need is a more immediate 
one. We are moving ahead thanks to the Congress' approval in 
2003 and 2004. This is a year of important transition for the 
Copyright Office. Fiscal year 2007 is the last year of the 
reengineering project. The staff must relocate for 1 year while 
their facilities are reconfigured. The logistics issues affect 
distribution and storage, and the related safety and security 
problems seem to us essential this year. The copyright 
facility, which I think the Library will have to come back for 
next year, is equally important, but perhaps a little bit more 
deferrable because of the redesign that is taking place to 
facilitate a modular construction approach. It will be an 
essential request next year. It is not a lesser priority; it is 
just a different priority and one that fits next year with the 
overall schedule because of the redesigned modular approach.
    Senator Allard. Well, thank you.
    Dr. Billington. General Scott wanted to add to that.
    General Scott. I believe, Mr. Chairman, we were asked to 
take another look at the redesign of that copyright deposits 
facility, which we did. Then we only switched priorities 
temporarily while coming up with the redesign, making a 
determination that it would be more advantageous for the 
Library to go ahead with the logistics center at this time 
rather than with the copyright facility this year.

                   INTRODUCTION OF INSPECTOR GENERAL

    Senator Allard. I am one legislator who utilizes the 
agencies that are sort of the eyes and ears of the Congress. 
GAO is one. Another one is the Inspector General. I know that 
the Inspector General has expressed some concerns about the 
cost on this and I understand that Mr. Schornagel is here with 
us today. I would like to have him come up if you would, 
please, and make any comments that you care to make about this 
proposal.
    Mr. Schornagel. My name is Karl Schornagel, Inspector 
General.

                        LOGISTICS CENTER REVIEW

    As you have already stated, I have concerns about the cost 
of this warehouse. I just learned of the total price a couple 
weeks ago and I expressed concerns immediately. I also raised 
in March 2005 some concern about the size of this warehouse. I 
am in the process of getting information from the Library as we 
speak, and there is an important report that is going to be 
issued by one of the Library's contractors that should shed 
some light on this issue.
    Senator Allard. When is that supposed to come out?
    Mr. Schornagel. Next week.
    Senator Allard. Next week, okay.
    Mr. Schornagel. I also share the Librarian's concern that 
the whole cadre of storage facilities at Fort Meade is behind 
schedule about 5 or 6 years. There certainly is a need to get 
some of these buildings put up.
    Senator Allard. So would you be more specific about some of 
your concerns about cost overruns?
    Mr. Schornagel. Yes. I am concerned that about $15 million 
of that $54 million in cost is oversight and contingency. I am 
especially concerned about multiple layers of oversight. About 
$7 million of that is for AOC oversight and administration, 
more than $3 million for the Corps of Engineers. There is $6 
million in reserves and contingency, plus another 25 percent in 
price escalation.
    I also have issues about some of the individual cost 
components of the warehouse itself that range anywhere from 
microwave ovens to the sod for the front lawn. I believe that 
the whole cost issue and approach needs to be reviewed more 
thoroughly.
    Senator Allard. I hope that while you review this project, 
his suggestions will be helpful in trying to figure out ways in 
which we could bring down the cost of this.
    In the past you have raised concerns about poor space 
management at Library facilities, including the warehouse at 
Landover----
    Mr. Schornagel. Yes, that is true.
    Senator Allard [continuing]. That the new facility would 
replace. Have these concerns been resolved?
    Mr. Schornagel. Well, not fully. That is what I mentioned 
earlier. In March 2005 I issued an audit report that found 
inefficient use of the space. As a result, about 20 percent of 
the inventory items were deleted. These are items that were 
either excess or obsolete. As part of that audit report, I 
recommended that the size of the new warehouse be reconsidered 
in light of this new efficiency gain and, to my satisfaction 
that has not fully been addressed yet.
    Senator Allard. So we have excess capacity that is being 
poorly managed in the Landover facility?
    Mr. Schornagel. Yes, that is true.
    Senator Allard. Okay.
    Mr. Schornagel. And I have other issues. For example, the 
reference to the new warehouse is in terms of square feet, but 
when you consider that the proposed warehouse is going to be 
taller, it actually increases the capacity per square foot 
because you have to look at cubic feet. Issues like that are 
relevant to the plans for this new warehouse.

               CONGRESSIONAL RESEARCH SERVICE REALIGNMENT

    Senator Allard. Thank you for that insight.
    On the CRS realignment, the CRS determined last year that 
some 59 production support, technology support, and audio-
visual positions were no longer needed and the affected 
employees were offered a buyout in January. Those who did not 
take the buyout could be subject to a reduction in force later 
this year.
    Can you describe the process that CRS went through to make 
that determination that the positions were not needed, Dr. 
Billington?
    Dr. Billington. Well, I will defer to the Director of the 
Congressional Research Service to respond in detail. I will 
point out that this is part of the workforce transformation 
process. The needs of the Service to deliver, and particularly 
to integrate the electronic aspects of the Service have been 
increasing greatly. We need to reconfigure the workforce to 
deal simultaneously with both the digital component of 
information delivery, including the successful mining of the 
vast amount of public policy research, as we continue our 
traditional artifactual work.
    So the Library is undergoing very important 
transformational changes currently. I will let the Director of 
the Service speak more directly to the particulars.

                        TECHNOLOGY AND STAFFING

    Senator Allard. Dan Mulhollan, would you like to come up?
    While he is coming up, Dr. Billington, I have to tell you I 
am very sympathetic with your challenges in moving to a high 
tech operation. Those are huge challenges and they create some 
obstacles as far as managing your workforce. These are 
challenges we both have to face.
    Dr. Billington. Servicing the Congress is our first 
priority. We are the Library of Congress, and making sure that 
that conversion moves ahead so the Service can be as effective, 
timely, dependable and objective as it has always been is a 
very high priority.
    Senator Allard. Well, the high technology requires a higher 
level of expertise and it is more efficient in many ways. The 
user of the Library can more quickly search out the information 
through computer search.
    Dr. Billington. It used to be in the early days of the 
information revolution that the IT part of an institution was 
where the expertise would be concentrated. It now has to be 
developed thoroughly and integrated into the direct service 
components much more seamlessly and much more immediately. I 
will let the Director speak to the details.

      OPENING STATEMENT OF CONGRESSIONAL RESEARCH SERVICE DIRECTOR

    Senator Allard. Mr. Mulhollan.
    Mr. Mulhollan. Good morning Senator. We welcome the 
opportunity to discuss this issue. I appreciate it.
    As a matter of good business practices, CRS reviews its 
activities and positions continually and has for years. What we 
identified is, particularly in the functions of production 
support and audio-visual functions, that the positions we had 
established in the early 1990s, which corresponded to the 
technical functions at that time, were no longer relevant to 
the technical skills needed with a more sophisticated, 
centralized IT operating system. For instance, production 
support activities are now seamlessly integrated into network 
software. Numerous technical support positions had been created 
to install new hardware as well as software packages and 
upgrades machine by machine. Now, with ``push'' technology and 
a fully integrated network system, those functions no longer 
are needed.
    We also found an underuse of the Service's audio-visual 
functions, as well as the changes in technology.
    Our responsibility is to maintain analytical and research 
capacity and these decisions were based on our ensuring we 
could do that. Given the fact that we had a certain amount of 
money available, workforce reengineering seemed necessary.
    We had announced to staff on September 22, 2005 that we 
were going to eliminate 59 support positions effective 
September 30, 2006. To my knowledge, there is not another 
agency that has given their staff 1 year in order to find other 
jobs. In addition, with your help from last year, we offered 
separation incentives as well as getting early out authority 
from the Office of Personnel Management in order to provide 
more options to staff.
    Twenty-three of the 59 took full or early retirement with 
the separation incentive. We have distributed to all staff in 
CRS the entire staffing plan for the remainder of the fiscal 
year. As of this point, three of the administrative positions 
were filled with affected staff, two staff accepted positions 
elsewhere in the Library. Five of the affected staff in those 
abolished positions have been placed. I anticipate there is 
some likelihood that some of the remaining affected staff are 
certainly competitive and may be selected for other jobs. 
Currently there are 31 affected staff remaining who will be 
without a job at the end of September.
    According to our collective bargaining agreement and 
Library regs, if in fact those folks are not in another 
position by June, the Library of Congress will institute a 
reduction in force. My fondest hope is that prior to that time, 
every one of those people could find a job that they find 
meaningful and good.

                           PREPARED STATEMENT

    Now, that said, one of the things that the Library is 
seeking your help for is approval of an administrative 
provision that would provide a safety net basically for 
reduction in force staff of the Library of Congress. The new 
provisions would allow a staff member of the Library who is 
facing a reduction in force to be in the executive branch's 
priority placement pool, if they want to continue their civil 
service. We would much appreciate your serious consideration of 
that provision.
    [The statement follows:]
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to appear before you today to present the fiscal year 2007 
budget request for the Congressional Research Service (CRS). With 
regard to our fiscal year 2006 request, I would like to express my 
gratitude for the Committee's support. Despite the challenging fiscal 
environment, Congress found a way to provide some additional assistance 
in meeting the Service's mandatory pay and price-level adjustments, 
research materials, and staffing gap.
                    fiscal year 2007 budget request
    The CRS fiscal year 2007 budget request is $104,279,000, consisting 
of the fiscal year 2006 base plus an adjustment for mandatory pay 
increases for CRS staff, as well as the needed price level adjustment 
for the goods and services we acquire in the course of doing our work.
                            research agenda
    This past year Congress has functioned under enormous pressures. In 
addition to existing domestic and international issues, lawmakers faced 
many unanticipated policy concerns that drew on already strained 
resources, such as hurricane-related disasters, Supreme Court 
nominations, and control of mandatory spending through the budget-
reconciliation process. Pressing issues such as these have required 
your full attention, and the Service has been at your side during these 
demanding times, providing expert research and analysis, grounded in 
institutional memory, tailored to specific needs, and made immediately 
available.
    The character of the support we offered to the Congress this past 
year reflects the continuing and unbroken history of CRS' singular 
mission. We remain steadfast in supplying every committee and Member 
with analysis and evaluation of legislative proposals by identifying 
all components of the policy issues, estimating the probable results, 
and evaluating alternative options.
    CRS has a research management framework that is structured to align 
with the policymaking needs of the Congress. Service-wide research 
planning makes possible a systematic and coordinated approach that 
affords important opportunities for interdisciplinary collaboration 
among experts across the Service. At the beginning of each 
congressional session, the Service's leadership and experts work 
alongside committees and Members, anticipating and identifying the 
major domestic and international policy issues to produce a research 
agenda. We continually reassess that agenda to address unanticipated 
circumstances. CRS' ability to respond to unexpected need for its 
services, while maintaining support for continuing domestic and 
international issues, highlights the depth and breadth of its services.
    Before Hurricane Katrina even made landfall, we had compiled a list 
of CRS experts and identified the Service's relevant products, making 
them immediately available on our website. We contacted Members in the 
affected states and alerted them to available CRS support and services. 
We then assembled teams from relevant disciplines and policy areas to 
address Congress' concerns about hurricane victims' access to 
assistance; command and control in emergency management; federal 
financing of unprecedented, extended assistance in the form of food, 
shelter, health services, and general income support; challenges to 
rebuilding; and reestablishment of the social and economic stability of 
the region. CRS experts assessed pre- and post-hurricane conditions 
relevant to policy concerns, critiqued the focus and effectiveness of 
existing laws and programs, and evaluated policy proposals to bring 
relief to the area. Through briefings and consultations, in more than 
one hundred research products, and via specially designed sections of 
the CRS website, the Service provided the Congress with support during 
this major national disaster, which Congress addressed in more than one 
hundred hearings.
    Other unanticipated legislative issues required slightly different 
approaches. For example, the Senate was called on for the first time in 
eleven years to carry out its advice and consent responsibilities in 
the Supreme Court confirmation process. However, more than one-half of 
the Senators and many congressional staff holding key positions in the 
process had no direct experience with such appointments. To support 
them, CRS provided legal expertise, research and analysis, and the 
insight resulting from institutional memory, acquired though several 
decades of support for Supreme Court and other judicial nominations. 
Through in-person briefings, reports, seminars and confidential 
memoranda, CRS informed Congress about committee and floor rules and 
procedures, the constitutionality of filibusters in relation to 
judicial nominations, status and prospects for the evolution of areas 
of law, and a history of congressional experiences with previous 
Supreme Court nominations. Additionally, aided by the digital scanning 
operations and the unique collections of the Library of Congress, CRS 
provided searchable online access to congressional documentation, 
including hearings, floor debates, floor statements, and votes, for 
eighteen successful and unsuccessful Supreme Court nominations. Most of 
this documentation, nearly 100,000 pages, had not previously been 
available digitally.
    In April 2005, Congress adopted a budget resolution for fiscal year 
2006 that included instructions to sixteen House and Senate authorizing 
committees. The instructions called for reductions in mandatory outlays 
over several years and for tax reductions and increased limit on public 
debt. To assist these committees and the Congress as a whole, CRS 
prepared explanations of budget process, procedures, and practices, 
some of which Congress had not exercised for eight years. Thirty-eight 
percent of the House Members and one-third of the Senate were not in 
their current roles in 1997, which was the last time Congress employed 
reconciliation to control spending. CRS briefed many Members and 
committees on these procedures. CRS also assisted in assessing the 
overall financial and policy implications of budget reconciliation 
measures, ranging from the specific options and their implications for 
trimming mandatory spending to the possible impacts on various programs 
subject to proposed changes.
                         management initiatives
    CRS adapts in other areas to uphold our commitment to Congress. 
Consistent with my responsibility to lead an accountable and cost-
effective organization and in response to congressional directives, CRS 
not only re-assesses its direct services to the Congress, it also 
continually examines the internal operations supporting that service. 
As Congress has indicated, new technologies can lead to greater 
efficiency, and CRS has completed a long-term study of the impact of 
information technology on our work processes. The resulting analysis 
indicated that CRS, through workforce re-engineering of some support 
functions, could reduce the number of support staff needed Service-wide 
and devote more of the resources to the our analytic capacity without 
any loss in productivity.
    In 2005 CRS completed an examination of our production support, 
technical support, and audio-visual functions, those support functions 
most dramatically impacted by technological advancements. After 
extensive consultation we reached the decision to eliminate the 
outdated functions. The decision affected 59 staff, which is about 8.4 
percent of the total CRS workforce. To assist these individuals, many 
of whom are long-term CRS employees, the Service announced the decision 
one year in advance, offered a voluntary early retirement option and a 
congressionally approved separation incentive, and provided continuing 
retirement and career counseling to the affected staff. This type of 
workforce self-examination is not new to CRS. As a result of similar 
assessments, CRS has eliminated or curtailed other functional 
activities over the years. Earlier situations also required CRS to 
eliminate positions, but in the past CRS was able to achieve the down-
sizing through attrition. Given the fiscal year 2006 constraints, which 
require CRS to reduce its staff size by almost 30 full-time 
equivalents, it is not practical for CRS to retain indefinitely these 
employees, whose functions are not critical to the accomplishment of 
the Service's mission. It is our hope that the affected staff will 
either retire or find alternative employment before the functions are 
eliminated on September 30, 2006. If that does not occur, we will 
institute a reduction-in-force (RIF) in accordance with governing 
Library regulations and our collective bargaining agreement.
    The Library of Congress is requesting the Committee consider an 
administrative provision that would grant Library of Congress 
employees, including those in CRS, who receive a RIF notice eligibility 
into a pool for displaced employees from all federal agencies for 
consideration for positions in executive branch agencies. This 
provision would place Library of Congress employees behind any affected 
employees in an agency undergoing a RIF in selection priority but ahead 
of applicants who have no federal service. Adopting this provision 
would give the Library's small pool of dedicated legislative branch 
public servants a broader potential employment base and could give 
employees the opportunity to enhance their civil-service careers beyond 
the Library of Congress.
    Building on our current performance management system, and in 
response to Congress' request that legislative branch agencies consider 
the performance model set forth in the Government Performance and 
Results Act, CRS developed an enhanced system for assessing performance 
and reporting results to the Congress. The plan and reporting system, 
which are built around our singularly focused mission, use the key 
attributes of relevance, quality, accessibility, and management 
initiatives as concrete frames of reference for establishing 
performance goals. The plan groups performance goals into two distinct 
sets: one focused on research and the other on management. The 
management goals are essential to sustaining and improving agency 
efficiency in resource usage.
    Congress has stated that it expects the legislative branch agencies 
to find opportunities to realize savings through outsourcing certain 
activities and functions. The Service has permanently outsourced 
several business functions that are now being performed successfully by 
contractors. These business functions include a centralized copy 
center, the CRS technology Help Desk, technology user-support services, 
mail and courier services, and receptionist and library technician 
positions. We have just awarded a new contract for the mail and courier 
services, which includes a revamped performance structure that resulted 
in the reduction of one contractor staff position and two mail clerk 
positions. We are currently expanding our technology Help Desk contract 
operation to provide extended hours of coverage to CRS staff, higher 
quality services, and a more sophisticated range of services. The 
Service is also expanding its contract support for graphics and product 
preparation. We are continually reviewing all of these operations to 
ensure the Service's business needs are being met in a manner that 
provides the best value and efficacy possible.
    In the same spirit of achieving savings to focus our resources on 
supplying Congress with needed research and analysis, we are curtailing 
non-mission-critical activities, except as explicitly directed by the 
Congress. The Service has been working with its oversight committees to 
explore alternative approaches to translation services and to the 
indexing of congressional publications produced by CRS. In response to 
requests for translations, the Service is seeking to provide referral 
to outside service providers that have been certified by CRS as 
providing reliable and timely responses. Like translation services, the 
indexing function is largely outside the mission of the Service, and we 
are consulting with our oversight committees and the Joint Committee on 
Printing to work out a mutually acceptable arrangement with the 
Government Printing Office to assist the Congress with such services.
    However, CRS remains responsive to all congressional needs, even 
non-mission critical ones, when Congress specifically directs us. For 
example, Congress requested CRS provide assistance to the House 
Democracy Assistance Commission and the House International Relations 
Committee on parliamentary development programs in new democracies. CRS 
country experts are assisting the Commission in its selection of 
candidate countries. Our country and parliamentary assistance experts 
have been detailed to the House International Relations Committee to 
travel with Commission staff for needs assessment visits to candidate 
countries. The Service has also been asked to provide assistance to the 
Georgian, Indonesian, and other parliaments in developing their 
research services. Further requests for CRS assistance are likely to 
depend on the findings from future needs assessment visits. All travel 
is funded through the House Committee, but we continue to pay staff 
salaries. CRS leadership is carefully assessing this support to ensure 
that the capabilities of our staff remain available to meet other 
congressional demands.
                               conclusion
    CRS is responding directly to congressional instruction to submit 
reasonable budget requests and consider the overall fiscal constraints 
placed on the entire federal budget, to streamline by outsourcing, to 
leverage existing technology to enhance operational efficiency, and to 
look within for ways to complete our mission. The Service is responding 
to a federal fiscal environment that dictates the size of this 
organization be about 705 full-time equivalents. Cognizant of current 
fiscal realities and heeding congressional direction, the CRS budget 
request for fiscal year 2007 does not seek additional funds to support 
program growth. The Service seeks your support for the mandatory pay 
increases for CRS staff and price-level adjustments for goods and 
services.
    CRS intends to complete the re-engineering of its administrative 
and support staff and will assess the actual impact of these actions, 
from both fiscal and functional perspectives, against the expected 
results. The Service will likely study other business functions to see 
if additional streamlining can be achieved and intends to continue its 
practice of reviewing all major contracts and business operations bi-
annually to ensure that the Service's fiscal resources are being used 
in the most cost-effective and relevant manner possible. The results of 
these studies and re-engineering efforts are expected to provide 
meaningful business information that will guide the Service's decision-
making and frame future management initiatives.
    While the Service has remained steadfast to its mission and devoted 
to providing quality services to the Congress, CRS cannot afford to be 
static. An organization serving the Congress that is unable to change 
quickly, alter itself to increase efficiency, or adapt to new 
requirements is an organization bound to fail. CRS is mindful of this 
reality and has continually sought out and acted on pragmatic 
approaches that lead to improvements to better fulfill its mission.
    Despite the many changes in Congress and within CRS, the Service of 
today is identical to the Service of 1914 in one way: our dedication to 
our mission to provide balanced, nonpartisan, authoritative expertise 
to the Congress, on time, on target and in forms useful to lawmakers. 
We will never change the course of our direction.

           CONGRESSIONAL RESEARCH SERVICE REALIGNMENT SAVINGS

    Senator Allard. So there is approximately $4.4 million in 
savings, and how is that reflected in the Library's 2007 budget 
request?
    Mr. Mulhollan. You mean the 59 affected staff? Well, to 
give you an example----
    Senator Allard. The savings from that, yes.
    Mr. Mulhollan. Yes, but part of that savings, I think it 
cost roughly $600,000 to be able to provide a $25,000 
separation incentive to each person. We used the balance of 
those salaries for the remainder of that fiscal year to provide 
the separation incentives, as an example. Because we had an 
overall $3.6 million--excuse me--$3.1 million shortfall, if you 
recall, last fiscal year and the committee gave us $1 million 
of our $3.1 million request to keep us at 729 FTEs. So we have 
requested a permanent reduction to 705, because we do not have 
enough money in our base in order to sustain the service at the 
729.
    As a consequence of this, you recall I mentioned that we 
were focusing our resources to maintain our analytical 
capacity. We are going to end up with a smaller workforce 
configuration--maintaining the number of analysts needed to do 
the research and analytic work for the Congress, but fewer 
overall support staff.

         CONSULTATION WITH CONGRESSIONAL RESEARCH SERVICE STAFF

    Senator Allard. In your testimony you state that extensive 
consultation took place before you decided to eliminate 
production support, computer technical support, and audio-
visual functions. With whom did you consult?
    Mr. Mulhollan. The individual who did the studies spoke to 
every one of the affected staff in the examination of their 
positions.
    Senator Allard. So the CRS staff was consulted?
    Mr. Mulhollan. They were interviewed with regard to what 
they were actually doing and what the functions described in 
their position descriptions were.
    Senator Allard. This was done before you made your 
decision, I assume?
    Mr. Mulhollan. That is correct. They all were able to say, 
``this is what I do.''
    Senator Allard. Okay. Now, there are 31, as you mentioned, 
that still have not landed, so to speak, and could be subject 
to that reduction in force. What action specifically are you 
taking to work with the rest of the Library to find positions 
for those 31 staff?

                    OPTIONS FOR DISPLACED EMPLOYEES

    Mr. Mulhollan. Well, first we are continuing to provide 
career counseling and career transition support--how to write a 
resume, classes on how to apply for a job in the civil service. 
That is ongoing and available to each one of those 31 affected 
staff.
    In addition, we are working closely with the Library of 
Congress and the head of the Library's human resources 
services. The Library has a great track record, from prior 
reduction-in-force events, of being able to find positions for 
those individuals. There is a commitment across the senior 
management of the Library, for which I am quite grateful, to do 
whatever possible to try to ensure that in fact there may be 
positions. While there are no guarantees, we are going to do 
everything possible to place any remaining staff.
    That is why that approval of our proposed administrative 
provisions would be helpful for us in the future.

                         RETIREMENT INCENTIVES

    Senator Allard. This is for Dr. Billington. In January 
about 186 employees took advantage of an early retirement and 
buyout incentive offered Library-wide, including the CRS staff 
we were talking about. Can you explain why the buyout was 
offered, what job functions were eliminated, and how much 
funding was freed as a result of the buyout, and how you are 
redirecting those funds?
    Dr. Billington. I did not understand the last two points 
you made.
    Senator Allard. Well, let's see. Explain why the buyout was 
offered and then what job functions were eliminated, and then 
how much funding was freed up as a result of the buyout. Why do 
we not just take them one at a time. Why did you offer the 
buyout?
    Dr. Billington. Well, I think we will provide, with your 
agreement, the statistics for the record. I can answer the 
question in general and then we will give you the detailed 
statistics.

                        WORKFORCE TRANSFORMATION

    First of all, we have a very large number of people who are 
eligible to retire. It is an aging workforce. This is the 
beginning of a general workforce transformation process and we 
wanted to give a significant buyout opportunity, which quite a 
number of people took.
    On the day our employees were leaving, I met with many of 
them, and they said they appreciated the buyout.
    It is part of the workforce transformation we are 
undergoing into the digital era. The buyout was a way of 
offering an opportunity to leave, which a great many people 
took.
    I might point out that in the current budget submission the 
$781,000 is to assist the workforce transformation. We want to 
develop some newly defined digital competencies. We want to 
build leadership skills for people from the GS-5 to GS-9 
category. We want to do everything we can to retrain as many 
staff members as possible and expand the range of 
opportunities.
    This is a direction in which we are trying to move as 
rapidly as we can. We have to also recruit new people from the 
outside, but we really genuinely want to give as much 
opportunity for other jobs in the Library. The Library as a 
whole is facing a need to transform itself and there cannot be 
any guarantees, but I want to assure you that the Library as a 
whole will make every effort to make available alternate 
opportunities for people whose present functions are becoming 
obsolete. We have brought on as the head of training somebody 
who has had experience with one of the more successful programs 
in the Federal Government and we have been beefing up that 
staff.
    We are very concerned about this problem in human terms, 
but at the same time we simply have to move ahead with this 
kind of transformation if the Library is going to continue to 
serve the Congress and the Nation properly.
    We will provide you statistics and details for the record.
    [The information follows:]

    During fiscal year 2006, the Library requested approval 
from Congress to offer separation incentives and from the 
Office of Personnel Management (OPM) to offer early 
retirements. Consistent with the legislation governing these 
incentives and early retirements, the Library indicated that it 
needed to reshape and renew its workforce to match the highly-
specialized skill sets that are replacing outmoded ways of 
filling its mission. Both Congress and OPM approved these 
requests. It should be noted that the Chief Human Capital 
Officers Act of 2002 (title 13 of the Homeland Security Act of 
2002, Public Law 107-296), contained an explicit sense of 
Congress that the legislation's intent was to reshape and not 
downsize the Federal workforce. Since, 2002, executive branch 
agencies have used these authorities to meet the changing needs 
of the 21st century. In fiscal year 2005, Congress granted the 
legislative branch authority comparable to that of the 
executive branch. Thus the Library's implementation plan is 
consistent with the purpose of the Act; to reshape--not 
downsize its workforce.
    The Library's fiscal year 2006 separation incentive 
programs addressed specific, critical workforce requirements in 
the Congressional Research Service (CRS), Library Services 
(LS), and Integrated Support Services (ISS). In the case of 
CRS, advances in technology, its deployment in the Service, and 
the technical skill level of incoming analytical staff rendered 
obsolete the services provided by its production support staff, 
technical support assistants, and audio-visual staff. In 
addition, CRS required information professionals who could meet 
the redefined work, competencies, and skills sets of the 
Knowledge Services Group, created to better use the skills of 
librarians and other information professionals to serve the 
needs of Congress. Library Services needed to re-engineer its 
functions, redesign jobs, retrain current staff, and recruit 
new staff to meet the Library's digital requirements. For 
example, in the acquisitions and cataloging areas, staff will 
be required to manage digital assets that have distinctive 
retrieval and preservation requirements--more complicated than 
the traditional handling of printed books and journals. With 
more than 3 billion ``hits'' on the Web site annually, 
questions once asked in person are now coming from individuals 
we will never see in person. As a result, reference assistance 
and more collection curation must be performed online, changing 
the profile of and skills needed from a reference staff. 
Technological changes have also required new skill sets on the 
part of ISS staff. For example, printing is now created with 
sophisticated computerized tools and electronically transmitted 
with customer-driven requirements that generate high-impact 
graphics and images unimagined only a few years ago. Similarly, 
facility operations staff must have technical expertise to 
monitor buildings adequately and effectively with the 
sophisticated and integrated systems required by today's high 
technology workforce.
    Approximately $16 million supported the salaries and 
benefits of the 186 employees participating in the early out 
and buyout programs. Redirection of this funding will enable 
the Library to hire new staff more quickly rather than waiting 
for current staff to retire at some unknown point in the 
future, increase contract support capacity--in areas where 
flexibility in staff support is needed as business plans evolve 
and are implemented, and invest in new equipment needed to 
support our innovative programs. This funding, combined with 
the $781,000 requested for workforce transformation, will 
ensure that the Library has the tools--that include not only 
separation incentives and early retirements, but also staff 
training, mentoring, career planning and counseling and digital 
competency skills development, needed to implement an 
integrated workforce renewal plan. The success of this plan is 
highly dependent on the resources available to carry out each 
part of the plan. If funding and FTEs are stripped away, the 
Library will be in a worse position than had we waited for 
employees to retire--a time line that was already impeding the 
Library's digital transition and transformation.

                         IMPACT OF RETIREMENTS

    Senator Allard. The detail of these questions that we are 
asking is to provide us a thorough and complete answer. So the 
rest of the question on what job functions were eliminated and 
how much funding was freed up as a result of the buyout and how 
you are redirecting those funds, we would like to have a 
detailed answer on that. If you do not have that information in 
front of you now, we will give you a chance to give us a 
written response.
    Dr. Billington. Yes, sir.
    Did you want to add anything?
    General Scott. No, I think that is the most appropriate way 
to handle it.
    Senator Allard. Is that fine, General Scott?
    General Scott. Yes, sir.

                    COPYRIGHT REENGINEERING PROGRAM

    Senator Allard. Let me move on to the copyright 
reengineering. Now, that office has been engaged in a 6-year 
effort to overhaul its work processes, a project which involves 
major space renovation. The subcommittee provided over $9 
million in the fiscal year 2006 budget for temporary office 
space and renovation of the existing space in the Madison 
Building. The effort now is 6 months behind, I am told.
    Why has it been delayed and what is the impact on cost and 
is the project now on track for completion in 2007?
    Dr. Billington. It is on track now. The delay was caused 
because of the difficulty the General Services Administration 
(GSA) had in finding a place that could house the Copyright 
Office for only 1 year instead of the conventional longer term 
lease, while the final stages of the reengineering were taking 
place. There were three different changes of locations 
resulting in changes to design specifications and so forth. 
There was a delay, but it is on track now and we are expecting 
that in July of this year, they will move out to another 
location in Crystal City and in July of the following year, 
they will be back in their full reengineered mode.
    Meanwhile, the pilots and electronic registration are on 
track, if you want details, we have Julia Huff--the Register is 
unfortunately not available to be here today, but Julia Huff 
from the Copyright Office can answer this.

                      REENGINEERING PROJECT DELAYS

    Senator Allard. In your efforts in working with the 
Architect of the Capitol and GSA, what could prevent the type 
of problems you have encountered in future projects of this 
kind?
    Dr. Billington. Well, General Scott, do you want to address 
that?
    General Scott. I have got some general ideas, but I think 
it would be best if we could hear from Julia, who has really 
been intimately involved in trying to re-schedule and keep 
things on track that mostly were way beyond the Library's 
control. Is Julia here?
    Ms. Huff. Yes.
    Senator Allard. Julia, do you want to give the lessons 
learned?
    Ms. Huff. Yes, Mr. Chairman, I will. One thing that might 
have helped--we started working with GSA in early 2004, and we 
probably would have benefited from having our own project 
manager onboard at that time, and we did not add that project 
manager until 2005. He, along with the facilities team, has 
really kept on top of GSA and tried to move them along.
    The lesson we have learned from GSA is that they have a 
very structured, layered organization and it just takes more 
time than we anticipated to get paperwork approvals, 
negotiations, and the like moved through all required steps.
    Senator Allard. In short, they are bureaucratic?
    Ms. Huff. Yes, you might say that.
    Senator Allard. Okay.
    Ms. Huff. They did not really respond immediately to our 
request for leased space. When they did, the space was too 
small, and then they switched buildings on us twice in Crystal 
City. All of this caused delays in the design. We had to do 
redesigns of the architectural work, for electrical work, for 
voice and data. We incurred more costs and delays because of 
these changes.
    So yes, we are behind and it is because of the facilities 
piece. We might have started in 2003, but 2 years seemed like 
plenty of lead time when we first began.

       NATIONAL AUDIO-VISUAL CONSERVATION CENTER--CULPEPER STATUS

    Senator Allard. Very good.
    On the National Audio-Visual Conservation Center. The 
Library will be taking possession of this new National Audio-
Visual Conservation Center in early 2007. I really appreciate 
the opportunity to go out and tour that center, and I think we 
are all very appreciative of the Packard Foundation and all 
they have done as far as providing citizens of this country a 
very good facility.
    I would just like to have an update on what the status is 
of this privately funded construction project, and then once it 
is operational do we have any idea what the annual operations 
and maintenance costs might be for that? I want to make sure we 
are making allowances for that in future budgets.
    Dr. Billington. We can try to give you a precise estimate.
    [The information follows:]

    The Library's five-year request to Congress to acquire the 
new equipment and staff resources necessary to operate the 
NAVCC concludes in fiscal year 2008. Full initial operations 
will begin in fiscal year 2009, and ongoing annual costs 
beginning that year will be approximately $23.4 million for the 
Library. This estimate does not include the AOC's operating and 
maintenance costs for this facility. This estimate includes 
$11.4 million for salaries and benefits of the 139 Motion 
Picture, Broadcasting and Recorded Sound (MBRS) employees, 127 
of which will be located at the Culpeper facility, $7 million 
for preservation digitization, $3.5 million for storage, and 
$1.5 million for infrastructure support. The operating 
capacities reflected in these costs were established based on 
our urgent need to preserve at-risk national heritage 
collections dating back nearly 120 years, as well as the need 
to begin ingesting significant new born-digital works. 
Fortunately, the proven technologies to achieve this have 
recently become available, and the Packard Humanities 
Institute's gift of the state-of-the-art NAVCC facility will 
allow the Library to take advantage of these technologies for 
the first time.

    Dr. Billington. We were actually applying for less money 
for this because there was significant reduction in FTEs from 
last year, because a lot of that was for the transition period, 
where we had to install things in sequence and that required a 
little bit of a buildup in the last couple of years.
    We can give you an estimate of how it looks. The current 
situation is that in November they turned over the ownership of 
the central plant to the Architect of the Capitol. This is a 
complex operation because the work is basically being done by 
the Packard Humanities Institute, but we are putting in the 
infrastructure. In December they turned over the ownership of 
the collections building to the AOC for occupancy by the 
Library and we have already begun moving staff and 
collections--we have six collection maintenance employees now 
out there working, and the first collection items just this 
past month were moved from Capitol Hill. The remaining 
collections will be staged for relocation from many different 
storage locations to be centralized into one location 
throughout this calendar year.
    Construction continues on the conservation building and the 
nitrate vaults. The conservation building is where most of the 
staff will be moved. We will be saving $500,000 of annual lease 
costs, starting in 2008 as a result of the collections being 
moved to Culpeper.

    NATIONAL AUDIO-VISUAL CONSERVATION CENTER--PACKARD CONTRIBUTION

    Mr. Chairman, I cannot say exactly what the cost 
contribution from the Packard Humanities Institute will be, but 
it looks like it will be the largest single private capital 
contribution to a Government building in history. We have to 
confirm that. It would not be if you multiplied by inflationary 
factors. But it is a very, very major contribution.
    We think that the base will probably not be very different 
from what it is once we get over this bump. I will try to give 
you as precise estimates as we can of what is anticipated. It 
is going to be really quite an amazing facility. One thing that 
is particularly interesting and important about this for the 
long-range cost is that the capacity is so great out there that 
we should be able to accommodate for many, many years to come, 
even decades to come, the anticipated storage need. It is also 
the first facility that will have digital storage capability, 
so this is very, very important. It will reflect the standards 
that Congress asked the Library to establish some years back 
for audio-visual conservation. It will be the largest and the 
most up to date facility of its kind anywhere.
    By this time next year it ought to be functioning, when it 
is finally conveyed from the Packard Humanities Institute 
through the Architect of the Capitol to the Library for its 
usage.

                        PERFORMANCE MEASUREMENT

    Senator Allard. I want to press you a little bit on the 
Government Performance and Results Act. I would like to have 
you present this subcommittee with a few examples of how the 
Library measures its program performance and makes budget 
decisions based on program effectiveness.
    I want something specific. So if you can answer that 
question for us if you are prepared to. I suspect you may not 
be, and you could present us a written presentation about some 
specific programs where you are applying it and making 
administrative decisions based on what you are seeing on the 
performance objectives.
    [The information follows:]

    Since 1997, the Library has used the GPRA model as a guide in 
developing and implementing its strategic plans and annual operating 
plans and performance reports. Library programs have made significant 
progress in developing goals and objectives that focus on measurable 
outcomes rather than outputs. Consistent with GPRA requirements, the 
Library is once again reviewing and revising its strategic plan which 
will include major changes to its goals, performance measures and 
targets, and assessment systems.
    As part of the Library's annual budget process, each office reviews 
their base resources to determine if additional investments are needed 
to support the Library's goals and objectives. Over the past few years, 
this review has become increasingly important, as the transition to the 
digital age has required ongoing reengineering of our work processes. 
Based on congressional direction and cognizant of Federal budget 
realities, the Library took a hard look within and across organizations 
in determining its resource requirements for fiscal year 2007. As a 
result, our fiscal year 2007 budget request reflects only a 4 percent 
increase over fiscal year 2006, and a net decrease in FTEs--reflecting 
mostly mandatory pay and price level increases. Despite these limits on 
our budget request, the Library will continue to maintain relevance in 
the digital age with enhanced strategic planning and workforce 
transformation.
    Some examples of how Library program offices applied GPRA 
principles in administrative and budget decisions include the 
following:
Copyright Office
    As a standard practice, the Copyright Office monitors productivity 
and staffing levels and adjusts hiring and overtime decisions based on 
trends in receipts, productivity, processing time and amounts of work 
in process. Based on these reviews, the Copyright Office has taken 
actions such as cross-training staff to perform work in areas needing 
assistance, focused overtime in areas where processing time was longer, 
prioritized hiring for areas that were lagging in production. These 
decisions were factors in a more than 50 percent reduction in average 
processing time for registrations since 2001.
    The Copyright Reengineering Project is a multi-year effort to 
improve Copyright's business processes based on an analysis of its 
current services to the public. With the reengineering study 
recommendations, the Copyright Office developed a multi-year planning 
and budgeting strategy to reconfigure its current facilities, build a 
new IT system, and reorganize its staff within the new business 
processes. After the implementation of the reengineered processes and 
based on processing times, productivity rates and customer satisfaction 
findings, the Copyright Office will determine whether to reduce 
staffing in areas identified as overstaffed, reallocate and reassign 
staff based on workload across all areas and/or modify functions. One 
or all of these actions may result in changes in future budget 
requests.
    The Copyright Office planned for a significant reduction in renewal 
fee receipts in fiscal year 2006 and beyond. The number of renewals has 
decreased over the past several years based on statutory changes that 
made renewal registration voluntary. As a result, the Copyright Office 
has requested a permanent decrease in its offsetting collections 
authority and a reduction of five FTEs in fiscal year 2007. The 
Copyright Office also determines its fees using activity-based costing 
methodologies to review costs of providing services while giving due 
consideration to the purposes of the copyright system and the statutory 
requirement that the fees be fair and equitable. As a result of this 
review, the Copyright Office submitted a new fee proposal to Congress 
on March 1, 2006.
Congressional Research Service
    In early January-May 2005, CRS undertook three comprehensive 
studies of support areas: Production and Administrative Support, 
Technical Support Assistants, and Audio-Visual Support. The objectives 
of the studies were to identify the services and tasks currently 
performed by these support groups, determine the extent to which the 
services and tasks met the broader CRS staff support needs, identify 
any unmet support needs, and determine the most efficient and effective 
ways to satisfy all support needs in the aforementioned areas vis-a-vis 
the Service's investments in technology. For the past few years, these 
support functions were carried out by approximately 59 staff, at an 
fiscal year 2006 estimated cost of $4.4 million.
    To accomplish these objectives, CRS reviewed the position 
descriptions for staff working in the support areas and, to ensure 
consistency, developed structured questions to collect needed data from 
a range of staff and using several methodologies. CRS conducted 
numerous interviews with mid- and senior-level managers, support staff 
in all three areas, and other staff who utilized the support services. 
Based on the data collected via document reviews, meetings, 
consultations, and interviews, CRS compiled comprehensive lists of the 
support services and tasks performed in each support area. Afterwards, 
study participants (i.e. managers, support staff, and users of the 
support services) were given copies of the lists and asked to verify 
the extent and frequency which the support staff performed the 
identified services/tasks.
    The analysis supporting these studies led the Service's leadership 
to recognize that the services and tasks provided by the 59 positions 
had been overtaken by advances in technology (desktop tools and 
operating environment) and were no longer needed. The analysis 
demonstrated that new and different services and tasks were needed; 
therefore leading to a workforce re-engineering of the administrative 
staff. CRS has announced its intention to abolish the 59 outdated 
positions, effective September 30, 2006. The Service has also developed 
a cadre of fewer and new positions that will provide administrative 
support.
    The Service's current budget can afford approximately 705 FTEs; 
however with the 2006 one percent rescission and the prospect of a 
similar action in 2007, CRS may need to adjust its FTE estimated 
ceiling down again. Retaining the 59 staff indefinitely would have 
adversely impacted the Service's ability to sustain an analytic 
capacity of between 335 and 350 staff while at the same time adjusting 
its total workforce to the 705 ceiling. The long-term results of the 
CRS workforce re-engineering will be to free up FTEs and funding which 
can be redirected to maintain the needed level of analytic capacity for 
the Congress.
    For several years, CRS has maintained a business activity that 
provides courier delivery and pick-up services directly to and from all 
Congressional member offices, Congressional committee offices, the 
Capitol and CRS Research Centers as well as intra-Service mail pick-up 
and delivery. The operation has been staffed with a combination of 
contractor personnel and CRS staff--and at the time of the review 
(early- to mid-2005), the operation was staffed with 11.5 contractor 
personnel (including an on-site supervisor) at an annual cost of 
$432,000 and three CRS mail clerks at an annual cost of $131,500, for a 
total cost for this business activity of $563,500. The contract was at 
the end of its five-year life; and, as a result, CRS took advantage of 
an opportunity to analyze fully the current workload statistics data as 
a means of updating the contract to better reflect the new ways in 
which CRS communicates with and provides information to the Congress--
increasingly via electronic means.
    CRS staff gathered, assimilated and analyzed historical financial 
cost information on each element of the work performed under this 
contract. They conducted extensive interviews with an on-site 
supervisor, particularly regarding tasks performed, methods employed, 
and operating procedures; staff toured the facilities, witnessed 
operations, conducted survey-level time and motion studies, spoke with 
the couriers, and discussed problems encountered and solutions 
developed; staff interviewed the CRS Contracting Officer's Technical 
Representative (COTR) regarding services performed under the contract, 
the history of the contractual services, and the performance of the 
contractor as well as performance standards prior to outsourcing; staff 
gathered, assimilated, and analyzed month-by-month statistical data, 
from 1999 through 2005 including: delivery of packages and books to 
Congressional offices (CRS provides this service the entire Library of 
Congress), pick-up of packages and books from Congressional offices, 
sorting and bundling of non-rush Congressional mail and delivery to 
House and Senate Post Offices, preparation of mail for Congressional 
district offices, and sorting of CRS mail.
    The study concluded that the activity continues to provide a vital 
service which supports the core mission of CRS--basic to meeting the 
needs and fulfilling the requests of Congress and Congressional staff 
for information. Customer surveys, from both Congressional and CRS 
staff, reflected a high satisfaction level with both the service and 
the performance of the contractor. However, the workload statistics 
data confirmed that the number of items exchanged via the courier 
service had been, and continues to decline each year. The analysis 
revealed that the services could likely be performed by one, and 
possibly two, less personnel.
    The study results provided CRS staff with substantive data that 
produced a re-negotiated contract with ten contractor personnel and one 
CRS staff--a total annual cost reduction of $84,000 which has been 
redirected back into the Service's overall budget.
    CRS has for many years maintained a contractor-operated technology 
help desk. The contract covered four highly skilled personnel to 
provide immediate desktop services to CRS staff. While there was no 
debate about the on-going need for desktop services given CRS's 
reliance on technology tools, this contract was at the end of its five-
year life and warranted a thorough review in order to redefine the 
scope of work and level of expertise needed to match the technology 
environment of 2006 and beyond. This study was conducted at about the 
same time as the functional review of approximately 18 Technical 
Support Assistants.
    The review began with an examination of the contract documentation, 
contractor workload statistics, monthly billings over the life of the 
contract, interviews with CRS program personnel, principally the COTR, 
to gather data on such questions as the services provided under the 
contract, the need for the activity, the definition of successful 
service delivery, methods and factors used to evaluate the contractor's 
performance. The financial data and contractor workload statistics were 
analyzed. The review included an assessment of contractor levels, 
current workload and the real cost of the activity, including the CRS 
management overhead, contractor management fees, and the cost of CRS 
staff with greater technical expertise at the GS-14 level who handle 
escalated service calls which are outside the scope of the help desk 
contract. Based on the review of documentation, interview data, and 
financial information, alternative methods of performing the activity 
were developed and a cost and benefits alternatives analysis was 
prepared.
    On the surface, the viable alternatives costed out within $50,000 
per year of each other; however, best business practices support that 
contracts typically provide the better short-term solution when the 
environment is changing. The Service's recent need for expanded help 
desk hours of coverage to better match the work hours of CRS analysts 
and information professionals (from 7:30 a.m. to 7:30 p.m.) is one 
example of needed flexibility. Another example is the need for expanded 
expertise to help integrate new software and operating systems into the 
Service's products, e.g., with sophisticated graphics and tables. The 
entire technology environment in CRS is undergoing a major 
transformation as the Service moves to a new authoring and publishing 
system. A contract will ensure that CRS has the flexibility to respond 
quickly to the specific work skills needed by the Service and to keep 
pace with continuing changes/advances in the field. This kind of 
flexibility could not be achieved with federal employees employed under 
specific job classifications, grade levels, or in a union environment, 
such as CRS, where ``changes in work conditions'' are generally 
bargainable. Even changes in work hours cannot be effected easily with 
CRS employees in the bargaining unit.
    The new help desk contract will be awarded within the next few 
months.
Library Services
    After analyzing its in-house costs for processing the same 
materials and seeking to reduce its costs, the Library contracted with 
its Italian book vendor to supply shelf-ready books. These books 
arrived at the Library fully cataloged, labeled and ready to be added 
to the collections for immediate use. As a result, three acquisitions 
staff were freed up to be reassigned to other critical processing 
tasks. The Library expects to use this model to expand to other book 
vendors for future contracts to continue to reduce its processing 
costs.
    Taking advantage of the functionality of the Web, the Library 
implemented a Web based exchange program to enhance its acquisition of 
materials through exchange. Stemming from a business process 
improvement project, the program improves the Library exchanges with 
its partners; reduces Library staff time needed to manage and execute 
the program; reduces space needed to store the duplicate material to be 
offered on exchange; and reduces the number of times items are 
physically handled. The Library's new Web program--which now has over 
740 participants--facilitates its ability to receive reciprocal items 
from the exchange partners to help build its collections at much 
reduced costs. In fiscal year 2005, the Library's acquisitions 
divisions received 148,696 pieces from its exchange partners.
    The Cataloging in Publication (CIP) Program was established in 1971 
to provide advance cataloging copy for publications most likely to be 
acquired by the Nation's libraries. Since the Program's inception, 
Library staff have produced catalog records for 1.3 million titles, 
saving public and research libraries the cost of creating these 
records. As an efficiency measure, the Program--which has over 5,000 
publishers that submit their prepublication data--has made the 
transition to electronic processing using the Web. The Electronic CIP 
Program (ECIP)--which now has over 3,600 publishers participating--has 
saved staff time (equal to three full time staff), has dramatically 
reduced throughput time for processing titles, and has overall reduced 
the per title cost of processing CIP titles. The Library saves annually 
$10,000 in postage as a result of not having to mail cataloging data in 
print form to the publishers. ECIP has enabled the Library to achieve 
additional savings by having other research libraries take on the 
cataloging of preprint publications--Cornell University and 
Northwestern University currently contribute annually approximately 200 
cataloged titles.
    The Library's bibliographic access divisions have analyzed the 
costs of producing a catalog record. The costs are driven by both the 
complexity of the cataloging rules and procedures and by the level of 
staff who create the records. To address the latter, the Library 
instituted a pilot in one of its divisions to have technicians use 
catalog records produced by other libraries as the basis for the 
Library of Congress record. Using lower level staff has yielded 
measurable gains. The division's production of copy cataloging 
increased by thirty percent between fiscal year 2004 and fiscal year 
2005 (from 9,725 titles to 12,670). Concomitant to the division's 
increase in copy cataloging output was a one-third decrease in the 
number of hours devoted to more expensive full, original cataloging 
between the two fiscal years (from 67,582 hours to 57,231). This model 
will serve in planning fuller scale use of technicians for processing 
functions commensurate with their level of expertise.
    The Library has worked with the library community to reduce the 
complexity and cost of producing catalog records. In collaboration with 
the library community, an analysis was done of the record content with 
a goal of removing elements that were not necessary to provide 
satisfactory service to users seeking information. The resulting 
record, ``a core level catalog record,'' reduces the cost for 
cataloging per item by as much as 43 percent. The Library has now 
adopted the core level record as its default catalog record. These 
records meet the needs of end user while meeting the needs of other 
libraries to provide access to their collections.
    In fiscal year 2005 Library Services contracted with an information 
services research firm to assist with a strategic assessment of the 
needs and expectations of the National Library's constituents. A 
nationwide survey is currently underway to gather data that will be 
used in the process of assessing the effectiveness of National Library 
programs. The results from this and other data-collection efforts will 
inform future Library Services administrative decisions.

                      RESULTS-BASED DECISIONMAKING

    General Scott. Yes, sir. We could answer the question now, 
but in the interest of time, I would----
    Senator Allard. We have time.
    General Scott. The way the Library implements its planning 
process is the Librarian each year issues guidance to each one 
of the program offices within the Library, and he gives his 
objectives and goals around which the other programs have to 
respond and then come up with theirs. The offices will come up 
with an annual plan, and that annual plan is based upon the 
measurable task, where possible. Now, all the tasks cannot be 
measured, but where they can be measured, offices list those 
tasks that will be accomplished.
    Then when the budget has been put together, those tasks and 
those goals become part of our operating plan that we submit to 
the Congress.
    In addition to coming up with the annual plan, we also have 
for the senior managers, a performance evaluation system that 
reflects what goals and objectives they have worked on and 
achieved during the past calendar year. Those objectives and 
goals are very specific and do tie back to the budget.
    Senator Allard. Can you give us some examples of where 
there was not adequate performance for one reason or another?
    General Scott. There was inadequate?
    Senator Allard. Where there was not adequate performance 
and because of inadequate performance maybe you reduced that 
function, perhaps shifted dollars to another area of the 
Library where there was better performance. Can you think of 
some examples like that in your budget?
    General Scott. I cannot off the top of my head give you an 
example of that.
    Senator Allard. That is what we are looking for. It is 
those kinds of administrative decisions that you may have been 
making in the Library of Congress, where they actually had an 
impact on how you managed the program. Maybe you took some 
money from it because you perceived the performance could have 
been better and should have been better and you had to 
reevaluate it. Perhaps you had another area over here where you 
saw a need, where they were meeting the goals and objectives, 
and maybe shifted a little.
    We are looking for some specific examples of applications. 
You are saying the right things, but we are just looking for 
areas you can point to where you actually used that to make 
administrative decisions.
    General Scott. Yes, sir, we understand and we will get you 
some examples.
    Senator Allard. If you feel like you need some help in 
outlining that the Government Accountability Office (GAO) does 
a good job on objectives and making some decisions on that. 
Maybe to consult with them might be helpful in tailoring what 
we are looking for as far as program guidance. Okay?
    General Scott. Yes, sir, we will do that.

                     DIGITAL TALKING BOOKS PROGRAM

    Senator Allard. On to the Books for the Blind and 
Physically Handicapped. You have been working on it for several 
years to develop what we call a digital talking book to replace 
the current cassette-type system, to make books available to 
the blind. Over the next several years, approximately $75 
million will be requested to produce the new machines.
    In fiscal year 2006 you plan to spend $12 million to 
purchase the old machines which will soon become obsolete. Why 
do we need to purchase any additional cassette machines in 2006 
when I am told there are over 700,000 cassette machines 
currently in circulation, inventory, or repair? Then maybe 
during this you might talk a little bit about the status of the 
new plan.
    Dr. Billington. I think we will ask Mr. Kurt Cylke, who is 
the Director of that program, up. But I just want to say that 
we have to maintain the service and we have to maintain the 
inventory during the transition. We are on the schedule that 
has been long established by Mr. Cylke and by the service, but 
we cannot have a drop in the current analog service until the 
digital program is operational. We are asking for a $19 million 
startup. That was what was always intended. That is not a 
change in the plan.
    We cannot have a drop-off in the service in the meantime. 
Mr. Cylke can elaborate.

                      CASSETTE MACHINE REPLACEMENT

    Senator Allard. Do we have cassette recorders over here 
that could be repaired, that we could put in without having to 
buy new ones during this transition period?
    Mr. Cylke. We have, Mr. Chairman. We have approximately 
740,000 cassette machines in the field. Many of them--most of 
them, of course, are in use by individuals. There are a certain 
number of inventory and then there are a certain number being 
repaired.
    Let me get to your original question of why we are buying 
machines in 2006. Working very closely with the Inspector 
General, we had a study performed that projected out the needs 
for the cassette machine until we can get into the digital 
program. We have 23 million copies of books in libraries and 
warehouses around the United States. We have the 700,000 
machines using them and we are going into the digital age.
    As you heard from Dr. Billington, we are proposing to 
request $19.1 million a year for the next 4 years into the 
budget to permit us to buy those digital machines, and then 
withdraw the additional funds from the budget and go on. 
However we need cassette machines to keep the people who are in 
the program now able to use the millions of books and magazines 
that are available.
    Senator Allard. Would you agree with these figures: We have 
about 133,517 available for loan from the Library?
    Mr. Cylke. That is correct.
    Senator Allard. So that we have a total of 720,000----
    Mr. Cylke. Something close to that. That is correct. Yes.
    Senator Allard. Okay. And then an additional 42,000 
machines you are planning on buying in 2006?
    Mr. Cylke. That is correct. As a matter of fact, I believe 
the contract will be signed today or tomorrow. Again, what we 
did was make an in-depth study of the number of machines that 
we would require to keep the cassette program going until we 
can get into the digital program. This is our final buy of 
machines.
    This report was done by an outside contractor, reviewed by 
Mr. Schornagel, the Inspector General, and his staff. 
Suggestions were made and the number of machines, the 40,000 
plus, was based on a review with the Inspector General.
    Senator Allard. Then you are just going to flat drop off a 
cliff so to speak?

                       ANALOG-DIGITAL TRANSITION

    Mr. Cylke. There will be no future purchase. That is it. We 
have been in the cassette program from the early 1970s, but 
this is our last purchase of cassette machines.
    Senator Allard. And you are going to phase these out?
    Mr. Cylke. They are going to be phased out, but the new 
machines that come in--again, we have millions of copies of 
books on the shelves for use in the cassette format. All these 
books for the last 2 years and into the future will be in 
digital masters. The digital machine will be available to us in 
the beginning of 2008 and it just depends on how much money or 
how the funds are made available by the Congress as to how many 
we can build.
    But we would expect to buy over a 4-year period the great 
bulk of those machines.
    Senator Allard. Are these machines that you have now in a 
format that can easily be transferred over to the digital 
format?
    Mr. Cylke. The machines are not--the machines are analog 
cassette machines. They are four-track, half-speed cassette 
machines. But the analog books that are available on the 
shelves we are converting at a rate of a couple of thousand a 
year of the more important titles. Now, obviously in a public 
library environment many of the books would not be replaced. 
But we are converting things like the classics where we have 
them and going through what we call an A to D process, analog 
to digital.
    We should have 20,000 digital books by 2008. That would be 
reconversion as well as new books that have been mastered that 
way.
    Senator Allard. The public will use the analog and the new 
ones that you are going to put on the digital?
    Mr. Cylke. Digital only.
    Senator Allard. Digital only?
    Mr. Cylke. Well, analog and digital for 1 or 2 years.
    Senator Allard. But then as those others get used up, then 
you will put them on digital; is that your plan?
    Mr. Cylke. If I understand what you are saying, would the 
23 million copies be converted. We will convert only the ones 
that will be of continuing use. In other words, every year we 
do a certain number of fiction items, best sellers.
    Senator Allard. I see.
    Mr. Cylke. They certainly would not--old best sellers would 
certainly not be converted. I do not want to offend anyone, 
but----
    Senator Allard. You do not want to offend anybody's 
favorite book here.
    Mr. Cylke. Right.
    Senator Allard. Now, I want to refer to the IG here. Do you 
have some comments on this program? Do you think that we are 
going in the right direction? Can you comment on that?

                      DIGITAL TALKING BOOKS AUDIT

    Mr. Schornagel. Yes, I do. My office issued an audit report 
on this program back in 2002 that deals a lot with the issues 
that you are raising and recommended that a formal analysis be 
done to bridge the transition from the analog to the digital 
technology and reduce the number of purchases of new machines, 
and that has been done; and also to increase the repairs of the 
used machines.
    My office has been very actively involved in the last few 
years in supporting cost analysis and negotiation strategies 
with this contractor, and has resulted in several million 
dollars in savings. I think that the old analog machine 
purchases are necessary. The fact that we are going to cut it 
off, we really could not justify paying higher unit costs to 
buy smaller quantities in 2007 and beyond.
    It is going to be 2014 to 2017 before these old analog 
machines are completely phased out. People have a tendency to 
want to hang onto them and not want to change technologies. So 
I think that the strategy and the fact that Mr. Cylke is 
getting the full life out of all the old machines that the 
taxpayers are supporting the purchase of is really a reasonable 
approach.

                         CAPITOL VISITOR CENTER

    Senator Allard. Let us move on to the Capitol Visitor 
Center (CVC) tunnel. There was a report in Roll Call just this 
last Tuesday on page 3 that part of the tunnel project might be 
paid for out of private funds. Is this an accurate report and 
would you like to comment on that article, Dr. Billington?
    Dr. Billington. Yes. That is not an accurate report. The 
quote of the CVC spokesman was erroneous. The spokesman himself 
told my chief of staff yesterday that he had been misquoted and 
had already issued a correction. The Library of Congress was 
not contacted by the reporter about the article before it was 
written, so the issue might have been cleared up before 
publication.
    Let me make it very clear. We understand and have always 
understood that the cap of $10 million is firm and we have 
never requested any changes to the construction of the tunnel. 
We have always understood this appropriated amount to be a very 
firm limitation. The Architect of the Capitol has given us full 
assurances that the $10 million appropriated will fully cover 
the costs of the construction and Jefferson Building changes as 
presently proposed.
    I could go into more detail if you want.
    Senator Allard. I just want you to clear the record and 
make sure you are comfortable that we have the facts on record.
    Dr. Billington. Yes. The original appropriation allocation 
was $10 million. We understand that the AOC has spent $5.1 
million for tunnel construction, which includes a $200,000 
contingency, and that just recently they have put out a 
contract for $4 million for changes, that was issued just last 
week.
    That leaves a balance of $900,000 for contingency, which is 
well under the $10 million cap.
    Senator Allard. Any problem with that cap?
    Dr. Billington. We do not see any problems with it, and we 
are not requesting any changes or additions.
    Senator Allard. I would expect that with the opening of the 
Capitol Visitor Center you are going to get more visitors, more 
people wanting to visit the Library of Congress. You are not 
going to have to negotiate across the street and you will 
probably get more members as well as more visitors wanting to 
use that tunnel.
    Are you expecting a large increase in visitors and are you 
doing anything to try and accommodate that?

                   CELEBRATION OF AMERICAN CREATIVITY

    Dr. Billington. Yes. We have been looking into this in some 
detail. The estimate has been given that as many as 3.5 million 
people will be coming into the new visitors center. We want to 
use the public spaces of the Jefferson Building as the focal 
point for additional visitors to the Library. We have done some 
very careful analysis and planning, with a lot of consultation, 
all, I might add, on nonappropriated funds. This is all being 
done with private funding--what we will do to prepare for more 
visitors will depend on what we can raise from private funding.
    The idea will be to celebrate and illustrate and involve 
people in one of the most important contributions that the 
Congress of the United States has made to the American people. 
No other government in the world has as consistently and as 
fully preserved the private sector creativity of its people as 
has the United States, and in particular the legislative branch 
of Government.
    Once the Copyright Office was placed in the legislative 
branch of Government, we were able to retain in the Library's 
collection as closely as possible the mint record of American 
creativity. By housing innumerable collections, we have way 
over 5 million pieces of music, we have the world's largest 
collection of movies, nearly 1 million movies and moving image 
titles--these are amazing accomplishments that the Congress has 
achieved. We want to celebrate this, which we think will 
supplement and round out the story of the Congress and of its 
governance, its oversight and legislative functions, which will 
be illustrated in the Jefferson Building's expanded exhibits.
    We think this will be an important illustration, calling 
attention to a great achievement of Congress, which we have 
been fortunate enough to be the custodians and administrators 
of. This summer we are bringing in interns to find and 
illustrate more things in the copyright deposits that can be 
celebrated and realized. We will use our public spaces, without 
interfering with the traditional usages of the Library, to in a 
dignified way both introduce visitors to the importance of 
knowledge and to give them some experience of creativity. This 
experience will be richly illustrated, not only by the artists 
and the performers, but also by the inventors and the other 
scientists and inventors that made America the creative country 
it is. The creative use of freedom, and the Congress' crucial 
role in preserving this record of creativity will be the main 
thing we are going to be illustrating and celebrating.
    Senator Allard. I think you have a great facility there. As 
you know, my wife uses that Library personally--we go over 
there and walk the halls and do the searches through the 
computer and through your catalogue. I think a lot of Members 
send their staff over, but we will wander over there 
personally. I would agree that it is a great facility. We 
should be very proud of it. We are privileged in this country 
to have that kind of a facility available for us.
    So we want to do everything we can to help make it better 
and continue to make it meet the needs of the American people.

                         WORLD DIGITAL LIBRARY

    Let me move on. I want to talk a little bit about the World 
Digital Library. In November the Library entered into a 
cooperative agreement with Google to develop a World Digital 
Library. Apparently Google is contributing $3 million to this 
effort. Could you update us on this project?
    Dr. Billington. I think this is very exciting. As you know, 
we had close to 4 billion electronic transactions last year. 
Our American Memory website has brought more than 10 million 
items of American history and culture online. We are continuing 
to augment that with materials that highlight creativity and 
the culture. In fact, there will be a connection between the 
website and exhibit space within the Jefferson Building. The 
visitors experience will include an invitation to use our 
educational website as well.
    What we are adding here, again with this important startup 
private money which is purely philanthropic--it is a 
nonexclusive arrangement--is putting the memory of other 
cultures online.
    It is important to dramatize to the world, both to help 
America understand the cultures of foreign countries, with whom 
we are more and more involved, our already large educational 
website and training, facilitating its educational use, to 
provide windows into world cultures. We are going to begin with 
pilot projects with other countries. We are going to launch the 
World Digital Library very carefully, as we did with the 
American Memory project that began our educational and 
inspirational online presence.

                  PARTNERSHIPS WITH NATIONAL LIBRARIES

    We are going to do it jointly. We already have agreements 
with six other national libraries to do joint projects. Our 
original project with the Russians, which was funded and 
initiated by congressional action, is approaching 1 million 
items. We are getting great cooperation from them. They are 
giving us access to nearly everything we want.
    So we have had a successful startup with special funds, and 
now agreements with a wide variety of countries--our most 
recent agreement is with the National Library of Egypt. I was 
just in Egypt and we are going to expand that collaboration. We 
have in our collections the history of Islamic science, which 
is something that has been well preserved, not just in Egypt 
but also in America and in the Library of Congress.
    We are going to be developing and celebrating the memories 
of other cultures, which we think will appeal to the other 
cultures, with bilingual commentary, and a high audio-visual 
component in the middle. This initial grant, and it is a purely 
philanthropic one, is one of the first that they have made in 
this way. It is going to be a very positive first step.
    We are considering particularly expanding into a major 
enterprise the small beginnings we have made with Brazil and 
Egypt. We will be looking into a variety of prospects to take 
our joint projects out to some of the other ancient cultures of 
the world and dramatize to them that America has been a 
guardian and a preserver of much of the world's cultural 
heritage. We will, in cooperation with the repositories in 
those countries, present it together, an American and Egyptian 
collaboration, and an American and Brazilian collaboration, and 
American collaboration with these other countries.
    We already have cooperative agreements with six countries, 
as I mentioned. We believe that America can play a leading role 
in helping develop better communication about the different 
cultures of the world that will increase our understanding of 
them and their appreciation of what we have done in this 
country to preserve their heritage as well as our own.
    Senator Allard. Very good.

                     OPEN WORLD LEADERSHIP PROGRAM

    Now, one last subject I want to cover has to do with the 
Open World Leadership Program. With respect to the Open World 
Program, I understand that Ambassador James Collins is 
undertaking a thorough review of the program at your request. 
Can you tell me when this effort will be complete and what 
particular aspects of the program may be overhauled? Now I 
understand that this is not a part of the Library, but you are 
the chair of that program and so I wondered if you could give 
us just a brief report on what you expect out of that thorough 
review.
    Dr. Billington. Yes, sir. We are doing, as we have already 
done and are refining within the Library, a comprehensive 
strategic plan for the Open World Program. Open World has been 
very successful. It is a unique undertaking in the legislative 
branch. It has brought more than 10,000 emerging young leaders: 
Russians, a growing program with the Ukraine, and startup 
experimental programs with Lithuania and Uzbekistan. There have 
been many suggestions from Members of Congress and others about 
this unique program, which is modeled in a lot of respects on 
the 1.5 percent of the Marshall Plan that was spent bringing 
young Germans over to the United States after the war. Open 
World is bringing over people from the former Soviet Union 
after the cold war.
    Now, we have tasked Ambassador Collins, who was Ambassador 
to Russia when the program was initiated in 1999, to conduct a 
strategic plan--and he is a member of the board of Open World, 
which of course has an independent existence within the 
legislative branch of Government, although certain 
administrative functions are performed still by the Library and 
I do chair the program.

                       OPEN WORLD STRATEGIC PLAN

    This strategic plan will be completed in late June or early 
July. We will present it at the board meeting and if agreed to 
by the board, we will provide for the implementation of the 
strategic plan. We will be looking at such questions as 
possible changes in the nature of the exchanges, which have 
been very successful--the areas to be covered. We now cover 
rule of law both in Russia and Ukraine, which is so central to 
the prospects of democracy--democratic development in those 
countries--and that has been an extraordinarily successful 
program. That is sure to survive.
    But other programs, exactly what we should stress, whether 
this should be expanded to other countries and at what level 
are under review. We are discussing those issues of course in 
the strategic planning process--the staff has been working on 
it from the end of last year. The board meeting in December 
determined that we will reach conclusions and have the formal 
strategic plan from which future budgetary submissions will be 
derived.
    We will also be looking into, very closely into, possible 
economies, and we will be probably making changes. We will 
bring on fairly shortly a full-time executive director. We have 
had very good leadership up to this point. Geraldine Otremba, 
who does our congressional relations, was handling it at first. 
Aletta Waterhouse, who was also with it from the beginning, has 
been acting director since September. We will have a new 
executive director, a permanent appointment that we will be 
able to announce very shortly.
    That executive director will have a chance to work with and 
implement the strategic plan. There are a number of GAO 
suggestions, most of which we have already addressed, but they 
will be folded in in a full accounting into a full strategic 
plan from which we will derive our next budgetary submission.
    Our current budget request represents basically a 
continuation of what we are doing, more or less, with only a 
marginal adjustment this time for unavoidable cost increases, 
mostly in air fares.
    Senator Allard. I look forward to seeing what that final 
report is.
    Dr. Billington. We would hope to report to, discuss our 
strategic plan with the Appropriations Committees before the 
board takes final action on it as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. Very good. Thank you.
    I do not have anything else. Any summary comments?
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
              Questions Submitted by Senator Wayne Allard
                                 genpac
    Question. The Library requested a base adjustment for GENPAC of $2 
million that is more or less evenly divided between serial and 
electronic purchases to ``help keep pace with the greatly increased 
cost of serial and electronic materials (without which) risks eroding 
the foundation of the many services provided by the Library to the 
Congress and the nation.'' The Library's justification notes the 
rapidly growing number of electronic journals (approximately 35,000), 
and that the cost of journals has been rising at the rate of over 14 
percent per year. How much of the Library's costs are for providing the 
same information in different formats? What percentage of the journal 
collection is available in multiple media? What criteria are used to 
decide whether to offer journals in electronic and print formats?
    Answer. The Library generally does not purchase content in multiple 
formats. In a few instances, when materials exist in both print and 
electronic versions, the Library will acquire both.
    Duplication of information may occur for several reasons:
  --The manner in which publishers package journals into sets or 
        aggregated databases causes duplicative content to be included 
        in the Library's acquisitions for the collections. An 
        electronic database may have several hundred journal titles 
        included, two-thirds of which are unique to the Library's 
        collections and therefore wanted. The remaining one-third may 
        be duplicative of print journals, but because of the value of 
        the unique two-thirds, the database is acquired (either 
        purchased or licensed).
  --Some publishers provide a free print copy of a journal when the 
        electronic journal is purchased.
  --Electronic publications package their content uniquely, often 
        offering significantly increased functionality, indexing, and 
        ability to manipulate it. Because of the value that is added, 
        the Library is providing a service to Congress and other users 
        by purchasing an electronic copy, even when a print version is 
        already in the Library's collections.
    Because of the accelerating number of electronic journals being 
published and the Library's vast collection of print journals, the 
percentage of the journal collection available in multiple formats 
cannot be determined. Because the long-term preservation of digital 
content still poses a challenge and because the Library has not 
completed its development of a digital repository to archive electronic 
journals for future generations, the Library has determined that it 
must continue to acquire print copies of journals that exist in both 
electronic and print form. The Library has taken steps, however, to 
mitigate its expenditures for electronic content. It is developing 
trusted partnerships with other organizations to ensure long term 
access to electronic journal content, which will allow the Library to 
cease purchasing duplicate copies of those titles. It also is testing 
the deposit of electronic journals for copyright and seeking change in 
the legislation for the mandatory deposit of various kinds of 
electronic content. The Library further initiated an effort several 
years ago to reduce its acquisition of multiple print copies when it 
was also acquiring an electronic version, thereby considerably reducing 
the duplication.
    When deciding on the format of journals, the Library follows these 
guidelines:
  --If a journal is issued in only one format (print or electronic), 
        the Library acquires the title based on the importance of the 
        content.
  --Electronic versions of print materials already in the collections 
        are acquired to improve ease of access or to allow multiple 
        users access to high-demand content.
  --Both print and electronic versions of journals are acquired if the 
        second format is offered at no additional cost.
  --Print or microform journals are acquired when electronic versions 
        exist, to ensure long term preservation.
    Print or microform journals are acquired when electronic versions 
exist, pending completion of the Library's development of its digital 
repository.
                     copyright records preservation
    Question. How will digitizing these records change your future 
maintenance and storage costs?
    Answer. The primary purpose of this project is to preserve the 
records--to provide an archival backup for the analog records, 
protecting against the possibility of loss of this irreplaceable, one-
of-a-kind collection. During the first six years of the project, the 
records, including bound record books, microfilm reels, and catalog 
cards will be scanned and rudimentary index data will be captured. This 
will ensure the records can be archived and be accessed electronically 
at a basic level that will facilitate further indexing. However, the 
title, author, and copyright owners are not searchable terms in the 
rudimentary index. For the public who rely on our records, this index 
would not be a substitute for the original records until detailed 
indexing is accomplished in future years.
    The Copyright Office needs to retain all these analog records until 
that time, when the individual electronic records will be integrated 
with the post-1977 copyright records currently available for search and 
retrieval. The detailed indexing project is estimated to cost as much 
as $64 million.
    The Copyright Office will continue to house the card catalog on the 
fourth floor of the Madison Building to facilitate access for those who 
use these records. By the time the first phase of the project is 
completed, the Office plans to have its own storage facility at Fort 
Meade, maintained by the Architect of the Capitol. The record books, 
now in a leased storage facility offsite, would eventually be stored 
there. Total savings once Fort Meade storage is available would be 
$200,000 per year, increasing each year based on increased volume and 
rates charged for commercial storage.
    Therefore, digitizing these records for preservation during the 
next six years will not have an impact on maintenance and storage 
costs. If the detailed indexing is completed in the years following 
this first phase, a decision could be made to destroy the analog 
record. However, this discussion is years away.
                        workforce transformation
    Question. The request of $781,000 for the renewal and development 
of the Library's workforce is described as an initial investment 
beginning in fiscal year 2007. Are long range estimates available for 
the expected costs of replacing and retraining the workforce? Describe 
why these particular initiatives were selected and how they will 
directly support a larger workforce plan. Why fund these initiatives 
before there is a comprehensive strategic plan to guide the 
transformation of the workforce? How does the workforce transformation 
project, the strategic planning process, and the program assessment 
framework relate? What information do you hope to get out of these 
efforts that you currently do not have?
    Answer. The Library has and will continue to evaluate all aspects 
of its business functions, including work processes, equipment, IT and 
other infrastructure support, and staff performing the work. Periodic 
reviews are routine business practice but most certainly critical when 
the world demands new processes as witnessed by the digital 
transformation. The Library's evaluations are taking place under the 
broad umbrella of strategic planning and through program specific 
assessments. No matter which mechanism is used, people will always play 
an important part of any transformation. They are not only a 
cornerstone in change itself, but needed to implement change.
    Given the aging workforce, with skills once valued but no longer 
needed in the future, the Library has begun its workforce 
transformation to keep up with new business functions and to lay the 
foundation for new functions on the horizon.
    Most of the fiscal year 2007 funding requested under workforce 
transformation is to support basic services that would be needed even 
if a major transformation were not occurring. For example, $225,000 
supports 600 online courses, annual subscriptions to leadership 
development courses, mentoring programs, and career planning and 
counseling--services that are commonplace in most similarly-sized 
agencies, but are not currently available or adequately resourced in 
the Library. The online and annual subscriptions also provide a more 
cost-efficient option for training than the traditional classroom 
approach.
    A total of $98,000 supports one additional employee in the 
Library's learning development center, to ensure the center is fully 
staffed and can manage the size of a training program needed for a 
large workforce. A total of $127,000 provides interpreter services to 
meet the demands of our diverse workforce, including those who are 
physically challenged. Finally, $231,000 is for a summer intern 
recruitment program that will not only help address the Library's 
workload, but also provide a rich pool of candidates for future jobs at 
the Library.
    The remaining $100,000 goes beyond traditional training but asks 
the question of what type of employee and what skills will be needed in 
the future. Funding will help determine digital competencies, and it is 
this study that will lay the foundation for a more comprehensive 
strategic plan for transforming the Library's workforce through 
retraining or new hiring--with new and different position descriptions. 
Until this analysis is completed, the Library cannot project future 
costs but hopes to be in position to do so by the fiscal year 2008 
budget.
    Without the requested funding, the Library will fall further behind 
the rest of the Federal Government and the private sector, costing more 
in lost productivity and lost opportunities.
                          digital competencies
    Question. Since fiscal year 2001, the number of items circulated 
has declined by over 24 percent and reference services by 17 percent. 
Internet transactions have increased by 214 percent. What has the 
Library done to redeploy staff? How do these trends relate to your 
request for skills training?
    Answer. In fiscal year 2007, the Library is requesting $100,000 to 
begin the development of a digital competencies initiative. This 
initiative will identify what new skills/staff are needed to support 
the digital transformation of the Library's services, compare those 
skills to staff already on board, and highlight the gaps between the 
two. The results will be used to develop a comprehensive staffing and 
business plan that will outline action steps and related resources 
needed to retrain and/or reassign current staff, hire new staff, and 
enhance IT and other equipment to support staff. The Library already 
has focused on a few areas such as CRS and Library Services where the 
VERA/VSIP programs were used to help retire employees whose skills are 
no longer needed, allowing the Library to hire the expertise or 
equipment needed to meet the new services and new demands placed upon 
the Library as a result of the digital transformation. While offices 
will continue their program reviews, the digital competencies 
initiative will be a Library-wide review that will not only focus on 
each office but on how the Library works as a whole, for a more 
cohesive and integrated transition into the future.
               congressional research service realignment
    Question. CRS determined last year that some 59 production support, 
technology support, and audio-visual positions were no longer needed. 
You have determined that eliminating the 59 positions will save CRS 
approximately $4.4 million. How is this savings reflected in your 
fiscal year 2007 budget request? If analysts will become responsible 
for tasks previously done by production and technical support staff, 
(e.g., formatting, computer problems) won't diversion to non-analytical 
tasks lower current efficiencies and effectiveness of CRS employees?
    Answer. This question is based upon two fundamentally incorrect 
assumptions. First, CRS never stated that the elimination of the 59 
positions would ``save'' $4.4 million. CRS is undergoing a workforce 
re-engineering effort that will enable the Service to hire different 
staff who can contribute directly and fully to meeting the Service's 
mission. The funds that would have been used to pay the salaries and 
benefits of the 59 support staff will be redirected to pay for 
primarily research analysts. The Service's fiscal year 2007 request 
reflects a budget that would support the on-going need for 
approximately 705 FTEs. There are no savings associated with this 
workforce realignment; and retaining the 59 support staff indefinitely 
would adversely impact the Service's ability to sustain adequate core 
research capacity.
    In fiscal years 2005 and 2006, CRS requested a one-time budget base 
increase to close the gap on rising staff costs and give the Service a 
permanent budget base that could sustain a workforce of 729 FTEs. With 
only $500,000 approved for this purpose in fiscal year 2006 (none in 
fiscal year 2005), the Service had to implement a strategy that would 
adjust its permanent workforce down to 705 full-time equivalents (FTEs) 
while retaining an analytic capacity of 48 percent to 50 percent of the 
total staffing composition--between 335 and 350 staff.
    In fiscal year 2005, the House Appropriations Committee explicitly 
stated that it expected Legislative Branch agencies to take into 
consideration the overall budget constraints placed on the entire 
Federal budget and to submit more reasonable requests. At the same 
time, the Committee directed agencies to identify opportunities that 
would streamline operations, expand outsourcing in a range of operating 
activities, utilize existing technology to enhance efficiency, and 
implement management changes to increase efficiency and effectiveness 
of operations. Further, the Committee directed the Library to conduct a 
study to determine whether any duplicative functions existed between 
the Library and CRS. The same year, this Committee's report language 
stated, ``owing to budget constraints, the Committee is unable to 
recommend additional increases.'' These policies were endorsed by the 
Conference language encouraging agencies to submit more reasonable 
budget requests. Similar policies and concepts were expressed in the 
fiscal year 2006 House report language. Agency heads were directed to 
embrace change and recognize staff and workforce as the most important 
agency asset. Agency heads were directed to look within for ways to 
achieve mission as opposed to seeking additional budgetary increases. 
In 2006, the Senate re-emphasized the applicability of GPRA. Again, the 
Conference language endorsed these policy statements. CRS has heeded 
the Congress' direction to find ways to streamline operations and 
improve efficiency.
    The CRS fiscal year 2007 request reflects the reality of the budget 
environment and respectfully recognizes the Congress' expectation that 
the Service find a way to accomplish its mission within an organization 
of 700 to 705 FTEs. Right now, CRS needs the support of the Congress in 
order to continue its efforts for achieving a workforce transformation 
using the federal employment tools and authorities available, such as 
separation incentives, voluntary early retirements, and possibly a 
reduction in force (RIF). The Library is seeking two new administrative 
provisions that would give any remaining affected CRS staff (as of 
September 30, 2006) opportunities for priority placement in other 
federal agencies should a RIF become necessary. Your support and 
approval of that request would also be extremely helpful. In 2007, CRS 
plans to redirect the funds that would have been used to pay the 
salaries and benefits of the 59 staff to acquiring the capacities, work 
skills, and competencies needed in 2007 and beyond. Your support of the 
Service's fiscal year 2007 full budget request and your endorsement for 
maintaining the management flexibility needed to align or realign the 
organization to match the changing and complex congressional agenda 
within the financial resources available will go a long way in helping 
to ensure that the Service can indeed provide the continued level and 
quality of services that Congress is seeking.
    Second, the question incorrectly assumes that CRS analytical staff 
will now be responsible for performing production and/or technical 
support tasks--which is not the case. The question incorrectly assumes 
that CRS management is not focused on ensuring a most cost effective 
and efficient operation--which is also not the case. CRS has always 
been committed to providing analysts with the most technologically 
robust workstations available. Advances in technology in the past ten 
years have provided automated tools on the analyst's desktop with most 
of the needed formatting and production capabilities built in; and, 
these new technology tools have eliminated much of the need for 
production support personnel (the basis of the elimination of these 
functions). CRS is currently investing in the development of a new 
authoring and publishing system that will even further advance the ease 
of incorporating sophisticated graphics, tables, and pictures directly 
into CRS reports during the writing/authoring phase. The new system 
will allow increased analytic capacity--not decreased capacity. The 
system will make creation and dissemination of CRS reports even more 
efficient and more readily available to the Congress.
    The CRS analysts' needs for publication production support will be 
provided centrally by the CRS Electronic Research Products Office 
(ERPO) which is staffed by a cadre of experienced editors, skilled in 
using advanced technology tools to produce products in multiple 
formats. CRS is building capacity in this office as a means to 
centralize, streamline, and provide uniform and high quality support 
across the Service. At the same time, the CRS Technology Office is 
revamping existing contracts to enhance its desktop user support 
operations, which will also include up-to-date technology professionals 
who can resolve quickly the staff's desktop computer problems. Managing 
modern technology in a centralized business model ensures that: (1) 
business-relevant technology skills are in place, maintained, and 
uniformly accessible to all agency staff; (2) all technology staff are 
directed from a singular agency-wide business strategy and perspective; 
and, (3) technology staff are provided consistent and uniform training 
opportunities based upon general technology refreshment, agency 
implementation of new hardware/software, or individual performance 
shortcomings. The central call center/help desk concept allows a 
computer specialist to gain remote access or ``proxy'' to a personal 
computer anywhere in the organization in order to evaluate and 
troubleshoot technical problems--giving every CRS employee immediate 
access to high quality technology support at their fingertips.
                         fee service activities
    Question. What, if anything, has the Library done to identify 
services where it might be appropriate to either charge a fee or raise 
current fees?
    Answer. Where it is appropriate to charge fees, the Library does so 
and in some cases has a formal process for evaluating and raising those 
fees.
    For example, in 1997 Congress established a new procedure for 
setting fees for basic services for the Copyright Office (111 Stat. 
1529 (1997), codified at 17 U.S.C. 708(b)). The Copyright Office is 
directed to periodically study the costs of providing its basic 
services. After determining the costs of those services, it is directed 
to consider whether the full cost recovery fee is fair, equitable, and 
meets the objectives of the copyright system. If not, the fees may be 
adjusted to recover less than full cost. Following this study and 
consideration, the Copyright Office sends Congress a report discussing 
its study, conclusions, and a proposed fee schedule. This fee schedule 
will be adopted unless, within 120 days of receiving the proposal, 
Congress passes a law disapproving the proposed fees. The latest 
Copyright Office report, with its proposed fee schedule, was sent to 
Congress on February 28, 2006.
    Additionally, for other than basic services, the Copyright Office 
has the authority to set fees by regulation. On March 28, 2006, the 
Copyright Office proposed a new fee schedule for these additional 
services and invited public comment on this schedule. Also, a new fee 
service has been proposed. The comment period for these fees closes on 
April 27, 2006. The Office does not expect that Congress will reject 
its proposed fees for basic services. Additionally, it expects to 
conclude its fee setting rulemaking early in May. The plan is to 
institute all the new fees on July 1, 2006.
    Under the provisions of the Economy Act of 1932, 31 U.S.C. Sections 
1535-1536, the Law Library has entered into Interagency Agreements with 
several Executive Branch agencies for services tailored to their 
specific needs requiring research and reference products outside the 
routine services provided by the Library. Fees are based on billable 
hours dedicated to the work performed. Other than contributions 
collected under the offsetting collections authority associated with 
GLIN and the interagency agreements noted above, there are no other Law 
Library activities that would be suitable for charging fees.
    Library Services has several revolving funds that charge a fee for 
services to inside and outside clients. The revolving funds operate 
under revolving fund law and other fund specific legislative 
guidelines. As part of the Business Enterprise Work, Library Services 
is reviewing all the revolving funds, including services provided and 
related fees, and may be proposing changes in the coming fiscal years.
    As other work is identified for fee-based services, the Library 
will propose legislative language to support those fees.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Dr. Billington, I understand that the retail shop at the 
Library of Congress is relocating due to the construction of the 
Capitol Visitor Center tunnel. What is the new location? How do you 
think the relocation of the shop will affect sales?
    Answer. In the summer of 2005, the Library relocated the shop to a 
larger location on the west side, beside the Visitor Center and close 
to the Capitol Visitor Center tunnel. Floor space has been increased 
from 1,100 square feet to 2,000 square feet. In moving the shop, we 
also took the opportunity to consolidate stock rooms and storage space 
has increased to 2,500 square feet. The following page includes the 
floor plans and pictures of the new shop location.
    The shop remains in a prominent space within the visitor area of 
the Jefferson Building. Given the continued visibility and the 
increased floor space, we are expecting the move, in coordination with 
other activities, to improve sales. As we develop our plans for the new 
visitor experience at the Jefferson building in the fall of 2007, we 
will be coordinating the work of the Library's visitor services and 
exhibitions offices to enhance our retail presence.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. When the CVC opens, there will undoubtedly be many more 
visitors coming to the Library. Are you considering expanding your 
retail product based on this increase?
    Answer. The sales shop will increasingly reflect the visitor 
experience of the Great Hall, the collections and art on display, the 
special and permanent exhibitions, and the interactive guides 
throughout the Jefferson Building.
    We are consolidating our product mix to focus on Library-related 
merchandise. Our sales figures show that Library-related products 
appeal to our visitors, both on site and online. Such Library-related 
products generate about 56 percent of total revenue, approximately 
$610,000 in fiscal year 2005. Nineteen of our twenty most popular items 
(by revenue) are library related. These top sellers generated $290,000 
in sales revenues, $100,000 in profits. We will continue to grow the 
percentage of inventory dedicated to proprietary Library products, 
increasing brand recognition, outreach, and revenue.
    Question. Dr. Billington, the Library's fiscal year 2007 request 
includes a decrease of 44 FTE's. Can you explain this decrease?
    Answer. The Library is reflecting a decrease of 44 FTEs in fiscal 
year 2007 as the result of authority expiring in fiscal year 2006, 
reduced workload, and/or adjustments needed to align staffing with 
available funding. Reductions include a total of 13 FTEs for positions 
whose authority expires in fiscal year 2006 (6 FTEs for Culpeper, 1 FTE 
for Business Enterprise Project, and 6 FTEs for vacant police 
positions), 7 FTEs for reduced workload projected in the Copyright 
Office, and 24 FTEs in CRS to align staffing with funds available.
    Question. How will the Library's transition into the digital 
environment affect its current workforce? What are your plans for 
retraining your current workforce?
    Answer. As part of our workforce transformation project, we will 
follow a systematic process to identify newly required skills and 
knowledge for our workforce as we transition into a digital 
environment. Until we complete job and skills gap analyses based on new 
skills and knowledge requirements, we will not know the full impact on 
our workforce. Where retraining is appropriate, we will create 
individual development plans and training programs to retrain members 
of the current workforce.
    Question. In fiscal year 2005, the Library's website experienced a 
14 percent increase in usage over fiscal year 2004. How are you 
preparing for this continuing trend in increased web usage?
    Answer. The Library of Congress website has continued to experience 
increases in use both as a result of a general increase in the number 
of users online and as the institution continues to add high-quality 
digitized material for our online audiences. The Library is projecting 
that the rate of increase will continue and build to higher levels over 
the next few years as the American public continues to discover and 
learn about the wealth of high-quality digitized materials and other 
content that we offer.
    The Library has begun the implementation of a web metrics program 
that includes new monitoring software and services that provide 
statistics and analytics to assist the Library in understanding the 
profiles of our online users, the web content that they access, the 
resulting impact on our supporting technical infrastructure, and our 
continued ability to provide high quality online services. This web 
metrics program and other tools that the Library uses to measure 
supporting infrastructure capacity will assist the Library in 
forecasting future usage and in planning capacity accordingly.
    To date, the Library has met growing user demand for online content 
and has supported the necessary expansion in technical infrastructure 
by adjusting our existing budgetary resources. We will continue to 
monitor these statistics and other metrics, assess performance, and 
weigh alternatives for maintaining high quality online service within 
existing resources if at all possible.
    Question. Dr. Billington, you have requested $102 million within 
the Architect of the Capitol's fiscal year 2007 request. Can you 
prioritize the items in this request for the members of the 
subcommittee?
    Answer. Of the $102 million requested for the Library of Congress 
Buildings and Grounds budget within the Architect of the Capitol's 
(AOC) fiscal year 2007 request, approximately $62 million supports 11 
projects specifically requested by the Library.
    Construction of the Logistics Center at Fort Meade is the Library's 
highest priority within the AOC budget. This facility is urgently 
needed to address many critical issues, including meeting fire and 
safety standards and providing environmentally sound storage for 
Library collections. The new facility at Fort Meade is the best overall 
investment for the government based on independent space and economic 
assessments. Choosing another site is not the solution nor will it 
reduce costs. The land at Fort Meade was purchased specifically to 
address storage requirements of the Legislative Branch. Leasing, buying 
or building storage facilities at other locations would undermine this 
master plan. The 100 acres only cost the government one dollar. 
Choosing a different construction site would require millions of 
additional dollars for land. Upgrading current leased facilities or 
retrofitting other lease buildings would only benefit the landlords and 
not the government. Staying in current leased facilities forces the 
Library to continue to pay for space that is expensive and provides no 
return on investment (similar to renting vs. buying a home). Finally, 
we would lose the synergy of Fort Meade, which offers advantages and 
the cost benefit of one security system, one transportation 
destination, easy access between storage facilities, and other 
administrative efficiencies, while providing increased capacity on 
Capitol Hill, and more efficient use of space on and off Capitol Hill.
    If this project is delayed, the Library will continue to incur very 
expensive lease and repair costs associated with current storage 
materials. Savings to the government of at least $3 million annually 
will be lost to lease, operating and repair costs at existing 
facilities. The master plan at Fort Meade is already six years behind 
schedule. Further delays will raise the price tag of this project again 
due to inflation and other factors and further delay, and also 
increase, the price tag of other buildings planned for in the master 
plan.
    The remaining 10 Library projects are needed to maintain the 
Library's buildings and grounds, to address immediate environmental, 
fire and life safety issues, and to support space modifications in 
response to the Library's ever changing program needs.
    The AOC has also included their own fire and life safety projects. 
Past deferments and delays have created a long list of urgently needed 
projects. The cost of maintenance and upgrades will continue to rise 
rapidly if the Library cannot stop, or at least slow down, the rate of 
deterioration of its buildings and return to its approved construction 
plan and schedule.
    The following table lists the Library's projects in priority order:

 ARCHITECT OF THE CAPITOL FISCAL YEAR 2007 BUDGET--LIBRARY BUILDINGS AND
                                 GROUNDS
------------------------------------------------------------------------
                                                            Fiscal Year
           Library Priorities Fiscal Year 2007            2007 Requested
------------------------------------------------------------------------
Fort Meade Book Module 3 & 4............................  ..............
Copyright Deposit Re-Design.............................  ..............
Fort Meade Logistics Warehouse..........................     $54,200,000
Culpeper O&M (Facility Support).........................       2,500,000
Fort Meade O&M (Facility Support).......................         640,000
Air Handling Unit Replacement JMMB......................       2,890,000
Preservation Environmental Monitoring...................          80,000
Contract Asbestos Validation TJB........................         100,000
LOC Space Modifications (Rooms and Partitions)..........         650,000
Minor Construction......................................         990,000
Painting................................................         100,000
Kitchen Equipment.......................................          40,000
Design--Court Yard Renovation, TJB......................          75,000
                                                         ---------------
      Total.............................................      62,265,000
                                                         ---------------
Operational Support.....................................      39,972,000
                                                         ===============
      Client Total......................................     102,237,000
------------------------------------------------------------------------

    Question. Please provide an update on the progress of the National 
Audio-Visual Conservation Center in Culpeper, VA. When will this 
facility be complete?
    Answer. The Packard Humanities Institute (PHI) is in charge of the 
NAVCC construction. PHI is working closely with the Architect of the 
Capitol and has made and is financing enhancements and improvements in 
the original plan. PHI's originally scheduled completion dates for the 
NAVCC were spring 2005 for the Phase 1 Collections Building and Central 
Plant and spring 2006 for the Phase 2 Conservation Building and Nitrate 
Vaults. Since then, construction delays have forced PHI to revise 
slightly its master schedule. Phase 1 was turned over to the Library in 
December 2005, and the Library is now moving its collections into this 
part of the complex. For Phase 2, PHI's new master schedule indicates a 
completion and turnover date for the entire project of March 1, 2007.
    Staff will be relocated in stages that are synchronized with the 
PHI construction schedule. Six Library staff began working in the Phase 
1 Collections Building in January 2006. The majority of NAVCC staff 
will work in the Phase 2 Conservation Building and will be relocated in 
alignment with the new construction schedule as follows:
  --Summer 2006.--Relocation of two or three advance staff from the 
        Motion Picture Conservation Center (MPCC) in Dayton, Ohio to 
        help set up the NAVCC Film Laboratory.
  --December 1, 2006.--Relocation of two advance technical staff from 
        MBRS in Washington to install cabling and initial AV system 
        components.
  --March-May 2007.--Relocation of Capitol Hill staff and the remainder 
        of the Dayton staff to Culpeper. Approximately 12 MBRS staff 
        will remain in the Madison Building to provide public services 
        in the NAVCC reading room.
    Question. Dr. Billington, the Library has requested funding in 
fiscal year 2007--$150,000--for the Lincoln traveling exhibition. 
Please describe how the Library is working with the federally 
designated Abraham Lincoln Bicentennial Commission on development and 
implementation of the exhibition.
    Answer. The Library of Congress has had periodic meetings with the 
director and various members of the Abraham Lincoln Bicentennial 
Commission for more than a year. At these meetings, we discuss the 
progress of the exhibition, funding efforts, the other venues to which 
the exhibition will travel, and the coordination of programming 
developed by the Library as well as programming developed by the 
Commission and its partners.
    The Commission has been particularly helpful in identifying and 
making initial contacts with many of the exhibition's potential venues. 
Further, many of the Library of Congress Lincoln exhibition advisors 
have been drawn from the Commission's Advisory Committee. We will 
continue to share information and progress reports with the Commission 
in planning the Library exhibition and its ancillary programs.
    Question. Mr. Mulhollan, the Congressional Research Service (CRS) 
recently eliminated 59 permanent job positions in 3 categories. This is 
the first reduction-in-force (RIF) in CRS's history. Can you tell us 
what steps you are taking to ensure a fair transition for these 
employees?
    Answer. CRS has taken a number of steps to assist the staff who 
will be affected by CRS' decision to change the way work is performed. 
These include:
  --Staff received a full twelve months to seek and find alternative 
        employment. The decision was announced on September 22, 2005 
        and the positions will not be eliminated until September 30, 
        2006.
  --CRS offered a voluntary early retirement option and requested of 
        the Congress and received authority to offer a separation 
        incentive payment of up to the legal maximum amount allowed of 
        $25,000 to staff separating through retirement with a full 
        annuity, early retirement, or resignation. Twenty-three of the 
        affected staff took advantage of one or both of these programs 
        and retired on or before January 3, 2006.
  --Since the end of September, CRS alone and in collaboration with the 
        Library's Office of Human Resources Services, has been 
        providing a range of retirement and career counseling services, 
        including:
    --Retirement counseling: special briefings on the details of 
            voluntary early retirement; the application and approval 
            process for separation incentives; a two-day retirement 
            seminar for staff and spouses; and individual retirement 
            counseling.
    --Career services: workshops and individual career counseling 
            sessions; a workshop with representatives from D.C., 
            Maryland, and Virginia career services centers; a 
            comprehensive three-day career-transition workshop; 
            notification of local recruiting events, and access to a 
            web page with career-related information and links to 
            numerous websites.
    --Employment opportunities: training on how to apply for positions 
            using the Library's automated hiring system; notification 
            of all vacancy announcements within CRS; and notification 
            of potential vacancies of interest in the Library.
    --Reduction-in-force (RIF) briefing: a special briefing with a RIF 
            expert on RIF general procedures.
  --Further, the Library is seeking approval of new and permanent 
        authority that will grant any Library of Congress employee who 
        is the subject of a formal RIF with job placement rights with 
        agencies in the Executive Branch. Heretofore, Library of 
        Congress staff displaced through agency downsizing or 
        reengineering had no federal re-employment rights regardless of 
        their grade, job series, or federal tenure. This authority 
        would grant Library of Congress employees who receive a RIF 
        notice priority status for selection into competitive-service 
        positions in the executive branch. Such authority is currently 
        granted to executive branch employees who are RIFed from 
        executive branch positions. This authority would place Library 
        of Congress employees behind any affected employees in an 
        agency undergoing a RIF in selection priority but ahead of 
        applicants who have no federal service. Adopting this provision 
        would give the Library's employees a broader potential 
        employment base and help employees who wish to continue their 
        public-service careers beyond the Library of Congress.
    Question. Where in your fiscal year 2007 budget have you accounted 
for the possibility of paying severance pay to these employees?
    Answer. First, we need to add that one additional individual within 
the CRS affected staff has been offered a position outside of the 
Library--bringing the number of remaining employees down to 30. The 
Library is committed to funding any fiscal liability associated with 
the separation of the remaining 30 affected CRS staff; however, the 
question assumes that all severance pay will be borne by CRS which is 
unlikely. Further, the specific treatment of severance pay in the 
Library's budget is premature.
    Projecting the amount of severance pay which will actually be paid 
in fiscal year 2007 is a complicated process. It involves taking into 
account several variable outcomes: forecasting the number of staff that 
who accept Voluntary Early Retirement (VERA) and/or the Voluntary 
Separation Incentive Payment (VSIP); the number of staff who are 
successful in competing for vacant positions in CRS, the Library, other 
federal agencies, or in the private sector; and ultimate placement of 
affected staff into vacant positions in the Library or elsewhere in the 
Federal government under a reduction-in-force action.
    Of the 30 who remain on the CRS payroll at this time, one is 
currently eligible for full retirement and eight others are or will be 
eligible for early retirement on September 30. In accordance with the 
Federal Code of Regulations, an employee separated by a reduction-in 
force (RIF) action is ineligible for a severance entitlement if they 
are eligible to receive an immediate annuity from a federal retirement 
system. For these nine staff, CRS will be liable only for terminal 
leave payments, estimated at about $49,000.
    The Library's general policy is ``to retain and to assign to other 
positions, insofar as may be possible . . . staff members whose 
positions are abolished.'' This may occur by assigning staff to vacant 
positions in other organizations within the Library, or by an employee 
affected by a RIF exercising their ``bumping'' rights to claim a 
position held by someone with less retention preference. It is 
conceivable that ``bumping'' could eventually force an involuntary 
separation of an employee in another Library Service Unit, in which 
case, the severance payments would not be reflected in the CRS budget. 
Further, given that the individual who is ultimately separated has the 
least seniority, the Library's fiscal liability would be reduced 
because the severance entitlement computation is based upon years of 
service and age. Should an affected employee decline a reasonable offer 
to be reassigned into another Library position, that employee forfeits 
his/her claim to receive severance pay. The severance entitlement 
terminates if/when an individual becomes employed under a qualifying 
appointment with the federal government or the government of the 
District of Columbia.
    As stated by both the Librarian and the CRS Director, it is the 
hope of the institution that all of the affected staff will find 
alternative employment or be placed into vacant positions within the 
Library. If a formal RIF becomes necessary and the processes governing 
it are implemented, the Library of Congress has a good track record for 
placing employees and is hopeful that this will again be the case.
    As stated elsewhere in these responses, the Library is seeking two 
new administrative provisions that would grant competitive status to 
Library staff who have completed their probationary period and places 
displaced Library staff on equal footing with Executive branch 
employees by making these employees eligible for vacant Executive 
Branch positions. These new provisions would expand options for Library 
staff facing a RIF and offers all Library employees additional 
opportunities for jobs and career growth in public service. As staff 
are successfully placed within the Library or with other federal 
agencies, the federal financial liability for severance pay decreases 
accordingly and could be eliminated altogether.
    Question. Have you provided any Members of Congress, Congressional 
committees, or CRS staff copies of the studies or any other written 
analysis which led you to decide that 59 permanent positions should be 
eliminated by September 30, 2006? If not, members of this subcommittee 
would like to see copies of these studies.
    Answer. A CRS ``Director's Report'' issued on November 3, 2005 
provides a detailed analysis of the decision to eliminate the 
production support, technical support assistant, and audio-visual 
staff. That report was provided to selected members of the metropolitan 
area delegation, members of the Congressional Black Caucus, 
Congressional Hispanic Caucus, and the Congressional Asian Pacific 
Caucus. This report and extensive additional information also were 
provided to the House Administration Committee and key staff on the 
Library's oversight committees. The report was also made available to 
all CRS staff members on the CRS staff web page. The Director's Report 
of November 3, 2005 follows.
 Director's Report--Fiscal Year 2006 Staffing Changes, November 3, 2005
                                summary
    The Director of the Congressional Research Service (CRS) is vested 
by the Legislative Reorganization Act of 1970 with responsibility to 
assure the appropriate mix of employees and consultants to develop and 
maintain the information and research capability that he deems 
necessary to perform the statutory mission of the Service--to provide 
to the Congress, throughout the legislative process, comprehensive and 
reliable legislative research, analysis, and information services that 
are timely, objective, non-partisan, and confidential. The Director is 
also authorized to ``establish and change, from time to time, as he 
considers advisable, within the Congressional Research Service, such 
research and reference divisions or other organizational units, or 
both, as he considers necessary . . .'' From the statute, it is clear 
that the Director is obligated to undertake such reorganizations and 
staffing adjustments as he considers necessary to provide efficiently 
and effectively the products and services upon which Members and 
committees rely and have come to expect. The staffing adjustments 
announced recently fall squarely within this obligation. The Congress 
is facing many global and domestic financial challenges and has 
explicitly stated that Legislative Branch agency heads are expected to 
look within to find ways to streamline operations and pare all 
unnecessary duplication and costs that are not critical to achieving 
core business goals and objectives.
    The following key points are discussed in the report.
The Decision
    The Congressional Research Service will eliminate the production 
support, technical support assistant, and audio visual positions on 
September 30, 2006. This action affects 59 staff in a total workforce 
of nearly 700. The decision is based on a series of management reviews 
and evaluations of needed functions and activities which have been 
overtaken by technological advances. CRS will redirect the resources, 
currently committed to supporting these staff, to obtain new support 
capacities critical to service to the Congress.
    Of the 59 staff, 38 are production coordinators or assistants (of 
which two are receptionists), 18 are technical support assistants, and 
three are in audio-visual support. The average compensation, including 
salary and benefits, for these staff is $75,101 per annum; the average 
salary without benefits is $60,636. Over one-half of these staff, 33, 
are either eligible for full voluntary retirement or voluntary early 
retirement and the maximum $25,000 separation incentive. Sixteen are 
not eligible to retire but are eligible for the maximum $25,000 
separation incentive. The average separation incentive for these 16 
staff is $16,906.
    Currently 32.3 percent of CRS' total permanent workforce of 694 
staff is minority. If all of the affected staff were to separate from 
CRS and no other attrition or hires were to take place (total staff 
reduced to 635), the total minority population would be 28.8 percent. 
The proportion of Asian Americans would increase from 4.5 percent to 
4.7 percent; Native Americans would increase from .7 percent to .8 
percent; Hispanics would remain the same; and the proportion of African 
Americans would decrease from 24.6 percent to 20.9 percent. It must be 
noted that these projections of course do not reflect new hires or the 
consequences of other attrition.
    CRS is offering the 59 affected staff a variety of resources to 
assist in their planning, including an early retirement option, 
separation incentive of up to $25,000, retirement counseling, career 
and job counseling, and retention in their current positions through 
September, 2006.
    CRS, as a result of management reviews and evaluations, has and 
continues to create new positions to meet critical work needs of the 
Service. Affected staff may apply for these positions through an open 
and competitive process.
Background
    In fiscal years 2005 and 2006, the House and Senate Committees on 
Appropriations issued clear directives to all Legislative Branch 
agencies to maintain rigorous and disciplined business practices in 
agency operations, to contain costs, to establish strong agency-
performance goals, and to report to the Congress on all of these 
activities. CRS based the fiscal year 2006 staffing decisions upon 
analytic and objective evaluations of how best to align resources to 
current, critical work needs.
    The final fiscal year 2005 and 2006 appropriations for CRS require 
the agency to downsize permanently by the equivalent of about 30 full 
time equivalents (FTEs), thereby reducing total FTEs from 729 to 700. 
Given the confluence of several factors, including a higher average 
grade level (higher level of expertise) and the continuing trend of 
increased costs for staff benefits (Federal Employee Retirement System 
benefits average 28 percent per employee versus an average of 13 
percent per employee under Civil Service Retirement System), CRS 
requested in fiscal years 2005 and 2006 additional funds, $2.7 million 
and $3.6 million respectively, to compensate for funding shortfalls in 
its budget base. Congress did not fund the request in fiscal year 2005 
and provided $500,000 toward this shortfall in 2006. CRS must be 
vigilant to maintain the necessary analytic strength to support the 
Congress, and it must maintain an infrastructure that meets and keeps 
pace with the Congress' evolving needs. The fiscal year 2006 staffing 
decisions are part of the Service's overall strategy to accommodate a 
downsized CRS within the framework of a fiscally constrained budget.
    CRS has taken action and implemented adjustments over the last five 
years to ensure that its resources are properly aligned with 
congressional needs. These adjustments resulted in the elimination and 
restructuring of organizational units; the elimination, downgrading, 
and creation of positions; and the use of contractors to undertake 
specific work needs. CRS based each adjustment upon formal assessments 
of the impact of new technologies on the work; the existing content, 
structure and processes of the work performed; the skills and abilities 
needed to undertake the work; and in some cases, consideration to 
outsource the work based upon a cost and feasibility analysis. Examples 
of recent assessments follow:
  --1. The role of information professionals/librarians within CRS. The 
        result of this study led to the elimination of a CRS office and 
        a division (Office of Information Resources Management and 
        Information Research Division) and the creation of one smaller, 
        integrated division, the Knowledge Services Group. The work of 
        librarians, as well as all paralegal, technical information, 
        and most library technician staff, throughout the Service was 
        redefined and adjusted. Positions were created to undertake new 
        functions, revisions were made to other positions to align the 
        work directly to the new organization, some positions were 
        eliminated, and some activities were contracted out. During the 
        assessment, no new permanent hires were made into positions 
        under review. Today, the new, more efficient, organization 
        consists of 54 fewer staff performing the work--a staff 
        reduction from 190 to 136.
  --2. Examination of support positions within three infrastructure 
        offices. Three separate studies evaluated the functions 
        supporting CRS formal programs and seminars in the Legislative 
        Relations Office and of administrative functions within the 
        Offices of Finance and Administration and Workforce 
        Development. These studies resulted in CRS creating and 
        competitively filling new positions at lower grade levels. For 
        example, program aide positions were redesignated at a GS-11 
        level rather than GS-13. Administrative support grade levels 
        within the Offices were reduced, on average, from GS-11 to GS-
        7.
  --3. Integration of CRS' economists and scientists with other policy 
        research disciplines. This study led to the elimination of two 
        research divisions (Economics and Science Policy), the 
        integration of the economists and scientists into the other 
        policy divisions, the elimination of seven senior level 
        research coordination positions, and the return of five senior 
        level specialists to full time research.
  --4. Outsourcing of selected support functions. Other functional 
        assessments resulted in expanded outsourcing of CRS support 
        activities, including mail and courier service, technical 
        troubleshooting (help desk and user support), receptionist 
        duties, and copy center operations.
                              introduction
    The Director of the Congressional Research Service is vested by the 
Legislative Reorganization Act of 1970 with responsibility to assure 
the appropriate mix of employees and consultants to develop and 
maintain the information and research capability that he deems 
necessary to perform the statutory mission of the Service--to provide 
to the Congress, throughout the legislative process, comprehensive and 
reliable legislative research, analysis, and information services that 
are timely, objective, non-partisan, and confidential. The Director is 
also authorized to ``establish and change, from time to time, as he 
considers advisable, within the Congressional Research Service, such 
research and reference divisions or other organizational units, or 
both, as he considers necessary . . .'' \1\ From the statute, it is 
clear that the Director is obligated to undertake such reorganizations 
and staffing adjustments as he considers necessary to provide 
efficiently and effectively the products and services upon which 
Members and committees rely and have come to expect. The staffing 
adjustments announced recently fall squarely within this obligation. 
The Congress is facing many global and domestic financial challenges 
and has explicitly stated that Legislative Branch agency heads are 
expected to look within to find ways to streamline operations and pare 
all unnecessary duplication and costs that are not critical to 
achieving core business goals and objectives.
---------------------------------------------------------------------------
    \1\ 2 U.S.C. 166 (d, f).
---------------------------------------------------------------------------
            current conditions relevant to staffing decision
Congressional Directives and the CRS Budget
    In fiscal years 2005 and 2006, the House and Senate Committees on 
Appropriations issued clear directives to all Legislative Branch 
agencies to maintain rigorous and disciplined business practices in 
agency operations, cost containment, and achievement of agency-
performance objectives. The use of sound business practices has been, 
and will continue to be, the way CRS is managed. The fiscal year 2006 
enacted budget places financial constraints on CRS operations and 
reinforces Congress' expectation that CRS contain costs while 
sustaining a highly productive, high performing agency. Appendix A 
provides excerpts from the committee reports.
    Eighty-eight percent of the CRS budget, now just over $100 million, 
is earmarked for the ``salary and benefits'' costs of its workforce. 
Over the past ten years, the Service's annual adjustments provided 
through the budget process have not kept pace with the rapidly 
increasing costs of sustaining CRS' workforce, due to several factors:
  --a gradual and necessary shift to more highly skilled expertise in 
        the CRS workforce composition to support the Congress in 
        increasingly complex policy areas (e.g., combating terrorism, 
        assimilating information technologies in industry, commerce and 
        governments, and the implications of an aging population). In 
        the period from fiscal year 1995 to the present, the average 
        grade level of a CRS hire has increased from GS-7, Step 9 to 
        GS-13, Step 9;
  --a shift in the proportion of the workforce participating in the 
        Federal Employee Retirement System, for which the average 
        employer-paid benefits rate of 28 percent is twice that of a 
        Civil Service Retirement System employee making the same salary 
        (with an average employer-paid benefits rate of 13 percent); 
        \2\
---------------------------------------------------------------------------
    \2\ The Federal Employees Retirement System Act of 1986 (Public Law 
99-335) requires all federal employees initially hired into permanent 
positions after 1983 to be covered by the Federal Employees Retirement 
System (FERS). Federal employees hired before 1984 are covered by the 
Civil Service Retirement System (CSRS) unless they elected to switch to 
FERS during ``open seasons'' held in 1987 and 1998. For CSRS 
participants, the total employer-paid benefits per employee averages 
about 13 percent of the base pay. For staff participating in FERS, the 
employer-paid benefits cost averages about 28 percent of the base pay--
due in large part to the Thrift Savings Plan matching component of 
FERS--making FERS significantly more expensive to the employing agency. 
As the older CSRS staff retire and the proportion of the workforce 
covered by FERS increases, the agency overhead costs related to staff 
benefits increases.
---------------------------------------------------------------------------
  --the adverse impact of annual rescissions in which losses are not 
        recovered in subsequent years; and
  --the fact that the President has implemented actual pay raises that 
        are higher than those provided in the Legislative Branch bills 
        in nine of the last ten years.
    While each of these factors would produce a marginal impact in the 
course of a single year, the cumulative and combined impact of all of 
them has generated a funding gap of nearly $4 million over the course 
of ten years.
    In fiscal years 2005 and 2006, CRS requested a one-time budget base 
adjustment ($2.7 to $3.6 million respectively) ``catch-up,'' that would 
have provided the funding needed to recover lost cost increases 
(purchasing power) and to rebuild the CRS workforce to the 729 full 
time equivalent (FTE) ceiling authorized by the Congress. In both years 
CRS informed the Congress that without the additional funding, the 
Service's workforce would necessarily be drawn down to a level of about 
700 FTEs, causing a serious impact on its ability to sustain the 
research capacity required to fulfill its mission and meet the needs of 
the Congress.\3\ The Congress did not support the request in fiscal 
year 2005, and in fiscal year 2006 authorized $500,000 towards this 
shortfall. CRS can no longer sustain a capacity of 729 full-time 
equivalent employees.
---------------------------------------------------------------------------
    \3\ Testimony of Daniel P. Mulhollan, Director, Congressional 
Research Service, U.S. Congress, House, Committee on Appropriations, 
Legislative Branch Appropriations for 2005, hearing, 108th Cong., 2d 
sess., (Washington: GPO, 2004), p. 274; and testimony of Daniel P. 
Mulhollan, Director, Congressional Research Service, U.S. Congress, 
House, Committee on Appropriations, Legislative Branch Appropriations 
for 2006, hearing, 109th Cong., 1st sess., (Washington: GPO, 2005), p. 
593.
---------------------------------------------------------------------------
CRS Management Initiatives
    Well before the issuance of fiscal year 2005 and 2006 report 
language from the House and Senate (see Appendix A), and with the goal 
of maintaining a cost-effective organization, CRS had been undertaking 
systematic assessments to identify current and future resource needs 
and to identify functions that should be eliminated or re-engineered 
due to technological advancements, internal work processes and 
congressional needs. Listed below are some of the more significant 
management initiatives CRS has instituted and the results of these 
initiatives. CRS has:
  --Developed and implemented an annual staffing assessment to 
        determine four key factors: (1) anticipated and known 
        attrition, (2) anticipated legislative issues, (3) likely gaps 
        in the Service's capacity to meet the needs of Congress, and 
        (4) current and future staffing needs. This assessment forms 
        the basis for the Service's annual hiring plan and is a 
        critical activity since staff salaries and benefits comprise 88 
        percent of the CRS budget.
  --Implemented an annual ``zero scrub'' of the 12 percent of the CRS 
        budget devoted to nonpersonnel costs to validate each planned 
        expenditure and to identify expenditures that should either be 
        considered for reduction or elimination, or adjusted upwards to 
        meet agency needs;
  --Created a new performance assessment system for senior-level 
        managers; and
  --Instituted annual program and activity reviews to assess the 
        efficiencies and effectiveness of current operations, as well 
        as identify potential need to re-engineer or realign resources.
    Resulting actions--organizational and staff realignments:
  --The role of information professionals/librarians within CRS. The 
        result of a two year study led to the elimination of a CRS 
        office and a division (Office of Information Resources 
        Management and Information Research Division) and the creation 
        of one smaller, integrated division, the Knowledge Services 
        Group. The work of librarians, as well as all paralegal, 
        technical information, and most library technician staff, 
        throughout the Service was redefined and adjusted. Positions 
        were created to undertake new functions, revisions were made to 
        other positions to align the work directly to the new 
        organization; some positions were eliminated; and some 
        activities were contracted out. During the assessment no new 
        permanent hires were made into positions under review. Today, 
        the new, more efficient, organization contains 54 fewer staff 
        to perform the work, a reduction from 190 to 136 staff members.
  --Examination of support positions within three infrastructure 
        offices. Three separate studies evaluated the functions 
        supporting formal CRS programs and seminars in the Legislative 
        Relations Office and of administrative functions within the 
        Offices of Finance and Administration and Workforce 
        Development. The result of these studies led CRS to create and 
        competitively fill new positions at lower grade levels. For 
        example, program aide positions were redesignated at a GS-11 
        level rather than GS-13. Administrative support grade levels 
        within the Offices were reduced on average from GS-11 to GS-7.
  --Integration of CRS' economists and scientists with other policy 
        research disciplines. This study led to the elimination of two 
        research divisions (Economics and Science Policy), the 
        integration of the economists and scientists into the other 
        policy divisions, the elimination of seven senior level 
        research coordination positions, and the return of five senior 
        level specialists to full time research.
    Resulting actions--activities and services eliminated:
  --Eliminated two product lines--Info Packs and Electronic Briefing 
        Books;
  --Closed two research centers--located in the Longworth and Ford 
        House office buildings;
  --Eliminated indexing of committee prints;
  --Shifted CRS product distribution from a primarily paper-based 
        inventory to primarily web-based, on-demand printing;
  --Eliminated the public policy literature file and service;
  --Closed one copy center; and
  --Eliminated and consolidated division libraries.
    Resulting actions--activities and services outsourced:
  --Mail and messenger services;
  --Copy center operations;
  --Receptionist functions;
  --Selected technology support; and
  --Selected library technical support.
    The most recently completed 2005 program and activity reviews 
include an assessment of the functions currently performed by CRS 
production support staff, technical support assistants, and audio-
visual staff. These assessments formed the basis for the actions 
underway in these support activities. Studies to assess other 
activities and functions are in progress.
   production support, technical support assistant, and audio-visual 
                               functions
Studies and Findings
    Data for these 2005 studies came from a variety of sources, 
including multiple discussions with potentially affected staff; a 
thorough review of all relevant position functions; initial and 
subsequent meetings with each assistant director and deputy assistant 
director, some associate directors, and a sample of analysts, 
attorneys, editors, and section heads. Information was collected using 
structured questions and analyses of documents provided by CRS 
staff.\4\
---------------------------------------------------------------------------
    \4\ In 2000, a preliminary review of the functions carried out by 
the CRS production staff suggested that technological advances in word 
processing were beginning to have implications for the ability to 
sustain staff resources devoted to supporting word processing 
activities. While determining the long-term consequences of these 
advances on CRS staffing levels, the Service did not fill any 
production coordinator or assistant positions thus, in effect, 
implementing a freeze on these positions until further study could be 
undertaken.
---------------------------------------------------------------------------
    Aware of the changing functions needed to support its analytic 
work, CRS last filled a primary production support position in 1997; a 
technical support assistant position in 1999; and an audio-visual 
position in 1991. The studies undertaken in 2005 confirmed that the 
functions identified and performed by staff in these positions, while 
appropriate and warranted ten years ago when first created, have been 
overtaken by advances in technology and desktop computing.
    The in-depth reviews of the production-support and technical-
support assistant functions confirmed that advances in technology have 
changed both the expectations staff have with regard to the capacity 
and power of their desktop computing capabilities and ease of using 
these technologies in their day-to-day work. Ten years ago, when CRS 
created the technical support assistant positions, the software and 
operating systems used by the Service required a hands-on presence by 
supporting staff, leading to the necessity of investing in a 
significant number of technical support positions. For example, in the 
past operating systems and software applications were manually 
installed machine by machine. Today's computing environment is 
supported centrally via ``push'' technology that enables sophisticated 
software packages and upgrades to be loaded on more than 700 computers 
from a single, central location within a few minutes. Such technology 
also allows for a computer specialist to gain remote access to or 
``proxy into'' a computer in order to evaluate and troubleshoot 
technical problems directly with the user.
    In addition, more than one-third of CRS' current analytic staff has 
been hired in the last five to six years. They are more technologically 
adroit, routinely producing final products at their desktops. And as a 
result, the majority of CRS analysts no longer rely on the production 
staff to help with product creation. Further, CRS is moving away from 
providing the Congress with paper copies of reports to a primarily web-
based delivery system, with products prepared in both PDF and HTML. 
Software and other technology advances have simplified product delivery 
and incorporated most of the formatting directly in the software on the 
author's desk. The CRS Electronic Research Products Office is 
responsible for preparing CRS written products for final congressional 
publication and dissemination, hence this function is not undertaken by 
the individual analyst or production support coordinator or assistant.
    Direct congressional demand for audio-visual products has been 
declining for more than ten years. And the need by CRS analysts for 
audio-visual support is uneven calling into question the need to retain 
a separate, in-house staff for this purpose.
    Since the functions needed to support effectively and efficiently 
the administrative, product-preparation, and technology assistance 
activities are significantly different from what is currently being 
performed, the Director decided to eliminate the current positions and 
redirect these resources to fulfilling newly identified support needs. 
In order to accommodate remaining audio-visual needs the Service is 
exploring outsourcing options. Appendix B provides additional 
information on the studies.
                             affected staff
Positions Affected
    Production support and receptionist duties \5\: The 38 individuals 
affected by this decision are in positions at grade levels GS-4 to GS-
11. With the exception of two receptionists, the principal functions of 
the current production staff include:
---------------------------------------------------------------------------
    \5\ Receptionist functions have been outsourced, and as a result 
the two remaining receptionists in the Service are included as part of 
these staffing changes.
---------------------------------------------------------------------------
  --supporting research analysts throughout the entire product 
        preparation process to include the creation, formatting, 
        styling, editing and appearance of written documents, and in 
        the development of graphics and tables when needed;
  --creating macros, templates and other guides to use in supporting 
        research analysts as they prepare their written products;
  --meeting the needs of division authors with respect to design, 
        format and presentation of written products;
  --working with division management to ensure uniformity of style and 
        format for division research products consistent with Service-
        wide standards; and
  --delivering final products to the CRS Review Office and the 
        Electronic Research Products Office.
    Technical Support: The 18 individuals affected by this decision are 
in positions at the GS-12 grade level. The principal functions of the 
current positions include:
  --analyzing operations with requirements that can be met through 
        limited customization of existing hardware components and/or 
        software packages;
  --installing standard and specialized software on individual 
        computers within a division or office;
  --keeping systems fully operational, integrated with other CRS 
        systems, and current with new developments in technology; and
  --serving as trouble shooter for various computer problems 
        encountered by division/office staff.
    Audio-visual support: The three individuals affected by this 
decision in the audio-visual specialist/officer position are at the GS-
12 and GS-13 grade levels. Highlights of their current functions 
include taping and editing scheduled programs and creating videos of a 
small number of CRS experts who have prepared educational presentations 
such as Supreme Court nominations and congressional procedures.
Salaries and Compensation
    The total projected fiscal year 2006 cost for the 59 staff who are 
affected by this decision is $4,430,962. Salaries and benefits for 
individual staff range from $35,141 to a high of $115,678--the average 
being $75,101. Further analysis of the data indicates that the salaries 
(excluding benefits) for the affected staff range from $26,989 to 
$99,223, with an average salary of $60,636. The median salary of these 
staff is $52,082; eight staff earn less than $50,000 per year. Appendix 
C includes a more detailed display of the salaries and benefits for the 
affected staff.
Retirement Eligibility
    CRS is offering a voluntary early retirement option and separation 
incentive payment \6\ to the affected staff. CRS sought these options 
based on the following information about the 59 affected staff:
---------------------------------------------------------------------------
    \6\ CRS has the authority to grant the separation incentive payment 
to a maximum of 50 staff. Up to 10 of these payments may be granted to 
staff outside of these affected positions--the staff of the Knowledge 
Services Group. There is no limit, however, on the number of affected 
staff who can take advantage of the voluntary early retirement option.
---------------------------------------------------------------------------
  --33 of the affected staff are either eligible for full voluntary 
        retirement or voluntary early retirement and are eligible to 
        receive the maximum $25,000 separation incentive (16 for full 
        retirement and 17 for early retirement);
  --16 are not eligible to retire but are eligible for the maximum 
        $25,000 separation incentive;
  --Nine who are not eligible to retire, are eligible for separation 
        incentive payments ranging between $3,434 to $21,943, at an 
        average of $16,906; and
  --One staff member, a receptionist, is not eligible for a separation 
        incentive because he has not fulfilled the requirement of three 
        years' employment with the government.
    Appendix C also includes data on the retirement eligibility of 
affected staff.
Diversity
    A consequence of the 2006 staffing decisions is its potential 
impact on the Service's workforce diversity profile. Table 1 below 
demonstrates that if all of the affected staff were to separate from 
the CRS workforce (data as of September 15, 2005), with no other 
attrition or hires, the minority population of the CRS workforce would 
represent 28.8 percent rather than 32.3 percent of total staff. This 
computation, while accurate, may overstate the implication of the 
reduction on minority staff. There is no way to predict the impact 
other attrition might have on the Service's workforce composition or 
the impact of planned 2006 hires. Further, given that 16 of these staff 
are currently eligible for full voluntary retirement, it is possible 
that many of these staff would have retired during this period, 
regardless of the re-engineering efforts underway.
    If no other element of our current profile changed, the elimination 
of these positions would result in an increase in the proportion of 
Asian Americans in the total workforce from 4.5 percent to 4.7 percent; 
the proportion of Native Americans would increase from .7 percent to .8 
percent; Hispanics would remain the same, at 2.4 percent; while the 
proportion of African Americans would decrease from 24.6 percent to 
20.9 percent.

                                TABLE 1.--DIVERSITY COMPOSITION OF THE CRS STAFF
----------------------------------------------------------------------------------------------------------------
                                                                 Total CRS Perm/Ind      Projected CRS Perm/Ind
                                                              Workforce Composition as  Workforce Composition as
                                                                     of 9/15/05                of 10/1/06
                                                             ---------------------------------------------------
                                                                 Number      Percent       Number      Percent
----------------------------------------------------------------------------------------------------------------
Female......................................................          357         51.4          317         49.9
Male........................................................          337         48.6          318         50.1
                                                             ---------------------------------------------------
      Total.................................................          694        100.0          635        100.0
                                                             ===================================================
Minority composition........................................          224         32.3          183         28.8
    Nat Am/Alaskan..........................................            5          0.7            5          0.8
    Asian American..........................................           31          4.5           30          4.7
    African American........................................          171         24.6          133         20.9
    Hispanic................................................           17          2.4           15          2.4
Non-Minority................................................          470         67.7          452         71.2
                                                             ---------------------------------------------------
      Total.................................................          694        100.0          635        100.0
----------------------------------------------------------------------------------------------------------------

    Appendix D provides the diversity composition of the affected 
staff.
Services to Affected Staff
    CRS is offering a variety of resources to staff to assist them in 
their decision making and transition. CRS requested of the Congress and 
received authority to offer a separation incentive payment of up to 
$25,000 to staff separating through retirement with a full annuity, 
early retirement, or resignation. CRS is granting staff one full year 
to find alternative employment and offering numerous specialized and 
individual services to help them achieve that objective, including job 
and retirement counseling. Appendix E provides a detailed list of the 
services and resources being offered to the 59 affected staff.
    It is CRS' hope that these measures will eliminate the need to 
undertake a reduction-in-force (RIF) in September of 2006. However, 
after September 2006, staff who remain in the positions targeted for 
elimination will be subject to RIF procedures.
                             new positions
    CRS is redirecting its resources to acquire new and different 
support capacities generated by technological changes and new work 
processes. CRS will be competitively filling these new support 
positions in the near future. There will be fewer positions and some 
will be classified and filled at lower grade levels.
    The new positions are summarized below. A description of existing 
positions is included to provide a context for the new capacities. The 
language used to describe the duties of these positions is primarily 
derived from the relevant, official position descriptions.
Administrative Support Positions
            GS-8 Senior Production Assistant (current)
    Performs duties related to the preparation of various written 
products that CRS produces for the Congress to include Reports, Issue 
Briefs and memoranda. Supports research analysts throughout the entire 
production process to include the creation, formatting, styling, 
editing and appearance of written documents and in the development of 
graphics and tables when needed. Is responsible for product delivery 
and for working with the Electronic Research Products Office (ERPO) to 
finalize products, making changes as needed following the review of the 
ERPO editors or the CRS Review Office. May use computer on-line systems 
to retrieve information in support of the researcher's written 
products.
            GS-7 Administrative Support Assistant (new)
    Performs support functions related to the administrative operations 
of the division. Implements and maintains division-wide administrative 
control systems to include confidential division files, correspondence 
tracking and the disposition of records. Ensures that division staff at 
all levels are fully informed on CRS and Library administrative 
practices, procedures and other administrative requirements. Initiates 
the development of new and revised administrative policies and 
procedures for the division as appropriate. Works with the supervisor 
to ensure that division managers and staff requests for training and 
travel are processed in an accurate and timely manner and tracks the 
progress of these requests through to approval. Uses appropriate 
software applications to generate administrative documents and forms. 
Serves as the central point of contact for all division staff regarding 
questions and issues related to the web- based time and attendance 
system.
            GS-11 Senior Production/Administrative Coordinator 
                    (current)
    Oversees the function that supports the preparation of CRS written 
products including managing the production work-flow, clearing products 
for style, format, and editorial accuracy, maintaining records of the 
location of research products, transmitting written products to the CRS 
Review Office and the Electronic Research Products Office and other 
duties related to the support of the research production/preparation 
function in the division. Provides training and trouble-shooting 
service for the senior production assistants and other support staff in 
the division. Helps to create macros, templates and other guides for 
the support staff to use in supporting research analysts as they 
prepare their written products. Advises the support staff on how to 
meet the needs of division authors with respect to design, format and 
presentation of written products. Works with division management to 
ensure uniformity of style and format for division research products 
consistent with Service-wide standards.
            GS-11 Supervisory Administrative Coordinator (new)
    Advises the head of the division (the assistant director) on the 
administrative needs and requirements of the division, serves as the 
principal point of contact for the division, and supervises the work of 
administrative and clerical division staff. Coordinates with senior CRS 
and Library managers and with subordinate offices to communicate and 
interpret administrative/management assignments, recommend appropriate 
action or suggest alternative approaches, and follow up as appropriate 
to ensure proper and timely response to assignments. Manages the 
division's official correspondence and a wide variety of correspondence 
from within and outside the agency. Manages the assistant director's 
calendar and initiates contacts and oversees logistical planning and 
preparation for the assistant director's meetings. Undertakes special 
administrative projects or management studies either individually or as 
a participant on task forces or working groups. Monitors and evaluates 
the activities of contractors assigned to perform clerical activities 
for the division.
Technical Support Positions
            GS-12 Senior Technical Support Assistant (current)
    Provides de-centralized technical support to divisions and offices. 
Independently analyzes operations with requirements that can be met 
through limited customization of existing hardware components and 
software packages. Installs standard and specialized software. 
Independently designs, develops, documents, and manages systems that 
require important but limited customization. Keeps such systems fully 
operational, integrated with other CRS systems, and current with new 
developments in technology. Creates documentation for end users of 
systems; typically the entire staff of a division or office. Serves as 
trouble shooter for various computer problems encountered by division/
office staff. Prepares documentation and establishes procedures to 
assist other technical support assistants to diagnose and solve trouble 
calls in a number of technical areas supported by the CRS Technology 
Office. Develops and delivers training courses for groups of 10-12.
            GS-11 Technical Writer-Editor (new)
    Plans, writes, and edits a variety of technical documents, 
including guidelines, reference materials, fact sheets, website 
entries, and standard operating procedures; ensures accuracy, 
consistency, format, completeness, spelling, punctuation, 
capitalization, and syntax. Produces technical material for a variety 
of offices, and determines the adequacy of materials prepared by 
others. Utilizes substantial subject matter knowledge to interpret 
technical material for a variety of audiences.
            GS-14 Information Technology Specialist--INFOSEC (new)
    Serves as a technical authority and assists in planning, directing, 
and coordinating the implementation and execution of approved security 
policies, programs, and services related to Information Technology (IT) 
systems. Oversees or coordinates the preparation of security testing 
and implementation plans. Plans and investigates mission-critical 
cybersecurity violations that affect the integrity of an agency-wide IT 
infrastructure, and develops long-range plans for IT security systems. 
Leads the implementation of security programs for the Service designed 
to anticipate, assess, and minimize system vulnerabilities. Conducts 
difficult and sensitive computer forensic investigations, and ensures 
the integration of IT programs and services.
            GS-7 Office Equipment Administrator (new)
    Monitors the CRS copy centers, determining whether print jobs 
require assistance to be completed; tracks work produced for accuracy, 
quality, and production timeliness; and analyzes system down-time. 
Monitors CRS copiers and other office equipment, and identifies obvious 
trends, or deviations that could impact services provided. Provides 
support and assists in the planning, review, and reporting of data/
statistical results of programs and project studies, and compiles 
statistical data to assist with the overall evaluation and selection of 
equipment.
Status of New Positions
    CRS posted the vacancy announcements for the supervisory 
administrative coordinator positions on October 18, 2005 and the 
administrative support assistant positions on October 24, 2005. CRS 
anticipates that vacancy announcements for the other three technical 
positions will open by the end of November.
    CRS is also creating quality assurance editor and publication-
support positions to assist with the dissemination of CRS products to 
the Congress. Work on these positions are underway. Vacancy 
announcements for these positions may be open by late-November.
    Affected staff may apply for these new positions under the Library 
of Congress merit selection process.
                         fiscal year 2006 hires
    In addition to filling positions in the new support areas described 
above, CRS will continue hiring staff to sustain analytic capacity and 
prepare for the succession of senior leadership. While the total CRS 
workforce is smaller today than in 1999, the proportion of analytic 
staff compared to the total workforce has increased. As of September 
15, 2005, CRS analytic capacity represents 333 permanent, full time 
staff members (47.9 percent) of a total staff of 694 compared to 287 
permanent, full-time staff members (40.8 percent) of a total staff of 
703 in fiscal year 1999. The 2006 staffing decisions were made in the 
context of honoring the congressionally supported succession plan of 
the late 1990s and maintaining a Service-wide infrastructure in a 
manner that adequately addresses analytic capacity and research needs.
    In fiscal year 2006, unless faced with an across-the-board 
rescission, the Service anticipates hiring four attorneys in American 
Law; eight analysts in Domestic Social Policy; six analysts in Foreign 
Affairs, Defense and Trade; four analysts in Government and Finance; 
and six analysts in Resources, Science and Industry. Consistent with 
succession planning, CRS will be filling positions for a deputy 
associate director for finance and a deputy associate director for 
congressional affairs. The Service will continue to review the current 
section head duties as part of CRS' ongoing succession planning.
                               conclusion
    CRS is making every effort to manage its resources so as to perform 
efficiently and effectively its statutory mission of service to the 
Congress, while at the same time coping with the constrained 
Legislative Branch budget that has prevailed in recent years. The 
Service has been directed by the Congress to find ways to streamline 
its operations, eliminate unnecessary duplication, explore options for 
outsourcing appropriate functions, and to align resources in a cost-
effective manner while achieving performance goals that meet 
congressional needs.
    The decisions outlined in this report were made with full 
recognition of and appreciation for the contributions made by affected 
CRS staff, and with much attention focused on finding ways to mitigate 
the impact on those employees. As described, CRS is providing time for 
the affected staff to make personal decisions by delaying 
implementation for a full year. CRS also has obtained from the Congress 
authority to offer separation incentive payments and approval from the 
Office of Personnel Management to offer a voluntary early retirement 
option. The Service also is applying resources through September 2006 
to assist staff during the phase out of their positions by offering 
them services which include: career counseling, job search assistance, 
and retirement counseling.
    In summary, obligations for good stewardship have led the Service 
to make some very difficult decisions. CRS has done so in keeping with 
recent congressional directives and budget decisions and only after a 
thorough examination of all available options and proper attention to 
the implications for staff.
Appendix A: Excerpts From the Fiscal Years 2005 and 2006 Reports of the 
             House and Senate Committees on Appropriations
Fiscal Year 2005
    From U.S. Congress, House Committee on Appropriations, Legislative 
Branch Appropriations, 2005, report to accompany H.R. 4755, 108th 
Cong., 2d sess., H. Rept. 108-577 (Washington: GPO, 2005). Excerpts:
            Legislative Branch Wide Matters
    Budget requests.--The Committee wants to underscore the fact that 
with record deficits, a war on terrorism, and troops on the ground in 
Afghanistan and Iraq, the budget requests from the agencies of the 
Legislative Branch cannot continue to be presented with requested 
increases as high as 50 percent. The Committee expects that future 
budget submissions will take into consideration the overall budget 
constraints placed on the entire Federal budget and that more 
reasonable budget requests will be forthcoming in future years. (p. 4)
    Potential for savings.--. . . The Committee directs the General 
Accounting Office (GAO) to work closely with the head of each 
Legislative Branch entity to: (1) identify opportunities that will 
streamline the agency organization and eliminate organizational layers; 
(2) outsource operations that will result in providing higher quality 
and less costly services; (3) utilize existing technology to enhance 
operational efficiency; (4) implement management changes, which will 
increase efficiency and effectiveness of agency operations; and (5) 
where applicable apply the ``Federal Activities Inventory Reform Act'', 
and ``Chief Financial Officers Act'', and the ``Government Performance 
and Results Act''. The committee directs that the GAO report its 
findings, including recommendations for changes, to the Committee on 
Appropriations of the House and Senate by January 10, 2005. Each agency 
of the Legislative Branch should be prepared to discuss recommended 
changes during the fiscal year 2006 appropriation hearing cycle. (pp. 
4-5)
    Outsourcing.--. . . the Committee directs that each agency of the 
Legislative Branch examine potential outsourcing opportunities of the 
following areas: Information management operations and site management; 
building facilities and grounds management and operations; human 
resources management and operations; training functions; vehicle 
maintenance and management; physical security; financial operations; 
and printing operations. Each agency is expected to not only examine 
the areas outlined, but also examine other activities and functions 
that are unique to each agency to determine if further outsourcing 
opportunities exist. (p. 5)
            Congressional Research Service
    The Committee is concerned with the potential for duplication of 
support activities between the Congressional Research Service Unit and 
the Library of Congress, Salaries and Expenses account. The Committee 
funds centralized support organizations such as Information Technology 
Services, Human Resources Services, Office of the Chief Financial 
Officer, and Integrated Support Services to provide Library-wide 
support services, which helps to reduce duplicate systems and processes 
throughout the Library accounts. Of particular note, in this year's 
budget request, the Library is requesting in two separate accounts 
funding for the Alternate Computer Facility and XML capabilities which 
may reflect duplication of support services. The Committee directs that 
the Library of Congress conduct a study of such functions as 
information technology, human resources, financial services, space 
management, and other support functions to determine whether any 
duplicate or overlapping activities exist. The findings of the study 
are to be provided to the Committee on Appropriations of the House and 
Senate prior to the fiscal year 2006 budget submission and any 
budgetary reductions or realignments be so reflected in the fiscal year 
2006 request. (p. 24)

    From Statement of Managers accompanying the conference report to 
H.R. 4755, H. Rept. 108-792, see Congressional Record (daily edition), 
November 19, 2004, p. H10770.

    The conferees emphasize to the Legislative Branch agencies that the 
large budgetary increases requested in the fiscal year 2005 budget 
submissions cannot be sustained. The conferees encourage the agencies 
to submit more reasonable budget requests for fiscal year 2006, and 
thereafter.
Fiscal Year 2006
    From U.S. Congress, House Committee on Appropriations, Legislative 
Branch Appropriations, 2006, report to accompany H.R. 2985, 109th 
Cong., 1st sess., H. Rept. 109-139 (Washington: GPO, 2006).
            Legislative Branch Wide Matters
    Mandatory and Price Level Increases.--After reviewing budget 
presentation materials submitted by Legislative Branch entities, it is 
apparent to the Committee that there is a wide variance in how the 
agencies formulate and present budget estimates, especially estimates 
for mandatory, or uncontrollable budget increases. To facilitate the 
Committee's review and analysis of budget requests, the Government 
Accountability Office (GAO) is directed to review and evaluate the 
basis of each Legislative Branch agency's budget estimates with the 
exception of those of the House and the Senate. This review should 
place particular emphasis on evaluating the basis of each agency's 
estimates of uncontrollable costs, including what the agency presents 
as ``mandatory'' and ``price level expenses''. GAO shall recommend to 
the Committee budget formulation policy changes that address the 
composition of estimates as well as presentation format. Also, GAO is 
directed to examine each agency's treatment of Full-Time Equivalents 
(FTE's) in its budget submission and recommend consistent guidelines 
each agency can follow in formulating, presenting, and justifying its 
FTE requirements. GAO should also evaluate each agency's treatment of 
non-recurring requirements. This evaluation should be of requirements 
below the program level not simply a list of non-recurring programs. 
GAO shall recommend to the Committee a consistent analytical approach, 
which can be used by each agency to identify non-recurring requirements 
of individual programs and reflect those changes in budget presentation 
materials. GAO shall report to the Committee on Appropriations of the 
House and Senate the results of its efforts by October 1, 2005 to 
provide sufficient time for the Committee to review and analyze so that 
Legislative Branch agencies incorporate the appropriate changes in the 
formulation of their fiscal year 2007 budget requests. (pp. 4-5)
    Legislative Branch Agency Reforms.--The Congress and the nation are 
faced with increased demands for Federal funds for every increasing 
domestic and international program. The Committee is impressed with the 
management and operational reforms implemented in several Legislative 
Branch agencies over the past few years, including the Government 
Printing Office, the Government Accountability Office and the Chief 
Administrative Office of the House of Representatives. The Committee 
believes that other legislative agencies can benefit by the examples 
set by these agencies. Further opportunities exist for increases in 
efficiency resulting from new technology, performance based management, 
and other management improvements. The Committee understands that 
organizational reform is difficult, however, the task can be achieved 
if strong and dynamic leadership is attained. The Committee extends the 
following advice gleaned from these successful agencies. It is critical 
that agency heads look to the future in planning these endeavors and 
that mid-managers and employees are participants as well as 
stakeholders in the process. The leaders and employees are guided in 
developing and embracing their own logical and clear strategic vision 
for the organization's future. Agency management needs to identify 
leaders at all levels that will embrace change, and never lose sight of 
the most important asset of any organization, the staff and workforce. 
The Committee expects that all agencies will continue to look within 
for ways to complete their missions by using the guidance and 
experiences of their successful sister agencies as models to reduce the 
demand for additional staff and larger budget increases in the coming 
fiscal years. (p. 5)
    Review statutes of legislative branch agency heads.--There 
currently exist various laws, processes, and practices governing the 
selection, appointment, removal, compensation, and term of service of 
the Heads and the Deputies of various agencies in the Legislative 
Branch, including the Office of Compliance, the Congressional Budget 
Office, and the Architect of the Capitol, the Library of Congress, the 
Government Printing Office, and the General Accounting Office. The 
Committee suggests that the Joint Leadership of Congress, in order to 
establish uniformity, should review, evaluate and consider the 
appropriate changes to current legislation and regulations governing 
these positions. (p. 6)

    From U.S. Congress, Senate Committee on Appropriations, Legislative 
Branch Appropriations, 2006, report to accompany H.R. 2985, 109th 
Cong., 1st sess., S. Rept. 109-89 (Washington: GPO, 2005).
            Government Performance and Results Act
    The Committee supports the applicability of many Government 
Performance and Results Act (GPRA) principles to the Legislative 
Branch. GPRA encourages greater efficiency, effectiveness, and 
accountability in Federal spending, and requires agencies to set goals 
and use performance measures for management and budgeting. While most 
Legislative Branch agencies have developed strategic plans, several 
agencies have not effectively dealt with major management problems and 
lack reliable data to verify and validate performance. While 
Legislative Branch agencies are not required to comply with GPRA, the 
Committee believes the spirit and intent of the Results Act should be 
applied to these agencies. The Committee intends to monitor agencies' 
progress in developing and implementing meaningful performance 
measures, describing how such measures will be verified and validated, 
linking performance measures to day-to-day activities, and coordinating 
across ``sister'' agencies. The Committee directs all legislative 
branch agencies to submit their plans for achieving this goal within 90 
days of enactment of this Act. (pp. 3-4)
            Library of Congress
    The Committee recognizes the high priority of the Library's 
research mission in support of the Congress, which is reflected in the 
amount recommended for the Congressional Research Service. (p. 35)
    The Committee is concerned about the lack of transparency in the 
Library of Congress budget presentation. It is not always clear and 
understandable. The budget presentation materials do not present 
meaningful programmatic information from a zero-based perspective that 
allow the Committee to determine how priorities are established and 
where tradeoffs could be made. Therefore, the Committee directs the 
Library of Congress to develop a budget presentation and justification 
package for the fiscal year 2007 budget cycle that clearly addresses 
rates and assumptions used in the base as well as a clear description 
for each program of what drives demand for the program, what the nature 
of the program's workload is, and what service or outcome each base 
program is intended to produce. A clear description of new program 
starts and a detailed break out of rates and assumptions associated 
with cost estimates for those programs including demand, workload, and 
outcome should also be provided along with a clear explanation of how 
each program relates to goals and objectives set forth in the Library's 
strategic plan. The Committee expects the Library will consult with the 
Government Accountability Office (GAO) on the development of this new 
presentation package. (p. 35)
  Appendix B: Findings From the Production Support, Technical Support 
                 Assistant, and Audio-Visual Functions
Summary of the Program Activity reviews
            Methodology
    In 2005 CRS undertook assessments of its production, technical 
support, and audio-visual needs, as well as the functions currently 
provided within the Service in those areas. Data for these studies came 
from a variety of sources, including multiple discussions with 
potentially affected staff; a thorough review of all relevant position 
functions; initial and subsequent meetings with each assistant director 
and deputy assistant director, some associate directors, and a sample 
of analysts, attorneys, editors, and section heads; and the use of 
structured questions.
            Production and Administrative Support Functional Review: 
                    Findings Summary from the January 2005 Study
    The study of production and administrative support functions found 
that the technical needs of research and analytic staff have changed. 
The study found that the technical skills of newly hired analysts and 
attorneys often exceed those that the production staff regularly 
demonstrate. Concurrently, there is a need for increasingly advanced 
and specialized technical skills to do the more sophisticated product-
preparation work now required.
    Production staff indicated that they primarily perform 
administrative functions (e.g., logging ISIS requests, recording and 
reporting time and attendance, managing and ordering supplies, and 
performing general receptionist activities). Some study participants 
stated that some production staff do not consider currently needed 
tasks as part of their duties and responsibilities. An example is 
importing data from a variety of sources and transforming that data 
into tables, graphs, and charts for inclusion into CRS products. 
Several production staff reported oftentimes not having enough work to 
keep them occupied full time.
    As a result, the current system has created unmet production needs 
and shifted product-preparation demands, particularly for assistance in 
creating graphics and obtaining editorial assistance. Some analysts 
have come to rely upon the Electronic Research Products Office and the 
CRS Technology Office (TO) for assistance with these tasks.
            Technical Support Assistant Functional Review: Findings 
                    Summary from May 2005 Study
    Because CRS research and analytic staff have become more 
technically sophisticated, the need for basic technical services has 
decreased. The study found that newly hired and other technically 
sophisticated staff are more likely to try to diagnose and solve 
problems themselves before contacting a technical support assistant 
(TSA). Also, the study found TSA skill levels inconsistently meet the 
needs of CRS staff.
    TSAs provide a wide array of technical support assistance: most 
work involves resolving hardware, software, CPU, password, and network 
issues. Some also assist with special projects, provide graphics/
mapping support, develop guidance documents, and assist TO with 
Service-wide projects. Study participants noted that work required of 
TSAs is not standardized across CRS but instead varies by division and 
office.
    The current decentralized organizational structure does not ensure 
consistent technical expertise. Across the research divisions TSAs 
report to different levels of staff (assistant director, deputy 
assistant director, project management coordinator, etc.), who prepare 
their performance reviews. Further, potential for duplication of 
efforts among CRS help desk and user support units and TSAs is not 
cost-effective.
            Audio-Visual Support Functional Review: Findings Summary 
                    from August 2005 Study
    Direct congressional demand for audio-visual products has been 
declining for more than ten years. And the need by CRS analysts for 
audio-visual support is uneven calling into question the need to retain 
a separate, in-house staff for this purpose.

                                   APPENDIX C: SALARY, COMPENSATION, AND RETIREMENT ELIGIBILITY FOR THE AFFECTED STAFF
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                   Employer-
        Job Class. Series            Grade &     Ret. Plan                          Job Title                           Annual       Paid     Total Cost
                                       Step                                                                             Salary     Benefits
--------------------------------------------------------------------------------------------------------------------------------------------------------
         PRODUCTION STAFF

Staff Eligible for Full
 Retirement and Separation
 Incentive:
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614     $13,414     $83,028
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614      $9,189     $78,802
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614      $5,882     $75,496
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $15,917     $67,999
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $12,529     $64,612
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,296     $64,379
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,112     $64,195
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,040     $64,123
    303..........................  8-10.......  FERS.......  Sr. Sp. Adm. Support Assistant.........................     $52,082     $10,194     $62,276
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,980     $60,062
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,872     $59,954
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,673     $59,756
    303..........................  8-10.......  CSRS.......  Sr. Sp. Adm. Support Assistant.........................     $52,082      $7,603     $59,685
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $4,509     $56,591
    1411.........................  6-10.......  CSRS.......  Library Technician.....................................     $42,326      $7,135     $49,461
Staff Eligible for Early
 Retirement and Separation
 Incentive:
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614     $13,556     $83,169
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $15,917     $67,999
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,343     $64,426
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,040     $64,123
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $11,929     $64,011
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,874     $59,956
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,738     $59,820
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,673     $59,756
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,565     $59,648
    344..........................  8-9........  CSRS.......  Sr. Production Assistant...............................     $50,762      $7,864     $58,626
    303..........................  8-10.......  CSRS.......  Sr. Special Adm. Support Assistant.....................     $52,082      $4,509     $56,591
Staff Eligible for Separation
 Incentive Only:
    301..........................  11-10......  FERS.......  Sr. Production/Administrative Coordinator..............     $69,614     $24,119     $93,733
    301..........................  11-10......  FERS.......  Sr. Production/Administrative Coordinator..............     $69,614     $16,744     $86,358
    344..........................  7-6........  FERS.......  Sr. Production Assistant...............................     $58,361     $16,141     $74,501
    301..........................  11-8.......  CSRS.......  Sr. Production/Administrative Coordinator..............     $57,387     $12,668     $70,054
    344..........................  8-9........  FERS.......  Sr. Production Assistant...............................     $50,762     $19,174     $69,936
    344..........................  8-8........  FERS.......  Sr. Production Assistant...............................     $49,420     $18,618     $68,038
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $13,848     $65,930
    344..........................  8-8........  CSRS.......  Sr. Production Assistant...............................     $49,420     $15,014     $64,434
    1411.........................  5-9........  FERS.......  Reference Assistant....................................     $37,001     $11,782     $48,783
    1411.........................  5-9........  FERS.......  Reference Clerk........................................     $37,001     $11,484     $48,485
    304..........................  4-5........  FERS.......  Receptionist...........................................     $29,588      $5,553     $35,141
Staff Not Eligible for Retirement
 or Separation Incentive:
    304..........................  4-1........  FERS.......  Receptionist...........................................     $26,989      $8,750     $35,740
                                                                                                                     -----------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........  $2,429,674
                                                                                                                     ===================================
        TECHNICAL SUPPORT

Staff Eligible for Full
 Retirement and Separation
 Incentive:
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027     $14,344     $91,370
Staff Eligible for Early
 Retirement and Separation
 Incentive:
    2210.........................  12-8.......  CSRS.......  Sr. Technical Support Assistant........................     $81,769     $19,282    $101,051
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027     $14,404     $91,431
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027      $9,866     $86,893
Staff Eligible for Separation
 Incentive Only:
    2210.........................  12-10......  FERS.......  Sr. Technical Support Asst.............................     $83,438     $23,220    $106,658
    2210.........................  12-7.......  FERS.......  Sr. Technical Support Asst.............................     $79,157     $26,739    $105,896
    2210.........................  12-7.......  FERS.......  Sr. Technical Support Asst.............................     $77,027     $21,662     $98,688
    2210.........................  12-5.......  FERS.......  Sr. Technical Support Asst.............................     $72,745     $24,425     $97,170
    2210.........................  12-5.......  FERS.......  Sr. Technical Support Asst.............................     $74,875     $20,292     $95,167
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $24,506     $95,099
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $24,211     $94,805
    2210.........................  12-6.......  CSRS.......  Sr. Technical Support Asst.............................     $74,875     $18,496     $93,371
    2210.........................  12-3.......  FERS.......  Sr. Technical Support Asst.............................     $68,463     $24,090     $92,554
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $20,079     $90,673
    2210.........................  12-8.......  CSRS.......  Sr. Technical Support Asst.............................     $79,157     $10,050     $89,207
    2210.........................  12-2.......  FERS.......  Sr. Technical Support Asst.............................     $66,333     $22,736     $89,069
    2210.........................  12-2.......  FERS.......  Sr. Technical Support Asst.............................     $66,333     $22,666     $88,999
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $46,107     $16,289     $62,395
                                                                                                                     -----------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........  $1,670,496
                                                                                                                     -----------------------------------
        AUDIO/VISUAL STAFF

All Audio/Visual Staff Are
 Eligible for Early Retirement:
 These staff are in the 1071 job
 classification series. To honor
 the privacy of the three
 individual staff members in this
 job series, CRS has not provided
 individual salary and cost data
                                  ----------------------------------------------------------------------------------------------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........    $330,793
                                  ======================================================================================================================
      Total CRS Costs for 59       ...........  ...........  .......................................................  ..........  ..........  $4,430,962
       Affected Staff.
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                 APPENDIX D: DIVERSITY COMPOSITION OF THE AFFECTED STAFF
                                     [Breakdown of CRS Staff by Gender and Race Categories As of September 15, 2005]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Total CRS Perm/                        Affected Staff by Category
                                                                 Indef Workforce -----------------------------------------------------------------------
                                                               ------------------    Production         Technical       Audio-Visual     Total Affected
                           Category                                                    Support           Support     ------------------       Staff
                                                                                 ------------------    Assistants                      -----------------
                                                                 Number  Percent                   ------------------  Number  Percent
                                                                                   Number  Percent   Number  Percent                     Number  Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
Female........................................................      357     51.4       33     86.8        7     38.9  .......  .......       40     67.8
Male..........................................................      337     48.6        5     13.2       11     61.1        3    100.0       19     32.2
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      694    100.0       38    100.0       18    100.0        3    100.0       59    100.0
                                                               =========================================================================================
Minority Composition..........................................      224     32.3       30     78.9       11     61.1  .......  .......       41     69.5
    Nat.Am/Alaskan............................................        5      0.7  .......  .......  .......  .......  .......  .......  .......  .......
    Asian American............................................       31      4.5        1      2.6  .......  .......  .......  .......        1      1.7
    African-American..........................................      171     24.6       28     73.7       10     55.6  .......  .......       38     64.4
    Hispanic..................................................       17      2.4        1      2.6        1      5.6  .......  .......        2      3.4
Non-Minority..................................................      470     67.7        8     21.1        7     38.9        3    100.0       18     30.5
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      694    100.0       38    100.0       18    100.0        3    100.0       59    100.0
--------------------------------------------------------------------------------------------------------------------------------------------------------

      Appendix E: Transition Resources Provided to Affected Staff
    CRS is providing the following transition resources to affected 
staff:
  --an opportunity to participate in the Voluntary Early Retirement 
        Authority (VERA) and Voluntary Separation Incentive Payment 
        (VSIP) programs. Deadline for applying is December 2, 2005. 
        Staff have from December 19, 2005 through January 3, 2006 to 
        separate from the Library under these programs. As of Tuesday, 
        November 1, 2005, 20 affected staff have applied for these 
        programs;
  --a special briefing on the VERA/VSIP process restricted to eligible 
        CRS staff, in coordination with the Library's Office of Human 
        Resources Services;
  --a two-day retirement seminar exclusively for these staff and their 
        spouses. The seminar was held on October 26 and 27. Twenty-
        three affected staff members registered to attend, eighteen 
        attended;
  --special individual retirement counseling, in coordination with the 
        Library's Office of Human Resources Services;
  --special training sessions on how to apply for positions using the 
        Library's automated hiring system. The Library's Office of 
        Human Resources conducted sessions on October 12 and 13. 
        Individual sessions were arranged for those who were unable to 
        attend either of the earlier sessions;
  --a career services web page where staff can access career-related 
        information and links to numerous websites including job search 
        engines, resume writing and interview guides, job fair 
        announcements, training opportunities, and more;
  --services of a career counselor who will be available one day a week 
        through September of 2006 to meet individually with staff and 
        to present a career workshop once a month. The career counselor 
        is expected to be available early November 2005;
  --a briefing on October 13, 2005 by a Reduction in Force (RIF) expert 
        who has been used frequently by the Library of Congress for 
        other RIFs to provide an overview of RIF procedures and to 
        answer questions, to include any follow-up questions by phone 
        and email;
  --briefings on September 28, 2005 for all affected staff to review 
        these transition resources, and to give staff an opportunity to 
        ask questions; and
  --continuous communications from the Associate Director for Workforce 
        Development by e-mail to inform when positions they may be 
        interested in opened, and other upcoming activities to include 
        career fairs, reminders of registration deadlines, and to 
        remind them that they may continue to submit any questions that 
        they have during the transition.

    Question. In your testimony you state that extensive consultation 
took place before you decided to eliminate production support, computer 
technical support, and audio-visual functions. With whom did you 
consult? Was CRS staff in any way involved before you made your 
decision?
    Answer. Before the final decision was made, in addition to multiple 
meetings with the Service's senior managers, CRS solicited input 
through a variety of venues including forums, one-on-one conversations, 
e-mail exchanges. CRS also held follow-up discussions with potentially 
affected staff as well as staff who use their services, including a 
sample of analysts, attorneys, and section heads (first-line 
supervisors).
    Question. Were the affected staffs given an opportunity to receive 
training that may have given them an opportunity to keep their job or 
to apply for other positions within CRS?
    Answer. The skills required for the Service's new technical 
positions are quite different from those required for the older 
production support and technical positions that will be abolished. The 
specialized expertise required for these new positions cannot be 
acquired or developed through some selected training courses.
    In addition to traditional production support, the incumbents of 
the two older production support positions performed some 
administrative tasks as well. One of the current production support 
positions is supervisory/managerial at the GS-11 grade level; and, the 
other is non-supervisory at the GS-8 grade level.
    When CRS defined the new work tasks and developed the associated 
position descriptions, all of the administrative tasks were 
consolidated into two new positions, one is supervisory at the GS-11 
grade level and the other was classified by the Library of Congress 
Human Resources Services as a GS-7, one grade level lower than the GS-8 
production position. Both of the new administrative positions will have 
fewer incumbents (ten total) than the number of incumbents of the 
current production positions (33 total). So far, three of the affected 
staff were competitively selected for these ten new administrative 
positions. A fourth individual from the affected staff was also 
selected but declined the offer and chose instead to retire.
    CRS affected staff continue to receive training for the work that 
they perform in their current positions. However, selecting particular 
individuals for specific training to improve their credentials for a 
new job could be seen as running counter to merit-selection principles 
inherent in OPM regulations implementing the Government Employee 
Training Act. Information provided in the following questions addresses 
the issues of training staff for future positions.
    Question. What actions have you taken to work with the rest of the 
Library to find positions for the remaining 31 staff?
    Answer. CRS and the Library will begin the process of seeking 
placements for the remaining staff in June. The data and conditions for 
placing the remaining staff are dictated by law, regulation, and the 
CRS collective bargaining agreement, which govern when a reduction-in-
force is established.
    When the staffing changes were announced last September, it was the 
Director's hope that by providing a 12-month notice, separation 
incentives, voluntary early retirement opportunities, and transition 
services that all 59 individuals would vacate the positions before 
September 30, 2006. At this time, 29 of the 59 affected staff have 
retired, resigned, or secured other positions. In the meantime, CRS 
continues to provide a variety of career counseling services to 
affected staff and to provide weekly notices of CRS and Library posted 
positions that may be of interest to them.
    Question. How closely have you worked with the new Center for 
Learning and Development in the Library to assist affected staff in 
training for current and future positions in the Library?
    Answer. Staff from the CRS Office of Workforce Development worked 
closely with the Library's Center for Learning and Development in 
identifying 600 online courses that would provide a broad array of 
training for Library staff as it pertains to their current positions. 
The availability of courses has been communicated to all CRS staff and 
a number of CRS staff members, including the affected staff, have taken 
online courses.
    The On-line Learning Center has been a topic of discussion at the 
weekly CRS Research Policy Council meetings of senior managers who are 
advised to encourage staff to enroll in the online training. As a 
result, a number of affected staff have taken advantage of these 
training opportunities. In addition, the Career Services Web Page that 
was established specifically for affected staff includes a link to the 
Online Learning Center.
    Providing training for future positions becomes more complex. The 
Government Employee Training Act (GETA) permits training ``which will 
improve individual and organizational performance and assist in 
achieving the agency's mission and performance goals.'' [5 USC4101(4)] 
OPM implementing regulations provide that ``mission-related training'' 
includes training that improves an employee's current job performance 
and training that ``[a]llows for expansion or enhancement of an 
employee's current job [or e]nables an employee to perform needed or 
potentially needed duties outside the current job at the same level of 
responsibility.'' [5 CFR 410.101 (d)]
    Retraining ``to address an individual's skills obsolescence in the 
current position and/or training and development to prepare an 
individual for a different occupation, in the same agency, in another 
government agency, or in the private sector'' is also permitted under 
OPM regulations. [5 CFR 410.101(e)] The selection of employees for 
training opportunities, however, must follow merit system principles. 
[5 CFR 410.302 (a)(1)] Each agency must establish criteria for the 
``fair and equitable selection and assignment of employees to training 
consistent with merit system principles.'' [5 CFR 410.306(a)]
    Merit system principles are particularly applicable to training 
designed to prepare employees for advancement. Thus, OPM's Training 
Policy Handbook provides that ``[a]gencies' training programs must 
consider all employees fairly'' and that ``[a]gency merit promotion 
procedures must be followed in selecting employees for training that is 
primarily to prepare trainees for advancement and that is not directly 
related to improving performance in their current positions.''
    Selecting particular employees to be accorded specific training 
designed to improve their advancement possibilities or to qualify them 
for other positions could be seen to run counter to merit selection 
principles. The Library and CRS have developed a merit selection 
process for filling positions, and CRS also applies competitive 
procedures to its longer term details within the agency and to 
designating section heads. The GETA and implementing regulations would 
also seem to dictate that similar principles be applied in the 
provision of training.
    The focus of all training opportunities provided to staff complies 
with the Service's obligation to enhance staff skills for the positions 
currently held, rather than to provide training for possible future 
positions that could be seen as running counter to merit-selection 
principles inherent in OPM regulations implementing the GETA.
    Question. It is my understanding that of the 59 staff being 
eliminated, nearly 70 percent are minorities. What are your plans to 
address the major loss of minority employees in CRS?
    Answer. CRS is dedicated to maintaining a diverse workforce. When 
CRS announced its plan to eliminate three functions, the diversity 
profile of the Service was 32.3 percent minority. If all of the 
affected staff would have left and no new hires added, the CRS 
workforce would have been reduced to 635 and the racial and ethnic 
profile of that reduced staff would have reflected a minority 
population of 28.8 percent. The proportion of Asian Americans would 
have increased from 4.5 percent to 4.7 percent; Native Americans would 
have increased from .7 percent to .8 percent; Hispanics would have 
remained the same at 2.4 percent; and the proportion of African 
Americans would have decreased from 24.6 percent to 20.9 percent.
    Instead, as of February 28, 2006, after the retirement of 23 
affected staff, attrition unrelated to the workforce re-engineering, 
and the hiring of new staff in accordance with the CRS hiring plan, 
31.1 percent of CRS' total permanent/indefinite workforce of 685 is 
minority; .7 percent Native American, 4.7 percent Asian American, 23.1 
percent African American, and 2.6 percent Hispanic.
    CRS has filled four (4) of the new positions (with 12 incumbents). 
Of the twelve incumbents hired, nine (75 percent) are minorities, and 
all of whom are African American females.
    CRS will continue to use national recruitment and hiring programs 
and sources to attract minority applicants to CRS. These programs 
include targeting universities and public policy schools with high 
minority enrollments to serve as recruitment sources for entry-level 
professional positions, and forging special connections with minority-
serving organizations such as Historically Black Colleges and 
Universities, the United Negro College Fund, the Congressional Black 
Caucus, the Congressional Hispanic Caucus, and others. In addition, CRS 
continues to use programs such as the CRS Law Recruit Program, the 
Student Diversity Internship Program, the Hispanic Association of 
Colleges and Universities National Internship Program, and the Federal 
Presidential Management Fellowship Program to recruit minorities for 
CRS positions.

                          SUBCOMMITTEE RECESS

    Senator Allard. The subcommittee stands in recess and we 
will meet next on March 15 at 10:30 a.m., when we will take 
testimony from the Secretary of the Senate and Architect of the 
Capitol on their fiscal year 2007 budget requests. In addition, 
we will hear from witnesses regarding progress of the Capitol 
Visitor Center as part of the monthly oversight of that 
particular project.
    I thank the participants today for sharing their views with 
us.
    [Whereupon, at 11:45 a.m., Wednesday, March 1, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 15.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. Good 
morning everybody. We meet today to take testimony on the 
fiscal year 2007 budget request for the Secretary of the Senate 
and the Architect of the Capitol, and review progress of the 
Capitol Visitor Center (CVC) construction. The legislative 
branch budget request totals roughly $4.2 billion, an increase 
of $460 million or 12 percent over the current year.
    While most agencies in the President's budget would be 
frozen at current levels, a number of the agencies before this 
subcommittee have proposed very substantial increases and we 
will need to scrutinize these requests very carefully. We will 
have three separate panels today. Secretary Emily Reynolds will 
testify first, she's accompanied by Assistant Secretary of the 
Senate Mary Suit Jones, and the new Financial Clerk of the 
Senate Chris Doby.
    Our second panel will be the Architect of the Capitol, Alan 
Hantman, and our third panel to discuss progress of the Capitol 
Visitor Center construction will include Mr. Hantman, CVC 
Project Executive Bob Hixon, and GAO representatives Bernie 
Ungar and Terrell Dorn.
    I extend a welcome to our witnesses this morning. Ms. 
Reynolds, your office is requesting a budget of about $24 
million, an increase of roughly $1 million, or just above 5 
percent over fiscal year 2006. This budget would support the 26 
departments that are part of the Office of the Secretary and 
would accommodate cost of living and merit increases. And we'll 
now proceed to the first panel. Welcome Ms. Reynolds. You may 
proceed with your testimony. It's good to see you.
    Ms. Reynolds. Thank you Mr. Chairman, it's an honor to be 
with you. We're, of course, very grateful for your leadership 
as our subcommittee chairman, and we appreciate this 
opportunity to talk about the work of the Secretary's office. 
I'd like to ask that my full statement, which, of course, 
includes our complete department reports, be submitted for the 
record.
    Today I would just like to give you a brief overview of the 
Secretary's operation and most importantly that budget request 
for fiscal year 2007 that you mentioned. As you said, we've 
requested about $24 million; $22 million of that is in salary 
cost and $1.9 million for operating expenses. That slight 
increase as you've referenced is in cost of living allowance 
(COLA) and merit increases so that we can continue to attract 
and retain the talent that the Senate requires and deserves for 
the critical day to day operations that we provide.
    And I'd like to take a couple of minutes today and just 
highlight some of the work of the past year, since we were all 
last together at this hearing. There are three key words that 
come to mind in reflecting on the Secretary's operation. And 
those are continuity, creativity and collaboration. That's how 
our office functions and I want to mention in particular in 
terms of continuity, because in so many respects we are the 
institutional memory of the Senate. We take very seriously the 
responsibility of passing that knowledge along from generation 
to generation, incoming class to incoming class, office to 
office. Our legislative department, the great folks that you 
see on the floor of the Senate each and every day, continue to 
cross train among their various specialties, and about half of 
that staff is cross trained.
    We're also blessed in that a large number of people come to 
serve the Senate for an extended period of time, but it makes 
it all the more important when you begin to lose that 
institutional memory in retirements that we try to anticipate 
those changes and work toward an appropriate line of 
succession. And at all times, we strive to attract and retain 
the best talent possible. Individuals for whom coming to the 
Senate to serve this body as their career is a high priority.
    And, of course, on a much broader scale, it's our 
responsibility to prepare daily so that you and your colleagues 
can carry out your constitutional responsibilities under any 
circumstance. So for us that continuity has both a daily impact 
and a much broader view as well.
    I mention creativity as well and I hope that we bring a 
certain level of creativity in each of our 26 departments. And 
I'd like to just highlight five things today that we're doing.
    A perfect example of that creativity is the Senate's 
website. And our new home page in particular which we're very 
proud to have the chance to show off and talk about a little 
bit. All of our lives have been changed dramatically by the 
worldwide web, and the Senate is no exception. Senate.gov now 
celebrates a decade of service to the Senate community and the 
general public and received an astonishing 50 million visits 
last year. That's five times as many as just 5 years ago, so 
remarkable growth in terms of the public's access to 
senate.gov. And with that, thanks to the support of this 
subcommittee we unveiled a handsome new home page in January. 
There's more content on the front page, the site also provides 
site wide searches from every page, and, of course, most 
importantly those direct links to the Members' home pages.
    I'm really delighted that U.S. News took note of the new 
homepage, and described it as a rich new website and one that's 
much easier to research. I also mentioned to you when we were 
here last year, that our historical office had underway a 
project of a pictorial directory, with the images of all 
Senators who have served since 1789, by State and by class. 
That book ``Faces of the Senate'' was completed in November and 
it really is a treasure. It was a monumental effort on the part 
of our Senate photo historian. And it was interesting in that 
as she reached out to historical societies, museums and other 
organizations in trying to locate as many images as possible, 
the project attracted the attention of a National Guardsman 
from Vermont who was stationed in Iraq. He was working on a 
historical project for his unit, and he e-mailed our photo 
historian saying I don't have a lot of time to assist, but with 
my own project I'm finding resources out there I never knew 
existed. And amazingly enough, he helped us locate six images 
of former Members for whom we had no previous record.
    The gift shop I want to mention, a tremendous presence here 
in the Senate. And we've enhanced the gift shop operation by 
adding an online presence to our intranet Webster so that our 
Senate community can more easily see the vast array of products 
that we have available.
    I'm also proud that in this bicentennial year of 
Constantino Brumidi's birth, the artist of the Capitol, we've 
added a product line with Brumidi featured merchandise so that 
our merchandise reflects the rich history of the Capitol and 
hopefully for people it has some educational value as well.
    You may also recall, that 2 years ago we completed the 
publication of the Senate's fine arts catalogue. A beautiful 
volume, the companion volume, a catalogue of our graphics art 
collection will be available later this year. And just like the 
fine arts publication, it will be a magnificent presentation of 
the 900 historic engravings and lithographs in the Senate 
collection.
    I had the opportunity to speak last week with a member of 
our curatorial advisory board, and she said that she believed 
that this publication will be very well received in the arts 
community, the academic community, as a first ever glance if 
you will at this tremendous collection of the Senate's and it's 
an excellent research tool. So we'll have that to you later 
this year. I'm excited about it.
    In the Senate reception room, thanks to the leadership of 
Senator Dodd, we will add an important representation from the 
18th century. And that's the addition of a mural that will 
commemorate the two authors of the Great or Connecticut 
Compromise. That mural will depict the authors of that 
compromise, Roger Sherman, and Oliver Ellsworth and will be 
unveiled later this year.
    And finally in terms of collaboration, so much of what we 
do each and every day is dependent on a team approach, among 
our departments working with the Architect of the Capitol, 
working with members of the Senate community and especially 
with our Sergeant at Arms. And once again I'd love to give 
three quick examples. I want to publicly thank and commend the 
Sergeant at Arms, and this subcommittee without whose support 
the project would not have been possible for the completion of 
the new Senate support facility. From our gift shop, 
stationery, the curator, library, our disbursing operation, 
having that state-of-the-art storage space will make a 
difference each and every day in terms of the level of support 
we provide our Senate community. The facility is a welcome 
addition and should serve our needs for years to come.
    One of the most important services that you and your 
colleagues offer the folks at home is providing flags that are 
flown over the Capitol, and we have an exciting pilot project 
underway with 26 offices and I believe your office is one, to 
streamline that process of the purchase of pre-flown flags. 
It's become cumbersome at times, and again thanks to this 
pilot, we should have real success and report back to you on 
that along the way.
    And finally our legislative information system, another 
project generously funded by this subcommittee, we've made 
tremendous progress again this year. Again a team effort 
between our LIS Office and most especially the Senate 
Legislative Counsel. Already this year, over 95 percent of the 
bills introduced in this session of the 109th Congress have 
been written and formatted through the XML authoring 
application known as LEXA. So we're very proud of that 
milestone.
    I often marvel that the first Secretary of the Senate 
carried out his responsibilities alone, in the first years of 
the Senate's existence. By the time he died in office in 1814, 
he had convinced his appropriators to allow him to hire two 
clerks. As much as things have changed and as our 
responsibilities have grown through the years, the three 
fundamental responsibilities of our office, to provide the 
legislative, financial, and administrative support to this 
institution remain at the heart of what we do, each and every 
day. It's our duty and our honor to carry out these functions 
for the Senate.

                           PREPARED STATEMENT

    On behalf of our entire team, we thank this subcommittee 
Mr. Chairman, for your support and I look forward to questions. 
Thank you.
    [The statement follows:]
                Prepared Statement of Emily J. Reynolds
    Mr. Chairman, Senator Durbin, and Members of the Subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2007.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2007 budget 
request; implementing mandated systems: financial management 
information system (FMIS) and legislative information system (LIS); 
Capitol Visitor Center; continuity of operations planning; and 
maintaining and improving current and historic legislative, financial 
and administrative services.
             presenting the fiscal year 2007 budget request
    I am requesting a total fiscal year 2007 budget of $24,066,000. The 
fiscal year 2007 budget request is comprised of $22,166,000 in salary 
costs and $1,900,000 for the operating budget of the Office of the 
Secretary. The salary budget represents an increase over the fiscal 
year 2006 budget as a result of (1) the costs associated with the 
annual Cost of Living Adjustment in the amount of $654,000 and (2) an 
additional $646,000 for merit increases and other staffing. The 
operating budget represents a decrease of $80,000 from fiscal year 
2006. The funding for the study on employment compensation, hiring and 
benefits practices, included in last year's funding, is a non-
reoccurring expense.
    The net effect of my total budget request for fiscal year 2007 is 
an increase of $1,220,000.
    Our request in the operating budget is a sound one, enabling us to 
meet our operating needs and provide the necessary services to the 
United State Senate through our legislative, financial and 
administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Item                                  fiscal year      estimate       Difference
                                                                   2006, Public     fiscal year
                                                                    Law 109-55         2007
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $630,000        $550,000         -80,000
    Administrative services.....................................       1,290,000       1,290,000  ..............
    Legislative services........................................          60,000          60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       1,980,000       1,900,000         -80,000
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 offices. Consistent with the five year strategic 
plan, the Disbursing Office continues to modernize processes and 
applications to meet the continued demand by Senate offices for 
efficiency, accountability and ease of use. The goal is to move to a 
paperless voucher system, improve the Web FMIS system, and make payroll 
and accounting system improvements.
    Over the last two years work has been underway to update and 
simplify the underlying technology of Web FMIS, basically replacing all 
Visual Basic Client/Server and Cold Fusion Web technology with 
WebSphere web pages thereby creating a ``thin client'' application that 
can be accessed via an intranet browser. In August 2004 Web FMIS r9.0 
for pilot offices, which was a complete rewriting of the Web FMIS 
functionality using all intranet based pages, was implemented. By the 
end of April, all Web FMIS users were using the intranet version of Web 
FMIS.
    During fiscal year 2005 and the first half of fiscal year 2006, 
improvements to Web FMIS were as follows:
  --In the November 2004 release, additional functionality identified 
        by the pilot offices was addressed. This new release was 
        provided to new offices of the 109th Congress. In the February 
        2005 release, a security certificate was added to the Web FMIS 
        web site (i.e., adding the ``S'' to https://webfmis.senate.gov) 
        and changed the extracts for the nightly Web FMIS reporting 
        cycle to use table-driven parameters rather than hard-coded 
        ones. In April 2005, report and document printing was provided 
        via Adobe, standard Senate software, rather than Web FMIS-
        specific files. This completed moving Web FMIS to the ``zero-
        client'' platform, an important milestone in providing critical 
        systems in a disaster situation. With this change, the Rules 
        Committee Audit staff moved from client-server based screens to 
        intranet-based pages for their functions, Disbursing staff 
        began to use ``standard notepad text'' in documenting 
        corrections made to vouchers. In July 2005, the focus was on 
        additional functionality for Disbursing, including new pages 
        for the Inbox and Document Review functions, enhancements to 
        the Advice of Change process and streamlining the document 
        approval process. Technology was updated and provided more 
        functionality on the Inbox pages and the travel reimbursement 
        mileage rate maintenance page. Additional functionality was 
        added to the Documents/Create page and the Budget page, and 
        bugs were fixed.
  --In May 2005, the SAVI system was upgraded, which enables Senate 
        staff to check the status of reimbursements, whether via check 
        or direct deposit, to enable its use by Macintosh computer 
        users.
  --The Disbursing Office makes payments via direct deposit and via 
        check using the Checkwriter software. In 2006, Checkwriter 
        release 6, which rewrites the security component, will be 
        tested with implementation tentatively scheduled for summer 
        2006.
  --On Saturday, December 3, 2005, the Sergeant at Arms technical staff 
        conducted a disaster recovery test of the Senate's computing 
        facilities, including the financial management information 
        system (FMIS) functions. The test involved switching the 
        Senate's network from accessing systems at the Primary 
        Computing Facility (PCF) to the backup facility, and powering 
        down the PCF.
      The SAA's primary purpose was to test the technical process of 
        switching to our backup facility, and only a limited amount of 
        time was available for functional testing. The SAA staff wanted 
        to complete the exercise within a 12-hour window, including the 
        time needed to switch us to the backup facility and back to the 
        PCF. A two-hour functional testing window was expected. In the 
        scenario, FMIS systems and data would be ``failed-over'' to the 
        backup facility, and made available for testing during the 
        functional testing window. The systems would then be ``failed 
        back'' to the PCF, but the data would not be ``failed back''. 
        Consequently, any changes made while testing at the backup 
        facility would not be made to production data.
      Within the limited scope of what we were able to test, most of 
        the critical components of FMIS were successfully tested. A 
        request has been made to the SAA that disaster recovery tests 
        be conducted twice a year and that additional system components 
        be tested at each successive event.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms. Each year upgrades are made to the infrastructure 
        software. The major upgrade this year was the implementation of 
        a new version of the mainframe operating system software, ``Z/
        OS.'' This upgrade required FMIS testing, both before 
        implementation to identify and resolve any incompatibilities, 
        and after implementation to verify that all functions are 
        working properly.
    During 2005 work continued with Bearing Point to define the 
requirements for additional functionality required for the two Web FMIS 
releases planned for 2006:
  --Web FMIS r11 B.--Planned for Summer 2006, this release will add the 
        ability to ``import'' invoice data from an outside vendor in 
        order to create a voucher with minimal re-typing. (This process 
        is similar to the ``import'' process by which data from an 
        online ESR, created via SAVI, is used to create a travel 
        voucher).
  --Web FMIS r12 B.--Planned for late Fall 2006, this release will be a 
        pilot of paperless voucher processing, which requires adding 
        electronic signature and documentation imaging functionality.
    In addition, during fiscal year 2006 the following FMIS activities 
are anticipated:
  --Developing requirements for integrating the Funds Advance Tracking 
        System (FATS) into FMIS. FATS, a stand-alone PC-based system, 
        tracks election cycle information used in the voucher review 
        process, and tracks travel advances and petty cash advances 
        against dollar maximum and total allocation rules.
  --Implementing DB2 vs. 8 in compatibility mode.
  --Researching the implementation of online distribution of system 
        reports.
  --Completing fiscal year 2004 Financial Statements in Hyperion and 
        start working on fiscal year 2005.
  --Performing some minor enhancements to the FAMIS vendor file.
    A more detailed report on FMIS is included in the department report 
of the Disbursing Office which follows.
Legislative Information System (LIS)
    The LISAP project team continues to enhance the Senate's 
legislative editing XML application (LEXA). The Office of the Senate 
Legislative Counsel (SLC) used LEXA throughout 2005 and 80 percent of 
introduced and reported measures for the first session of the 109th 
Congress were created as XML documents. As modifications and features 
were developed for LEXA, the SLC's use continues to increase. Thus far 
in the second session of the 109th Congress, approximately 96 percent 
of the introduced and reported bills have been created as XML 
documents. Additional document types, such as conference reports and 
engrossed and enrolled bills, were added to LEXA.
    The LISAP project team continues to work with the Senate offices, 
the Clerk of the House, the Government Printing Office and the Library 
of Congress to develop standards and tools to create, print and 
exchange legislative documents in XML. The Government Printing Office 
(GPO) uses LEXA to update and print Senate XML documents as requested. 
GPO also provides support for LEXA, as directed in the 2004 Legislative 
Branch Appropriations Act, by maintaining the printing software in LEXA 
that converts an XML document to locators for printing through 
Microcomp. GPO is also in the process of reworking the software that 
creates and prints tables. These tools will be incorporated into both 
the Senate and House XML authoring applications.
    A joint project to convert the compilations of current law to an 
XML format was completed last year. Joint projects for this year 
include completion of the new table tool and development of standards 
for drafting appropriations amendments in XML. The Document Management 
System (DMS) for the SLC will be implemented once the SLC has completed 
the transition from XyWrite to LEXA. The SLC's DMS will be integrated 
with LEXA and will provide a powerful tracking, management and delivery 
tool.
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operation of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee in order to 
address the expansion space plans for the Senate and any issues with 
regard to the Capitol Visitor Center's (CVC's) construction that may 
directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the CVC will bring 
substantial improvements in enhanced security and visitor amenities, 
and its educational benefits for our visitors will be tremendous.
      continuity of operations and emergency preparedness planning
    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, COOP plans were successfully implemented during the 
anthrax and ricin incidents, and more than twenty drills and exercises 
to test and refine our plans have been conducted. In conjunction with 
the Sergeant at Arms, Capitol Police, the Office of the Attending 
Physician and the Architect of the Capitol, Emergency Operations 
Centers, Briefing Centers and Alternate Senate Chambers, have been 
exercised both on and off campus.
    In addition, equipment, supplies and other items critical to the 
conduct of essential functions have been identified and assembled as 
``fly-away kits'' for the Senate Chamber and for each department of the 
Office of the Secretary. Multiple copies of each fly-away kit have been 
produced; some are stored in our offices, and back-up kits are stored 
nearby but off the main campus, as well as at other sites outside the 
District of Columbia. This approach will enable the Office of the 
Secretary to resume essential operations within 12 to 24 hours, even if 
there is no opportunity to retrieve anything from our offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency:
  --support Senate Floor operations in an Alternate Senate Chamber 
        within 12 hours on campus, and within 24 to 72 hours off 
        campus, depending upon location;
  --support an emergency legislative session at a Briefing Center, if 
        required;
  --support Briefing Center Operations at any of three designated 
        locations within 1 hour;
  --activate an Emergency Operations Center at Postal Square or another 
        near-campus site within 1 hour; and
  --activate an Emergency Operations Center at another site within the 
        National Capital region within 3 hours.
Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Updated plans for use of an Alternate Senate Chamber, Briefing 
        Center and Emergency Operations Center;
  --Working with the Capitol Police and the Office of the Sergeant at 
        Arms, refined response plans for air threat incidents;
  --Updated fly-away kits for use at an Alternate Chamber; and
  --Conducted and participated in ten emergency preparedness drills and 
        exercises.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission, and they are a permanent, integral part of the Secretary's 
ongoing operation.
 maintaining and improving current and historic legislative, financial 
                      and administrative services
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to carry out their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates, which are supervised by the Secretary through the Legislative 
Clerk. The Parliamentarian's office is also part of the Legislative 
Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is 20 years. The experience of this senior 
professional staff is a great asset for the Senate. In order to ensure 
well-rounded expertise, the legislative team cross-trains extensively 
among their specialties.
                             1. bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, co-sponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form. The Bill 
Clerk's office is generally regarded as the most timely and most 
accurate source of legislative information.
Legislative Activity
    The Bill Clerk's office processed into the database more than 2,000 
additional legislative items and 150 additional roll call votes than 
the previous session. For comparative purposes, below is a summary of 
the 108th Congress, broken down into 1st and 2nd sessions, as compared 
to the first session of the 109th Congress:

----------------------------------------------------------------------------------------------------------------
                                                              108th         109th         108th         109th
                                                            Congress,     Congress,     Congress,     Congress,
                                                           1st Session   1st Session   2nd Session   1st Session
----------------------------------------------------------------------------------------------------------------
Senate Bills............................................         2,003         2,169         1,032         2,169
Senate Joint Resolutions................................            26            27            16            27
Senate Concurrent Resolutions...........................            86            75            66            75
Senate Resolutions......................................           283           347           204           347
Amendments Submitted....................................         2,231         2,695         1,857         2,695
House Bills.............................................           282           286           322           286
House Joint Resolutions.................................            20            11            12            11
House Concurrent Resolutions............................            78            88            87            88
Measures Reported.......................................           352           286           317           286
Written Reports.........................................           220           212           208           212
                                                         -------------------------------------------------------
      Total Legislation.................................         5,571         6,196         4,121         6,196
                                                         =======================================================
Roll Call Votes.........................................           459           366           216           366
----------------------------------------------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office with the common goal of providing the 
best service possible to meet the needs of the Senate. Toward this end, 
GPO continues to respond in a timely manner to the Secretary's request 
through the Bill Clerk's office for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
chamber. For example, the Secretary requested, through the Bill Clerk, 
that GPO expedite the printing of roughly 60 measures for consideration 
by the Senate.
Projects
    Amendment Tracking System (ATS).--In the fall of 2001, the Rules 
Committee staff approached the Secretary's office with the task of 
scanning submitted amendments onto the Amendment Tracking System on 
LIS. The Rules Committee identified a need for Senate staff to have all 
amendments submitted in the Senate made available to them online 
shortly after being submitted, especially during cloture. Rules 
Committee also requested that the Secretary assess the feasibility of 
lifting the page limitation for scanning amendments onto the ATS 
Indexer.
    In September 2005, the Secretary of the Senate, through the Bill 
Clerk's office, began scanning submitted amendments to the ATS Indexer. 
The Technology Development division of the Sergeant at Arms office has 
been quick and responsive, making the ATS Indexer a dynamic, usable 
tool available to the Senate community. The Bill Clerks were able to 
implement this new requirement seamlessly. With the added function of 
the ATS Indexer, the Secretary has made available to the Senate 
community all amendments, submitted and proposed, and in doing so, 
lifted the page limit from 25 to 50. Initial response from users is 
both positive and constructive.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have available an electronic version of 
the official Senate ledgers in order to ensure the integrity of the 
information recorded in the books. It is anticipated that the 
electronic version will be available for use during possible emergency 
scenarios, either via remote access or portable device. The Technology 
Development division of the Sergeant-at-Arms is working to develop two 
separate functions of this ledger system. One is an electronic data 
entry system, which will mimic the layout of the current Senate ledgers 
printed by the Government Printing Office. The other, a search 
function, has already been developed and is currently in use in select 
clerical offices of the legislative staff and is routinely enhanced and 
modified by the excellent ELS project team at Postal Square. Both of 
these programs will be housed on a separate server to maintain the 
integrity of the ledger data. This search system offers an invaluable 
tool capable of utilizing more complex search requirements.
                    2. office of captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate intranet.
General Overview
    Accuracy continues to be the top priority of this Office. Overall 
caption quality is monitored through daily Translation Data Reports, 
monitoring of captions in realtime, and review of caption files on the 
Senate intranet. Dedication to this process has produced an overall 
captioning accuracy average above 99 percent this past year.
    A major event of 2005 for the Office of Captioning Services was 
realtime captioning the 55th Annual Presidential Inauguration. The 
Office's captions of the historic event appeared on six jumbotrons 
located on the West Front of the Capitol and the National Mall.
    Continuity of operations planning and preparation during 2005 
continued to be a priority to ensure staff is prepared and confident 
about the Office's ability to relocate and successfully caption from a 
remote location in the event of an emergency. Participation in a 
Continuity of Operations template review project with the Sergeant at 
Arms Continuity of Operations Program Manager provided an excellent 
opportunity for an in-depth review of the Office of Captioning 
Service's Plan.
Technology Update
    The Office received a major upgrade of software and hardware in 
2004 and thus continues to work with vendors to provide enhancements 
and correct deficiencies in the new realtime captioning software.
2006 Objectives
    The Office of Captioning Services constantly strives to maintain 
and improve the high level of caption accuracy that has been 
established. The Office is committed to this goal and will strive to 
find new and innovative ways to accomplish this objective.
    Another priority of the Office of Captioning Services will be to 
prepare and plan for the procurement and installation of equipment and 
relocation of the Office of Captioning Services to the Senate expansion 
space in the Capitol Visitor Center.
                         3. senate daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record.
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        have become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes. (See Resume of Congressional Activity which 
        follows).
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held a total of 874 meetings during the first 
session of the 109th Congress, as contrasted with 838 meetings during 
the first session of the 108th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and entered in the 
Legislative Information System. Meeting outcomes are also published by 
the Daily Digest in the Congressional Record each day.
Chamber Activity
    The Senate was in session a total of 159 days, for a total of 1,222 
hours and 26 minutes. There were 3 live quorum calls and 366 record 
votes. (See Chart depicting a 20-Year Comparison of Senate Legislative 
Activity which follows).

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1986          1987          1988          1989          1990          1991          1992          1993          1994          1995
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25           1/4
Senate Adjourned....................................         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96
Days in Session.....................................           143           170           137           136           138           158           129           153           138           211
Hours in Session....................................      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"
Average Hours per Day...............................           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0           8.7
Total Measures Passed...............................           747           616           814           605           716           626           651           473           465           346
Roll Call Votes.....................................           359           420           379           312           326           280           270           395           329           613
Quorum Calls........................................            16            36            26            11             3             3             5             2             6             3
Public Laws.........................................           424           240           473           240           244           243           347           210           255            88
Treaties Ratified...................................            12             3            15             9            15            15            32            20             8            10
Nominations Confirmed...............................        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446        40,535
Average Voting Attendance...........................         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02         98.07
Sessions Convened Before 12 Noon....................           117           131           120            95           116           126           112           128           120           184
Sessions Convened at 12 Noon........................            25            12            12            14             4             9  ............             6             9             2
Sessions Convened after 12 Noon.....................             1            25             5            27            17            23            10            15            17            12
Sessions Continued after 6 p.m......................            92            97            37            88           100           102            91           100           100           158
Sessions Continued after 12 Midnight................            15             6             7             9            13             6             4             9             7             3
Saturday Sessions...................................             2             3  ............             1             3             2             2             2             3             5
Sunday Sessions.....................................  ............             1  ............  ............             2  ............  ............  ............  ............             3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1996          1997          1998          1999          2000          2001          2002          2003          2004          2005
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20           1/4
Senate Adjourned....................................          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8         12/22
Days in Session.....................................           132           153           143           162           141           173           149           167           133           159
Hours in Session....................................      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"
Average Hours per Day...............................           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7           7.7
Total Measures Passed...............................           476           386           506           549           696           425           523           590           663           624
Roll Call Votes.....................................           306           298           314           374           298           380           253           459           216           366
Quorum Calls........................................             2             6             4             7             6             3             2             3             1             3
Public Laws.........................................           245           153           241           170           410           136           241           198           300           170
Treaties Ratified...................................            28            15            53            13            39             3            17            11            15             6
Nominations Confirmed...............................        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420        25,942
Average Voting Attendance...........................         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54         97.41
Sessions Convened Before 12 Noon....................           113           115           109           118           107           140           119           133           104           121
Sessions Convened at 12 Noon........................            15            12            31            17            25            10            12             4             9             1
Sessions Convened after 12 Noon.....................             7             7             2            19            24            21            23            23            21            36
Sessions Continued after 6 p.m......................            88            96            93           113            94           108           103           134           129           120
Sessions Continued after 12 Midnight................             1  ............  ............  ............  ............             2             3             8             2             3
Saturday Sessions...................................             1             1             1             3             1             3  ............             1             2             2
Sunday Sessions.....................................  ............             1  ............  ............             1  ............  ............             1             1             2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Computer Activities
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Editor, Assistant Editor, and Committee Scheduling Coordinator function 
solely within the framework of adaptability to prepare Digest copy on 
computers, storing and sharing information, permitting prompt editing, 
and the final transfer to floppy disc. The Digest continues the 
practice of sending a disc along with a duplicate hard copy to GPO, 
even though GPO receives the Digest copy by electronic transfer long 
before hand delivery is completed adding to the timeliness of 
publishing the Congressional Record. The Digest office continues to 
feel comfortable with this procedure, both to allow the Digest Editor 
to physically view what is being transmitted to GPO, and to allow GPO 
staff to have a comparable final product to cross reference.
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system, including further refinements to 
the Senate committee scheduling application which will improve the data 
entry process. The committee scheduling application was developed in 
1999 as a server-based web-enabled application that is browser 
accessible to all Senate offices. It was designed to replace the 
committee scheduling functions and reports that were supported by the 
mainframe-based Senate Legis System.
Government Printing Office (GPO)
    The Daily Digest continues to discuss with the Government Printing 
Office problems encountered with the printing of the Digest, and are 
pleased to report that with the onset of electronic transfer of the 
Digest copy, occurrences of editing corrections, especially the 
insertion of page reference numbers, or transcript errors are 
infrequent. Discussions with GPO continue regarding the inclusion of 
on-line corrections.
Office Summation
    The Daily Digest continues to consult on a daily basis with the 
Senate Parliamentarians, Legislative, Executive, Journal, and Bill 
Clerks, the Official Reporters of Debates, as well as the staffs of the 
Policy Committees and other committee staffs, and is grateful for the 
continued support from these offices.
                           4. enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2005, 50 enrolled bills (transmitted to the President) and 
11 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 624 additional pieces of legislation in one form or 
another, were passed or agreed to by the Senate, requiring processing 
from this office.
                           5. executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's office processes all executive 
communications, presidential messages and petitions and memorials.
Nominations
    During the first session of the 109th Congress, there were 1,201 
nomination messages sent to the Senate by the President, transmitting 
27,686 nominations to positions requiring Senate confirmation and 18 
messages withdrawing nominations sent to the Senate during the first 
session of the 109th Congress. Of the total nominations transmitted, 
511 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, NOAA, and Public Health Service. In addition, 
there were 2,740 nominees in the ``civilian list'' categories named 
above. Military nominations received this session totaled 24,435 
(9,860--Air Force; 8,586--Army; 4,607--Navy and 1,382--Marine Corps). 
The Senate confirmed 25,942 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 67 nominations were 
returned to the President during the first session of the 109th 
Congress.
Treaties
    There were 8 treaties transmitted to the Senate by the President 
during the first session of the 109th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 109-1 through 109-8). The Senate 
gave its advice and consent to 6 treaties with various conditions, 
declarations, understandings and provisos to the resolutions of advice 
and consent to ratification.
Executive Reports and Roll Call Votes
    There were 8 executive reports relating to treaties and a 
nomination ordered printed for the use of the Senate during the first 
session of the 109th Congress (Executive Report 109-1 through 109-8). 
The Senate conducted 27 roll call votes in executive session, all on or 
in relation to nominations and treaties.
    During the year, the Sergeant at Arms' Systems Development Services 
Branch worked with the Executive Clerk to make the Executive Calendar 
more ``user friendly'' and also to further ongoing improvements to the 
Legislative Information System pertaining to the processing of 
nominations, treaties, executive communications, presidential messages 
and petitions and memorials. Additionally, the SAA worked closely with 
the Executive Clerk in the development of the new program for writing 
and publishing the Journal of Executive Proceedings of the Senate each 
session. The new program, now in use for the second session of the 
109th Congress, will greatly improve the pace at which the Journal can 
be developed and published each year.
Executive Communications
    For the first session of the 109th Congress, 5,119 executive 
communications, 253 petitions and memorials and 34 Presidential 
messages were received and processed.
                            6. journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year. In 
2005, the Journal Clerk completed the production of the 867 page 2004 
Senate Journal.
    The Journal staff each take 90 minute turns at the rostrum in the 
Senate Chamber, noting by hand for inclusion in the Minute Book (i) all 
orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and roll call votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication at the end of each 
calendar year in the Senate Journal.
    The LIS Senate Journal Authoring System, first utilized by the 
Journal Clerk to successfully compile the 2004 Journal (from start to 
finish), continues to be updated as needed to further assist in the 
efficiency of production; the 2005 Journal is expected to be sent to 
the Government Printing Office for printing at the end of March.
                          7. legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office prepares the Senate Calendar of 
Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate.
    The office is responsible for verifying the accuracy of information 
entered into the Legislative Information System (LIS) by the various 
offices of the Secretary. In an effort to monitor and improve the LIS, 
the Legislative Clerk acts as the liaison between legislative clerks 
and technical operations staff of the Sergeant at Arms. The Legislative 
Clerk reviews, prioritizes, and forwards change requests from the 
clerks to the technical operations staff. Over the past year, 30 change 
requests submitted by the clerks to improve the system have been 
implemented. Feedback from the Senate community regarding LIS continues 
to be excellent.
    Additionally, the Legislative Clerk is the Director of Legislative 
Services, providing a single line of communication to the Assistant 
Secretary and Secretary with responsibility for overall coordination, 
supervision, scheduling, and cross-training.
Summary of Activity
    The first session of the 109th Congress completed its legislative 
business and adjourned sine die on December 22, 2005. During 2005, the 
Senate was in session 159 days and conducted 366 roll call votes. There 
were 286 measures reported from committees and 624 total measures 
passed. In addition, there were 2,695 amendments processed.
Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training is strongly emphasized among the Secretary's legislative 
staff. To ensure additional staff is trained to perform the basic floor 
responsibilities of the Legislative Clerk, as well as the various other 
floor-related responsibilities of the Secretary, approximately 50 
percent of the legislative staff is cross-trained.
Amendment Tracking System Expansion
    The Senate's web-based application that allows users to access 
images of Senate amendments proposed to legislation is called the 
Amendment Tracking System (ATS). Developed in 1997 to provide the 
Senate with online access to amendments, ATS provides legislative staff 
with scanned images of the amendments, and descriptive information 
about them, including their purpose, sponsor, cosponsors, submitted 
date, proposed date, and status.
    During this past year, the Secretary, through the Legislative 
Clerk, Bill Clerk and Information Systems, spent many hours working 
with the technical development staff of the Sergeant at Arms to give 
the ATS a major overhaul. Some of the less visible changes, implemented 
in March, included upgrades to the hardware and underlying software 
programs.
    In September, the scope of information available on ATS expanded to 
include submitted amendments, those that have been submitted but have 
not been proposed on the Senate floor. ATS also expanded the size of 
amendment images from 25 to 50 pages, so users are now able to see up 
to 50 pages of a submitted or proposed amendment. The Senate community 
welcomed the ATS enhancement enthusiastically and feedback has been 
very positive.
                    8. official reporters of debates
    The official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation is 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.
    To enhance efficiency, the office provides guidelines on format for 
the Congressional Record. These provide a helpful tool to assure an 
accurate and timely printing of each day's Congressional Record.
                           9. parliamentarian
    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the Chair, Senators and their staff, 
as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. The Parliamentarians reviewed more 
than 1,000 amendments during 2005 to determine if they met various 
procedural requirements, such as germaneness. The Parliamentarians also 
reviewed thousands of pages of conference reports to determine what 
provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2005, the Parliamentarian and his assistants referred 
2,610 measures and 5,406 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the Department of 
Homeland Security, by the adoption of S. Res. 445, which reorganizes 
intelligence and homeland security jurisdiction of the Senate's 
committees, and by the enactment of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The Parliamentarians have made dozens 
of decisions about the committee referrals of nominations for new 
positions created in this department, nominations for positions which 
existed before this department was created but whose responsibilities 
have changed, and hundreds of legislative proposals concerning the 
department's responsibilities.
    During 2005, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974. An additional layer of procedural and budgetary 
complexity was added this year, as this office was called upon to 
advise on unique issues arising from the need to consider two different 
reconciliation bills and several general appropriations bills in the 
wake of the emergency brought about by Hurricane Katrina. The Senate 
considered two separate budget reconciliation bills in 2005, including 
the first spending reduction reconciliation bill in almost a decade. 
Such bills present the Parliamentarian's Office with hundreds of 
judgment calls in the analysis of complex and disparate legislation.
    Additionally, in the last five years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. This has opened up hundreds of Senate amendments 
to renewed scrutiny by the Parliamentarians, and has meant that the 
Parliamentarians now have the responsibility of potentially reviewing 
every provision of every conference report considered by both the House 
and the Senate.
                financial operations: disbursing office
                     disbursing office organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a non-biased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgment, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.
               deputy for benefits and financial services
    The principal responsibility of this position is to provide 
expertise on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position, in addition to the planning and project 
management of new computer systems and programs. The Deputy for 
Benefits and Financial Services ensures that job processes are 
efficient and up to date, modifies computer support systems, implements 
regulatory and legislated changes, and designs and produces forms for 
use in all three sections.
    After year end processing of payroll for the calendar year 2004, a 
few minor alterations to the new version of the payroll system were 
made, and enhancements to the COLA process were smoothly completed. W-
2s were issued promptly and were immediately available on the Imaging 
system.
    Starting in February, enhancements to the Document Imaging System 
began and updates to the system, including the ability to e-mail images 
to other agencies and to rearrange documents within folders, were 
added. Back up and storage processes for document images continue to be 
refined. Existing Disaster Recovery efforts continue to be improved to 
provide easy access to this important data. All microfilm records from 
the Benefits/Payroll side of the Office were imaged and by the end of 
the year, there was no longer a need to use microfilm.
    During April, the qualified lender certification process, part of 
the Student Loan Repayment Program, was modified. The main drawback 
encountered was to authorize a Disbursing representative to talk with 
the staff member's loan servicer, and the verification of the loan 
particulars by a follow up call to the lender. The new process requires 
the staff member to get a standard form completed by their lender and 
submit it with their paperwork. This removed a tremendous number of 
phone calls to and from lenders, the Office, and staff members and has 
greatly expedited the process. It also allowed the process to be 
handled on a rotating basis by a payroll specialist.
    During the year many reports used by the Employee Benefits Section 
were examined and updated to reflect new reporting requirements and to 
enhance system support. One new form was produced for the Termination 
Log, which tracks all employees who left the Senate during the previous 
payroll period. Now, all required forms for terminating employees are 
produced by our payroll system.
    The Senate warehouse project is nearing completion as the process 
of transitioning materials is in its final phase. For many years, 
Disbursing files were stored in two Senate off-site locations, due to 
space limitations. All Disbursing files in both off-site warehouses 
were examined, organized, placed on pallets, and numbered in 
preparation for the move to the new warehouse. The numbers of pallets 
requiring storage room were confirmed, and over 70 file cabinets 
holding historical personnel and office records were prepared for the 
move in early December 2005. An enclosed, secure and environmentally 
controlled area was provided for personnel files and 6 new revolving 
vertical storage file cabinets were prepared for the site. The cabinets 
will hold all current files and provide ample space for growth. 
Additional space for 100 pallets was also provided in the new warehouse 
which should fulfill Disbursing's storage needs for many years.
          front counter--administrative and financial services
    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers 
Checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
General Activities
    The Front Counter processed approximately 2,200 cash advances, 
totaling approximately $1.1 million and initialized 710 check/direct 
deposit advances, totaling approximately $709,000.
    Received and processed more than 28,000 checks, totaling over 
$3,000,000.
    Administered Oath and Personnel Affidavits to more than 3,000 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 10 Federal health carriers and distributed 
approximately 3,500 brochures to new and existing staff during the 
annual FEHB Open Season.
    Provided 25 training sessions to new Administrative Managers.
    The Front Office operations continued the daily reconciliation of 
operations and strengthened internal office controls. Training and 
guidance to new Administrative Managers and business contacts 
continued, as well as the incorporation of updates of the scanning and 
imaging project into daily operations. A major emphasis was placed on 
assisting employees in maximizing their Thrift Savings Plan 
contributions and making them aware of the Thrift Savings Plan catch up 
program when applicable. Front Office operations continued to provide 
the Senate community with prompt, courteous, and informative advice 
regarding Disbursing operations.
                            payroll section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for the processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; rectifying returns of student loan 
allowance payments, jointly maintaining the Automated Clearing House 
(ACH) FEDLINE facilities with the Accounts Payable Section for the 
normal transmittal of payroll deposits to the Federal Reserve; 
distributing the appropriate payroll expenditure and allowance reports 
to the individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Department; and transmitting 
the proper Thrift Savings Plan (TSP) information to the National 
Finance Center (NFC), while maintaining earnings records for 
distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W-2 statements. The Payroll 
Section is also responsible for the payroll expenditure data portion of 
the Report of the Secretary of the Senate.
General Activities
    The Payroll Section processed a January 1, 2006 cost of living 
increase of 3.44 percent. The Payroll Section maintained the normal 
schedule of processing TSP open season forms. Employees took full 
advantage of the increase of TSP deductions making the most of the new 
$15,000 maximum. For those employees over 50 years of age, the TSP 
catch-up programs provided them with an opportunity to make additional 
contributions in excess of the standard program.
    The aftermath of Hurricane Katrina gave members of the Payroll 
Section the opportunity to work directly with TSP employees as their 
COOP facility was located in the Virginia suburbs. Several visits were 
made to the site to ensure the deductions for employees of the Senate 
were properly applied, and to receive training on their Web based 
processing system.
    The Student Loan Program, Flexible Spending Accounts, and Long Term 
Care account processing continues. The office continues to refine and 
improve processes in working with third party contractors. In addition, 
the elections of 2004 presented the section with the task of opening 
and closing nine offices plus the monitoring of S. Res. 9 payrolls 
during the first 6 months of 2005.
    The Payroll Section again participated in the December disaster 
recovery testing. This year's test entailed using the ACF processing 
equipment to operate the payroll/personnel system from the Hart 
Building while SAA programmers ran trial payrolls from dial up sources. 
Part of the test was for members of SAA Production Services to produce 
the payroll output from printers located at the ACF. During the 
holidays, members of the Payroll Section conducted another test of the 
payroll personnel system by processing over 400 salary changes through 
dial up from a laptop computer. The payroll personnel system test 
proved that it could be run from many locations at the same time.
                       employee benefits section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. In addition, the sectional work includes research and 
verification of all prior federal service and prior Senate service for 
new and returning appointees. EBS provides this information for payroll 
input, and once Official Personnel Folders and Transcripts of Service 
are received, verifies the accuracy of the information provided and 
reconciles as necessary. Transcripts of Service, including all official 
retirement and benefits documentation, are provided to other federal 
agencies when Senate Members and staff are hired elsewhere in the 
government. EBS processes employment verifications for loans, the Bar 
Exam, the FBI, OPM, and DOD, among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment, as are the employee fees associated 
with the Flexible Spending Accounts. Designations of Beneficiary for 
FEGLI, CSRS, FERS, and unpaid compensation are filed and checked by 
EBS.
General Activities
    The year began with EBS finalizing retirement estimates and 
processing the many retirement cases associated with the outgoing 
Senators and their staffs, as well as committee staff affected by the 
changes. Approximately 150 retirement cases were processed throughout 
2005.
    There was a great deal of employee turnover in early 2005. New 
Members appointed numerous employees from the House and Executive 
Branch, and many other employees left with their outgoing Members, many 
of whom were appointed to positions in the Executive Branch. This 
caused a dramatic increase in appointments to be researched and 
processed, retirement records to be closed out, termination packages of 
benefits information to be compiled and mailed out, and health 
insurance enrollments to be processed. Transcripts of service for 
employees going to other federal agencies, and other tasks associated 
with employees changing jobs were at a high level this year. These 
required prior employment research and verification, new FEHB, FEGLI, 
FSA, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    The 2004 OPM FEGLI Open Season (OS) elections took effect September 
1, 2005. EBS verified and processed all OS elections and provided 
reminder notifications and guidance to those affected. Approximately 
350 Senate employee FEGLI changes were processed.
    Interagency meetings attended involved time spent on the 
development and understanding of the new Vision and Dental (V&D) 
programs that will surface in late 2006 and the new Voluntary Benefits 
Portal that is in development under the direction of Office of 
Personnel Management (OPM) to combine third-party administration of 
FSA, LTCI and the new V&D programs. Information was also shared on the 
implementation of the FEGLI Open Season enrollments. Interaction and 
cooperation were essential in the continuing operations of the New 
Orleans-based Thrift Savings Plan and the National Finance Center in 
the wake of Hurricane Katrina. EBS did as much as possible to provide 
assistance and information to Senate staff that would normally be 
provided by TSP.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. Once again, the on-line Checkbook Guide to 
Health Plans was made available to Senate employees to research and 
compare FEHB plans. This tool will remain available to staff throughout 
the year. Additional effort was made to increase employee awareness and 
understanding of this valuable tool, and feedback is positive. The FEHB 
Open Season Health Fair was also attended by about 600 employees and as 
an additional service, it was open to all other federal employees on 
the Hill, including House, Capitol Police, Architect of the Capitol and 
Senate Restaurant employees. In addition to having health plan 
representatives available to provide information and answer questions, 
representatives from FSA Feds and Long Term Care Insurance were also in 
attendance.
    Much effort was made in coordination with the Senate Computer 
Center to effect computer enhancements and provide additional automated 
forms to our database. This has provided greater efficiency and 
increased accuracy of information.
    EBS continues to work with our File Room personnel to modify our 
procedures and the flow of forms to maintain imaged documentation with 
COOP preparedness in mind. For COOP readiness with respect to employee 
personnel folder access, the goal for 2006 is to explore alternatives 
to complete the scanning of all ``prior'' employee personnel folder 
documents that are housed in the Disbursing file room.
    Educational seminars were held for the Civil Service Retirement 
System and the Federal Employees Retirement System. These seminars for 
staff were well attended and well received.
    Due to the continued boom in the housing market, employment 
verifications came in at a rapid pace, averaging over 100 per month. 
Unemployment verifications were especially high early in the year and 
remained constant throughout the year. Telephone inquiries, though not 
specifically tracked, continued at high levels.
                 disbursing office financial management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities, to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Accounts Payable Department is 
subdivided into three sections: the Audit group, the Disbursement group 
and the Vendor/SAVI group. The Deputy coordinates the activities of the 
three functional departments, establishes central financial policies 
and procedures, acts as the primary liaison to Human Resources, and 
carries out the directives of the Financial Clerk and the Secretary of 
the Senate.
                         accounting department
    During fiscal year 2005, the Accounting Department approved nearly 
47,800 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, COLA (cost of living) budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Web Release 10.0, an upgrade to the mainframe 
operating system to Z/OS, and the testing of last non-zero balance date 
to fix process control. During January 2005, the Accounting Department 
with assistance from a contractor, Bearing Point, completed the 2004 
year-end process to close and reset revenue, expense and budgetary 
general ledger accounts to zero. During June 2005, we successfully 
tested and implemented in Federal FAMIS another document purge 
including the archiving of Web report data for lapsed years. Further, 
toward the end of the fiscal year, the financial file rollover was 
performed to update FAMIS' tables and create the new index codes needed 
to accommodate data for fiscal year 2006.
    The Department of the Treasury's monthly financial reporting 
requirements includes a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, on a monthly 
basis, reported to the Department of the Treasury is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of all monies 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget (OMB) as part 
of the submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare, to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan.
    In addition to Treasury's external reporting deadlines, there are 
internal reporting requirements such as the monthly ledger statements 
for all Member offices and all other offices with payroll and non-
payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. Each month, the 
Accounting Department reviews and verifies the accuracy of the 
statements before distribution is made.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the Sergeant at 
Arms Finance Department in completing the corrective actions that were 
identified during our pro-forma financial statements' audit ability 
assessment. Based on the results of this exercise, 23 corrective 
actions were suggested including an action plan and proposed schedule 
to have them corrected. Some of the actions were rather simple to 
implement while others will take significantly longer. Of the 23 
corrective actions noted, 18 have been completed and 5 are still in 
process. As part of this project, the Accounting Group is working with 
the SAA in reconciling FAMIS entries to Asset Center. The Accounting 
Group also finalized clearing all CASHLINK outstanding items.
    As part of the financial statement initiative, the accounting group 
has worked on the validation of the Senate's pro-forma financial 
statements for fiscal year 2004. The validation of the statements of 
financial position, net costs and changes in net position for fiscal 
year 2004 is complete. Work is still underway on the last two 
statements--budgetary resources and finance--and is expected to be 
completed by the end of March. At that time, work on the fiscal year 
2005 statements will begin.
    Toward the end of the calendar year, in coordination with SAA 
staff, the Chief Accountant and the Deputy for Financial Management 
participated in successful testing of our disaster recovery facility.
                            accounts payable
                          vendor/savi section
    Created in 2003, the Vendor/SAVI section is responsible for 
maintaining the accuracy and integrity of the Senate's central vendor 
(payee) file, for the prompt completion of new vendor file requests, 
and service requests related to the Office's web-based payment tracking 
system known as SAVI. This section also assists the IT Department 
performing periodic testing and monitoring of the performance of the 
SAVI system.
    Currently, there are more than 13,400 vendor records stored in the 
vendor file. Daily requests for new vendor addresses or updates to 
existing vendor information are processed within 24 hours of being 
received. In 2004, the A/P Department began to pay vendors 
electronically via the Automated Clearing House (ACH). Besides updating 
mailing addresses, the Vendor/SAVI section facilitates the use of ACH 
by switching the method of payment requested by the vendor from check 
to ACH. Whenever a new remittance address is added to the vendor file, 
a standard letter is mailed to our vendors requesting tax and banking 
information. Currently, more than 1,250 vendors and over half of the 
state offices' landlords are being paid by ACH.
    As stated earlier, SAVI is Disbursing's web-based payment tracking 
system. Senate staff may electronically create, save, and file expense 
reimbursement forms, track their progress, and receive detailed 
information on payments made. The most common service requests are 
those for system user ids, system passwords and to activate deactivated 
accounts; less common but more complicated are employee requests for an 
alternative expense payment method. An employee can choose to have 
their payroll set up for direct deposit but may have their expenses 
reimbursed by paper check.
    The Vendor/SAVI section works closely with the A/P disbursements 
group resolving returned EFT issues. EFT payments are returned 
periodically for a variety of reasons. The reasons given have included 
incorrect account numbers, incorrect ABA routing numbers, and, in rare 
instances, a nonparticipating financial institution. Most EFT return 
issues are easy to resolve; however, there are some instances that 
result with a vendor being converted back to paper check payments. 
Currently, there are no unresolved returned EFT issues.
    The Vendor/SAVI section continues to electronically scan and store 
supporting documentation of vendor file requests. Currently, with 
assistance from the Disbursement Group, over 5,000 vendors have been 
electronically scanned and the paper files certified for destruction. 
In the near future, this section will assist the IT Department in 
testing an automatic e-mail notification system which will alert 
vendors when an EFT payment has been made and will provide pertinent 
payment information.
    This year, the Vendor/SAVI section processed over 2,700 vendor file 
requests, completed nearly 2,200 SAVI service requests and mailed over 
1,400 vendor information letters.
                            accounts payable
                        disbursements department
    Well over 120,000 expense claims were received and processed by the 
department in 2005. More than 32,500 expense checks were written and 
approximately 56,500 direct deposit reimbursements were transmitted. 
The department has experienced a small decline of roughly 7 percent in 
the number of checks written and a slightly larger increase of 13 
percent in the number of ACH payments, and it is expected that this 
trend will continue. The department suffered no performance loss, 
ensuring that all vendors and employees continued to receive timely and 
accurate payments.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained for the current period and two prior 
periods in-house as space is limited. Older documents are stored at the 
warehouse facility.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied and include the following: 
preparation of foreign travel advances and vouchers, reimbursements for 
expenses incurred by Senate Leadership, re-issuance of items held as 
accounts receivable collections, re-issuance of payments for which non-
receipt is claimed, and various supplemental adjustments received from 
the Payroll Department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled electronically via ACH 
as more vendors and employees opt for this payment method.
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments. There are currently no unresolved returned 
check issues.
    During 2005, an increasing number of ACH items were returned for 
reasons ranging from erroneous account information to non-participation 
by depositing banks. Some of the returns were simply notices of change 
while others were rejected outright. Procedures were established which 
created a liaison with the Vendor/SAVI group, Payroll, and Accounting. 
Corrections are forwarded to the Vendor/SAVI group so the corrections 
may be made in the vendor file. Corrections involving payroll are 
forwarded to that department. Such corrections are downloaded into the 
vendor file for nightly processing.
    All rejected items are logged into an ACH Reports folder in Excel. 
They are classified as either Payroll or Accounts Payable, and the 
actual daily reports are also scanned into the folder. Once logged in, 
the payroll items are forwarded to the Payroll Department, and the non-
payroll items are forwarded to Vendor/SAVI for appropriate corrective 
action. Corrective actions include correction of erroneous data and 
retransmission, or sometimes re-issuance by paper check. Once the 
corrective action is determined, an accounting memo is drafted and 
given to Disbursements and the appropriate action is taken. The Excel 
spreadsheet contains details of the return as well as information 
relating to the corrective action taken. Accounting then uses the 
information contained in the spreadsheet to assist them in reconciling 
CASHLINK with the Treasury.
    The Accounts Payable Disbursements Department prepares mailing 
labels for the distribution of the monthly ledgers to the 140 
accounting locations throughout the Senate. Although the ledgers are 
sorted and sent out by Accounting, the Disbursements Group maintains 
the file of how and where the statements are to be delivered. This 
information is transferred to mailing labels, placed on manila 
envelopes, and given to Accounting. Offices expressing no preference 
have their statements sent to their respective offices marked 
``Personal and Confidential.'' The main objective of this process is to 
have each office receive their ledger statements for the month just 
ended by the 10th of the following month.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury's Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides on-line access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via e-mail. This process has been well received by 
Senate offices and vendors. This saves time and significantly reduces 
reliance on the postal system. Accounts Payable Disbursements staff 
have Treasury secure ID cards and are trained in the use of PACER. 
Given the time and money savings, as well as the overwhelmingly 
positive reception, large growth in the use of PACER for check 
retrieval purposes is anticipated.
    The Disbursements Department continues the use of laser checks. The 
tractor-fed check writer system has been dismantled and a new, improved 
system was developed and implemented. The previously ordered folder/
inserter was purchased and has been installed. In addition to the new 
folder/inserter, the replacement was comprehensive in scope. New 
hardware was introduced and further check writer upgrades are scheduled 
for 2006. The result is a user friendly system which has the additional 
benefits of greater security and higher degree of accuracy. Only 
certain key personnel have access to the signature fonts which are 
specific to each individual, and print quality has been significantly 
improved.
    Work continues on the reconciliation of the replacement check 
account. A team was formed consisting of the Deputy for Financial 
Management, Accounts Payable Manager, Chief Accountant, Accounts 
Payable Disbursements Supervisor and Staff Accountants. Persistent and 
determined revenue collection procedures have resulted in the 
elimination of all but one unresolved item.
                            accounts payable
                            audit department
    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains Administrative 
Managers and Chief Clerks about Senate financial practices, trains 
Administrative Managers in the use of the Senate's Financial Management 
Information System, and assists in the production of the Report of the 
Secretary of the Senate.
    A major function of the Section is to monitor the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that travel advances are repaid in the time specified by the 
advance travel regulations. Travel advances may be repaid via regular 
voucher processing, or may be canceled if the corresponding travel is 
not taken.
    The Accounts Payable Audit Section, currently a group of 13, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. The section processed in 
excess of 145,000 expense vouchers in fiscal year 2005, as well as 
23,000 uploaded items. The voucher processing ranged in scope from 
providing interpretation of Senate rules, regulations and statute, 
applying the same to expense claims, monitoring of contracts and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned by Rules and paid by Disbursing within 10 
business days of receipt.
    Uploaded items are of two varieties, certified expenses and vendor 
payments. Certified expenses include items such as stationery, 
telecommunications, postage, and equipment. Charges incurred by the 
various Senate offices are certified to Disbursing on a monthly basis. 
As an example, the Keeper of Stationery tracks all expenditures for 
each office, and sends a voucher certifying the expenses incurred over 
the previous month. The expenses are detailed on a spreadsheet which is 
also electronically uploaded. The physical voucher is audited and 
appropriate revisions are made. The revisions are transferred into the 
uploaded spreadsheet which is then used to effect payment to the 
Keeper. Concentrated effort is put forth to ensure certified items 
appear as paid in the same month they are incurred.
    Vendor uploads are fairly new, and are used to pay vendors for the 
Stationery Room, Senate Gift Shop, State office rentals, and refunds of 
security deposits for the Page School. The methodology is roughly the 
same as for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State Office rents are generally paid a few days 
prior to the month of the rental in keeping with a general policy of 
paying rent in advance.
    During fiscal year 2004, the Chairman of the Committee on Rules and 
Administration increased the delegated sanctioning authority for 
vouchers from $35 or less to $100 or less. These vouchers comprise 
approximately 60 percent of all vouchers processed. The responsibility 
for sanctioning rests with the Certifying Accounts Payable Specialists 
and are received, audited, and paid within 5 business days of receipt. 
Disbursing passed two post-payment audits performed by the Rules 
Committee.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 14 new Administrative Managers and 
Chief Clerks and conducted 5 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service. The 
Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of the new 
hardware, software, and system applications. Web FMIS version 9 was in 
use for most of the year with the electronic, importable expense 
summary report (ESR). The electronic ESR has gained widespread 
acceptance and Web FMIS version 10 was installed in September. 
Extensive testing is anticipated for the release of Web FMIS version 
10.3 in fiscal year 2006.
    A cancellation process was established for advances in 2004. This 
was necessary to ensure repayment of advances systematically for 
canceled or postponed travel in accordance with Senate travel 
regulations. Advance procedures including cancellation were formally 
incorporated into the Policies and Procedures Manual. Although 
procedures are in place, enhancement is necessary and is expected in a 
later release of Web FMIS. Cancellation of other Web vouchers is also 
scheduled for testing during a later system release. The A/P sections 
within the Polices and Procedures Manual continue to be updated and 
revised as new policies, regulations, and system functionality 
enhancements dictate.
                           budget department
    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2005, the budget justification 
worksheets were processed in December. The budget baseline estimates 
for fiscal year 2006 were reported to the Office of Management and 
Budget in January.
    This department is also responsible for the formulation, 
presentation and execution of the budget for the Senate and provides a 
wide range of analytical, technical and advisory functions related to 
the budget process. The Budget Department acts as the Budget Officer 
for the Office of the Secretary, assisting in the preparation of 
testimony for the hearings before the Committee on Appropriations and 
the Committee on Rules and Administration.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.
                disbursing office information technology
                financial management information system
    The Disbursing Office Information Technology (IT) Department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Management Information System (FMIS) which is 
used by approximately 140 Senate accounting locations (i.e., 100 
Senator's offices, 20 Committees, 20 Leadership and Support offices, 
the Rules Committee Audit section, and the Disbursing Office). 
Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's disaster recovery activities.
    Work during 2005 was supported by the Sergeant at Arms Technology 
Services staff, the Secretary's Information Technology staff, and 
contracts with Bearing Point.
    The SAA Technology Services staff provides the technical 
infrastructure, including hardware (mainframe and servers), operating 
system software (mainframe and servers), database software, and 
telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. Bearing Point is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The Disbursing Office is 
the ``business owner'' of FMIS and is responsible for making the 
functional decisions about FMIS. The three organizations work 
cooperatively.
    Highlights of the year include:
  --Implementation of six releases of Web FMIS. Combined, these 
        releases took FMIS to the ``zero-client'' platform, an 
        important milestone in providing this critical system in a 
        disaster situation. By the end of April 2005 all Web FMIS users 
        were using the intranet version of Web FMIS;
  --Implementation of a release of SAVI that enables Macintosh computer 
        users to use this system;
  --Support of the Rules Committee's post payment audit for the Rules 
        Committee Audit to conduct a statistically valid sample of 
        vouchers of $100 and under for which sanctioning was delegated 
        to the Financial Clerk;
  --Upgrading our e-mail to ``Active Directory'';
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes and seminars on Web FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                          Functionality                             Source                      Primary Users         Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)............  General ledger..........................  Off the shelf federal system       Disbursing Office.........  October 1998
                               Vendor file                                purchased from Bearing Point.
                               Administrative functions
                               Security functions
ADPICS (Mainframe)...........  Preparation of requisition, purchase      Off the shelf federal system       Sergeant at Arms..........  October 1998
                                order, voucher from purchase order, and   purchased from Bearing Point.     Disbursing Office
                                direct voucher documents.                                                   Secretary of the Senate
                               Electronic document review functions
                               Administrative functions
Checkwriter (Client-server)..  Prints checks and check registers as      Off the shelf state government     Disbursing Office.........  October 1998
                                well as ACH (Automated Clearing House)    system purchased from and
                                direct deposit transmission payments.     adapted to Senate's requirements
                                                                          by Bearing Point.
Web FMIS (Intranet)..........  Preparation of vouchers, travel           Custom software developed under    All Senators' offices.....  October 1999
                                advances, vouchers from advance           Senate contract by Bearing Point. All Committee offices       Client Server
                                documents, credit documents and simple                                      All Leadership and Support  August 2004
                                commitment and obligation documents.                                         offices                    Intranet
                               Entry of detailed budget                                                     Secretary of the Senate
                               Reporting functions (described below)                                        Sergeant at Arms
                               Electronic document submission and                                           Disbursing Office
                                review functions
                               Administrative functions
FATS (PC-based)..............  Tracks travel advances and petty cash     Developed by SAA Technology Serv-  Disbursing Office.........  Spring 1983
                                advances (available to Committees only).   ices.
                               Tracks election cycle information
Post Payment Voucher Audit     Selects a random sample of vouchers for   Excel spreadsheet developed by     Rules Committee...........  Spring 2003
 (PC-based).                    which sanctioning was delegated to the    Bearing Point.                    Disbursing Office
                                Financial Clerk for the Rules Committee
                                to use in conducting a post payment
                                audit.
SAVI (Intranet)..............  As currently implemented, provides self-  Off the shelf system purchased     Senate employees..........  Pilot--Spring
                                service access (via the Senate's          from Bearing Point.                                            2002
                                intranet) to payment information for                                                                    Senate-wide July
                                employees receiving reimbursements.                                                                      2002
                               Administrative functions
Online ESR (Intranet)........  A component of SAVI through which Senate  Custom software developed under    Senate employees..........  April 2003
                                employees can create on-line Travel/Non-  contract by Bearing Point.
                                Travel Expense Summary Reports and
                                submit them electronically to the
                                Administrative Manager/Chief Clerk for
                                processing.
Secretary's Report (Mainframe  Produces the Report of the Secretary of   Custom software developed under    Disbursing Office.........  Spring 1999
 extracts, crystal reports,     the Senate.                               contract by Bearing Point.
 and client-server ``tool
 box'').
Ledger Statements (Mainframe   Produces monthly reports from FAMIS that  Developed by SAA Technology Serv-  Disbursing Office.........  Winter 1999
 database extracts, and         are sent to all Senate ``accounting        ices.                            Senate Accounting
 crystal reports).              locations''.                                                                 Locations
Web FMIS Reports (mainframe    Produces a large number of reports from   Custom software developed under    Senate Accounting           October 1999--
 database extracts, crystal     Web FMIS, FAMIS and ADPICS data at        contract by Bearing Point.         Locations.                  Client Server
 reports, and Intranet).        summary and detailed levels. Data is                                                                    April 2005--
                                updated as an overnight process and can                                                                  Intranet
                                be updated through an on-line process
                                by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Rules Committee Audit staff. The 
activities associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; and meet with 
        Chiefs of Staff, Administrative Managers, Chief Clerks, and 
        various Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintains user rights for all ADPICS, FAMIS, SAVI, and 
        Web FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities such as rollover, the process by 
        which tables for the new fiscal year are created, and archiving 
        and purging for the current year tables data for lapsed fiscal 
        years;
  --Support the Rules Committee post payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Of these, the post payment voucher audit deserves recognition. In 
December of 2002, the Rules Committee delegated to the Financial Clerk 
the authority for sanctioning vouchers of $35 and less; effective 
January 1, 2004 this threshold increased to $100. The authorization 
directed Rules and Disbursing to establish a set of procedures for a 
semi-annual audit of these vouchers. The two offices agreed that Rules 
would conduct a random sampling inspection of these vouchers based on 
industry statistical standards. Under the supervision of the IT Group, 
Bearing Point created tools to determine the sample size, to enable 
selecting the sample from the universe of vouchers of $100 and less, 
and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. Both audits conducted 
in 2005 resulted in a favorable finding of zero discrepancies. The 
audit conducted in April 2005 for the six-month period ending March 31, 
2005, covered 24,643 vouchers and the audit conducted in October 2005 
for the six-month period ending September 30, 2005, covered 29,013 
vouchers, an overall increase of 21 percent in the number of vouchers 
of $100 and less that were processed during fiscal year 2005.
Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew. During 2005 the mainframe operating system was 
upgraded to the Z/OS operating system. This required that the 
Disbursing Office test all FMIS subsystems in a testing environment and 
verify all FMIS subsystems in the production environment after Z/OS was 
implemented.
Managing and Testing New System Development
    During 2005, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online 
ESR; and Checkwriter.
            Web FMIS
    Over the last two years, updates and simplification of the 
underlying technology of Web FMIS has occurred, basically replacing all 
Visual Basic Client/Server and Cold Fusion Web technology with 
WebSphere web pages thereby creating a ``thin client'' application that 
can be accessed via an intranet browser. In August 2004, Web FMIS r9.0 
for pilot offices was implemented, which is a complete rewriting of the 
Web FMIS functionality using all intranet based pages. By the end of 
April, all Web FMIS users were using the intranet version of Web FMIS. 
During 2005, Web FMIS was improved and augmented in the following 
releases:
  --Web FMIS r9.1.--Implemented in November 2004, addressed additional 
        functionality identified by the pilot offices. This was 
        provided to new offices of the 109th Congress.
  --Web FMIS 10.0.--Implemented in February 2005, added a security 
        certificate to the Web FMIS web site (i.e., adding the ``S'' to 
        https://webfmis.senate.gov) and changed the extracts for the 
        nightly Web FMIS reporting cycle to use table-driven parameters 
        rather than hard-coded ones.
  --Web FMIS 10.1.--Implemented in April 2005, provided report and 
        document printing via Adobe, standard Senate software, rather 
        than Web FMIS-specific files. This completed moving Web FMIS to 
        the ``zero-client'' platform, an important milestone in 
        providing critical systems in a disaster situation. With this 
        release the Rules Committee Audit staff moved from client-
        server based screen to intranet-based pages for their 
        functions, and Disbursing staff began using ``standard notepad 
        text'' to document corrections made to vouchers. Additionally, 
        this release addressed performance issues resulting from r10.0.
  --Web FMIS r10.2.--Implemented in July 2005 focused on additional 
        functionality for the Office, including new pages for the 
        Disbursing Inbox and Document Review functions, and 
        enhancements to the Advice of Change process and streamlined 
        the document approval process.
  --Web FMIS r10.2.1.--Implemented in October 2005, fixed bugs in the 
        Disbursing functions.
  --Web FMIS r10.3--Implemented in January 2006 (but included here 
        because most of the work on the release was done in 2005), 
        updated the technology for and provided more functionality on 
        the inbox pages and the travel reimbursement mileage rate 
        maintenance page. Additional functionality was added to the 
        Documents/Create page and the Budget page, and bugs were fixed.
    During 2005, work continued with Bearing Point to define the 
requirements for additional functionality required for the two Web FMIS 
releases planned for 2006:
  --Web FMIS r11.--Planned for Spring 2006, will add the ability to 
        ``import'' invoice data from an outside vendor in order to 
        create a voucher with minimal re-typing. (This process is 
        similar to the ``import'' process by which data from an online 
        ESR, created via SAVI, is used to create a travel voucher.
  --Web FMIS r12.--Planned for late Fall 2006, will be a pilot of 
        paperless voucher processing, which requires adding electronic 
        signature and documentation imaging functionality.
            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    SAVI enables Senate staff to check the status of reimbursements, 
whether via check or direct deposit referencing an on-line ESR. The 
Online ESR function enables Senate staff to create expense summary 
reports, both travel and non-travel. These documents can be imported 
into Web FMIS, reducing the data entry tasks for voucher preparation. 
The SAVI system was upgraded once in 2005. Release 3.2, implemented in 
May 2005, enabled use of SAVI by Macintosh computer users.
            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check using the Checkwriter software. No changes were implemented to 
the Checkwriter software in 2005, but Checkwriter release 6, which 
rewrites the security component, will be tested in early 2006, with 
implementation tentatively scheduled for summer 2006.
Planning
    The Disbursing Office IT group performs two main planning 
activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2005, two types of meetings were held among Disbursing, SAA and 
Bearing Point staff to coordinate schedules and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss active projects, including scheduling activities and 
        resolving issues.
            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the base for the Secretary of the 
Senate's request for $5 million in multi-year funds for further work on 
the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors, overseeing their work, and reviewing invoices. 
In 2005 one new task order, the fiscal year 2006 Extended Operational 
Support was executed. In addition, work continued under two task orders 
executed in prior years: Web FMIS r10; SAA Finance System and Reporting 
Enhancements; and Web FMIS Imaging and Digital Signature Design and 
Electronic Invoicing and Remittance Enhancements.
Administering the Disbursing Office's Local Area Network (LAN)
    The Disbursing Office administers its own Local Area Network (LAN), 
which is separate from the LAN for the rest of the Secretary's office. 
Our LAN Administrator's activities included: Office-wide LAN 
Maintenance and Upgrade; and Projects for the Payroll and Benefits 
Section.
            Office-wide LAN Maintenance and Upgrade
    Existing workstations were maintained with appropriate upgrades, 
including: an e-mail upgrade to ``Active Directory''; the addition of 
``SNAP'' servers to backup, nightly, our office data in Disbursing and 
directly to the Office's space at the ACF; work with the SAA staff to 
upgrade our network speed to 100 mps; and the maintenance of the Office 
Information Authorization form log which provides easy access from 
Disbursing staff desktops to up-to-date information about the 
authorized contacts for each Senate office.
            Projects for Payroll and Employee Benefits Sections
    The Payroll/Benefits imaging system, developed by SAA staff, and 
which captures and indexes payroll documents electronically, continues 
to be supported. This is a critical system for Payroll and Employee 
Benefits sections.
Coordinating the Disbursing Office's Disaster Recovery Activities
    On Saturday, December 3, 2005, the Sergeant at Arms technical staff 
conducted a disaster recovery test of the Senate's computing 
facilities, including the Financial Management Information System 
(FMIS) functions. The test involved switching the Senate's network from 
accessing systems at the Primary Computing Facility (PCF) to our backup 
facility, and powering down the PCF.
    The SAA's primary purpose was to test the technical process of 
switching to our backup facility, and only a limited amount of time was 
available for functional testing. The SAA staff wanted to complete the 
exercise within a 12-hour window, including the time needed to switch 
us to the backup facility and back to the PCF. A two-hour functional 
testing window was expected. In the scenario, FMIS systems and data 
would be ``failed-over'' to the backup facility, and made available for 
testing during the functional testing window. The systems would then be 
``failed back'' to the PCF, but the data would not be ``failed back''. 
Consequently, any changes made while testing at the backup facility 
would not be made to production data.
    Disbursing staff set minimal goals of accessing all critical FMIS 
subsystems. In a two hour functional testing window, the SAA would not 
have time to run critical batch processes such as those which would 
enable a single document to be taken from data entry in Web FMIS 
through payment in FAMIS. Consequently, plans were made to test each 
on-line step in the process separately. Additionally, the time 
constraint did not allow any overnight batch processes to be run.
    Within the limited scope of the test, most of the critical 
components of FMIS were tested. A request has been made to the SAA that 
disaster recovery tests be conducted twice a year and that additional 
system components be tested at each successive event.
                         administrative offices
                    1. conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This includes: deacidification of 
paper and prints, phased conservation for books and documents, 
collection surveys, exhibits, and matting and framing for the Senate 
Leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 621 books and matted and framed 532 items for the Senate 
Leadership. In addition, this office matted and framed 349 items for 
the 55th Inaugural ceremonies. For more than twenty-four years, the 
office has bound a copy of Washington's Farewell Address for the annual 
Washington's Farewell Address ceremony. In 2005, a volume was bound and 
read by Senator Richard Burr.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continues to conduct an 
annual treatment of books identified by the survey as needing 
conservation or repair. In 2005, conservation treatments were completed 
for 139 volumes of a 7,000 volume collection of House hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 3,900 volumes.
    This office assisted the Senate Library with 531 books that were 
sent to the Library Binding section of the Government Printing Office 
(GPO) for binding. Additionally, the office worked with the Library to 
facilitate the creation of five exhibits located in the Senate Russell 
building basement corridor. The Office of Conservation and Preservation 
also assisted the Senate Curator's staff with special matting and 
framing required for the World War II exhibit located on the first 
floor of the Capitol.
    This office continues to assist Senate offices with conservation 
and preservation of documents, books, and various other items. For 
example, the office is currently monitoring the temperature and 
humidity in the Senate Library storage areas, the vault and warehouse 
for preservation and conservation purposes.
                               2. curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Office educates the public about the Senate and its 
collections.
Collections: Commissions, Acquisitions, and Management
    A painting of Senator George Mitchell was officially unveiled on 
May 24, 2005 as part of the Senate Leadership Portrait Collection, and 
a painting of Senator Margaret Chase Smith was unveiled on October 18. 
Both ceremonies were held in the historic Old Senate Chamber. Other 
important commissioned works in progress include a portrait of Senator 
Bob Dole and the Great Compromise mural. Both are projected to be 
completed in 2006.
    Thirty-eight objects were accessioned into the Senate Collection, 
including the painting Portrait of a Child with Moth by Constantino 
Brumidi; several rare stereoviews of the Senate Chamber from the late 
19th century; tickets, passes, and luncheon items related to the 2005 
Presidential Inauguration; ephemera from the 200th anniversary 
celebration of the birth of Constantino Brumidi; and nine albums with 
images of Senators and Senate staff from the late 18th to the early 
20th centuries. One of the nine albums contains rare cabinet cards 
depicting the 41st Congress made by the Matthew Brady studio, along 
with autographs of 73 Senators.
    In an ongoing effort to locate and recover historic Senate pieces 
associated with the institution, the Office acquired for the Senate 
Collection an important painting and a 19th century chair. The 
painting, Signing of the First Treaty of Peace with Great Britain by 
Constantino Brumidi, is the original sketch for the mural that appears 
in the Brumidi Corridors above the entrance to S-118. The chair dates 
to about 1819 and was made by Thomas Constantine for the Senate 
Chamber. It is a noteworthy addition to the collection, as only 4 of 
the original 48 chairs made by Constantine for the Senate are known to 
exist.
    Fifty new foreign gifts were reported to the Select Committee on 
Ethics and transferred to the Curator's Office. They were catalogued, 
and are maintained by the Office in accordance with the Foreign Gifts 
and Decorations Act. Appropriate disposition of 28 objects in the 
collection was completed following established procedures.
    As construction continues on the Capitol Visitor Center (CVC), the 
Office has worked with a conservator specializing in museum facility 
planning to develop a collection storage plan for all objects scheduled 
to move to the designated curatorial storage rooms in the CVC. The plan 
includes detailed equipment layout and design in order to provide 
optimal preservation for storing the objects.
    The Curator's Office continued with its project to photograph the 
102 historic Senate Chamber desks (which includes the 100 on the Senate 
floor and two desks currently in storage). One set of transparencies 
will be stored off-site for emergency purposes, while a second working 
set will be used for the web, image requests, and future publications. 
Fifty-five desks were photographed in 2005; the project is ahead of 
schedule and is projected to be completed by August 2006.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178, the Office submitted inventories 
of the art and historic furnishings in the Senate to the Rules 
Committee. The inventories, to be submitted every six months, are 
compiled by the Curator's Office with assistance from the Senate 
Sergeant at Arms (SAA) and Architect of the Capitol (AOC) Senate 
Superintendent.
Conservation and Restoration
    A total of 20 objects received conservation treatment in 2005. 
These included nine Senate Chamber desks, eight oil on canvas 
paintings, two cabinet card albums, and one manuscript collection.
    The initiative to conserve all 100 historic Senate Chamber desks, 
which began in 1999, was completed. Twice a year, during Senate recess 
periods, desks were removed from the Senate Chamber and sent out for 
restoration. Treatment was extensive, and followed a detailed protocol 
developed to address the wear and degradation of these historic desks 
due to continued heavy use. In December, the last of the desks was 
restored. During this project, a condition survey was conducted and 
completed. The survey emphasized the necessity of installing rubber 
bumpers to the arms of the Senate Chamber chairs to minimize the damage 
to the front of the desks caused by the chair arms. That work was also 
completed this year, and all future chairs will be constructed with 
bumpers.
    After extensive evaluation and research, a scope of work was 
developed for the conservation of the portrait of George Washington by 
Gilbert Stuart in the Senate Collection. This project coincided with a 
major exhibition on Stuart's work at the National Gallery of Art, which 
afforded the opportunity to consult with experts in the field. The 
portrait was restored by conservators with extensive knowledge of 
Gilbert Stuart's paintings; and the frame was also conserved. 
Restoration has revealed the Senate's portrait to be among the finest 
of Stuart's paintings of the first president.
    Two recently commissioned paintings, Blanche Kelso Bruce and James 
O. Eastland, were varnished by conservators to enhance and protect the 
surfaces now that the paint has properly cured.
    Another conservation project was related to the microfilming and 
digitization of the Isaac Bassett Papers, the manuscript collection of 
a 19th century Senate employee. Prior to microfilming, a conservator 
carried out the treatment and re-housing of the papers necessary for 
preservation. The entire effort to microfilm and digitize the 
collection was completed by the fall of 2005, and will help preserve 
the original papers in case of disaster, as well as provide 
reproductions for the use of scholars and other researchers. In 
addition, the digitized images provided extensive material for the 
Isaac Bassett website exhibit.
    The Office completed the detailed condition and identification 
survey of the nearly 100 historic mirrors in the Senate wing. The 
project has significant benefits. The condition assessments will 
determine priorities for conservation and maintenance treatments; 
provide information on the age, origin, and importance of the frames; 
and furnish documentation for disaster planning.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate housekeeping personnel on maintenance issues 
related to the fine and decorative art collections.
Historic Preservation
    The Curator's Office worked with the AOC and SAA to review, 
comment, plan, and document Senate side construction projects that 
involve or impact historic resources. In addition to receiving planning 
information from those organizations, the office initiated a procedure 
for sharing Curator project schedules. This has greatly improved 
coordination and project execution. Construction and conservation 
efforts that required considerable review and assistance included: 
Brumidi Corridor ceiling restoration near S-112; window shutter 
refinishing; grand stairwell plaster replacement; marble step repair; 
Brumidi west corridor egress installation; Minton tile replacement; 
wireless antenna installation; audio alert system; S-324 ceiling 
recreation; and S-229 renovation.
    As part of the S-229 renovation project, there was a request to 
provide an overmantel mirror for the room. The Office has developed a 
mirror replication project, to duplicate an historic mirror in the 
Capitol. The mirror selected for replication was a good example of a 
particular style, complements the majority of mantels and spaces in the 
Capitol, and will easily accommodate modifications of size and ornament 
in any future replications. The new mirror was created and installed.
    Requests from Senate offices for information pertaining to room 
histories, architectural features, and historic images continue to 
increase. Recent initiatives have greatly improved office response time 
and depth of knowledge. In addition, the Office is working in 
partnership with the AOC Curator's Office and the Senate Historical 
Office to develop a room history program that will produce a definitive 
and up-to-date history for significant Senate rooms and suites.
    Research projects undertaken this year included: the Assistant 
Democratic Leader's suite; the Democratic Leader's suite; and the Strom 
Thurmond Room, S-238. Additionally, the Office worked closely with the 
AOC in the creation of an historic structures report for the Senate 
vestibule, adjacent stairwell, and small Senate rotunda. This report 
provides critical documentation regarding the architectural chronology 
of these important historic spaces.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the U.S. Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during Senate recesses the historic room is open to tours. Thirty-six 
requests were received from current Members of Congress for after-hours 
access to the Chamber. Of special significance was the reenactment 
swearing-in ceremony for the newly elected Senators of the 109th 
Congress. Twenty-nine requests were received by current Members of 
Congress for admittance to the Old Supreme Court Chamber after-hours. 
Images of the room were provided to the Supreme Court Historical 
Society for use on a bicentennial coin honoring Chief Justice John 
Marshall. In addition, C-SPAN used high definition equipment in both 
chambers to take footage for an historical documentary on the U.S. 
Capitol, and both rooms were photographed for the CVC interactive 
exhibitions.
    In order to enhance existing documentation and to provide an 
important resource for future planning, the Office is working closely 
with the AOC to create condition drawings of the Old Senate Chamber 
that meet the Historic American Building Survey (HABS) standard. 
Currently such detailed drawings do not exist for this chamber, or any 
space within the Capitol, yet this is important historical and archival 
documentation. When complete, the drawings will be accepted into the 
HABS national collection at the Library of Congress.
    The Office continued to research the origins of one of the Senate's 
most important art works, the Eagle and Shield, in the Old Senate 
Chamber. This gilded carving, which dates from the early 19th century, 
has long been an important symbol of the institution. Initial research 
focused on the style and construction of carved eagles contemporary 
with the Senate. In addition, contacts were made with museums that 
house such eagles for further research.
Loans To and From the Collection
    A total of 68 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of six paintings for leadership 
suites, returned five paintings at the expiration of their loan periods 
to their respective owners, and renewed loan agreements for 29 other 
objects.
    The Office continued to document, photograph, and prepare various 
Senate Collection objects planned for exhibition in the CVC. Several of 
the objects (from an oil painting to a silver snuff box) will require 
conservation prior to installation in the exhibit hall, and the 
Curator's office is assisting in this conservation.
    Since 1982 the Senate has loaned a major historical painting, The 
Battle of Chapultepec by James Walker, to the Marine Corps Historical 
Museum in Washington, D.C. Originally the painting was displayed in the 
West Grand Stairway of the Senate wing from 1858 until 1961. The Marine 
Corps relocated to a new museum facility in 2005, terminating the 
Senate loan. Given the painting's size, the Curator's Office was tasked 
to identify another location for the painting. This historic work will 
be relocated to the Thomas Gilcrease Institute of American History and 
Art in Tulsa, Oklahoma, in early 2006. The Gilcrease Museum will 
provide an excellent venue for continued public display of the painting 
within the context of the history of the southwest region of the 
country. Development of a plan to safely remove the painting from 
display and transport it to its new location was greatly enhanced by 
consultation with the conservator on the Senate Curatorial Advisory 
Board.
    The Secretary's china was distributed and returned four times in 
2005. It was used for the Inaugural luncheon, as well as the First 
Lady's luncheon. The inventory was increased with the acquisition of 85 
cups and saucers. The official Senate china was inventoried and used at 
41 receptions for distinguished guests.
Publications and Exhibitions
    The Curator's Office finalized the content and design for the 
United States Senate Catalogue of Graphic Art. The publication is 
scheduled for 2006. The volume features the Senate's collection of more 
than 900 historic engravings and lithographs, and includes two full-
length essays and almost 40 short essays discussing selected prints. 
The Senate Curator and Associate Senate Historian co-authored the 
publication. It is a companion volume to the United States Senate 
Catalogue of Fine Art, published in 2003.
    As part of an ongoing program to provide information about the 
Capitol's art and historic spaces, three new information panels were 
installed for the following paintings: The Florida Case before the 
Electoral Commission; The Battle of Lake Erie; and First Reading of the 
Emancipation Proclamation by President Lincoln.
    In July 2005, to commemorate the 200th anniversary of the birth of 
artist Constantino Brumidi, the office de-installed the popular 
photographic exhibition, World War II: The Senate and the Nation's 
Capital and installed To Make Beautiful the Capitol: Birds of the 
Brumidi Corridors. This exhibition places in context the myriad of 
ornithological species that were painted by Brumidi and his team of 
artists. An online version of the exhibit was also developed for the 
Senate.gov website.
    Several other internet exhibits were posted including, Presidential 
Inaugurations: Invitations and Tickets in the U.S. Senate Collection 
and Inaugural Luncheons. The Office received delivery of the program 
files for two major websites, Isaac Bassett: A Senate Memoir, and The 
Senate Chamber Desks. Both were developed in conjunction with the 
Secretary's webmaster and a contractor. Isaac Bassett features 
selections from the Isaac Bassett manuscript collection, with 
illustrations from the Senate's collection of art and historical 
objects. It highlights life in the 19th century Senate based on 
Bassett's personal observations and recollections. His unique position 
as a trusted, long-time employee of the Senate and close confidant of 
many Senators make the stories he included in his memoir both engaging 
and enlightening. The website features actual images of Bassett's 
handwritten notes and an interactive time line.
    The Senate Chamber Desks website chronicles the history of these 
historic furnishings, many of which date back to 1819. Viewers will see 
where each Senator sits and learn specific information about each desk: 
biographical information on the Senators who have occupied it; 
conservation and restoration information; and traditions and historical 
facts. This site will be launched in 2006, and updated at the beginning 
of each Congress to provide current information.
    Another educational project was the development of an oral history 
program related to the Senate's art and historical collections. Artists 
were interviewed to gain valuable knowledge regarding recently 
commissioned portraits and this information will be posted on the 
Senate website in the near future.
    Adding to its presence on Senate.gov, the Office published the 
essays of the 160 pieces of art in the United States Senate Catalogue 
of Fine Art. Several popular brochures were reprinted in 2005, and the 
office continued to be a significant contributor to Unum, the Secretary 
of the Senate's newsletter.
Policies and Procedures
    Meetings were held with the new Senate Curatorial Advisory Board. 
Composed of respected scholars and curators, this 12-member board was 
established to provide expert advice to the Commission regarding the 
Senate's art and historic collections and preservation program, and to 
assist in the acquisition and review of new objects for the 
collections.
    In 2005 the Senate passed legislation codifying the Senate 
Leadership Portrait Collection, which honors past majority and minority 
leaders and presidents pro tempore of the Senate. These portraits are 
to be commissioned after the leaders have completed their service. The 
resolution also provides that the portraits may hang in the Senate 
Chamber Lobby at the direction of the Senate.
    An electronic tracking system was developed to record progress 
through the steps of the accessioning process for new additions to the 
Senate Collection. The system allows reports to be generated that 
identify what types of documentation have been prepared and what 
remains to be completed for each new accession.
Collaborations, Educational Programs, and Events
    As part of the celebration of the 200th anniversary of the birth of 
artist Constantino Brumidi on July 26, 2005, the Curator's Office 
promoted various Senate activities honoring Brumidi. As well as 
developing the exhibit on the birds of the Brumidi Corridors, the 
Office worked in partnership with Senate and AOC offices to generate 
articles and information panels about Brumidi's importance and 
contributions to the Capitol, and to sponsor special tours highlighting 
the artist's work.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical societies and art museums, 
including George Washington University, the Federal Preservation 
Institute, and the U.S. Capitol Historical Society.
Office Administration
    The project to microfiche and digitize the collection object files 
was completed. These files are the primary legal title, research, and 
management records for all art and historical objects owned by the 
Senate and maintained by the Commission on Art. This project also 
serves important disaster recovery and archival preservation functions. 
Copies of the microfiche and digital records will be kept off-site for 
disaster recovery and archival purposes. Additional copies will be used 
on-site for research and public information in order to lessen the wear 
and tear on the original paper records.
    The Senate Support Facility was completed. The Curator's Office 
worked for several years with the Sergeant at Arms to develop a space 
within the warehouse that meets the stringent requirements for storing 
fine and decorative art. Environmental testing for the museum-quality 
storage area is now underway, and relocation of collection objects to 
this space is scheduled for the summer of 2006. The office moved its 
non-collection items to the new warehouse, including exhibit and art 
shipping materials, and publications. These items were re-inventoried 
and new tracking numbers assigned.
Automation
    The Office continued to improve its electronic collection 
management database to provide more efficient and accurate data 
recording and searches. The addition of several fields to record 
inventory location, date, and reviewer is one such change that improves 
the information regarding the current and previous locations for 
objects. The registration department also implemented an electronic 
tracking system to improve the accuracy and efficiency of loan 
renewals.
    In addition, the Office researched electronic systems that monitor 
temperature and relative humidity, to assure the stability of all 
objects on display and in storage. The ideal system will continuously 
download data for analysis and provide instant notification via phone, 
e-mail and/or blackberry when environmental conditions undergo a sudden 
and potentially damaging change. Staff worked with Senate Security on 
the initiative. Procurement and installation of the system may occur in 
2006.
    In an effort to integrate new technologies, improve research 
capabilities, and address preservation concerns, the Office is 
developing an organization plan and procedures that will affect all 
types of files and media collected and maintained. The results will 
greatly improve response time to information requests, search 
capabilities for researchers, and the condition of significant 
reference materials. Related to this effort was the installation of an 
image management server. This service allows staff to store the many 
large-sized image files that are so vital to the Office's mission, 
enables the images to be archived regularly, and prevents the immense 
number of items from clogging bandwidth time and storage space on the 
Secretary's LAN servers.
Objectives for 2006
    A major initiative will be to relocate Senate Collection items to 
the new SAA off-site warehouse facility. Work will include: developing 
an object tracking system; reviewing the SAA warehouse inventory 
system, access procedures, and protocol; ensuring all equipment, HVAC, 
and security needs are functioning; coordinating the move with the 
assistance of fine art handlers; and developing a procedural document 
regarding the storage of collection objects at the SAA warehouse.
    The Office also will prepare for moving collection objects in 2007 
to the two new CVC storage spaces. Based on the recently completed 
Collection Storage Plan, museum-quality storage equipment will be 
ordered to house collection objects in these new spaces. Objects in 
need of archival re-housing will be identified, prioritized, and re-
housed in preparation for the move.
    The Curator's environmental monitoring systems will be assessed in 
all locations where collections are displayed or stored. Temporary 
systems will be installed for evaluation, and following testing, a 
comprehensive program will be recommended and implemented as 
appropriate.
    An integrated pest management plan will be prepared for all storage 
spaces where collection items are located. The plan will include 
procedures for preparation of objects for storage, monitoring of 
conditions, and developing contacts and resources for disaster 
recovery.
    Conservation and preservation concerns continue to be a priority. 
Projects in 2006 will include the treatment of several historic 
paintings and frames, as well as objects for new CVC exhibits. The 
Battle of Chapultepec will be relocated to the Gilcrease Museum in 
Oklahoma. The Office will build on the information generated by the 
recently completed mirror survey and develop a plan for the 
conservation and maintenance of the Senate's historic mirror 
collection. The restoration of the painting, First Reading of the 
Emancipation Proclamation, by F.B. Carpenter, is now projected to be 
completed in 2006. Additionally, the Office will focus on the Senate's 
recently acquired Cornelius & Baker armorial chandelier. Following a 
condition assessment, the office will work with the Senate Curatorial 
Advisory Board to review treatment options and recommend a plan for the 
chandelier to the Commission on Art.
    The Office will advance efforts to commission portraits of Senators 
Byrd, Lott, and Daschle. Unveilings are projected for the portrait of 
former Senator Bob Dole and the Great Compromise mural.
    The Isaac Bassett Papers manuscript collection will be deposited at 
the National Archives and Records Administration (NARA). Initial 
meetings have been held with NARA to discuss organization and storage 
of the collection along with logistical considerations. As a result of 
the recently completed microfilming project, the office will submit the 
original collection, microfilm and digital copies of the papers, and 
extensive indexes for use by future researchers.
    The Curator's staff will undertake a comprehensive and detailed 
survey of the Senate Chamber chairs. While the Senate Chamber desks 
have been studied extensively, the accompanying chairs, which date from 
various eras, have never been fully examined. It is hoped that this 
study will enable the identification and preservation of important 
chairs that still remain in the Senate.
    Collection activities will also include efforts to locate and 
recover significant historic Senate pieces. Investigations were 
conducted in 2005 to locate partner desks and other furniture made by 
George Cobb for the Russell Senate Office building in 1909. A total of 
twelve desks were identified outside the Senate, and are either in 
private collections or on display in museums.
    In the area of education, the United States Senate Catalogue of 
Graphic Art will be published. The Office will produce a brochure for 
S-238, the Strom Thurmond Room. Also related to room histories, staff 
will continue to work with the AOC Curator's Office and Senate 
Historical Office to finalize the room history program.
    The Office will embark on a reorganization of the Senate art 
website to provide easier, more intuitive access to the Senate's art, 
historical collections, and online exhibits and publications. This task 
will be undertaken in coordination with Senate webmaster and Senate 
Library staff, and will be an important early step in creating and 
organizing the Senate's web content according to standardized metadata.
    The Senate Preservation Board of Trustees will hold its first 
meeting, and the Senate Curatorial Advisory Board will continue to meet 
biannually. The Office will work with the Senate Curatorial Advisory 
Board to review and report on several preservation projects including: 
the historic structures report for the Senate vestibule, adjacent 
stairwell, and small Senate rotunda; the preservation of the Minton 
tile floors; and the current HABS-standard drawing documentation 
project.
    Work is underway to develop a five-year strategic plan for the 
Office of Senate Curator. This will be an important document for the 
Office as it moves forward with its many conservation, preservation, 
and education initiatives. Additionally, the Senate Curator's 
Continuity of Operations Plan (COOP) will be reevaluated, tabletop 
exercises conducted, and the COOP document updated.
               3. joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff. There are 
three branches within the department. The technical training branch is 
responsible for providing technical training support for approved 
software packages used in either Washington or the state offices. This 
branch's computer training staff provides instructor-led classes; one-
on-one coaching sessions; specialized vendor-provided training; 
computer-based training; and informal training and support services. 
The professional training branch provides courses for all Senate staff 
in areas including management and leadership development, human 
resources issues and staff benefits, legislative and staff information, 
new staff and intern information. The Health Promotion branch provides 
seminars, classes and screenings on health related and wellness issues. 
This branch also coordinates an annual Health Fair for all Senate 
employees and four blood drives each year.
Training Classes
    The Joint Office of Education and Training offered 405 classes in 
2005; 5,982 Senate employees participated in these classes. This 
office's registration desk handled 31,960 requests for training and 
documentation.
    Of the above total, in the Technical Training area 187 classes were 
held with a total attendance of 1,521 students. An additional 770 staff 
received coaching on various software packages and other computer 
related issues.
    In the Professional Development area 218 classes were held with a 
total attendance of 4,461 students. Individual managers and supervisors 
are also encouraged to request customized training for their offices on 
areas of need.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication or conflict 
resolution. During 2005, over 50 requests for special training or team 
building were met. Professional development staff also traveled to 
state offices to conduct specialized training and team building. During 
the last quarter of the year, we offered training via video 
teleconferencing to two state offices and plan to continue this 
practice.
    In the Health Promotion area, 1,240 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included: cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,492 staff participated in the 
Annual Health Fair held in September.
    The Joint Office of Education and Training has been actively 
working with the Office of Security and Emergency Preparedness to 
provide security training for Senate staff. In 2005, the Office of 
Education and Training coordinated 63 sessions of escape hood and other 
security-related training for 1,010 Senate staff.
State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2005, 
three sessions of this program were offered to 119 state staff. This 
office also conducted our annual State Directors Forum for the second 
year and 37 attended. In addition, this office has implemented the 
``Virtual Classroom'' which is an internet based training library of 
300+ courses. To date, 379 state office and Washington, D.C. staff are 
accessing a total of 500 different lessons using this training option.
                    4. chief counsel for employment
Background
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with legal defense of Senate 
offices in employment law cases at both the administrative and court 
levels. Also, on a day-to-day basis, the SCCE provides legal advice to 
Senate offices about their obligations under employment laws. 
Accordingly, each employing office of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: Litigation (Defending Senate Offices in Federal 
Courts); Mediations to Resolve Lawsuits; Court-Ordered Alternative 
Dispute Resolutions; Union Drives, Negotiations, and Unfair Labor 
Practice Charges; OSHA/Americans With Disability Act (``ADA'') 
Compliance; Layoffs and Office Closings In Compliance With the Law; 
Management Training Regarding Legal Responsibilities; and Preventive 
Legal Advice.
Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE represents each of the employing offices of the Senate in 
all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.
    In 2005, the SCCE conducted 131 OSHA/ADA inspections of Senate 
offices to ensure compliance with the CAA.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws.
    In 2005, the SCCE gave 56 legal seminars to Senate offices. Among 
the topics covered were:
  --An Overview of the Congressional Accountability Act of 1995: 
        Management's Rights and Obligations;
  --Preventing Sexual Harassment in the Workplace;
  --How to Interview and Hire the Best Employee Without Violating the 
        Law;
  --How to Conduct Background Checks, Reference Checks and Drug Testing 
        Without Violating the Law;
  --Complying with Immigration Laws: I-9 and the Basic Pilot Program 
        for Employment Eligibility Confirmation;
  --Labor-Management Overview: Union Post-Election Procedures;
  --Complying with the Americans with Disabilities Act of 1990;
  --Management's Legal Obligations to Give Military Leave to Employees;
  --Legal Pitfalls in Evaluating, Disciplining and Firing Employees;
  --How to Comply with the Family and Medical Leave Act.
    In addition, in 2005, the SCCE prepared new videos to accompany its 
harassment seminar. This involved writing the scripts, recruiting 
Senate employees to participate, training the ``actors,'' and working 
with the Recording Studio to direct, record, edit and finalize the 
vignettes. The purpose of the vignettes is to illustrate points raised 
during the harassment seminar with examples that are Senate-specific. 
The SCCE has received extremely positive feedback from Members' offices 
at which the harassment seminars have been given using these new 
videos.
Preventative Legal Advice
    The SCCE meets with Members, Chiefs of Staff, Administrative 
Directors, Office Managers, Staff Directors, Chief Clerks and General 
Counsels at their request. The purposes are to ensure compliance with 
the law, prevent litigation and minimize liability in the event of 
litigation. For example, on a daily basis, the SCCE advises Senate 
offices on matters such as disciplining and/or terminating employees in 
compliance with the law, handling and investigating sexual harassment 
complaints, accommodating the disabled, determining wage law 
requirements, meeting the requirements of the Family and Medical Leave 
Act, and management's rights and obligations under union laws and OSHA.
Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices to ensure 
that their employee handbooks/office policies, supervisors' manuals, 
job descriptions, interviewing guidelines, and performance evaluation 
forms comply with the law
Union Drives, Negotiations, and Unfair Labor Practice Charges
    In 2005, the SCCE handled one union drive and assisted in 
negotiations with another union. With respect to the union drive, the 
SCCE trained managers and supervisors regarding their legal obligations 
during a union campaign, advised the client in selecting its 
representatives for the election and conducted training sessions for 
the employer representatives regarding proper conduct at elections.
Layoffs and Office Closings in Compliance with the Law
    The SCCE provides advice and strategy to individual Senate offices 
regarding how to minimize legal liability in compliance with the law 
when offices reduce their forces. In addition, pursuant to the Worker 
Adjustment and Retraining Notification Act (WARN Act), offices that are 
closing must follow certain procedures for notifying their employees of 
the closing and for transitioning them out of the office. The SCCE 
tracks office closings and notifies those offices of their legal 
obligations under the WARN Act.
                          5. senate gift shop
    The Senate Gift Shop was established under administrative direction 
and supervision of the Secretary of the Senate (SOS) in October 1992, 
(United States Code, Title 2, Chapter 4). With each successive year 
since its establishment the Senate Gift Shop has continued to provide 
outstanding products and services that maintain the integrity of the 
Senate as well as increase the public's awareness of the mission and 
history of the U.S. Senate. The Gift Shop provides products and 
services to Senators, their spouses, staffs, constituents, and 
visitors. Products include a wide variety of souvenirs, collectibles 
and fine gift items created exclusively for the U.S. Senate. Services 
include special ordering of personalized products, custom framing, gold 
embossing, engraving and shipping. Additional services include the 
distribution of educational materials to both tourists and constituents 
visiting the Capitol and Senate Office Buildings. New this year is the 
Senate Gift Shop's presence on Webster.
Facilities
    For several years the Senate Gift Shop offered over-the-counter 
sales to walk-in customers at a single location. Today, after more than 
a decade of operation, the Gift Shop provides products and services 
from three locations.
    In addition to the three physical locations, the Gift Shop has 
developed an online presence on Webster. The intranet site currently 
offers only a limited selection of products that may be ordered either 
by phone or by printing and faxing the on-site order form. Long-term 
plans are to grow this site to include a greater sample of merchandise 
offered in the Gift Shop's physical locations and to eventually migrate 
to an e-commerce website with online transactions. Along with offering 
over-the-counter, walk-in sales, and limited intranet services, the 
Gift Shop Administrative Office provides mail order service, special 
order and catalogue sales.
    The Gift Shop also maintains two warehouse facilities. While the 
bulk of its overstock is currently held in an off-site storage 
facility, a portion of the Gift Shop's overstock is maintained in the 
Hart Building warehouse facility. This space also accommodates the Gift 
Shop's receiving, shipping, and engraving departments.
    Operational plans for the off-site facility include having most, if 
not all, Gift Shop product delivered, received and stored at this 
location until the need for transfer to Gift Shop locations. Although 
the overall management of the warehouse is through the Sergeant at Arms 
(SAA), the Director of the Gift Shop has responsibility for the 
operation and oversight of the interior spaces assigned for Gift Shop 
use. Storing inventory in a centralized, climate-controlled facility 
that is managed by the SAA will provide better protection for the Gift 
Shop's valuable inventory in terms of increased and steadfast security 
as well as prolonged shelf life for product.
Sales Activity
    Sales recorded for fiscal year 2005 were $1,591,244.36. Cost of 
goods sold during this same period was $1,006,655.30, accounting for a 
gross profit on sales of $584,589.06.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2005, the balance in the revolving fund was 
$1,833,614.70 and the inventory purchased for resale was valued at 
$2,295,554.07.
Additional Activity
    The contractor selected to provide the hardware and system 
installation of the new retail and financial management system has 
completed its contractual obligations to the Senate Gift Shop with the 
final deliverables completed in 2005. The contractor will continue to 
provide hardware and software support for the retail system.
Accomplishments and New Products in Fiscal Year 2005
            Official Congressional Holiday Ornaments
    The year 2005 marked the conclusion of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles features an architectural milestone 
of the United States Capitol and is packaged with corresponding 
historical text taken from the book, History of the United States 
Capitol: A Chronicle of Design, Construction, and Politics by William 
C. Allen, Architectural Historian for the Architect of the Capitol.
    The 2005 ornament pictures the Capitol's West Front with particular 
emphasis on the newly landscaped lawn and terraces. Congress authorized 
the landscape improvements in 1873, and on June 23, 1874, passed an act 
to hire the first landscape architect of the United States Capitol, 
Frederick Law Olmsted. Olmsted's idea for redesigning the landscape of 
the Capitol grounds is illustrated in a drawing titled ``General Plan 
for the Improvement of the Capitol Grounds.'' In keeping with a Gift 
Shop tradition, the authentic colors of the original drawing were 
reproduced onto a white porcelain stone and set with a brass frame 
finished in 24kt gold.
    Sales of the 2005 holiday ornament exceeded 32,000 ornaments of 
which more than 7,400 were personalized with engravings designed, 
proofed and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined effort of our administrative, 
engraving, and store staffs. Additional sales of this ornament and 
ornaments from previous years are expected to continue throughout 2006. 
Sales revenue from this year's ornament, as in previous years, helps to 
provide scholarship funds for the Senate Child Care Center.
    The theme for the Gift Shop's fourth series of ornaments, which 
will run from 2006-2009, is currently in development with production of 
the 2006 ornament targeted for this summer and sale of the ornament 
expected to begin in September 2006.
            China Porcelain Boxes
    The final porcelain ``Brumidi'' box in a set of four was completed 
and released for sale in 2005. Each box displays a different image from 
the Constantino Brumidi frescoes taken from the ceiling of the 
President's Room in the Senate Wing of the United States Capitol. The 
individual boxes of the series include the allegorical figures: 
Liberty, Legislation, Executive Authority and Religion. These porcelain 
boxes, exclusive to the Senate Gift Shop, will be popular collector 
items for many years to come.
Projects and New Initiatives for 2006
            History of the Capitol
    The Gift Shop will purchase for resale the book, History of the 
Capitol, (H. Doc. 108-240) by Glenn Brown. When the GPO publication is 
released for sale to distributors and retailers in 2006, the Gift Shop 
plans to purchase a substantial quantity to ensure availability to its 
customers for an extended period of time.
            Congressional Plates
    The series of Official Congressional Plates continued in 2005 with 
new design features beginning with the 108th Congress plate, which 
became available for sale this past year. The balance of the series 
includes plates commemorating the 109th, 110th and 111th Congresses. 
The design stage for the remaining plates has concluded and prototypes 
for the final three are being produced by Tiffany & Co.
            Constantino Brumidi Birthday Celebration
    The year 2005 marked the 200th Birthday of Constantino Brumidi, 
``The Artist of the Capitol.'' In celebration of this special occasion, 
the staff of the Gift Shop worked closely with the staff of the 
Curator's Office on an initiative to add to our collection of Brumidi-
inspired merchandise. The new products include a designer collection of 
note cards depicting images of birds taken from the frescoes gracing 
the walls of the Capitol's Brumidi corridors. Other products featuring 
Brumidi's artwork that are currently offered for sale in the Senate 
Gift Shop include neckties, scarves, round porcelain boxes and the book 
Brumidi ``Artist of the Capitol.'' Additional Brumidi pieces are in 
production.
            Intranet/Webster
    The Webster intranet website for the Gift Shop continues to be 
enhanced. Primary considerations include website policy, design and 
layout, content and products to be included. Meetings concerning the 
creation and expansion of the Gift Shop's website are ongoing with 
other Secretary departments. The Gift Shop's intends to incorporate 
links to the offices of the Historian, Curator and Senate Library so 
that visitors to the website will have ready access to additional 
educational information.
            Capitol Complex Lumber
    In the fall of 2001 the construction of the Capitol Visitor Center 
(CVC) required the removal of many trees from the Capitol complex. 
During this time, Allegany Wood Products (Allegany) of Petersburg, West 
Virginia, assisted in determining the best method for the recover and 
transport of the felled trees. Arrangements were made for a local West 
Virginia trucking company to travel to Washington, D.C., to pick up and 
haul the cut trees to one of Allegany's lumber mills, where the trees 
could be rough cut and kiln dried, a process which makes possible the 
preservation and long-term storage of the lumber. The stored lumber 
approximating 12,000 board feet is now being inventoried and segregated 
by species. Plans to determine the most appropriate use for the lumber 
will be developed this year. Preliminary ideas involve using a quantity 
of wood to create ``official products'' such as presentation, gift and 
commemorative items.
                          6. historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,885 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of Senate committees and most 
former Senators. The Office develops and maintains all historical 
material on the Senate website.
Editorial Projects
    Biographical Directory of the U.S. Congress, 1774-2005.--A new 
edition of the Biographical Directory of the U.S. Congress has just 
been published. In May 2003, both houses of Congress adopted H. Con. 
Res. 138, authorizing printing of an updated and expanded edition of 
the Biographical Directory of the United States Congress, 1774-2005. 
The first edition of this indispensable reference source was published 
in 1859; the most recent edition appeared in 1989. This latest 
publication is the 16th edition. Since 1989, the assistant historian 
has added many new biographical sketches, expanded bibliography 
entries, and revised and updated most of the database's nearly 2,000 
Senate and vice-presidential entries. In preparation for the 2005 
edition, the assistant historian and historical editor updated the 
Congress-by-Congress listing of members through the 108th Congress and 
updated the listing of executive branch officers. The assistant 
historian completed the editing and proofing of all Senate-related 
information, coordinating with the House Office of History and 
Preservation and the Government Printing Office. The assistant 
historian also continues to edit and update all existing information 
for the online version of the Biographical Directory (http://
bioguide.congress.gov) to allow for expanded search capabilities, 
maintain accuracy, and incorporate new information and scholarship.
    Administrative History of the Senate.--Throughout 2005, the 
assistant historian continued to research and write chapters of this 
historical account of the Senate's administrative evolution. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers 19th and 20th century reform efforts 
that resulted in reorganization and professionalization of Senate 
staff, and looks at how the Senate's administrative structure has grown 
and diversified over the past two centuries. In particular, during the 
past year the assistant historian completed the work's pivotal third 
chapter, which explores the Senate's administrative history from 1836 
to 1861, when Asbury Dickins was Secretary of the Senate. During this 
period, the first major administrative reform effort was launched, 
resulting in an expanded and more professional work force.
    ``The Idea of the Senate''.--For more than two centuries, Senators, 
journalists, scholars, and other first-hand observers have attempted to 
describe the uniqueness of the Senate, emphasizing the body's 
fundamental strengths, as well as areas for possible reform. From James 
Madison in 1787 to Robert Caro in 2002, sharp-eyed analysts have left 
memorable accounts that may help modern Senators better understand the 
Senate in its historical context. Pulitzer Prize-winning journalist 
Allen Drury's 1943 comment about the Senate of his day--``There is a 
vast area of casual ignorance concerning this lively and appealing 
body''--retains a ring of truth for modern times. The ``Idea of the 
Senate'' project will identify up to 40 major statements by 
knowledgeable observers. Each of the 40 brief chapters in the resulting 
publication will include a 500-word quotation and an essay that 
identifies the background of the observer and places the quotation in 
the context of the times in which it was written.
    ``Rules of the United States Senate, Since 1789''.--In 1980, 
Parliamentarian Emeritus Floyd M. Riddick, at the direction of the 
Senate Committee on Rules and Administration, prepared a publication 
containing the eight separate codes of rules that the Senate adopted 
between 1789 and 1979. In the early 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, our goal is to show how 
the Senate's current rules have evolved from earlier versions, 
including rules both added and dropped between codifications. Some 
modern Senate rules have their origins in the first code of rules that 
the Senate adopted in 1789. Many of those first rules can be traced to 
even earlier times--to rules Thomas Jefferson prepared in 1776 for the 
Continental Congress. This work, to be completed within the coming 
year, will contain the original text of all standing rules, beginning 
with those the Senate adopted on April 16, 1789. It will reprint each 
of the seven subsequent codifications (1806, 1820, 1828, 1868, 1877, 
1884, and 1979) along with changes adopted between each codification. 
Appendices will contain related rules of the Continental Congresses, 
the Maryland General Assembly (1777), the Senate of the Confederate 
States of America, Senate Impeachment Rules from 1798, and the 
abandoned joint rules of Congress. Footnotes and sidebars will provide 
brief explanations of the reasons for significant changes.
    ``Senate Stories: 200 Notable Days, 1787-2002''.--This publication 
will present 200 brief stories featuring the Senate's best-loved and 
most notorious former members, its triumphs and tragedies, and some 
lesser-known moments that reflect the Senate's character as the 
``World's Greatest Deliberative Body.'' Readers will learn how the 
Senate was created, who became the first cabinet member to be confirmed 
(and the first rejected), how decorum was not always strictly 
maintained on the Senate floor, and how a certain Senator's toupee 
signaled a change in the seasons. These 200 historical essays are drawn 
from a larger number prepared during an eight-year period for weekly 
delivery to an audience of several dozen senators. Those Senators 
appeared to appreciate these essays for adding historical context to 
their daily responsibilities. Historical Office staff researched and 
compiled sources and photographs for each essay to be included in the 
publication.
    Joint Congressional Committee on Inaugural Ceremonies (JCCIC).--In 
2005, Historical Office staff assisted with preparations and editing of 
printed materials, followed up on questions and reference requests 
forwarded to them by the JCCIC, made minor changes to the Web site as 
needed, and assisted the Recording Studio with preparing and editing 
text for the 2005 Inaugural video. Staff participated in an on-camera 
interview, responding to historical questions about presidential 
inaugurations, for use in the Inaugural video. Staff continues to 
maintain the Inaugural website as stewards until the next JCCIC forms 
in 2008.
Oral History Program
    The Historical Office conducts a series of oral history interviews 
that provide personal recollections of various Senate careers. This 
year, interviews were completed with Leonard Weiss, former staff 
director of the Governmental Affairs Committee; Timothy Wineman, Senate 
Financial Clerk; and Dennis W. Brezina, former staff member of the 
Subcommittee on Government Research. Several interviews are in 
progress, and the interviews of Chuck Ludlam, former staff member of 
the Separation of Powers Subcommittee, have been processed and opened 
for research. The complete transcripts of 20 interviews have also been 
posted on the Senate's Web site.
Member Services
    Members' Records Management and Disposition Assistance.--The Senate 
archivist continued the program of assisting members' offices with 
planning for the preservation of their permanently valuable records, 
emphasizing the importance of managing electronic records, and 
transferring valuable records to a home-state repository. The archivist 
began revising the Records Management Handbook for United States 
Senators and Their Archival Repositories. The archivist continued to 
work with staff from all repositories receiving senatorial collections 
to ensure adequacy of documentation and the transfer of appropriate 
records with adequate finding aids. The archivist provided briefing 
materials to transition offices and met with staff. The archivist 
conducted a seminar on records management for Senate offices and 
participated in the Senate Services Fair. The archivist participated in 
a panel discussion at the annual meeting of the Association of Centers 
for the Study of Congress on ``Developing a Collaborative Approach to 
Web-Based Content (for congressional papers collections),'' and also in 
the second symposium sponsored by the John H. Brademas Center for the 
Study of Congress at New York University, which focused on the 
development of a policy for the papers of public officials. The 
archivist organized and led a session on procedures for handling 
classified documents that are discovered in members' collections after 
they have been donated to an archival repository. This was presented at 
the Society of American Archivists annual meeting.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. 2,966 cubic 
feet of Senate records were transferred to the Archives. The archivist 
revised and published the Records Management Handbook for United States 
Senate Committees. Part of the revision entailed developing, with 
assistance from National Archives (NARA) staff, a protocol for transfer 
of electronic records to NARA's Center for Legislative Archives. The 
Committee on Homeland Security and Governmental Affairs and its 
archivist developed and successfully implemented a project using this 
protocol to appraise and transfer electronic records to the archives. 
The archivist worked with the Budget Committee to find professional 
assistance to perform a records survey and to begin comprehensive 
archival processing of older transfers for the purpose of assuming 
better intellectual control over their historical collection. The 
archival assistant continued to provide processing assistance to 
committees and administrative offices in need of basic help with 
noncurrent files. The archival assistant produced committee archiving 
reports in Access database format covering records' transfers for the 
past year. The archivist will use these reports in 2006 to provide 
committees with suggestions for improvements. The archivist hosted a 
tour and briefing for chief clerks at the Center for Legislative 
Archives.
    ``Senate Historical Minutes''.--The Senate historian continued a 
nine-year series of ``Senate Historical Minutes,'' begun in 1997 at the 
request of the Senate Democratic Leader. In 2005, the historian 
prepared and delivered a ``Senate Historical Minute'' at 21 Senate 
Democratic Conference weekly meetings. These 400-word Minutes were 
designed to enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 200 Minutes are available as a feature on the Senate website.
Photographic Collections
    The photo historian created the first ever published pictorial 
directory of Senators, Faces of the Senate: A Pictorial Directory of 
United States Senators, 1789-2005. Since the First Congress convened in 
1789, 1,885 men and women have served in the United States Senate. This 
invaluable reference source contains images of all but 46 of them. The 
images in the volume are arranged alphabetically by state, and further 
divided within each state by Senate class. This one-of-a-kind 
publication offers a unique visual representation of the collective 
Senate from its inception to the present. Prompted by the desire to 
make the Faces pictorial directory as complete as possible, the photo 
historian sought and acquired images of nearly 100 former Senators not 
previously represented in the Office's collection. Many of these newly 
acquired images were obtained from various universities, historical 
societies, and state libraries throughout the nation. More than half of 
the images came from a collection of late 19th- and early 20th-century 
photo scrapbooks that were donated to the Office at the end of 2004. 
These scrapbooks were inventoried and copy negatives were made of many 
of the images contained therein.
    The photo historian continued to provide timely photographic 
reference service, while cataloging, digitizing, re-housing, and 
expanding the Office's 40,000-item image collection. The office's 
Continuity of Operations Plan (COOP) and vital electronic records were 
updated. As a contribution to the office's educational outreach 
efforts, two online photographic exhibits were created for the Senate 
website--Capitol Scenes: 1900-1950 and World War II: The Senate and the 
Nation's Capital. A third online exhibit, The Senate Through the Ages, 
has been created and will be available on the website shortly. A number 
of Senators' offices were inspired by the Faces pictorial directory to 
display the images of all the Senators who had served from their state. 
The photo historian worked with the offices on these projects, 
providing the images and assisting in the design of the displays.
Educational Outreach
    Much of the Senate Historical Office's correspondence with the 
general public takes place through the Senate's website, which has 
become an indispensable source for information about the institution. 
The assistant historian and the Historical Office staff maintain and 
frequently update the Web site with timely reference and historical 
information. In 2005, the Historical Office received an estimated 1,500 
inquiries from the general public, the press, students, family 
genealogists, congressional staffers, and academics, through the public 
e-mail address provided on the Senate website. The diverse nature of 
their questions reflects the varied levels of interest in how the 
Senate functions, its institutional history, and the individuals who 
have served in the body.
    In coordination with the Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women senators, Senate floor leadership, and 
the Constitution. Office staff also participated in seminars and 
briefings for specially scheduled groups. The Senate historian 
addressed a conference in the United Kingdom entitled, ``What Are 
Senates For?'' Sponsored by the University of London's Institute for 
Historical Research, this symposium was designed to explore further 
reform opportunities for the House of Lords by examining the experience 
of legislative upper houses in other western nations. The associate 
historian delivered the keynote address to the Northern Great Plains 
History Conference in Eau Claire, Wisconsin, participated in a workshop 
on ``Congress and History'' at Washington University in St. Louis, and 
was part of a panel discussion on ``The American Congress'' at the 
National Archives and Records Administration.
    Advisory Committee on the Records of Congress.--This eleven-member 
permanent committee, established in 1990 by Public Law 101-509, meets 
twice a year to advise Congress and the Archivist of the United States 
on the management and preservation of the records of Congress. Its 
Senate-related membership includes appointees of the majority and 
minority leaders; the Secretary of the Senate, who serves as committee 
vice chair during the 109th Congress; and the Senate historian. The 
Historical Office provided support services for the Committee's June 
and December meetings.
    Capitol Visitor Center Exhibition Content Committee.--Staff 
historians completed their assignments in drafting text for displays in 
the exhibition gallery of the Capitol Visitor Center. During 2005, the 
Office assisted Donna Lawrence Productions and Cortina Productions with 
background material for several visitor orientation films and 
interactive visual displays.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office assisted with the third annual meeting of the 
Association of Centers for the Study of Congress. Among the centers 
involved in this promising new organization are those associated with 
the public careers of former Senators Howard Baker, Bob Dole, Everett 
Dirksen, Thomas Dodd, Wendell Ford, Hubert Humphrey, Richard Russell, 
John Stennis, and John Glenn.
                           7. human resources
    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The Office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that fulfill the 
legal requirements of the workplace and complement the organization's 
strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; employee handbooks and manuals; 
internal grievance procedures; employee relations and services; and 
organizational planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.
Classification and Compensation Review Completed
    HR conducted a complete classification and compensation study. This 
work product is the single largest program to come from this office 
since its inception. The classification study includes a comprehensive 
collection of current job classifications and specifications for every 
position in the Office. Other federal agencies are looking to move from 
the GS schedule to this concept of broad banding, which allows greater 
flexibility in ``pay for performance'' models rather than simple 
graduated steps.
Policies and Procedures
    The Secretary, through HR, is updating and revising the Employee 
Handbook of the Office of the Secretary. With nuances in employment law 
and other advances, the policies are being reviewed, coordinated with 
counsel, revised and updated. An entirely new updated Employee Handbook 
will be available in 2006.
Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records maintained by 
HR. Staff and managers can also access leave records and reports 
through this system. The ability to review and update this information 
is instrumental to maintaining accurate contact lists for emergencies 
or other contingencies.
    ESS is a useful communication method among a large staff. It is 
incumbent upon the department to find ways to solicit the feedback, 
suggestions and insight of staff in an effort to continually improve 
processes and procedures. One way we have incorporated this effort is 
in the ESS system. There is a ``suggestion box'' component to this 
service that allows staff to anonymously send a message to HR with a 
concern or suggestion, to be considered by HR and/or the Executive 
Office.
Recruitment and Retention of Staff
    HR has the ongoing task of advertising new vacancies or positions, 
screening applicants, interviewing candidates and assisting with all 
phases of the hiring process. HR will coordinate with the Sergeant at 
Arms HR to post all SAA and Secretary vacancies on the Senate intranet 
so that the larger Senate community may access the posting from their 
own offices.
    HR assists in advising on performance-related issues and meets with 
staff and supervisors to develop performance improvement plans. Such 
plans help in both the development of a productive staff member and in 
making disciplinary recommendations when necessary.
Outreach
    HR conducted the first Elder Care Fair that was made available to 
all Senate staff on October 24, 2005. The event provided an opportunity 
for staff to learn about and access local and nationwide services 
available to assist the elderly and those responsible for their care.
    Comprehensive resource manuals were created and distributed 
throughout the Senate and have been requested by specific offices, 
committees, and departments. The goal is to conduct an Elder Care Fair 
every other year.
Training
    In conjunction with the Senate Chief Counsel for Employment, HR 
works to prepare training for department heads and staff. Some of the 
training topics include Sexual Harassment, Interviewing Skills, 
Conducting Background Checks, Providing Feedback to Employees and Goal 
Setting.
Interns and Fellows
    HR coordinates both the Secretary's internship program and the 
Heinz Fellowship program. From advertising, conducting needs analyses, 
communicating, screening, placing and following up with all interns, HR 
keeps a close connection with the interns to make the internship most 
beneficial to them and the organization.
                         8. information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The Department provides 
computer related support for all LAN-based servers within the Office of 
the Secretary of the Senate. Information Systems staff provide direct 
application support for all software installed workstations, initiate 
and guide new technologies, and implement next generation hardware and 
software solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Office of the Secretary 
of the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies, meeting Disbursing 
office financial responsibilities to the member offices, and office 
mandated and statutory obligations.
Staffing and Functionality
    No incremental staffing changes occurred in fiscal year 2005. The 
staffing level has remained unchanged since 1998, although functional 
responsibilities for support in other departments have expanded. 
Information System staff functionality was expanded by moving the IT 
structure from a local LAN support structure to an enterprise IT 
support process. Improved diagnostic practices were adopted to expand 
support across all Secretary Departments. Several departments, namely 
Disbursing, Chief Counsel for Employment, Office of Public Records, 
Page School, Senate Security, Stationery and Gift Shop previously 
employed dedicated information technology staff resident within the 
offices. Public Records, Stationery, and Gift Shop remote support was 
added in 2005. Information Systems personnel continue to provide a 
multi-tiered escalated hardware and software support for these offices.
    For information security reasons, departments have implemented 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of interdepartmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.
Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software supports provided by the Information Systems 
Department, and augment that support with assistance from the SAA 
whenever required. The network supports approximately 300 users' 
accounts and patron accounts in the Capitol, the Senate Hart, Russell, 
and Dirksen Buildings, and the Page School. The total number of 
hardware servers retired in 2005 was 16.
Fiscal Year 2005 Summary Results
    The Active Directory and Messaging Architecture (ADMA) marks the 
first time that all Secretary IT equipment is operating in a pure 
client/server relationship. The IT infrastructure foundation is now 
positioned for scaleable and expanded growth in all Secretary offices.
    The ADMA project implementation provided a central point of IT 
system administration, and the opportunity to implement enterprise wide 
solutions, namely Outlook Web Access and remote messaging, offsite 
access to Webster, LIS, and newswire services.
    Improvements incorporated in the Amendment Tracking Project now 
provide submitted as well as proposed amendments scanned for all Member 
offices.
    Microsoft released 37 critical security updates for each 
workstation in 2005. Information System staff incorporated new 
techniques to test and deploy these updates to all systems. Coupled 
with a secure ``wake-up-on-LAN'' technology, workstations that are 
turned off can now securely powered up on the weekend, security updates 
installed, turned off, and ready for ``business as usual'' on Monday 
morning.
Active Directory and Message Infrastructure Project (ADMA)
    The Microsoft Outlook E-Mail client solution is referred to as the 
Messaging Architecture and the replacement of the existing Windows NT 
server installed base is referred to as the Active Directory project. 
The ADMA plan involved all staff employees and was integrated into one 
central Active Directory Secretary Enterprise in 2005. Each department 
(except the Disbursing Office and Chief Counsel for Employment) is now 
structured as an organizational unit within the new enterprise.
    In September 2005, phase one was completed, and phase two 
(Disbursing) was completed in December 2005.
    There are several benefits to the implementation of the ADMA:
  --All secure-id and Passface users have remote access to web-mail, 
        Congress.gov, CRS, and news wire services;
  --Access to web based services is available from all public and 
        private internet locations;
  --Centralized system administrative processes;
  --Higher level of active file sharing and improved collaboration 
        between different business functions; and
  --Higher levels of messaging functionality during COOP events.
    Clearly, the implementation of ADMA for the Secretary involved 
numerous resources on the part of both the Sergeant at Arms and the 
Secretary's offices. The importance of this single project provides the 
``base'' for all future IT related projects in the coming years.
Legislative Operation Upgrades
    The technical staff collaborated with the SAA application 
development software personnel to complete the transition of the 
Amendment Tracking System workflow process to a web-based solution. 
This redesign facilitates the scanning of submitted and proposed 
amendments for all Senate offices.
Stationery Room Renovation Procurement
    The Stationery Room awarded a contract to replace the existing 
hardware servers in August 2005. This process had not been updated in 
over ten years.
    An enhancement to the Stationery Room's services incorporated a 
Metro Subsidy system which allows Senate offices to request allotted 
subsidies in advance using a web-browser based connection. SAA provided 
the web-entry portal at PSQ, and the Secretary's office installed the 
necessary SQL database server at PSQ. Hardware servers maintained 
jointly by SAA and the Secretary were initiated in 2005 to provide this 
advance purchase request.
Curator Project Management Software
    In May 2004 a project requirement surfaced to provide the Curator's 
office with a method to create, edit, publish, and distribute 
information relative to numerous contracts and outside vendor projects. 
After evaluating these business requirements, the IT solution 
implemented now provides multi-user collaboration software to track and 
monitor these numerous projects.
    In parallel, working with SAA Research and Development, this 
solution was also deemed valuable to other Senate offices. 
Implementation of this package allows staff to communicate and share 
files regardless of location. A Senate wide rollout is expected in 
2005.
                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
24th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; British-American 
Interparliamentary Group; United States-Russia Interparliamentary 
Group; and United States-China Interparliamentary Group.
    In June, the 44th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Rhode Island. Arrangements for 
this successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assists staff members of Senators and committees in completing the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 46th Annual Meeting of the Canada-U.S. 
Interparliamentary Group, which will be held in the United States in 
2006. Advance work, including site inspection, will be undertaken for 
the Mexico-U.S. Interparliamentary Group and British American 
Parliamentary Group meetings to be held in the United States in 2007. 
Preparations are also underway for the spring and fall sessions of the 
NATO Parliamentary Assembly.
                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Other resources include a wide array 
of online systems used to provide nonpartisan, confidential, timely, 
and accurate information services to the Senate. The library also 
authors content for three websites: Legislative Information Service, 
Senate.gov, and Webster.
Notable Achievements
    Information inquiries increased 26 percent.
    LIS nomination records enhanced with links to 1,074 full-text 
hearings.
    Senate Support Facility opened, providing archival storage for 
library collections.
    Project undertaken to provide electronic access to the Senate 
Historical Office's 3,000-volume book collection.
    180 Senate staff were provided LIS instruction.
Information Services
    Legal, legislative, business, and general research are the primary 
components of the Senate Library's mission. The two categories of 
patron requests are traditional requests resulting from walk-ins, 
telephone calls, faxes, or e-mails, and requests directed to library-
produced web resources. As content providers to three websites--
Senate.gov, the Legislative Information System (LIS), and Webster--the 
library's work flow and procedures, staff skills, and information 
products have changed significantly and permanently. XML technology has 
significantly and positively impacted web work flow and work product. 
As a result, the library can meet the Senate community's ever-
increasing reliance on technology with accurate, pertinent, and current 
information in an even more timely and cost-effective manner. The 
response to the library's commitment to web initiatives was a 26 
percent increase in inquiries from the previous year. This marked the 
second consecutive year of double-digit increases.

                                       INFORMATION SERVICES TO THE SENATE
----------------------------------------------------------------------------------------------------------------
                                                 Traditional     Web
                      Year                        Inquiries   Inquiries    Total     Increase from Previous Year
----------------------------------------------------------------------------------------------------------------
2005...........................................      33,080     823,076    856,156  26 percent
2004...........................................      33,750     602,236    635,986  38 percent
2003...........................................      46,234     348,198    394,432  Baseline
----------------------------------------------------------------------------------------------------------------

    Most of the activities supporting research also reflected 
significant increases, including 4,015 information packages delivered 
(+23 percent) and 133,335 photocopies (+13.75 percent). The number of 
loaned books and documents increased 27 percent to 2,752 and 330 new 
borrowing accounts were established, bringing the total to 2,667. Other 
important contributors to the across-the-board increases were the 
October 2004 Senate-wide release of the library's online catalog, which 
recorded nearly 4,000 user visits, the interactive New Books List, and 
the new e-mail book ordering service. In addition, more than 4,400 
pages were produced from the library's extensive microform collection 
of newspapers, journals, and congressional documents.
Significant Projects
            Supreme Court Nominations
    A web-available history documenting the 158 Supreme Court 
nominations submitted to the Senate since 1789 was compiled and 
published. This unique web document features confirmation chronologies 
and embedded links to voting records, nominee biographies, and essays 
regarding special circumstances. The document has been published on 
Senate.gov, the Legislative Information System, and the Senate 
Library's Home Page on Webster.
    A related Supreme Court project provides web access to the text of 
confirmation hearings conducted since 1971 and Senate executive reports 
issued since 1993. These two categories of important documents were 
provided through collaboration with the Senate Judiciary Committee, 
Congressional Research Service (CRS), Government Printing Office (GPO), 
and Library of Congress Law Library.
            Senate Hearings on LIS
    The Legislative Information System nomination reports were enhanced 
with the addition of 886 Senate hearing numbers, the key to identifying 
a specific transcript in a library or at GPO.
    A related LIS project linked the hearing numbers to the full text 
of hearing transcripts at GPO Access. The June release of this new 
feature on LIS was followed by a November release on THOMAS. To date, 
this cooperative project between the Library of Congress and the Senate 
Library has established 1,074 full-text links to Senate committee 
hearings.
            Appropriations Legislation
    The library's popular Appropriations Legislation series documents 
the history of appropriations measures since fiscal year 1993. The 
histories were significantly improved with the addition of links to 
full-text transcripts of nearly 200 Senate Appropriations' hearings. An 
additional feature that links House hearing information to the web-
based library catalog is available to Senate staff through the 
library's Webster site. Simultaneous dynamic publishing to the 
histories on Webster, LIS, and Senate.gov was designed by the Web 
Technology Office and significantly improved editing procedures.
            Educational Services
    LIS Savvy classes, a new library outreach program, were introduced 
in March. The one-hour classroom sessions provided 180 Senate staff 
with expert LIS training from an experienced research librarian. In 
addition to the scheduled monthly sessions, six more classes, including 
a teleconference training session, were held to meet the demand. LIS 
Savvy classes complement the library's responsibility as the Senate's 
official Help Desk for commercial and legislative databases.
    In addition, 204 Senate staff attended library-sponsored seminars 
and events including Services of the Senate Library Seminars, the 
Senate Services Fair, Senate Page School tours, state staff 
orientations, and the annual National Library Week reception and book 
talk.
    During 2005, the library hosted 179 visitors from graduate schools, 
professional organizations, and federal libraries. The tours included 
Catholic University and University of North Carolina graduate students; 
library staff from the Supreme Court, Central Intelligence Agency, and 
Library of Congress; D.C. Special Library Association members; and 
participants in the annual GPO Depository Library Conference.
Technical Services
            Acquisitions
    The library received 11,988 (+2.5 percent) new acquisitions in 
2005. Of this number, 7,520 were congressional documents, 3,588 
executive branch publications, and the remaining 880 items were books 
related to politics, American history, or biography.
    As a participant in the Federal Depository Library Program (FDLP), 
the library receives selected categories of legislative, executive, and 
judicial branch publications from GPO. In 2005, the library acquired 
11,108 items through FDLP. The trend to electronically distribute 
government publications has significantly reduced the overall number of 
paper documents issued; GPO reports that 95 percent of government 
documents are now issued electronically. The library responded to this 
trend by hosting 16,938 electronic catalog links, the majority of which 
are to government documents.
    A major project is the ongoing title-by-title evaluation of 
executive branch publications. During the fifth year of the project, 
1,462 superseded or surplus items were withdrawn from the collection 
and 628 of these items were donated to requesting federal libraries. 
The project's final phase will improve organization and access by 
integrating the retained documents into the book collection. Toward 
this end, 379 documents were reclassified and merged into the larger 
primary collection.
            Cataloging
    The library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 166,912 
bibliographic items. During the year, 10,385 items were added to the 
catalog including 5,179 new titles (+10 percent), and 5,689 items were 
withdrawn. A total of 28,928 maintenance transactions contributed to 
the catalog's content, currency, and record integrity. The library also 
contributed 664 personal names and congressional terms to the Name 
Authorities Cooperative program (NACO) at the Library of Congress. That 
number is exceptional and underscores cataloging skills and the very 
special nature of the Senate's collections. As an international 
authority, NACO's institutional participants create shared cataloging 
resources for the larger library community.
    Staff addressed the longstanding issue of tracking committee 
hearings. There is often a three to six-month period between the date a 
hearing is held and publication of the official transcript. To date, 
383 records have been created for yet-to-be published hearings. Senate 
staff and researchers are now able to identify both published and 
unpublished Senate hearings by searching the library catalog.
    Other cataloging projects included assisting the Senate Historical 
Office in providing electronic access to their 3,000 volume book 
collection. Once completed, the entire collection will be searchable 
through the library's online catalog. Since May, records for the first 
638 titles have been completed.
            Web-Based Catalog
    The library's online catalog, containing 166,912 bibliographic 
records, was released Senate-wide on October 25, 2004. During the first 
operational year, Senate staff searched the catalog on nearly 4,000 
occasions. The public catalog is updated nightly to guarantee that 
Senate staff will retrieve accurate and timely information on library 
holdings. The holdings for electronic journals and government-issued 
serials, including annual reports and recurring documents, were added 
to the catalog in 2005.
    A four-month beta test of the latest catalog upgrade was followed 
by a June installation of the new 3.3 version. The beta testing 
provided an opportunity to recommend search and display improvements. 
Catalog users will see enhanced full-text search capability with 
system-generated equivalent and substitute terms. For more precision, 
exact-match searching, which provides more focused results, is also 
available. The catalog improvements have significantly integrated the 
majority of library resources onto the Secretary's network.
    The library utilizes a statistical and analytical tool, to process 
raw data from the public catalog web server. This valuable management 
tool provides information on aggregate catalog usage and will result in 
improved design and service.
            Offsite Storage, Collection Maintenance, and Binding
    The Senate Support Facility was completed in December 2005 and will 
provide long-term, preservation-quality storage for library 
collections. The library's designated area in the warehouse provides 
storage for 56,000 volumes, and has on-site security, fire suppression, 
museum-standard humidity and temperature controls, air filtration, and 
telecommunications. A collection of 25,000 historic and rare 
congressional documents will be transferred to the SSF in 2006.
    Preservation of the library's 18th and 19th century collections 
resulted in several initiatives, including a volume-by-volume 
collection survey that will identify those titles requiring 
conservation, repair, or replacement. To prevent the growth of mold and 
mildew, routine monitoring ensures that strict temperature and humidity 
levels are maintained. To guarantee future availability and 
preservation, GPO bound 550 library volumes for the permanent 
collection.
Administrative
            Budget
    Budget reductions in 2005 totaled $2,544.32. Nine years of budget 
monitoring has resulted in reductions totaling $73,484.18. Continual 
review of purchases has eliminated materials not meeting the Senate's 
current information needs. This oversight is also critical in 
offsetting cost increases for core materials and for acquiring new 
materials. The goal is to provide the highest service level using the 
latest technologies and best resources in the most cost-effective 
manner.
            Continuity of Operations Plan (COOP)
    The addition of a laptop computer significantly improved the 
library's ability to meet COOP-related and special event 
responsibilities. With added remote access to the Senate.gov content 
management system (CMS), staff can efficiently update the floor 
schedule. To meet COOP requirements for an alternate work site, the 
library's warehouse location will provide staff areas, a core reference 
collection, and access to the Senate network and telecommunications 
systems.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter produced by Senate 
Library staff since October 1997, is an historical record of 
accomplishments, events, and personnel in the Office of the Secretary 
of the Senate. Three issues were published during 2005, including a 16-
page commemorative issue honoring the 200th anniversary of Constantino 
Brumidi's birth. In addition, Senate-wide access to each of the thirty-
seven issues was made available through Webster and the library's 
catalog.
Major Library Goals for 2006
    Relocate 25,000 volumes to the Senate Support Facility.
    Redesign the library's Webster site.
    Identify a COOP-designated reference collection for the Senate 
Support Facility.
    Continue the review and reclassification of executive branch 
materials.
    Add Senate hearing numbers to LIS status reports for the 1987-2000 
time period.
    Plan for server upgrades in preparation for future catalog 
requirements.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         21         65        234         86        206         19         48        342      1,000
February.............................................         22         51        208         44        276         13         81        242        915
March................................................         20         81        397        142        243         28         74        273      1,238
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         63        197        839        272        725         60        203        857      3,153
                                                      ==================================================================================================
April................................................         18         78        161         35        214         35         53        204        780
May..................................................         34         98        122         42        183         27         80        367        919
June.................................................         27        102        159        396        217         16         72        336      1,298
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         79        278        442        473        614         78        205        907      2,997
                                                      ==================================================================================================
July.................................................         50         61        170         51        249         21         65        292        909
August...............................................         21         75        120         78        276         25         58        324        956
September............................................         33         58        190        201        235         18        148        268      1,118
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        104        194        480        330        760         64        271        884      2,983
                                                      ==================================================================================================
October..............................................         32         82        187         76        283         17         68        293      1,006
November.............................................         48         74        215         49        256         13         56        350      1,013
December.............................................         20         55        174         51        288         20         81        167        836
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................        100        211        576        176        827         50        205        810      2,855
                                                      ==================================================================================================
      2005 Total.....................................        346        880      2,337      1,251      2,926        252        884      3,458     11,988
      2004 Total.....................................        225        716      2,329        985      3,180        217      1,171      2,955     11,698
                                                      ==================================================================================================
Percent Change.......................................      53.78      22.91        .34      27.01      -7.99      16.13     -24.51      17.02       2.48
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Bibliographic Records Cataloged
                                                          S.    ------------------------------------------------------------------------------
                                                       Hearing                    Government Documents           Congressional Publications      Total
                                                       Numbers             -------------------------------------------------------------------  Records
                                                       Added to    Books                                                              Docs./   Cataloged
                                                         LIS                  Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                                                                                     Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.............................................         42         22          6         17          13        353          4         51        466
February............................................         20         21          2          7           5        258          5         75        373
March...............................................        121         25         16          7           2        315          5        114        484
                                                     ---------------------------------------------------------------------------------------------------
      1st Quarter...................................        183         68         24         31          20        926         14        240      1,323
                                                     ===================================================================================================
April...............................................  .........         38         11          1           8        133          8        108        307
May.................................................         14         69          5  .........           7        239          6         88        414
June................................................         44        121          8          2           5        403          6         67        612
                                                     ---------------------------------------------------------------------------------------------------
      2nd Quarter...................................         58        228         24          3          20        775         20        263      1,333
                                                     ===================================================================================================
July................................................        647         47          2          2          17        197          2         42        309
August..............................................         81         30          6          7          21        158  .........        103        325
September...........................................         28         49          8          1           7        246          1         98        410
                                                     ---------------------------------------------------------------------------------------------------
      3rd Quarter...................................        756        126         16         10          45        601          3        243      1,044
                                                     ===================================================================================================
October.............................................         19         30          2          8           4        478  .........         49        571
November............................................         46         21          5          2          33        337  .........         64        462
December............................................         26         27         14          3           9        262          2        129        446
                                                     ---------------------------------------------------------------------------------------------------
      4th Quarter...................................         91         78         21         13          46      1,077          2        242      1,479
                                                     ===================================================================================================
      2005 Total....................................      1,088        500         85         57         131      3,379         39        988      5,179
      2004 Total....................................        240        425         51         41          37      3,329        164        662      4,709
                                                     ===================================================================================================
Percent Change......................................     353.33      17.65      66.67      39.02      254.05       1.50     -76.22      49.24       9.98
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2005--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       213        333        119           534         5,874
February..........................................       220        271         79           234        10,258
March.............................................       254        384        143           479         8,567
                                                   -------------------------------------------------------------
      1st Quarter.................................       687        988        341         1,247        24,699
                                                   =============================================================
April.............................................       202        357         75           151        12,082
May...............................................       254        280         36           401         9,886
June..............................................       225        366         73           413        11,183
                                                   -------------------------------------------------------------
      2nd Quarter.................................       681      1,003        184           965        33,151
                                                   =============================================================
July..............................................       210        252        112           158         8,617
August............................................       359        633        111           550        10,268
September.........................................       216        317         70           320        13,095
                                                   -------------------------------------------------------------
      3rd Quarter.................................       785      1,202        293         1,028        31,980
                                                   =============================================================
October...........................................       207        317         76           374         8,986
November..........................................       225        273         38           414         8,894
December..........................................       167        232         69           378         5,625
                                                   -------------------------------------------------------------
      4th Quarter.................................       599        822        183         1,166        23,505
                                                   =============================================================
      2005 Total..................................     2,752      4,015      1,001         4,406       113,335
      2004 Total..................................     2,165      3,265      1,904         4,522        99,636
                                                   =============================================================
Percent Change....................................     27.11      22.97     -47.43         -2.57         13.75
----------------------------------------------------------------------------------------------------------------

                         11. senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 10, 2005, and January 20, 
2006, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2005 and Fall 2005 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty-one 
field trips, five guest speakers, opportunities to compete in writing 
and speaking contests, to play musical instruments and vocalize, and to 
continue foreign language study with the aid of tutors of four 
languages were all afforded pages. Six field trips to educational sites 
and three speakers were provided for summer pages as an extension of 
the page experience. National tests were administered for qualification 
in scholarship programs as well.
    Effective and efficient communication and coordination among the 
Sergeant at Arms, Secretary, Party Secretaries, Page Program, and Page 
School continues.
    The evacuation plan and COOP have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan and Iraq. The pages 
included letters of support to the troops participating in Operation 
Enduring Freedom. Several recipients of gift packages wrote letters to 
the pages expressing their appreciation.
    Staff and pages participated in escape hood training.
    Tutors were trained in evacuation procedures.
    Updated materials and equipment were purchased. These included five 
Titanium calculators, supplemental English textbooks, pre-calculus 
textbooks, and political science and American government texts.
    Faculty have pursued learning opportunities. One participated in 
the Veterans History Project workshop at the Library of Congress; 
another attended an AP Physics workshop, a Hazard Communications 
seminar, the T3 International conference, and a PASCO workshop; and a 
third attended the National Council of Teachers of Mathematics 
convention as well as the T3 International Conference and completed two 
courses in his doctoral program.
    All sinks in the science lab have been retrofitted with aspirators.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, Latin, and Japanese.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options will include attendance at a technology 
        conference, seminars conducted by Education and Training, and 
        subject matter conferences conducted by national organizations.
  --The community service project will continue.
                   12. printing and document services
    The Office of Printing and Document Services (OPDS) serves as the 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.
Printing Services
    During fiscal year 2005, the OPDS prepared 4,439 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS is able to review and assure accurate GPO 
invoicing as well as play an active role in helping to provide the best 
possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The office's 
online blank paper ordering system, implemented in 2003, continues to 
be a popular option for Senate staff. The OPDS also coordinates a 
number of publications for other Senate offices, such as the Curator, 
Historical Office, Disbursing, Legislative Clerk, and Senate Library in 
addition to the U.S. Botanic Garden, U.S. Capitol Police and Architect 
of the Capitol. These tasks include providing guidance for design, 
paper selection, specifications for quotations, monitoring print 
quality and distribution. Last year's major printing projects included 
the Report of the Secretary of the Senate and the Semiannual Report of 
the Architect of the Capitol. Current major projects for the office 
include a full color version of the ``History of the U.S. Botanic 
Garden 1861-1991'', ``Headlines in Senate History'' a compilation 
prepared by the Senate Historical Office, and the ``U.S. Senate 
Catalogue of Graphic Art'' a companion volume to the fine art 
catalogue.
Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings. The OPDS processes billing verifications for 
these transcription services ensuring that costs billed to the Senate 
are accurate. During 2005, OPDS provided commercial reporting companies 
and corresponding Senate committees a total of 949 billing 
verifications of Senate hearings and business meetings, a 20 percent 
increase over the previous year. Over 66,000 transcribed pages were 
processed at a total billing cost of over $426,000.
    The OPDS utilizes a program developed in conjunction with the 
Sergeant at Arms Computer Division that provides more billing accuracy 
and greater information gathering capacity, and adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2005 the office continued processing 
all file transfers between committees and reporting companies 
electronically, ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent change
                                                       2003            2004            2005          2005/2004
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             975             787             949          + 20.6
Average per Committee...........................            51.3            41.4            49.9          + 20.6
Total Transcribed Pages.........................          70,532          56,262          66,597          + 18.4
Average Pages/Committee.........................           3,712           2,961           3,505          + 18.4
Transcribed Pages Cost..........................        $461,807        $366,904        $426,815          + 16.3
Average Cost/Committee..........................         $24,288         $19,311         $22,463          + 16.3
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
as committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands. The Congressional Record, a printed record of Senate 
and House floor proceedings, Extension of Remarks, Daily Digest and 
miscellaneous pages, is one of the many printed documents provided by 
the office on a daily basis. In addition to the Congressional Record, 
the office processed and distributed 9,984 distinct legislative items 
in 2005, including Senate and House bills, resolutions, committee and 
conference reports and executive documents.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2003            2004            2005
----------------------------------------------------------------------------------------------------------------
Pages Printed:
    For the Senate..............................................          16,835          12,642          16,393
    For the House...............................................          16,259          14,243          18,394
                                                                 -----------------------------------------------
      Total Pages Printed.......................................          33,094          26,885          34,787
                                                                 ===============================================
Copies Printed and Distributed:
    To the Senate...............................................         307,917         227,192         295,366
    To the House................................................         441,735         331,165         397,327
    To the Executive Branch and the Public......................         449,750         323,957         356,770
                                                                 -----------------------------------------------
      Total Copies Printed and Distributed......................       1,199,402         882,314       1,049,463
                                                                 ===============================================
Production Costs:
    Senate Costs................................................      $9,886,805      $7,961,741      $6,640,823
    House Costs.................................................      $9,563,592      $9,026,893      $8,933,244
    Other Costs.................................................        $693,141        $555,010        $440,639
                                                                 -----------------------------------------------
      Total Production Costs....................................     $20,143,538     $17,543,644     $16,014,706
----------------------------------------------------------------------------------------------------------------

    Although accessing legislative documents through the World Wide Web 
is popular, there is still a strong need for printed documents. The 
OPDS continually tracks demand for all classifications of Congressional 
legislation and twice yearly adjusts the number of documents ordered in 
each category to closely match demand. As a result, document waste has 
decreased significantly over the past several years.
Customer Service
    The primary responsibility of the OPDS is to provide services to 
the Senate. However, the office also has a responsibility to the 
general public, the press, and other government agencies. Requests for 
legislative material are received at the walk-in counter, through the 
mail, by fax, and electronically. In 2005, ordering of legislative 
documents on-line increased by 260 percent. The Legislative Hot List 
Link, where Members and staff can confirm arrival of printed copies of 
the most sought after legislative documents, is popular. The site is 
updated several times daily each time new documents arrive from GPO to 
the Document Room. In addition, the office handled thousands of phone 
calls pertaining to the Senate's official printing, document requests 
and legislative questions. Recorded messages, fax, and e-mail operate 
around the clock and are processed as they are received in addition to 
mail requests. The office stresses prompt, courteous and accurate 
answers to Senate and public requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX      On-line    Counter
                           Year                             session      mail     request    request    request
----------------------------------------------------------------------------------------------------------------
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
2005.....................................................    109/1st      1,369      2,326      1,464     40,105
----------------------------------------------------------------------------------------------------------------

On-Demand Publication
    The office produces additional copies of legislation as needed in 
the DocuTech Service Center which is staffed by experienced GPO 
detailees. On-demand printing and binding of bills and reports is 
provided to Member offices and Senate committees. In March 2004, the 
office coordinated the installation of a new, improved DocuTech high-
speed digital copier and production publisher. This machine decreases 
the quantities of documents printed directly from GPO and increases the 
ability to reprint documents on-demand on a larger scale. The DocuTech 
is networked with GPO allowing print files to be sent back and forth 
electronically. It also provides the advantage of quickly printing 
necessary legislation for the Senate floor and other offices in the 
event of a GPO COOP situation. During 2005, the DocuTech Center 
produced 530 tasks for a total of 891,871 printed pages, a 35 percent 
increase over the previous year.
Accomplishments and Future Goals
    The OPDS experienced an increased volume of business during 2005. 
Staff members attended both technical and management continuing 
education courses, always working toward the goal of providing 
customers, the Senate community and the public, with prompt and 
accurate service. Future goals include working with the GPO on 
improving job flow procedures. This includes sending customers 
electronic proofs for print jobs, as well as developing new database 
reports on serial set publications for the Senate Library and inventory 
tracking of materials housed in the new Senate Materials Facility. The 
Office of Printing and Document Services continues to seek new ways to 
use technology to assist Members and staff with added services and 
improved access to information.
                      13. office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
Filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2004, through September 2005, the Public 
Records office staff assisted more than 2,200 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, nor assistance given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 102,977 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
Fiscal Year 2005 Accomplishments
    The office developed on-site scanning redundancy with other offices 
under the Office of the Secretary. The office also modernized the on-
site public access software.
Automation Activities
    During fiscal year 2005, the Senate Office of Public Records 
developed the capacity to be able to scan time-sensitive documents in 
the event of a breakdown of the principal scanner.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports in a 
non-election year. Filings totaled 4,447 documents containing 278,264 
pages.
Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2005, 6,485 registrants represented 20,099 
clients and employed 32,890 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports processed was 49,401.
Public Financial Disclosure
     The filing date for Public Financial Disclosure Reports was May 
16, 2005. The reports were available to the public and press by 
Tuesday, June 14th. Copies were provided to the Select Committee on 
Ethics and the appropriate State officials. A total of 2,900 reports 
and amendments was filed containing 15,878 pages. There were 301 
requests to review or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received over 1,691 reports 
during fiscal year 2005.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 558.
                          14. senate security
    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The Office is responsible for the administration of 
classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate. This report covers the period from January 1, 2005 through 
December 31, 2005.
Personnel Security
    Four hundred eighty-five Senate employees held one or more security 
clearances at the end of 2005. This number does not include clearances 
for employees of the Architect of the Capitol or for Congressional 
Fellows assigned to Senate offices. OSS also processes these 
clearances.
    OSS processed 2,361 personnel security actions in 2005, a 24 
percent increase from 2004. One hundred-seven investigations for new 
security clearances were initiated last year, and 58 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past 12 months, reinvestigations were 
initiated on 70 Senate employees. OSS processed 218 routine 
terminations of security clearances during the reporting period and 
transmitted 339 outgoing visit requests. The remainder of the personnel 
security actions consisted of updating access authorizations and 
compartments.
    Overall, the average time required by the Department of Defense 
(DOD) and Federal Bureau of Investigation (FBI) for processing security 
clearances (by means of investigation and adjudication) has increased 
from 260 days to 332 days. The average time for investigations has 
increased by 27.7 percent relative to 2004. Since the previous 
increases for 2002 to 2003 was 66.7 percent and 2003 to 2004 was 25.6 
percent, this represents a very significant increase in the last two 
years. The average time for an initial investigation conducted and 
adjudicated by the DOD is 305 days from the date that OSS requests the 
investigation until the letter from DOD granting the clearance is 
received in Senate Security. The average time for DOD initial 
investigations increased 19.1 percent.
    The periodic reinvestigation process averages 385 days, an increase 
of 42.6 percent relative to 2004. The average time for an initial 
investigation conducted by the FBI and adjudicated by DOD is 256 days, 
while the periodic reinvestigation process averages 447 days. The FBI 
investigation with DOD adjudication times represents an increase of 1.6 
percent and 69.3 percent respectively.
    Two hundred thirty-nine records checks were conducted at the 
request of the FBI, ATF and OPM. One record check each was performed on 
behalf of OPM and ATF. The remaining checks were performed for FBI. 
This represents a 15.5 percent increase in records checks completed by 
OSS.
Security Awareness
    OSS conducted or hosted 75 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 2 
percent increase from 2004.
Document Control
    OSS received or generated 2,792 classified documents consisting of 
90,217 pages during calendar year 2005. This is a 0.4 percent decrease 
in the number of documents received or generated in 2004. Additionally, 
67,899 pages from 4,082 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents a 
52.9 percent increase in destruction. OSS transferred 700 documents 
consisting of 26,625 pages to Senate offices or external agencies, down 
40.9 percent from 2004. These figures do not include classified 
documents received directly by the Appropriations Committee, Armed 
Services Committee, Foreign Relations Committee, and Select Committee 
on Intelligence, in accordance with agreements between OSS and those 
committees. Overall, Senate Security completed 7,575 document 
transactions and handled over 184,742 pages of classified material in 
2005, an increase of 40.9 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 919 occasions 
during 2005. Use of OSS conference facilities decreased 19.7 percent 
from 2004 levels. Five hundred forty-six meetings, briefings, or 
hearings were conducted in OSS' three conference rooms. Of those, 
twelve were ``All Senators'' briefings and six were hearings. OSS also 
provided to Senators and staff secure telephones, secure computers, 
secure facsimile machine, and secure areas for reading and production 
of classified material on 373 occasions in 2005.
                          15. stationery room
    The mission of the Keeper of the Stationery is:
  --To sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --To select a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items.
  --To purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --To maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --To render monthly expense statements.
  --To insure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --To make payments to all vendors of record for supplies and services 
        in a timely manner and certify receipt of all supplies and 
        services.
  --To provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2005            2004
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $5,247,163      $4,740,221
Sales Transactions......................          60,247          58,682
Purchase Orders Issued..................           8,611           6,741
Vouchers Processed......................           9,206           7,485
Mass Transit Media Sold.................          75,607          67,836
    $20.00..............................          64,527          60,564
    $10.00..............................           3,923           3,923
    $5.00...............................           7,157           3,148
                                         ===============================
Time Employees (FTE)....................              13              13
------------------------------------------------------------------------

Fiscal Year 2005 Highlights and Projects
    Flag Purchase Modernization Project.--During fiscal year 2005, with 
the assistance of the Architect of the Capitol and the Senate Sergeant 
at Arms, the Stationery Room embarked on a program to develop a method 
in which Member offices could purchase flags which had been flown over 
the Capitol, but were not date or occasion specific. Research revealed 
that approximately 37 percent of all flag requests by constituents were 
only to obtain a flag flown over the Capitol. It was reasoned that if 
flags could be flown in advance, significant wait times could be 
reduced. Thus, the Senate Sergeant at Arms PG&DM Division created 
artwork for a generic customizable flag certificate, along with a CD 
template that could be used in the customization process. All flags 
which have been pre-flown come with a Certificate of Authenticity 
signed by the Architect, certifying each flag has been flown over the 
United States Capitol. Currently this program is in use by a pilot 
group of Member offices.
    Senate Service Award Project.--At the end of fiscal year 2004, 
authorization was granted to proceed in the development of a program to 
recognize Senate staff who have completed twenty and thirty years of 
Senate service. Working closely with the Committee on Rules and 
Administration, the Senate Disbursing Office and Stationery Room 
vendors, a new Service Award Certificate was developed. This project 
resulted in the presentation of approximately 540 certificates to staff 
members who were employed in the Senate as of September 2004.
    Mass Transit Subsidy Electronic Submissions.--This project came to 
fruition with a fully functional application developed in-house by the 
Senate Sergeant at Arms Information and Technology's Research and 
Development team. This application allows users to submit their 
requests for Mass Transit media via a web-based solution. Once 
submitted, the request is filled by Stationery Room staff and 
notification is made to the requesting office that their media is 
ready. The Senate currently has 120 offices participating in the Mass 
Transit Subsidy Program of which 97 offices are submitting requests 
electronically.
    Senate Support Facility.--A new off-site facility affords the 
Stationery Room a 1,800 square foot secure work area along with an 
additional pallet storage area which will accommodate 190 pallets of 
merchandise. Stationery Room staff is also working on logistical and 
additional usage functions in this modern facility as a tenant user, 
including the ability to use the assigned space as a distribution 
center for product.
    Computer Modernization.--For over two years, the Stationery Room 
has worked to achieve modernization of its aged computer system. These 
efforts culminated in the ``rollout'' on August 4, 2005 of a new, state 
of the art sequel-based retail point of sale and accounting system. The 
base product installation will allow the Stationery Room to manage its 
inventory by location; provide account holders with detailed monthly 
transaction information; eliminate paper transaction storage with 
information stored for retrieval from the system on demand, and a host 
of other features that new technology now provides.
                           16. web technology
    The Office of Web Technology is responsible for web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
website, www.senate.gov (except individual Senator and Committee 
pages); the Secretary website on Webster; an intranet site currently 
used for file-sharing by Secretary staff only; and a LegBranch web 
server housing web sites and project materials which can be accessed by 
staff at other Legislative Branch agencies.
The Senate Web site (www.senate.gov)
    The United States Senate Web site celebrated its 10 year 
anniversary in 2005. The first U.S. Senate home page on the World Wide 
Web was announced October 20, 1995 on the Senate floor. From the Senate 
homepage members of the public could easily find the homepages for 
their own Senators. As the World Wide Web grew, so did the content and 
mission of Senate.gov. The pages of information became catalogs and 
databases, but the mission to provide the public with accurate and 
timely information remained constant.
    The second Senate home page, introduced in January 1997, provided a 
graphical interface, a virtual tour of the Capitol, access to Senate 
committee pages, and improved access to legislative data. Information 
about institutional procedures, history, and statistical records were 
also new to the site.
    Senate floor and committee schedule information was provided when 
the 106th Congress convened and the third home page was launched on 
January 6, 1999. The site received a Federal Design Award, issued by 
the National Endowment for the Arts and the General Services 
Administration. The award recognized the site for ``humaniz[ing] the 
venerable institution of the Senate by making its everyday activities 
and rich history readily accessible to the public.''
    The Senate's fourth home page was launched in October 2002 and 
included the functionality of a powerful, behind-the-scenes content 
management system. The previous web sites were maintained by a small 
team of 5 staff who knew HTML and could code content for display in web 
browsers. This new system allowed non-technical subject experts to post 
information to the Web site, greatly increasing the amount of relevant 
information available to the public. Over 30 contributors from eleven 
departments in the offices of the Secretary and the Sergeant at Arms 
now publish text and images on the Web site.
    In 2005 the newest graphical interface was designed for 
www.senate.gov, bringing more content to the front page, and providing 
access to Senators' websites from every page on the site. To help 
visitors find information, links to popular features were added to the 
homepage and a new site-wide search, available from every page, was 
introduced.
    The SAA conducted a feasibility study to evaluate the search 
appliance to see if it is compatible with the Senate environment. 
Secretary staff did extensive testing during the evaluation period and 
determined that the new search would work for senate.gov. This 
department also participated in developing the custom tag for use by 
Senate offices who want to put a search feature on their own web pages 
to search only their own web site content.
    There were more than 50 million visitors to the Senate website in 
2005--five times more than the estimated 8 million visitors in 2001. 
The latest changes and additions to the Senate Web site will greatly 
assist these visitors in connecting with their Senators and in finding 
the information they seek.
Senate.gov Web Development Projects
    Web Technology staff worked with content providers to create 
several special features for the Senate website:
            The Political Cartoons of Puck Exhibit
    Puck, a satirical weekly magazine that parodied the American 
political scene was one of the most popular periodicals of the late 
19th century. The new Puck Exhibit on senate.gov includes slideshows of 
Puck cartoons and ``Take the Puck Challenge,'' an innovative, 
interactive series of riddles designed to give readers insight to the 
political satire.
            Birds of the Brumidi Corridors Exhibit
    Constantino Brumidi included designs for more than 350 individual 
birds of at least 100 species in his paintings in the Senate corridors. 
A new exhibit on senate.gov features these paintings of birds in 
several slideshow presentations.
            World War II: The Senate and the Nation's Capitol
    This slideshow photo exhibit focuses on the Senate and the role it 
played in supporting the war effort and its aftermath and honors the 
brave men and women of World War II who sacrificed so much to preserve 
the ideals of liberty and representative democracy.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, the LIS Project Office shifted its focus to the 
data standards program and established the LIS Augmentation Project 
(LISAP). The over-arching goal of the LISAP is to provide a Senate-wide 
implementation and transition to XML for the authoring and exchange of 
legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
features many automated functions that provide a more efficient and 
consistent document authoring process. The LIS Project Office has 
worked very closely with the SLC to create an application that meets 
the needs for legislative drafting.
LISAP: 2005
    The SLC began using LEXA to draft legislation in early 2004. The 
SLC offered valuable feedback throughout that year on LEXA's continued 
development as new features were added and additional document types, 
such as amendments and reported bills, were added. Just prior to the 
beginning of the 109th Congress, the LIS Project Office provided a one-
day training course on several new and enhanced features of LEXA, and 
the SLC began 2005 creating 60 percent of their drafts of introduced 
bills and resolutions in XML. By the end of the session, 80 percent of 
all introduced and reported bills and resolutions (and countless 
amendments) had been created in XML. Several very large drafts were 
created in XML, including the energy bill and the highway bill. 
Feedback and development continued throughout 2005. Additional features 
and document types--conference reports, constitutional amendments, and 
engrossed and enrolled bills--were added to LEXA. LEXA's authoring 
environment offers many automated document creation functions, 
providing a faster, more consistent drafting process.
    As LEXA becomes more widely used in the SLC and other offices, 
support of the application becomes increasingly important. The 2004 
Legislative Branch Appropriations Act directed the Government Printing 
Office (GPO) to provide support for LEXA. GPO took over maintenance and 
support of the software module that converts a Senate XML document to 
locator for printing through Microcomp, and is now updating the 
software to print House XML documents. GPO is also working to solve 
problems with the software that creates and prints tables, and that 
table tool will be replaced with a more robust one sometime in 2006.
    The LIS Project Office worked closely with several key House, GPO, 
and Library of Congress groups involved in the XML project to ensure 
that the House and Senate XML authoring applications produce compatible 
electronic and printed documents that may be exchanged among the 
organizations processing the documents. The groups held several 
meetings in August and agreed to use the same tools to create tables 
and print XML documents through Microcomp. The House and Senate 
software development groups also reached agreement on several technical 
authoring issues and standards, thereby eliminating the need for 
additional processing when a document is exchanged between the House 
and the Senate.
    The project to convert the compilations of current law to an XML 
format was completed in early September. Staff in the House and Senate 
Legislative Counsel Offices update the compilations, and both groups 
participated in the project. The compilations are used as the basis for 
many legislative drafts and having the XML data will make it easier for 
both offices to use the text of compilations for drafting legislation 
in XML.
    The LIS Project Office provides support for LEXA via the LEXA 
HelpLine and LEXA website. The HelpLine is provided through a single 
phone number that rings on all the phones in the office, and the 
website is located on a server accessible by the legislative branch. 
The website, legbranch.senate.gov/lis/lexa, is used to distribute 
updates of the application to GPO and provides access to release notes, 
the reference manual, and other user aids. The Office continued to 
update the LEXA Reference Manual as new features were added to LEXA. 
The manual provides screen shots and step-by-step instructions for all 
LEXA features. The Office also trained new SLC staff and the Enrolling 
Clerks on LEXA and provided several demonstrations on new LEXA features 
throughout the year.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA. The Systems Development Services group of the Office of the 
Sergeant at Arms continues to update the DMS to the most recent 
releases of Documentum and verifies that all SLC requirements will be 
met. The Systems Development Services group provides support and 
maintenance for the LIS/DMS, and that group will also support the DMS 
for the SLC once it is deployed. The LIS Project Office has been 
monitoring the upgrade effort and will contract for transition training 
to be developed and delivered prior to implementation. The DMS will be 
integrated with LEXA and will provide a powerful tracking, management, 
and delivery tool.
LISAP: 2006
    The Office of the Enrolling Clerk will begin to use LEXA to produce 
engrossed and enrolled bills in XML from the XML versions of introduced 
and reported bills. The Legislative Branch XML Technical Committee will 
work together to develop the document type definitions for creating 
appropriations bills. Once the definitions are completed and validated, 
the LIS Project Office will enhance LEXA to add the ability to create 
appropriations language, starting first with appropriations amendments 
created by the SLC. Following that, we hope to begin discussions with 
the Appropriations committee staff that prepare the bills for printing.
    The LIS Project Office will continue to work with the SLC and the 
Office of the Enrolling Clerk to refine and enhance LEXA so that more 
and more of the documents produced by those offices will be done in 
XML. Once all of the documents can be produced in XML using LEXA, those 
offices will be able to stop using XyWrite. Since XyWrite is not 
compatible with other Windows software, moving away from it will allow 
the offices to use more modern technologies for all functions. For 
example, eliminating XyWrite will finally give the SLC the opportunity 
to implement a document management system and automate other office 
functions. Other Senate offices that do drafting with XyWrite may begin 
using LEXA, including the Committee on Appropriations. Thus far in the 
second session of the 109th Congress, approximately 96 percent of 
introduced bills and resolutions have been created as XML documents.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

                      NEW TECHNOLOGY IN THE SENATE

    Senator Allard. Thank you for your leadership. Businesses 
and agencies have to make constant decisions about the 
technology that they use in their offices. You have shared with 
us some of the high tech services that you're providing to the 
public and to Members of the Senate. How does your office 
continue to take advantage of technological developments and 
incorporate them into your services provided to the Senate, 
when do you determine that the technology has ripened to the 
point where you can bring it in and not create a lot of 
problems? How do you make those kind of decisions?
    Ms. Reynolds. You know that's a great question, and the 
Sergeant at Arms is very much a partner with us in any 
technological development, as they, as you know better than I, 
certainly have the lead in this for the Senate. I think the 
pilot projects, I mentioned the flag project in particular, we 
have a number of pilots going with disbursing through our 
financial management information system. The best way for us to 
determine when something is ripe if you will, or ready for a 
roll out is because we've been through that pilot phase and 
we've worked directly with Senate offices to understand what 
works and what doesn't work, so they're invaluable to us in 
that feedback.
    But you're right, staying ahead of that curve, whether it's 
something small, like being able to book the LBJ room online, 
or order your paper online for your office through printing and 
documents to something as large as our Senate amendment 
tracking system, or our FMIS project with disbursing, we're 
constantly striving to serve this community better.
    And I also want to make one quick mention as well, on the 
website of a new addition that hopefully will be rolled out 
this year, because as I've said, keeping that website fresh, 
especially for the public, is important to us. And there should 
be one addition coming there on the Senate desks, which I think 
will be of enormous interest to you and your colleagues and 
also to the public. Actually going in and looking at each desk, 
explaining its history, talking about the conservation of the 
desk. So again, from simple things to large, and again 
remaining current for the public we're constantly striving to 
stay ahead of the curve if you will.

                      LOBBYING DISCLOSURE REPORTS

    Senator Allard. Very good. I'm going to move on to the 
Office of Public Records, which is under your jurisdiction as 
Office of the Secretary of the Senate. We're looking at 
lobbying reform, and it has the potential to increase filings 
by a considerable amount as I understand it. Could you give me 
an overview of that operation and tell me whether you have 
sufficient resources to implement a significant increase in 
filings?
    Ms. Reynolds. I really appreciate that question and 
obviously there's been a great deal of discussion here in these 
last few weeks alone. Our public records office has been in the 
business of receiving those lobbying disclosure reports now, 
for just over a decade, since the passage of the LDA. And as 
you well know we currently receive those filings twice a year, 
mid-February and again mid-August. I have a couple of 
statistics for you that are also in our written report. There 
are roughly 6,500 registrants who represent just over 20,000 
clients. They employ almost 33,000 individuals, so it's a big 
number. All told that means that our Office of Public Records, 
reviews about 45,000 documents a year.
    I'm also very proud that the lobbying community has been 
able to e-file with the Senate since the year 2000. And in fact 
since 2001, lobbying reports and registrations as far back as 
1998 have been posted on senate.gov for public access. Our role 
in public records with regard to the LDA is an administrative 
role. We do not have the enforcement authority. That belongs to 
the U.S. attorney of the District of Columbia. But since 2003 
we have referred approximately 2,100 registrants to the U.S. 
Attorney's Office. Virtually all potential nonfiling and a 
handful for noncompliance. I'm particularly grateful for the 
second part of your question, because obviously no one is 
precisely sure at the moment where this journey ultimately 
takes us. And while we're staying on top of the situation I may 
well be back to this subcommittee at the appropriate time to 
make a plea, first of all for time, because if there is 
substantial change that we undergo in the receipt of these 
documents we will need time to implement, and second of all the 
potential for additional resources exists.
    But I think with your permission if we could continue to 
stay in touch on this as this issue evolves we would be very 
grateful.
    Senator Allard. Yes. As we get a clearer view of what the 
legislation might look like, we do want to stay in touch with 
your office in that regard.
    Ms. Reynolds. Thank you, that would be very helpful.

                       STUDY OF SENATE STAFF PAY

    Senator Allard. I just have a couple of other brief 
questions just for the record. Last year your office received 
funds to conduct a pay study of Senate employees, and can you 
tell me what the status of this study is?
    Ms. Reynolds. The study is in draft form. In fact we were 
talking about working groups, we have a working group coming 
together this afternoon with office administrators and chiefs 
of staff to review our first draft. So it is in process, and 
hopefully we'll have the study out to the community here within 
the next month.
    Senator Allard. Good.
    Ms. Reynolds. I appreciate you asking the question too, if 
I might make one plea to those watching today. For the study to 
be effective and for it to produce the kind of results that the 
community is hoping for in terms of looking at hiring 
practices, benefits, salaries and so forth, we need as much 
participation as possible. So thanks for mentioning it today, 
so I can make my plea to our Senate offices to help us with 
this survey.

               FEDERAL ELECTION COMMISSION ONLINE FILING

    Senator Allard. And finally, if the Senate moves to online 
Federal Election Commission (FEC) filing, for campaign 
committees, what resources will your office need to make this 
conversion? Would you comment on that?
    Ms. Reynolds. Yes sir. Like most everything else around 
here, we're poised to act when the Senate acts, but I think on 
this one, just like with lobbying disclosure if there is 
substantial change coming our way, and if the Senate decides to 
move to e-filing, we will need time. A minimum of 6 months and 
possibly up to 1 year to be able to implement the program and 
there will be a need for additional resources. We're still 
looking at those numbers and some are dependent on what 
hardware, what software needs we'll have at that time. So again 
so I may be back hat in hand depending on those decisions made.
    Senator Allard. Your main demand would be for basically 
hardware to process the electronic filing?
    Ms. Reynolds. Right. Hardware----
    Senator Allard. But it seems to me you would need fewer 
people, because you wouldn't have to have that data entry that 
you have.
    Ms. Reynolds. Possibly, but we're a pretty lean and mean 
operation in public records right now. I think our total staff 
there right now, is nine. And for example on lobbying 
disclosures there are three people on a daily basis dedicated 
to lobbying disclosure but when those reports start to hit in 
mid-February, mid-August, everybody helps out. So we'd be happy 
to take a look at that, as I said, we run a pretty lean and 
mean shop with folks who are capable of multitasking when the 
need arises.
    Senator Allard. Just asking you to look at it carefully.
    Ms. Reynolds. We shall.
    Senator Allard. I'm sure you will.
    Ms. Reynolds. Thank you.
    Senator Allard. Thank you for your testimony. We don't have 
any other questions from the subcommittee, and so we won't tie 
up your time, I know you're busy and I'll call up the second 
panel.
    Ms. Reynolds. Thank you sir.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        STEPHEN AYERS, CHIEF OPERATING OFFICER
        MARK WEISS, DIRECTOR, CAPITOL POWER PLANT

                           WELCOMING REMARKS

    Senator Allard. Okay. Now we turn to the second panel. And 
before I make my formal remarks. I just want to recognize Mark 
Weiss who's now our new Director of the Capitol Power Plant, 
and Mark, welcome. And now, we'll turn to the Architect of the 
Capitol, to review the fiscal year 2007 budget request. Again 
welcome Mr. Hantman and Chief Operating Officer Stephen Ayers. 
Mr. Ayers was named Chief Operating Officer on Monday.
    Mr. Ayers. Yes sir.
    Senator Allard. You've been in the position on an acting 
basis for several months and I think you did a good job then.
    Mr. Ayers. Thank you.

                    FISCAL YEAR 2007 BUDGET CONCERNS

    Senator Allard. We congratulate you on this new position 
and wish you the best of luck. The AOC budget request totals 
$588 million, an increase of $164 million or 38 percent, over 
the current budget. This is the largest increase proposed by 
any Federal agency for the fiscal year 2007. While I commend 
the process your agency has developed, you prioritized major 
construction projects, clearly we need to do some paring back. 
There are a number of large projects in the budget, including 
$54 million for a new Library of Congress warehouse at Fort 
Meade, $20.6 million to complete the Capitol Visitor Center, 
$19 million for renovations to the infrastructure and the 
Dirksen Senate Office Building, and $15.9 million to replace 
the fire alarm system in the Hart Senate Office Building. Other 
large increases in the budget include $20 million for 91 new 
employees for the CVC operation, and a $10 million increase for 
information technology projects.

                 SAFETY HAZARDS IN THE UTILITY TUNNELS

    While these projects may be meritorious, and urgently 
needed, we will need to scrub each of them carefully and only 
fund the very highest priorities. In addition to budget issues, 
we'd like to discuss the complaint recently filed by the Office 
of Compliance for AOC's failure to comply with the citation 
issued almost 6 years ago directing the AOC to correct serious 
safety hazards in the utility tunnels by 2002. This is the 
first time the Office of Compliance has issued a complaint, 
demonstrating the magnitude of this very serious problem. The 
hazards include structural deficiencies that could lead to 
cave-ins, inadequate communication systems for workers in the 
tunnels, and inadequate means of egress.
    Finally we look forward to an update on projects that are 
currently underway as well as your efforts to address 
management challenges identified by the Government 
Accountability Office. Before I turn to you for your testimony 
Mr. Hantman, I want to ask the ranking member who just arrived 
if he has any comments.
    Senator Durbin. Mr. Chairman I apologize, we have an 
immigration bill markup in Judiciary, one floor above and I've 
spent time back and forth, and I'm sorry that I came in late 
for this. I want to get into the whole question about the 
safety aspects of the workplace at CVC and particularly this 
troubling report about the presence of asbestos in the tunnels 
and the danger that it creates for the employees that could be 
inhaling these lethal time bombs. I was not aware of how 
serious this was, or how long it had been pending for a 
resolution. I think it should have been taken care of years 
ago. I don't know how many workers have been exposed, if any--I 
pray to God none. But if they have we've done them a great 
disservice. I thank you for your continuing oversight on this 
project and I will stay to ask some specific questions as time 
allows.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Thank you, Mr. Chairman, for scheduling today's second budget 
oversight hearing of fiscal year 2007 where we will hear testimony on 
the budget requests of the Secretary of the Senate and the Architect of 
the Capitol.
    I want to join the Chairman in welcoming today's witnesses, Emily 
Reynolds, Secretary of the Senate, and Alan Hantman, Architect of the 
Capitol.
    Thanks to both of you for attending this morning.
    Ms. Reynolds, welcome back to the subcommittee for your fourth year 
as Secretary of the Senate. I think that you and your staff are doing a 
superb job and your budget request looks very straightforward.
    My staff and I greatly appreciate your guidance and leadership in 
the CVC decision-making progress. I realize that this has been a long, 
difficult, and at times frustrating process. Your dedication and 
determination are very admirable.
    I would appreciate any comments you might wish to include with 
regard to the CVC.
    Mr. Hantman, first of all I would like to acknowledge the 
outstanding day to day work of all of your employees. I think it's easy 
to overlook the hard work that goes into the seamless running of this 
complex on a daily basis. This is a very well qualified and hard-
working group of men and women and I appreciate their contribution to 
this complex. I think we should all extend our gratitude to them for 
their service. I would like to especially thank Carlos Elias, Don 
White, Barbara Wolanin, and Adrienne Powers, of your staff for their 
extra efforts on behalf of my staff in the Assistant Democratic 
Leader's office.
    I would like to welcome Mr. Stephen Ayers, who has just been named 
as Chief Operating Officer at AOC. Mr. Ayers has been serving as Acting 
COO for quite some time and I'm glad to see that he will be serving in 
this capacity permanently.
    Mr. Hantman, I am encouraged by the overall progress your office is 
making in the area of worker safety. However I am deeply concerned 
about the situation involving the workers in the utility tunnels. The 
OSHA complaint recently filed by the Office of Compliance citing 
``potentially life threatening working conditions'' in the utility 
tunnels that provide steam and chilled water throughout the Capitol 
complex presents a situation that must be addressed immediately.
    This situation was first brought to your attention in 2000. 
However, since then, it appears that very little has been done to 
address the very serious problems that exist in these tunnels.
    I am particularly troubled by the presence of asbestos in the 
tunnels. I have met with so many families who have been affected by 
asbestos-related illnesses in my work outside of this subcommittee. 
When these workers are inhaling these fibers they are inhaling time 
bombs. I doubt the workers in these tunnels realize how serious this 
situation is.
    I hope you will update the Subcommittee on the steps you are taking 
to expedite the repair of these tunnels. Chairman Allard and I recently 
granted you the authority to reprogram $1.8 million for a portion of 
this work and I think that's a step in the right direction. But this 
situation must be completely resolved as soon as possible so that these 
workers' lives are not put in jeopardy by merely doing their jobs. 
Frankly, it should have been taken care of years ago.
    Last month in their report entitled, ``Architect of the Capitol--
Management Challenges Remain,''--GAO noted that you have still not 
filled several leadership positions on your staff such as Chief 
Financial Officer, Chief Administrative Officer, Director of 
Congressional and External Relations, and Director of Planning and 
Project Management. I am glad that you recently filled the long-vacant 
position of Director of the Capitol Power Plant. However, I hope you 
will explain to the subcommittee when you plan to fill these other 
crucial positions.
    Finally, Mr. Hantman, Chairman Allard has already summarized your 
fiscal year 2007 budget request so I won't repeat the details. I do 
want to emphasize, however, the importance of prioritizing your 
requests. It troubles me to see a $54 million request for a Library of 
Congress construction project while very serious repair and maintenance 
problems exist around the complex. In a time of tight budget 
constraints such as this, new construction projects should have to take 
a back seat to important maintenance and repair needs that continue to 
lag on around this complex.
    Thank you Mr. Chairman.

    Senator Allard. Okay, let me now turn to the Architect of 
the Capitol, Mr. Hantman, we're looking forward to your 
testimony.

                  SUMMARY STATEMENT OF ALAN M. HANTMAN

    Mr. Hantman. Good morning, Mr. Chairman, Senator Durbin, 
thank you for the opportunity to testify today, regarding our 
fiscal 2007 budget request. My full statement has been 
submitted for the record, however I would like to give a brief 
overview of this request. Mr. Chairman in our role as stewards, 
the AOC is responsible for 15 million square feet of buildings, 
and more than 300 acres of land. The Capitol complex is in 
reality a small city; however it's a small city with an aging 
physical infrastructure, ever stricter codes and safety 
criteria to meet, as well as complex security requirements.
    Our buildings range from 25 to 200 years old. This means 
that there are many projects that require our attention to 
assure that these buildings continue to serve as functioning 
working environments and that we preserve these national 
treasures entrusted to our care for generations to come.
    Mr. Chairman we did not prepare this budget in a vacuum, 
unaware of the economic issues our country and this Congress 
are facing. I can appreciate the tough choices that this 
subcommittee must make as you hear from each legislative branch 
agency with its budget request. I can appreciate this because 
it's difficult for me to rank the relative needs and benefits 
of necessary security and fire and life safety projects needed 
across the Capitol campus.
    How do I weigh the needs of the Library of Congress against 
those of the Capitol Police, or the Senate Sergeant at Arms 
against those of the Chief Administrative Officer of the House? 
The AOC is in the position of being a repository, if you will 
Mr. Chairman, for the needs of other agencies. They all have 
real needs that the AOC then becomes responsible for, and our 
budget request reflects these cumulative needs.
    Our projects were prioritized through a progressive 
sequence of steps to determine which are most crucial. While 
it's my responsibility as steward of these buildings to bring 
these needs and issues to Congress' attention, I'm also aware 
that cuts will need to be made, as you mentioned Mr. Chairman, 
from that prioritized list. And I'm prepared to work with this 
subcommittee and other legislative branch agencies to determine 
which cuts to make so that we fit within the overall budget 
structure that this subcommittee ultimately allows.
    Mr. Chairman, we prioritize our projects based on a set of 
criteria that allows us to evaluate the merits of those 
projects. Facility condition assessments conducted across most 
of our jurisdictions measure the current condition of all 
facilities to assess how much work is necessary to maintain, or 
upgrade their conditions to acceptable levels, and to determine 
the timeframe for this work. We hope to initiate this process 
at the Library of Congress, contingent on the approval of our 
budget request, so that we fully understand their facility 
needs as well. We'd then be able to appropriately prioritize 
their project needs based on the same criteria used for other 
jurisdictions.
    In fact Mr. Chairman, the direction to perform condition 
assessments was given, and appropriately so, by this 
subcommittee back in 2002. And if I may quote from that 
language.

    ``Condition Assessments Master Plan. The Committee has 
provided an amount of $500,000 in the Capitol buildings 
appropriation and an amount of $1,100,000 in the Senate Office 
Building appropriation to initiate a comprehensive condition 
assessment of the Capitol complex. The assessment will be 
conducted in tandem with the development of a master plan for 
the Capitol complex and will include the collection of relevant 
information regarding buildings, inspection and equipment 
testing of properties and assets. Analysis and identification 
of deficiencies, identification of solutions, and costs, a 
forecast of future renewal requirements, and the development of 
long range comprehensive financial plans.''

    Mr. Chairman, we've been working diligently to fulfill the 
directives and develop meaningful information which, in fact, 
GAO has reviewed. It's important to note that according to the 
Government Accountability Office ``While the FCAs--the facility 
condition assessments, have enabled AOC to develop a 
comprehensive plan for facilities, maintenance, and building 
renewal, the assessments have also documented the magnitude of 
AOC's deferred maintenance and other projects. $2.6 billion 
over 9 years, and the challenge of funding these projects.''
    Mr. Chairman, GAO's statement about ``the challenge of 
funding these projects'' is right on target. In a no-growth 
budget environment it's, of course, particularly challenging. 
With all due respect, if these facility infrastructure needs 
are not addressed within an appropriate timeframe, our 
buildings will continue to age and deteriorate and the cost to 
correct these deficiencies will continue to escalate in future 
years.
    With regard to safety, it's a priority at the AOC, 
therefore I'm pleased to report that for the fifth year in a 
row, the AOC's injury and illness rate decreased. Last year we 
dropped to 5.65 from a high of 17.9 in fiscal year 2000. This 
is amazing because we're coming down to the level of many white 
collar organizations in the Federal agencies as well as across 
the Government.
    While I'm proud of these accomplishments, I will not be 
satisfied until we achieve our ultimate goal of a workplace 
free of injury and illness. This includes the steam tunnels 
that were the subject of the Office of Compliance's complaint 
you discussed. Over the past several years, in the tunnels, we 
have rebuilt approximately 600 feet of tunnel roof under 
Constitution Avenue, at a cost of approximately $5 million. I 
think you might remember, Mr. Chairman, that for over 1 year 
the street on Constitution Avenue was ripped up. We had to 
replace the roof of that tunnel, that's one of the first items 
identified by our surveys that really needed to be taken care 
of up front.
    We also contracted for the inspection of 19 tunnel egress 
points, developed an egress improvements work plan, replaced 
the South Capitol Street steam line, for another $5.5 million 
and that included making structural repairs to manholes.
    We also implemented the in-house tunnel condition 
monitoring program last October which includes monitoring, 
recording and reviewing tunnel conditions daily. While this 
work was being planned and implemented, we have been working 
each year to remove spalls in areas where the concrete ceiling 
is damaged. We installed a leaky cable communication system in 
the major pathways in the tunnels. We currently have funding to 
install cable in the small stub pathways that come off the main 
tunnels. We are proceeding with that work and will get it done 
within the next months. We also provided our employees with 
confined space and asbestos awareness training.
    Mr. Chairman, we've requested $1.75 million in the 2007 
budget to fund priority projects in the tunnels. We've received 
approvals on a $1.8 million reprogramming to continue 
additional structural repairs, asbestos abatement, and 
emergency egress repairs. Significant additional funding will 
be required and we're working to determine the magnitude of 
that funding now.
    In conclusion, Mr. Chairman, as GAO noted in its February 
2006 report, we have made significant progress in our 
transformation into a more strategic organization. They state 
that the AOC has made progress in developing safety policies 
and establishing a safety training curriculum; has implemented 
a variety of communication methods to convey information to 
employees; has taken important initial steps to address the 
management and structure needed to establish a sound IT 
investment management process; has created a clearly defined, 
well documented and transparent process for evaluating and 
prioritizing projects. We're committed to fulfilling our 
responsibilities over the long term, although that means we 
have to make tough choices, as you indicated Mr. Chairman, with 
regard to how we select and prioritize our projects.
    Our request for funds in 2007 is directly related to our 
responsibility as good stewards to maintain and preserve the 
facilities and national treasures in our care. I'm very proud 
of our 2,000 dedicated AOC professionals and I'm privileged to 
lead this remarkable organization.

                           PREPARED STATEMENT

    I greatly appreciate the subcommittee's support in helping 
us achieve our goals, and once again thank you for this 
opportunity to testify, and I'd be happy to answer any 
questions that you might have.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, Senator Durbin, members of the Committee, thank you 
for the opportunity to testify today regarding our fiscal year 2007 
budget request. This request is structured to enable us to continue 
supporting the Legislative Branch by ensuring that the Capitol complex 
is safe and well maintained, our national treasures are preserved and 
protected, and we continue to provide high quality, efficient, and 
effective services to our customers.
                 stewardship and prioritizing projects
    In our role as stewards, the Office of the Architect of the Capitol 
(AOC) is responsible for some 15 million square feet of buildings and 
more than 300 acres of land. The Capitol complex is, in reality, like a 
small city. However, it is a small city with an aging physical 
infrastructure. Our buildings range from 25 years old for the Library's 
Madison Building, to more than 100 years old for the Russell, Cannon, 
and Jefferson buildings, to 200 years old for various parts of the 
Capitol Building. This means that there are many potential projects 
that call for our attention to ensure that these buildings continue to 
serve as functioning working environments for generations to come.
    While it is my responsibility to bring these issues to Congress's 
attention, it is obvious that for practical considerations of 
construction and fiscal restraint, we must spread out the funding and 
physical workload over the course of multiple years. Therefore, we have 
prioritized these projects to determine which are more critical than 
others. In previous budget requests, my focus has been on ensuring that 
fire and life-safety deficiencies were corrected. With your support we 
have devoted significant resources toward protecting the people who 
work and visit Capitol Hill by continually working to improve the 
safety and security of our facilities. Protecting people is, and will 
continue to be, my top priority as evidenced by the number of fire and 
life-safety projects in our current budget request.
    While developing this budget, we reviewed many annual operating and 
capital project requests. We made difficult choices regarding funding 
AOC operations, new programs, and high priority capital projects, while 
at the same time balancing the day-to-day needs of those we serve.
    As a result, before we submitted our current request, we removed 
$44.3 million worth of important projects. The $588.3 million we have 
requested for fiscal year 2007 ($509.4 million without items specific 
to the House) was submitted in our role as responsible stewards of our 
national treasures and in support of the needs of Congress, while 
balancing requests for new initiatives.
    It is important to note that we prioritize our projects based on a 
set of objective criteria that allow us to evaluate the relative merits 
of each of these projects. At Congress's direction, starting in 2004, 
we conducted a series of Facility Condition Assessments (FCAs) in most 
of our jurisdictions. We hope to continue the process with the Library 
of Congress, contingent on the approval of our fiscal year 2007 budget 
request. Our plan would be to survey the Library Buildings, in phases, 
beginning with the Madison Building. By completing FCAs for the Library 
of Congress buildings, we would fully understand their existing 
facility needs and would then be able to appropriately prioritize LOC 
projects with the same criteria used for other jurisdictions. These 
FCAs provide us with a method for measuring the current condition of 
all facilities in a uniform way to assess how much work is necessary to 
maintain or upgrade their conditions to acceptable levels to support 
organizational missions and when this work should occur.
    According to the Government Accountability Office (GAO) in its 
February 2006 report to Congress, ``While the FCAs have enabled AOC to 
develop a comprehensive plan for facility maintenance and building 
renewal, the assessments have also documented the magnitude of AOC's 
deferred maintenance and other projects--$2.6 billion over nine years--
and the challenge of funding these projects.'' What this $2.6 billion 
breaks down into is a total of $886 million for deferred maintenance 
and capital renewal projects as identified in the FCAs (excluding the 
Library of Congress and the Supreme Court), with the remaining balance 
identified for capital improvements ($1.1 billion) and capital 
construction projects ($69 million). Mr. Chairman, GAO's statement 
about ``the challenge of funding these projects'' is right on target. 
In a no-growth budget environment, it is particularly challenging. If 
these facility infrastructure needs are not met in appropriate 
timeframes, the conditions of our buildings will continue to 
deteriorate and the cost to correct these facility maintenance 
deficiencies will continue to rise.
    A very recent example of capital renewal is demonstrated by the 
issuance of a complaint by the Office of Compliance (OOC) regarding the 
utility tunnels which provide steam and chilled water to the Capitol 
complex. We are taking a comprehensive approach to addressing the 
existing issues in the tunnels and are identifying a logical sequence 
to the necessary actions that will be taken. We have presented this 
plan to the OOC. Over the past several years we have completed these 
and other tasks in the utility tunnels: replaced the top of 
approximately 600 feet of the tunnel under Constitution Avenue at a 
cost of approximately $5 million; contracted for inspection of 19 
tunnel egress points and developed an Egress Improvements Work Plan; 
replaced the South Capitol Street steam line and vault for 
approximately $5.5 million which includes making structural repairs to 
manholes. We have also implemented an in-house Tunnel Condition 
Monitoring Program in October 2005 which includes monitoring, 
recording, and reviewing tunnel conditions daily; and we have been 
continually working to remove incipient spalls in areas where the 
concrete ceiling is damaged.
    We have requested $1.75 million in the fiscal year 2007 budget to 
fund priority projects involving the tunnels. We recently received 
approvals from the Senate and House on a $1.8 million reprogramming 
request to continue additional structural repairs, asbestos abatement, 
and emergency egress repairs in the tunnels. Additional significant 
funding will certainly be required and we are working to determine the 
magnitude of that funding now.
                        overall planning process
    In terms of our overall planning process, when all of the Facility 
Condition Assessments are completed, they are rolled into a five-year 
Capital Improvement Plan (CIP). The CIP, which became fully integrated 
in the fiscal year 2006 budget process, is used to evaluate projects 
based on an objective set of criteria, including:
  --Fire and life safety, code compliance, regulatory compliance, and 
        statutory compliance.
  --Preservation of historic or legacy elements or features of 
        buildings or entire historic structures as a reflection of the 
        importance of stewardship responsibilities.
  --Impact on our mission, including client urgency.
  --Economics, including value, economic payback, life cycle cost 
        considerations, and cost savings.
  --Physical security, including protection of facilities, Members, 
        staff, and the general public.
    The projects are further evaluated based on necessary timeframes 
and on an evaluation of the conditions of the components and sub-
materials. These condition ratings are characterized as one of the 
following: Adequate, sub-standard, and deficient.
    They are then further rated as to the urgency in accomplishing them 
as follows:
  --Priority 1--Immediate: Safety or code violations, as well as 
        critical equipment that is either not functioning or close to 
        failure.
  --Priority 2--High: Items need attention in the near term, as failure 
        would impact the mission. Implemented within two to four years.
  --Priority 3--Medium: Implemented within five to seven years.
  --Priority 4--Low: Low priority projects related to aesthetics or 
        minor performance issues. Implemented within 8 to 10 years.
    All projects with an ``immediate'' urgency are given priority over 
projects for which the urgency is ``high'' and so on. Additionally, 
``deferred maintenance'' projects are generally considered a higher 
priority than ``capital renewal.'' Using the CIP process, once all of 
the FCAs are complete, we will be able to comparatively vet the 
projects to ensure that the most urgent get addressed most quickly. It 
is this multi-step methodology that has been used to produce the fiscal 
year 2007 Capital Improvement Project Priority List that we submitted 
for your consideration. Those projects that can be accommodated within 
the budget level that is ultimately approved will move forward in 
fiscal year 2007.
    There will continue to be refinements to our project development 
process. However with implementation of the prioritization process, 
future program submissions will clearly be based first on the urgency 
of accomplishing the project, followed by consideration as to the type 
of project and its importance; with emphasis placed on deferred 
maintenance projects. These changes will result in an efficient and 
effective process and one that seeks to assure accuracy, responsible 
management of resources, and efficient development of programs.
    Ultimately, the Capitol Complex Master Plan will ensure that we 
continue to be good stewards by establishing a framework that helps us 
prioritize the maintenance, renovation, and construction of Capitol 
Hill facilities over the next 5, 10, and 20 years, while also spreading 
out the costs of that upkeep and construction.
    In addition to these new processes we have made changes to our 
organizational structure to improve how these projects are carried out. 
With Congress's approval, we established the Project Management 
Division which is charged with consolidating project and construction 
management functions to provide ``cradle-to-grave'' oversight of our 
projects. We have developed and implemented new processes that are 
designed to improve project tracking and reporting as well as to hold 
our consultants and contractors accountable for contract compliance. We 
recently reinstated our quarterly report to communicate the budget and 
schedule status of ongoing projects, the latest of which was delivered 
to the Senate and House Appropriations Committees in January and was 
well received by staff.
                        capital projects budget
    Our fiscal year 2007 budget is comprised of two major components: 
$232 million for capital projects and $356.3 million for our annual 
operating budget.
    The capital projects budget request consists of $193.4 million for 
capital projects, $22.7 million for studies, designs, and condition 
assessments, and $15.9 million for minor construction. This budget was 
developed by prioritizing our project requirements; including those 
requested by our customers. Using this set of criteria, we were able to 
cut our initial list of 36 projects totaling more than $188 million to 
19 projects worth $143.7 million. However, the projects that did not 
make this current list have not gone away, nor has the need to fund 
them within reasonable timeframes. They will have to be reprioritized 
for another fiscal year where they will again compete with other 
significant, additional projects for available funding.
    The capital projects budget is grouped into the categories listed 
below (also shown in Attachment A). Note that these include a number of 
U.S Senate projects that have been designed to be completed in phases 
that we hope to continue next year. They include public restroom 
upgrades, modular furniture replacement, emergency generator 
installation, and fire alarm system upgrades.
Deferred Maintenance--$30.4 million
    Maintenance or repair work on existing facilities and 
infrastructure that is past due and should not be deferred. This work 
will return a component or system to an acceptable condition. It will 
prevent physical depreciation or loss in the value of a building (this 
does not include preventative or routine maintenance).
    Projects include:
  --$19.43 million--Dirksen Senate Office Building; attic 
        infrastructure improvements;
  --$4 million--Rayburn House Office Building; 480v Switchgear and 
        Transformer Replacement;
  --$2.89 million--Thomas Jefferson Building; air handling unit 
        replacement; and
  --$2.56 million--Thomas Jefferson and James Madison Buildings; 
        elevator modernization projects.
Capital Renewal--$24.3 million
    Correct unacceptable conditions caused by aged building components 
that will exceed their useful life within the next 10 years. If 
deferred for an inordinate amount of time, physical conditions may 
deteriorate and become a deferred maintenance issue. Capital renewal 
may be performed by overhaul, reconstruction, or replacement of 
constituent parts damaged or deteriorated to the point where they 
cannot be maintained.
    Projects include:
  --$15.95 million--Hart Senate Office Building; fire alarm system 
        replacement; and
  --$8.34 million--Longworth House Office Building; kitchen exhaust 
        system upgrade.
Capital Improvement--$41.1 million
    Work done to a building that improves, enhances, or updates a 
building such as an addition, expansion, alteration, or replacement 
including work done to bring a building into compliance with current 
codes.
    Projects include:
  --$6.1 million--Russell Senate Office Building; emergency lighting 
        and power upgrade;
  --$4.96 million--Rayburn House Office Building; emergency lighting 
        upgrade;
  --$3 million--Rayburn House Office Building; Phase I public restrooms 
        upgrade;
  --$3.5 million--U.S. Capitol; security improvements in the House 
        Chamber; and
  --$4.37 million--Thomas Jefferson Building; sprinkler system 
        replacement.
Capital Construction--$63.7 million
    Construction of a new building, facility, or other infrastructure 
where none previously existed.
    Projects include:
  --$54.2 million--Library of Congress Logistics Warehouse, Fort Meade;
  --$5.35 million--Alternate Computer Facility; vehicle storage 
        facility; and
  --$4.1 million--U.S. Capitol Police; kiosks.
Other Projects--$12.3 million
    Projects necessary to sustain and provide for Congressional and 
Legislative Branch Agency mission requirements that do not meet CIP 
criteria (construction projects greater than $250,000).
    Projects include:
  --$5 million--Alternate Computer Facility; land purchase; and
  --$2.1 million--Energy Survey of Congressional Buildings.
Study, Design, and Condition Assessments--$22.7 million
    Activities necessary to plan for future projects.
    Projects include:
  --$1 million--James Madison Building; Facility Condition Assessment;
  --$3 million--FDA; fit out design study;
  --$750,000--Longworth House Office Building; fire alarm system 
        upgrade;
  --$700,000--U.S. Capitol; electrical distribution system replacement 
        design; and
  --$300,000--Cannon House Office Building; egress improvements study.
Minor Construction--$15.9 million
    Minor construction funding for each jurisdiction that provides the 
flexibility for meeting unplanned project requirements generated by 
Committees, Members, staffs, and other AOC clients.
Capitol Visitor Center--$21.6 million
    The fiscal year 2007 budget request includes $20.6 million for CVC 
cost-to-complete. Also included is $1 million for start-up and 
operational costs associated with opening the CVC, including one-time 
costs such as furniture, equipment, computers and other necessary 
items. GAO's ongoing analysis recommends adding $5 million to this 
amount to accommodate risk for further time extension and contingency 
for a total of $25.6 million for project cost-to-complete.
    While recognizing that the cumulative effect of the projects listed 
above represent a significant increase over fiscal year 2006 levels, 
these projects were considered our highest priorities. Although hard 
decisions were made to reduce the amount of our overall request, 
further cuts will likely be necessary to accommodate Federal budget 
limitations. Once again, this means that the projects that are 
eliminated will be deferred to successive years where they will again 
compete with other additional, significant projects for available 
funding.
                        annual operating budget
    Our fiscal year 2007 annual operating budget request of $356.3 
million reflects the addition of significant mandatory price level 
increases as well as new programs.
    The key drivers of this increase include:
  --Forty percent growth in utility costs over fiscal year 2006 enacted 
        levels due to the recent deregulation of electric power and the 
        increased cost of natural fuels following the devastation in 
        the Gulf Coast caused by Hurricane Katrina last summer.
  --Mandatory payroll increases and the addition of 91 FTEs to support 
        daily operations and maintenance of the Capitol Visitor Center 
        (CVC).
  --One-time CVC operations costs to purchase furniture, equipment, 
        computers, and other necessary items.
  --Re-establishing Information Technology base resources and upgrading 
        systems.
  --Leases and/or maintenance and operations of additional facilities.
Utilities
    With regard to utilities, in an effort to offset cost increases, we 
have initiated a number of energy conservation measures. The first was 
to develop two Energy Savings Performance Contracts to upgrade 
equipment and save energy, at no additional cost to the government. 
Contractors are paid from proven energy savings. Other efforts involve 
developing a five-year plan to conduct energy audit surveys of all 
buildings on the Capitol campus, and publishing a brochure about saving 
energy throughout the Capitol complex to be distributed to Hill staff.
    In addition, the Capitol Power Plant staff has successfully 
completed a number of new maintenance projects to improve the 
performance, safety, and reliability of the boiler house and chilled 
water plants. As part of the West Refrigeration Plant Expansion 
Project, three new chillers became operable in November 2005. With the 
addition of this new equipment, we will experience greater efficiencies 
at the Plant and remove old mechanically and environmentally outdated 
machines.
CVC Day-to-Day Operations
    In anticipation of the start-up and operational costs associated 
with the Capitol Visitor Center, our annual operating budget request 
includes funds to cover day-to-day operational and maintenance 
requirements as well as anticipated one-time costs such as furniture 
and equipment, computers, and other necessary items. Until such time as 
the Congress decides the issue of reporting relationships and 
governance of the CVC, we have included these costs in the AOC's 
budget, including $10.6 million for payroll costs associated with the 
hiring of an additional 91 FTEs.
Information Technology
    Another factor driving our operating budget request for fiscal year 
2007 is an increase in investment in information technology. In our 
fiscal year 2006 budget request, we had cut the base resources in an 
attempt to constrain growth. Our intention was to fund information 
technology program shortfalls with lapses in payroll or other general 
and administrative areas, but that strategy has not worked well in the 
current fiscal environment due to rising costs of utilities and other 
expenses. Therefore, we are requesting $25.7 million to re-establish 
these base resources and to protect our IT systems by installing the 
latest technology security programs as required, preparing for future 
technological needs, and improving internal operations by replacing our 
project information system and upgrading the interface of our inventory 
control system to our financial system.
    The February 2006 GAO Report notes that ``the agency has yet to 
establish and implement key information security practices, such as 
completing risk assessments on all of its major applications, 
documenting the identified risks in system security plans, and 
developing and implementing appropriate security controls to mitigate 
the risks--including developing contingency plans for all systems and 
applications. Until AOC completes and implements plans for improvement 
that are consistent with all our recommendations, it will be challenged 
in its ability to effectively use IT to optimize mission performance.'' 
Updating our IT systems is a crucial part of achieving these tasks as 
outlined by GAO.
                  senate office building improvements
    A number of projects that we have requested funding for in next 
year's budget for the Senate Office Buildings focuses on upgrading and 
replacing equipment that has exceeded its useful life expectancy or 
updating the historic buildings to meet modern requirements. For 
example, we are requesting $19.4 million to replace the air handling 
units in the Dirksen Building to improve building ventilation and to 
ensure the system's reliability since the existing equipment is more 
than 40 years old and inefficient. We have also requested $6 million to 
upgrade emergency lighting in the Russell Building; $15 million to 
upgrade the fire alarm system in the Hart Building; and $5.8 million to 
install an emergency generator in the Russell Building to provide 
electrical power in an emergency.
                     capitol visitor center budget
    While most of our projects are worked on behind the scenes, 
underneath the East Front of the U.S. Capitol work is proceeding on the 
largest and most complex project in the history of the Capitol--the 
Capitol Visitor Center. Our fiscal year 2007 budget request would fund 
CVC operations, administration, facility maintenance, and construction 
cost-to-complete. The requested funding also would support the required 
activities and programs for transitional and start-up costs, exhibits, 
gift shops, telecommunications, and information technology 
infrastructure support. The Capitol Preservation Commission (CPC) 
supports the AOC's request for operational funding as an interim 
measure until it is determined how, and by whom, the CVC will be 
operated.
    At our February hearing before this Subcommittee, we testified that 
we are now anticipating the CVC to be completed, including 
commissioning of life-safety systems, in March 2007, and available for 
a formal opening in April 2007. We reported the two key issues 
prompting that time extension are the delays in the delivery and 
installation of interior stone due to a court injunction and a longer-
than-expected duration for the fire and life-safety acceptance testing 
process.
    The project schedule extension has impacted the overall project 
cost-to-complete. Last fall, we concurred with GAO's assessment that 
potential risks do exist and that additional funds would be necessary 
should these risks turn into reality; most notably if completion of the 
CVC occurred after December 2006, or if significant additional change 
orders were required. After meetings held the past several months with 
GAO and our construction manager, Gilbane, we anticipated that the 
delay, along with additional change orders and the potential for future 
project risks, could increase the project's cost-to-complete by 
approximately $20.6 million. This is the amount we requested in the 
fiscal year 2007 budget. GAO's ongoing review however, has resulted in 
a revised estimate of the cost-to-complete which adds approximately $5 
million to this amount for risk, further time extension, and 
contingency. Accordingly, Mr. Chairman, if you concur, we will work 
with you to effect this adjustment in order to ensure that there are 
adequate contingencies as we work to complete the CVC.
    Further information on the status of the project and a construction 
update is provided in my testimony specifically addressing the Capitol 
Visitor Center which will be discussed following this portion of the 
hearing (attached).
                            accomplishments
    Over the past 10 years, the AOC has been undergoing a 
transformation into a more strategic organization by implementing new 
policies and procedures, while at the same time continuing to meet our 
responsibilities as good stewards. I appreciate the efforts of AOC 
employees in balancing their heavy workloads with implementing these 
important changes to our organization.
    At this time, I would like to highlight some of the major AOC 
accomplishments of the past year. As GAO has noted in its February 2006 
report, we have made significant progress in our transformation 
efforts, we continue to make progress, but the ``transformation is a 
long-term effort.''
Strategic Plan
    A key component in this effort has been the implementation of our 
Strategic Plan in 2003. The Plan has provided us with a blueprint for 
change by defining our mission, vision, and core values and created a 
structure of goals, and objectives through which we focus our efforts. 
As we begin the third year of this five-year plan, it continues to 
evolve. As part of our Strategic Performance Initiative, we are 
developing and implementing meaningful performance measures that will 
be linked to our daily activities and resource requirements. In the 
spirit of the Government Performance and Results Act, we have developed 
an ``AOC dashboard'' document which includes several high-level 
indicators to track performance for each of our strategic goals as well 
as a target goal for each indicator. Our senior leadership team meets 
monthly to monitor these indicators and goals to ensure that we meet 
the milestones we have set in our Performance Plan.
Work Orders
    In fiscal year 2005, we completed nearly 34,200 work orders in the 
Senate Office Buildings. To date, we have completed more than 19,000 
work orders in fiscal year 2006. These are tasks that are requested of 
the AOC rather than programmed by our Agency and the work ranges from 
changing light bulbs, to fixing plumbing, to reconfiguring office space 
and painting. A number of other projects were completed during the past 
fiscal year. For example, we replaced the Rotunda balcony doors and 
installed high voltage switch gear in the Russell Office Building; we 
installed new modular walls and furniture in 10 Hart Building offices, 
and installed new wall sconces in the Dirksen Building. In addition, we 
completed the restoration of three Committee rooms in the Dirksen 
Building and one Committee room in the Russell Building as well as 
upgraded the audio and visual systems in these four rooms.
Special Events
    The U.S. Capitol also was the site of a number of high-profile 
events including the Presidential Inaugural ceremony, which the AOC 
supported by building the platform, contracting for the audio system, 
installing the security fencing and crowd control features, as well as 
removing the snow that fell the night before the event. In October, we 
prepared the Capitol Building for another historic occasion, the lying 
in honor of Ms. Rosa Parks.
National Garden
    This fall, we look forward to the grand opening of the National 
Garden. This project is solely funded by private donations raised by 
the National Fund for the U.S. Botanic Garden. This not-for-profit 
corporation raised the private funds pursuant to Public Law 102-229. It 
the first public-private partnership project for the AOC. Last summer, 
we authorized the third option to be awarded under this contract; the 
construction of the First Ladies Water Garden. Construction on the 
National Garden began in spring 2004 on the base bid which consisted of 
the Rose Garden, Butterfly Garden, Lawn Terrace, and the Hornbeam 
Court. Option one, the landscaped garden path that meanders through the 
site, and option two, the Regional (Mid-Atlantic) Garden were 
subsequently awarded. Construction is scheduled to be completed next 
month and then landscaping and planting will occur on the site through 
the spring and summer. A public opening is scheduled for October.
Decreased Injury and Illness Rate
    For the fifth year in a row, the AOC's Injury and Illness rate 
decreased. We dropped to 5.65 cases per 100 employees in fiscal year 
2005, from a high of 17.9 cases per 100 employees in fiscal year 2000. 
We posted a four percent reduction in our rate while, at the same time, 
we faced the challenges of post-election office moves and an 
Inauguration, in addition to meeting our daily work demands. While I am 
proud of these accomplishments, I will not be satisfied until we 
achieve our ultimate goal of a workplace free of injury and illness. To 
make that goal a reality, we continue to educate and train our 
workforce and assure that our employees have the requisite equipment 
they need to do their jobs safely. We also took action and reduced 
injury and illness rates on the CVC construction site. The rate 
declined from 9.1 in 2003 and 12.2 in 2004, to 5.9 for the first 10 
months of 2005--below the 2003 industry average of 6.1.
Financial Statements
    We have also made great strides in generating more reliable annual 
financial statements. In 2005, we published our first accountability 
report and earned an unqualified opinion for the second consecutive 
year on the AOC balance sheet. Our Office of the Chief Financial 
Officer developed processes and procedures in anticipation of the first 
full audit of the full set of financial statements for fiscal year 
2005.
Employee Feedback Program and Action Plans
    Last year, as part of our strategic planning efforts, we developed 
a comprehensive employee feedback program. As part of that initiative, 
I invited AOC employees to participate in focus groups where they 
identified problems and suggested ways to help us solve them in order 
to improve the organization. Over the past year, we created a series of 
action plans that addressed the issues raised. Specifically, we:
  --Improved internal communication by sharing best practices in 
        customer service AOC-wide.
  --Are establishing basic standards for written communication to make 
        it easier for all employees to read and understand Agency 
        documents. Published a Correspondence Manual and Style Guide 
        for all written documents.
  --Are requiring regular staff meetings and providing training on how 
        to conduct effective staff meetings.
  --Have established AOC-wide Town Hall Meetings.
  --Are including specific training to enhance communications skills in 
        our Leadership Development Program (mandatory for all 
        supervisors).
  --Explained and communicated the Agency mission in an easy to retain 
        slogan: Serving Congress with a Commitment to Excellence.
  --Improved transparency by publishing and explaining approved 
        organization charts and promoting consistency and fairness in 
        workforce classification.
  --Issued AOC policies on Employee Feedback, Performance Evaluation, 
        and Awards and improved general policy knowledge by instituting 
        easy to read one-page summaries explaining these policies.
  --Improved Internal Service Providers' customer orientation, making 
        them more accessible.
Performance Metrics
    Finally, we continue to regularly collect, track, and manage 
operational performance metrics that are linked to our Strategic Plan 
goals through a variety of tools and processes. These tools not only 
help improve communication among AOC managers and staff, but have also 
led to process improvements in several areas. In addition, it has 
helped to improve our communication and outreach to Congressional 
leadership and our oversight committees regarding our performance. We 
continue to work with Congress and GAO to further identify areas for 
improvement while balancing our long-term goals and our day-to-day 
responsibilities.
    I want to thank the Committee for its support without which we 
could not have undertaken these efforts and completed many critical 
projects, continued to provide exemplary services, and assured 
continuity of operations at the Capitol, in the Senate Office 
Buildings, and throughout the Capitol complex.
                               conclusion
    The AOC is dedicated to serving Congress with a commitment to 
excellence.
    In its February 2006 report to Congress, the GAO stated that the 
``AOC has been working for several years to transform itself into a 
more strategic and accountable organization and to improve worker 
safety. This transformation is a long-term effort that involves a 
fundamental change in AOC's culture.'' It also noted that ``AOC 
operates in a challenging environment: the agency must preserve and 
modernize these high-profile, historic buildings while meeting the 
needs of Congress--including its leadership, committees, individual 
members, and staffs--and the visiting public.''
    Since the implementation of our Strategic Plan, GAO writes that:
  --``To strengthen human capital management, AOC had, among other 
        things, linked its employee evaluation system to mission-
        critical goals, established monthly management meetings to 
        share and assess data from employee relations offices, and 
        identified a number of ways to collect, report, and analyze 
        workforce data.''
  --``To improve worker safety, AOC has made progress in developing 
        safety policies, implementing a system to track investigations 
        of incidents and follow up, completing a job hazard analysis 
        process to report hazards, and establishing a safety-training 
        curriculum that fully supports the goals of the safety 
        policies.''
  --``To further improve financial management, AOC is developing an 
        agencywide internal control framework and a cost accounting 
        system, which are essential to improving accountability across 
        all AOC operations.''
  --``To further improve communication with employees, AOC has 
        implemented a variety of communication methods to convey 
        information to employees, including a weekly newsletter on 
        project updates, policy announcements, management and 
        communication tips, and other agencywide messages.''
  --``The AOC recycling program has undergone significant expansion 
        over the past five years, while at the same time becoming more 
        efficient. The program has also been expanded by increasing the 
        number of locations at which recycling is taking place.''
  --``AOC has also taken important initial steps to address the 
        management and structure needed to establish a sound IT 
        investment management process, such as assigning roles, 
        responsibilities, and the authority needed to manage its IT 
        investment portfolio.''
  --``To improve project management, AOC created a clearly defined, 
        well-documented, and transparent process for evaluating and 
        prioritizing projects.''
    Mr. Chairman, my team and I are committed to fulfilling our 
responsibilities over the long-term, although that it means, at times, 
we have to make tough choices with regard to how we prioritize our 
projects or how we manage our clients' expectations. Our request for 
funds for fiscal year 2007 is in direct response to our responsibility 
as good stewards to maintain and preserve the facilities and national 
treasures under our care. In addition, we continue to strive to achieve 
a high level of safety, security, preservation, and cleanliness 
expected across the Capitol complex.
    I am very proud of the dedicated professionals who make up the AOC 
team and I am privileged to lead this remarkable organization. I 
greatly appreciate the Committee's support in helping us achieve our 
goals.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    FISCAL YEAR 2007 BUDGET INCREASE

    Senator Allard. If it's all right, Senator Durbin, I'm 
going to run the time clock on this, I'll take 5 minutes and 
then you can have 5 minutes and I'll do my best to abide by 
that.
    Mr. Hantman, I guess I've had a couple of shocks this 
morning. The first one was somewhat expected, that's the huge 
increase in your budget request. How do you justify an increase 
of this magnitude?
    Mr. Hantman. Mr. Chairman, as I indicated in my statement, 
I really didn't prepare this budget in a vacuum. I recognized 
the difficult financial conditions that the entire Government 
has. When I quoted the direction that I received from this 
subcommittee several years ago, to take a look at the condition 
assessments, I really had to evaluate what my role was as 
steward of these buildings and these treasures here on Capitol 
Hill. What we did is we went through a prioritization process 
which originally included something like 36 projects or so. We 
prioritized them in accordance with the methodology that I 
included in my testimony here. The methodology is an overall 
planning process that takes into account fire and life safety 
codes, preservation of historic and legacy elements, impact on 
our mission, including client urgency, economics, and physical 
security. All of these issues were evaluated. We then looked 
into the issue of rating these projects, whether the condition 
of these projects and the areas that they were meant to serve 
``adequate'', ``substandard'' or ``deficient''. We then further 
rated them as to urgency and accomplishing them in terms of 
immediate, high, medium, et cetera. In coming up with the list 
of 19 projects that survived that list of 36, Mr. Chairman, we 
eliminated some $43 million worth of projects. What we wanted 
to do was actually discuss the criteria, the methodology we 
went through to select these projects.
    I recognize that we have to cut back on the numbers that we 
have over here. But in the spirit of the report that this 
subcommittee directed us to do years ago, to do the 
assessments; I thought it was important to bring forward to the 
subcommittee, the nature, the magnitude of the issues that we 
have building up here on Capitol Hill.
    The more projects we put off, the more projects we have to 
plan for in future budgets. And there are more projects that 
keep coming up in terms of the age of the infrastructure and 
the buildings we have here.
    So I don't presume, Mr. Chairman, to ask more than other 
Federal agencies. I don't presume to go over whatever budget 
cap is realistic in this. I just wanted to make the point that 
basically, if we're going to be good stewards, and fulfill, in 
fact, the mission that this subcommittee gave us years ago, 
that we bring to the attention of the Congress what needs to be 
done and work together to find out how best to do this, how to 
spread it out over the years, and make sure that these 
facilities are good for future generations and that the fire 
and life safety standards are in fact met.

                       UTILITY TUNNEL CONDITIONS

    Senator Allard. I appreciate you laying this all out for 
us. We're just going to have to do some tough priority setting 
as we move forward in this subcommittee.
    The other shock I had was the condition of the utility 
tunnels. I have some pictures here that were taken, apparently 
the inside of the tunnel in some areas, and I'm shocked at the 
amount of crumbling of the structure and the rusting that's 
going on in some of the old pipes. It seems to me we really 
have to get after this. Why isn't this your highest priority? 
And can you give us a better idea of what we may be looking at, 
are we tearing up streets? I'm concerned about safety 
considerations, when we have cement walls that are crumbling, 
asbestos is okay, as long as it's not in a state where it's 
moving, and it's moving. Walls are crumbling. I'm worried about 
the potential of risk to the workers and everyone that happen 
to use that tunnel. I wish you'd comment on that please.
    Mr. Hantman. Thank you Mr. Chairman. Clearly that is an 
issue and there's no doubt that more work is necessary within 
the tunnels. When we first started looking at this, and this 
was well before the citation back in the year 2000. We 
recognized that there were two issues that we needed to deal 
with. One of them was the immediate issue of the condition of 
the tunnel and the workmen who go down there on a daily basis 
to maintain the condition. We recognized that it was a long-
term solution, that we could not rip up all the streets around 
the Capitol complex, we have some 12,000 lineal feet of tunnel 
here. And, in fact, as I indicated before 600 feet of that was 
ripped up on Constitution Avenue as the first priority that was 
identified in this project because of not only the needs in the 
tunnel itself, but also because of the traffic that goes on top 
of that tunnel. Every time we look at the major issues, we 
recognize that there's an awful lot of inconvenience that will 
occur to the Congress, to the Capitol, to our community as we 
rip up streets. Part of the $1.8 million we have in the 
reprogramming will be going toward a design for the next 
section which was almost in as bad shape as the section under 
Constitution Avenue, in front of the Senate Office buildings. 
This is on Second Street, to the south of the Madison Library 
of Congress office building. We're doing a study on it. We 
fully expect that we're going to have disruptions, major 
concerns from the community, from ourselves. We don't control 
the streets under which our steam lines run over there. And 
that would be our next focus as identified in the original 
report. But while we recognize that the major ripping up of 
streets where we've got so many going on right now, as you 
know, East Capitol Street, we have this new steam tunnel going 
in for the Capitol Visitor Center, on South Capitol Street, we 
ripped it up for other steam and infrastructure utility lines. 
We're nearing the completion of that, we're still doing it on E 
Street in front of the Power Plant. How much construction 
fatigue can the Congress take? How much disruption can the 
community take at one time? That's what we have to work out 
with respect to the major projects. And we fully expect as we 
get through our studies on this next section of the ``R'' 
tunnel, as it's called, past the Madison Building, will cost us 
millions of dollars and we'll have to be talking to the 
subcommittee about how that gets funded.
    But the immediate priority was the Constitution Avenue 
tunnel, while these things were being phased over multiple 
years. The plan was never to finish all of this work by the 
year 2002. Past budget requests will indicate that we showed 
tens of millions of dollars in out-years to solve all of these 
problems. Our immediate problem was to make it as safe as we 
could for the people who work there on a day-to-day basis.
    So as we went through the years, each--we installed a leaky 
cable communication system in the tunnels, through the main 
tunnel system as I indicated before. By this summer, we should 
have the small stub tunnels, leading from those main 
communication cables to each building, taken care of as well. 
We implemented emergency shoring and repairs to the tunnels and 
we've done so every year since the year 2000 when this came 
about.
    So people have been going into those tunnels, looking out 
for spalls, taking care of those spalls, so that it is less 
dangerous for the people who go in there. We've also initiated 
three person work teams where one person would stay outside of 
the manhole and two people using their radio communications, 
would go inside the manhole and they would be able to talk 
about things. I met with the tunnel crew last week Mr. 
Chairman, listened to all of the issues that they had, to the 
concerns that they had, and the highest priorities they saw 
which basically amounted to the ``Y'' tunnel, which is where a 
lot of our focus and studies are going into at this point as 
well.
    So we have been trying to move forward on the day-to-day 
life safety while we're planning the long term projects which 
require greater funding and have a greater impact on the 
community.
    Senator Allard. Let me call on my colleague, Senator 
Durbin. I know he is shocked as I am at the condition of those 
tunnels and I think he's got some questions he wants to ask in 
that regard.

                     OFFICE OF COMPLIANCE COMPLAINT

    Senator Durbin. Thank you very much. Mr. Hantman, this is 
unprecedented is it not, that the Office of Compliance would 
file a complaint against the Architect's Office?
    Mr. Hantman. That's my understanding, sir.
    Senator Durbin. And it's been noted now for 6 years or more 
that there were problems, hazards and dangers to employees in 
these tunnels, is that not true?
    Mr. Hantman. That is true, sir.
    Senator Durbin. I understand budgets because I've served on 
the Appropriations Committee on the House and Senate, and been 
on this subcommittee for some time. But I cannot believe that 
if you felt that this was a life threatening situation and came 
to Congress that we wouldn't have responded. Did you feel this 
was a life threatening situation?
    Mr. Hantman. We felt that there was certainly conditions 
down there that needed to be ameliorated so that it would not 
be a life safety situation.
    Senator Durbin. I think you said yes, that you felt it was 
a life threatening situation.
    Mr. Hantman. Certainly with spalling concrete coming off, 
that could be certainly a life safety situation, yes.
    Senator Durbin. And I have to ask you why you didn't make 
this plea to Congress, saying the lives of workman are at stake 
here. When I look at this, it's a lengthy survey done by the 
Office of Compliance, the conclusions at one part say, 
``neither the conditions, nor the protective measures for 
either asbestos or heat stress have improved for tunnel shop 
employees between the OOC report of August 24, 1999 and the 
inspection made for this report.'' And they have cited in here 
as I'm sure you've read ample evidence that the workers whether 
they knew it or not, were exposed to asbestos hazard during 5 
or 6 years while they were working in these conditions. Were 
you aware of that exposure?
    Mr. Hantman. We have worked in--we have five tunnels sir. 
One of them is the ``V'' tunnel for instance. We completed 
abating the asbestos in that tunnel last year. We have money in 
the project loop right now, in procurement for the ``B'' tunnel 
to abate the--we are--one of the comments that the chairman 
made before in terms of encapsulating asbestos, we recognize 
that we have asbestos in all of our buildings and all of our 
tunnels around the campus. As long as it's encapsulated and 
safe we will be replacing that as we can, as we go down the 
road with various projects.
    Most of these tunnels have had encapsulated work 
accomplished. The ``B'' tunnel, for instance, had new jacketing 
put on it. That jacketing is now wearing out. We have a 
$200,000 project to abate the work in that tunnel.

                     EMPLOYEE SAFETY IN THE TUNNELS

    Senator Durbin. Mr. Hantman, did you warn the workers that 
they were going to expose themselves to inhalation of asbestos 
if they worked in the tunnels that were not protected?
    Mr. Hantman. The workers were aware of these asbestos 
issues. We worked to repair problems when they saw an asbestos 
issue, or we had the construction management division go in to 
inspect, we would go in and repair those particular sections 
and make sure that they were encapsulated.
    Senator Durbin. Did the workers wear any protective 
breathing device working around this asbestos?
    Mr. Hantman. They are now, sir.
    Senator Durbin. When did that start?
    Mr. Hantman. This is just starting.
    Senator Durbin. Why did we wait so long to protect these 
workers?
    Mr. Hantman. We were working in those tunnels, we had 
constant inspections going on in those tunnels. We recognized 
that we needed to do full tunnel work as we did on Constitution 
Avenue to make sure that--and as we did on the ``V'' tunnel 
that we can take care of it as a total project while we were 
encapsulating segments as we went along.
    Senator Durbin. Mr. Hantman, I would have to tell you that 
perhaps I have a heightened interest in this with the debate we 
just went through on the asbestos issue. And having met scores 
of widows and widowers of people suffering--who suffered from 
mesothelioma and asbestosis. There's not a single one of us in 
this room who knows for sure that we haven't been exposed to 
asbestos that will kill us. In this circumstance, we knew that 
there was asbestos, we knew that it was a hazard to workers, 
and literally waited years before we provided safety devices 
for these workers to protect them. How could we possibly 
explain that to the workers or their families?
    Mr. Hantman. We had ongoing inspections but clearly they 
were not adequate. Senator Durbin.
    Senator Durbin. Well that's cold comfort. I appreciate your 
admission, but I think it tells that we have done a great 
disservice to these workers and their families. And I hope of 
all the priorities which we face on Capitol Hill, that the 
first priority will be the safety of the men and women who work 
here and visit here. And if that is the case, I want to say to 
you point blank. If you do not come forward with requests for 
life safety measures and protective devices to protect these 
workers then you're not doing your duty.
    You need to call on us, and if we fail then it's on our 
shoulders but knowing this for 5 or 6 years, and not responding 
to it, and exposing workers to these potential life threatening 
situations that's entirely unacceptable. And to think that it 
would happen on Capitol Hill, the seat of our Government, the 
symbol of who we are as a people, makes it even worse. Thank 
you, Mr. Chairman.
    Senator Allard. Well I'd like to agree with Senator Durbin 
on his comments. I do think that we have to get moving quickly 
on this, we need to get it taken care of. I understand your 
concerns about disrupting traffic, part of it's on Constitution 
Avenue. But I think that we need to get a plan in place quickly 
as to how we can deal with this, and somehow or other find the 
resources to begin to get this situation rectified as much as 
possible, and get the city to understand that this is a serious 
problem and it needs to be dealt with. I know it's going to 
create some travel inconveniences, but I just think it has to 
be done.
    Senator Durbin. Mr. Chairman if I might add to that. Mr. 
Hantman said how much construction fatigue can Congress take, 
he went onto talk about how much disruption of traffic can the 
community take. Well I'm prepared to face both of those 
challenges but I'm not prepared to face the families of these 
workers and tell them we didn't do everything humanly possible 
to protect them in the workplace.

                          TUNNEL REPAIR PLANS

    Mr. Hantman. We have requested $1.75 million in this budget 
to do further studies and work on that, in addition to the $1.8 
million that we've recently reprogrammed. We will certainly get 
back to you in terms of what those studies are showing and the 
priorities in terms of those dollars.
    Senator Allard. I don't know what kind of time line you 
were thinking about, but we need to expedite this. I hope that 
you can come back with an expedited plan. Give us a better idea 
of what this total thing is going to cost, so we can deal with 
it, and begin to plan for it. We've got a lot of things that 
are on that list, but in my view this needs to be toward the 
top of the list. We need to somehow begin to address it right 
away. You now have the feeling of this subcommittee that we 
think this is important, and we need to expedite it. I hope 
that you would look at the budget request that you've made and 
see what we can do now to begin to address these problems. I 
agree with Senator Durbin, the traffic and inconvenience to 
Members of Congress and our staff, that's a minor issue 
relative to the seriousness of what we have here. We need to 
deal with it.

                TRACKING OFFICE OF COMPLIANCE CITATIONS

    Are you keeping a list of possible problems that are 
erupting so that we don't get to this problem in some future 
time? Where the Office of Compliance has pointed out a problem 
or potential problem, is it being catalogued so that we can see 
what might be coming down the pike so that we can begin to meet 
these challenges as they face the committee?
    Mr. Ayers. Yes, Mr. Chairman, we do meet regularly with the 
Office of Compliance and they have over the years, since 1999, 
issued a variety of citations. We work to abate those and 
request funding as necessary to abate those. We meet with them 
on a regular basis to update them on the status of the 
abatement of those citations.

  CAPITAL PROJECTS AND THE LIBRARY LOGISTICS WAREHOUSE PRIORITIZATION

    Senator Allard. Let me move onto capital projects. Your 
budget includes 19 major capital projects, totaling about 
$143.7 million. Could you describe the process, referred to as 
the line item construction program, you went through to come 
with this list of projects?
    The projects are ranked based on their urgency and the type 
of project, now how is a library storage facility ranked number 
nine on this list?
    Mr. Hantman. As I indicated Mr. Chairman, when we 
originally started looking at projects, and the importance and 
the ranking on the list, we had some 36 projects there. The 
library logistics warehouse was number 35 on that list, because 
we ranked it as a high need, but not an immediate need. What 
happens when you get to all of the fire and life safety, the 
preservation, the economics, the physical security issues and 
you rank that, and you look at the current condition of various 
projects, you'll note that's one of the few projects on our 
request which is a new project as opposed to something that 
needs to be repaired and maintained. Originally that was not 
ranked high on the list, it was number 35 as opposed to where 
it is right now, in number 9. The Librarian expressed very 
strong need and concern that it was an ``immediate'' priority. 
We have not done facility condition assessments for the Library 
as of yet. We hope to get that funding in here so we can 
actually do the type of analysis we talked about before. So in 
terms of the final overview, once you go through all the fire 
and life safety, the physical security, the deficiencies, and 
things like that, the urgency of the project is the element 
that is the last overlay on that. So our priority was 
originally ``high'', the Librarian indicated that was an 
``immediate'' project, very important. And so it was on that 
basis that it was raised to--it's the lowest of the 
``immediate'' projects on our list which is number nine. We 
have eight ``immediate'' above it, all the rest below it are 
``high''.
    If it had not been ranked as ``immediate'' at the 
Librarian's request it would have been number 35 in the project 
list and would not have been requested.

               DIRKSEN INFRASTRUCTURE IMPROVEMENT PROJECT

    Senator Allard. The Dirksen infrastructure improvements 
total somewhere about $19.4 million, can you describe these 
improvements and tell us where the project can be broken down 
into phases so as to lessen the price tag in fiscal year 2007.
    Mr. Hantman. This again Mr. Chairman, is an important 
project. Basically what we're looking at over here, is we think 
that this project could be phased in multiple years. As far as 
the Dirksen project is concerned, the current situation is that 
it's calling for the replacement of air handling units in the 
Dirksen Office Building. They're an integrated piece of 
equipment, they consist of fans, heating units, coils, et 
cetera, and we currently have 21 air handling units serving the 
building right now. There are 12 of them on the seventh floor 
of the Dirksen Senate Office Building that have to be replaced. 
These are air handlers that are over 40 years old. They've 
exceeded their useful life, and they're very inefficient.
    So this project would replace those 12 air handler units 
with new units that have replaceable filters, steam preheat 
coils, clean steam humidifiers, variable frequency drive 
motors, direct digital control systems. The work would include 
reconnecting the main units, et cetera. If not funded, the 
building ventilation will gradually worsen and the units will 
fail in the near future. Just when in the near future, we 
wouldn't know exactly but in terms of good process and 
procedure, this could happen.
    We've taken a look at this project Mr. Chairman, and we 
think it could be phased by stack especially. Specifically on 
the north stack, there's a center stack, and a south stack in 
the Dirksen Building. Phasing would require increased project 
coordination, some increased administrative costs, and 
contractor overhead, things like this. But we think it could be 
phased into three pieces.
    Senator Allard. Do you have an idea about how that would 
affect the cost of the project?
    Mr. Hantman. Yes, in the--we think that for this first 
year, we could do the south wing for three air handling units 
for $6.5 million, next year we could do the center wing for 
$8.4 million, and the north wing in the following year for some 
$6 million. This would add about a $1.5 million in additional 
costs to the project, but it could be spread out over 3 years.

                      CONSTRUCTION OVERHEAD COSTS

    Senator Allard. Thank you. The Architect of the Capitol's 
construction overhead costs include more than 10 percent for 
contract administration and construction management. Other 
agencies such as the Corps of Engineers and the naval 
facilities engineering command include costs in the range of 6 
to 8 percent. What do AOC's overhead costs support and why are 
your overhead costs higher than these other ones mentioned?
    Mr. Hantman. We can certainly respond to the record for 
that if we could Mr. Chairman.
    Senator Allard. Okay. If you would please.
    [The information follows:]

    The AOC's overhead costs consists of the following:
    Construction Contingency Cost.--This is added to the total 
Estimated Construction Contract Cost (ECCC) to allow for change 
orders. The percentage typically ranges between 5 percent to 10 
percent for new construction and 10 percent to 15 percent for 
renovation work. The higher contingency percentage for 
renovation work is due to the greater likelihood that during 
renovation unknown or unforeseen conditions may be encountered.
    Implementation Cost.--These are administrative costs added 
to the Estimated Construction Project Cost (the accumulated 
ECCC plus Contingency) to support the AOC's costs during 
project execution. These include: (1) Construction 
Administration, (2.5 percent)--this is usually a contract with 
the A/E firm performing the design, or the A/E firm who 
performed the design, to account for shop drawing submittal 
reviews, answering Requests for Information (RFIs), and any 
additional technical services related to interpretation of the 
drawings and specifications during construction, and the 
percentage applied is an industry-accepted standard; (2) AOC 
Construction Management, (8 percent)--this amount is set aside 
to pay for Term AOC employees hired as Construction Managers, 
who are the COTRs during construction, and Construction 
Inspectors, who provide daily quality assurance during 
construction execution; (3) Government Testing, Inspection and 
Quality Control, (2.5 percent)--this amount is provided to 
allow for independent testing, inspections services, or quality 
control services that may be required. Such instances include 
specialized testing or field verification that specified design 
parameters have been met, and independent validation of 
information necessary to resolve contractor disputes.
    Project Management Cost.--This amount provides for 
professional associate (contract) or temporary in-house project 
management staff when execution of a specific project or group 
of projects cannot be met with internal resources. At the 
present time, temporary project management staff are funded by 
the LOC Fort Meade projects to provide for overall program 
execution at that location. Previously, this allocation was 
used to execute portions of the Emergency Response Fund 
projects because at that time there was an inadequate dedicated 
project management staff to support that program. This 
percentage--currently set at 5 percent--was inadvertently 
applied to some of the fiscal year 2007 project requests. 
Specific estimating guidance has since been issued to clarify 
that it is to be applied only under the circumstances noted 
above.
    The AOC has not analyzed other agency overhead cost 
structures. The AOC is undertaking a series of processes to 
determine how its overhead costs are spent, and over time will 
be in a much better position to support its actual cost 
requirements based on financial history matched to project 
performance. In addition, the Government Accountability Office 
has offered to provide the AOC with technical advice in this 
specific area.

                    WEST REFRIGERATION PLANT PROJECT

    Senator Allard. On the west refrigeration plant, this $100 
million project is behind schedule by 5 or 6 months, and over 
budget. What is the current schedule for completion?
    Mr. Hantman. The current schedule is by July of this year, 
we should have the units up and running, with a combination of 
controls, as well as manual controls so that we could be 
producing the chilled water that we need throughout the campus. 
By the end of the year all those controls should be in place, 
so that the manual operation would no longer be needed.
    Senator Allard. Can you assure us that no additional funds 
are going to be needed?
    Mr. Hantman. We are reprogramming dollars in this year's 
budget as you know Mr. Chairman, to the tune of about $4.7 
million. The main reason that these funds were needed is that 
there were two unforeseen conditions at the Power Plant. One of 
them was the extent of the contaminated soil under the existing 
coal pile. We needed to remediate that. Another was a gas main 
that was on Virginia Avenue in the way of the relocated sewer 
line that we had to take care of. With those two projects, that 
basically took the full reprogramming value and we would have 
been pretty much on budget, without having to reprogram, 
without those two elements.
    So, yes, we're expecting that this reprogramming should be 
able to get us to home base.

              WEST REFRIGERATION PLANT PROJECT CHALLENGES

    Senator Allard. What are the biggest challenges you've 
confronted with a project, and what are some lessons learned?
    Mr. Hantman. Well, the two project elements that I 
mentioned were the biggest challenges, and that is true Mr. 
Chairman, of any project we do here on Capitol Hill. The 
documentation is just not very good in terms of existing 
drawings and all. That was certainly the case with the gas line 
on Virginia Avenue. It wasn't shown in the right place, in 
terms of where it really was. Another challenge that we faced 
on the Power Plant, was the reason that project was initiated 
in the first place. This goes back to the type of issues that 
we have with facility conditions throughout the campus. How do 
you know something's going to fail? Do you replace a roof 
before it fails, or do you do it because its life expectancy 
has really been achieved. So when we looked at the east 
refrigeration plant, it actually has EPA, noncompliant elements 
in it. We wanted to replace it. It was over 40 years old. It 
wasn't performing efficiently. We had planned on essentially 
using it long enough to be able to take down the existing west 
refrigeration plant units, put them online, hook them up and 
have the east plant run through the winter so that we could do 
that, and the full load would be on that. Unfortunately, we had 
two of those units fail. Their life expectancy certainly was 
there, we knew that was happening, and the same issue is, when 
will something fail?
    So we had to essentially, while the west refrigeration 
plant was up and running, make those changes. So that was 
something that cost us time and it cost us money, Mr. Chairman.

    GOVERNMENT ACCOUNTABILITY OFFICE REPORTS ON POWER PLANT STAFFING

    Senator Allard. Now, GAO recently reported that the 
Architect of the Capitol hasn't made sufficient progress in 
planning to staff the modernized Power Plant efficiently and 
ensure plant personnel are trained to operate it safely. 
According to the GAO, the plant has about twice as many 
employees as are needed for efficient operation and has since 
at least 1996. What are your plans for right-sizing the Power 
Plant while ensuring equity to all employees?
    Mr. Hantman. We have a consultant--Ross is doing a detailed 
functional analysis, regarding staffing reductions. We think 
they are possible. We are at the process, Mr. Chairman, we 
don't have the new equipment up and all the controls in place 
at this point in time. So we need to take a look at training 
the people in--on our staff, for automation of the plant, and 
cross train those people to make sure that they can do multiple 
jobs efficiently. We believe this can happen, once we have the 
new plant online. We are concurrently working on doing training 
right now, so that we can essentially right size and cross 
train people to bring it more in line with the ultimate 
staffing that's necessary. And our new director certainly will 
have his eyes and ears on that and make sure that we do it the 
right way.

                        PERFORMANCE-BASED BUDGET

    Senator Allard. You've been listening to some of my 
concerns in the past hearings on performance-based budgets and 
I understand you're taking some action to develop a 
performance-based budget to measure outcomes. I'd like to know 
how you're coming along on that initiative?
    Mr. Ayers. Sure, thank you Mr. Chairman. We do have several 
strategic performance initiatives underway, and performance-
based budgeting is one of them. If I could just step back for a 
moment though. All of these refer back to our strategic plan 
that we developed in 2003. That strategic plan is centered 
around four goal areas: facilities management, project 
management, human capital, and organizational excellence. And 
to implement that plan, it's accompanied by a performance plan 
that includes 16 objectives, 175 specific milestones, as well 
as over 300 individual activities necessary to achieve those 
goals. In addition to simply measuring our progress against 
achieving those milestones, we've developed a series of 
performance indicators that enable us to track the health of 
the organization on an ongoing basis. We call this our 
dashboard. We've developed some 25 different performance 
metrics, that we review on a monthly basis, myself and Mr. 
Hantman, with a team of senior managers.
    To take that strategic plan to the next level, we believe 
requires the implementation of a cost accounting system as well 
as a performance-based budgeting system, those--both of those 
processes are underway now. We believe that's a year long 
effort, we've recently added staff to our cost accounting 
division to begin the full implementation of that program and 
we look forward to presenting to you in 2008 our first 
performance-based budget.

                    INTERNAL CONTROLS IMPLEMENTATION

    Senator Allard. I'm looking forward to that, and thank you 
for your efforts. According to GAO, it's critical the Architect 
of the Capitol develop strong internal controls, including a 
reliable cost accounting system and sound procurement 
practices, can you tell us what you've done in this area, and 
identify the resources you've requested in your budget to 
address these needs.
    Mr. Ayers. Certainly Mr. Chairman, thank you. We have begun 
the roll out of a comprehensive internal controls program. This 
has been, in fact, in our strategic plan since 2003. The first 
phase of that, as we've selected three of the--what we feel 
most important functions of our organization. Our procure to 
pay, or how we purchase materials, as well as our payroll and 
project management systems. As part of this internal controls 
program, we'll take each of those systems and break them down 
to each of their individual components, review them to 
determine what specific financial and managerial controls need 
to be in place to be able to achieve the end result. We're well 
in process on the first three of those. Once those are 
complete, we'll bring in another handful of our business 
processes and run them through the same process. Ultimately 
we'll have gone through all of our strategic business 
processes; run them all through this program to develop a sound 
internal controls program. We do have two FTEs requested in our 
2007 budget to enable us to continue that, and expand that 
internal controls as well as the cost accounting program.

                    CONTRACT MANAGEMENT IMPROVEMENTS

    Senator Allard. Your contract management has been subject 
to some criticism. What are you doing to try and improve it?
    Mr. Ayers. I think one of the most important initiatives 
we've undertaken, is the development of a comprehensive core 
competency program, both for our project managers as well as 
for our procurement employees. That's a terrific program, and 
our employees are run through an appropriations law class, a 
contract management class, I think that's been our most 
important initiative in that area.

       ARCHITECT OF THE CAPITOL CHIEF FINANCIAL OFFICER SELECTION

    Senator Allard. Okay. Let me ask you Mr. Hantman, about the 
position of Chief Financial Officer. This seems to me like a 
critical position to get filled. How are we doing on filling 
this position?
    Mr. Hantman. I think we're going well Mr. Chairman, we 
empaneled--a panel essentially last week, which includes 
Stephen Ayers, it includes the CFOs of the Government 
Accountability Office and the Government Printing Office. Some 
53 resumes are being reviewed right now. Clearly that's a 
critically important position and the process is moving along.
    Senator Allard. That's all the questions that the 
subcommittee has. I would like to thank you for your 
participation.

                          SUBCOMMITTEE RECESS

    The subcommittee on legislative branch will stand in 
recess, until Wednesday, April 5, 2006 when it will hear 
testimony from the Sergeant at Arms and Capitol Police Board. 
Thank you.
    [Whereupon at 11:15 a.m., Wednesday, March 15, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 5.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF WILLIAM H. PICKLE, SERGEANT AT ARMS AND 
            DOORKEEPER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. This 
morning, we meet to take testimony on the fiscal year 2007 
budget requests for the Sergeant at Arms and Doorkeeper of the 
Senate, U.S. Capitol Police, and the Capitol Guide Service and 
Special Services Office.
    We welcome our witnesses this morning. First, we will hear 
from the Sergeant at Arms and Doorkeeper of the Senate, Mr. 
William Pickle. Good morning, Mr. Pickle.
    Mr. Pickle. Good Morning, Mr. Chairman.
    Senator Allard. The Sergeant at Arms' budget request total 
is $224 million, an increase of about $25 million or 12 percent 
over the current year. The budget would fund an additional 34 
employees as well as implement additional security initiatives. 
Funding is also included to continue the telephone replacement 
project.
    Following the Sergeant at Arms, we will hear from the 
Capitol Police Board, currently chaired by House Sergeant at 
Arms Bill Livingood. Good morning, Bill.
    The Board is requesting $295 million for the Capitol 
Police, an increase of $48 million or almost 20 percent over 
the current year. The request includes 101 additional sworn 
officers and seven additional administrative employees, which 
would bring the department staffing to a total of 2,180 
employees.
    The budget includes $28 million for overtime, about $8 
million more than the police department anticipates will be 
needed this year, and we have some concerns about that level.
    Finally, we will again hear from Mr. Livingood, this time 
as chairman of the Capitol Guide Board. Also present is Tom 
Stevens, the head of the Capitol Guide Service and 
Congressional Special Services Office.
    The Board is requesting $8.5 million for the Guide Service. 
This is an increase of $4.6 million over the current budget, 
with the expectation that 71 additional guides and visitor 
services employees will be needed to operate the Capitol 
Visitor Center (CVC) in fiscal year 2007.
    Before we begin this hearing, I would like to say thank you 
to outgoing Chief Terry Gainer. Today is his last day on the 
job, and I appreciate all the good work he has done to improve 
the Capitol Police force and serve the Congress. The department 
is stronger, better trained and equipped, and more capable than 
when Chief Gainer took the helm 2 years ago. I wish him luck in 
his next adventure.
    Before I finish my statements, we have Senator Burns, Mr. 
Pickle, who has some questions that he has asked us to put 
forward. After the hearing, we will submit those questions to 
you with the hope that you can get back with a response within 
10 days. So, if you could respond to those questions at a later 
date after we have finished the hearing, we would appreciate 
that, Mr. Pickle. And so, having made that initial request, Mr. 
Pickle, please go ahead. We look forward to hearing your 
comments.

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Thank you, Mr. Chairman. Thanks again for 
inviting me to testify this morning. As I have said in the last 
2 or 3 years that I have been here and appeared before this 
subcommittee, I am so pleased to represent the hundreds of men 
and women who comprise the Office of the Sergeant at Arms. I 
don't think you are going to find a more dedicated or committed 
group of Federal employees anywhere, and I am sure that you and 
this subcommittee share that belief as well, after witnessing 
the great job they do. Mr. Chairman, I have a much more formal 
statement. You stole a little of my thunder in your opening 
remarks. So, I am going to ask that my formal statement be 
submitted for the record, and I will just talk for a couple of 
minutes, if I may.
    As you indicated, we have asked for about $224 million or 
about a 12.8-percent increase over our 2006 appropriation. 
These funds will continue to allow us to provide the service 
that is so important to the Senate. In particular, the increase 
that is reflected in this budget covers our telecommunications 
modernization project. It also covers 34 positions, as you 
indicated, 17 of which are designated for the CVC. The other 
positions are spread out over our areas of technology and 
security. In addition, we are funding some initiatives in our 
Office of Security and Emergency Preparedness. These 
initiatives haven't been fully covered previously in any 
recurring budget request, and I think probably what we are 
going to see in out-years, too, is continued growth in that 
area. But this year, there is a sizable increase, as you noted, 
in our security and emergency preparedness allocation.
    Mr. Chairman, in my formal statement, I talk about a number 
of challenges that we have met successfully and a number of 
accomplishments that this office, and particularly the staff, 
has achieved. I want to take a minute to introduce the senior 
management team here, because they are outstanding. I am going 
to start with my Deputy Sergeant at Arms, Lynne Halbrooks. The 
Executive Assistant who is the Democratic Leader's 
Representative is Nancy Erickson. Greg Hanson is our Chief 
Information Officer and Assistant Sergeant at Arms. Chuck 
Kaylor is the Assistant Sergeant at Arms for Security and 
Emergency Preparedness. Al Concordia is the Assistant Sergeant 
at Arms for Police Operations and Liaison. Esther Gordon is the 
Assistant Sergeant at Arms for Operations, and Dan Strodel is 
our General Counsel. I also want to acknowledge, and I know he 
is going to be a little embarrassed by this, my Chief Financial 
Officer, Chris Dey. Chris works very closely with Carrie 
Apostolou and Nancy Olkewicz, and Chris is the ultimate 
professional, as Carrie and Nancy can attest to. He keeps us 
straight. He keeps me out of financial problems with this 
subcommittee, and we are just very delighted to have him.
    Senator Allard. I appreciate you introducing your staff and 
having them here this morning.
    I couldn't agree with you more, I think you have got a good 
staff.

                           GUIDING PRINCIPALS

    Mr. Pickle. Thank you very much. I appreciate that. Last 
year, when I testified, I talked about the three guiding 
principals that we follow in doing a better job here at the 
Senate. The first one is to continue to maintain security of 
this complex. Since 9/11, the whole world has changed here. 
Maintaining security is very expensive and very complex, and we 
work closely with the Capitol Police to do the best job we can. 
The second focus is to follow the leadership's mandate to 
provide state-of-the-art technology. I don't think anyone can 
ever have state-of-the-art technology. You know, Moore's Law 
says everything changes every 1\1/2\ years or so. Well, we are 
close to state-of-the-art, and it's only because of this 
subcommittee's support that we have reached the level that we 
have. And finally, it's rather cliche, but customer service 
continues to be a guiding force in the Sergeant at Arms office. 
It is used over and over again, and sometimes it loses its 
meaning. But when you have over 100 business units as we do and 
roughly 950 people working here within the Office of the 
Sergeant at Arms, you have a lot of exposure to a very 
demanding community. I think our people do a great job. I often 
hear about it when we don't. I seldom hear about it when we do. 
But we try, they try, and customer service is still our 
priority.

                             STRATEGIC PLAN

    Mr. Chairman, there is one final thing I want to do. I want 
to talk briefly about our strategic plan. I know how important 
GPRA is to you, and I know how you like to hold each of the 
agencies under you accountable. We have been working on a 
strategic plan for the last 6 to 9 months. It's a very 
comprehensive plan. I think that you will see the seriousness 
with which we view this plan, and I expect to share it with the 
subcommittee very soon. We would welcome any comments from you 
or your staff.
    Senator Allard. Very good. We look forward to that.
    Mr. Pickle. Thank you. Finally, I want to digress for just 
a moment. You mentioned Chief Terry Gainer, and I just want to 
acknowledge, on our part from the Senate side, how much we will 
miss him. Chief Gainer is the ultimate professional. I think he 
is arguably one of the best Chiefs of Police in the country. 
When you talk to people in the law enforcement community, they 
echo those sentiments. We often use the word leadership. 
Leadership is important. And we always say you know leadership 
when you see it. Well, when you see Terry Gainer, you see 
leadership. We may not always agree with him, but he is one of 
the main reasons we have such an outstanding department, such a 
professional department. And I think he will be sorely missed, 
but we wish him bon voyage and Godspeed. Mr. Chairman, that 
concludes my oral remarks, and I'd be happy to take questions.
    [The statement follows:]
         Prepared Statement of the Honorable William H. Pickle
                              introduction
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2007, the Sergeant at Arms respectfully requests a 
total budget of $224,043,000, an increase of $25,343,000 (or 12.8 
percent) over the fiscal year 2006 budget. This request will allow us 
to maintain the improvements and level of service we provide to the 
Senate community. It will also fund 34 new staff members who will 
maintain the Senate's expansion space in the Capitol Visitor Center and 
develop and maintain business and network security applications, among 
other support services. Appendix A, accompanying this testimony, 
elaborates on the specific components of our fiscal year 2007 budget 
request.
    Last year I testified before this Committee and reported on our 
progress in accomplishing three priorities: (1) ensuring the United 
States Senate is as secure and prepared for an emergency as possible; 
(2) providing the Senate outstanding service and support, including the 
enhanced use of technology; and (3) delivering exceptional customer 
service to the Senate. These priorities continue to guide the Office of 
the Sergeant at Arms.
    This year I am pleased to highlight some of this office's 
activities including a new strategic plan we are developing and the 
challenges we have overcome since last year. Our accomplishments in the 
areas of security and preparedness, information technology, and 
operations are also impressive. We are preparing for next year by 
planning for the major events we know will come and by ensuring that 
the Office of the Sergeant at Arms is an agile organization that can 
adjust to the unexpected.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Lynne M. Halbrooks serves as my 
Deputy, and she and I are joined by Administrative Assistant Rick 
Edwards, Executive Assistant Nancy Erickson, General Counsel Dan 
Strodel, Assistant Sergeant at Arms for Security and Emergency 
Preparedness Chuck Kaylor, Assistant Sergeant at Arms for Police 
Operations Albert V. Concordia, Assistant Sergeant at Arms and Chief 
Information Officer J. Greg Hanson, and Assistant Sergeant at Arms for 
Operations Esther L. Gordon. The many accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the U.S. Capitol Police. When 
appropriate, we coordinate our efforts with the U.S. House of 
Representatives and the agencies of the Executive Branch. I am 
impressed by the people with whom we work, and pleased with the quality 
of the relationships we have built together.
    This is my third year testifying before this Committee and I would 
be remiss if I did not mention how proud I continue to be of the men 
and women with whom I work. The employees of the Office of the Sergeant 
at Arms are some of the most committed and creative in government. We 
have made huge strides as an organization these past three years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.
Strategic Plan
    The Office of the Sergeant at Arms is developing a comprehensive 
strategic plan and performance goals for services we provide. The plan 
will establish the level of performance that the Senate expects from 
us, and will help us build on our strengths and address weaknesses.
    During my tenure with the Senate, I have seen how Sergeant at Arms 
staff works to continuously improve the level of service it delivers to 
this institution. Our strategic plan acknowledges this dedication and 
skill, and provides guidance on how to focus these efforts. The plan 
documents the mission, vision, values, and principles of this office, 
so our employees, our customers, and Senate Leadership will know what 
our objectives are and how we plan to achieve them.
    We already deliver outstanding service to the Senate, and this 
strategic plan will help us continue to do so. I look forward to 
presenting this Committee with the strategic plan later this year. It 
was developed with the input of all levels of management, and, I 
believe, accurately lays a clear roadmap for the future of this 
organization.
Customer Service and Support
    One priority of the strategic plan is to promote within the Office 
of the Sergeant at Arms a culture that is focused on excellence in 
customer service. Every aspect of our work at the Senate focuses on 
serving the Senators, staff members, and the public. Our efforts in the 
areas of security, information technology, and operations all focus on 
providing services that the Senate needs to function properly. Our 
customers usually are Senate staff, but they also include anyone who 
contacts the Senate and members of the media who report about the 
institution. As a measure of our overall focus on customer service, 
almost one-quarter of the staff of this office provides direct customer 
support: Capitol Operators; Appointments Desk staff; Media Gallery 
staff; customer support analysts; telecommunications representatives; 
dedicated customer support personnel in our print shop, Recording 
Studio, and Photography Studio; and Help Desk contractors.
Major Challenges of the Past Year
    As is true every year, this past year has offered several 
challenges to the Office of the Sergeant at Arms. Besides frequent 
suspicious item alerts, the Senate had air space incursion alerts and 
the recent Russell Senate Office Building evacuation. The Judiciary 
Committee held confirmation hearings for John G. Roberts in mid-
September 2005 and for Samuel A. Alito in early January 2006. In August 
2005, Hurricane Katrina devastated Louisiana, Mississippi, and Alabama, 
and affected the ability of several Senate state offices to serve their 
constituents. These events highlight how effectively this office, in 
conjunction with the Senate support organizations and Legislative 
Branch agencies with which we work, has adopted procedures that enable 
us to rise to these challenges.
    Building Evacuations.--On May 11, 2005, the Capitol Police 
evacuated the Capitol and Senate and House Office Buildings due to an 
incoming aircraft. The actions of the police were exemplary, and the 
Members, staff, and visitors cooperated fully during the evacuation. 
When the next air space intrusion happened about one month later, we 
were even more prepared and an assembly area for Senators was 
activated.
    On February 8, 2006, a hazardous material alarm sounded in the 
Russell Building. The alarm indicated the presence of a substance that 
was potentially hazardous, and people in the Russell Building were 
directed by the Capitol Police to move to the Legislative Garage. 
Senators and staff moved to the garage, where they sheltered in place 
for about three hours.
    Immediately staff from the Sergeant at Arms and other Senate 
offices prepared to open a Senate Emergency Operations Center and 
started implementing their emergency plans. As an example, our contract 
IT Help Desk staff that was evacuated to the garage ensured the 
continuity of Help Desk operations by shifting the function to 
technicians located off-site. All of these activities follow the 
established protocols for this kind of emergency.
    The atmosphere in the Russell Building and the Legislative Garage 
was marked by a distinct sense of calm and control that lasted from the 
start of the incident through its completion. Fortunately, the 
investigation found no hazardous material, and Senators and staff left 
safely.
    This event demonstrated how the Capitol Police, as well as the 
Sergeant at Arms Offices of Police Operations and Security and 
Emergency Preparedness have made progress over the past few years in 
establishing a controlled, efficient response to incidents at the 
Senate. The coordinated and measured response met the Senate's needs 
for information and for security.
    Hurricane Katrina.--Even before Hurricane Katrina hit on August 29, 
2005, Sergeant at Arms staff was working to ensure affected state 
offices would be able to recover quickly. After the hurricane, some 
members of our staff assisted from Washington, D.C., while others went 
to the area to help with the recovery and with the family assistance 
center.
    A wide range of SAA staff participated in the state offices' 
recovery. Our State Office Liaison was the first point of contact for 
the offices, ensuring that they knew how to contact us and others who 
could help. CIO staff members also played pivotal roles. Before the 
hurricane, they inventoried equipment in the threatened offices and 
readied replacement equipment. They also made sure that telephone calls 
to the state offices would be forwarded to another location if the 
staff evacuated.
    The first priority of the staff in the Louisiana, Mississippi, and 
Alabama offices was their safety and the safety of their families. 
Within days, though, they got back to work, connecting constituents 
with the services they needed. To do this, they needed access to space, 
computers, telephones, and power.
    SAA staff supplied the equipment and facilities that offices 
needed. Our State Office Liaison worked with the General Services 
Administration to find facilities that staff could use while their 
offices were unavailable. The CIO's team improvised ways to transport 
equipment to the area; they sent equipment to the closest place with 
delivery service and determined the next steps from there. In one case, 
they even sent satellite telephones to the area with another elected 
official. Additionally, the CIO's staff monitored the status of the 
circuits and networks, configured and shipped equipment to each 
affected site, installed LAN drops, and provided dial-up modems and 
frame relay circuits. One staff member spent a month in Mississippi 
supporting the Capitol Police mobile radio system.
    Across the SAA, staff members were diligent in their efforts to 
help the state offices become operational. The security and emergency 
preparedness team obtained satellite telephones for the affected 
Senators, and sent staff to the area to work with the family assistance 
center. The Telecommunications Operations team revised calling 
arrangements for forwarded numbers and coordinated the delivery of 
service and equipment to temporary locations. Customer Support Analysts 
made sure that offices received the services they needed, and the 
Employee Assistance Program provided counseling support to staff in the 
area.
    The work of the SAA helped Senate state offices recover quickly. We 
had the ability and the resources to provide even more support, and we 
were prepared to do so in advance of Hurricane Rita. These hurricanes 
and their impact on state offices demonstrated how important it is that 
our continuity of operations and emergency preparedness efforts reach 
beyond Washington, D.C.
    Support for Senate Events.--During Senate events, the staff of the 
Office of the Sergeant at Arms fills crucial roles supporting the 
Senate's tradition of dignity and public access while implementing 
comprehensive security. Since my last testimony before this Committee, 
this office has supported the Lying-in-Honor of Rosa Parks, the annual 
State of the Union address, joint sessions of Congress, visits by 
dignitaries, and high-profile hearings. This past year, two of the most 
visible events were the hearings for John G. Roberts and Samuel A. 
Alito.
    In advance of the Roberts hearings, Sergeant at Arms security staff 
and the Capitol Police worked with the Judiciary and Rules Committees 
to implement the appropriate level of security. Technology and Media 
Galleries staff enhanced the ability of the press to gather information 
and file stories during these historic events. Temporary telephone 
lines, systems, and office equipment were provided. We implemented both 
wired and wireless infrastructure so media representatives could file 
stories and pictures in almost real time. The press and the public were 
accommodated, security was ensured, and the logistics surrounding the 
hearings never became the focus of the story.
    We have a systematic approach for determining security measures for 
the many activities at the Senate and across the Capitol. The Capitol 
Police, with our guidance and support, established a standard matrix 
that they apply to Congressional events. This matrix helps the police 
evaluate threat intelligence, logistics needs, and various criteria 
related to the events; determine what level of security each event 
requires; and assign the appropriate resources. Our Media Galleries 
employ post-event reviews to improve the service they provide. For 
major events, our technology staff reviews past events and looks ahead 
to evaluate what technology is needed and whether a specific event 
requires infrastructure support beyond the level customarily available.
    We have made substantial progress in supporting Senate and Capitol 
events over the past several years. In the face of dramatically 
increased security needs, staff from the Sergeant at Arms and other 
offices supporting the Senate, as well as from across the government, 
coordinate their activities to provide efficient behind-the-scenes 
services to facilitate these historic Congressional events.
 security and preparedness: protecting the senate and planning for the 
                                unknown
    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    Almost five years ago, our security programs started in earnest in 
response to an immediate need to protect the Senate and enable it to 
function in the midst of the catastrophic events that were occurring. 
Our programs are now proven and they ensure the continuity of the 
Senate's operations and the safety of its Members, staff, and visitors 
both here in Washington, D.C., and in the state offices. Events of this 
past year have offered opportunities to consolidate our efforts and 
ensure that they are comprehensive and systematic. These efforts 
integrate information technology with our security initiatives to 
deliver a comprehensive approach to security that takes advantage of 
all of the tools that are available to the Senate.
    Our efforts to ensure that we can respond to emergencies and keep 
the Senate functioning under any circumstance have grown over the past 
years. To continue improvements in this area and better manage our 
security and preparedness programs, we have established seven strategic 
priorities to focus our efforts: Emergency Notification and 
Communications; State Office Security and Preparedness; Emergency 
Plans, Organizations, and Facilities; Training; Exercises; Office 
Services; and Accountability.
    Each of the above elements reflects a distinct set of activities 
that support the Senate and that build on the Senate's layered security 
strategy, which is the framework we use to address security challenges.
Emergency Notification and Communications
    Our emergency notification and communications initiatives ensure 
that we have effective communications systems, devices, and 
capabilities in place to support the Senate during an emergency. We 
have improved our notification and communications processes over the 
past year. We expanded the coverage and speed of delivering text alerts 
to the Senate when we integrated BlackBerry and e-mail alerts and 
notifications into one process within the Capitol Police. We expanded 
the telephonic alert system so it now includes more Senate staff 
members and its notification process is significantly faster. With an 
automated process for maintaining emergency contact information, each 
office can now use a Web interface to maintain staff emergency contact 
information and can designate the recipients of alert and notification 
messages. Over 1,100 wireless annunciators are in place across the 
Senate and the Capitol Police have completed the installation of a 
public address system that can broadcast into public areas throughout 
the Capitol and Senate Office Buildings. Further, if the Senate is 
forced to relocate, we have the capability to video teleconference and 
broadcast between an emergency relocation site and other Legislative 
Branch and Executive Branch sites.
    Looking forward, we are prototyping a system to use Senate Cable 
Television to broadcast staff alerts and notifications. We are also 
testing an expansion of our emergency BlackBerry messaging to include 
additional carriers.
State Office Security and Preparedness
    Extending security and emergency preparedness programs to Senate 
state offices remains an important objective of the Sergeant at Arms, 
and this past year's natural disasters point out the importance of this 
program. Over the past several years we have expanded physical security 
and continuity planning support to offices across the country. Physical 
security has been enhanced in 120 state offices, with 51 of the 120 
offices completed in the past year. We are working with another 161 
state offices on their individual security enhancements. Our emergency 
planning support emphasizes including state offices in each Member's 
continuity planning.
    This year we are embarking on a major project to develop and 
implement a comprehensive program for state office security and 
preparedness. The program will establish guidelines, training, 
references, online tools, and other materials to help state offices 
develop and sustain comprehensive security, emergency preparedness, and 
continuity planning.
Emergency Plans, Organizations and Facilities
    Our emergency plans ensure that we attend to the safety of Senate 
Members and staff, and the continuity of the Senate in an emergency. I 
can report that every Member office has completed an Emergency Action 
Plan that is on record with our Office of Security and Emergency 
Preparedness.
    We provide a range of publications and support for establishing, 
maintaining, and testing emergency and continuity plans. The 
publications include the Senate's Planning Guide, which covers both 
emergency preparedness and continuity planning. We established working 
groups to identify and address communications, facilities, 
transportation, and continuity. One gap we have already identified is 
the need for post-event care and family assistance. We are establishing 
plans to provide critical services to affected families following a 
wide-spread event. In cooperation with the Senate's Employee Assistance 
Program, we have conducted training with a core group of employees to 
establish peer support teams. That training will expand this year.
Training
    Training helps Senate staff know what to expect in an emergency and 
how to use the equipment we provide. We train office staff to create 
continuity plans and emergency plans, to use the accountability 
systems, and to work with other staff members if a traumatic event does 
occur. Our training program is coordinated through the Joint Office of 
Education and Training.
    Training activities over the past year included 56 escape hood 
training sessions that were delivered to 1,639 staff members; 19 
chemical, biological, radiological, and explosives briefings for 358 
staff; 10 intern orientations reaching 805 staff; 66 emergency action 
plan training sessions reaching 78 staff; eight training sessions on 
emergency supply kits reaching 55 staff; nine victim rescue unit 
training sessions for 35 staff; 15 office emergency coordinator basic 
and advanced training sessions reaching 131 staff; 16 emergency 
preparedness updates attended by 220 staff; nine mobility impaired 
classes; two shelter-in-place seminars attended by 50 staff; one family 
assistance center workshop attended by 35 staff; and special topic 
seminars for 140 staff. We also developed three new continuity planning 
classes and delivered 13 of them to 150 staff.
Exercises
    We have a comprehensive exercise program to validate, evaluate, and 
practice existing Senate emergency plans, identify gaps in those plans, 
and establish and verify new requirements. This year we conducted nine 
major exercises in partnership with the Capitol Police and other 
Legislative Branch agencies, as well as a number of drills such as 
office building evacuations and other smaller-scale activities. We test 
our alert systems every month by sending test messages to all 
designated staff members. As part of our effort to continuously improve 
these processes, we implemented a system that catalogs and addresses 
observations and findings related to the Senate's emergency response 
programs.
Office Services
    Over the past year we created and distributed informational and 
training brochures to Senate offices. We distributed 3,000 Emergency 
Annunciator System brochures; 6,500 Quick2000 Escape Hood brochures; 
and 6,500 Victim Rescue Unit brochures. What Every Staff Member Should 
Know About Emergencies at the United States Senate was distributed to 
4,500 people; Senate Office Building Evacuation Procedures for Those 
with Mobility Impairments had a distribution of 3,000. We distributed 
3,000 Emergency Supply Kits brochures; 2,000 copies of ``I'm Safe'' 
Phone Home; and 3,500 copies of the Emergency Preparedness Guide. In 
addition, we worked with 105 offices to create tailored emergency 
information cards, over 4,000 of which have been distributed.
    We also published articles and notifications on key security and 
preparedness topics, and completed the rollout of much of our emergency 
preparedness equipment. Wireless emergency annunciators have been 
located across the Senate, and we participated in developing and 
fielding automated emergency defibrillators in our office buildings. We 
have deployed almost 1,200 Victim Rescue Units Senate-wide to 
supplement the escape hood program, and we distributed 407 Emergency 
Supply Kits to Senate offices. Over 20,000 items of equipment that have 
been distributed to offices and throughout Senate buildings have been 
inventoried and checked for serviceability.
    As a last item, the public address system is fully operational in 
all the Senate Office Buildings, garages, cafeterias, and in the Senate 
Child Care Center and the Page dorm. The system will be used to give 
instructions in the public areas of buildings during an emergency.
Accountability
    During a threat or an incident, we must be able to establish an 
accurate and timely accounting of Senate Members and staff. In 
conjunction with the Capitol Police, we placed into production a system 
that provides the ability to take office accountability reports using 
tablet computers and wireless technology. The system maintains a 
database for personnel accountability in the event of emergency. It 
provides office managers and staff with the ability to construct lists 
for notification, delegate responsibilities for continuity activities, 
and track the status of office staff in an emergency. To date, 140 
Senate Member and Committee offices have been trained to use the 
system.
    We deployed a planning template that helps offices establish 
emergency action plans and keep them up to date. We trained 78 Office 
Emergency Coordinators and Chiefs of Staff on accounting for staff 
members, and also trained 220 staff members in emergency preparedness 
this past year.
    As we move forward we are prototyping a remote check-in capability 
that will use BlackBerry devices and will enable staff to check in 
without reporting to the assembly area. We are also testing a system 
that will provide a secure way to account for Senators at a Briefing 
Center or Alternate Chamber. The system will be able to be updated 
real-time.
Mail Safety
    In addition to the priorities and programs outlined above, a 
critical aspect of our security stems from the anthrax and ricin 
incidents in the past years.
    As a result of these serious exposures, all mail and packages 
coming into the Senate are tested, whether they come through the U.S. 
Postal Service or from other delivery services. We have outstanding 
processing procedures in place here at the Senate. The organizations 
that know the most about securing mail cite the Senate mail facility as 
among the best, and when other government agencies look for ways to 
improve their mail security, they visit our facility.
    Last year, the Senate Post Office processed and delivered over 
14,200,000 items to Senate offices, including over 10,000,000 pieces of 
U.S. Postal Service mail; almost 4,000,000 pieces of internal mail that 
are routed within the Senate and other government agencies; almost 
70,000 packages; and over 150,000 courier items. And we are good 
stewards of taxpayer dollars in the process; we processed about 90 
percent of the number of items that the House of Representatives 
processed and we accomplished it for just over one-third of the cost 
that the House incurred.
    Early in fiscal year 2007 we anticipate moving into a newly 
constructed Senate Mail Facility that will include state-of-the-art 
mail and package inspection and testing. The new facility will provide 
a safer and more secure work environment for Post Office employees. The 
Senate Post Office will continue to process U.S. Postal Service mail at 
the new facility using the techniques we currently use. Once we move 
into the new facility, we will also take over package processing, which 
is currently provided by a vendor. We expect that bringing the 
processing of packages in house will increase the security of the 
packages and will save the Senate over $200,000 annually.
Foreign Codels
    Our security efforts are not limited to Capitol Hill, but also 
include security for Senators on foreign Congressional delegations. The 
Consolidated Appropriations Act, 2005 authorized Capitol Police 
officers to travel outside the United States in a liaison capacity to 
coordinate security arrangements for Senators traveling individually or 
as part of a CODEL. SAA staff, the Capitol Police, and the Department 
of State have moved forward on implementing this authority. Capitol 
Police officers have been trained, and, over the next year, will start 
accompanying the State Department security personnel to enhance the 
security for Senators when they travel overseas.
  information technology: a strategy for security and customer service
    We continue to place special emphasis on leveraging technology to 
enhance security, emergency preparedness, service, and support for the 
United States Senate. Last year we created the Senate's first 
Information Technology Strategic Plan, An IT Vision for Security, 
Customer Service and Teamwork at the United States Senate 2005-2007, 
and this year we are half-way through executing that plan. We have 
already accomplished some impressive results.
  --The Senate's state-of-the-art alternate computing facility, which 
        helps us ensure the Senate's continuity if an event prevents us 
        from using our primary computing facility, has been completed 
        and fully tested.
  --We continue to measure our customers' satisfaction, and to set 
        goals for each year. This year, we set the goal at 80 percent 
        satisfaction, and we exceeded that goal by earning a total 
        customer satisfaction score of 85 percent, based on a 70 
        percent response rate from offices.
  --The Senate's first security operations center, a state-of-the art 
        command center to detect electronic threats and protect the 
        Senate from them, has been developed and implemented.
  --We have implemented the Active Directory and Messaging Architecture 
        in 99 percent of the Senate's offices. This project, the 
        largest and most successful infrastructure project ever 
        undertaken in the Senate, provides a state-of-the-art messaging 
        infrastructure tailored to meet each office's security and 
        privacy requirements.
  --We have installed 95 percent of an award-winning wireless 
        infrastructure that supports cellular telephones, BlackBerry 
        emergency communication devices, and data communications across 
        the Senate campus.
    An IT Vision for Security, Customer Service and Teamwork at the 
United States Senate 2005-2007 provided a structure for setting 
priorities and guiding our activities. The plan outlines a strategic 
technology vision, mission, and five broad information technology 
strategic goals. The first annual revision of the plan, An IT Vision 
for Security, Customer Service and Teamwork at the United States Senate 
2006-2008, was recently produced. This updated plan will enable us to 
serve the Senate better by:
  --Reducing paper-based manual processes and moving business online,
  --Developing a consulting practice to align our information 
        technology organization with the Senate's business 
        requirements, and
  --Creating new information security and assurance initiatives to 
        protect the Senate's technology infrastructure and data from 
        new forms of security threats.
    We continue to invest in information technology and are pursuing 
major initiatives to support the Senate. The increased staffing levels 
requested will enable us to support new business applications, IT 
security, and inventory management.
Secure, Accessible, Flexible and Reliable Systems in a Modern 
        Information Infrastructure
    We are improving the security of the information infrastructure 
that protects data, respects privacy, enables continuous Senate 
operations, and supports our emergency and continuity plans. Our 
efforts over the past year have enabled us to support alternate sites 
and the replication of information, as well as emergency and 
contingency communications. We are delivering increased support for 
remote access and are completing the in-building wireless 
infrastructure. A significant commitment to information technology 
security will increasingly protect the Senate from external threats, 
and the multi-year telecommunications modernization project will 
improve the reliability of the infrastructure. This work all focuses on 
improving the ability of the Senate to accomplish its mission.
            Alternate Sites and Information Replication
    We continue to develop our ability to relocate information systems 
capability at the alternate computing facility (ACF). Every critical 
Senate enterprise information system has been replicated there, and 
this past December we conducted the first comprehensive test of the 
facility; the Senate's primary computing facilities were shut down 
completely and reconstituted at the ACF. This comprehensive exercise, 
which we intend to repeat twice a year, was a complete success. It also 
provided our technical staff with an opportunity to practice the 
procedures they would have to perform in an emergency.
    This past year, with guidance from the Committee on Rules and 
Administration, we provided the Senate's Leadership Offices and 
Committees the capability to replicate all of their data files at the 
ACF. As of February 2006, all of the Leadership Offices and seventeen 
Committees had taken advantage of this capability, which provides the 
Senate with an unprecedented ability to access institutional data in 
the event of an emergency.
            Emergency and Contingency Communications
    We have a comprehensive array of communications systems and options 
available so the Senate will be able to communicate in an emergency. 
This year we conducted final testing on our two Senate emergency 
response communications vehicles. These vehicles have network, 
telephone, and satellite connectivity, and provide the ability to 
relocate much of the Senate's information infrastructure virtually 
anywhere. We have trained deployment teams and are updating the 
vehicles' concept of operations documents.
            Remote Access
    Senate Continuity of Operations and reconstitution sites have been 
equipped with telecommunications, data networks, and video 
teleconferencing. Additionally, mobile and remote computing 
technologies allow Senate staff to access and modify their information 
and communicate from virtually anywhere, anytime. We provide enhanced, 
secure access to e-mail, files, the Senate intranet, and a host of 
applications. We also added the ability to provide inexpensive, secure 
access to our network from overseas. We will continue to enhance and 
expand these capabilities in order to support a potentially dispersed 
workforce and provide the ability to telecommute.
            In-Building Wireless Infrastructure
    This past year we completed installation of an in-building wireless 
infrastructure in all of the Senate Office Buildings. We are now 
working in the Capitol; the basement and attic levels are complete, and 
we will finish installation in the rest of the building this year. This 
innovative system, which won a Government Computing News Best Practices 
Award, improved signal strengths for the carrier for data-only 
BlackBerry service and for the major cellular telephone carriers. The 
infrastructure provides coverage in areas where it was previously poor 
or non-existent and enables Senate staff to connect back to their 
offices wirelessly. The system has substantially paid for itself, 
saving taxpayers nearly $3 million, because the carriers are paying us 
for the right to use it.
            Securing our Information Infrastructure
    During a recent four-month period, our most visible IT system, the 
Senate's website www.senate.gov, was the target of over 17 million 
discrete unsuccessful security events from almost 200,000 different 
Internet addresses. A recent external security review of the site 
helped us make some adjustments that will secure the site even more, 
but the site itself is a prime target for attacks.
    Similar to security in the physical world, security in the 
information technology world requires constant vigilance and the 
ability to deter attacks. The threats to our information infrastructure 
are increasing in frequency and sophistication, and they come from 
spyware, adware, malware, trojans, keyloggers, spybots, adbots, and 
trackware, all of which continuously search for vulnerabilities in our 
systems. Countering the evolving threat environment means increasing 
our awareness of the situation, improving our processes, and 
continually researching, testing, and deploying new security 
technologies. Because we have very little advance notice of new types 
of attacks, we have flexible security control structures and processes 
that are continually revised and adjusted.
    Protecting the Senate's information is one of the most important 
responsibilities of the Sergeant at Arms. This year we have taken 
tremendous strides in this area with the development and operation of 
the Senate's first security operations center (SOC). A redundant SOC is 
currently under construction at the alternate computing facility to 
ensure the Senate's continuity of information security operations. The 
mission of the SOC is to identify and understand threats, assess 
vulnerabilities, identify failure points and bottlenecks, determine 
potential impacts, and remedy problems before they adversely affect 
Senate operations. With the SOC, we implement proactive and preemptive 
actions to deter and thwart attacks on the Senate's information 
infrastructure and prevent compromise of precious and sensitive data.
    We augment this capability with close liaisons to other federal 
agencies to ensure we have the most up-to-date information and 
techniques for combating the threats. Running within the SOC, a state-
of-the-art security information management system aggregates and 
reports on data from a variety of sources worldwide to help us track 
potential attackers before they can harm us. The combination of the 
security operations center, our defense-in-depth capability at all 
levels of our network infrastructure, and our enterprise anti-virus/
anti-spyware programs have proven highly effective.
    One way we determine success in IT security is by measuring and 
tracking what does not happen. Because of improved processes, 
cooperation across the Senate, and improved security technologies, we 
have not experienced a systemic outage within our IT infrastructure due 
to a security incident in two years. Yet the threat environment, as 
measured by detected security incidents, remains very high. The Senate 
relies on electronic mail to carry out its business functions. In the 
past 90 days, our e-mail anti-virus controls detected and eradicated 
over 1.5 million infected e-mail attachments destined for Senate 
accounts. Other anti-virus/worm controls detected and countered 148,472 
viral events from 709 computers located in 120 Senate offices between 
November 20, 2005, and February 20, 2006. During this same period, a 
daily average of only 25-30 individual computers showed signs of 
infection. To date, 136 Senate offices use the managed anti-virus 
systems, and the systems protect over 11,000 Senate computers. This is 
one of the main reasons that worm outbreaks affect only about 60 Senate 
computers while just two years ago, outbreaks infected several thousand 
and caused notable disruption. Our anti-virus products are 
comprehensive.
    Information security must continue to be an area of emphasis and 
growth. We will continue to invest in this technology and we plan to 
increase the size of this group during fiscal year 2007.
            The Senate Telecommunications Modernization Program
    We are currently in the midst of a multi-year plan to modernize the 
Senate's entire telecommunications infrastructure. The modernization 
will provide improved reliability and redundancy to support daily 
operations and continuity concerns, and will take advantage of 
technological advances to provide a more flexible and robust 
communications infrastructure. During this past year we completed 
gathering the requirements and we now are in the final stages of 
preparing a request for proposals to be released this spring. We 
anticipate entering into a contract this summer to upgrade or replace 
Senate telecommunications systems, including the main DMS-100 telephone 
switch, G3i PBX, Conference Bridge, fax broadcast system, Group Alert 
System, voice mail system, and the telecommunications management system 
that we use for provisioning of telephone service and to generate the 
telephone bills and directories.
    Most of the Senate's voice communications infrastructure is based 
on older technologies. Under the telecommunications modernization 
program, we will re-engineer this infrastructure to provide redundancy 
for increased reliability and availability resulting in a state-of-the-
art system built upon converged voice, data, and video communications 
technologies. This approach will allow economies of scale in 
construction and management, and from the user's side, the ability in 
the future to have a synchronized audio and video conference with 
document sharing and collaboration at their workstation. Users may also 
be able to access live or archived video on their workstation, and 
combine information from a database with a telephone call that is being 
transferred from one person to another.
Modern Technology to Enhance Customer Service
            Customer Service, Satisfaction, and Communications
    We continue to pay attention to how well we meet the Senate's 
technology needs. Our third annual CIO Customer Satisfaction survey 
revealed that we reached an overall customer satisfaction rating of 85 
percent. We have conducted follow-up surveys for the last two years, 
and our customer satisfaction rating increased in each of those years. 
These results are very exciting and they indicate that we are moving in 
the right direction. The Customer Satisfaction survey helps the CIO 
organization develop a focused customer satisfaction action plan.
    This year, to provide status and critical information about Senate 
systems more quickly, we instituted a comprehensive system outage 
notification strategy linking e-mail notifications, Help Desk activity, 
and the Senate's intranet to report system outage information in near-
real time. Another new and innovative communication approach we 
implemented is a CIO Web log or blog, which uses the power of the 
intranet as a communication channel to disseminate information to our 
customers quickly.
    We opened a new technology resource center in March that serves as 
a common technology document repository and technical library. This 
facility, with both hard-copy documents and an on-line library, is an 
outstanding resource for sharing technical information and for 
documenting and recording business practices for continuity purposes.
    In addition to our annual comprehensive survey, our Help Desk 
follows all of its service calls with a customer satisfaction survey. 
This past year our Help Desk contractor consistently posted customer 
satisfaction results at or above 96 percent.
            A New Information Technology Support Contract
    The final option period of our current IT support contract ends in 
September 2007. Due to the contract's large size, importance with 
respect to customer service, and complexity, we have begun the process 
of constructing a request for proposals that incorporates the lessons 
we have learned during the current contract. We expect to release the 
request for proposals during the summer of 2006, with contract award in 
early 2007. We plan to allow for a transition period to ensure minimal 
disruption or degradation in service quality.
            A Robust, Reliable, Modern Messaging Architecture
    We are completing deployment of the comprehensive Active Directory 
and Messaging Architecture that provides a spectrum of options for data 
management that ranges from centralized to distributed. A great success 
story, this project began in 2003 with the three primary goals of 
providing a computing platform that would enable offices to replace 
servers running the now-unsupported Windows NT 4 operating system, 
improving the messaging system, and providing offices with choices to 
meet their varying business needs. Technical design was led by CIO 
staff with support from our vendor partners. The design options were 
presented to Senate offices along with the expected impact on each 
office of migrating all computers, user accounts, and e-mail. We 
committed to specific time frames for completing each office migration, 
and we met those timeframes for every office.
            Web-Based and Customer-Focused Business Applications
    The CIO completed the design for the first Senate services portal 
this year. Based on requirements of Senate Leadership and the Committee 
on Rules and Administration, the portal, called TranSAAct, will move 
paper-based, manual processes to the Web. TranSAAct will allow Member 
offices to manage and track invoices for SAA services through a Web 
interface, and it will provide access to a host of Web-based 
applications, such as the on-line Service Academy Nominations System. 
Built on an extensible modern database framework, TranSAAct will allow 
for expansion as new applications are added. With the formal design of 
TranSAAct's first phase complete, we are currently engaged with the 
Administrative Managers Steering Group in a user verification and 
validation process that will lead to complete development and Senate-
wide rollout later this year.
    We have continued delivering support to the Secretary of the Senate 
through improvements and enhancements of the Financial Management 
Information System (FMIS) and the Legislative Information System (LIS). 
We worked with the Secretary supporting FMIS by providing four Web FMIS 
releases which added functionality, improvements to the user interface, 
and enhancements to disaster recovery processes.
            Enhanced Communications and Infrastructure
    A variety of projects will provide enhanced communications within 
and between offices. Enhanced communications are being delivered on an 
improved network infrastructure, and frame relay bandwidth to the state 
offices has been significantly increased to support videoconferencing 
and data replication. The highly successful videoconferencing program, 
which enables staff members in Capitol Hill offices to conduct 
videoconferences with state offices and other remote locations, has 
installed nearly 400 endpoints to date. The electronic fax program is 
replacing stand-alone fax machines with an integrated server-based fax 
system that eliminates paper. We anticipate completion of the 
enterprise tape backup system during this year; the system already 
automatically backs up over one hundred servers located in our primary 
computing facility to the alternate computing facility.
            Promoting Modern Information Technology in the Senate
    A new Technology Demonstration Center, located with our customers 
in the Dirksen Senate Office Building, was opened this past year. At 
the Center, customers can try all of the available information 
technology equipment before making purchases. We also use the Center 
for live demonstrations of new and emerging technologies. We anticipate 
more of these types of activities in the Demonstration Center in the 
upcoming year.
    Last year we hosted two highly successful Senate Emerging 
Technology Conferences and Exhibitions to expose Senate staff members 
to new technologies and concepts. These conferences are designed around 
technology themes of immediate interest Senate-wide.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, we recently created an advanced 
technology assessment laboratory. Technologies and solutions are vetted 
and tested here prior to being announced for pilot, prototype, or mass 
deployment to the Senate. Results of studies performed in the 
laboratory are published on the emerging technology page of the CIO's 
intranet site on Webster. To ensure that the laboratory considers the 
proper technologies and solutions, we have also chartered a Senate-wide 
technology assessment group consisting of members of the CIO 
organization and our customers. The group performs high-level 
requirements analysis and helps prioritize new technologies and 
solutions for investigation in the laboratory, prototype development, 
pilot, and full-scale rollout.
   operations and support: consistently delivering excellent service
    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our support 
functions. The groups that make up our support team continue to provide 
exceptional customer service to the Senate community.
Capitol Facilities
    Capitol Facilities staff works around the clock to ensure that the 
furniture and furnishings are of the highest quality, cabinetry and 
framing are outstanding, and the environment within the Capitol is 
clean and professional. We are in the process of implementing an 
integrated work management system with a Web interface for service 
requests. The system will enable customers to view all furnishings 
currently in stock without making an escorted trip to the storage 
facility, to request environmental services and keys, and to view 
special function rooms and request set-ups. Customers will be able to 
check the status of their requests through tracking numbers.
    This past year we also increased our support for the Senate in our 
framing and furnishings areas. We purchased a dry mounting press that 
expands the framing shop's capabilities by enabling permanent mounting 
of newspaper articles and photos, and we implemented a furniture 
finishing protocol that replicates the original finish for historical 
pieces in the Capitol.
    The opening of the Capitol Visitor Center will add 66,500 square 
feet of Senate space to our responsibilities: 41,000 square feet of 
office space, 8,000 square feet of meeting space, and 17,500 square 
feet of other space. Compared to our current obligations, we will clean 
and maintain almost one-third more office space and three times more 
meeting space, and will furnish over 50 percent more office and meeting 
space. This will require us to hire 17 new employees before the Center 
opens.
Printing, Graphics, and Direct Mail
    Printing, Graphics, and Direct Mail, or PGDM, provides printing, 
photocopying, design, and production services to the Senate. Last year, 
it printed 16,850,962 sheets in color (a 12 percent increase over the 
2004 volume, and 400 percent increase over 2003), and it produced 
almost 10,000 floor charts. PGDM provides a variety of other services 
to the Senate including the management of the Senate Support Facility, 
and support for the digital scanning of incoming constituent 
correspondence.
    Senate Support Facility.--We are pleased to report that we have a 
new, fully operational Senate Support Facility that enables us to 
provide secure storage for use by the Secretary of the Senate and the 
Sergeant at Arms. This facility provides a secure, climate-controlled 
environment to warehouse the Senate's historical art and artifacts, 
Senate equipment and supplies, and some of the Senate's emergency 
transportation vehicles. The facility came on-line this past February, 
and all the contents and functions of the six previously dispersed 
warehouse locations have been moved and consolidated into the new 
facility.
    Correspondence Support.--During 2005 the guidance we provided to 
Members' staffs on addressing outgoing mail in a format that takes full 
advantage of postage discounts resulted in savings of almost $2 
million. We also started offering digital scanning of incoming 
constituent mail and outgoing response letters that works in 
conjunction with the existing correspondence management systems. This 
new capability enables users to import images of their office mail. 
Sixteen Senate offices have chosen to use these imaging services, and 
we scanned more than 240,000 documents during the first twelve months 
of this program.
Employee Assistance Program
    Over the past year we enhanced and expanded our Employee Assistance 
Program. The program provides assessments and short-term counseling for 
Senate staff and their family members twenty-four-hours-a-day, seven-
days-a-week. It improves the ability of supervisors to manage troubled 
employees, to enhance the work environment, and to improve employee job 
performance. It also helps employees find the resources they need to 
address some of the personal challenges they face every day. The 
Employee Assistance Program coordinates with security staff to train 
people on reacting to emergencies and to ensure that processes are in 
place to deal with emergencies.
    During the past year, the EAP staff worked with people in the 
offices affected by Hurricane Katrina, and built even stronger 
relationships with managers across the Senate. The staff also trained a 
Peer Support Team that can provide immediate support to employees and 
their family members if they are affected by a critical event.
Recording Studio
    The Recording Studio televises the activity on the Senate Floor and 
in Committee hearings, and it provides a production studio and 
equipment for Senators' use. Last year, it televised all 1,222 hours of 
Senate Floor proceedings, as well as 744 Committee hearings.
    Committee Hearing Room Upgrade.--In 2003 we started a project to 
upgrade and install multimedia equipment in Committee hearing rooms. 
The project included digital signal processing, audio systems, and 
broadcast-quality robotic camera systems.
    To date we have installed upgrades in eight hearing rooms. Several 
more rooms are scheduled for upgrades in the near future. These 
enhancements include improved speech intelligibility and software-based 
systems that we can configure based on individual Committee needs. The 
system's backup will take over within minutes if the main electronics 
fail, and because the system is networked, staff can automatically 
route audio from one hearing room to other hearing rooms to accommodate 
overflow crowds.
    The most significant work we anticipate for the Senate Recording 
Studio over the next year is its move to the Capitol Visitor Center. 
This move will enable the Recording Studio to complete its upgrade to a 
full High Definition facility, and to implement a number of 
improvements that have been planned to coincide with the opening of the 
Center.
Education and Training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, D.C., and in the states. This past year, we conducted an 
assessment of our training program to ensure we are meeting the needs 
of the Senate community. The assessment helped us identify skills that 
are fundamental to success at the Senate, including the ability to 
communicate effectively and collaborate well. We also identified key 
skills for managers and supervisors, including the ability to motivate, 
create a vision, organize, and delegate. In response to the needs we 
identified, we will offer certificate curricula in communications and 
teamwork.
    The Education and Training group offered 425 classes in 2005, with 
6,920 Senate staff members taking advantage of these classes. The 
registration desk handled 31,960 e-mails, telephone calls, and on-line 
registration requests.
    Of the total number of classes, the technical training group 
offered 187 classes to 1,521 staff members, and provided coaching on 
various software packages and other computer-related subjects to 702 
staff members. The professional development area offered 237 classes to 
4,973 students, and delivered more than 50 special training and team 
building sessions to Member and Committee offices. The professional 
development group addresses team performance, communication, and 
conflict resolution, and we encourage managers and supervisors to 
request customized training for their offices. During the last quarter 
of the year, staff from the professional development group offered 
training through video teleconferencing to two state offices. In the 
health promotion area, 1,492 staff members participated in the Annual 
Health Fair held in September, and 1,240 participated in health 
promotion activities throughout the year, including cancer screening, 
bone density screening, and seminars on health-related topics.
    Most of the classes we offer are practical only for staff based in 
Washington, D.C., but we are continuing to expand our offerings to 
state office staff. In 2005 we offered three sessions of the State 
Training Fair to 119 state office staff, and we conducted our annual 
State Directors Forum for the 37 state managers and directors. The 
``Virtual Classroom,'' an Internet-based training library of over 500 
courses, also enables state office staff to take advantage of the 
Senate's training resources; 379 staff members from state offices and 
Washington, D.C., have taken advantage of this training option.
                        challenges for next year
    We met the challenges that we faced this year, and adapted our 
responses to provide better service and support to the Senate. While we 
do not know all the challenges next year will bring, we can anticipate 
some of them. We expect that the Capitol Visitor Center will open, that 
we will start to move forward on an enhanced process for issuing and 
accounting for Congressional identification and access cards, and that 
this year's election will result in some changes in the membership of 
the Senate. We also know that we will face challenges related to IT 
security, our technical infrastructure, and our work moving the 
Senate's business to the Web. We are planning for these changes.
Capitol Visitor Center
    The opening of the Capitol Visitor Center (CVC) will affect much of 
the work of this office. The Capitol Facilities group will be affected 
dramatically, since the work of that group will expand to include one-
third more space than it currently maintains. The opening will also 
affect the Senate Recording Studio, which will move into the new space. 
The CVC incorporates significant security features, and we are working 
with other agencies to develop the processes to ensure that the Capitol 
remains secure.
    As part of the Capitol Visitor Center, we are installing state-of-
the-art communications facilities in the Senate expansion space. We 
will provide a redundant communications path into the Capitol, and our 
in-building wireless coverage for cellular devices will extend into the 
core of the Center as well as into the Senate expansion space. We will 
also provide any additional office automation equipment required by the 
occupants of the space. Since most of the CVC's occupants are going to 
relocate from elsewhere on Capitol Hill, we do not expect to spend a 
significant amount of money on new equipment.
Congressional Identification and Access Cards
    The Executive Branch is implementing a major initiative to use 
Smart Cards as standard identification and access cards across all 
departments of the federal government. We have been following the 
progress it is making, and are also looking to determine how to 
increase the security surrounding identification and access cards 
issued at the Senate and across the Legislative Branch agencies. The 
processes for issuing cards are different across the Capitol campus. We 
are starting to work with representatives from each major Legislative 
Branch agency to identify the requirements that satisfy each agency's 
or organization's security policies so we can determine how we might 
create standard processes. Just within the Senate, we issue 
identification and access cards to people from the media, pages, 
interns, temporary staff, full-time staff, and others. During the 108th 
Congress, we issued 41,000 cards--15,000 to the press. The challenge of 
tracking and recovering these cards has been daunting. By undertaking 
this initiative, we expect to be able to increase the accountability 
for the cards and the security of the Senate.
Transition to New Congress
    This year, we will also face one challenge that we face every other 
year: the transition to a new Congress. Thirty-three Senators face 
election this year, and four Members have announced their retirement, 
so we will have at least four new Senators next year. The transition 
includes providing space for newly elected Senators, and providing the 
whole range of support they need to set up their offices and start 
accomplishing their work for the American people. We provide 
orientation for newly elected Senators, their Chiefs of Staff, and 
their Administrative Managers. We work to ensure that newly elected 
Senators learn about the resources available to help them serve their 
constituents and accomplish their legislative goals. We also make sure 
returning Senators and staff receive up-to-date information about the 
services available.
    We are engaged in closing down state and Capitol Hill offices of 
departing Members, equipping the transition office to house Senators-
elect from the date of election until the beginning of the next 
Congress, moving the newly sworn-in Senators into their temporary 
suites, and then moving offices as required during the regular office 
move process.
    For closing offices, we shut down all communications services, 
determine which equipment can be inherited by Members' successors, and 
inventory and remove all equipment in coordination with the other 
activities of the office. For new and relocated offices, we establish 
all communications facilities, acquire and install all office 
automation and general office equipment, and ensure that everything 
works as it should.
IT Security
    In the IT security threat environment, the list of potential 
threats to our information infrastructure is growing in number and 
sophistication. Over the next year, we will meet the challenge of 
managing a volatile security environment by: (1) expanding the role of 
the recently established security operations center; (2) optimizing our 
current configuration of security controls; (3) improving our 
collaboration with other federal agencies in the areas of incident 
response and situational awareness; (4) evaluating, testing, and 
deploying new security control mechanisms; and (5) enhancing 
communication with IT staff in Member and Committee Offices to give 
them timely and usable information in order to improve the security 
posture of their local IT systems.
Information Technology Infrastructure
    We will complete the build out of the wireless infrastructure for 
laptops; for the Parking, Guide Service, and Capitol Police radio 
systems; and for the Senate Cloakroom paging systems. We will also 
aggressively pursue alternative hand-held communications devices and we 
will ensure that any devices we support will deliver seamless emergency 
notifications. Finally, over the next year we will award the 
telecommunications modernization contract and complete its first 
phases. This comprehensive upgrade and replacement of our 
telecommunications systems will enable the Senate to take advantage of 
Voice over Internet Protocol and converged voice, video, and data 
communications.
Moving Business to the Web and Enterprise Software Initiatives
    We will continue our initiatives to reduce paperwork and move 
business to the Web by developing the TranSAAct portal to deliver and 
integrate services and systems and provide two-way Web interaction 
between customers and service providers. As we move forward on 
TranSAAct, we are working with Senate customers to identify and 
integrate additional requirements. We are also planning for the next 
major release of Microsoft's operating system, Vista. Deploying this 
system and integrating it with other applications will require 
tremendous effort. Building on these developments, we will work toward 
integrating systems and applications through a Web-services 
architecture that will reduce redundancy and eliminate ``stove-pipe'' 
systems.
                               conclusion
    We take our responsibilities to the American people and to their 
elected representatives seriously. The Office of the Sergeant at Arms 
is like dozens of small businesses, each with its own primary mission, 
each with its own measures of success, and each with its own culture. 
It has a fleet of vehicles that serves Senate Leadership, delivers 
goods, and provides emergency transportation. Our Photography Studio 
records historic events, takes official Senate portraits, provides the 
whole range of Capitol photography services, and delivers thousands of 
pictures each year. The SAA's printing shop provides layout and design, 
graphics development, and production of everything from newsletters to 
floor charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.
              Appendix A--Fiscal Year 2007 Budget Request
                              attachment i
                  financial plan for fiscal year 2007
          office of the sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $56,700     $62,604      $5,904        10.4
    Expenses....................................................     $65,505     $79,211     $13,706        20.9
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................    $122,205    $141,815     $19,610        16.0
                                                                 ===============================================
Mandated Allowances & Allotments................................     $55,282     $57,757      $2,475         4.5
Capital Investment..............................................     $17,262     $19,831      $2,569        14.9
Nondiscretionary Items..........................................      $3,951      $4,640        $689        17.4
                                                                 -----------------------------------------------
      TOTAL.....................................................    $198,700    $224,043     $25,343        12.8
                                                                 ===============================================
Staffing........................................................         910         944          34         3.7
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2007 
budget request of $224,043,000, an increase of $25,343,000 or 12.8 
percent compared to fiscal year 2006. The salary budget request is 
$62,604,000, an increase of $5,904,000 or 10.4 percent, and the expense 
budget request is $161,439,000, an increase of $19,439,000 or 13.7 
percent. The staffing request is 944, an increase of 34 FTEs.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
  --The general operations and maintenance salaries budget request is 
        $62,604,000, an increase of $5,904,000 or 10.4 percent compared 
        to fiscal year 2006. The salary budget increase is due to the 
        addition of 34 FTEs, a COLA, and merit funding. The additional 
        staff will support the Capitol Visitor Center, augment our 
        security team, expand services, and meet new requirements for 
        the Senate community.
  --The general operations and maintenance expenses budget request for 
        existing and new services is $79,211,000, an increase of 
        $13,706,000 or 20.9 percent compared to fiscal year 2006. Major 
        factors contributing to the expense budget increase are 
        emergency preparedness in security operations and planning, 
        $7,847,000; additional services and locations under the IT 
        support contract, $1,535,000; telephone system maintenance, 
        $1,097,000; consulting and equipment purchases for the Active 
        Directory Messaging Architecture, $1,024,000; and maintenance 
        costs related to Enterprise Storage, $585,000.
  --The mandated allowances and allotments budget request is 
        $57,757,000, an increase of $2,475,000 or 4.5 percent compared 
        to fiscal year 2006. This variance is primarily due to an 
        increase in Member mail system costs, $1,745,000; and state 
        office security enhancements of $700,000, offset by decreases 
        in office lease costs.
  --The capital investment budget request is $19,831,000, an increase 
        of $2,569,000 or 14.9 percent compared to fiscal year 2006. The 
        fiscal year 2007 budget request includes funds for the 
        replacement and upgrade of the telephone system, $10,475,000; 
        data network engineering costs, $2,345,000; electronic printing 
        and publication network, $1,800,000; hardware purchases related 
        to the SAN upgrade, $1,750,000; and the Network Upgrade 
        project, $1,646,000.
  --The nondiscretionary items budget request is $4,640,000, an 
        increase of $689,000 or 17.4 percent compared to fiscal year 
        2006. The request funds three projects that support the 
        Secretary of the Senate: contract maintenance for the Financial 
        Management Information System (FMIS), $3,703,000; maintenance 
        and necessary enhancements to the Legislative Information 
        System (LIS), $840,000; and maintenance and enhancements to the 
        Senate Payroll System, $97,000.
     attachment ii.--fiscal year 2007 budget request by department
    The following is a summary of the SAA fiscal year 2007 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division................................................     $25,568     $35,399      $9,831        38.5
Operations......................................................     $52,515     $53,558      $1,043         2.0
Technology Development..........................................     $41,153     $47,676      $6,523        15.9
IT Support Services.............................................     $66,927     $71,901      $4,974         7.4
Staff Offices...................................................     $12,537     $15,509      $2,972        23.7
                                                                 -----------------------------------------------
      TOTAL.....................................................    $198,700    $224,043     $25,343        12.8
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $14,530     $15,908      $1,378         9.5
    Expenses....................................................      $7,938     $15,691      $7,753        97.7
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $22,468     $31,599      $9,131        40.6
                                                                 ===============================================
Mandated Allowances & Allotments................................      $3,100      $3,800        $700        22.6
Capital Investment..............................................  ..........  ..........  ..........  ..........
Nondiscretionary Items..........................................  ..........  ..........  ..........  ..........
                                                                 -----------------------------------------------
      TOTAL.....................................................     $25,568     $35,399      $9,831        38.5
                                                                 ===============================================
Staffing........................................................         273         278           5         1.8
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$15,908,000, an increase of $1,378,000 or 9.5 percent. The salary 
budget increase is due to the addition of five FTEs, a COLA and merit 
increases, and other adjustments. The Office of Security and Emergency 
Preparedness requires an additional COOP planning specialist, and the 
Post Office will add four mail specialists to handle the opening, 
examining, and sampling of commercially delivered packages to the new 
Senate offsite processing facility.
    The general operations and maintenance expenses budget request is 
$15,691,000, an increase of $7,753,000 or 97.7 percent, and will 
primarily will fund security consultants and services required by the 
Office of Security and Emergency Preparedness.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,800,000.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                   Fiscal      Fiscal        Fiscal Year 2006
                                                                  Year 2006   Year 2007 ------------------------
                                                                   Budget      Request                  Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $16,592     $18,308      $1,716         10.3
    Expenses...................................................      $5,971      $6,323        $352          5.9
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $22,563     $24,631      $2,068          9.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $27,332     $26,777       ($555)        -2.0
Capital Investment.............................................      $2,620      $2,150       ($470)       -17.9
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $52,515     $53,558      $1,043          2.0
                                                                ================================================
Staffing.......................................................         302         319          17          5.6
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking Office, Printing,
  Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support Services
  Group (Director, Customer Support, State Office Liaison, IT Request Processing and Administrative Services).

    The general operations and maintenance salaries budget request is 
$18,308,000, an increase of $1,716,000 or 10.3 percent. The salary 
budget increase is due to the addition of 17 FTEs, an expected 3.5 
percent a COLA, and merit increases. Facilities expects to hire 17 
staff to maintain the Senate expansion space in the Capitol Visitor 
Center.
    The general operations and maintenance expenses budget request is 
$6,323,000, an increase of $352,000 or 5.9 percent. In Printing, 
Graphics and Direct Mail, increases in software and equipment 
maintenance, $185,000, and purchased equipment, $120,000, are offset by 
a decrease in warehouse rent, $860,000. Facilities furnishings and 
materials increase $516,000.
    The mandated allowances and allotments budget request is 
$26,777,000, a decrease of $555,000 or 2.0 percent. This decrease is 
due to projected decreases in commercial and federal office expenses.
    The capital investment budget request is $2,150,000, a decrease of 
$470,000 or 17.9 percent. Funding is requested to purchase a new 
electronic printing and publishing network, $1,800,000, and to replace 
photo printing equipment and upgrade software, $250,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $11,787     $13,127      $1,340        11.4
    Expenses....................................................     $22,948     $23,398        $450         2.0
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $34,735     $36,525      $1,790         5.2
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................      $2,467      $6,511      $4,044       163.9
Nondiscretionary Items..........................................      $3,951      $4,640        $689        17.4
                                                                 -----------------------------------------------
      TOTAL.....................................................     $41,153     $47,676      $6,523        15.9
                                                                 ===============================================
Staffing........................................................         134         140           6         4.5
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$13,127,000, an increase of $1,340,000 or 11.4 percent. The salary 
budget increase is due to the addition of six FTEs, a COLA and merit 
funding for fiscal year 2007. Technology Development requires six FTEs 
to support the growing demand on IT Security, to meet additional 
requirements for the ACF, and to eliminate of a backlog of development 
projects.
    The general operations and maintenance expense budget request is 
$23,398,000, an increase of $450,000 or 2.0 percent. This increase is 
due to increased equipment maintenance and professional services costs 
in IT Security, $422,000; the purchase of computer and mainframe 
equipment and furnishings in Enterprise IT Operations, $638,000; and 
hardware and software maintenance for Enterprise Storage, $585,000, 
offset by a decrease in support costs for the Senate Messaging 
Infrastructure, $1,000,000.
    The capital investment budget request is $6,511,000, an increase of 
$4,044,000 or 163.9 percent. Major projects include the SAN Upgrade, 
$1,750,000; network upgrade in support the Telecom Modernization Plan, 
$1,550,000; and the fiber optic migration, $900,000.
    The nondiscretionary items budget request is $4,640,000, an 
increase of $689,000 or 17.4 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System (FMIS), maintenance and 
necessary enhancements to the Legislative Information System (LIS), and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                   Fiscal      Fiscal        Fiscal Year 2006
                                                                  Year 2006   Year 2007 ------------------------
                                                                   Budget      Request                  Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................      $5,714      $6,260        $546          9.6
    Expenses...................................................     $24,663     $27,821      $3,158         12.8
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $30,377     $34,081      $3,704         12.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $24,850     $27,180      $2,330          9.4
Capital Investment.............................................     $11,700     $10,640     ($1,060)        -9.1
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $66,927     $71,901      $4,974          7.4
                                                                ================================================
Staffing.......................................................         105         107           2          1.9
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$6,260,000, an increase of $546,000 or 9.6 percent. The salary budget 
will increase due to the addition of two FTEs, a COLA, and merit 
funding for fiscal year 2007. The additional FTEs will support 
procurement activities and provide advanced technical expertise.
    The general operations and maintenance expenses budget request is 
$27,821,000, an increase of $3,158,000 or 12.8 percent. The most 
significant factors contributing to this increase are telephone system 
maintenance costs, $1,097,000, and annual escalations in the IT Support 
Contract, $1,535,000.
    The mandated allowances and allotments budget request is 
$27,180,000, an increase of $2,330,000 or 9.4 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,395,000; procurement and 
maintenance of Members' constituent mail systems, $6,000,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $2,857,000; and Appropriations Analysis and Reporting 
System, $500,000.
    The capital investment budget request is $10,640,000, a decrease of 
$1,060,000 or 9.1 percent, and consists primarily of equipment 
purchases for the replacement of the Capitol Hill telephone system, 
$10,475,000.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................      $8,077      $9,001        $924        11.4
    Expenses....................................................      $3,985      $5,978      $1,993        50.0
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $12,062     $14,979      $2,917        24.2
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................        $475        $530         $55        11.6
Nondiscretionary Items..........................................  ..........  ..........  ..........       100.0
                                                                 -----------------------------------------------
      TOTAL.....................................................     $12,537     $15,509      $2,972        23.7
                                                                 ===============================================
Staffing........................................................          96         100           4         4.2
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$9,001,000, an increase of $924,000 or 11.4 percent. The salary budget 
increase is due to the addition of four FTEs, a COLA, and merit 
funding. Process Management and Innovation requires two FTEs to oversee 
the Active Directory Messaging Architecture. Human Resources and 
Employee Assistance Program each requests an additional FTE to 
accommodate increased staff and demand.
    The general operations and maintenance expenses budget request is 
$5,978,000, an increase of $1,993,000 or 50.0 percent. The bulk of this 
increase is due to funding for Process Management and Innovation's 
professional services and consultants in support of information 
technology prototypes and innovation research and development.
    The capital investment budget request is $530,000, an increase of 
$55,000 or 11.6 percent, for continuing project support.

                           STAFFING INCREASES

    Senator Allard. Well, thank you. I have a few questions 
that I feel that we need to ask to fully understand what kind 
of plan you are putting together. As we have mentioned, you 
have requested 34 additional staff. Half of those are for the 
CVC--they are new jobs. The other half is for duties and 
responsibilities outside the Capitol Visitor Center, and I 
would like to have an explanation of why you need those and 
what functions are driving that additional staff requirement 
outside the Capitol Visitor Center.
    Mr. Pickle. Okay. Mr. Chairman, if I may, let me give you a 
broad answer for those 17 outside the Capitol and then give you 
a written response that breaks down each position. I think this 
will give you a much more thorough answer.
    Senator Allard. That would be helpful.

                              MAIL SAFETY

    Mr. Pickle. Okay. Essentially, the 17 positions outside the 
CVC are positions that, for the most part, support or enhance 
security. For instance, 4 of those 17 are positions that will 
go to our new mail and package facility. As you know, we 
currently process our own mail at the Senate Post Office. It 
will be a state-of-the-art facility that this subcommittee has 
funded. By all accounts, it's one of the best in the Nation. A 
vendor currently processes packages, and we are taking over the 
package screening and delivery process ourselves. We will use 
four Federal employees to do it. We believe the cost savings 
will be about $200,000 per year. We base this on what we are 
currently paying to the vendor, and we also base it on what we 
see being done on the House side. I like to brag a little bit 
about our staff and what this subcommittee has supported in 
that regard. We currently process about 90 percent of the mail 
volume that the House does. A lot of people think it should be 
much more on the House side, but it's not. Our volume is 90 
percent of the House's volume. Yet, we process that mail at 
almost a $7 million savings per year because we use Senate 
employees. We think similar savings--not as great--will result 
from using Senate employees for the packaging process. In 
addition to those four staff members, there are other FTEs 
sprinkled throughout the SAA to support network applications, 
technology, as well as security and preparedness. One of the 
positions which I do want to highlight for just a moment is in 
our Employee Assistance Program. I don't think people realized 
how important that program is until we began to professionalize 
it here several years ago. Our Employee Assistance Program is 
under a lot of demand from the Senate community. As you know, 
every time we have an incident or a crisis here, we are 
overwhelmed with the particular needs of the staff who work 
here. This program also helps and benefits each office a great 
deal. It helps managers. It helps staff directors. It teaches 
staff to deal with employees that may have some problems and 
issues. It is a single position, but it's a very important 
position. And so what I would like to do with all the others, 
if I may, is give you a much more detailed breakdown, sir.
    [The information follows:]
       Sergeant at Arms Position Justification--Fiscal Year 2007
    Department: Office of Security & Emergency Preparedness
    Branch/Section: Continuity Programs
    Position Title: Continuity Of Operations Planning (COOP) Planning 
Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB10, $67,675-
$101,508
    Essential Duties of Position: The new staff will operationally 
support the continuity program's existing relocation facilities and 
those that are coming online or being planned for fiscal year 2006. The 
new staff will work from classified or sensitive sites to ensure the 
Senate's operational viability, and will support the State Office COOP 
planning efforts that were initiated in fiscal year 2006.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. Some of these duties are being performed 
now. Current staff is assigned to support primary contingency 
facilities within the National Capitol Region and to support Member 
Offices' COOP planning efforts, but this leaves other facilities 
unattended with questionable operational status in the event of an 
emergency. The COOP planning support for Members' DC and State office 
locations is currently not being adequately supported and this work 
will overwhelm our current planning and preparedness capabilities.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If the request is not approved, the level of 
planning, preparedness, and response to ensure an effective transition 
to a continuity of operations situation for Member Offices, Committees, 
Senate Offices, and the Senate as a whole will not be adequate. Not 
approving this position would limit our ability to support Member and 
Committee Offices' continuity planning efforts as well as our ability 
to ensure facility readiness for the Senate as a whole.

    Department: Facilities
    Branch/Section: Environmental Services
    Position Title: Facilities Worker
    No. of Positions Requested: 14
    Pay Band Pay Band & Salary Range: Salary Range: PB3, $33,824-
$50,733
    Essential Duties of Position: The new facilities day staff will 
clean corridors, perform stairway maintenance, set up water for special 
events, and clean up waste. Throughout the day, the staff will ensure 
that the area is clean, decontaminated, and free of all fluid, debris, 
spots, stains and odor. The staff will assist in moving furniture, 
delivering non-furniture items, cleaning public restrooms, setting up 
for special events, and removing trash.
    The new facilities night staff will clean elevators and stairwells, 
conduct early morning room set-ups and break downs, and clean corridors 
and restrooms. The staff will also undertake nightly office cleaning 
and floor care, and will spot clean fabric wall panels.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we believe that 
the cost of contracting these services at the service level the Senate 
expects would be prohibitive. Capitol Facilities provides a 
significantly higher level of service than does the AOC's contractor. 
Capitol Facilities consistently delivers the high level of service 
required by the Senate, including an environment that is consistently 
dust-, debris-, and smudge-free; restrooms that are stocked, cleaned 
and sanitized; and floors that are free of dust, debris, soil and 
stains.

    Department: Facilities
    Branch/Section: Environmental Services
    Position Title: Lead Facilities Worker
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB4, $37,581-
$56,368
    Essential Duties of Position: New staff will dedicate 75 percent of 
their time to performing the same duties as the Facilities Workers that 
make up their teams. The remaining time will be dedicated to inspecting 
the team's work.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we believe that 
the cost of contracting these services at the service level the Senate 
expects would be prohibitive. Capitol Facilities provides a 
significantly higher level of service than does the AOC's contractor. 
Capitol Facilities consistently delivers the high level of service 
required by the Senate, including an environment that is consistently 
dust-, debris-, and smudge-free; restrooms that are stocked, cleaned 
and sanitized; and floors that are free of dust, debris, soil and 
stains.

    Department: Facilities
    Branch/Section: Facilities Management
    Position Title: Facilities Services Supervisor
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB6, $46,395-
$69,593
    Essential Duties of Position: New staff will assign work, provide 
performance accountability, and provide leadership to the team leaders 
and facilities workers. In addition this staff member will plan work, 
ensure adherence to safety procedures and measures, and ensure that 
staff members comply with Capitol Facilities policies and procedures.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, facilities 
workers and team leaders will not have the guidance necessary to meet 
the cleaning and service needs of the Senate Expansion Space. Customer 
service and customer service will be affected adversely.

    Department: Post Office
    Branch/Section: Package Delivery Services
    Position Title: Mail Specialist
    No. of Positions Requested: 3
    Pay Band Pay Band & Salary Range: Salary Range: PB3, $33,824-
$50,733
    Essential Duties of Position: New staff will screen all incoming 
commercial carrier package deliveries (e.g., deliveries from UPS, 
FedEx, DHL, etc.). In addition, these three specialists will process 
items that are too large for the Congressional Acceptance Site.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by a contractor. The current service levels provided by the contractor 
are inadequate and result in late deliveries, incorrect routings, and 
damaged, lost, and unprocessed items.
    The new positions are requested to enable the Senate Post Office to 
bring the processing of packages in house. We expect that this will 
result in significantly better service. The cost to the Senate is 
approximately $170,000 per year, but will result in savings in excess 
of $200,000 annually.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the Senate will 
continue to experience inadequate service levels, and it will not 
realize the $200,000 savings that we anticipate. The Senate will have 
to continue contractor support at approximately $470,000 per year. 
Costs and savings represent total amounts for the Package Delivery 
service.

    Department: Post Office
    Branch/Section: Package Delivery Services
    Position Title: Lead Mail Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB4, $37,581-
$56,368
    Essential Duties of Position: New staff will monitor employees 
processing commercial carrier packages (e.g. FedEx, UPS, DHL, etc.) and 
ensure that proper screening procedures are followed at all times.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by a contractor. The current service levels provided by the contractor 
are inadequate and result in late deliveries, incorrect routings, and 
damaged, lost, and unprocessed items.
    The new position is requested to enable the Senate Post Office to 
bring the processing of packages in house. We expect that this will 
result in significantly better service. The projected salary cost for 
one Lead Mail Specialist is $36,000 in fiscal year 2007. Cost to the 
Senate is approximately $50,000 per year, but will result in savings in 
excess of $200,000 annually.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the Senate will 
continue to experience inadequate service levels, and it will not 
realize the $200,000 savings that we anticipate. The Senate will have 
to continue contractor support at approximately $470,000 per year. 
Costs and savings represent total amounts for the Package Delivery 
service.

    Department: Technology Development
    Branch/Section: Systems Development--Enterprise Database Support
    Position Title: Senior Information Technology Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: Pay Band 10, 
$67,675-$101,508
    Essential Duties of Position: New staff will administer Windows 
System and SQL Server Databases.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. Duties are currently being performed by 
one individual in the Enterprise Database Support group. Significant 
growth in demand for services and advanced technology implementations 
of this software have created a critical need for additional resources. 
The same person who performs these duties also ensures continuous 
systems availability and performs disaster recovery duties. Having only 
one person with the expertise and daily involvement with the underlying 
architecture that supports critical Senate services, such as Senate.gov 
and the ADMA Blackberry backend database, puts the Senate in a 
precarious position.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, services will 
continue to be supported, but not as rapidly as the demand warrants. In 
addition, Senate services may be severely affected by lack of support 
if our single existing resource is unavailable.

    Department: Technology Development
    Branch/Section: Enterprise IT Operations--Enterprise Ops
    Position Title: Information Technology Operations Specialist
    No. of Positions Requested: 3
    Pay Band Pay Band & Salary Range: Salary Range: PB6, $46,395-
$69,593
    Essential Duties of Position: New staff will manage current 
production systems that are running at the ACF, such as the enterprise 
SILO tape backup system, systems failed over to the ACF, and various 
facility related tasks. Duties also include providing first response to 
problems during emergencies, backing up the primary facility support 
duties for the 24 X 7 Blackberry server, and monitoring and 
administering the Senate's email system and payroll applications.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are being performed by one 
thinly staffed shift at the ACF five days per week. Some of the duties 
are being conducted remotely and some by rotating Primary Computing 
Facility staff from Postal Square. However, significant gaps exist.
    With the continued evolution of the systems running from the ACF 
there is a need to fully support the ACF with multiple shifts. The ACF 
is now running key services, such as all enterprise backups of critical 
applications. Transitioning into a multi-shift operation, similar to 
the operation of the primary computing facility, is needed to support 
the continued expansion of workload, and to maintain a continuously 
efficient operation.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we run the risk 
of delaying resolution of system problems that arise outside of normal 
business hours. We also run the risk of delaying response time in the 
case of an emergency, and directly affecting business continuity.

    Department: Technology Development
    Branch/Section: IT Security
    Position Title: Senior Information Security Specialist
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB10, $67,675-
$101,508
    Essential Duties of Position: The new staff would collect and 
analyze data in the Security Operations Center and resolve or eliminate 
anomalies/security events; assist Member offices on network security 
issues; monitor SAA enterprise systems; improve external contact in 
order to stay abreast of rapidly changing computer network attack 
profiles; and make full use of new enterprise-wide security 
technologies deployed this year that allow us to perform activities 
that were formerly performed by contractors. Staff also will provide 
support and analysis associated with the new capabilities in Symantec 
client software (firewall, anti-spyware/adware, etc.).
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. IT Security currently has staff that 
performs most of the essential duties described, but the staff will not 
be able to meet the additional demands it anticipates. Due to the 
number of new security initiatives that are the result of increasing 
threats, the overall workload of the staff continues to grow. Security 
issues and systems are increasingly complex, requiring more time and 
resources for satisfactory resolution and adequate backup.

    Department: IT Support Services
    Branch/Section: Office Equipment Services--Order Services
    Position Title: Senior Procurement & Supplies Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB 5, $41,756-
$62,635
    Essential Duties of Position: New staff will handle wireless device 
issues including provisioning telecommunications/wireless services, 
providing advanced troubleshooting for major vendors and systems, using 
a comprehensive understanding of multiple product lines and service 
offerings to provide rate and service plan analysis for customers, 
conducting complete hot swaps, modifying accounts, and providing 
billing support.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by SAA staff. Senate wireless equipment needs have increased 
dramatically over the past two years and the trend is continuing. 
Although staffing levels have remained the same, Senate staff expects 
wireless equipment to be available immediately. Current resources make 
it extremely difficult to stay abreast of the ordering demands and the 
programming and tracking of wireless equipment.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the SAA will not 
be able to fully meet the Senate's service level expectations. We think 
that the least costly approach is through hiring an additional staff 
member as opposed to contracting for this support. We do not believe 
that reduced service levels are acceptable to the Senate.
    The pay salary range will be $41,756 to $62,635. When a contractor 
was approached about the possibility of providing one person to do only 
some of the duties discussed above, their cost estimate was $150,000 to 
$175,000 per year.

    Department: IT Support Services
    Branch/Section: Desktop/LAN Support--CMS Coordination
    Position Title: Principal Information Technology Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB 11 Pay Range: 
$73,086-$109,628
    Essential Duties of Position: This position will evaluate and guide 
vendor development efforts in the areas of Web development, electronic 
messaging, and electronic document management; lead projects, 
especially those related to constituent e-mail processing; be a 
technical resource for other CMS Coordination staff; and perform 
liaison work with other SAA departments.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These tasks are currently being performed 
by contract staff that has been engaged to provide these capabilities. 
The new position is being requested in order to continue to have access 
to this level of experience and expertise.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the CMS 
Coordination group will continue to incur the higher cost of 
contracting out for this position. The CMS Coordination group supports 
the existing model for correspondence management, but in order to adapt 
to the changes that will result from the introduction of new electronic 
communications capabilities in Senate offices and an anticipated 
increase in the number of CSS vendors, we need additional staff. The 
new staff must have in-depth expertise in Web form development, 
electronic messaging, and electronic document management. Because CSS 
vendors will soon operate within a different, more stringent contract 
structure, existing staff's time will be fully committed to ensuring 
contract compliance. In addition, existing staff will oversee the e-
Newsletter vendor contracts. These activities will require all of the 
existing CMS Coordination resources. The pay range for the new position 
is $73,086-$109,628. The position is currently contracted out at 
$205,577 per year.

    Department: Process Management & Innovation
    Branch/Section: IT Research & Deployment--Technology Assessment
    Position Title: Principal Information Technology Specialist
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB11, $73,086-
$109,628
    Essential Duties of Position: The new positions will be responsible 
for all aspects of the Active Directory & Messaging Architect (ADMA) 
design. All design changes, security updates, migration processes, 
software updates, product upgrades, and add-in products, whether part 
of the core system or peripherally integrated, must go through a 
rigorous design, testing, pilot, and implementation process.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by on-site contractor staff at an annual cost of approximately 
$600,000. Replacing these contractors with staff will create a 
significant dollar savings for the Senate and will allow for more 
flexibility in work assignments. These duties will be ongoing for many 
years to come and the recurring annual dollar savings will be over 
$300,000.
    An additional benefit is continuity of institutional knowledge. On-
site contractors are subject to periodic personnel changes. When 
contractors leave, all of the Senate-specific technical and business 
institutional knowledge leaves with them and there is a significant 
learning curve and negative service impact associated with the 
replacement of staff. This situation will be avoided by using permanent 
Senate staff.
    If this request is not approved, what will be the service or cost 
impact on the Senate: The current cost of on-site contractors 
performing these duties is approximately $600,000 per year. The cost of 
these FTEs will easily be less than $300,000 resulting in at least a 
$300,000 savings.

    Department: Staff Offices
    Branch/Section: Human Resources
    Position Title: Human Resources Technician
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB5, $41,756-
$62,635
    Essential Duties of Position: The new staff will be responsible for 
scanning personnel records into the personnel records management 
system, which will be implemented during fiscal year 2006. This staff 
member also will provide support to the HR Administrators in carrying 
out their labor relations responsibilities with respect to the unions 
representing Capitol Facilities and Recording Studio employees.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not being performed now. 
A vendor has been chosen for the records management system and we are 
working on an implementation plan. Negotiations on Collective 
Bargaining Agreements are currently underway with the two unions 
representing the Capitol Facilities and Recording Studio employees.
    If this request is not approved, what will be the service or cost 
impact on the Senate: It would be impossible for the current HR 
Technician to assume this new workload. If this position is not 
approved, HR Administrators will be required to assume these lower-
level responsibilities and the level of service that will be provided 
to clients will be adversely affected. It will take longer to classify 
positions, it will take longer to fill positions, training activities 
will be provided less frequently, availability to consult with clients 
will be affected, etc. In order to accomplish essential functions and 
to meet critical deadlines, we might be required to pay overtime to 
non-exempt staff and to provide compensatory time to other staff.

    Department: Staff Offices
    Branch/Section: Employee Assistance Program
    Position Title: EAP Counselor
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB9, $62,260-
$93,388
    Essential Duties of Position: The new staff will provide 
comprehensive mental health assessment, referral, and follow-up 
services in the workplace and provide counseling and short-term therapy 
for staff and family members on a wide range of sensitive and complex 
matters. Staff will also counsel supervisors in the recognition and 
referral of employees with problems and promote good mental health 
practices through articles, training programs, publications, Web page, 
etc.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. The present EAP (staff of two) is trying 
to cover these duties.
    If this request is not approved, what will be the service or cost 
impact on the Senate: With a reduction in proactive outreach to 
troubled employees there will be higher turnover, an impact on moral, 
and, in some cases, an impact on employee productivity.

                           STAFFING INCREASE

    Senator Allard. I want to follow up on that with some other 
questions. If we are not able to provide the increases that you 
asked for, would we get a decrease in services?
    Mr. Pickle. I think it's a combination of the two. And the 
best analogy I can use--in 1997, I believe it was, or 1998, 
there was a conscious effort on the part of the Sergeant at 
Arms to reduce FTEs. There was about a 50 FTE reduction that 
year. By all accounts, from people who are still here and the 
people we deal with, after the reduction, the services that we 
provided did not meet expectations. September 11 exacerbated 
the problem. It created additional needs. It created a need for 
additional staff and additional technologies. We will keep 
plugging away and do the very best job, and that will be our 
goal, but I think there will be some diminishing of services.
    Senator Allard. Well, we're looking at the chart here on 
your FTE budget for the Sergeant at Arms, and I see where we 
had a decrease in personnel from 2000 to 2001.
    Mr. Pickle. Yes.
    Senator Allard. And then from there, we have a regular 
steep climb----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. In personnel. And so, I would 
like to get back to the 18 that you requested last year.
    Mr. Pickle. Yes.
    Senator Allard. Can you tell us the status of those new 
hires?
    Mr. Pickle. Out of the 18 positions you gave us last year, 
12 have been filled. The other six have been announced and 
posted. Two of those six had job offers made to them, but they 
withdrew their acceptance and did not come onboard. So, we 
still have six of those which have been posted but not filled. 
Our dilemma is that some of these jobs are of such significance 
and importance to us that we don't want--especially in the 
technology area--to take people just to fill the slot. We are 
looking for the very best. So we may penalize ourselves 
somewhat by not hiring right away, but I think that's the best 
course of action.
    Senator Allard. Okay. We want to look at that closely.
    Mr. Pickle. I understand.
    Senator Allard. You have four there that haven't been 
filled for various reasons, and I assume that that request you 
made is in addition to the 18 that we provided for last year.
    Mr. Pickle. Yes, the 34 are in addition. Yes, sir.

CUSTODIAL WORKERS FOR THE SENATE CAPITOL VISITOR CENTER EXPANSION SPACE

    Senator Allard. Now, there are 17 personnel you have 
included that are supposed to be for cleaning and maintaining 
the expansion space in the Capitol Visitor Center. The 
Architect of the Capitol, if you have noticed his budget, has 
included $1.5 million for a custodial contract for the entire 
Capitol Visitor Center. So, it looks from our point of view as 
though there has been a double accounting here. Doesn't it make 
sense to let AOC contract out for this requirement?
    Mr. Pickle. You know, I think in a perfect world, it makes 
sense that we have one organization do everything. It just 
makes sense. The only reason I believe we have a Capitol 
facilities division that does maintenance, is that the Senate 
was a little unhappy with some of the contract work done years 
ago. It was a decision made by whomever was in charge at that 
time that the maintenance functions be put under the Senate, 
and that's why we have a Capitol facilities division that does 
maintenance and cleaning on the Senate side of the Capitol. I 
don't have any strong feelings on it except to say that it's 
usually better when you have people who are working around the 
Senate and sensitive information and documents, its better to 
have people who work for you, who you have some control over. 
You have a much more stable workforce. Now, whether this is an 
in-house workforce under the Architect or under us, I really 
don't care. I just think that we need to get the best people we 
can.
    Senator Allard. It might be that we have to try a 
contractor. If it doesn't work out, we could always go back----
    Mr. Pickle. Sure.
    Senator Allard [continuing]. The other route.
    Mr. Pickle. Sure.
    Senator Allard. But it's something we'll look at, at least.
    Mr. Pickle. Mr. Chairman, you know, I think what--the way 
we envisioned that--and it's pretty simplistic. We currently 
maintain the Senate wing of the Capitol. What we are going to 
have in the CVC is an expansion of the Senate wing. So, we were 
just going to enlarge our workforce to cover that. But again, 
whatever makes economic sense and is more efficient, we are all 
for.

                  SECURITY AND EMERGENCY PREPAREDNESS

    Senator Allard. The budget for the security and emergency 
preparedness has grown from $4 million in 2002 to $8.5 million 
in fiscal year 2006. And there's another large increase we're 
looking at for this year----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. A total of $18 million. Why 
are we looking at an increase of this magnitude, and can we 
begin to expect the budget to begin to level out instead of 
seeing these large double-digit increases?
    Mr. Pickle. It is a large increase at first blush. But I 
think that much of what we have in the area of security has 
been funded since 2002 in part by the Emergency Response Fund 
(ERF) as well as reprogramming that this subcommittee has 
allowed us to do and provided for us. The ERF funds have 
decreased. We now have items that need to be funded on an 
annual basis, and the supplemental is no longer available. 
These items have a life cycle to them. There are other items 
which are services and outsourced services that we provide here 
on the Hill--and these are all new services since 2001-2002 for 
the most part and to over 450 State offices. So, the job has 
increased enormously. I would like to say there is a 
moderation, but in all honesty, I don't see how it's going to 
moderate much. I think once we have a base, we will try to live 
within that base, and obviously, we will live within what we 
are given. But we simply meet the demands of the Senate, and 
what we are----
    Senator Allard. Have you looked at what funding we have 
picked up in ongoing programs and emergency funding and--how 
many years out we may be looking at before we can stabilize our 
base, assuming that we don't have any more emergency 
appropriations?
    Mr. Pickle. I have not personally, but we will get an 
answer for you on that.
    Senator Allard. I think that would be helpful to the 
committee to understand what is happening in that area.
    Mr. Pickle. We'll do it.

                      TELEPHONE SYSTEM REPLACEMENT

    Senator Allard. Can you give me an update on the status of 
the telephone system replacement and what's happening there?
    Mr. Pickle. Last year, this subcommittee provided about 
$10.5 million for the telecommunications modernization plan. 
This year, we are asking for another $10.5 million. We are near 
the completion of our RFP, or request for proposal, that will 
go out to the different vendors in the communications industry. 
We are hoping to start right away on making some of the changes 
here, modernization changes. As you know, it's a lot of money. 
I think you asked me the question last year, will we spend all 
$10 million in the one fiscal year. My answer was probably not. 
And we were absolutely right; we haven't spent it all. Do we 
need to do it? We do. The current telephone system is 20 years 
old. So, and in the past 20 years, technology has changed 
tremendously. The industry is going toward a converged 
technology where you have a convergence of digital, video, and 
voice data. We need to do things such as replace switches, 
replace handsets--all the handsets--we need to make sure that 
our voice mail works, that all of the different wireless 
devices we have, whether they are Blackberry or cell phones or 
pagers, can be integrated. It's a big job, and it will take 
some time.
    Senator Allard. Yes, and there are some changing 
technologies. Voice over Internet Protocol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. Has the potential to save a 
lot of money, but that technology has to be worked out. There 
are some issues as to the domain that have to be worked out 
before we get those kinds of things, but it means things are 
getting more competitive. And hopefully, we can hold down 
costs.
    Mr. Pickle. Well, they certainly are, and we fully believe 
that the bids that we get will include Voice over Internet 
protocols. We know that the phone industry, the 
telecommunications industry, believes that's where we are going 
with telephony.
    Senator Allard. Yes. Do you still expect the cost to total 
close to $20 million when we're all done?
    Mr. Pickle. To my understanding, approximately $20 million.
    Senator Allard. Okay, and I am assuming that you are 
expecting an improvement in service to the end users?
    Mr. Pickle. Absolutely, yes--my CIO is going to guarantee 
it.

                        MAIL PROCESSING FACILITY

    Senator Allard. I'm glad they're here to hear that. Okay, 
let's talk a little bit about the mail processing facility. 
What's the status of this facility, and what are your total 
cost projections there?
    Mr. Pickle. The mail facility--I believe our total cost is 
$14.9 million, some of which has come from the supplemental. We 
hope to have the mail facility completed in the near future. 
We're going to take one of our remote mail facilities, and move 
it to another facility here, a little west and north of us. And 
at the mail facility, we are going to be able to do the mail 
processing and screening, as well as the package delivery and 
screening. So, it will be one consolidated location. And we're 
within budget, and we're meeting the milestones there.

                           VENDOR DELIVERIES

    Senator Allard. Okay. Now, following up on this, the one 
part of it is the process, and the other one is the delivery 
here to the Capitol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. And you're planning on 
implementing, on a pilot basis, a new method of transferring 
deliveries (other than mail) to the Capitol. Could you tell me 
a little bit about the status of that pilot project?
    Mr. Pickle. Yes. Currently the Capitol Police have a remote 
site. They had a permanent site, but they have been forced to 
move for various reasons, and they are at an interim site now. 
Essentially what takes place there is many of the goods which 
are destined for the Capitol are delivered there, they're 
examined or screened, and then they are transported here to the 
Capitol. I don't want to get into much more than that if you 
don't mind. We are revalidating our requirements. We are 
working closely with the Architect and the House and also 
having discussions with the Library of Congress. What we are 
proposing to do is create a new transfer model. And in very 
simple terms, what it will do is it will allow us to receive 
goods and perishables and other items at a remote site. These 
items will be offloaded from vendors trucks. They will be 
screened and examined, and declared safe. They will be put on 
Government trucks and delivered here to the Capitol. There are 
several advantages to this. First of all, we reduce 
dramatically the number of trucks you see here on the campus, 
and that's a big security issue. We also have items delivered 
by trusted employees, Federal employees who have been vetted 
and had background checks conducted on them. And third, it 
should save us in damaged goods, late goods and perishables, 
and lost goods.
    Senator Allard. Ultimately, that could lead to us having 
our own truck fleet here on the Capitol.
    Mr. Pickle. It would--yes, but at a very small level. I 
would compare it to something you see at other agencies such as 
the State Department, the White House, or the CIA, very 
similar. It's a very cost-effective process, I understand, from 
looking at these programs.

                           STRATEGIC PLANNING

    Senator Allard. Now, in your opening comments, you talked 
about trying to meet our interests as far as setting down goals 
and objectives and meeting those. Is this what you refer to as 
your strategic plan?
    Mr. Pickle. Strategic plan, yes it is.
    Senator Allard. When will you have that available?
    Mr. Pickle. We should have that--I'm going to look over my 
shoulder--in a month. I got the right answer, yes.
    Senator Allard. Okay. Well, we'll look forward to having it 
in a month.
    Mr. Pickle. Okay, great. Thank you.
    Senator Allard. Well, we do look forward to seeing what you 
have put together there.
    Mr. Pickle. Thank you.
    Senator Allard. I don't believe we have any more questions. 
I want to thank you for your service.
    Mr. Pickle. Thank you very much.
    Senator Allard. I believe you are going to be here for the 
next panel as well.
    Mr. Pickle. Yes, sir, the next couple, I think.
    Senator Allard. So, we're not going to let you off too easy 
here----
    Mr. Pickle. Okay.
    Senator Allard [continuing]. This morning.
    Mr. Pickle. Thank you, sir.
                       U.S. CAPITOL POLICE BOARD

STATEMENT OF HON. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD AND CAPITOL GUIDE SERVICE
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SERGEANT AT ARMS AND DOORKEEPER
        HON. ALAN HANTMAN, ARCHITECT OF THE CAPITOL, FAIA
        CHRIS McGAFFIN, ACTING CHIEF OF POLICE

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. So now we'll move to the next panel. We 
have before us now the Capitol Police Board. I want to thank 
all of you for your service, and we're expecting testimony from 
Mr. Livingood and Acting Chief McGaffin. Mr. Livingood.
    Mr. Livingood. Yes, sir.
    Senator Allard. You'll go first, and then we'll call on 
Acting Chief McGaffin.

                     STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Good morning, Mr. Chairman.
    I am honored to appear before you today to discuss the U.S. 
Capitol Police fiscal year 2007 budget request. With me today 
are the members of the Capitol Police Board--Bill Pickle, Alan 
Hantman, and also with us today is the Acting Chief of Police, 
Chris McGaffin.
    Before I begin, Mr. Chairman, I would like to thank the 
subcommittee for their ongoing support of the men and women of 
the U.S. Capitol Police. Your commitment to their continued and 
diligent efforts to develop better security operations, 
response forces, and law enforcement capabilities has 
significantly contributed to providing a safe and secure 
environment for Members of Congress, staff, constituents, and 
the general public.
    The Capitol Police Board appreciates the opportunity to 
present and discuss the issues and challenges behind the 
Capitol Police fiscal year 2007 budget request. The security 
challenge confronting the U.S. Capitol Police today remains 
constant and complex. However, it is a challenge the department 
successfully manages each day of the year.
    The Capitol Police Board is acutely aware of the need for 
fiscal restraint. To address the absolute requirement for 
fiscal restraint, we work on a regular basis with the 
administrative and financial team of the Capitol Police in the 
exercise of appropriate financial management in all areas and 
divisions of the department. In addition, we have been 
judicious in the new initiatives we included in our request. 
The goal is methodical and consistent fiscal management.
    In keeping with prior conference committee directives, good 
management of our core process, and maximum utilization of our 
workforce, the Capitol Police has made a concerted effort to 
contract out activities that would benefit from outsourcing. 
Our fiscal year 2007 budget submission includes proposals for 
continuing funding for these outsourced activities as well as 
proposals for new outsourced activities. This will allow the 
U.S. Capitol Police to more fully concentrate on its core 
security mission.
    It is that core mission for which I want to offer my thanks 
to the men and women of the U.S. Capitol Police. They 
coordinate the people, organizations, and resources necessary 
to respond to a variety of threats we face today. It is an 
extremely difficult job to manage a legislative complex 
completely open to the public while at the same time ensuring 
the safety of the Congress, staff, and visitors against 
increased threats. It is a job the U.S. Capitol Police perform 
with skill and excellence everyday.
    The men and women of the Capitol Police have the Board's 
greatest respect. We speak to them every day, and we listen to 
them. Each one considers it an honor to protect, serve, and 
welcome our citizens and people from around the world to our 
Nation's Capital who come to participate in the legislative 
process, to witness democracy in action, and partake in the 
history of this unique place.

                   ACCOLADE TO DEPARTING CHIEF GAINER

    Today is Chief Gainer's final day with the U.S. Capitol 
Police. I know I speak for all the members of the Capitol 
Police Board when I extend my deepest thanks to him for his 
services to the Capitol Police department and to the Congress. 
Chief Gainer is first and always a cop's cop. Through his 
leadership, the capabilities of the department have been 
greatly enhanced. Every person who works here or visits here is 
a beneficiary of his hard work, dedication, and 
professionalism. We wish him well and the very best as he 
begins the next phase in his career.
    Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Wilson Livingood
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to discuss the U.S. Capitol Police fiscal year 2007 
budget request. With me today are the members of the Capitol Police 
Board, William Pickle, Senate Sergeant at Arms, and Alan Hantman, 
Architect of the Capitol. Christopher McGaffin, the Acting Chief of 
Police is also with us.
    Before I begin Mr. Chairman, I would like to thank the committee 
for their ongoing support of the men and women of the U.S. Capitol 
Police. Your commitment to their continued and diligent efforts to 
develop better security operations, response forces and law enforcement 
capabilities, has significantly contributed to providing a safe and 
secure environment for Members of Congress, staff, and the general 
public.
    The Capitol Police Board appreciates this opportunity to present 
and discuss the issues and challenges behind the U.S. Capitol Police 
fiscal year 2007 budget request. The security challenge confronting the 
U.S. Capitol Police today remains constant and complex. However, it is 
a challenge that the Department successfully manages each day of the 
year.
    The Capitol Police Board is acutely aware of the need for fiscal 
restraint. To address the absolute requirement for fiscal restraint, we 
work on a regular basis with the administrative and financial team of 
the Capitol Police in the exercise of appropriate financial management 
in all areas and divisions of the Department. In addition, we have been 
judicious in the new initiatives we included in our request. The goal 
is methodical and consistent fiscal management.
    In keeping with prior conference Committee directives, good 
management of our core process and maximum utilization of our 
workforce, the U.S. Capitol Police has made a concerted effort to 
contract out activities that would benefit from outsourcing. Our fiscal 
year 2007 budget submission includes proposals for continuing funding 
for these outsourced activities as well as proposals for new outsourced 
activities. This will allow the U.S. Capitol Police to more fully 
concentrate on its core security mission.
    It is that core mission for which I want to offer my thanks to the 
men and women of the U.S. Capitol Police. They coordinate the people, 
organizations, and resources necessary to respond to the variety of 
threats we face today. It is an extremely difficult job to maintain a 
legislative complex completely open to the public, while at the same 
time ensuring the safety of the Congress, staff, and visitors against 
increased dangers. It is a job performed with skill.
    The men and women of the Capitol Police have my greatest respect. I 
speak to them every day, and I listen to them. Each one considers it an 
honor to protect, serve, and welcome our citizens and people from 
around the world to our Nation's Capitol--who come to participate in 
the legislative processes, to witness democracy in action, and partake 
in the history of this unique place.
    Mr. Chairman, on behalf of the Capitol Police Board, I would like 
to thank you for this opportunity to appear before you today, and for 
your consideration of this budget request.
    I would now like to introduce Acting Chief McGaffin who will 
present the Capitol Police's fiscal year 2007 Budget in more detail.

    Senator Allard. Well, thank you for your statement. And 
now, we'll go to Acting Chief McGaffin.

                   STATEMENT OF CHRISTOPHER MC GAFFIN

    Acting Chief McGaffin. Mr. Chairman, I'd like to tell you 
also that it's an honor to appear before this subcommittee 
today with the Capitol Police Board and to represent the United 
States Capitol Police in this hearing. We are here to present 
our fiscal year budget for 2007, but I am also here to thank 
you, the Senate and this subcommittee for all the support that 
it's given us over the years. I'll finish 34 years of service 
to the United States Capitol Police and to the Congress this 
July, and I have watched this police department grow and 
professionalize over these several decades significantly 
because of the support of Members of Congress and the United 
States Senate like yourself, sir. And if I can take this moment 
to thank you personally for all that you have done for this 
police department, the men and women of this police 
department--those who are still here serving with me and those 
who have retired over the last several decades, I'd like to do 
that as well. I have submitted remarks and my testimony for the 
record, and I am very much looking forward to answering 
questions you may pose today.
    Senator Allard. We'll make those remarks part of the 
record.
    [The statement follows:]
               Prepared Statement of Christopher McGaffin
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before the Appropriations Committee today to 
discuss the United States Capitol Police fiscal year 2007 budget 
request. The United States Capitol Police maintains the honor of 
protecting the Congress, its legislative process, as well as staff and 
visitors from harm. We protect and secure Congress so it can fulfill 
its constitutional responsibilities in a safe and open environment. As 
the foremost symbol of American representative democracy, Congressional 
operations are a highly visible target for individuals and 
organizations intent on causing harm to the United States and 
disrupting the legislative processes of our government. It is the duty 
of the men and women of the Capitol Police to do all in our power to 
prevent these acts and, if such acts, should occur, to respond 
appropriately to ensure the safety and well being of our stakeholders.
    The employees of the Unites States Capitol Police are dedicated to 
their work and thus we as a team have had significant accomplishments 
in the past year, including:
  --Greeted and screened over 8.7 million staff and visitors throughout 
        the Capitol Complex and screened over 59,500 people for three 
        holiday events; conducted over 17,000 canine explosive 
        detection sweeps; coordinated over 3,300 special events and 
        dignitary visits; screened over 85,000 vehicles and 72,000 
        individuals at the Capitol Visitors Center as work proceeded 
        uninterrupted; screened over 574,000 vehicles by the TIGER 
        Team; conducted 136 physical security assessments; and 
        performed 521 electronic countermeasures assessments as well as 
        other protective functions.
  --Gained re-accreditation by the Commission on Accreditation for Law 
        Enforcement Agencies, Inc. (CALEA). This repeated, independent, 
        outside validation of our preparation and compliance with 
        national standards clearly affirms our Strategic Plan, strength 
        of policies, training, operational readiness and overall 
        professionalism and indicates that the USCP has achieved a 
        level of excellence and has internalized positive change.
  --Implemented a new financial management system in 12 months, on time 
        and within budget, for the first time in the history of the 
        Department.
  --Developed a strategy and identified requirements and business 
        processes for the implementation of the Asset Management System 
        which will bring greater accountability and control over assets 
        within the Department, as well as, launched the first steps to 
        align the Department's internal controls with government-wide 
        standards.
    In the ever-changing threat environment, the U.S. Capitol Police 
accomplishes its mission through varied, and complementary functions to 
provide round the clock protection to Congress. In an effort to 
maintain the flexibility of Department operations and maintain 
operational readiness, the USCP over the past several years, with the 
support of Congress, has made significant investments in human capital 
and Department infrastructure. This has been accomplished by augmenting 
our intelligence capabilities and coordination among the intelligence 
community, hardening our physical security and counter surveillance 
capabilities, automating antiquated security and administrative support 
systems, enhancing our detection and response capabilities for 
explosive devices as well as chemical and biological agents, and 
augmenting our incident command and emergency response and notification 
systems. Each of these and their related activities has come with high 
resource requirements for maintenance in order to ensure that our 
systems are operational 24/7. The majority of these infrastructure 
investments were funded with emergency, supplemental or reprogrammed 
prior year funding and now require annual, on-going operational 
maintenance and life cycle replacement.
    Our fiscal year 2007 budget request of $295.1 million represents an 
increase of $48.1 million or 19.5 percent over the enacted amount for 
fiscal year 2006, adjusted for rescissions. This includes an increase 
of $31.4 million for personnel costs and $16.7 million for non-
personnel costs. However, when the $10 million from the no-year 
reprogramming of funds, approved by your Committee, was used to support 
fiscal year 2006 operational requirements, is taken into consideration 
the requested increase is $38.1 million or 14.8 percent.
    The Congress has made the commitment through resources and policy 
support to create a formidable Police Department with diverse 
capabilities designed to deter or respond to any threat to the Capitol 
Complex. Over the last 5 years, the Department has grown in human 
capital, security infrastructure, command and control and, security and 
law enforcement capability. The Department has a tremendous base of 
capabilities, which requires substantial resources to maintain. The 
intent of this budget request is to address targeted manpower needs and 
the annual sustainment of the Department's capabilities, which have 
been sourced through a variety of means. From a manpower perspective, 
the Department is continually reviewing its operational concept to 
determine the most effective manner in which to conduct operations. The 
intent of this effort is to be as effective and efficient as possible.
    New initiatives in our fiscal year 2007 budget request include 
additional personnel resources for both sworn and civilian; outsourcing 
background and polygraph functions in Human Resources, Information 
Systems maintenance and replacement systems, operating costs for the 
Office of Inspector General as well as the new Office of Professional 
Responsibility; new costs for activities acquired from other agencies 
such as maintenance of the radio communications systems transferred 
from the Senate and certain security equipment maintenance from the 
Department of Defense.
    The following represents a more detailed look at the USCP fiscal 
year 2007 request.
    Personnel.--The fiscal year request for salaries of $246,700,000 
supports the current authorized FTE levels, as well as, an additional 
request of 91 new officer FTEs for critical operational requirements, 
10 additional FTEs for Library of Congress (LOC) attrition and seven 
new civilian support positions. With the new officers, the sworn FTE 
level is 1,759. The revised civilian FTE level is 421 for a total 
Department FTE count of 2,180. Included in the personnel budget is a 
request for overtime. Staffing levels are driven by security needs and 
augmented by overtime to meet operational requirements. The 494,700 
hours requested consist of 449,300 hours for sworn and 45,400 hours for 
civilians. The $28.1 million request is based on estimated overtime 
posting and coverage requirements and approximate costs for sworn 
manpower shortage, late sessions of Congress, Special events, security 
alerts, arrests and court time and a small amount of civilian overtime 
requirements.
    Non-Personnel.--The fiscal year request for non-personnel items is 
$48,383,000. The following highlights the majority of the non-personnel 
request for the USCP.
  --$16,900,000 is for Physical Security.--This includes contractual 
        support for physical security maintenance and support projects 
        such as comprehensive preventive maintenance to support the 
        maintenance, repair and preventive maintenance of the security 
        systems on the Capitol Complex on a 24/7 basis. Included are 
        security installation support, security network, and 
        specialized security equipment; the camera system, vehicle 
        barriers, and the annunciators; maintenance of security 
        equipment such as current CCTV equipment, Digital Video 
        Recorder, metal detectors and X-ray packages; Life Cycle 
        Replacement of equipment such as Duress Alarms for Members and 
        Committees; Card Access and Intrusion Alarms.
  --$11,232,000 is for Information and Communication.--This includes 
        maintenance, repair, licensing and support of new and existing 
        systems such as engineering professional services and radio 
        systems contract support, annual contracts supporting 
        Blackberry and Nextel devices and fit out of the radio van. 
        Information Systems modernization Phase III includes systems 
        such as the Asset Management System, Case Management system and 
        Web portal system; Lifecycle replacement for such items as 
        Personal Computers due to be replaced, radio support, Nextels, 
        Verizon phones, purchase and refreshment of Police Radios.
  --$4,318,000 is for Protective Services.--This will provide 
        appropriate travel related funding for the Dignitary Protection 
        Division (DPD) to ensure the safety and security of the 
        Congressional Leadership and other Congressional Protectees. 
        The funding for the last 3 years has required reprogramming 
        each year to meet costs. Travel increases are related to fuel 
        costs, rental cars and hotel costs. External training is 
        requested for protective operations.
  --$2,916,000 is for Human Resource Management.--This provides for 
        contractual services for Human Resources Management such as the 
        National Finance Center for payroll administration; AVUE, which 
        is the HR Management system; Time and Attendance System 
        Programming and employee training (Workbrain system) and the 
        outsourcing of 6 sworn staff for the Background check and 
        polygraph function. This will free up the 6 sworn officers to 
        be put back in to the field and will offset the number of new 
        positions required for the CVC. This request also includes 
        $400,000 for tuition reimbursement for USCP employees.
  --$2,731,000 is for Financial Management and Accountability.--This 
        includes contractual support for the Office of Financial 
        Management including Audit and Review Services, Outsourcing 
        contract support and a cross servicing agreement for the 
        financial management system. This line item also includes 
        funding for agency wide projects such as copier maintenance, 
        vehicle fuel and tort claims.
  --$2,664,000 is for Logistic Support.--This includes funding for 
        refreshment of uniforms, purchase of new uniforms for new 
        recruits and other officers such as K-9 and CERT officers. 
        Funding is also requested for maintenance and repair of the 
        Police vehicle fleet.
  --$786,000 Hazardous Incident Response.--This represents replacement 
        of a bomb suit for hazardous devices. Also includes maintenance 
        for such items as radiological and biological detectors and 
        hazardous material equipment, life cycle replacement and 
        purchase of required equipment and supplies for the hazardous 
        material response team to comply with OSHA and other safety 
        standards.
    In keeping with prior Conference Committee directives, good 
management of our core processes and maximum utilization of our 
workforce, the USCP has made concerted efforts to contract out 
activities that are conducive to outsourcing. Our fiscal year 2007 
budget submission includes our proposals for continuing funding for 
these outsourced activities as well as proposals for new outsourced 
activities, allowing the USCP to concentrate on its expertise. The 2007 
request includes outsourcing services in the amount of $20.4 million, 
which includes information technology, physical security systems and 
maintenance, administration, background and polygraph services, 
veterinarian services, security control operators, financial asset 
management system, accounts payable, and installation of equipment.
    The U.S. Capitol is still faced with numerous threats, including a 
vehicle-borne explosive attack, terrorist-controlled aircraft attack, 
armed attacks on the Capitol Complex, suicide bombers or positioned 
explosive attacks, chemical, biological and/or radiological attacks and 
attacks on Members and staff as well as ordinary crime. To accomplish 
this mission, the Department will continue to work diligently to 
enhance its intelligence capabilities and provide a professional 21st 
Century workforce capable of performing a myriad of security and law 
enforcement duties, supported by state of the art technology to prevent 
and detect potential threats and effectively respond to and control 
incidents. With the help of Congress and the Capitol Police Board, the 
Department will continue developing professional administrative 
capabilities based on sound business and best practices, while raising 
the caliber and capability of its sworn and civilian personnel.
    The United States Capitol Police must maintain the ability to be 
prepared for any situation and the attainment of that goal depends, in 
part, on having the right people, the right strength and the right 
numbers, organized into an effective and flexible blend of capabilities 
and skills. The Department continues to prepare and train officers by 
holding Department-wide intelligence briefings when significant or 
critical information is gathered; disseminating intelligence and 
tactical information in daily roll-calls and conducting field and 
table-top exercises in efforts to enable our officers to have the tools 
necessary to do their jobs. Additionally, the Department's officials 
routinely participate in a wide-range of tabletop exercises with top 
experts in federal, state and local law enforcement.
    As Acting Chief of the Capitol Police, I take great pride in the 
many years of service this Department has provided to the Congress. 
Building on that legacy, we at the USCP look forward to continuing to 
safeguard the Congress, staff, and visitors to the Capitol Complex 
during these challenging times. In addition, we look forward to working 
with the Congress and particularly this Committee.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have.

              ACCOLADE FOR U.S. CAPITOL POLICE DEPARTMENT

    Senator Allard. Did you give your full statement, Mr. 
Livingood?
    Mr. Livingood. It's been submitted for the record, sir.
    Senator Allard. I would just like to say like so many 
Members, I visit the Capitol at all hours. It might be in the 
middle of the night or 6:30 in the morning. But I have always 
felt like security was working well and always felt like I was 
treated in a courteous and helpful manner, and we appreciate 
that. I think on behalf of all of the Members, I would just 
like to thank you.
    Acting Chief McGaffin Thank you, sir.

               EXPLANATION OF FISCAL YEAR 2007 INCREASES

    Senator Allard. Now, the Capitol Police Board is requesting 
close to an increase of 20 percent over the current year. If 
you look at the reprogramming of funds last year, it's closer 
to 15 percent. Could you explain why the board believes we need 
to have an increase of this magnitude?
    Acting Chief McGaffin. Thank you, sir. As you noted, 
approximately $10 million of our request that's being expended 
in this fiscal year in fact came from no year or supplemental 
funding. So, it does reduce, in one measurement, the overall 
request, as you pointed out, and I thank you for recognizing 
that. I would say that there are two major drivers for the 
increase. Under the FTE increase, as you noted earlier, we're 
asking for 101 more FTEs in our sworn ranks, and we're asking 
for 7 additional FTEs in our civilian administrative ranks. 
These FTE increases on the sworn side are principally required 
in terms of supporting the Capitol Visitor Center, and that's 
what we see as a mission expansion for us in this coming fiscal 
year. The subcommittee has provided funding in fiscal year 2006 
for 45 positions to help us provide the adequate security for 
the CVC. We are also moving a number of security posts from 
Capitol division assignments into the CVC, which are no longer 
going to be necessary once the CVC is open. But we still have a 
shortfall of approximately 63 FTEs, which we're asking for in 
the fiscal year 2007 budget. In addition to that, we are asking 
for an increase of approximately 11 FTEs for our dignitary 
protection division, and these are the men and women who are 
assigned to protect the congressional leaders in the Senate and 
in the House. In the past year, they have been operating at a 
staffing level of about 82 percent, and that division alone has 
the highest per capita cost for overtime than any element 
within the police department. We have not dropped protection 
for these leaders at all, but it is being incurred at the 
expense of additional duty. So, we are asking for an increase 
there.

     LIBRARY OF CONGRESS ATTRITION AND OTHER NEW POSITION REQUESTS

    The Library of Congress attrition numbers that we have 
asked for over the last several years include an FTE increase 
of 10. And then finally, we are asking for an increase of 
approximately 17 FTEs to augment our counterterrorism 
initiatives as they repel and thwart any operational or 
planning initiatives which may be brought to this complex via 
the number one threat that we see vehicle-born improvised 
explosive devices. That group, which is referred to as a Tiger 
Team, is being managed exclusively out of overtime funds as 
well. Moving from the salary account, or staying within the 
salary account, sir, additional duty, the overtime requests 
have increased as well. And as I pointed out, the number of 
personnel that we have to apply to all the duties and 
responsibilities we have in this fiscal year we have to augment 
with additional duty. And as we schedule ahead, as we look 
ahead to requirements that are expanding, as well as holding 
steady into 2007, we see a need to increase our request for 
additional duty.

                         NONPERSONNEL INCREASES

    Systems maintenance and communication systems are the other 
area that are driving this budget up. And such areas that 
insist on this maintenance, such as our financial systems, our 
information technology systems, and our security systems are 
requiring some additional funding as well. Now having said 
that, we are working diligently with your staff to reduce this 
request for markup, and we have applied, with the help of the 
Government Accountability Office (GAO) and others, some 
strategies that we think will successfully reduce this request 
for fiscal year 2007. And I hope to come back to you, and 
expect to come back to you through your staff very soon with a 
lower request in several of the areas that we just identified.

  TIGER TEAM AND DIGNITARY PROTECTION DIVISION NEW POSITIONS DISCUSSED

    Senator Allard. I'd like to now follow up on the 28 new 
officers you have requested. As I understand it 11 of those FTE 
are for the dignitary protection detail, and the remaining 
would be the 17--for your Tiger Team. What is driving the 
increases in those two areas?
    Acting Chief McGaffin. Yes, sir. The dignitary protection 
division where we have asked for an increase of 11 is being 
driven principally by the amount of overtime that we have had 
to work to maintain security for 10 leaders of Congress.
    Senator Allard. Very good.
    Acting Chief McGaffin. Yes, sir, and the 17 that are 
assigned to the Tiger Team are the counterterrorist group that 
I have described that are positioned around the Capitol grounds 
at intersections who conduct random checks of vehicles 
traversing the grounds. This group is one that we are taking 
another look at because we have been funding that out of 
additional duty. And with cooperation with your staff, we are 
going to see if there is a cost benefit that can be achieved by 
reducing that 17 on the FTE side of the ledger and bringing 
some efficiencies where we can find additional duty to offset 
that as we have been doing up to this point.

                 REDUCTION IN POLICE OVERTIME EXPLAINED

    Senator Allard. Thank you. How have you managed your 
reduction in overtime? I remember in last year's budget we had 
set some caps on how much overtime you could pay. Are you 
confident we are not incurring any additional risks as a result 
of the reduction in overtime funds?
    Acting Chief McGaffin. Well, first, we are very grateful 
for the funding for additional duty and overtime the 
subcommittee has supported us with, and I can tell you that we 
are going to stay within our budget this fiscal year. One of 
the methods that we are employing right now to ensure that we 
stay within budget now and ideally confined a manner in which 
to lower our request for additional duty and overtime in the 
fiscal year 2007 budget request is the result of some great 
collaboration that we have entered into with the Government 
Accountability Office. Staff and support from that agency has 
assisted us in developing what we call a threat matrix. And 
just to quickly describe that, what we have been able to do 
with the help of the GAO is to apply criticality factors to 
every single post that we have, every single job that we 
perform up here. And those criticality factors are allowing us 
to identify where our critical needs are versus where our 
ideally positioned needs are.
    So, in other words, in assessing everything that we are 
doing, we're understanding what are the most important posts 
that have to be manned each day. Now, one of the byproducts of 
this review was that we have discovered some efficiencies that 
we have been able to achieve already where we found there were 
some posts that were being performed by two elements within the 
police department, which we were able to fold into one. And 
that kind of analysis is allowing us to stay within our budget 
this year, and it's the same analysis that's going to allow us 
to--I'm optimistic--successfully reduce our additional duty 
requests for next year.
    Senator Allard. Well, I want to compliment you on working 
with the GAO and helping to set some priorities there. I think 
that helps the Members to understand where they want to be as 
far as risk and what level of security they want to have.
    Acting Chief McGaffin. Thank you, sir.

               DISCUSSION ON COMP TIME BALANCE REDUCTION

    Senator Allard. On the comp time, what is the status of 
reducing comp time balances within the department such that no 
more than 240 hours will be carried over from one year to the 
next?
    Acting Chief McGaffin. We have conducted an audit of all 
exempt employees of the police department to determine how many 
have comp time balances in excess of 240 hours. Approximately 
62 of the 200 plus exempt employees of the department find 
themselves in that category. What we have done is to develop 
and administer an internal control system in which without 
interrupting any of the management oversight, without 
interrupting any of the supervisory responsibilities that these 
62 members would bring to the day-to-day job. All comp time 
balances will be reduced to the 240 mark by the end of this 
year, and there is absolutely no expectation on the part of any 
of us that we would carry more than 240 hours into the next 
leave calendar year.
    Senator Allard. Now, the carryover from one year to the 
next, is that manageable?
    Acting Chief McGaffin. I guarantee we are going to manage 
this down, yes, sir. And we have found ourselves in this 
situation for several different reasons, but the most pressing 
one is all the work that all of us have been performing over 
these last several years. And as we find opportunities to take 
time off and to enjoy some of the comp time, we are doing it. 
But the fact of the matter is that many managers, including 
myself, will never be able to use all the comp time that we 
have on the books, and that just goes with the job.
    Senator Allard. Goes with being a manager.
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. I'm not a clock watcher either, and I 
understand. But we are going to get this issue resolved by what 
date do you anticipate, or what time line?
    Acting Chief McGaffin. It will be resolved within this 
leave calendar year. And if I am not mistaken, I believe by 
January 6, 2007, at the end of the last pay period in this 
leave calendar year, everyone's balance will be where it needs 
to be.

                   LIBRARY OF CONGRESS MERGE PROGRESS

    Senator Allard. Very good. Now, what is the status in 
detailing officers from the Capitol Police to the Library of 
Congress, and has progress been made in the last year in 
improving the police operation at the library?
    Acting Chief McGaffin. Mr. Chairman, we currently have 31 
Capitol Police officers assigned to the Library of Congress. 
That includes an inspector and most recently, two sergeants who 
have been assigned as part of that complement. As you know, 
within our budget request, we request authorization to fill 
vacancies that occur due to attrition in the Library of 
Congress, and that's what we are doing again this year. The 
role that our officers are providing to the Library is to 
augment their security, and I must say they have. The 
inspector, Tom Reynolds, has just done a magnificent job making 
the Library of Congress feel part of the Capitol Police and the 
Capitol Police feeling part of the Library of Congress. In the 
area of operations, we have run evacuation drills, we have run 
training programs for their managers, for their supervisors, 
such things as motorcycle training and patrol techniques. We 
have included the Library of Congress police department in our 
own department's award ceremony, and we are all working 
together. There are some bumps in the road, not to avoid those 
or not to think about those, but we are doing well.

               SCREENING VEHICLES AT LIBRARY OF CONGRESS

    Senator Allard. Well, one area that has been called to my 
attention is the screening of the vehicles going to the Library 
of Congress, and the information I'm getting is that this is 
not sufficiently thorough. Have you looked at this, and do you 
believe this is something that we ought to address?
    Acting Chief McGaffin. Yes, sir, we have looked at this, 
and we are right now examining the feasibility of bringing the 
Library of Congress delivery system--delivery requirements 
within our own offsite delivery center. Right now, we process 
somewhere in the area of about--on average, 80 trucks a day 
that come through the interim offsite delivery center, and the 
Library has requested to utilize that center for deliveries to 
its building complex as well. And we are making some 
recommendations to the Capitol Police Board, which will be 
reviewed and considered by that group to work toward ensuring 
that the security of the Library of Congress is just as great 
as this office building here.
    Senator Allard. Do you think you can get something to us in 
about 30 days or so on the cost estimate of the revised plan?
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. We'd need that for our budget purposes. And 
so, if we can have the Board act and get back to us within that 
time period, we would appreciate it.
    Acting Chief McGaffin. Yes, sir.

               CAPITOL POLICE GENERAL COUNSEL DISCUSSION

    Senator Allard. In regard to the Capitol Police general 
counsel: Why do we need additional counsel, and why is the 
current general counsel on the payroll of the House of 
Representatives?
    Acting Chief McGaffin. There has been a remarkable increase 
in the work that counsel has had to perform. In the several 
years that I have been in an executive position, I have seen 
this work increase dramatically. I personally bring a lot of 
work to that office. We have assigned counsel to our Office of 
Professional Responsibility to assist us in the areas of 
discipline. We have assigned work to our Office of Employment 
Counsel regarding performance and performance evaluations of 
our own personnel. The workload simply has increased. Now, we 
are undertaking a review with the Capitol Police Board to 
determine where those positions need to be.
    Senator Allard. Now, is there any other position in the 
Capitol Police force that's not on the Capitol Police force, 
but on that of either the House or Senate?
    Acting Chief McGaffin. Not that I'm aware of, sir.
    Senator Allard. The answer's no?
    Acting Chief McGaffin. I don't believe there are any other 
positions, sir.
    Senator Allard. Okay. I see that Mr. Pickle is indicating 
that he doesn't believe there is any. So, this is an exception 
to what we ordinarily have before us.

             CHIEF ADMINISTRATIVE OFFICER RESPONSIBILITIES

    In 2000, legislation was enacted that created the Chief 
Administrative Officer for the Capitol Police in order to 
address long-standing administrative problems in the 
department. Then in 2002, the CAO issued a plan, as required by 
law, to carry out the Chief Administrative Officer's 
responsibilities. Now, while improvements have been made, the 
U.S. Capitol Police still does not have auditable financial 
statements or a comprehensive foundation for financial 
management according to the Government Accountability Office. 
And now, Mr. Stamilio, what are the most significant areas 
still to be addressed from the CAO Act, and the biggest 
challenges you face in meeting those requirements?
    [The information follows:]

    Since becoming an independent agency in fiscal year 2003, 
the Capitol Police has made significant strides in creating a 
solid foundation for financial management and becoming a fully 
functioning, best practices financial management operation We 
have, this fiscal year, implemented, on time and within budget, 
a full scale, predominately paperless, JFMIP compliant 
financial management system, report all financial transactions 
to the U.S. Treasury, have identified core competencies for all 
financial management staff and tied those competencies to 
individual development plans for all financial management 
staff. We have also finalized a total of 95 financial 
management policies and procedures as well as instituted a risk 
management plan and assessment tool for evaluating internal 
controls within financial management operations. Additionally, 
we have received reports on our internal controls from our 
external auditors, a practice that is highly encouraged but not 
required.
    We also manage travel, purchase and fleet card programs and 
maintain robust monitoring programs for the travel and purchase 
card programs to ensure proper use of the cards. In addition, 
we have implemented a paperless, on-line, just in time process 
for the ordering of office supplies to reduce costs by 
eliminating central storage and reducing inventory. We pay 
travel claims in an average of 4 days and have established and 
maintain standard contract formats, terms, conditions and 
clauses and as a practice. We prepare a semi annual statement 
of disbursements that reports all payment activity for all 
funds and recently redesigned our budget execution process to, 
for the first time, manage the budget in the manner in which it 
was formulated and ties the budget to the strategic planning 
process. This provides greater transparency to the operations 
of the Department as well as provides managers with more robust 
tools with which to manage operations and make decisions.
    We anticipate that with the implementation of the asset 
management system, the completion of a full set of audited 
financial statements, and the ongoing review of internal 
controls through implementation of our risk management plan, 
and the ongoing review and generation of policies and 
procedures, we will be nearly complete with our transition. 
While we currently do not produce a full set of federal 
financial statements, we do produce one of the statements, a 
Statement of Budgetary Resources, which is audited by an 
external audit firm and has received an unqualified opinion for 
all audits completed. We thank the Committee for your support 
of our initiatives to this point and look forward to reporting 
that we have reached our goal in the new future.

    Acting Chief McGaffin. I'll ask Tony to come forward. Mr. 
Chairman, I would like to point out, because he may be a little 
too modest to do this himself, some of the success that his 
office has achieved--you're absolutely right. In 2002, the 
Chief Administrative Officer plan called for a follow-up in 21 
areas of responsibility. This included 71 discreet actions that 
he was responsible for following up on. And of that, only seven 
remain open as we sit here today. And of those seven, we expect 
only three to remain open by the end of this fiscal year. I 
would suspect that Mr. Stamilio would talk to your subcommittee 
and your staff about some of the success he has had in 
implementing a financial management system or a new budget 
system, IT systems. And there's a performance system that we 
have in our police department now for executives and employees 
that is long overdue, and he and his staff have put together 
one of the most dynamic communications and evaluations systems 
that any law enforcement agency that I'm familiar with has. And 
these are all part of the plan that originated in 2002, and 
that has been rolled up into his own business plan and part of 
our strategic plan. So, there's great news in the work that he 
has brought to this endeavor.

                CHIEF ADMINISTRATIVE OFFICER ACTION PLAN

    Senator Allard. Well, I am particularly interested in the 
action plan.
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. Tony.
    Mr. Stamilio. Thank you, Mr. Chairman. I appreciate the 
opportunity to respond. As Chief McGaffin pointed out, as did 
you, the legislation that provided for a Chief Administrative 
Officer and a plan--resulted actually in a plan that was built 
in 2001 and again revised in 2002. As we reviewed the specific 
actions required of that plan that was obviously initiated by 
the department, there are only seven major actions that are 
left, three of which I don't expect to be accomplished by the 
end of this fiscal year. Those three include the documenting of 
our policies and procedures. Now, this is a significant 
undertaking. If I could just put that piece in context for you 
because I think it's a significant challenge.
    First off, it's not that the department has not documented 
its policies and procedures because it certainly has and 
continues to do so. We have more work to do in this area. When 
we have built procedures to put in place the types of controls 
that we need to have and now we're in the business of 
documenting those and incorporating those into our general 
orders process. I anticipate that that will probably take 
somewhere between 3 and 6 months beyond the end of the fiscal 
year to a point that I could come back to you and say I feel 
like our body of documentation of our policies and procedures 
is sufficient and supports an operation. So, that's one area 
that remains and quite frankly, will continue as policy and 
procedure must continually be updated. But it's one that 
clearly has our focus. And with the support of GAO, we have got 
some increased focus in terms of the level of specificity 
required there. The second two areas that will not be 
accomplished by the end of this fiscal year include 
implementing the cost accounting system and complete financial 
statements.

           IMPLEMENTATION OF NEW FINANCIAL MANAGEMENT SYSTEM

    In both of those two initiatives, we made a conscious 
decision to delay work on those and instead pull forward, with 
obviously significant financial support from the Congress, the 
implementation of our financial management system. That's a 
very significant achievement because included in that system 
are many of the internal controls and the processes that we 
have been doing manually that are now part of the automated 
system. I'm proud to say that our Office of Financial 
Management and Office of Information Systems has put that in 
place inside a year under budget and that is our system of 
record and has been through the entire fiscal year. A companion 
to that system is something that is a work in progress, and 
that is the asset management system. Again, with the support of 
Congress, the finances are available. It was impossible from a 
management perspective to field both of those systems at the 
same time.
    And so, we offset the implementation of one with the other. 
The requirements of the asset management system are built. The 
policy and procedures have been drafted, and we are in the 
implementation stage of the asset management system at this 
point in time and anticipate that that will be operating 
probably by the end of this fiscal year at the latest, or at 
least phase one of that will be operating. With a solid 
financial management system and a solid asset management 
system, we will be in a much better posture to be prepared to 
do clean financial statements. And in fact, that is our goal. 
And so, the decision to delay was to posture us to be in a 
position to be able to do that.

     SUMMARY OF REMAINING CHIEF ADMINISTRATIVE OFFICER INITIATIVES

    Senator Allard. So, let me just summarize this. We have 11 
left.
    Mr. Stamilio. No sir, we have seven left.
    Senator Allard. Oh, seven left. And then, you're going to 
have four of those seven completed, you think, by the end of 
this fiscal year.
    Mr. Stamilio. Yes, sir. That's correct.
    Senator Allard. And then, the three remaining that you will 
have after this year will be documentation, then the cost 
accounting system, and then the asset management system.
    Mr. Stamilio. Right.
    Senator Allard. Now, those are really important aspects, 
probably the meat of the whole thing in those last three.
    Mr. Stamilio. The third being the financial statements, 
yes, sir.
    Senator Allard. I see.
    Mr. Stamilio. Now----
    Senator Allard. The asset management is in the cost 
accounting area?
    Mr. Stamilio. No, the asset management provides us the 
capability to value our fixed assets and----
    Senator Allard. Sure, that's in inventory.
    Mr. Stamilio [continuing]. Prepare a balance sheet that 
would withstand the scrutiny of an external audit. And so, that 
is a component that will put us in a position where we can have 
clean financial statements.
    Senator Allard. And when do you think you'll have all this 
in place for there not to be a problem with an external audit?
    Mr. Stamilio. Our target is to have clean financial 
statements at the end of fiscal year 2008.
    Senator Allard. Okay. So 2 years down the road is what 
you're looking at?
    Mr. Stamilio. Yes, sir. At this point.
    Senator Allard. Yes.
    Mr. Stamilio. And depending on our ability to fully 
implement and have confidence in the asset management system, 
we may be able to push that up, but I'm very confident that by 
the end of fiscal year 2008, we will have clean financial 
statements.
    Senator Allard. Well, obviously there needs to be 
functional systems and they need to be accurate. They are very 
important systems, particularly from an oversight standpoint.
    Mr. Stamilio. Yes, sir.
    [The information follows:]

    USCP advances in the Administrative Arena start in the area 
of Human Capital.
    First, the Performance Evaluation and Communication System 
(PECS) was implemented and training for it was completed. This 
is a competency-based personnel performance management system 
and is linked to Departmental goals and objectives in the 
Strategic Plan.
    Second, USCP's personnel information system modernization 
is well underway. Accomplishments include: AVUE Implementation: 
Phase I accomplished for the Data Accuracy/Integrity Project 
(Workbrain Organizational. alignment and Reporting), enhanced 
WorkBrain Reporting for Overtime; employee Self-Service 
implemented and a Customer Resource Center established.
    A third advance toward this Human Capital goal is in the 
area of training. We shifted focus of Entry-Level and In-
Service Training from traditional enforcement to Security 
Operations and Intelligence Training. Specifically, scenario-
based training has been implemented, a security screening 
certification program has been approved, and recruit officer 
curriculum review was completed.
    We have also gained ground on our Strategic Objective 
entitled ``Leveraging technology to improve productivity.'' The 
point of this objective is to provide responsive, high quality, 
cost-effective information technology services and solutions in 
a timely manner. Strategic Initiatives that support this 
objective include developing and maintaining an Enterprise 
Architecture to align business requirements and information 
technology investments across USCP, and modernize business 
systems, including transitioning to a target architecture 
comprised of interoperable systems and applications, provide 
browser-enabled access to all USCP applications, utilize 
Commercial Off-The-Shelf (COTS) technology to implement 
renovated applications and provide a phased approach to 
implementing target architecture.
    With regard to leveraging technology, the first step is to 
maintain and keep operational the installed Base of Information 
Technology (IT) Systems. This initiative encompasses the 
operation, maintenance and continued development of major 
systems critical to USCP operations: Computer Aided Dispatch, 
Time and Attendance, Records/Document Management Network 
Infrastructure, MAXIMO, Livescan Fingerprinting, Senate PERS, 
Radio Support Infrastructure, Microsoft Outlook (email), MS 
Windows 2000 Suite.
    We can report that all projects are on track and milestones 
are being achieved to support this initiative.
    A second step (in leveraging technology) is to complete the 
modernization of Administrative and Law Enforcement Programs.'' 
On this front, progress has been particularly strong for 
supporting Computer Aided Dispatch, Reports Processing and the 
Momentum Financial Management System (FMS).
    USCP has made progress to gain accreditation and 
certification of major systems in compliance with the Federal 
Information Security Management Act (FISMA). USCP annually 
assesses risk, certifies and accredits major systems, once 
every three years, using a third party vendor, and is audited 
annually as part of the financial audit--as well as 6 month 
reviews by the Government Accountability Office (GAO). USCP is 
in compliance with the Federal Information Security Management 
Act (FISMA). OIS identifies personnel with significant 
information system security roles and responsibilities, 
documents those roles and responsibilities, and provides 
appropriate information system security training before 
authorizing access to the system. During fiscal year 2005, 
various tools and techniques were used to monitor events on the 
information systems to detect attacks, and provide 
identification of unauthorized use of the system. Using a third 
party, USCP used appropriate vulnerability scanning tools and 
techniques to scan for vulnerabilities.
    A great deal of progress was made regarding Enterprise 
Architecture (EA). 95 percent of our systems are compliant with 
EA and this supports our strategic objective: ``To provide 
responsive, high quality, cost-effective information technology 
services and solutions in a timely manner.'' We completed (and 
submitted for GAO review) our EA plan (version 3). In addition, 
we drafted an EA version 4 with case management and asset 
management systems included. Finally, the Department aligned 
the IT Strategic Plan to the USCP Strategic Plan using the 
ProVision modeling tool.
    The Department developed and maintained an electronic 
document and records management system that is secure and 
quickly accessible (Hummingbird document management system). In 
addition, we developed and implemented a training plan for 625 
personnel on the ways of Hummingbird, record management policy, 
and records disposition.
    There have been several accomplishments as regards our 
strategic objective for Financial Management--to provide 
timely, reliable, and responsible financial management 
services, and ensure accountability for assets and resources.
    First, we have been able to formulate, submit and execute a 
USCP Budget, consistent with our strategic plan and 
congressional direction. As far as improving our budget 
execution, progress included: meeting with Bureaus/Offices 
throughout fiscal year 2005 to review spending plans; 
developing list of fiscal year 2005 unfunded items and 
identified savings sufficient to fund many of these items; and 
developing and submitting fiscal year 2006 spending plan to 
committees.
    USCP has responsibly managed the Department-wide 
acquisition processes and procedures in accordance with 
applicable principles of law and authorities. Specifically we 
have completed implementation of the purchase card program and 
initiated a fleet card pilot program.
    We have performed all planning and preparatory work 
necessary for the new financial management system, Momentum, to 
become operational on October 5, 2005. The Department also 
trained 95 percent of Momentum users and hired two new systems 
accountants.
    As regards Asset Management--accomplishments included the 
following: completed requirements definition of asset 
management project; completed on-site assessment of ``as-is'' 
asset management flows; identified definitive set of 629 user 
requirements; analyzing and evaluating asset management best 
practices to steer development of USCP's policies and 
procedures; analyzing business process reengineering for USCP's 
Property Management Program; analyzing ``to-be'' asset 
management flows; analyzing feasibility of a phased-in 
implementation approach; and updated Enterprise Architecture to 
reflect Asset Management.
    We have made significant progress on implementing programs 
to assure compliance with environmental, safety/OSHA 
regulations. For example, we have established Mishap Reporting 
Procedures and new data collection software for tracking and 
trending on-the-job injuries. Also we have developed a program 
to identify, document and correct workplace hazards. Of the 
more than 500 identified safety deficiencies by the Office of 
Compliance during the 108th Congress in USCP occupied spaces, 
100 percent of USCP action items were abated. Successfully 
abated over 350 safety deficiencies in USCP occupied spaces. We 
also successfully established a Safety Awareness Program.
    In other logistics areas we have improved warehouse 
inventory management, updated and revised internal standard 
operating procedures and improved our preventative maintenance 
system.

            DISCUSSION ON NEW POLICE CHIEF SELECTION STATUS

    Senator Allard. I would encourage you to keep on it and 
keep up the work. Now, Mr. Livingood, where are we in finding a 
new chief for the department, and what time frame do you think 
we are looking at for a hire there?
    Mr. Livingood. Mr. Chairman, the Capitol Police Board has 
requested the department to develop a concept for the search 
for a new Chief of Police. This concept is being developed as 
we speak to include use of a search firm, the selection 
criteria, and items such as that. Upon approval of the concept, 
a statement of work and deliverables, the process is estimated 
to be accomplished in approximately 3 to 4 months.

                   INSPECTOR GENERAL SELECTION STATUS

    Senator Allard. Very good. Now, what about the inspector 
general? That's another area where we have a search process in 
place.
    Mr. Livingood. Yes, sir. The search has been completed by 
the search firm, and the first interviews by the three 
inspector generals selected I understand has been completed or 
is in the process of being completed, and we, the Board, will 
start interviews, we think, within the next 2 weeks--2 to 3 
weeks.

                  MASTER TRAINING PLAN--CAPITOL POLICE

    Senator Allard. Now, I'd like to move to training. You 
talked somewhat in your comments, Chief McGaffin, about 
training. Do we have a master training plan for our Capitol 
Police?
    Acting Chief McGaffin. We have--the training services 
bureau, that's the group that is responsible for providing all 
the training for the police department, has developed a 2-year 
business plan that includes within it steps toward improving 
master training plans, schedules, initiatives associated with 
all the training within the police department.
    Senator Allard. So, it also includes organizational 
training policies as well as----
    Acting Chief McGaffin. Sir----
    Senator Allard [continuing]. On-the-street training, so to 
speak.
    Acting Chief McGaffin. It certainly does. It cuts all the 
way across--sworn civilian, recruit, in-service, and it is 
undergoing a review now with great emphasis and great energy 
being placed on improving it and ensuring that it meets every 
core competency that is being identified within all the 
positions and jobs we have in the department.
    Senator Allard. So, what do you see as the greatest 
challenge in updating this document?
    Acting Chief McGaffin. It is a challenge, and we are 
working toward meeting it.
    Senator Allard. What part of it is the greatest challenge?
    Acting Chief McGaffin. Oh, the greatest challenge? I'm 
sorry, Mr. Chairman. We have several. One is staffing. You 
know, to identify core competencies and the training 
requirements and the different positions we have is a 
challenge, but a greater one is to ensure that you have the 
right instructor staff and competencies within that instructor 
staff to deliver the training. And so, it's a balance. Within 
limited FTE staffing levels, we have got to pull men and women 
out of the line to put them into the training services bureau. 
So, we are looking at some strategies that would achieve 
efficiencies in those areas as well to include adjunct 
instructors who would be considered practitioners who would 
come off the line.
    For example, in our driver training program or our firearms 
program, when we would be running those courses, we would be 
bringing officers who are, in fact, drivers and who have been 
certified as instructors in that area to come in and conduct 
those classes. We also use our legal staff to come in and to 
conduct legal updates and constitutional law reviews for us. 
So, we are looking for efficiencies there as well, but that is 
a big challenge.

                            CLOSING REMARKS

    Senator Allard. I'd like to thank you, Chief McGaffin. This 
is sort of a last-minute responsibility you have had to incur. 
It's difficult to show up before this subcommittee, but we just 
want to thank you for stepping forward, and you have done a 
great job. Thank you for that. I also want to thank the whole 
Police Board for your effort.
                          CAPITOL GUIDE BOARD

STATEMENT OF HON. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD AND CAPITOL GUIDE SERVICE
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SERGEANT AT ARMS
        HON. ALAN HANTMAN, ARCHITECT OF THE CAPITOL, FAIA
        TOM STEVENS, DIRECTOR OF VISITOR SERVICES

    Senator Allard. We'll now move on to the Capitol Guide 
Board. Mr. Livingood, you're the chairman, so you'll be our 
next panel. We're ready when you are.
    Mr. Livingood. Mr. Chairman, thank you for the opportunity 
for the Capitol Guide Board to appear before this subcommittee. 
I am pleased to come before you today to report on the 
operations of the Capitol Guide Service and the Congressional 
Special Services Office. With me today are Mr. William Pickle, 
the Senate Sergeant at Arms, and Mr. Alan Hantman, the 
Architect of the Capitol, who are members of the Capitol Guide 
Board, and Mr. Tom Stevens, Director of Visitor Services.

                            PRIMARY FUNCTION

    The primary function of the Capitol Guide Service is to 
provide an educational, accessible, and enjoyable visit to the 
United States Capitol for over 1 million visitors each year. 
The employees of the Capitol Guide Service and the 
Congressional Special Services Office provide a wide range of 
tour-related services to Member offices and public. We have 
had, as I said, over 1 million visitors this year, and that's 
on public tours, large group of Member's tours, congressional 
staff-led tours, and adaptive tours for visitors with 
disabilities.
    At the current level, we this year may well reach over 1.5 
million visitors to the Capitol before October 2006.
    As a quick background and I have submitted my full 
testimony for the record, but just as a quick background, the 
Capitol Guide Service has been in existence since 1876, and 
they initially employed three guides.
    And since then, as you know, the Guide Service and the role 
of the Guide Service has expanded--not only in terms of 
managing visitors to the Capitol, but in terms of added 
responsibilities. Following the events of September 11, the 
Capitol Guide Board called upon the Guide Service to assist the 
Capitol Police with emergency preparedness. Guide Service 
management is now equipped with emergency radios, providing a 
communications bridge to the Guide Service's own radio system. 
All Guide Service personnel have been trained in evacuation 
procedures. The Guide Service staff assists the Capitol Police 
in evacuation of all those tourists on public tours when 
needed.
    In addition to its daily responsibilities, the Guide 
Service and the CSSO help facilitate visitors through the 
Capitol during special events, such as the 2005 Presidential 
Inauguration, the lying in State for President Ronald Reagan 
and the lying in honor for Rosa Parks.

                             BUDGET REQUEST

    The fiscal year 2007 budget request for the Capitol Guide 
Service and the Congressional Services Office is $8,489,000. 
This request includes $4,450,000 for existing operations, which 
is an increase of $352,000 or 8.6 percent over the fiscal year 
2006 budget. Of that amount, 93 percent of this increase 
includes the COLA and increases in personnel benefits.
    The single largest increase in the fiscal year 2007 request 
includes an additional $4,039,000 to fund 71 additional FTEs 
and related equipment for operations in the new Capitol Visitor 
Center. The Guide Service and Congressional Special Services 
Office are currently funded for 72 employees, so this is in 
addition to that. The Architect of the Capitol has conducted a 
thorough study of the number and type of new positions 
necessary for tour operations in the new Capitol Visitor 
Center. The Guide Board's request for fiscal year 2007 funding 
reflects this need. In addition, the funding request includes 
the tour-related equipment necessary for beginning the 
transition to operations in the Capitol Visitor Center as soon 
as possible.
    As we begin to transition to the new Capitol Visitor 
Center, we welcome the opportunity to increase the duties and 
responsibilities of the Capitol Guide Service to meet the needs 
of the congressional community and the visiting public.
    In closing, the dedicated employees of the Capitol Guide 
Service and the Congressional Special Services Office do a 
tremendous, dedicated job in providing the maximum in visitor 
service to all who come here to the Capitol. Yet, none of this 
would be possible without the support of this subcommittee. 
Thank you for your ongoing support, and we'll be happy to 
answer any questions at this time.
    [The statement follows:]
                 Prepared Statement of Wilson Livingood
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity for the Capitol Guide Board to appear before the Committee. 
I am pleased to come before you today to report on the operations of 
the Capitol Guide Service and its Congressional Special Services 
Office. With me today are Mr. William H. Pickle, the Senate Sergeant at 
Arms and Mr. Alan Hantman, the Architect of the Capitol, who join me as 
Members of the Capitol Guide Board. Also with me today is Mr. Tom 
Stevens, Director of Visitor Service, who has the pleasure of 
overseeing the day to day operations of the Capitol Guide Service.
    The primary function of the Capitol Guide Service is to provide an 
enjoyable and accessible visit to the United States Capitol for over 
one million visitors annually. In fiscal year 2005 the Guide Service 
accommodated approximately 353,000 visitors on Public tours alone. 
Also, the Guide Service led approximately 96,000 visitors on Member 
Reserved Group tours, 19,000 on Congressional member tours (early-
morning tours) and 7,000 on Dome tours. The Guide Service also trained 
over 3,000 Congressional staff to give tours and regulated the flow of 
approximately 680,000 visitors on staff-led tours. Additionally, the 
Guide Service through its Congressional Special Services Office, 
provided over 850 hours of sign language interpreting services for 
Congressional business, accommodated more than 1,300 visitors on 
adaptive tours for visitors with disabilities and provided elevator 
escorts for more than 9,000 visitors. If current levels are an 
indicator, we may reach 1.5 million visitors to the Capitol before this 
October.
    The Capitol Guide Service has been in existence since 1876, 
employing three guides when it was established for the centennial 
celebration. The Capitol Guide Board--similar in composition to the 
Capitol Police Board (House and Senate Sergeants at Arms and Architect 
of the Capitol)--was established in 1970 to formalize the Guide Service 
as a professional entity within the Congress and to supervise and 
direct its operation.\1\ The authorizing legislation in 1970 called 
upon the Guide Service, which employed twenty-four guides at the time, 
to not only provide educational tours of the Capitol but also to 
``assist the Capitol Police by providing ushering and informational 
services, and other services not directly involving law enforcement, in 
connection with ceremonial occasions in the Capitol or on Capitol 
Grounds,'' among other duties.
---------------------------------------------------------------------------
    \1\ Effective January 3, 1971, Public Law 91-510 made the tour 
guides legislative employees under the jurisdiction of the Capitol 
Guide Board. The first free guided tour was conducted on January 3, 
1971.
---------------------------------------------------------------------------
    Since then, the role of the Guide Service has expanded to include 
additional responsibilities. Following the events of 9/11, we called 
upon the Guide Service to assist the Capitol Police with emergency 
preparedness. Guide Service management is now equipped with emergency 
radios, providing a communications bridge to the Guide Service's own 
radio system. All Guide Service personnel have been trained in 
evacuation procedures. It falls to the Guide Service staff to assist 
the Capitol Police in the evacuation of those on public tours, who for 
the most part, have never been inside the Capitol Building before.
    Today, we are budgeted for 72 Guide Service employees to perform 
these services. We welcome the opportunity to increase the duties of 
the Guide Service to meet the needs of the Congressional community as 
we transition to the Capitol Visitor Center.
    For fiscal year 2007, the Guide Service is requesting a total 
budget of $8,489,000. This request includes $4,450,000 for existing 
operations which is an increase of $352,000 or 8.6 percent over the 
fiscal year 2006 budget. Of that amount, $328,000 (93 percent) of this 
increase over fiscal year 2006 includes the estimated fiscal year 2007 
COLA and increases in personnel benefits. This part of the requested 
increase would enable the Guide Service to maintain the level of 
service currently being provided to Members of Congress and their 
guests based on current visitation volume and services provided. 
Secondly, this request includes $4,039,000 to fund 71 additional FTEs 
and related equipment to operate in the new Capitol Visitor Center.
    The staff of the Capitol Guide Service and its Congressional 
Special Services office has done a tremendous job in providing the 
utmost in visitor services to all who come to experience the Capitol. 
The accomplishments of this office would not be possible without the 
support of this Committee. We thank you for your support and the 
opportunity to present this testimony and answer your questions.

                     CAPITOL VISITOR CENTER OPENING

    Senator Allard. Well, thank you. I have four questions here 
I'd just like to cover with you this morning. The Guide Service 
and you are planning for the opening of the Capitol Visitor 
Center. Is this going to be a seamless operation as we move 
forward with the CVC operations?
    Mr. Livingood. Alan, do you want----
    Senator Allard. Mr. Hantman.
    Mr. Hantman. Mr. Chairman, good morning.
    Senator Allard. Good morning.
    Mr. Hantman. Tom Stevens has been meeting with our 
transition team, with our operations team regularly for the 
last couple of years; talking about the role of the Capitol 
Guide Service with respect to the operations of the visitor 
center itself. We fully expect that once we get the executive 
director on board and working together with this team, which 
needs to be enlarged, both on the executive director side as 
well as on the Guide Board side, that we will have a seamless 
operation. Clearly, the plan is for hiring, starting in 2007, 
for the Capitol Guide team, the additional 71 people that Zell 
has identified. And obviously, the new functions that the Guide 
Service will be accommodating; such as boarding buses, talking 
to people before they actually get off the buses, to come into 
the visitor center, greeting people once they come through the 
screening area, working in the orientation theater areas, 
bringing people into those theaters, out of the theaters to be 
broken up into smaller groups to tour the Capitol building 
itself. Inside the exhibition areas--all of these functions and 
the new information desks inside the visitor center as well, 
will be staffed by the new people identified for the Guide 
Service. It's a tremendous increase in the responsibility and 
scope. And with the ability now to welcome and educate people 
as they come to visit their Nation's Capitol, as we have not 
been able to do in the past, will be a wonderful new role, an 
expanded role for the Guide Service.

                         FULL-TIME EQUIVALENTS

    Senator Allard. Now, you've got 71 FTEs, and 24 of those 
are going to be full time, and you're planning on 37 that will 
be half time, or part time.
    Mr. Hantman. Tom.
    Mr. Stevens. It's 37 FTEs that actually split for 6-month 
positions, so it's actually 74 bodies, if you will, during the 
peak season.
    Senator Allard. Okay, and do you anticipate any 
difficulties in hiring these half-time employees?
    Mr. Stevens. Well, we don't at this point. Zell has 
volunteered their services to assist us in recruiting and 
advertising and actually hiring those folks.
    Senator Allard. Where are you anticipating the half-time 
employees would come from?
    Mr. Stevens. Well, what we see now are a number of college 
students, retirees, folks that go south for the winter, but are 
up here during the summer that enjoy the environment and come 
to work for us. And this is in addition to our volunteer 
staffing that we'll actually be beefing up.
    Senator Allard. Okay. Now, are you confident that the 
numbers of Guide Service employees requested for the CVC are 
sufficient?
    Mr. Stevens. I certainly believe for year one we will have 
sufficient staffing. Hopefully we will not have any kind of 
legislation that limits our maximum staffing levels. That is, 
we are budgeted for 143 FTEs, including the current staff. Some 
of those might be 9-month employees, some 6 month, and some 3 
month. It's obviously unrealistic to try to hire all those 
people and get them trained in a 1-month period. So, it'll be a 
ramping up just as the season ramps up for us and then slowly 
ramping down in the fall, as does the visitor season.

                 HIRING FOR THE CAPITOL VISITOR CENTER

    Senator Allard. Based on the oversight that we have been 
having on a monthly basis with the Capitol Visitor Center, 
testimony is indicating that May is when the CVC would open. 
When do you begin hiring for the CVC positions with a May 
opening date?
    Mr. Stevens. I think we have to anticipate somewhere very 
close to the first of the year, aggressively advertising and 
recruiting. Part of the challenge in training is finding 
adequate space. We do some training now, but our facilities are 
very limited. Maybe we can borrow some space to do some larger 
training classes of 50 or 60 at a time, but that's probably 
going to be the biggest challenge because much of what we do is 
very unique to our office. They aren't skills that people 
typically bring with them from previous employment. So, it does 
take several weeks to even give people a rudimentary knowledge 
of the building to where we are comfortable with them actually 
interacting with the visitors.

                        CERTIFICATE OF OCCUPANCY

    Senator Allard. Do we have to deal with a certificate of 
occupancy on the new Capitol Visitor Center where people are 
not allowed in until you get your final inspection? My point is 
we may have part of the Capitol Visitor Center available if we 
could get into it before final inspection for employee 
training.
    Mr. Hantman. We would expect, Mr. Chairman, that for 
training functions, some of the functions that Tom and the team 
will need to go through, that we'd be able to do that a period 
of weeks before a certificate of occupancy is issued for the 
central area. The training that would have to go on that would, 
say, use outside sample groups, if you will, to move through 
the center would probably be done more likely after a 
certificate of occupancy was obtained for general people to 
come in as opposed to employees.
    Senator Allard. Okay. That's all the questions I have. 
Again, I want to thank the panel for showing up this morning 
and testifying before this subcommittee.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until Wednesday, April 
26, at 10:30 a.m. when we will take testimony from the 
Government Accountability Office on its fiscal year 2007 budget 
request, as well as receive an update from the Architect of the 
Capitol and the GAO on the progress of the Capitol Visitor 
Center. Look forward to seeing you then. Thank you.
    [Whereupon, at 11:56 a.m., Wednesday, April 5, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 26.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL OF 
            THE UNITED STATES
ACCOMPANIED BY:
        GENE L. DODARO, CHIEF OPERATING OFFICER
        SALLYANNE HARPER, CHIEF ADMINISTRATIVE OFFICER
        GEORGE G. STRADER, CONTROLLER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The hour of 10:30 having arrived and 
staying on schedule like we do, we're going to call the 
Subcommittee on the Legislative Branch to order. This is a 
hearing on the 2007 budget for the Government Accountability 
Office (GAO). We will meet today to take testimony on the 
fiscal year 2007 budget request for the Government 
Accountability Office, as well as review other GAO matters.
    Welcoming our witnesses this morning, we have Mr. David 
Walker, Comptroller General; Gene Dodaro, Chief Operating 
Officer; Sallyanne Harper, Chief Administrative Officer; and 
George Strader, GAO's Controller. I look forward to hearing how 
you are implementing goal setting and tying that in with your 
budget figures and employee performance.

           NEW YORK TIMES ARTICLE ON MISSILE DEFENSE PROGRAM

    Before we discuss GAO's fiscal 2007 budget request, I'd 
like to take a few moments to discuss an issue of deep concern 
to me. On April 2 of this year, the New York Times published a 
story alleging that the Government Accountability Office--and I 
quote, ``ignored evidence that contractors doctored data, 
skewed test results, and made false claims,'' close quote, in a 
2002 report on missile defense. The article was based on 
information provided by Mr. Subrata Ghoshroy, a GAO analyst who 
is on loan to the Massachusetts Institute of Technology.
    The information provided by Mr. Ghoshroy raises several 
troubling issues and calls into question the integrity of the 
GAO's investigative process. Even more disturbing are Mr. 
Ghoshroy's accusations that GAO personnel deliberately 
undermined this investigation and possibly altered documents to 
avoid investigating key items that might have lead to 
revelations of contractor fraud.
    I am especially interested in knowing how GAO made a 
unilateral decision to alter the scope of the investigation 
without securing the concurrence of the members who requested 
the investigation.
    Mr. Walker, I realize that some have used this issue to 
promote their own political agenda. In the context of this 
hearing, the policy does not interest me, really. I am 
interested in the process. And as the subcommittee responsible 
for overseeing the GAO, I believe we have an obligation to get 
to the bottom of the allegations. The GAO's reputation and 
credibility depends upon its ability to accurately investigate 
the executive branch on behalf of Congress. Accountability, 
integrity, and reliability are GAO's core tenets and I think we 
need to maintain those.
    So Mr. Walker, please proceed with your statement.
    Mr. Walker. Sure. Would you like me to address that issue 
now.
    Senator Allard. Yes.
    And then, let's go ahead and move on to your budget.

          MR. WALKER'S RESPONSE TO THE NEW YORK TIMES ARTICLE

    Mr. Walker. That'll be great. Thank you, Mr. Chairman. It's 
a pleasure to be back before you and I look forward to talking 
about the budget. But let me go ahead and address this issue, 
because I think it is important we try to put it to rest.
    First, the allegations lack merit. Just because they are 
printed, doesn't mean they are true. I can tell you that we 
conducted three internal reviews on this matter. Any time that 
I received a complaint, from either Mr. Berman or Mr. Ghoshroy, 
I expeditiously took steps to try to review those. I 
commissioned three internal reviews and all of those reviews 
came out to say that the assertions lacked merit.
    Furthermore, there was a prize winning investigative 
reporter from 1 of the top 10 papers in the United States--who 
spent months last year conducting an independent investigation 
of this. And after months, the reporter determined that it 
lacked merit and was not worthy of publication.
    Furthermore, I think it's important for you to know, that 
this report was 1 of about 4,000 that we've issued in the last 
several years. It's also one of many that we've issued on 
national missile defense, and we take our quality control 
procedures very seriously. We want you to be able to rely upon 
our work and for the American people to be able to rely on our 
work. I think it's important for you to also know that last 
year we had two independent peer reviews conducted of GAO's 
quality assurance processes. One by KPMG on our financial 
audits. One by a multinational team lead by Canada, involving 
seven countries who looked at our quality control procedures 
and non-financial audit work. You can rely on our work.

            LESSONS LEARNED FROM MISSILE DEFENSE ENGAGEMENT

    Now with regard to lessons learned. There are two important 
lessons learned from this engagement. Number one, we never 
should have accepted it from day one. We were asked to do work 
on a matter that, after further investigation, was pending in 
the Federal courts. In my view, there was an attempt to get GAO 
to intervene in private party litigation and to use GAO's work 
to further that private party litigation. That is wholly 
inappropriate, in my opinion.
    So first, we made a mistake by accepting the engagement. 
But after it became clear, and after we had accepted to do some 
work, that we were being asked to do something relating to 
litigation that was pending, we made an attempt to modify the 
objectives of the engagement, in order to be able to do 
something without directly intervening in that litigation.
    In doing that, we made a second mistake. And that is, when 
we communicated with the requestor's staff about the need to 
make a change and what our change would be, we did not 
communicate it in writing. That was a mistake. As a result, 
that led to an expectation gap between the requestor and us as 
well as I think, this particular employee who is on a leave of 
absence, who has dogged us ever since.
    We have modified our procedures with regard to engagement 
acceptance. We have also modified our procedures with regard to 
modifying engagement objectives after we've accepted an 
engagement. We have not had any other instances like this 
occur, and I can assure you we'll do everything we can to make 
sure it doesn't reoccur. But I can also assure you, that you 
can rely upon our work including that report.

                 BACKGROUND ON MISSILE DEFENSE ARTICLE

    Senator Allard. Now, I'm just going to follow up with a 
question and we'll just get this off the table and move on with 
the budget. It's really unusual for a GAO employee to come 
forward like this. I can't recall any, and you indicated in 
your testimony that has never happened. In this particular 
instance, what caused your analyst to complain to the press, 
from your point of view?
    Mr. Walker. Mr. Chairman, to a certain extent, I would be 
speculating. I think the problem is, that the analyst wanted us 
to do the original work and when we modified the scope of the 
engagement to make sure that we did not interject GAO into 
ongoing litigation, I think the analyst had difficulty 
accepting that, even though it was very consistent with GAO's 
longstanding policy well before I was at GAO, that we won't 
interject ourselves into pending litigation.
    I think the analyst also had difficulty in understanding 
that while every person's opinion counts at GAO, no matter what 
your position is, no matter what your level is, no matter what 
your classification is, in the final analysis while everybody 
needs to be heard and is heard, we make institutional 
decisions.
    Senator Allard. And this was in a lawsuit that he had a 
personal interest in?
    Mr. Walker. To my knowledge, he didn't have a personal 
interest. But it's also my understanding; he may have known 
some of the parties who did have a personal interest in the 
litigation. That's something that we're following up on. Since 
the report appeared in the New York Times, I have received 
information from a party, not in government, but a very high 
ranking official who's aware of this situation, who believes 
that there may have been some relationships that need to be 
reviewed, and we are in the process of doing that. These are 
allegations. They may or may not be true. And unless and until 
we review it and investigate it, I would prefer not to go into 
more detail. But I would be more than happy to keep you 
apprised, as I promised Congressman Berman as well as Senator 
Grassley to keep them apprised.
    Senator Allard. Well I would appreciate that. I'm glad that 
you feel that you've learned some things. We all make mistakes 
occasionally and we need to learn from those mistakes. But 
aside from that, do you think the review was taken in the most 
professional and unbiased manner possible?
    Mr. Walker. You can rely on that work, Mr. Chairman. The 
other thing that one has to keep in mind, is the Justice 
Department was already well aware of this matter.
    Senator Allard. Yes.
    Mr. Walker. And so, this was not something new. This was 
not something where people were relying on GAO to be able to 
advise the Justice Department as to whether or not the 
Government's interest should be protected. In fact, the Justice 
Department conducted its own independent review, it's my 
understanding, to determine whether and to what extent they 
should intervene in this action. They decided not to intervene 
in this action.
    I can tell you, Mr. Chairman, we have spent a tremendous 
amount of time institutionally, as well as myself individually, 
and we've spent a significant amount of taxpayer resources 
taking this matter very seriously. I'm just hoping we're to the 
point that we can move forward.

         PRIOR DISCUSSIONS WITH THE CONGRESS ON MISSILE DEFENSE

    Senator Allard. Yes. You've now talked to Mr. Berman and 
Senator Grassley about this misjudgment that you've made in 
taking on the case and subsequently had to change the scope. 
Even though it was after the fact, did they agree in light of 
the court case, that this is a change that needed to be made?
    Mr. Walker. They understand and they accept what we did and 
why we did it. I've spoken to Mr. Berman on several occasions 
over several years about this. In fact, I was very surprised 
when the article appeared in the New York Times, because there 
had been no attempt to communicate with me on this for almost 2 
years. After all the efforts I had taken, and that we 
institutionally had taken on this, it was really a surprise to 
me. In fact, the letter that resulted in the New York Times 
article--the 41 page letter, dated December 19, 2005, was never 
provided to me or anybody else at GAO. We had to get it off of 
Mr. Berman's website the day after it appeared in the New York 
Times.
    Senator Allard. I see.
    Mr. Walker. I will say for the record, that I had the 
professional courtesy to send Subrata Ghoshroy a copy of my 
response to his letter, which I think obviously, is 
appropriate.

   GOVERNMENT ACCOUNTABILITY OFFICE'S POLICY ON ENGAGEMENTS PENDING 
                               LITIGATION

    Senator Allard. Yes. Now your policy, prior to 2002, has 
not been to take on studies that might involve you in a court 
case. Is that the policy now?
    Mr. Walker. Our policy was and remains not to have GAO 
directly address issues that are pending before the Federal 
courts.
    Senator Allard. Is it just Federal courts or is it local 
courts too?
    Mr. Walker. It's general--it's any court. But typically, 
its Federal courts when somebody would be involving us to do 
anything regarding Federal spending, programs or whatever else. 
We never should have accepted it. Once we did accept it, we 
endeavored to try to be able to modify the objectives to not 
directly intervene. But that created certain expectation gaps 
within our organization and outside our organization. In fact, 
I communicated with Mr. Berman about this within the last 
couple of weeks and I think we both agree, that rather than 
modify the objectives, we probably should have said, we're not 
going to do anything.
    Senator Allard. Yes.
    Mr. Walker. Because it created certain expectation gaps. 
So, as you know, no good deed goes unpunished. I mean you're 
trying to provide some type of service. But we have learned 
lessons. In summary, you can rely on this report and we did 
take the complaints very seriously.

     GOVERNMENT ACCOUNTABILITY OFFICE'S QUALITY CONTROL PROCEDURES

    Senator Allard. Now how does GAO deal with concerns that 
are raised by analysts as to the direction the report is going 
in or the conclusions being drawn during the course of the job?
    Mr. Walker. Let me provide an overview of our quality 
control procedures, Mr. Chairman. I think it would help. As you 
can imagine, we receive 25 to 50 requests in a typical week 
from the Congress for us to do work. Every Monday afternoon, 
Gene Dodaro, our Chief Operating Officer, after getting input 
from me, chairs a meeting reviewing all of those requests 
involving the managing directors of all of our key teams, and 
we make a decision, typically within 10 days, on whether or not 
we're going to accept it. We also assign who is going to be the 
leader. We also identify, given the nature of the work, the 
complexity of the work, what we're being asked to do, and who 
the other key stakeholders are that need to be involved. For 
most of the work that we do, there are multiple key 
stakeholders, or multiple organizations, as was the case with 
this report. There are usually a number of key organizations 
that have to be involved to bring the right skills and 
knowledge together to do the best job and to mitigate related 
risk.
    Then staff are assigned. We have an extensive quality 
control process that includes periodic status reports on each 
major engagement. We also have a quality control process that 
includes internal reviews of all draft reports. We have a 
quality control process that includes providing an opportunity 
for any of the agencies that would be affected, to comment on 
the report before it is made final. If there are differences of 
opinion within our agency between key stakeholders, they are to 
buck it up the chain of command. If necessary, to my level, to 
get it resolved.
    Interestingly with regard to this report, we have a policy 
where before we issue any report, every stakeholder that's 
assigned to the engagement has to sign off on the report. That 
was the case here, including the person who's complaining.
    Senator Allard. So the person who's raising the complaint 
signed off on the report?
    Mr. Walker. He signed off on the report.

  ENSURING THE GOVERNMENT ACCOUNTABILITY OFFICE REPORTS ARE IMPARTIAL

    Senator Allard. Okay. Now, what steps do you take to ensure 
that your employees or consultants that you are working with 
don't have an over sympathetic relationship with individuals 
involved in your investigation, in a way that might distort the 
outcome of that report?
    Mr. Walker. As you know, Mr. Chairman, we have professional 
independence standards that relate to GAO. We also have 
supplemental internal policies and procedures. We set a very 
high bar on both institutional independence, as well as 
individual independence with regard to particular engagements. 
So when we're staffing, we're looking for that. The people have 
to let us know if they think they have any potential 
impairments that we need to be aware of. I would ask Gene 
Dodaro, our Chief Operating Officer, to comment in more detail.
    Senator Allard. Mr. Dodaro.
    Mr. Dodaro. Good morning, Senator. We have several 
different safeguards in place. Annually, each employee is to 
sign a statement of independence, saying that they are free 
from any personal impairments. Every employee also files a 
financial disclosure statement that's reviewed by their 
supervisor, so we can tell if they have any financial interest 
that may be an issue.
    Then, when individual engagements are staffed, every 
employee is reminded that they are to notify their manager if 
they have any personal or other conflicts with their assignment 
to that engagement. And then, they sign off on every individual 
engagement.
    Now, we didn't have that particular procedure in place back 
when this engagement was conducted, but we've added it since 
then. We've always had the annual certification. We've always 
had the requirement that each employee notify managers if they 
have any conflicts of interest.
    So the burden is on individual employees to notify 
managers. But we do have institutional safeguards and do some 
independent checking, as well.
    Senator Allard. Okay. And just kind of a summary question 
here. Mr. Dodaro, you mentioned a couple lessons learned. Can 
we just get a summary of lessons learned and then actions that 
have been taken, so that doesn't happen again?
    Mr. Walker. Absolutely, Mr. Chairman. We'd be happy to 
provide that for the record.
    Senator Allard. If you would, please.
    Mr. Walker. We will do it.
    [The information follows:]

    Question. How has GAO responded to the allegations about the 
February 2002 missile defense program report and what changes, if any, 
have you made to GAO's internal processes as a result?
    Answer. We have taken these concerns very seriously. In total, I 
initiated three internal reviews to respond to the concerns and most 
recently, in April 2006, provided a detailed response to Senator 
Grassley and Representative Berman addressing questions about the 
report. In summary,
  --The three internal reviews that have been conducted, including one 
        by our Inspector General, found that our 2002 report was done 
        in accordance with generally accepted government auditing 
        standards and the allegations raised were not substantiated. In 
        particular, these reviews determined that there was no credible 
        evidence supporting the assertion of conflicts of interest by 
        GAO personnel involved with the engagement nor was there any 
        credible evidence that would raise questions regarding the 
        integrity of our workpapers.
  --The missile defense report's findings represent the consensus view 
        of our most senior technical and professional staff. 
        Differences of opinion during the course of the work were 
        resolved by the time the report was issued, as evidenced by the 
        signatures of all the ``stakeholders'' on the engagement, 
        including the employee making the assertions. As a result, we 
        continue to stand behind the report. While the employee who 
        made the allegations, like all the other team members did play 
        a role in this engagement, he was one of four technical people 
        involved in the project. In addition, while all GAO employees' 
        opinions are important and sought, the opinion of a single 
        individual is not sufficient to create an institutional 
        position.
  --Importantly, the objective of our engagement was not to adjudicate 
        whether false claims had or had not been made nor did we 
        attempt to do so. In hindsight, we should not have accepted the 
        original July 2000 request because of the then-ongoing 
        litigation over the central issues involved in the sensor test. 
        Once we identified the need to restructure the engagement in 
        order to be consistent with long-standing GAO policy involving 
        matters pending before the courts, we took corrective action to 
        avoid directly inserting GAO into the issues that were the 
        subject of the litigation. The Justice Department was already 
        aware of allegations of false claims prior to GAO issuing its 
        report. Furthermore, the Justice Department conducted its own 
        review of this matter and decided not to pursue it. As I have 
        noted in previous communications on this matter, we should have 
        done a better job of communicating to the requester that we 
        were revising our audit scope and objectives and documenting 
        such revisions. Clearly this communication gap underlies the 
        fundamental misunderstanding that is at the heart of this 
        dispute both internally and externally, which has now consumed 
        a significant amount of time and taxpayer resources over 
        several years.
  --GAO has a strong, clear, and consistent record of aggressively 
        pursuing fraud, waste, abuse, and mismanagement within 
        government, including the Defense Department, in general, and 
        defense contracting and weapons acquisitions, in particular. In 
        fact, eight individual DOD areas are on GAO's high risk list 
        including weapons systems acquisition and several government 
        wide high risk areas apply to DOD as well. Our reviews of 
        missile defense issues have been an important part of this body 
        of work.
    In part as a result of the 2002 missile defense report, we have 
clarified our written policies and introduced new procedures pertaining 
to requests for work that deal with issues in litigation. Our written 
policies have been revised to emphasize that our Office of General 
Counsel should help identify and analyze any ongoing or anticipated 
litigation that could affect the engagement acceptance decision, and 
that this office should be consulted about such matters. In addition, 
the July 2004 update to our Congressional Protocols specifies that one 
of the factors that will be considered in determining whether to accept 
congressional requests is whether the matter is pending before 
administrative or judicial forums. We also have been giving greater 
attention to this issue at our weekly Engagement Acceptance Meeting, 
where all new congressional requests and mandates are discussed to 
determine, among other things, whether the work should be done and the 
appropriate level of Office of Comptroller General involvement. Known 
or potential issues involving litigation are discussed at the 
Engagement Acceptance Meeting as part of deciding whether GAO should 
accept the engagement. Lastly, we hold bi-weekly Engagement Review 
Meetings to discuss progress or issues on ongoing assignments that may 
require senior GAO management attention, such as litigation that may 
have been initiated since an engagement was begun and that may impact 
the engagement's scope or objectives.
    Regarding the issue of communicating changes in the scope of GAO 
work to requesters, once I became aware of the miscommunication on the 
missile defense engagement, we strengthened our internal policies and 
practices to protect against such communication problems in the future. 
Specifically, our practice is now to not only discuss significant 
changes in the scope of work, but also to document this discussion with 
a letter to the requester outlining the changes. Additional 
communication requirements in the protocols include holding discussions 
and sending documenting letters concerning our acceptance/declination 
of a request; and our agreement with the requester on the terms of the 
engagement. The practice of providing briefings and sending letters to 
the requester whenever there is a significant change in the objectives 
or scope of an engagement--coupled with the attention we give to these 
issues in Engagement Acceptance and Engagement Review Meetings--should 
help ensure solid communications with our congressional clients on 
these issues.
    In regard to assuring the independence of GAO staff, at the start 
of each engagement, the engagement's Director discusses the need to 
maintain independence with the engagement team and asks if anyone has 
any independence issues. This discussion is documented. If an 
individual's personal impairment cannot be mitigated, the individual 
will not perform the audit. When the design of an engagement is 
completed and documented (referred to as a design matrix), all 
engagement staff and stakeholders certify on the design matrix that 
they are free of any impairments to their independence and that they 
will notify their supervisor if such impairments should arise.
    Finally, it is our longstanding policy and practice that GAO's 
professional staff represent their independence by (1) signing an 
annual Statement of Independence stating that they have no personal or 
external impairments and understand the requirements for independence 
as stated in our professional standards (Generally Accepted Government 
Auditing Standards), (2) identifying financial interests and filing an 
annual Financial Disclosure report that is reviewed by Executive 
Committee members, Managing Directors, or designees; and (3) reporting 
to their Managing Director when they are seeking employment at the 
entity being audited and obtaining their Managing Director's approval 
to engage in outside activities.
    Question. What policies and practices have you put in place to 
assure that (1) GAO does not accept requests for work on matters 
involving pending litigation, (2) changes in the scope of work are 
communicated to requesters, and (3) GAO staff are free of any 
impairments related to the subject or conduct of an engagement?
    Answer. It has been our long-standing policy to generally avoid 
addressing any issue that is directly related to a matter pending in 
the Courts. In addition, we do not believe it is appropriate to use GAO 
as a means of advancing the interests or positions of private parties 
in pending litigation, whether intentionally or unintentionally. As a 
general rule, we will seek to avoid such engagements unless we believe 
we can structure our work to avoid influencing or directly interfering 
with pending litigation.
    In part as a result of the 2002 missile defense report, we have 
clarified our written policies and introduced new procedures pertaining 
to requests for work that deal with issues in litigation. Our written 
policies have been revised to emphasize that our Office of General 
Counsel should help identify and analyze any ongoing or anticipated 
litigation that could affect the engagement acceptance decision, and 
that this office should be consulted about such matters. In addition, 
the July 2004 update to our Congressional Protocols specifies that one 
of the factors that will be considered in determining whether to accept 
congressional requests is whether the matter is pending before 
administrative or judicial forums. We also have been giving greater 
attention to this issue at our weekly Engagement Acceptance Meeting, 
where all new congressional requests and mandates are discussed to 
determine, among other things, whether the work should be done and the 
appropriate level of Office of Comptroller General involvement. Lastly, 
we hold bi-weekly Engagement Review Meetings to discuss progress or 
issues on ongoing assignments that may require senior GAO management 
attention, such as litigation that may have been initiated since an 
engagement was begun and that may impact the engagement's scope or 
objectives.
    Regarding the issue of communicating changes in the scope of GAO 
work to requesters, once we became aware of the miscommunication on the 
missile defense engagement, we strengthened our internal policies and 
practices to protect against such communication problems in the future. 
Specifically, our practice is now to not only discuss significant 
changes in the scope of work, but also to document this discussion with 
a letter to the requester outlining the changes. Additional 
communication requirements in the protocols include holding discussions 
and sending documenting letters concerning our acceptance/declination 
of a request; and our agreement with the requester on the terms of the 
engagement. The practice of providing briefings and sending letters to 
the requester whenever there is a significant change in the objectives 
or scope of an engagement--coupled with the attention we give to these 
issues in Engagement Acceptance and Engagement Review Meetings--should 
help ensure solid communications with our congressional clients on 
these issues.
    In regard to assuring the independence of GAO staff, at the start 
of each engagement, the engagement's Director discusses the need to 
maintain independence with the engagement team and asks if anyone has 
any independence issues. This discussion is documented. If an 
individual's personal impairment cannot be mitigated, the individual 
will not perform the audit. When the design of an engagement is 
completed and documented (referred to as a design matrix), all 
engagement staff and stakeholders certify on the design matrix that 
they are free of any impairments to their independence and that they 
will notify their supervisor if such impairments should arise.
    Finally, it is our longstanding policy and practice that GAO's 
professional staff represent their independence by (1) signing an 
annual Statement of Independence stating that they have no personal or 
external impairments and understand the requirements for independence 
as stated in our professional standards (Generally Accepted Government 
Auditing Standards), (2) identifying financial interests and filing an 
annual Financial Disclosure report that is reviewed by Executive 
Committee members, Managing Directors, or designees; and (3) reporting 
to their Managing Director when they are seeking employment at the 
entity being audited and obtaining their Managing Director's approval 
to engage in outside activities.

  GOVERNMENT ACCOUNTABILITY OFFICE'S FISCAL YEAR 2005 ACCOMPLISHMENTS

    Senator Allard. Okay. Let's go ahead and proceed with your 
budget, and hear what you have to say in that regard.
    Mr. Walker. Thank you, Mr. Chairman. I appreciate that very 
much. I want to thank you for the opportunity to appear before 
you again, and I want to thank your subcommittee for your past 
support. Briefly, I'd like to touch on some of our 
accomplishments for last year, and then our budget request for 
2007.
    In the last fiscal year, ended September 30, 2005, as you 
know, GAO is trying to lead by example in transforming what we 
do and how we do business, focusing on positive results that 
benefit the Congress and the American people. Last year, we met 
or exceeded 10 of our 14 performance measures. We matched or 
set all time records for three of those performance measures. 
We achieved $39.6 billion in financial benefits. That's an $83 
return for every $1 invested in GAO. That's number one in the 
world. Nobody's even close. Nobody else is even in double 
digits. We had a 93 percent positive client feedback score and 
we set all time records on our employee feedback scores. So on 
all dimensions; it was a very good year.
    We issued two strategic documents of critical importance to 
the Congress and the country. The first was our ``High Risk 
Update'' listing high risk programs, functions, and activities 
in the Federal Government. The second one was our ``21st 
Century Challenges'' document, which I know Mr. Chairman, 
you've seen. This document lays out a series of questions that 
need to be asked and answered in order to re-engineer the 
Government to address 21st century challenges and capitalize on 
related opportunities.
    We strengthened various partnerships, both domestically and 
internationally. For example, we led the effort to develop the 
first ever strategic plan for auditors general around the 
world, modeled after GAO's plan. We also led the effort that 
resulted in the first ever National Intergovernmental Audit 
Forum strategic plan which involves Federal, State, and local 
auditors. It's important that we partner for progress, because 
we all have limited resources, if we're going to achieve 
maximum results.
    We successfully completed, as I mentioned before, two 
external peer reviews, providing assurance to the Congress and 
the American people in connection with our quality control 
processes. They resulted not only in clean opinions, but also a 
number of global good practices that were identified.
    A couple of areas for continuous improvement were noted in 
the reports, and we are taking steps in light of those 
recommendations. We have implemented additional flexibilities 
provided by this Congress, dealing with our human capital 
classification and compensation systems. We now have market-
based pay ranges for all GAO personnel. We now have a 
compensation system that pays based upon skills, knowledge, and 
performance. We also have extended pay banding to all of our 
administrative personnel. There are no GAO employees on the GS 
system. Not one.
    We are a window to the future, Mr. Chairman, with regard to 
this area. We most recently--and this is in fiscal 2006, had to 
accomplish the most difficult thing we'll ever do internally 
and that is to make tough decisions for our so-called Band II, 
or mid-level senior auditors, investigators, analysts, and 
evaluators, to determine which ones should benefit from higher 
pay ranges that came out of the pay study and which ones should 
not.
    We found when that pay study came out, that it was good 
news and bad news. The good news was, depending on a person's 
level of responsibilities and their performance; they should 
have the opportunity to earn up to $10,000 more than under our 
old system. The bad news was that if some persons were not 
leading on a recurring basis or their performance did not 
justify, we were paying them too much. And so, we had to go 
through a system, on an individual by individual basis, which I 
am happy to answer questions on if you so desire, that resulted 
in decisions for applicable individuals, including some 
resulting from personal appeals that came to me.
    In the final analysis, we've got only 1 percent of our Band 
II employees that have made independent appeals to our external 
review body. I think that is a minor miracle, and we obviously 
look forward to working with that body to resolve those 
appeals.

   GOVERNMENT ACCOUNTABILITY OFFICE'S FISCAL YEAR 2007 BUDGET REQUEST

    As far as 2007, as has been the case, we are trying to be 
modest with regard to our budget requests. We know the country 
is in a deficit situation. We're asking for about a 5-percent 
increase relating directly and overwhelmingly to mandatory and 
uncontrollable increases.
    I would respectfully suggest, Mr. Chairman that you not 
just consider what our increase is for this year, but also how 
we've been treated over the last several years. For example, 
since fiscal 2000, GAO's budget has increased 10 percent in 
constant dollars. The average legislative branch constant 
dollar increase during the same period is 36 percent. So I 
would respectfully suggest that you not just look at what we're 
asking for now, but how we've been treated in the past and what 
results we're generating for the Congress and the American 
people, making the tough decisions that you're going to have to 
make, with regard to limited resource allocations.
    We're asking for 50 additional full-time equivalents 
(FTEs). The reason we're asking for them, is that we're facing 
increasing supply and demand imbalances in congressional 
requests versus our ability to address those requests in a 
timely manner in several areas, such as healthcare and homeland 
security.
    And last, we're asking for a few targeted investments based 
on a business case, one time money that we would hopefully get 
funded for and will reverse out of our base, for things like 
replacing our 20 year old financial management system and 
enhancing our physical and information security requirements. 
In that regard, Mr. Chairman, it's not just for us, but we're 
one of several contingent sites for the Congress in the event 
of an unexpected catastrophic event.

                           PREPARED STATEMENT

    So, we're not just trying to take care of ourselves and our 
people, we're also trying to be in a position to help the 
Congress in the event that the Congress needs to use our 
facilities, which has already happened once in the history of 
the republic. I hope it won't happen again. But if it does, we 
want to be ready.
    Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Committee: I am pleased to appear 
before the Committee today in support of the fiscal year 2007 budget 
request for the U.S. Government Accountability Office (GAO). This 
request will help us continue our support of the Congress in meeting 
its constitutional responsibilities and will help improve the 
performance and ensure the accountability of the federal government for 
the benefit of the American people.
    Budget constraints in the federal government grew tighter in fiscal 
years 2005 and 2006. In developing our fiscal year 2007 budget, we 
considered those constraints consistent with GAO's and the Committee's 
desire to ``lead by example.'' In fiscal year 2007, we are requesting 
budget authority of $509.4 million, a reasonable 5 percent increase 
over our fiscal year 2006 revised funding level. In the event Congress 
acts to hold federal pay increases to 2.2 percent, our requested 
increase will drop to below 5 percent. This request will allow us to 
continue making improvements in productivity, maintain our progress in 
technology and other transformation areas, and support a full-time 
equivalent (FTE) staffing level of 3,267. This represents an increase 
of 50 FTEs over our planned fiscal year 2006 staffing level and will 
allow us to rebuild our workforce to a level that will position us to 
better respond to increasing supply and demand imbalances in areas such 
as disaster assistance, the global war on terrorism, homeland security, 
forensic auditing, and health care.
    I am proud of the work we accomplished this past fiscal year in 
support of the Congress and the American people. We provided our 
congressional clients with timely, objective, and reliable information 
on how well government programs and policies are working and, when 
needed, recommendations for improvement. In the years ahead, our 
support to the Congress will likely prove to be even more critical 
because of the pressures created by our nation's current and projected 
budget deficit and growing long-term fiscal imbalance. Indeed, as it 
considers those fiscal pressures, the Congress will be grappling with 
tough choices about what government does, how it does business, and who 
should do the government's business. GAO is a valuable tool for helping 
the Congress review, reprioritize, and revise existing mandatory and 
discretionary spending programs and tax policies. Additionally, through 
its involvement domestically with the federal, state, and local audit 
community and internationally with its national audit office 
counterparts, GAO has played--and will continue to play--an important 
role in helping to ensure the financial integrity of U.S. funds 
expended at home and abroad. GAO-led efforts to develop and implement 
the first-ever strategic plans for the National Intergovernmental Audit 
Forum and the International Organization of Supreme Audit Institutions 
have helped improve the effectiveness of these audit organizations and 
GAO to work more efficiently and cost-effectively.
    In an effort to identify areas for potential improvement, GAO 
underwent two peer reviews in fiscal year 2005. We obtained a clean 
opinion on our performance audit practice from an international team of 
experienced auditors--the first time that we have sought such an 
opinion. The independent reviewers concluded that we have designed and 
implemented an effective system of quality controls to provide 
reasonable assurance of complying with generally accepted government 
auditing standards, which are designed to ensure that audits of 
government activities are objective, independent, and reliable. This 
opinion validated that the Congress and the American people can rely on 
our work and products. Also during fiscal year 2005, GAO received an 
unqualified report, or clean opinion, on the results of the external 
peer review of its financial audit practice. External peer reviews are 
conducted on a 3-year cycle, and this is the fourth such clean opinion 
that GAO has received from an external peer reviewer since the program 
began in fiscal year 1996. The external peer reviewer, KPMG LLP, found 
that the system of quality control for GAO's financial auditing 
practice met professional standards and that GAO in fact complied with 
the standards.
    In fiscal year 2005, we met or exceeded targets for 10 of our 14 
performance measures, while setting or matching all-time records for 3 
measures. We documented $39.6 billion in financial benefits--a return 
of $83 for every dollar we spent--and over 1,400 nonfinancial 
benefits--a record for us. Our targets for fiscal years 2006 and 2007 
will continue to challenge the agency in our efforts to support the 
Congress and serve the American people. Beginning with fiscal year 
2006, we will add 2 internal operations measures to the list. These 2 
new performance measures will assess how well our mission and people 
are supported by our infrastructure operations staff.
    In fiscal year 2005, we issued two products that will assist the 
Congress as it addresses future challenges. Recognizing the importance 
and scope of these reports, we provided a copy to every member of 
Congress and each Committee, as well as the White House. Our report 
entitled 21st Century Challenges: Reexamining the Base of the Federal 
Government provides a series of illustrative questions related to 12 
areas of federal activity as well as our perspective on various 
strategies and approaches that should be considered as a possible means 
to address the issues and questions raised in the report. Drawing on 
our institutional knowledge and extensive program evaluation and 
performance assessment work for the Congress, we presented over 200 
specific 21st century questions illustrating the types of hard choices 
our nation needs to face as it reexamines what the federal government 
should do, how it should do it, and how it should be financed. We also 
issued our High-Risk Series: An Update, which identifies federal areas 
and programs at risk of fraud, waste, abuse, and mismanagement and 
those in need of broad-based transformations. The issues affecting many 
of these areas and programs may take years to address, and the report 
will serve as a useful guide for the Congress's future programmatic 
deliberations and oversight activities. The current administration has 
looked to our high-risk program in shaping governmentwide initiatives 
such as the President's Management Agenda, which has at its base many 
of the areas we had previously identified as high risk. The Office of 
Management and Budget (OMB), in consultation with GAO, is currently 
working to ensure that agencies develop detailed action plans to 
address high-risk areas, with the ultimate objective, over time, of 
seeing these items removed from our high-risk list.
    As in past years, during fiscal year 2005, our work covered a 
number of major topics of concern to the nation and, in some cases, the 
world. For example, we reported on the nation's long-term fiscal 
challenges, the financial condition of the airline industry, spending 
and reconstruction activities related to Iraq and Afghanistan, and 
strengthening the visa process as an antiterrorism tool. We also 
examined the Department of Defense's (DOD's) transformation challenges, 
base realignment and closure issues, increasing the strategic focus of 
federal acquisitions, protecting against identity theft, the oversight 
of electricity markets, zero down-payment mortgages, and immigration 
enforcement. We testified many times before the Congress, contributing 
to the public debate on a variety of topics that included Social 
Security reform, pension reform, postal reform, GSE oversight, wildland 
fire management, gasoline prices, the flu vaccine, veterans' health 
care, benefits for members of the Reserves and National Guard, digital 
broadcast television, long-term health care financing, passport fraud 
detection, reducing the tax gap, information security, and a range of 
financial management and accountability issues. In addition, we 
conducted a range of work on a variety of legislative branch agencies 
and projects, including the Capitol Visitor Center, the Architect of 
the Capitol, and the U.S. Capitol Police.
    This past year we also continued to take steps internally to help 
us achieve our goal of being a model federal agency and a world-class 
professional services organization. These steps helped us to address 
our three major management challenges--human capital, physical 
security, and information security. Through the GAO Human Capital 
Reform Act of 2004, the Congress granted GAO several additional human 
capital flexibilities that will allow us, among other things, to move 
to an even more performance-oriented and market-based compensation 
system. As you have heard me say many times, our most valuable asset is 
our people, and the flexibilities granted in this act will help us to 
continue to modernize our people-related policies and strategies, 
which, in turn, will help ensure that we are well-equipped to serve the 
Congress and the American people in the years to come. As a result, we 
are continuing to take a range of actions designed to modernize our 
human capital policies and practices. In fiscal year 2005, we adopted a 
broad pay band approach and a more performance-oriented pay system for 
our administrative staff. In fiscal year 2006, we implemented a more 
market-based and skills-, knowledge-, and performance-oriented 
classification and pay system for all of our employees.
    My testimony today will focus on our budget request for fiscal year 
2007 to support the Congress and serve the American people and on our 
performance and results with the funding you provided us in fiscal year 
2005.
         gao's fiscal year 2007 request to support the congress
    Our fiscal year 2007 budget request will provide us the resources 
necessary to achieve our performance goals in support of the Congress 
and the American people. This request will allow GAO to improve 
productivity and maintain progress in technology and other 
transformation areas. We continue to streamline GAO, modernize our 
policies and practices, and leverage technology so that we can achieve 
our mission more effectively and efficiently. These continuing efforts 
allow us to enhance our performance without significant increases in 
funding. Our fiscal year 2007 budget request represents a modest 
increase of about $25 million (or 5 percent) over our fiscal year 2006 
revised funding level--primarily to cover uncontrollable mandatory pay 
and price level increases. This request reflects a reduction of nearly 
$5.4 million in nonrecurring fiscal year 2006 costs used to offset the 
fiscal year 2007 increase. This request also includes about $7 million 
in one-time fiscal year 2007 costs, which will not recur in fiscal year 
2008, to upgrade our business systems and processes.
    As the Congress addresses the devastation in the Gulf Coast region 
from Hurricane Katrina and several other major 2005 hurricanes, GAO is 
supporting the Congress by assessing whether federal programs assisting 
the people of the Gulf region are efficient and effective and result in 
a strong return on investment. In order to address the demands of this 
work; better respond to the increasing number of demands being placed 
on GAO, including a dramatic increase in health care mandates; and 
address supply and demand imbalances in our ability to respond to 
congressional interest in areas such as disaster assistance, homeland 
security, the global war on terrorism, health care, and forensic 
auditing, we are seeking your support to provide the funding to rebuild 
our staffing level to the levels requested in previous years. We 
believe that 3,267 FTEs is an optimal staffing level for GAO that would 
allow us to more successfully meet the needs of the Congress.
    In preparing this request and taking into account the effects of 
the fiscal year 2006 rescission, we revised our workforce plan to 
reduce fiscal year 2005 hiring and initiated a voluntary early 
retirement opportunity for staff in January 2006. These actions better 
support GAO's strategic plan for serving the Congress, better align 
GAO's workforce to meet mission needs, correct selected skill 
imbalances, and allow us to increase the number of new hires later in 
fiscal year 2006. Our revised hiring plan represents an aggressive 
hiring level that is significantly higher than in recent fiscal years, 
and it is the maximum number of staff we could absorb during fiscal 
year 2006. These actions will also position us to more fully utilize 
our planned FTE levels of 3,217 and 3,267 in fiscal years 2006 and 
2007, respectively.
    Our fiscal year 2007 budget request includes approximately $502 
million in direct appropriations and authority to use about $7 million 
in estimated revenue from rental income and reimbursable audit work. 
Table 1 summarizes the changes we are requesting in our fiscal year 
2007 budget.

                     TABLE 1.--FISCAL YEAR 2007 BUDGET REQUEST, SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                        Budget category                              FTEs            Amount         percentage
                                                                                                      change
----------------------------------------------------------------------------------------------------------------
Fiscal year 2006 enacted budget authority.....................           3,217        $489,560   ...............
    Less: rescission..........................................  ..............          (4,896)  ...............
                                                               -------------------------------------------------
      Fiscal year 2006 revised budget authority...............  ..............        $484,664   ...............
                                                               =================================================
Fiscal year 2007 requested changes:
    Nonrecurring fiscal year 2006 costs.......................  ..............         ($5,380)              (1)
    Mandatory pay costs.......................................              50          18,469                3
    Price level changes.......................................  ..............           4,073                4
    Relatively controllable costs.............................  ..............           7,528   ...............
    Adjustment due to rounding................................  ..............               1   ...............
                                                               -------------------------------------------------
      Subtotal--requested changes.............................              50         $24,691                5
                                                               -------------------------------------------------
      Total fiscal year 2007 budget authority required to                3,267        $509,355   ...............
       support GAO operations.................................
----------------------------------------------------------------------------------------------------------------
Source: GAO.

    Our fiscal year 2007 budget request supports three broad program 
areas: Human Capital, Engagement Support, and Infrastructure 
Operations. Consistent with our strategic goal to be a model agency, we 
have undertaken a number of initiatives to implement performance-based, 
market-oriented compensation systems; adopt best practices; benchmark 
service levels and costs; streamline our operations; cross-service and 
outsource activities; and leverage technology to increase efficiency, 
productivity, and results.
    The Human Capital Program provides the resources needed to support 
a diverse, highly educated, knowledge-based workforce comprising 
individuals with a broad array of technical and program skills and 
institutional memory. This workforce represents GAO's human capital--
its greatest asset--and is critical to the agency's success in serving 
the Congress and the nation. Human Capital Program costs represent 
nearly 80 percent of our requested budget authority.
    To further ensure our ability to meet congressional needs, we plan 
to allocate approximately $17 million for Engagement Support to: 
conduct travel, a critical tool to accomplish our mission of following 
the federal dollar cross the country and throughout the world, and to 
ensure the quality of our work; contract for expert advice and 
assistance when needed to meet congressional timeframes for a 
particular audit or engagement; and ensure a limited presence in the 
Middle East to provide more timely, responsive information on U.S. 
activities in the area.
    In addition, we plan to allocate about $91 million--or about 18 
percent of our total request--for Infrastructure Operations programs 
and initiatives to provide the critical infrastructure to support our 
work. These key activities include information technology, building 
management, knowledge services, human capital operations, and support 
services.
                    performance, results, and plans
    In fiscal year 2005, the Congress focused its attention on a broad 
array of challenging issues affecting the safety, health, and well-
being of Americans here and abroad, and we were able to provide the 
objective, fact-based information that decision makers needed to 
stimulate debate, change laws, and improve federal programs for the 
betterment of the nation. For example, as the war in Iraq continued, we 
examined how DOD supplied vehicles, body armor, and other materiel to 
the troops in the field; contributed to the debate on military 
compensation; and highlighted the need to improve health, vocational 
rehabilitation, and employment services for seriously injured soldiers 
transitioning from the battlefield to civilian life. We kept pace with 
the Congress's information needs about ways to better protect America 
from terrorism by issuing products and delivering testimonies that 
addressed issues such as security gaps in the nation's passport 
operations that threaten public safety and federal efforts needed to 
improve the security of checked baggage at airports and cargo 
containers coming through U.S. ports. We also explored the financial 
crisis that weakened the airline industry and the impact of this 
situation on the traveling public and airline employees' pensions. We 
performed this work in accordance with our strategic plan for serving 
the Congress, consistent with our professional standards, and guided by 
our core values (see appendix 1). See table 2 for examples of how GAO 
assisted the nation in fiscal year 2005.

                      TABLE 2.--EXAMPLES OF HOW GAO ASSISTED THE NATION IN FISCAL YEAR 2005
----------------------------------------------------------------------------------------------------------------
 Goal          Description                            GAO provided information that helped to
----------------------------------------------------------------------------------------------------------------
    1 Provide timely, quality    Improve the transition from active duty to civilian status for veterans with
       service to the Congress    serious war-related injuries
       and the federal           Address long-term health care financing pressures on state and local
       government to address      government budgets
       current and emerging      Identify challenges associated with transferring the Medicare appeals process
       challenges to the well-    from the Social Security Administration and HHS
       being and financial       Improve patient safety at Department of Veterans' Affairs hospitals
       security of the American  Improve the security of Social Security numbers
       people                    Address the challenges of pension reform
                                 Strengthen the security screening process for passengers and checked baggage
                                  at the nation's airports
                                 Improve the oversight of Federal Housing Administration single-family and
                                  multifamily lenders
                                 Improve the oversight of electricity markets by the Federal Energy Regulatory
                                  Commission
                                 Identify challenges associated with the Department of Energy's (DOE's)
                                  nuclear facility designs
                                 Monitor the growth in the digital television market
                                 Analyze issues contributing to the declining financial condition of the
                                  airline industry
    2 Provide timely, quality    Improve the management of funds for the global war on terrorism
       service to the Congress   Increase the security of cargo containers to prevent terrorist activity
       and the federal           Alert the Congress to issues affecting the DOD's major weapon systems
       government to respond to  Analyze funding options for a new federal foreign assistance program--the
       changing security          Millennium Challenge Account
       threats and the           Promote government efforts to address threats to the security of the nation's
       challenges of global       information systems
       interdependence           Strengthen the visa process as an antiterrorism tool
                                 Improve management of the U.S. Coast Guard's Deepwater Program
                                 Shape the debate on improving military pay and benefits
                                 Strengthen the U.S. strategic export control system
                                 Identify improvements needed to secure critical IT systems used by U.S.
                                  financial markets
                                 Report to the Congress on the 2005 base realignment and closures (BRAC)
                                  defense transformation
    3 Help transform the         Increase the public's understanding of the federal government's long-term
       federal government's       fiscal challenges
       role and how it does      Implement governmentwide civil service reforms
       business to meet 21st     Oversee federal tax policy
       century challenges        Increase debts collected from criminals
                                 Decrease improper payments made by the USDA Food Stamp Program and other
                                  federal agencies
                                 Manage multibillion dollar IT modernizations and investments at the
                                  Department of Homeland Security (DHS) and Office of Personnel Management
                                 Improve agencies' strategic purchasing practices
                                 Examine changes in key areas of federal activity that could affect the
                                  federal government's fiscal future
                                 Enhance the knowledge base on comprehensive national indicators
                                 Improve postal operations through reform legislation
    4 Maximize the value of GAO  Foster among other federal agencies GAO's innovative human capital practices,
       by being a model federal   such as broad pay bands; performance-based compensation; and workforce
       agency and a world-class   planning and staffing strategies, policies, and processes
       professional services     Share GAO's model business and management processes and other transformation-
       organization               related information with counterpart organizations in the United States and
                                  abroad
----------------------------------------------------------------------------------------------------------------
      Source: GAO.

                outcomes of our work and the road ahead
    During fiscal year 2005 we monitored our performance using 14 
annual performance measures that capture the results of our work; the 
assistance we provided to the Congress; and our ability to attract, 
retain, develop, and lead a highly professional workforce (see table 
3). For example, in fiscal year 2005 our work generated $39.6 billion 
in financial benefits, primarily from actions agencies and the Congress 
took in response to our recommendations. Of this amount, about $19 
billion resulted from changes to laws or regulations, $12.8 billion 
resulted from agency actions based on our recommendations to improve 
services to the public, and $7.7 billion resulted from improvements to 
core business processes. See figure 1 for examples of our fiscal year 
2005 financial benefits.

                           TABLE 3.--AGENCYWIDE SUMMARY OF ANNUAL MEASURES AND TARGETS
                                              [Dollars in billions]
----------------------------------------------------------------------------------------------------------------
                                 2001        2002        2003        2004        2005        2006        2007
    Performance measures        Actual      Actual      Actual      Actual      Actual      Target      Target
----------------------------------------------------------------------------------------------------------------
Results:
    Financial benefits......       $26.4       $37.7       $35.4       $44.0       $39.6       $39.0       $40.0
    Other benefits..........      $799        $906      $1,043      $1,197      $1,409      $1,050      $1,100
    Past recommendations            79          79          82          83          85          80          80
     implemented (percent)..
    New products with               44          53          55          63          63          60          60
     recommendations
     (percent)..............
Client:
    Testimonies.............       151         216         189         217         179         210         185
    Timeliness (percent)....        95          96          97          97          97          98          98
People:
    New hire rate (percent).       N/A          96          98          98          94          97          97
    Acceptance rate                N/A          81          72          72          71          75          75
     (percent)..............
    Retention rate with             91          91          92          90          90          90          91
     retirements (percent)..
    Retention rate without          95          97          96          95          94          94          95
     retirements (percent)..
    Staff development              N/A          71          67          70          72          74          75
     (percent)..............
    Staff utilization              N/A          67          71          72          75          75          78
     (percent)..............
    Leadership (percent)....       N/A          75          78          79          80          80          80
    Organizational climate         N/A          67          71          74          76          75          76
     (percent)..............
----------------------------------------------------------------------------------------------------------------
Source: GAO.
Note: N/A indicates the information is not available or the target is not applicable.
In fiscal year 2006, we will add two internal operations measures to our list of performance measures on which
  we report. These measures will help us determine how well our internal operations (1) help employees get their
  jobs done and (2) improve employees' quality of life in the workplace.


  FIGURE 1.--GAO'S SELECTED MAJOR FINANCIAL BENEFITS REPORTED IN FISCAL
                                YEAR 2005
                        [In millions of dollars]
------------------------------------------------------------------------
                          Description                            Amount
------------------------------------------------------------------------
Reduced funding for a missile defense system..................       4.7
    In an April 2003 report, we stated that to successfully
  develop an effective and suitable missile defense system,
  the Missile Defense Agency must be willing to adopt
  knowledge-based acquisition practices that have made other
  developers successful. Our report acknowledged that the
  agency's development strategy for the Kinetic Energy
  Interceptor Program included knowledge-based practices, but
  concluded that the agency had not implemented two important
  practices: (1) using well-developed technologies during
  system integration and (2) fully testing a system before
  fielding it. In response, the Missile Defense Agency is
  scaling back development of the Kinetic Energy Interceptor
  Program until technologies are mature. Over a 5-year period--
  from fiscal years 2005 through 2009--program funding will be
  reduced by about $5.2 billion, which has a net present value
  of about $4.7 billion.
Avoided higher costs associated with a nuclear waste disposal        4.5
 process......................................................
    In a June 2003 report, we recommended that DOE pursue
  legislative clarification from the Congress because of a
  legal challenge that threatened DOE's ability to proceed
  with its less costly strategy for treating and disposing of
  radioactive tank wastes with lower concentrations of
  radioactivity. DOE estimated that pursuing a more expensive
  treatment and disposal strategy suitable for wastes with
  higher concentrations of radioactivity would increase waste
  treatment disposal costs by $55 billion to $60 billion at
  its Savannah River Site. The fiscal year 2005 National
  Defense Authorization Act contained a provision that
  clarified DOE's authority to follow its planned treatment
  and disposal strategy, thus avoiding a more costly process.
  We calculated that the net present value of the cost
  avoidance for fiscal years 2005 through 2009 was about $4.5
  billion.
Improved the Army's force structure...........................       3.4
    In a report examining the Army's force structure, we
  recommended that the Army establish mission criteria to
  provide a firmer basis for its Strategic Reserve, Domestic
  Support, and Homeland Defense force requirements. Such
  criteria would help to ensure that the Army had the right
  number and types of soldiers available for these purposes.
  Rather than request additional end strength, the Army
  reconfigured its existing force's structure. In April 2003,
  DOD reported that the Army had included force structure
  changes in its fiscal year 2004 budget, which supported
  increased units for military police; military intelligence;
  special forces; and chemical, civil affairs, and
  psychological operations. Based on this action, the Army has
  been able to rebalance its force structure to create needed
  units with minimal increases in authorized end strength. The
  amount shown represents the net present value of the force
  structure changes over a 5-year period (fiscal years 2004
  through 2008).
Reduced the cost of federally subsidized housing projects.....       2.7
    We determined that the Department of Housing and Urban
  Development (HUD) had not developed the systems it needed to
  track the status of unexpended balances in its project-based
  Section 8 housing program and therefore could not use this
  information to help manage the program and formulate budget
  requests for it. As a result of our work, the Congress
  required HUD to better enforce the legislative provisions
  requiring the recapture of capital funds not being utilized
  by public housing authorities. In fiscal year 2005, we
  documented--using HUD data--that a financial benefit of
  about $2.7 billion in current dollars resulted from HUD's
  recapture of about $2.5 billion of fiscal year 2003 dollars.
Avoided costs associated with higher payment rates at skilled        2.0
 nursing homes................................................
    In 2002, we assessed the impact of a 16.6 percent increase
  in Medicare's daily rate for skilled nursing facilities on
  nurse staffing ratios. Our analysis showed that nurse
  staffing ratios changed little from April 1, 2001, through
  September 30, 2002--the period during which the rate
  increase was in effect. In fiscal year 2003, the cost to the
  federal government of reinstating the payment rate increase
  was approximately $1 billion per year. Since we issued our
  report, the Congress has considered reinstating the rate
  increase, but it has chosen not to, largely on the basis of
  our analysis. The net present value of the annual cost
  avoidance for fiscal years 2004 and 2005 is $2 billion.
Increased tax revenues........................................       1.8
    We reported that the Internal Revenue Service (IRS) did
  not have systems or procedures in place to allow it to
  identify and actively pursue unpaid tax cases that may have
  some collection potential. Based on our work, IRS has taken
  action to better assess the potential for collecting unpaid
  tax assessment cases and has used that information to better
  target its collection efforts. Specifically, in 2004 IRS
  began implementing a sophisticated modeling technology to
  identify productive and less productive cases to ensure that
  its resources are devoted to cases with a higher likelihood
  of collection and to help prevent premature suspension of
  collection efforts. IRS's analysis of the yield on
  collection cases after employing this modeling in fiscal
  year 2004 shows that this yield increased by about $1.8
  billion (in current year dollars), or 8.4 percent from the
  previous year (fiscal year 2003), without significant
  staffing level increases.
Ensured continued investment in the General Services                 1.3
 Administration's (GSA) online purchasing system..............
    As of 2003, GSA had spent $84 million to develop,
  implement, and maintain Advantage, a system for ordering
  products and services online. However, 5 years after the
  system was launched, only 35 percent of all government-
  contracted vendors participated in the program, and agencies
  were largely using the system to compare pricing. To ensure
  GSA's level of investment matched customer needs, we
  recommended that the agency develop a business case for a
  system such as Advantage, and in January 2005, GSA selected
  a new business strategy that would significantly enhance the
  system's capabilities to serve as a broker between buyers
  and suppliers and provide agencies with an automated tool
  for formulating acquisition requirements and developing
  requests for quotes. GSA projects over $1.5 billion in
  financial benefits to result from electronic transactions,
  spend analysis (analysis of expenditures that shows how
  money is spent on goods and services), a searchable
  procurement data repository, and competitive pricing. This
  financial benefit has a net present value of just over $1.3
  billion.
Reduced Navy and Air Force appropriations.....................       1.3
    DOD policy requires the Defense Working Capital Fund to
  maintain cash levels to cover 7 to 10 days of operational
  cash and 6 months of capital asset disbursements. Our
  analysis showed that the January 2004 reported actual cash
  balance for the Air Force Working Capital Fund exceeded the
  10-day cash requirement by about $1.5 billion, and the
  Navy's Working Capital Fund reported actual cash balance
  exceeded the budgeted cash balance by $659 million and $408
  million at the end of fiscal years 2002 and 2003,
  respectively. The Congress reduced the Navy and Air Force
  fiscal year 2005 Operation and Maintenance appropriations by
  just under $1.3 billion due to excessive cash amounts.
Eliminated the National Aeronautics and Space Administration's       1.1
 (NASA) Prometheus 1 project..................................
    We issued a report questioning whether NASA had
  established the initial justification for its investment in
  the Prometheus 1 project and how the agency planned to
  ensure that critical nuclear power and propulsion system
  technologies were sufficiently developed to support deep
  space probes like the Jupiter Icy Moons Orbiter. We also
  reported that the approved Prometheus 1 funding profile was
  inadequate to support the planned mission--a launch to
  Jupiter's Icy Moons in 2015. NASA has subsequently deferred
  the Jupiter Icy Moons Orbiter mission indefinitely, reducing
  the agency's funding needs by about $1.22 billion through
  fiscal year 2009; the net present value of this reduction is
  over $1.1 billion.
Reduced the budget request for a new foreign assistance              1.0
 program......................................................
    In March and June 2004, we provided the Congress with
  information to help it assess the President's $2.5 billion
  fiscal year 2005 budget request for the Millennium Challenge
  Account--a new foreign assistance program intended to
  provide economic assistance to countries that demonstrate a
  commitment to ruling justly, investing in people, and
  encouraging economic freedom. Our work provided the Congress
  with a framework for identifying relationships and trade-
  offs between funding levels, compact length, and number of
  compacts (i.e., agreements). Our analysis indicated that by
  reducing assistance target levels, the length of compacts or
  both with participating countries, the program could operate
  at a lower funding level. We also estimated the effect of
  funding compacts partly from future appropriations. Our work
  facilitated the Congress's decision to reduce the
  appropriation for the Millennium Challenge Account in fiscal
  year 2005 to $1.5 billion.
------------------------------------------------------------------------

    Many of the benefits that result from our work cannot be measured 
in dollar terms. During fiscal year 2005, we recorded a total of 1,409 
other benefits. For instance, we documented 75 instances where 
information we provided to the Congress resulted in statutory or 
regulatory changes, 595 instances where federal agencies improved 
services to the public, and 739 instances where agencies improved core 
business processes or governmentwide reforms were advanced. These 
actions spanned the full spectrum of national issues, from ensuring the 
safety of commercial airline passengers to identifying abusive tax 
shelters. See figure 2 for additional examples of GAO's other benefits 
in fiscal year 2005.

              FIGURE 2.--GAO'S SELECTED OTHER (NONFINANCIAL) BENEFITS REPORTED IN FISCAL YEAR 2005
----------------------------------------------------------------------------------------------------------------
                                                                      Description
----------------------------------------------------------------------------------------------------------------
OTHER BENEFITS THAT HELPED TO CHANGE
                LAWS

Intelligence Reform and Terrorism     Our work is reflected in this law in different ways. In our May 2004
 Prevention Act of 2004 (Pub. L. No.   testimony on the use of biometrics for aviation security, we reported on
 108-458).                             the need to identify how biometrics will be used to improve aviation
                                       security prior to making a decision to design, develop, and implement
                                       biometrics. Using information from our statement, the House introduced a
                                       bill on July 22, 2004, directing the Transportation Security
                                       Administration (TSA) to establish system requirements and performance
                                       standards for using biometrics, and establish processes to (1) prevent
                                       individuals from using assumed identities to enroll in a biometric system
                                       and (2) resolve errors. These provisions were later included in an
                                       overall aviation security bill and were eventually included in the
                                       Intelligence Reform and Terrorism Prevention Act of 2004, enacted in
                                       December 2004.
                                      We conducted a body of work assessing the physical screening of airport
                                       passengers and their checked baggage. We found that the installation of
                                       systems that are in line with airport baggage conveyor systems may result
                                       in financial benefits, according to TSA estimates for nine airports. We
                                       also found that the effectiveness of the advance passenger screening
                                       under the process known as Secure Flight was not certain. TSA agreed to
                                       take corrective actions in these areas, and the Congress required TSA in
                                       the Intelligence Reform and Terrorism Protection Act to prepare a plan
                                       and guidelines for installing in-line baggage screening systems, and
                                       enacted measures to promote Secure Flight's development and
                                       implementation.
Real ID Act of 2005 (Pub. L. No. 109- We reported on the verification of identity documents for drivers'
   13).                                licenses, noting that visual inspection of key documents lent itself to
                                       possible identity fraud. To demonstrate this, our investigators were able
                                       to obtain licenses in two states using counterfeit documents and the
                                       Social Security numbers of deceased persons. The Congress established
                                       federal identification standards for state drivers' licenses and other
                                       such documents and mandated third-party verification of identity
                                       documents presented to apply for a driver's license.
Ronald W. Reagan National Defense     We assisted the Congress in crafting major improvements to a program
 Authorization Act for Fiscal Year     intended to compensate individuals who worked in DOE facilities and
 2005 (Pub. L. No. 108-375).           developed illnesses related to radiation and hazardous materials
                                       exposure. In a 2004 report, we identified features of the originally
                                       enacted program that would likely lead to inconsistent benefit outcomes
                                       for claimants, in part because the program depended on the varying state
                                       workers compensation systems to provide some benefits. We also presented
                                       several options for improving the consistency of benefit outcomes and a
                                       framework for assessing these options. When the Congress enacted the
                                       Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
                                       it revamped this energy employees' benefit program. Among other changes,
                                       this law federalized the payment of worker compensation benefits for
                                       eligible energy contractor employees and provided a schedule of uniform
                                       benefit payments.
Federal Lands Recreation Enhancement  Our work over the past several years has helped the Congress to establish
 Act (Pub. L. No. 108-447).            and assess the impacts of the recreational fee demonstration program.
                                       Under this trial program, the Congress authorized the National Park
                                       Service, the Fish and Wildlife Service, the Bureau of Land Management,
                                       and the Forest Service to charge fees to visitors to, among other things,
                                       reduce the maintenance backlog at federal parks and historic places and
                                       protect these lands from visitor impacts. Since the program's inception
                                       in 1996, we have identified issues that needed to be addressed to improve
                                       the program's effectiveness that included providing (1) a more permanent
                                       source of funds to enhance stability, since the current program had to be
                                       reauthorized every 2 years; (2) the participating agencies with greater
                                       flexibility in how and where they apply fee revenues; and (3)
                                       improvements in interagency coordination in the collection and use of
                                       revenue fees to better serve visitors by making the payment of fees more
                                       convenient and equitable and reducing visitor confusion about similar or
                                       multiple fees being charged at nearby or adjacent federal recreational
                                       sites. As a result of this body of work, the Congress addressed these
                                       issues by passing the Federal Lands Recreation Enhancement Act in
                                       December 2004. This act permits federal land management agencies to
                                       continue charging fees at campgrounds, rental cabins, high-impact
                                       recreation areas, and day-use sites that have certain facilities. The act
                                       also provides for a nationally consistent interagency program, more on-
                                       the-ground improvements at recreation sites across the nation, enhanced
                                       visitor services, a new national pass for use across interagency federal
                                       recreation sites and services, and public involvement in the program.
Consolidated Appropriations Act,      Our work is reflected in this law in different ways. At the time of our
 2005 (Pub. L. No. 108-447).           August 2003 report, the original 1999 expiration date for the franchise
                                       fund pilots operating at the Departments of Commerce, Veterans Affairs,
                                       Health and Human Services, the Interior, and the Treasury and at the
                                       Environmental Protection Agency had been extended three times. These
                                       franchise funds, authorized by the Government Management Reform Act of
                                       1994, are part of a group of 34 intragovernmental revolving funds that
                                       were created to provide common administrative support services required
                                       by many federal agencies. For example, the Commerce Franchise Fund's
                                       business line provides IT infrastructure support services to the agency.
                                       We concluded that increasing the period of authorization would help ease
                                       concerns of current and potential clients about franchise fund stability
                                       and might allow franchise funds to add new business lines, and we
                                       suggested that the authorizations be extended for longer periods. The
                                       Congress provided permanent authority to the Treasury franchise fund in
                                       the Consolidated Appropriations Act, 2005, passed on December 8, 2004.
                                      In 2003, we reported that most agencies could not retain the proceeds from
                                       the sale of unneeded property and this acted as a disincentive to
                                       disposing of unneeded property. We stated in our high-risk report on
                                       federal real property that it may make sense to permit agencies to retain
                                       proceeds for reinvestment in real property where a need exists.
                                       Subsequently, in the Consolidated Appropriations Act, 2005, the Congress
                                       authorized the Administrator of GSA to retain the net proceeds from the
                                       conveyance of real and related personal property. These proceeds are to
                                       be deposited into the Federal Buildings Fund and are to be used as
                                       authorized for GSA's real property capital needs.
                                      In December 2003, we reported that 184 out of 213 Alaska Native villages
                                       are affected, to some extent, by flooding and erosion. However, these
                                       villages often have difficulty qualifying for federal assistance to
                                       combat their flooding and erosion problems. In our report, we recommended
                                       that the Denali Commission adopt a policy to guide investment decisions
                                       and project designs in villages affected by flooding and erosion. In this
                                       legislation, the Congress provided the Secretary of the Army with the
                                       authority to carry out ``structural and non-structural projects for storm
                                       damage prevention and reduction, coastal erosion, and ice and glacial
                                       damage in Alaska, including relocation of affected communities and
                                       construction of replacement facilities.''
Consolidated Appropriations Act,      To improve the federal government's ability to collect billions of dollars
 2005 (Pub. L. No. 108-447).           of outstanding criminal debt, we recommended in a 2001 report, that the
                                       Department of Justice work with other agencies involved in criminal debt
                                       collection, including the Administrative Office of the U.S. Courts, the
                                       Department of the Treasury (Treasury), and OMB, to develop a strategic
                                       plan that would improve interagency processes and coordination with
                                       regard to criminal debt collection activities. The conference report that
                                       accompanied the Consolidated Appropriations Act, 2005, directed the
                                       Attorney General to assemble an interagency task force for the purposes
                                       of better managing, accounting for, reporting, and collecting criminal
                                       debt.

    OTHER BENEFITS THAT HELPED TO
   IMPROVE SERVICES TO THE PUBLIC

Encouraged improvements in the        Our report found that the Department of Education's (Education) system for
 process for ensuring states'          resolving noncompliance with the Individuals with Disabilities in
 compliance with education laws for    Education Act is protracted. We found that resolution of noncompliance
 the disabled.                         cases often takes several years, in part because Education took a year on
                                       average from the time it identified noncompliance to issue a report
                                       citing the noncompliance. We therefore recommended that Education improve
                                       its system of resolving noncompliance by shortening the amount of time it
                                       takes to issue a report of noncompliance and by tracking changes in
                                       response times under the new monitoring process. In response to our
                                       recommendation, Education has instituted an improved process for managing
                                       and tracking the various phases of the monitoring process, which includes
                                       the creation of a database to facilitate this tracking. This new tracking
                                       system will enable Education to better monitor the status of existing
                                       noncompliance, and thus enable the department to take appropriate action
                                       when states fail to come into compliance in a timely manner.
Identified a weakness in Medicare's   In 2004, we found that the 24-hour 1-800-MEDICARE help line, operated by
 telephone assistance service.         the Centers for Medicare and Medicaid Services (CMS), did not answer 10
                                       percent of the calls we placed to test its accuracy, often because it
                                       automatically transferred some calls to claims administration contractors
                                       that were not open for business at the time of the call. This call
                                       transfer process prohibited callers from accessing information during
                                       nonbusiness hours, even though 1-800-MEDICARE operates 24 hours a day. As
                                       a result, we recommended that CMS revise the routing procedures of 1-800-
                                       MEDICARE to ensure that calls are not transferred or referred to claims
                                       administration contractors' help lines during nonbusiness hours. In
                                       response, CMS finished converting its call routing procedures. As a
                                       result, calls placed after normal business hours will be routed to the
                                       main 1-800-MEDICARE help line for assistance.
Highlighted the need for increased    United States Department of Agriculture scientists at the Plum Island
 security at a federal disease         Animal Disease Center research contagious animal diseases that have been
 research facility.                    found in other countries. The mission of the facility, now administered
                                       by DHS, is to develop strategies for protecting the nation's animal
                                       industries and exports from these foreign animal diseases. In our
                                       September 2003 report, Combating Bioterrorism: Actions Needed to Improve
                                       Security at Plum Island Animal Disease Center, we made several
                                       recommendations to improve security at the facility and reduce
                                       vulnerability to terrorist attacks. Among other things, we recommended
                                       that the Secretary of Homeland Security, in consultation with the
                                       Secretary of Agriculture, enhance incident response capability by
                                       increasing the size of the guard force. DHS has informed us that this has
                                       been completed. According to the Director of Plum Island, DHS has more
                                       than doubled the number of guards assigned on each shift on Plum Island.

    OTHER BENEFITS THAT HELPED TO
      PROMOTE SOUND AGENCY AND
      GOVERNMENTWIDE MANAGEMENT

Recommended a process to increase     DOD spending on service contracts approaches $100 billion annually, but
 the efficiency of DOD procurements.   DOD's management of services procurement is inefficient and ineffective
                                       and the dollars are not always well spent. Many private companies have
                                       changed management practices based on analyzing spending patterns and
                                       coordinating procurement efforts in order to achieve major savings. We
                                       recommended that DOD adopt the effective spend analysis processes used by
                                       these leading companies and use technology to automate spend analysis to
                                       make it repeatable. In response, DOD is developing new technology to do
                                       that. According to DOD and contractor project managers, one phase of the
                                       project was completed in December 2004. In March 2005, DOD approved a
                                       business case analysis to seek follow-on funding for developing a DOD-
                                       wide spend analysis system.
Improved the Air Force's oversight    As part of our audit of Air Force purchase card controls, we identified
 of purchase card transactions.        transactions that Air Force officials acknowledged to be fraudulent as
                                       well as potentially fraudulent transactions that the Air Force had not
                                       identified. To improve Air Force oversight of purchase card activity and
                                       facilitate the identification of systemic weaknesses and deficiencies in
                                       existing internal control and the development of additional control
                                       activities, we recommended that the Air Force establish an agencywide
                                       database of known purchase card fraud cases. In lieu of establishing a
                                       separate agencywide database, during fiscal year 2003, the Air Force
                                       Office of Special Investigations initiated quarterly reporting on its
                                       purchase card investigations to the DOD IG for macro-level analysis of
                                       systemic weaknesses in the program. Our ongoing collaboration with the
                                       DOD IG on DOD's purchase card program confirmed that the Air Force's
                                       Office of Special Investigations is working effectively with DOD's IG on
                                       data-mining techniques for detection of potentially improper and
                                       fraudulent purchase card transactions. As a result of our work, the Air
                                       Force has taken action to reduce the financial risk associated with
                                       undetected fraud and abuse in its purchase card program.
Encouraged the Census Bureau to       For the 2000 Census, the United States Census Bureau (Bureau) printed
 produce training materials in other   material used to train census workers only in English, except in Puerto
 languages.                            Rico where training materials were available in Spanish. However, to
                                       better prepare census workers--some of whom speak Spanish as their first
                                       language--to locate migrant farm workers and other hard-to-count groups,
                                       we recommended that the Bureau consider providing training materials in
                                       languages other than English to targeted areas. In response to our
                                       recommendation, the Bureau is researching foreign-language data
                                       collection methods as part of its preparations for the 2006 Census test
                                       and, more generally, plans to identify areas and operations that will
                                       require in-language training materials for areas with very large, new
                                       migrant populations where it will not be possible to hire bilinguals.
                                       Moreover, the Bureau's June 2005 request for proposals for a Field Data
                                       Collection Automation System includes a requirement for the contractor to
                                       provide training applications and materials in English and Spanish for
                                       the handheld computers enumerators are to use to count nonrespondents.
----------------------------------------------------------------------------------------------------------------
Source: GAO.

    One way we measure our effect on improving the government's 
accountability, operations, and services is by tracking the percentage 
of recommendations that we made 4 years ago that have since been 
implemented. At the end of fiscal year 2005, 85 percent of the 
recommendations we made in fiscal year 2001 had been implemented, 
primarily by executive branch agencies. Putting these recommendations 
into practice will generate tangible benefits for the nation over many 
years.
    During fiscal year 2005, experts from our staff testified at 179 
congressional hearings covering a wide range of complex issues (see 
table 4). For example, our senior executives testified on improving the 
security of nuclear material, federal oversight of mutual funds, and 
the management and control of DOD's excess property. Over 70 of our 
testimonies were related to high-risk areas and programs (see table 5).
         Table 4.--Selected Testimony Issues, Fiscal Year 2005
Goal 1: Address Challenges to the Well-Being and Financial Security of 
        the American People
Head Start grants management
Retirement options for seniors
Postal service reform legislation
Wildland fire management
National air traffic system
Providing services to seriously injured veterans
Endangered Species Act
Preparing for influenza pandemic
Long-term health care costs and government budgets
Veterans' disability claims
Medicaid financing issues
Amtrak's Acela train
Rural housing service
Federal oversight of the E-rate program
Overseeing the U.S. food supply
Energy demand in the 21st century
Social Security reform
Meeting the future demand for energy in the United States
Protecting nuclear material handled at science and environmental sites
Federal real property
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Globalization
Army's modular forces
Acquisition challenges facing the Navy's DD(X) destroyer program
Oil for Food program
Managing violations of restricted air space
Protecting U.S. officials overseas from terrorist attacks
Implementing laws that protect the security of information
U.S. passport fraud
Tactical aircraft modernization
Unmanned aerial vehicles
Federal oversight of mutual funds to ensure investor security
DOD's business transformation
DOD's national security personnel system
Cargo security strategies
DOD security clearances
Condition of Coast Guard aircraft and ships used in deep waters
Port security
Transportation security issues
Acquisition challenges facing the Army's future combat systems
Goal 3: Help Transform the Federal Government's Role and How it Does 
        Business
Long-term fiscal issues affecting the federal government
Air Force procurement protests
Space shuttle workforce issues
Management and control of DOD's excess property
High-risk federal programs
Improper Payments Information Act
Gaps in military pay and benefits
Human capital transformation at DHS
Reducing the tax gap
Pricing federal multiple award contracts
Army National Guard travel reimbursement issues
Agencies' continuity of operations plans
21st century challenges for the federal government
Preparing for emergencies at federal agencies
U.S. government financial statements
Performance budgeting
Space acquisitions and investment planning
DHS's Student and Exchange Visitor Information System
                        gao's high-risk program
    Issued to coincide with the start of each new Congress, our high-
risk update, first used in 1993, has helped Members of the Congress who 
are responsible for oversight and executive branch officials who are 
accountable for performance. Our high-risk program focuses on major 
government programs and operations that need urgent attention or 
transformation to ensure that our government functions in the most 
economical, efficient, and effective manner possible. Overall, our 
high-risk program has served to identify and help resolve a range of 
serious weaknesses that involve substantial resources and provide 
critical services to the public. Table 5 details our 2005 high-risk 
list.

                   TABLE 5.--GAO'S 2005 HIGH-RISK LIST
------------------------------------------------------------------------
                                                               Year
                   2005 high-risk area                      designated
                                                             high risk
------------------------------------------------------------------------
Addressing challenges in broad-based transformations:
    Strategic Human Capital Management \1\..............            2001
    U.S. Postal Service Transformation Efforts and Long-            2001
     Term Outlook \1\...................................
    Managing Federal Real Property \1\..................            2003
    Protecting the Federal Government's Information                 1997
     Systems and the Nation's Critical Infrastructures..
    Implementing and Transforming the Department of                 2003
     Homeland Security..................................
    Establishing Appropriate and Effective Information-             2005
     Sharing Mechanisms to Improve Homeland Security....
    DOD Approach to Business Transformation \1\.........            2005
    DOD Business Systems Modernization..................            1995
    DOD Personnel Security Clearance Program............            2005
    DOD Support Infrastructure Management...............            1997
    DOD Financial Management............................            1995
    DOD Supply Chain Management (formerly Inventory                 1990
     Management)........................................
    DOD Weapon Systems Acquisition......................            1990
Managing federal contracting more effectively:
    DOD Contract Management.............................            1992
    DOE Contract Management.............................            1990
    NASA Contract Management............................            1990
    Management of Interagency Contracting...............            2005
Assessing the efficiency and effectiveness of tax law
 administration:
    Enforcement of Tax Laws \1\ \2\.....................            1990
    IRS Business Systems Modernization \3\..............            1995
Modernizing and safeguarding insurance and benefit
 programs:
    Modernizing Federal Disability Programs \1\.........            2003
    Pension Benefit Guaranty Corporation Single-Employer            2003
     Insurance Program \1\..............................
    Medicare Program \1\................................            1990
    Medicaid Program \1\................................            2003
    HUD Single-Family Mortgage Insurance and Rental                 1994
     Housing Assistance Programs........................
Other: Federal Aviation Administration (FAA) Air Traffic            1995
 Control Modernization..................................
------------------------------------------------------------------------
\1\ Legislation is likely to be necessary, as a supplement to actions by
  the executive branch, in order to effectively address this high-risk
  area.
\2\ Two high-risk areas--collection of unpaid taxes and earned income
  credit noncompliance--have been consolidated to make this area.
\3\ The IRS financial management high-risk area has been incorporated in
  this high-risk area.

Source: GAO.

                           concluding remarks
    We are grateful for the Congress's continued support of our joint 
effort to improve government and for providing the resources that allow 
us to be a world-class professional services organization. We are proud 
of the positive impact we have been able to affect in government over 
the past year and believe an investment in GAO will continue to yield 
substantial returns for the Congress and the American people. Our 
nation will continue to face significant challenges in the years ahead. 
GAO's expertise and involvement in virtually every facet of government 
positions us to provide the Congress with the timely, objective, and 
reliable information it needs to discharge its constitutional 
responsibilities.
    This concludes my statement. I would be pleased to answer any 
questions the Members of the Committee may have.
   appendix i.--serving the congress--gao's strategic plan framework


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              COST FOR 50 ADDITIONAL FULL-TIME EQUIVALENTS

    Senator Allard. Well thank you for your testimony. Total, 
you're going to have about a $25 million request, which is 5 
percent over fiscal year 2006 and we'll look very closely at 
your request. We've got 50 new employees that are coming on. 
You have about 3,217 employees now, according to the facts that 
I have here. Now, we've tried to break that out on the employee 
costs at $7.5 million. So I was just doing some quick math 
here. That's $150,000 per employee. I'm kind of curious. That's 
not salary. I'm sure there's benefits figured in there, and 
insurance, and other things, retirement plan, everything else. 
So I just want to have you verify how it is, that you come up 
with $150,000.
    Mr. Walker. Sure.
    Let me provide an overview, and I'm going to turn to 
Sallyanne Harper to provide some additional information, Mr. 
Chairman, with your indulgence.
    Senator Allard. Okay.
    Mr. Walker. The compensation adjustments are for several 
things. Number one, to bring us up to our full compliment of 
3,217. We've been authorized that for a full FTE level, but we 
haven't been there in several years. We're now on track to do 
that and, therefore, to the extent that we do that, we're going 
to need some money to be able to maintain that next year.
    Second, for pay increases. Our policy is, if you're 
performing at meets expectation or better on all applicable 
competencies and you're paid within applicable competitive 
compensation ranges, you're going to get some across-the-board 
pay adjustment. In addition to that, you're going to get an 
additional adjustment based on how you do relative to your 
peers.
    Senator Allard. So the $7.5 million not only includes the 
new 50 employees, but also there is some pay increase 
adjustments figured in.
    Mr. Walker. That's correct, Mr. Chairman.
    Senator Allard. Okay. So the $150,000 is entirely too 
generous.
    Mr. Walker. That's correct, Mr. Chairman. And then, we have 
the 50 employees, not all of which are going to be hired on day 
one. They'll be hired throughout the year.
    Senator Allard. Yes.
    Mr. Walker. And depending upon what you finally give us for 
a budget, it will determine how many we can hire, if we can 
hire them, and when we can hire them.

         CALCULATING THE TOTAL EMPLOYEE COST TO THE GOVERNMENT

    But you raise an excellent point, which I would like to 
reinforce. And that is, we're trying to get our employees to 
understand more about the concept of total compensation, which 
you and I have talked about before. It's not just how much you 
pay in cash, in the form of salary, bonuses, incentive awards, 
and things of that nature, but it's also how much you receive 
in the form of healthcare, pension, and other benefits. In our 
budget, the average load factor that we have to bare directly 
is about 24 percent, I believe.
    However, when you consider the fact that some costs are 
borne by the Office of Personnel Management (OPM), with regard 
to things like the Civil Service Retirement System (CSRS) cost, 
et cetera, the actual load factor is about 31 percent. So for 
every $1 we pay somebody, they receive compensation of $1.31 
because of other benefits that ultimately, the taxpayers have 
to pay.
    But I would ask Sallyanne if she's got anything she wants 
to add on this.
    Ms. Harper. Mr. Chairman, the only thing that----
    Senator Allard. So, I just want to clarify, if I might, 
before we move to the last statement. So, if you pay them a $1, 
there's one-third of that----
    Mr. Walker. Added----
    Senator Allard [continuing]. Added on. It would add on as 
additional benefits. So the $1 that you talk about in actual 
cash, becomes $1.32 because of the benefits of the employee.
    Mr. Walker. Two points, Mr. Chairman. For our budget, which 
is before you, the $1 becomes $1.24. For our financial 
statements, which is important, which is ultimately what the 
taxpayers have to bear, $1 becomes $1.31.
    Senator Allard. I see. Okay.
    Ms. Harper. The only addition I would make, Mr. Chairman, 
is that we do disproportionately hire into the analyst core and 
that is a higher salary rate in general, than other portions of 
our budget. So the evaluators, the analysts, and particularly 
the specialists are going to have a higher initial compensation 
rate than people in the administrative and professional 
services community.
    Mr. Walker. It's important, Mr. Chairman, to note for the 
record, that last year, over 90 percent of the people that we 
hired as auditors, investigators, analysts, evaluators, and 
attorneys had advanced degrees from top schools in the country. 
We are hiring some of the Nation's best and brightest, and it's 
very, very important that we be able to compensate them 
appropriately, because we are only as good as our people.
    Senator Allard. Particularly in what you're trying to 
accomplish, that's your personnel incentive.
    Mr. Walker. Eighty percent of our budget is personnel cost.
    Senator Allard. Yes.
    Mr. Walker. And so, if we don't get adequately funded, it 
starts cutting into the bone pretty quickly.

                           EARLY RETIREMENTS

    Senator Allard. Let me move on to early retirements. Would 
you please explain your criteria for approving voluntary early 
retirement applications and ensuring that areas where there is 
a supply and demand imbalance or a recruiting challenge, are 
not negatively impacted?
    Mr. Walker. Well thank you for the question and let me also 
thank you and your colleagues for giving us the legislative 
authority that we needed to make more intelligent decisions in 
this area.
    Basically, several years ago, we sought and the Congress 
gave us authority to be able to target early retirement offers 
to a greater extent, than previously was the case; you also 
gave us the authority to say no. Basically, we're trying to use 
early retirement offers to help realign GAO's workforce, to be 
able to reallocate resources from areas where we have more 
supply than demand, to areas where we have more demand than 
supply. We're also trying to use it to try to help with 
succession planning. Because as you probably recall, Mr. 
Chairman, before I came to GAO, we had a hiring freeze for 
about 5 years. We were downsized 40 percent. And so, we had a 
real gap in our development pipeline and a very high and 
increasing percentage of people that were going to be eligible 
for retirement.
    The bottom line is anybody can come forward and seek early 
retirement. But whether or not they're going to be approved, is 
based upon what we need from a workforce standpoint to meet our 
client demands, and we also consider the performance of the 
individual. We're not looking to lose people in areas where we 
have supply and demand imbalances and ones that are top 
performers. We're looking to try to use this as a strategic 
workforce realignment tool.
    Most people that come forward are approved, but not all.

       GOVERNMENT ACCOUNTABILITY OFFICE'S MARKET-BASED PAY SYSTEM

    Senator Allard. Okay. Now let's go to your GAO pay system. 
You've gone into it in some detail already. What are the major 
objectives of your market-based pay system and how would you 
assess your success in meeting those objectives?
    Mr. Walker. There are a number of objectives, Mr. Chairman. 
Number one, the overall objective is that we want to be able to 
attract, retain, motivate, and reward a top flight workforce. 
Compensation is one element to do that, but it's only one. As 
you know, Mr. Chairman, those of us--yourself, myself, all of 
us here included, don't come into Government to maximize our 
net worth. We come into Government to maximize our abilities 
and to make a difference. And it's not just about the money, 
it's also about the difference that you can make in the lives 
of others.
    But we need to be competitive with those organizations that 
we actually compete for talent. Whether that be the Office of 
Management and Budget (OMB), whether that be the Congressional 
Budget Office (CBO), whether that be the think tanks, or 
whether that be the major accounting firms, whom we actually 
compete with for talent, based upon hiring and to whom we lose 
people. So we wanted to make sure that we achieve that 
objective. We also wanted to make sure that we were targeting 
our limited resources. Because, we have limited resources. 
Therefore, we are targeting money to where the market requires 
it and where performance supports it. We want to target our 
dollars based on skills, knowledge, and performance.
    And so my view is, by conducting our first ever competitive 
compensation study in the history of GAO, which was created in 
1921, we are now in a much better position to provide 
reasonable assurance that we are paying competitively and 
allocating our dollars more intelligently. I think that's not 
only in our interest, it's in the Congress' and the country's 
interest.
    Senator Allard. Yes. I applaud you for those efforts in 
that area. They're not unique in the private sector, but 
certainly unique on the Government's sector.

  CHANGES TO THE GOVERNMENT ACCOUNTABILITY OFFICE'S PAY SYSTEM IN THE 
                               PAST YEAR

    Now, what changes in the pay system have occurred in the 
last year? Anything specific that you want to highlight for us?
    Mr. Walker. The biggest changes that have occurred in the 
last year, and when I say the last year, I'm including this 
current fiscal year.
    Senator Allard. Yes.
    Mr. Walker. We now have implemented the new market-based 
compensation ranges. That's number one. Number two, we have 
also implemented a new system for determining annual pay 
adjustments for all of our personnel. And number three, the 
effects of the restructuring that I mentioned before, the so-
called Band II level personnel, that has taken place. Let me 
briefly touch on that, as you know, under the old system of 
compensation in Government, everybody had the right to be paid 
at the pay cap, irrespective of their performance. It was an 
entitlement. It wasn't a matter of if somebody was going to 
make the pay cap, it was only a matter of when they were going 
to make the pay cap. Because until we received an exemption 
from the Congress, we had to give the across-the-board pay 
adjustment that the executive branch had to give every year to 
all employees, irrespective of their performance. And believe 
it or not, on the executive branch side, even unacceptable 
performers are by law, entitled to that adjustment, which I 
would respectfully suggest Congress may want to reconsider. 
Now, there's not very many GAO employees in that category, 
okay? But intellectually it makes no sense.
    So we have implemented new competitive compensation ranges. 
There were pluses and minuses to that. There were some of our 
occupations and some levels, where we've raised our pay ranges, 
both the cap as well as the minimum, are subject to statutory 
limits. As you know, we can't pay what we call a Band III, 
which is an assistant director, more than a GS-15, step 10 
level. And so, that's a constraint.
    But below that, it's market based and everybody has the 
opportunity to make the pay cap, but not necessarily the right. 
For the higher levels you have to perform in excess of certain 
levels in order to be in top end of the pay range. The reason 
is, because there is an overlap with the next level of 
responsibility. Our philosophy is that you can justify paying 
people at a lower level, who are really strong performers as 
much as people as the next level, but you can't justify paying 
below average performers, at a lower level of responsibility, 
more money than somebody at the next level, who might be a 
higher performer would be paid.
    Senator Allard. Yes.

                         BAND II RESTRUCTURING

    Mr. Walker. Now, the most challenging aspect of this, Mr. 
Chairman, has to do with this Band II restructuring. And I'll 
give you a few stats to bring it to life. We had 1,238 Band 
II's when we started this process. That's out of about 3,200 
employees. So you can see, that's the largest component of our 
workforce. When we received the results of the competitive 
compensation study, we had to make the decision on which one of 
those 1,238 should be put in the higher pay range, which gives 
them a chance to make up to $10,000 more, and which ones should 
not. In some cases, individuals may be making more than they 
should be making, based upon the market ranges. We had an 
extensive process that resulted in everybody being able to 
apply. Of the 1,238, 794 applied, 757 were deemed eligible, 409 
were initially placed into the higher Band IIB range. Seventy-
eight of the ones who were not originally placed, appealed 
directly to me. I placed 19 of the 78 into Band IIB. In 
addition, five, who didn't even appeal to me, were placed into 
Band IIB because I modified the relative performance criteria. 
Therefore, some individuals benefited from that change, even 
through they did not appeal.
    So in summary, 433 or 35 percent of all our Band II's, were 
placed in the higher pay range. There are 236 people who, when 
we made the decisions based upon their roles, responsibility, 
relative performance, and potential, did not justify being 
placed into the higher pay range, but were already getting paid 
in the higher pay range. So they were making in excess of 
competitive compensation levels. For those people, we did not 
cut anybody's pay, because they played by the rules. It 
wouldn't be right. It wouldn't be fair.
    At the same time, if they were already paid in excess of 
competitive compensation levels, we didn't give them the 
automatic across-the-board adjustments because they were 
already paid in excess of competition compensation levels. But 
we did give them the right to make additional pay increases, 
based on their performance. And a vast majority did get some 
pay increase even if they didn't get the across-the-board 
adjustment. They will, if they end up getting moved to the next 
level, or as pay ranges change over time. So that's where we 
are. And I apologize, that took a little bit of time, but it's 
a fairly complicated matter.

                 EMPLOYEE PERCEPTION OF NEW PAY SYSTEM

    Senator Allard. Okay. I want to follow up a little more on 
that. What is the morale, after you've implemented that system, 
among the employees?
    Mr. Walker. We do an annual confidential electronic 
employee feedback survey, which we'll do in July and that will 
give us more concrete information on morale. I will give you my 
opinion, based upon extensive interaction with our employees, 
talking to our managing directors, talking to our Employee 
Advisory Council, meeting with our employees, and answering 
their questions.
    My view is that there is no easy way to tell somebody that 
their pay is in excess of competitive compensation levels. 
There's no easy way to tell somebody that you are not going to 
continue to receive across-the-board adjustments that you've 
been receiving year, after year, after year. All right. And so 
my view is that there is a significant percentage of those 
individuals who were not placed into the higher pay range, that 
are disappointed, and I'm sure that that's had some impact on 
their ``morale.''
    At the same point in time, we've taken several steps to try 
to mitigate any adverse morale impact. First, rather than only 
allowing for competitive placements from the so-called lower 
IIA pay range to the higher IIB pay range, once a year, we're 
going to have a second competitive placement process that will 
be effective near the end of June. We've erred on the side of 
generosity in allocating the number of competiting positions, 
so that more people will have an opportunity to make it. We're 
going to do another competitive process next January. So 
basically, that means within a 12-month period of time, we will 
have had three placement cycles, and then we'll move to an 
annual cycle after that.
    My view is that while a significant percentage of the 
people who did not get placed into IIB and my understanding is 
that there were 345 people out of 3,200 roughly, who did not 
receive an across-the-board increase, because of this factor or 
because they were otherwise paid in excess competitive 
compensation levels.
    Obviously, a significant percentage of those people aren't 
happy with the result. But that's a subset of our workforce. 
That's only about 11 percent of our workforce. I feel confident 
that not only was it the right thing to do, but it was 
necessary to do especially given tight budgets.
    The other thing that we did to try to ease the pain which, 
as I said before, was not to cut anybody's pay. In addition we 
told every Band II employee who was onboard in January, that 
they would have the opportunity to earn up to what they 
could've earned under the old system, which in Washington, is 
almost $119,000 a year in cash compensation only, with benefits 
added on top of that. They will have that opportunity to earn 
that but at a slower rate than they could have under the old 
system. So we're preserving their ability to make what they 
could have under the old system at a slower rate, but we're 
providing them an opportunity to make more money if their 
skills, knowledge, roles, responsibility, and performance 
justify. Over the long term, this will clearly be a plus. In 
the short term, sometimes you have to have short-term pain to 
get long-term gain. And that's where we're at.
    Senator Allard. Well, we had a communication from one 
employee here, who felt that somehow or the other, he'd been 
promised that he was automatically going to get this annual 
increase and this particular year, it would have been a 2.6-
percent increase. Do you have any response to that?
    Mr. Walker. Well without knowing the facts, I can say this, 
I never committed, nor would I ever commit to pay an across-
the-board pay increase to an individual who's paid in excess of 
competitive compensation levels. I never committed to that, nor 
would I commit to that.

         POTENTIAL FOR GOVERNMENT-WIDE USE OF MARKET-BASED PAY

    Senator Allard. Okay. Would you recommend this pay system 
be used Government-wide, at this point in time?
    Mr. Walker. I believe there are several aspects of what 
we've done, that have potential merit for broad-based 
application throughout Government. Although each workforce is 
different, and therefore you need to make some changes. For 
example, I believe that individuals who perform at a meets 
expectation level or better, who are paid within competitive 
compensation ranges, should, at a minimum, receive some pay 
adjustment, based upon how the pay ranges change each year.
    In addition to that, I believe that any additional pay 
adjustment that people receive should be based on how they 
perform relative to their peer group. So that means, if you do 
like we do, where we set the bar high on expected performance 
and if you hit that bar for meets expectations, you're going to 
get something. But how much extra you're going to get, depends 
upon how you compare to your peer group, with the top 
performers getting more money than people who are good 
performers, but not top performers.
    I think that framework has a great deal of intellectual 
merit, and when I've gone around speaking to executives and 
others at other agencies, they have found that it is a possible 
bridge from a system where 85 percent of the pay was on auto 
pilot and 15 percent was merit based, to one where everything 
relates to merit, but you're going to get something, as long as 
you're a solid performer. But how much more you'll get, depends 
upon how you do relative to your peers.

            LESSONS LEARNED IN IMPLEMENTING MARKET-BASED PAY

    The other thing that I think makes sense is you've got to 
do market-based compensation studies. Most agencies in 
Government have never done that. When you end up going to broad 
banding, you really need to make sure you make solid decisions 
on how many bands you set up, based upon roles and 
responsibilities. We made two mistakes in 1989. Hindsight is 
always 20/20.
    Senator Allard. Well, you learn.
    Mr. Walker. Yes. We made mistakes in 1989. Number one, we 
combined two GS levels into one pay band that we shouldn't 
have, because they were different roles of responsibility. That 
caused us to have to do this Band II restructuring, because it 
was clear that we had people with different roles and 
responsibilities. Second, the agency assumed that the GS pay 
ranges were reflective of the market.
    Now they may or may not have been in 1989, but they're 
surely not today. So when agencies are moving forward, they 
have to be careful on how many pay bands they set up, based 
upon meaningful differences in roles and responsibilities. 
Then, they need to conduct competitive compensation studies to 
decide what the pay ranges ought to be for those bands.
    The last thing that I would say that's relevant, is that 
it's okay to have overlaps in pay ranges. It's okay from 
somebody in a lower level to have the opportunity to make as 
much or more than the lower end of the pay range at the next 
level. But in my view, the only people that you can justify 
doing that for, are very strong performers. That shouldn't be 
an entitlement. Because otherwise, you don't get equal pay for 
work of equal value, over time. And that's one of our 
objectives too, though I didn't mention it before, that I think 
is an important principle.

                     STAFFING UP TO REDUCE BACKLOGS

    Senator Allard. Last year, you talked about your single 
biggest backlog was in the area of healthcare. Have you fully 
staffed that area, now?
    Mr. Walker. I would ask Gene Dodaro to look at some data. 
We clearly still have a backlog in the healthcare area. But I 
would footnote before Gene gets into the area, the backlog 
we're going to talk to you about, is engagements that we've 
accepted. And one has to use a note of caution, because there 
could be demand on the Hill that we haven't received yet and 
have not accepted yet. In some cases, people don't send us 
things because they already know that we have a backlog. So 
with that footnote, I would ask Gene to give you the backlog 
statistics.
    Senator Allard. Gene.
    Mr. Dodaro. Mr. Chairman, we've begun addressing the 
backlog issue in healthcare and have made a little progress, 
but not much. Basically what's occurring there, because of 
large growth in healthcare expenditures and the interest in 
healthcare, particularly with the addition of the prescription 
drug benefit in Medicare part D, the requests and mandates from 
Congress just keep coming in at a fast pace. And there's also 
more interest now in how FDA handles drug safety issues. 
There's more interest in bioterrorism concerns and public 
health preparedness and readiness. So the range of issues just 
keeps growing, both in the Medicare program, as well as the 
Medicaid program, in public health, and in the regulatory 
structure. So we don't believe we can make much more progress 
unless we add additional people.
    We've also reinforced a process that we've had in place for 
a number of years now, to look at potential mandates. When 
Congress introduces a bill, there's often a requirement for a 
GAO study in there and so, we try to talk to the people once 
the bills are introduced. If it's something that may not fall 
within our scope of our responsibility, or be something that 
we've already addressed we try to deal with it.
    The other big backlog area has been in homeland security. 
And of course following September 11, 2001, a lot of concerns 
about the areas that the Department of Homeland Security is 
addressing. And then, came Hurricanes Katrina and Rita, et 
cetera. And a lot of concern has, as everybody knows, emerged 
about the Federal Government's response in that area. And so 
that has occurred in addition to the continuing concerns about 
air transportation, railroad security, port security, and all 
the other issues that have been addressed. So that's been 
layered on top and is causing an additional backlog in that 
area, as well.
    Ms. Harper. Mr. Chairman, to address the second----
    Senator Allard. Ms. Harper.
    Ms. Harper [continuing]. Part of your question, healthcare 
is on track to be fully staffed. Their hiring is going very 
well this year, so their staff should be fully onboard as we 
come toward the end of the fiscal year.
    Mr. Walker. And the third area, Mr. Chairman, where there's 
a big backlog, is natural resources and the environment, for 
fairly obvious reasons and yourself being from the West, you 
can appreciate some of those issues.

 COMPARATIVE ANALYSIS OF THE GOVERNMENT ACCOUNTABILITY OFFICE'S SUPPLY-
                            DEMAND IMBALANCE

    Senator Allard. Yes. Okay. I'd like to have you provide, 
unless you already have it with you, a comparative analysis of 
GAO's current supply and demand imbalance between staff 
capacity and job demands of the last 5 and 10 years. Can we do 
that with current figures?
    Mr. Walker. We'll be happy to provide data for the record, 
Mr. Chairman.
    [The information follows:]

    Question. For each of GAO's 13 mission areas, please 
compare changes in the supply/demand imbalance between staff 
capacity and job demands for fiscal years 2006, 2001, and 1996. 
How does GAO measure supply and demand as it relates to this 
issue? What criteria does GAO use to identify backlogs?
    Answer. As of the end of March 2006, GAO had 374 requests 
from Congress that had not yet been started (defined as the 
imbalance between supply and demand). This compares to the 361 
requests pending at the end of fiscal year 2001 and 349 
requests pending at the close of fiscal year 1996.
    Pending requests include those (1) assigned to teams but 
still awaiting screening at GAO's weekly Engagement Acceptance 
Meeting, (2) approved at the EAM to start but not yet begun, 
and (3) awaiting staff. It does not include work that is 
contingent on a future due date or event.
    The following table shows the number of pending requests 
for each of GAO's 13 mission teams as of the end of March 2006 
and the end of fiscal year 2001. GAO's mission teams were 
organized by the current Comptroller General beginning in 
fiscal year 2001, so information on their pending requests in 
1996 does not exist.

                    PENDING REQUESTS BY MISSION TEAM
------------------------------------------------------------------------
                 Current Team                     2001 \1\       2006
------------------------------------------------------------------------
Acquisition and Sourcing Management (ASM).....           23           37
Applied Research and Methods (ARM)............            3            3
Defense Capabilities and Management (DCM).....            8           21
Education, Workforce, and Income Security                18           23
 (EWIS).......................................
Financial Management and Assurance (FMA)......            1           44
Financial Markets and Community Investment               15           13
 (FMCI).......................................
Health Care (HC)..............................           84           82
Homeland Security and Justice (HSJ)...........           NA           45
International Affairs and Trade (TAT).........            7           12
Information Technology (IT)...................           17           12
Natural Resources and Environment (NRE).......           59           54
Physical Infrastructure (PI)..................           38           22
Strategic Issues (SI).........................           12            6
------------------------------------------------------------------------
\1\ Tax Administration and Justice (TAJ) had 69 pending requests at the
  end of fiscal year 2001 and the Office of Special Investigations (0SI)
  had 7. TM was merged mainly into HSJ and SI and 0SI was merged mainly
  with FMA and the Office of General Counsel.

           GOVERNMENT ACCOUNTABILITY OFFICE'S HIGH RISK LIST

    Senator Allard. Another area I wanted to cover before we 
bring things to a close is your high risk list. Can you give us 
a rating of how effective that program might be?
    Mr. Walker. Well Mr. Chairman, thank you for asking that 
question. It's a very timely question. I have to give credit to 
my predecessor, Chuck Bowsher and the individuals who were at 
GAO in the early 1990's for creating the high risk list. It's 
been public since around about 1992. Since I've been 
Comptroller General, I've tried to work with our GAO executives 
and others, to make it a much more strategic list. Not just 
focused on fraud, waste, abuse, and mismanagement which will 
never be zero, but also to address major transformation 
challenges facing the Federal Government and to take a more 
strategic approach.
    I'm pleased to say, that a very high percentage of our 
hearings and a very high percentage of our financial benefits 
and other accomplishments, are directly related to the high 
risk list. The Congress is focusing on the high risk list for 
the most part. GAO continues to focus on it. The administration 
is now working with us to create action plans for every high 
risk area. As you know, the President's management agenda is 
based, in large part, on GAO's high risk list and that is not 
an accident.
    Furthermore, GAO's high risk program is being emulated in 
other countries, in other States, and localities and is now on 
the short list for an Innovations in Government Award from 
Harvard. Whether or not we'll be selected, we've made the short 
list. This program is making a difference, and I think it's an 
example of when you're dealing with an entity that's as vast as 
the Federal Government and when you've got limited resources, 
you need to figure out some way to target. We can target, the 
Congress can target, the agencies can target whatever resources 
and authorities they have, to have the most impact. This has 
clearly been a valuable tool in getting that done.
    I don't know if Gene has anything.

 HISTORY AND IMPORTANCE OF THE GOVERNMENT ACCOUNTABILITY OFFICE'S HIGH 
                               RISK LIST

    Mr. Dodaro. Mr. Chairman, I've been involved in the program 
since it was created back in 1990 and I can tell you, it has 
tremendous value over time in sustaining attention between 
administrations and with changes in the Congress. A lot of 
these problems require sustained attention over time. And even 
for some of them, the areas that are still on the high risk 
list, even though they have not been taken off yet, there's 
been a lot of progress made because of this sustained 
attention. Medicare, for example, now has a means to measure 
the level of improper payments that they're sending out. That 
didn't exist when we put them on the list back in 1990 and 
that's enabling them to measure the degree of progress that 
they're making and target corrective actions.
    Tax enforcement, the latest measure of the tax gap had 
occurred back in 1988 and because that area has been on the 
high risk list, there has been a new estimate made of the tax 
gap, which is about $300 billion. In the Department of Energy 
(DOE) area for example, on contracting, since we've put that on 
the list, even though they're not taking off yet, they're now 
competing contracts, where they had not been before and other 
progress has been made.
    So it's a very, very effective means and I could tell you, 
when Dave and I have met with heads of agencies, nobody really 
wants to be on the list and they're making concerted progress 
to get off. And they see the benefits of also being on the 
list, to get attention to their area.
    Mr. Walker. But let me footnote, Mr. Chairman, in addition 
to everything that Gene said, by taking a much more strategic 
and transformational approach to the high risk list, I must 
say, that I have actually received two telephone calls from 
heads of agencies, thanking us for putting them on the high 
risk list. And let me tell you why. Because one of the things 
that we've also done, is we've noted which items on the high 
risk list not only require action by the executive branch, but 
also require action by the Congress. And when you look at that 
high risk list, anything that has an asterisk, means that both 
branches of Government have to be involved to create a more 
positive future. In many cases, by putting an item on the high 
risk list, that provides attention and additional momentum for 
changes not just within the executive branch, but also within 
the legislative branch. One example of that, is a topic that 
you talked about earlier, namely human capital reform. We put 
that on our high risk list in January 2000. There's been more 
done administratively and legislatively in the human capital 
area since January 2000, than the 20 years prior to that. 
Therefore, it can make a difference. It is making a difference.

 CRITERIA FOR COMING ON AND OFF THE GOVERNMENT ACCOUNTABILITY OFFICE'S 
                             HIGH RISK LIST

    Senator Allard. Let me serve the role of a devil's 
advocate, we have two that have been on there--DOE and the 
National Aeronautics and Space Administration (NASA) contract 
management. They've been on there forever. And there hasn't 
seemed to be any improvement. Doesn't that diminish the 
effectiveness of your program?
    Mr. Walker. Well we've had a number that have come off over 
the years and we've had some that have come on over the years. 
I can assure you, that people don't come off until they earn 
coming off.
    The other thing that is different here is that within 1 
year of my coming on board, one of the things that we did 
working with GAO's executives and also providing an opportunity 
for comments from the Congress and the executive branch, we 
came up with clearly defined, transparent, and consistently 
applied criteria for what it took to go on the list and what it 
took to come off the list. This has helped tremendously.
    And the last thing I would say is this, the current 
administration is taking the high risk list seriously, as 
evidenced by the fact that they're working with us and the 
agencies to try to develop a specific action plan for each item 
to eventually get off the list. In some cases, it took years 
for people to get where they are, and it's going to take years 
to get off.
    The most prominent example, Mr. Chairman, is that the 
Defense Department has 8 of 25 high risk areas individually and 
shares all 6 of the Government-wide areas. So it has 14 of 25. 
And in many cases, Mr. Chairman, it's not just because it's 
going to take a long time to deal with it and there needs to be 
more attention in the executive branch, it's because there 
needs to be more attention paid in the legislative branch. 
There needs to be more accountability than there has been, in 
many regards.
    Senator Allard. Have we ever had any legislative agencies 
on this list?
    Mr. Walker. This list has been geared toward the executive 
branch, which is an overwhelming percentage of Federal revenues 
and expenditures. And as you might imagine, Mr. Chairman, that 
raises certain sensitivity issues, since we are a sister agency 
to other legislative branch agencies.
    Senator Allard. Just a thought I had. Okay. Before 
concluding the hearing, I would like to thank your staff for 
the exceptional work that they do to support this subcommittee. 
And in particular, Bernard Ungar and Terrell Dorn have been 
steadfast in their commitment to support our oversight of the 
Capitol Visitor Center.
    In addition, Gloria Jarmon and many of your other staff 
provide outstanding advice and guidance to the subcommittee 
routinely and we appreciate their efforts.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions that will be 
submitted to your agency for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
              Questions Submitted by Senator Wayne Allard
    Question. GAO's budget requests 50 additional full-time equivalent 
employees. What is the full-year cost for the additional FTEs, and why 
isn't this cost made clear in the budget justification?
    Answer. The full-year cost for 50 full-time equivalent (FTE) staff 
is about $5.8 million using an average annual salary of $116,362 
including benefits. Our workforce plan projects that we will end fiscal 
year 2006 with an onboard strength of 3,350 staff. This staffing level 
will position GAO to utilize 3,217 FTEs in fiscal year 2006 and 3,267 
FTEs in fiscal year 2007.
    The cost to support these staff in fiscal year 2007, assuming no 
other staffing changes, is included in the budget request as part of 
estimated annualization costs. The annualization cost represents the 
difference between the estimated costs to be paid in fiscal year 2006 
and fiscal year 2007. The annualization cost has been reduced by 
expected savings from leave-without-pay and part-time schedules, and 
includes the cost to maintain our student intern and knowledge transfer 
programs. The intern program has been an effective recruitment tool for 
permanent hires, especially in our specialized areas of accounting and 
financial management. The knowledge transfer program is a vital tool in 
our succession planning strategy to help ensure continuity of 
operations.
    Question. Given that GAO's budget was cut below the request in 
fiscal year 2006, how has the agency managed to maintain the fully 
authorized level of FTEs?
    Answer. We expect to be able to maintain 3,217 FTEs in fiscal year 
2006 primarily due to lower average compensation costs than estimated. 
We estimate our actual fiscal year 2006 compensation costs will be 
lower than we estimated in January 2005 at the time our budget request 
was prepared, primarily due to: (1) a lower on-board strength at the 
beginning of fiscal year 2006 than assumed in our budget request; and 
(2) institution of our new compensation program which is market-based 
and more performance-oriented that will result in somewhat lower 
average salary growth than originally expected.
    Question. Given GAO is requesting 50 additional employees, why is 
there a need for $500,000 in additional costs for contract services?
    Answer. Based on our current assessment of trends in engagements 
and audits, we anticipate an increasing demand for technical expertise. 
We expect to continue to rely on external experts and advisors in 
disciplines related to our work in physical infrastructure, education, 
pension simulations, health care, natural resources, economic analyses, 
and survey assistance. Contract services support congressional 
engagements by providing specialized, expert advice and assistance not 
readily available from GAO staff and not necessarily needed on a 
recurring basis. Contract services are also used when certain kinds of 
expertise are needed within a compressed time-frame to meet 
congressional needs for particular engagements, projects, or audits. 
For example, we plan to use contract services to provide expertise on a 
congressional request related to utility tunnels.
    Examples of contract services can range from expert advice on 
specific issues to an analysis of a particular program. We have found 
that contracts--such as with the National Academies--provide an 
efficient, flexible vehicle to obtain technical assistance and 
expertise in highly specialized areas. We have used the expertise of 
the National Academies in such areas as: information on trends in 
printing and dissemination, technologies to protect structures from 
wildfires, environmental indicators, air traffic control modernization 
and privatization, vulnerabilities of federal lands to climate changes, 
and the Capitol Visitor Center.
    Question. GAO's budget includes $3.894 million in ``relatively 
controllable costs'' associated with information technology. Please 
provide a breakout of the projects and activities that comprise the 
$3.894 million estimate, and the projected impact of not funding each 
of these items.
    Answer. In preparing our fiscal year 2007 budget request, we 
vigorously scrubbed our requirements and limited the items included in 
our request to selected, targeted initiatives that we believe are 
essential to our ability to maintain our effectiveness and 
productivity. These initiatives primarily relate to (1) enhancing 
critical business systems and (2) addressing security requirements 
resulting from recent federal guidance. If funding is not directly 
provided for the requested initiatives, we may need to consider 
delaying these improvements which will only result in increased cost 
over time due to future price level increases. Alternatively, we may 
need to consider our staffing levels in fiscal year 2007 in order to 
ensure that we could pursue these initiatives. The following table 
provides additional information on the requested increases for 
Information Technology activities and the impact of not funding these 
items.

     FISCAL YEAR 2007 INCREASES REQUESTED FOR INFORMATION TECHNOLOGY
                               ACTIVITIES
                        [In thousands of dollars]
------------------------------------------------------------------------
                          Activity                              Amount
------------------------------------------------------------------------
Replace GAO's financial management system..................        1,400
    GAO's financial management system needs to be replaced
  now and is a priority effort over the next 2 years. Our
  financial management system is antiquated, is no longer
  supported by the vendor, fails to meet current business
  system requirements, and is in danger of failing. If the
  system is not replaced expeditiously, we run the risk of
  being unable to (1) effectively operate our financial
  management system, (2) produce auditable financial
  statements, and (3) meet internal control standards
  without extensive manual intervention and support.
    In fiscal year 2006, we plan to select a government
  cross-service provider and begin a phased implementation
  in fiscal year 2007. The replacement financial management
  system will provide integrated budgeting, purchasing, and
  accounting functionality while enhancing the information
  available to program managers, and allow us to meet our
  goal of being a model agency.
Enhance the Engagement Management and Job Information                425
 Systems...................................................
    In fiscal years 2006 and 2007, we plan to continue the
  redesign of the Engagement Management System and Job
  Information Systems. With the integration of existing
  systems such as the Congressional Contact System and
  Staffing Information System into the Engagement
  Management System, the new system will provide a more
  robust management tool which will allow one information
  source and access point for planning, staffing, and
  management of GAO's evaluation work. Currently, GAO
  maintains multiple systems with similar data, requiring
  managers to enter redundant data into multiple databases,
  reconcile information to ensure its accuracy, and access
  multiple systems to obtain information needed to manage
  and conduct congressional engagements.
Improve IT security and systems............................        2,069
    In fiscal year 2006, GAO will relocate its alternate
  computing facility for disaster recovery and continuity
  of operations from a commercial site to one that is
  shared with other legislative branch agencies. In fiscal
  years 2006 and 2007, we will continue to implement
  security features to identify and stop potential hackers
  and improve the overall security of the agency's
  information and technology assets.
    In fiscal year 2007, we will initiate the transition to
  Internet Protocol version 6 (IPv6) to comply with federal
  guidance and policy to implement IPv6 by fiscal year
  2008. This will require the upgrade of numerous
  infrastructure devices and GAO applications to ensure
  interoperability and IT security.
    With the completion of installing SIPRNet--DOD's
  Internet for sharing data classified up to the secret
  level--in the field offices, our efforts will shift to
  installing access to DOD's Non-classified Internet
  Protocol Router Network system, NIPRNet, in fiscal year
  2007. Electronic access to DOD's systems allows staff to
  obtain information needed to complete engagements without
  incurring travel costs.
    In addition, we will build upon our design of the
  Hurricane Central Portal to create portals that will
  provide a single access point to enterprise information
  resources, tools, and common applications within the GAO
  network. These portals will facilitate timely and
  effective staff research and access to data needed to
  respond to congressional inquiries. The initial focus
  will be a portal for the core business and analyst
  communities.
                                                            ------------
      Total................................................        3,894
------------------------------------------------------------------------

    Question. GAO's budget proposes $3.819 million in ``relatively 
controllable costs'' associated with building management. Please 
provide a breakout of this requested increase, and the impact of not 
funding these items.
    Answer. In preparing our fiscal year 2007 budget request, we 
vigorously scrubbed our requirements and limited the items included in 
our request to selected, targeted initiatives that we believe are 
essential to our ability to maintain our effectiveness and 
productivity. These initiatives primarily relate to (1) cyclical 
maintenance identified in our 2005 GAO Building Condition Assessment 
Report, and (2) security requirements resulting from recent federal 
guidance. If funding is not directly provided for the requested 
initiatives, we may need to consider delaying these improvements which 
will only result in increased cost over time due to future price level 
increases. Alternatively, we may need to consider our staffing levels 
in fiscal year 2007 in order to ensure that we could pursue these 
initiatives. The following table provides additional information on the 
requested increases for Building Management activities and the impact 
of not funding these items.

 FISCAL YEAR 2007 INCREASE REQUESTED FOR BUILDING MANAGEMENT ACTIVITIES
                        [In thousands of dollars]
------------------------------------------------------------------------
                          Activity                              Amount
------------------------------------------------------------------------
GAO Building Maintenance and Repair........................          922
    In fiscal years 2006 and 2007, we plan to undertake
  several maintenance and repair projects identified in our
  2005 Building Condition Assessment report. In fiscal year
  2007, we plan to continue upgrades to the heating,
  ventilation, and air-conditioning systems, replace the
  cooling towers, upgrade the handicapped lift, and perform
  cyclical maintenance on the building elevators. In order
  to ensure the safety of GAO staff, we could not defer
  critical elements, such as elevator upgrades.
Increase Security For Incoming Mail And Packages...........          400
    We plan to relocate and consolidate our mail and
  package receiving facilities to help ensure the safety
  and security of GAO staff and assets in the event of the
  receipt of hazardous materials.
Upgrade Contract Security Force............................          610
    In fiscal year 2005, we restructured the contract for
  the security force to upgrade the qualifications for the
  security force to Special Police Officers, gradually
  replacing GSA guards. The restructuring will help ensure
  a more professional, secure environment. In fiscal year
  2006, we completed the restructuring of the security
  force and have attained full staffing with special police
  officers. The requested increase represents the
  annualized cost of making the transition from GSA guards
  to special police officers. If the requested funding is
  not available, we would be required to reduce the number
  of officers that we could support and determine other
  ways to help mitigate the potential risks to GAO staff
  and assets.
Integrated Electronic Security System (IESS)...............        1,225
    We plan to implement an IESS at GAO headquarters in
  fiscal year 2006 and expand the system to the field
  offices in fiscal year 2007. The IESS will allow GAO to
  integrate headquarters and field office access control,
  surveillance, and alarm systems and provide the ability
  to monitor field activity from a console in the
  headquarters Command Control Center. We anticipate some
  savings will result from integrating the field offices
  and headquarters control systems and less reliance on the
  Federal Protective Service (FPS) in the field. The
  integrated system will allow GAO to comply with Homeland
  Security Presidential Directive 12 (HSPD 12) which sets
  forth requirements for using government-issued
  identification, Smart Cards, to permit access to federal
  agencies.
Security Investigations....................................          197
    In fiscal year 2006, we will start conducting higher-
  level investigations on contractors and interns to meet
  the requirements of HSPD 12 for the issuance of
  government identification to allow access to federal
  facilities. In addition, in fiscal year 2007, a
  significant number of staff are due for cyclical updates
  of their security clearance which is required to gain
  access to needed information and facilities.
Upgrade Tax Rooms..........................................          225
    We plan to assess secure space in the field offices and
  implement changes needed to comply with Internal Revenue
  Service guidelines for storing tax returns and other
  sensitive information.
Design For Library & 7th Floor.............................          240
    We plan to redesign the physical layout of our library
  facility to (1) reconfigure space to improve work
  collaboration as we reduce our physical collection and
  migrate to greater use of electronic resources, and (2)
  design additional workspace to accommodate displaced GAO
  staff when the GAO Building is used as an alternate
  facility for congressional staff.
                                                            ------------
      Total................................................        3,819
------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. How many GAO staff did not perform at a satisfactory 
level (meets expectations or better rating) in 2005 and were thus 
ineligible for purchase power protection?
    Answer. Only 8 staff did not perform at a meets expectation level 
or better and therefore did not receive an annual adjustment. In 
addition, 19 staff did not meet the relative performance requirements 
for satisfactory performance and therefore did not receive an annual 
adjustment.
    Question. What happened to these individuals?
    Answer. The 8 employees whose performance was not at a meets 
expectations level or better did not receive the annual adjustment or 
any other salary increases or performance bonuses. The remaining 19 
employees did not receive the annual adjustment, but were assessed for 
performance based compensation and were eligible to receive a 
performance bonus.
    Question. Were the affected employees aware of the reasons for 
being denied their COLA's?
    Answer. Yes. GAO has implemented a market-based and performance-
oriented compensation system and does not provide an across-the-board 
increase to all employees regardless of their performance, roles and 
responsibilities or salary in relation to the market. Our annual 
adjustment reflects changes in the cost of labor and is one component 
of an employee's compensation. As noted above, some employees were 
ineligible for this adjustment due to their performance.
    Employees who didn't receive adjustments due to ``below 
expectations'' ratings were made aware that their appraisals made them 
ineligible for salary adjustments or performance bonuses. The 19 
employees who didn't receive annual adjustments due to the relative 
performance criteria were considered for performance based 
compensation. All staff can access a performance-based compensation 
report from a web-based system This report contains information about 
employees' ratings, base salary increases and/or performance bonuses, 
but does not provide a specific explanation of why the amount may be a 
bonus rather than a base salary adjustment. Various communications were 
undertaken to inform staff as to the nature and basis for 2006 salary 
adjustments--including who was or was not eligible for the annual 
adjustment component. These included a special Comptroller General 
televised chat for which the briefing materials were posted for all 
staff. A GAO order covering the annual adjustment and performance-based 
compensation process was issued for notice and comment. Lastly, a PBC 
guide with calculation examples was posted on the GAO intranet. Human 
Capital Office staff also provided specific explanations of individual 
salary adjustments to employees upon request.
    Question. What affect has the GAO Human Capital Reform Act had on 
the morale of the employees in your agency?
    Answer. The Human Capital Reform Act (HC II) was passed in July 
2004 and provided GAO with several flexibilities including permanent 
authority for the Comptroller General to offer voluntary early 
retirement, voluntary separation incentive payments, enhanced annual 
leave for key employees, flexible relocation benefits and an executive 
exchange program. In addition, the act authorized the Comptroller 
General to establish revised pay retention regulations and to determine 
the annual salary adjustment for GAO staff rather than increasing 
salaries by the percentage authorized for the General Schedule. The 
Comptroller General's authority to establish the amount of the annual 
adjustment was effective for increases effective on or after October 1, 
2005. Therefore, January 2006 represented the first exercise of this 
authority.
    GAO conducts an annual employee feedback survey to give staff an 
opportunity to provide input on various issues relating to their 
employment at GAO. The results from the 2005 survey which was the first 
conducted since the passage of Public Law 108-271 (May and June 2005) 
show morale improved from the prior year with 71.24 percent of 
employees agreeing or strongly agreeing that their morale was good. In 
the 2004 survey (July and August of 2004), 68.76 percent of employees 
agreed or strongly agreed that their morale was good. While we can't 
attribute changes in morale to this particular legislation or any other 
single factor, the next survey will be conducted in the summer of 2006 
after the HC-II pay flexibilities have been exercised. Employees' 
responses on the morale question have trended upwards in 2003, 2004 and 
2005 and we will track the 2006 responses when the survey is completed 
in light of the legislation and other changes that have occurred in the 
agency in the past year.
    Question. Why did you not allow for a minimum of a two year 
transition period before implementing the GAO annual pay adjustment 
provisions?
    Answer. We did. In 2003, as part of our legislative proposal, the 
Comptroller General laid out plans for a 2-year transition period with 
increases under the new authority occurring in January 2005 at the 
earliest. Public Law 108-271 was passed in July of 2004 and provided 
for implementation of the Comptroller General's annual pay adjustment 
authority to be effective for any increases effective after October 1, 
2005. In January 2005, GAO adjusted employees' salaries at the same 
time and to the same extent as the General Schedule and January 2006 
was the first year in which GAO employees received a different annual 
adjustment than the executive branch.
    Question. Why was the restructuring of GAO senior analysts (Band 
IIs) carried out?
    Answer. As part of our overall human capital transformation 
efforts, GAO has developed and implemented a modern classification 
system and a market-based and more performance-oriented compensation 
system. The principles that guided the development of our 
classification and compensation system are as follows:
  --Enable GAO to attract and retain top talent
  --Result in equal pay for work of equal value over time
  --Reflect the roles and responsibilities that staff are expected to 
        perform
  --Be reasonable, competitive, performance-oriented; and based on 
        skills, knowledge and roles
  --Be affordable and sustainable based on current and expected 
        resource levels
  --Conform to applicable statutory limits.
    The purpose of restructuring the Band II position was to clearly 
distinguish between the roles and responsibilities of those analysts 
who are generally individual contributors and/or sometimes provide 
overall leadership on selected engagements and those who are expected 
to consistently take on a leadership role for a broad range of 
engagements over time. When comparing Band II roles, responsibilities 
and pay to the market, the Watson Wyatt compensation study validated 
that these two roles should have different pay ranges. By better 
linking roles and responsibilities to the appropriate market-based pay 
ranges, senior analysts will be more equitably compensated.
    Question. When did the idea of the senior analyst (Band II) 
restructuring occur to you?
    Answer. The issue of how GAO classifies its analyst staff first 
surfaced in 2000 during the development of GAO's competency-based 
performance system. As part of the competency validation effort, some 
Band II employees reported that certain work activities associated with 
leadership and the development of staff were relevant and important to 
their responsibilities and other employees indicated that they were not 
relevant. As a result of this bimodal response, these work activities 
were not included in the competency-based performance system, but the 
reasons for the differing response remained a matter of concern.
    In preparation for the development of market-based compensation 
ranges, it was essential to address the issue of Band II roles and 
responsibilities in order to ensure appropriate benchmarking with 
comparable positions. The results of the market-based study, which was 
conducted from July to October of 2004, indicated that the different 
Band II roles should have different pay ranges. In response, the Band 
II restructuring effort was formally announced to staff in May 2005, 
placement decisions were relayed to individual employees in December 
2005 and placements actions effected in January 2006.
    Question. Did you ever mention the possibility of restructuring 
GAO's Band IIs during the legislative consideration of your human 
capital proposal? Why not?
    Answer. At the time of the 2003 hearings on human capital II, GAO 
had not formulated any response to address the issues associated with 
Band IIs' roles and responsibilities. We had no idea in 2003 what the 
results, if any, of our market-based compensation study would be.
    Question. What have been the benefits and costs of the Band II 
restructuring process?
    Answer. There are significant benefits to implementing a modern and 
credible classification and compensation system. It supports our 
continuing efforts to achieve our strategic goal of maximizing the 
agency's value by becoming a model federal agency and a world class 
professional services organization. The Band II restructuring process 
was integral to the effort to classify positions to the appropriate 
levels of responsibility and appropriate market-based salary ranges. 
While direct cost savings were not the impetus for our classification 
and compensation initiatives, over 80 percent of our budget is composed 
of people-related costs. Our restructuring of Band II along with the 
agency-wide implementation of a market-based and performance-oriented 
compensation system is a key element in the efficient use of our 
budget. Our previous pay system did not result in equal pay for equal 
work, was financially unsustainable and harmed the agency's ability to 
adequately reward strong performance. The new system will support our 
efforts to attract, retain, award and motivate top talent.
    However, we recognize that there are also costs associated with any 
significant change and the restructuring was difficult for GAO staff, 
particularly for long-term employees directly affected by the 
restructuring. Transformation efforts take patience and perseverance to 
achieve results and we fully expect that employees' acceptance of these 
changes will take time.
    Question. How much did GAO ``save'' by freezing the salaries and 
denying one-half of bonuses earned of its staff?
    Answer. The implementation of a market-based compensation system 
was not designed to save the agency money. In fact, only 47 staff (2.6 
percent) assessed for performance-based compensation and onboard as of 
the effective date of these increases received no salary increase or 
performance bonus this year. Our compensation system is a part of our 
overall transformation effort whose goal is to establish modern, 
effective, and credible human capital policies in order to ensure that 
GAO is well positioned to serve our congressional clients, maximize our 
performance, operate the organization within the resources provided in 
a constrained budget environment, and assure our accountability and 
service to the nation not only now, but also in the future.
    There were 236 Band II Analysts and Specialists who were placed in 
Band IIA and who had salaries in excess of the IIA maximum rate. Under 
the policy adopted to mitigate the impact of the Band II restructuring, 
these staff whose average salary is approximately $109,000 were 
provided 50 percent of their performance-based compensation as a base 
salary adjustment not to exceed the maximum ``transition'' rate. The 
transition rate allows all band IIA employees to earn a maximum salary 
equal to the maximum rate that these employees were eligible to earn in 
2005 as Band IIs, i.e., $118,700 in Washington, D. C. (Note: In some 
locations, the transition maximum was slightly higher than the former 
Band II maximum due to differing locality rates.) If these 236 
employees had been provided with the 2.6 percent annual adjustment and 
the additional 50 percent of their PBC, the added annual cost would 
have been approximately $882,000.
    Question. What is GAO's policy for paying the relocation expenses 
of an employee who requests a transfer from HQ to a region?
    Answer. GAO does not pay the relocation expenses for employees who 
request to be transferred. As required by Federal Travel Regulation 
302.1-1, GAO only offers relocation benefits if GAO determines that a 
transfer is in the interest of the Government. GAO always decides in 
advance of issuing a job announcement if it will offer relocation 
benefits for a position. If the decision is made to offer relocation 
benefits, that notation is made in the job announcement. Employees 
receive relocation benefits only if they are chosen for a position 
which includes relocation benefits in the job announcement. Employees 
who request to transfer from headquarters to a field office (or vise 
versa) are generally allowed to transfer if a position is available, 
however, the agency does not pay their relocation expenses.
    Question. In recent years, GAO, as well as other federal agencies, 
has invested significant resources to upgrade security. Yet, both 
physical and information security remain a management challenge for the 
GAO. Please describe why these areas continue to be a management 
challenge.
    Answer. The continuing dynamics of information technology (IT) and 
security is the primary reason for GAO's management challenge. It is a 
challenge that is not unique to GAO--all federal agencies are dealing 
with this challenge. Essentially, changing security threats, evolving 
security guidance, and new technologies have created an environment in 
a high state of flux. Our experience has already shown that security 
designs implemented today may not have the same effect of protecting 
our information resources from a newly designed threat, or variant of 
an existing threat, tomorrow.
    The explosion of the Internet, e-commerce and web-based services, 
along with the rapidly expanding presence of wireless and other 
computing devices, has created new challenges for protecting IT 
systems, privacy information and other agency information assets. In 
addition, the ease with which technology allows the sharing and 
transfer of information and the portability of cellular devices, tablet 
computers, and PDAs presents ongoing IT security threats--such as 
viruses, worms, spyware, zero day exploits, as well as pharming, 
phishing and spoofing exploits. Unfortunately, these are risks and 
challenges that are not likely to abate as we look forward and as new 
threats and the potential for new exploits emerge.
    The National Institute of Standards and Technology (NIST) has 
significantly increased its government-wide guidance on IT, providing 
more and greater detail in direct response to legislative direction and 
the Federal Information Security Management Act (FISMA). FISMA, in 
turn, has expanded the visibility of each federal agency's IT programs 
and how secure they are--and caused an increase in the workload and 
resources needed to comply with government-wide standards and reporting 
requirements. Furthermore, the guidance on implementing and reporting 
on FISMA requirements, as well as the related NIST standards and 
technology approaches continues to evolve. We foresee an increase 
rather than a decrease in work directly supporting these initiatives.
    Also, directives to move towards new technologies, such as IPv6, 
the next generation Internet protocol, may require a significant 
restructuring of network architectures and network services. (OMB has 
mandated that all Federal agencies must be using IPv6 by June 2008.) By 
implementing some of these new technologies, the existing mechanisms 
implemented to secure the network and information systems may need to 
be discarded and replaced by very different technologies, creating 
their own set of new challenges. Significant changes in technology will 
require additional resources for training and education of staff to 
meet the challenge. In the case of IPv6, it is critical that we develop 
and implement a sound transition plan to acquire, test and deploy the 
needed infrastructure equipment to implement IPv6 and ensure secure 
compatibility and interoperability with customers, clients, business 
partners, and service providers. The full implication of IPv6 
implementation from a security standpoint is just now emerging as 
industry and organizations/agencies gain a greater understanding of the 
protocol.
    In addition, Homeland Security Presidential Directive (HSPD) 12 and 
Office of Management and Budget guidance require federal agencies 
implement a new federal employee identification standard in October 
2006. The technical requirements to implement these directives are 
contained in the Federal Information Processing Standard (FIPS) 201 
guidelines. However, the vendor community is still developing and 
testing products capable of meeting the new standards and requirements. 
Meanwhile, agencies are trying to develop systems and processes to 
implement the new guidelines in a timely fashion in the absence of 
street-ready products.
    Question. What further investments do you believe are necessary to 
resolve the challenge?
    Answer. Due to the dynamic nature of the security and IT 
environments, there is no silver bullet to resolve the challenge. By 
following consistent standards and best practices, GAO has implemented 
a defense-in-depth approach using measured technical security controls 
to protect our information systems and information at the perimeter, 
throughout the network, and at the desktop. We still face mounting 
challenges from changing technologies and multi-vendor solutions. Most 
environments today must still rely on multi-vendor solutions that lack 
appropriate levels of integration. As the industry matures, we should 
see more integrated solutions on the market. GAO's future investments 
will be in support of our desire to consolidate security solutions to a 
limited number of vendors providing integrated effective solutions and 
reporting capabilities. These solutions will require both investments 
in technologies and human resources. As GAO moves forward, we will 
continue to review and update our security tools and approaches to 
ensure they are the most cost effective--and are responsive to ever 
evolving threats.
    Overall, the increasing and more sophisticated outsider threats, 
together with additional legislative mandates, presage a steady level 
of spending, at a minimum, for security initiatives to ensure the 
safeguard of our information resources and compliance with IT security 
regulations. While the composition of IT security funding will likely 
change to meet new security challenges and government wide 
requirements, we don't--at this time--envision overall costs 
decreasing, particularly in light of the required move to IPv6.
    GAO has several actions planned or underway in the area of physical 
security which will help improve our security posture, including an 
integrated access security system which utilizes enhanced Smartcard 
technology, more stringent background investigations for federal 
employees and contractors, and a more robust security force of special 
police officers. However, given the dynamic nature of the nation's 
post-September 11 security environment, the challenge is continually 
evolving.
    Question. What is the status of your effort to install an 
integrated access security system?
    Answer. GAO is working with a solutions provider to work through 
the details of implementing the new technology. During fiscal year 
2006, we plan to establish an Emergency Operations Center in 
headquarters as the focal point of our efforts to integrate physical 
security issues. This Center will allow us to monitor and control 
physical access issues in both headquarters and the field. It will also 
allow us to reduce our reliance in 10 field offices on local Federal 
Protective Service Staff and security forces. We also plan to install 
turnstiles in the headquarters lobby areas, implement Smartcard 
technology consistent with HSPD 12 and FIPS 201, and implement a 
visitor and credential management system in headquarters. In fiscal 
years 2007 and 2008, we plan to phase implementation of the access 
security system to the field offices.
    Question. What is the status of your disaster recovery/continuity 
of operations program?
    Answer. We have put in place a structured plan and process--which 
we test on a periodic basis--for business continuity planning and 
disaster recovery. We have also expanded the capability of our offsite 
alternative computing facility to ensure the recovery and restoration 
of the IT systems that support the agency's business processes in the 
event of a disruption. Expanded capabilities include the installation 
of additional file servers, operating systems, storage, back-up, data 
lines, additional remote access licenses and replication technology to 
synchronize headquarters production data at the alternative computing 
site. And, we are in the process of moving our alternative computing 
facility from a commercial site to the legislative branch facility 
which will save us about $126,000 annually, while providing the 
foundation for better coordination with other legislative branch 
entities. The move will occur during the summer, 2006.
    Question. Given the current environment of fiscal constraint, it is 
unlikely the Congress will be able to fully fund your budget request.
    a. What impact will this have on your plans for an FTE increase?
    b. How will this affect your ability to meet the Congress' needs 
for information?
    Answer. If the Congress is unable to fully funding our budget 
request, we may need to consider delaying some of the requested 
initiatives which will only result in increased cost over time due to 
future price level increases. Alternatively, we may need to consider 
reducing our planned staffing level in fiscal year 2007 in order to 
ensure that we could pursue the critical initiatives.
    GAO already has a significant supply and demand imbalance with 374 
requests from the Congress that had not been started as of March 2006. 
If we are unable to increase our staffing, this imbalance will likely 
continue. We will work with our clients on the Hill to determine their 
priorities for our work, but we will obviously not be able to complete 
all that they have requested.
    Failure to increase our staffing to the requested level would also 
have an impact on the timeliness of our work. While we continue to 
receive good marks on our service to the Congress, we recognize that we 
could always improve the timeliness of our work.

                          SUBCOMMITTEE RECESS

    Senator Allard. The subcommittee stands in recess until 
tomorrow, April 27 at 10:30 a.m., in Senate Dirksen 116, when 
we will take testimony on the progress of the Capitol Visitor 
Center construction. Thank you for your testimony.
    Mr. Walker. Thank you, Mr. Chairman.
    [Whereupon at 11:32 a.m., Wednesday, April 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ACTING EXECUTIVE 
            DIRECTOR
ACCOMPANIED BY:
        SUSAN ROBFOGEL, CHAIRWOMAN, BOARD OF DIRECTORS
        PETER EVELETH, GENERAL COUNSEL
        ALMA CANDELARIA, DEPUTY EXECUTIVE DIRECTOR
        BETH HUGHES BROWN, BUDGET AND FINANCE OFFICER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    Good morning. This morning we meet to take testimony from 
three legislative branch agencies: the Office of Compliance, 
the Government Printing Office (GPO), and the Congressional 
Budget Office (CBO). Each agency will appear as a separate 
panel. I would like to welcome all of our witnesses this 
morning.
    I will hear first from Ms. Tamara Chrisler, Acting 
Executive Director of the Office of Compliance, accompanied by 
Ms. Susan Robfogel, Chair of the Board of the Office of 
Compliance, and Pete Eveleth as General Counsel.
    The Office of Compliance is requesting $3.4 million, an 
increase of roughly 11 percent over the current budget, and 
would fund three additional employees. The Office's budget is 
small in view of its responsibilities. I plan to focus most of 
my questions on the recent revelations concerning the health 
and safety of the utility tunnels.
    Ms. Chrisler, you may proceed with your testimony.
    Ms. Chrisler. Thank you, Mr. Chairman. Good morning.

                SUMMARY STATEMENT OF TAMARA E. CHRISLER

    Senator Allard. Good morning.
    Ms. Chrisler. As you mentioned, Chairwoman Robfogel and 
General Counsel Pete Eveleth are with me this morning. Also 
joining us from the Office of Compliance are Alma Candelaria, 
Deputy Executive Director, and Beth Hughes Brown, our Budget 
and Finance Officer.
    And let me take a moment on behalf of the Office of 
Compliance and thank you for the opportunity to present to you 
this morning in support of our fiscal 2007 budget request. 
Chair Robfogel and I have submitted for the record written 
statements, and we appreciate the opportunity to be able to 
appear before you this morning and just highlight some of the 
items that we believe to be of significant importance in our 
budget request.
    As you know, in fiscal year 2006, the Office of Compliance 
submitted to you a zero-based budget request. And we thank the 
chairman, we thank the subcommittee, for support in that budget 
request. Because of your support, the Office was able to carry 
out its mission, as well as improve its inspection program, 
which is of great significance.
    Again, in fiscal year 2007, the Office of Compliance is 
presenting a zero-based budget request. And the request is 
designed to assist the Office in ensuring that Congress is a 
model employer, that the legislative branch is a model 
workplace and a safe working environment. And we are asking 
your support in supporting our budget request so that we can 
meet those goals.
    Specifically, the Office of Compliance is requesting 
additional funding to further a GAO recommended baseline 
survey. This survey will allow us to gather data so that we 
know what the employees and the employers in the legislative 
community know about their rights, their responsibilities, the 
CAA, as well as the Office of Compliance. This information will 
allow the Office to engage in best practices, so that we may 
measure our performance and so that we may focus our efforts on 
education and outreach to the areas that are needed.
    If we focus our efforts and provide assistance and 
resources where the need is, then we will be able to ensure 
that offices become self-sufficient and enable offices to know 
where potential violations are themselves, correcting them 
themselves, to assure a safe and healthy working environment. 
This type of proactive approach will, in the long run, save 
money. And Senator, it will save lives.

                      NEW FTE POSITIONS REQUESTED

    In addition, the Office of Compliance is requesting 
additional funding for three additional full-time equivalent 
(FTE) positions, one being for a program manager-type position 
to assist with dedicated service to the Office's programs and 
projects, another for the accounts payable function of the 
office, and the other for a management analyst position for the 
General Counsel's Office.
    Now significantly, the management analyst position will 
allow the inspectors to go about the business of inspecting, 
which is where their skills are and where their knowledge is. 
Currently, the inspectors inspect facilities. They return to 
the Office. They input data. They record data. They track data, 
which is taking away from where the inspectors are really 
needed, out in the field, inspecting the facilities, monitoring 
progress and abatement. And we request your support in the 
request for this additional management analyst position in the 
General Counsel's Office.
    I would like to note, Mr. Chairman, that two of the three 
positions that we are requesting can and will be funded by the 
Office of Compliance through reprogramming of contract money. 
So although we are requesting three FTE positions, we are in 
the position to find two of those ourselves.
    Last, but equally as significant as the other items that I 
have mentioned, is the Office's request for additional funding 
to inspect the Capitol Visitor Center. Because the center is 
anticipated to be completed and opened in the near future, this 
area will increase the Office of Compliance's responsibility by 
0.7 million square feet. And because the Office is committed to 
ensuring that this area, as well as the rest of the campus, is 
safe and healthy and compliant, we are requesting your 
assistance in ensuring that funding allows us to do this.

                           PREPARED STATEMENT

    Again, Mr. Chairman, these are just but a few items in our 
budget request that I wanted to highlight and bring to your 
attention this morning. I thank you for the opportunity to be 
able to present to you. At this time, I would ask that Chair 
Robfogel be allowed a few minutes to address the subcommittee. 
And Chair Robfogel, General Counsel Eveleth, and myself will 
remain available to answer any questions that you have.
    [The statement follows:]
                Prepared Statement of Tamara E. Chrisler
    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to appear before you today in support of the fiscal year 
2007 budget request of the Office of Compliance.
    Board Chair Susan Robfogel is in attendance with me today to 
express the support of the Board of Directors for the Office's fiscal 
year 2007 budget request. Also with me today are General Counsel Peter 
Ames Eveleth, Deputy Executive Director Alma Candelaria, and 
Administrative and Budget Officer, Beth Hughes Brown.
    We present you again this year a completely zero based budget. We 
hope that the transparency of the zero based format assists the 
Committee in understanding from the ground up how the Office operates 
its mandated programs in employment dispute resolution, in Occupational 
Safety and Health and ADA public access inspections and enforcement, 
and in education and outreach programs. This year, we have requested a 
total of approximately $300,000 in additional funding.
    2005 marked the 10th anniversary of the passage of the 
Congressional Accountability Act of 1995. As we begin this agency's 
second decade, we can look back at much progress, and some rough 
patches along the way. In February, 2004, the Government Accountability 
Office issued its major Report ``Office of Compliance: Status of 
Management Control Efforts to Improve Effectiveness'' GAO-04-400. At 
approximately the same time, the Office issued its first comprehensive 
Strategic Plan for fiscal years 2004-2006. Both of these documents, and 
our strides in implementing them since 2004, reflect the continuing 
improvement in the Office's focus on its core missions, and its growing 
engagement with Congress and legislative branch agencies in 
collaborative initiatives to enhance our services in the mandated areas 
of dispute resolution, safety and health enforcement, and education and 
outreach to our regulated community.
    Recently, the Office formally adopted interim performance measures 
for fiscal year 2006, after extensive stakeholder consultations--
including with the staff of this Committee. Such performance measures 
represent another step toward the best practices in strategic planning 
and management controls which GAO challenged this Office to achieve. We 
are now also fully engaged in two other strategic initiatives: the 
preparation of our next Strategic Plan, which will guide the Office in 
fiscal year 2007 and beyond; and a complete Human Capital Review, which 
is intended to result in a position classification, pay banding, and 
possible pay for performance structure for the Office. The Office's 
budget request is designed to further the goals of our strategic plan.
    As recommended in the GAO Report and reflected in our Strategic 
Plan, we continue to shift our focus in providing all our services to a 
more interactive approach, enabling regulated employers to achieve 
greater voluntary compliance with the varied requirements of the 
Congressional Accountability Act. Legislative branch agencies are faced 
with many employment, security and safety challenges. Our primary 
mission is to advance safety, health and workplace rights for employees 
and employers of the legislative branch, as mandated by the Act. We 
strive toward that goal with just 17 full time equivalent (FTE) 
positions and a current budget of about $3.1 million.
    As this agency continues to implement the recommendations of the 
GAO Report, and the goals and performance measures of our Strategic 
Plan, we meet new operational challenges as we become better at what we 
do. We have carefully prioritized our needs, and limited our requested 
enhancements to meet only those challenges which handicap our ability 
to make broader progress at this point in our development. This 
morning, I will highlight a few of those requests.
                           dispute resolution
    The Office's day-to-day employment dispute resolution function 
involves controversies under ten different laws, everything from 
alleged discrimination to the alleged failure to pay required overtime. 
This dispute resolution activity remains largely unnoticed because of 
the confidential nature of the counseling, mediation and hearing 
processes conducted by the Office. Hundreds of disputes in nearly all 
legislative branch agencies, as well as in offices of Members and 
committees of both chambers have quietly been addressed through the 
administrative dispute resolution system since 1995. The assistance to 
employing offices and employees provided by this discreet service is 
perhaps one of the great untold success stories of the past decade 
regarding our contribution to the quality of Congress's internal 
operations.
    We are, however, operating with an employment dispute resolution 
electronic case tracking system which was installed at the agency's 
inception in 1996. This antiquated system (which is entirely different 
from the Occupational Safety and Health inspection tracking system 
which this Committee authorized last year) is very hard to use, and is 
no longer compatible with our other operating systems. We have explored 
whether it would be cost effective to upgrade this system, and have 
been told by experts that it is cheaper to replace it. We are 
requesting funds to implement that recommendation.
                     safety and health enforcement
    GAO's 2004 Report found that ``In contrast to most other CAA 
requirements, OOC is not fully in compliance with the CAA requirement 
that it `conduct periodic inspections of all facilities' of the 
agencies covered by the provision.'' GAO also found a ``dramatic 
increase'' in the number of health and safety inspections requested by 
employing offices and covered employees, and observed that the Office's 
resources ``have not kept pace with this growth.'' We thank this 
Committee for its positive response to GAO's finding.
    For the current fiscal year, the Office received a significant 
increase in OSH inspection and enforcement funding to enable us for the 
first time to substantially comply with the Act's mandate that this 
agency complete a comprehensive safety and health inspection of the 
entire Capitol Hill campus during each Congress. The Office is now well 
along in this definitive effort to establish the required authoritative 
and comprehensive OSH base line for all 17 million square feet of 
covered space in the D.C. metro area. General Counsel Eveleth and I are 
pleased to report to you that as of today, the agency is on track to 
complete that biennial inspection by the end of the 109th Congress. 
Inspection of 100 percent of the campus is one of our recently adopted 
performance measures. Thanks to you, we are better able to help the 
Capitol Hill campus become safer and healthier much faster than 
otherwise would have been possible.
    As the Office gains experience with this much more intense and 
efficient inspection regimen, it has become clear that the ``down 
time'' our inspectors are currently spending back in the office doing 
administrative tasks can be more cheaply and efficiently performed by a 
lower cost management analyst, thus freeing up the inspectors to spend 
more time in the field. We expect that the cost of this FTE will be 
substantially offset by increased efficiencies in the use of inspector 
time, and we plan to reprogram contractor funds to fund the salary of 
this position. As several of our performance measures relate to 
increased inspection efficiencies, we have requested that you approve 
an additional position for this purpose.
    The impact of the opening of the Capitol Visitor Center during 
fiscal year 2007 will add approximately 0.7 million square feet to our 
inspection load. Thus, we are seeking funding for that added activity.
                       educating our constituency
    The Office is mandated by Congress to ``carry out a program of 
education for Members of Congress and other employing authorities of 
the legislative branch of the Federal Government respecting the laws 
made applicable to them and a program to inform individuals of their 
rights under laws made applicable to the legislative branch of the 
Federal Government. . . .'' 2 U.S.C. 1381(h)(1). While the Office 
continues to carry out this core mandate of the Act through various 
educational and outreach activities, we have maximized our limited 
capacity in this area.
    A key obstacle to greater educational effectiveness is our lack of 
comprehensive data regarding how and where we need to focus our 
efforts. A primary agency performance measurement tool recommended in 
the GAO Report is the establishment of a knowledge baseline regarding 
the Congressional community's understanding of the Act and of the 
Office's role in enforcing it. Such a baseline can best be established 
through a survey. The survey data will help us better target our 
education efforts and measure results. We are seeking funding for the 
undertaking of survey activities to establish the baseline against 
which we will measure our success in achieving our statutory mandates.
                           management support
    The Office of Compliance makes extensive use of service vendors and 
personal services contractors to provide many of our vital functions, 
including employment dispute resolution and OSH inspections. In 
general, this practice provides significant cost savings and allows 
this small agency to maintain capacities on an ``as-needed'' basis. 
However, some core internal control functions are currently also under-
served or contracted out due to our limited FTE authorization, which at 
17 is two less than the agency was authorized in fiscal year 1998.
    The Office has just two FTE's dedicated to all IT, HR, general 
administrative support and fiscal management functions. This situation 
has resulted in inefficiencies, work load overages, and the necessity 
to contract out core functions, such as accounts payable. Accounting 
staff is necessary to ensure that a separation of functions can be 
maintained in our fiscal management. We are requesting one analyst FTE 
to address our HR and program analyst deficit, and an accounting 
technician FTE to bring our basic accounting and other fiscal 
responsibilities on staff. The cost of these FTE's will be partially 
offset by a reduction in contractor expenses.
                               conclusion
    There are a number of other requests in our budget submission which 
we commend for your consideration. On behalf of the Board of Directors, 
the appointees and the entire staff of the Office of Compliance, I 
again thank you for the Committee's support of the efforts of this 
agency; I recommit to you that we are dedicated to using every dollar 
of taxpayer money carefully and efficiently; and I respectfully request 
that the Committee respond favorably to the Office's fiscal year 2007 
budget request. We will be happy to respond to any questions which you 
may have.
                  appendix--the congressional mandate
    The Office of Compliance was established to administer and enforce 
the Congressional Accountability Act of 1995, 2 U.S.C. 1301, et seq. 
The Congressional Accountability Act applies 12 workplace, employment, 
and safety laws to Congress and other agencies and Instrumentalities of 
the legislative branch. These laws include: the Occupational Safety and 
Health Act of 1970; the Federal Service Labor Management Relations Act; 
Title VII of the Civil Rights Act of 1964; the Americans with 
Disabilities Act; the Rehabilitation Act of 1970; the Family Medical 
Leave Act; the Fair Labor Standards Act; the Age Discrimination in 
Employment Act; the Worker Adjustment and Retraining Notification Act; 
the Employee Polygraph Protection Act; and veteran's employment and 
reemployment rights at Chapter 43 of Title 38 of the U.S. Code. The Act 
was amended in 1998 to apply the Veterans Employment Opportunities Act.
    Currently, the Office has regulatory responsibility for employers 
in the legislative branch employing approximately 30,500 employees. The 
Office is also charged by the Act to make recommendations to Congress 
as to whether additional employment and public services and 
accommodations laws should be made applicable to the employing offices 
within the legislative branch.
    Under the direction of the Executive Director, the Office 
administers a dispute resolution system to resolve disputes and 
complaints arising under the Act, and carries out an education and 
training program for the regulated community on the rights and 
responsibilities under the Act. The General Counsel has independent 
investigatory and enforcement authority with respect to certain of the 
laws administered under the Act and represents the Office in all 
judicial proceedings under the Act.
                    the board of directors and staff
    The Office has a five-member, non-partisan Board of Directors 
appointed by the Majority and Minority Leaders of both houses of 
Congress. The Board appoints the executive leadership of the agency, 
acts as an adjudicative body in reviewing appeals by parties aggrieved 
by decisions of Hearing Officers on complaints filed with the Office, 
and advises Congress on needed changes and amendments to the Act. The 
Board members, who serve five-year terms, come from across the United 
States, and are chosen for their expertise in the laws administered 
under the Act. In a major vote of confidence in the current leadership 
of the Office, Congress enacted legislation in 2004 and in 2005 
granting authority to the bipartisan Congressional leadership to 
appoint the current chair and members of the Board to a second 5 year 
term in office, and to the Board to appoint the executive leadership of 
the Office to second five year terms.
    The Office of Compliance currently has 17 full-time employees and 
pays the part-time Board members on a ``when-actually-employed'' basis. 
Our staff performs a multiplicity of functions, including: 
administrative dispute resolution, occupational safety and health and 
disability access enforcement, labor relations regulatory activity, 
education, Congressional relations, professional support for the Board 
of Directors, and general administrative and fiscal functions. The 
Office performs the functions of multiple agencies in and for the 
Executive Branch, including but not limited to, the Equal Employment 
Opportunity Commission, Occupational Safety and Health Administration, 
Occupational Safety and Health Review Commission, and the Federal Labor 
Relations Authority. The Office regularly contracts for the part-time, 
as-needed services of approximately 30 other individuals as mediators, 
Hearing Officers, and safety and health investigators. The Office's 
senior full-time safety and health investigator is on permanent detail 
from the Department of Labor's Occupational Safety and Health 
Administration.
                      biennial osh-ada inspection
    In the fiscal year 2006 budget, Congress provided substantial 
additional funding to permit the Office of the General Counsel to meet 
the statutory Occupational Safety and Health mandate to examine all 
legislative branch facilities during the 109th Congress biennial cycle 
of inspections. The total amount of covered premises in the 
metropolitan Washington region is in excess of 17 million square feet. 
The Office is intensely engaged in the implementation of the biennial 
inspection regimen, and continues to carry out the GAO recommendation 
that the inspection program include interactive and collegial 
involvement on the part of the affected agencies.
    As part of the revamped inspection regimen, the Office is now 
utilizing a recently installed electronic tracking and report system 
for OSH inspections and enforcement, and has adopted a widely 
recognized risk assessment code (RAC) to classify all hazards found to 
exist in the ongoing inspections.
                   more consultation and collegiality
    GAO also recommended that ``OOC should establish congressional and 
agency protocols . . . between the Congress, legislative branch 
agencies, and OOC on what can be expected as OOC carries out its 
work.'' (GAO Report, Introduction) The Office of Compliance continues 
to develop new approaches to OSH and other regulatory activities which 
involve greater consultation, coordination, and transparency in dispute 
resolution, and in investigatory and enforcement activity. This effort 
is time intensive and requires partnerships with employing offices and 
employees and a concomitant educational and training initiative to 
improve management and employee understanding of best practices. These 
activities are focused on fostering more cooperative efforts at 
achieving compliance with standards but they do not negate the 
statutory mandate to enforce the law.
                      strains on agency resources
    In last year's budget request, this Office highlighted the drastic 
under-resourcing of the agency's OSH inspection and enforcement 
responsibility. We thank the Committee for its leadership in 
significantly improving the level of resources we are able to employ in 
meeting the OSH challenge.
    In this budget, the problems are less evident to outside 
stakeholders, but no less urgent with regard to the Office's ability to 
carry out its mission. We are requesting three FTE's to address chronic 
major shortfalls in our administrative support capabilities in IT and 
equipment maintenance, fiscal controls; and to address the emerging 
need for more administrative support for the much larger OSH inspection 
activities. The Office of Compliance continues to operate with three 
fewer FTE's than it was provided when the agency began operations in 
1996. However, our responsibilities and statutory missions have not 
diminished. We respectfully submit that restoration of three FTE's will 
greatly assist the Office in continuing to address the recommendations 
of the 2004 GAO Report, and better serving our customer community.
    We are also asking for funds to better focus our education and 
outreach efforts, and a number of other inexpensive enhancements to 
many of our program efforts which nevertheless provide significant 
added value to the quality of workplace life on Capitol Hill.

    Senator Allard. Ms. Robfogel.

                  SUMMARY STATEMENT OF SUSAN ROBFOGEL

    Ms. Robfogel. I will emphasize only one point because I 
know there are, as you say, there are many questions that you 
have with respect to some of the safety violations that have 
been discussed so extensively in the last few weeks.
    I wanted to take this opportunity to thank you for the 
support that you provided to the Office during the 2006 year. 
As a result of the increased funding that we received last 
year, the Office has been able to engage in a much rigorous 
inspection of the entire congressional campus. And although we 
are only 63 percent completed with respect to our inspection 
with the 109th Congress, we have already identified 10,000 
safety violations.

                           PREPARED STATEMENT

    What our emphasis needs to be as we go forward is to be 
sure that we have the funding to deal with abatement and 
enforcement and to help the various constituents who are part 
of the congressional campus to keep their building safe, and to 
learn how to recognize safety violations when they see them.
    We want to keep doing the job that we are trying to do, to 
keep people who work on the Hill safe and to keep visitors who 
come to the Hill safe. You have gone a long ways toward helping 
us do our job. We need a little bit more support going forward.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Susan Robfogel

    Good morning, Mr. Chairman and members of the Committee. I 
am Susan Robfogel. As Chair of the Board of Directors of the 
Office of Compliance, I am honored to be here today to join 
Tamara Chrisler in testifying on the Office's fiscal year 2007 
budget request. I want to take this opportunity to express my 
appreciation and that of the rest of the Board for the 
increased funding appropriated to the Office of Compliance in 
fiscal year 2006 for purposes of completing a comprehensive 
safety and health biennial inspection. I can assure you that 
the Office is on track with this vital effort.
    Mr. Chairman, the Board would like to commend the work of 
the entire staff in achieving so many goals in the past few 
years. We now have a Strategic Plan with a performance line of 
sight to individual work plans; we have established or are 
developing protocols to enable us better to partner with the 
agencies for which we have employment law and safety and health 
jurisdiction; and we have worked with this Committee, and GAO 
to improve and systematize our business practices in budget, 
performance measures, and strategic planning.
    This record of improvement is the result of the hard work 
and dedication of the four statutory officers who are appointed 
by the Board, and the dedicated staff they have assembled. 
While the Board wholeheartedly supports all of the budget 
requests, we wish to underscore the need which the agency has 
to increase its FTE complement to 20. Right now the FTE 
complement of 17 is two less than the 19 the Office was 
afforded in fiscal year 1998. Over the past several years, the 
agency has concentrated its available resources on enhancing 
its service delivery, particularly in the OSH area. 
Consequently, there is a compelling need for basic operational 
support staff. I can assure you that the Office of Compliance 
will continue to make the most efficient use of every dollar 
which is appropriated by this Committee.
    We are available to address any questions.

    Senator Allard. Thank you for your testimony.
    I would like to follow up on your request. You have 
requested an 11-percent increase over the current year. You 
gave us some brief explanation. I would like to go over and 
make sure I understand that.
    Ms. Chrisler. Yes.
    Senator Allard. Those increases are in the area of three 
additional full-time employees. It looks to be pretty much on 
the management side, a program manager, an accounts payable 
technician, and then a management analyst. Is that correct?
    Ms. Chrisler. That is correct, for the General Counsel's 
Office.
    Senator Allard. And what is your priority on those? Did you 
give those in the way of priority to us?
    Ms. Chrisler. Thank you. The management analyst position is 
a significant position. And that is a very significant 
position.
    Senator Allard. Okay.
    Ms. Chrisler. The accounts payable position, what we have 
now, Senator, is a very small human resource, as well as budget 
staff, extremely small. And we are contracting some of those 
services out now, which are core functions of our office. And 
to, frankly, be more efficient and more effective in managing 
our office, that accounts payable position is significant, as 
well.
    Senator Allard. I see.
    Ms. Chrisler. The program manager-type position for our 
office would be split between managing programs, managing 
projects, as well as carrying out some of the human resource 
functions in the Office, as well. So although all three 
positions are desperately needed by the Office, we are able to 
fund two of them.
    Senator Allard. Well, I know it is difficult to set 
priorities, and that is a tough question. I respect and thank 
you for your straightforward response.
    Ms. Chrisler. Thank you, sir.
    Senator Allard. Now the Capitol Visitor Center, that is 
another reason for that increase?
    Ms. Chrisler. Yes, it is, Senator.
    Senator Allard. Okay. Now, are there any other factors that 
I did not pick up on in your testimony or maybe you did not 
have in your testimony that is contributing to the 11-percent 
increase that you are requesting?
    Ms. Chrisler. There are a number of items that we are 
requesting assistance for. The main ones are for the full-time 
equivalent positions, the baseline survey, the case tracking. 
What is significant and of main importance for us is to be able 
to maintain our progress that we have made so far. The Office 
wants to be able to sustain itself. And the Office is 
requesting assistance to be able to grow with the surrounding 
circumstances.
    There are many circumstances that are getting greater 
attention and requiring greater responsibility and greater 
inspection and management by our Office. And we are asking your 
support in general for us to be able to move with and maintain 
the progress that we have made and also continue to make 
progress, because as the campus moves and grows and as 
incidents and issues and circumstances come to the attention of 
the Office, we want to be in the position to provide the 
services and resources that are necessary.

                 BIENNIAL SAFETY AND HEALTH INSPECTIONS

    Senator Allard. How would you evaluate your biennial health 
and safety inspection of the Capitol, including the House and 
Senate facilities?
    Ms. Chrisler. The progress on that is going very well. As 
Chair Robfogel mentioned, we are 63 percent into that process. 
And along with me this morning is General Counsel Eveleth, who 
maintains overall management of that program. And I would like 
to defer to him to add additional comments to that question.
    Senator Allard. Okay.
    Mr. Eveleth. Yes, Mr. Chairman. We have made significant 
progress over the past years as a result of the additional 
funding that we received for fiscal year 2006. In our 108th 
Congress biennial inspection, we were only able to cover 25 
percent of the square footage, that is, of the approximately 16 
million-plus square footage. There will be an additional 
700,000 once the visitor center comes online. But we were only 
able to do 25 percent in the last biennial.
    At this point, as has been said, we have covered 63 
percent. And we anticipate completing the biennial inspection 
for the 109th Congress by September of this year. So that is a 
big step forward.
    Senator Allard. It is.
    Mr. Eveleth. As a result of that, we have identified, as 
was indicated, something like 10,000 violations, as opposed to 
our last inspection, where we discovered 2,600 violations. That 
number, in turn exceeded the biennial inspection for the 107th 
Congress where we identified something like 360 violations. 
That does not mean it is because things have gotten worse. It 
is just that we are doing a much more thorough baseline 
inspection.
    Senator Allard. And under those violations, have you tried 
to break them down into categories?

                    FINDINGS BY RISK ASSESSMENT CODE

    Mr. Eveleth. I can tell you, I can break it down. We have a 
system which we call a RAC system. That is a risk assessment 
code system. This is common in industry, and in other 
departments. And ours is based on the Department of Defense's 
risk assessment code system.
    It is a combination of rating each hazard during the 
inspection according to the risk of injury or illness or 
potential of death. It depends upon a combination of the 
probability that an employee could be hurt and the severity of 
the illness. The RAC's are based on that. And the most serious 
RAC rating would be a risk one, and that goes to a risk five, 
which is de minimis.
    Now we ourselves do not count risks that are de minimis. We 
just do RAC one through four. And so I can tell you----
    Senator Allard. The 10,000 only includes one through four. 
It does not include five?
    Mr. Eveleth. No. We do not even record de minimis ones.
    Senator Allard. So the 10,000 would get you the RAC one, 
two, three, and four.
    Mr. Eveleth. Right. And of the RAC's, there are 20--this is 
as of today or last week--we discovered 20 RAC ones--those are 
the most serious--1,655 RAC two's; 7,681 RAC three's; and 759 
RAC four's.
    Senator Allard. What would be an example of a RAC four?
    Mr. Eveleth. A RAC four would be such things as--let us 
see. I have some examples of that. There may be some electrical 
cord hazards, some ladder hazards, broken ladder, some fall 
protection hazards. There might be a problem with fire 
extinguishers, that they are not currently inspected. There 
might be an issue about storage shelving hazards, overloaded 
shelves or something.
    Senator Allard. I have a pretty good feel where that is.
    Mr. Eveleth. Right.
    Senator Allard. And a RAC one example would be?
    Mr. Eveleth. Well, a RAC one would be--as you know, the 
tunnels would be an example of that, where there would be 
falling concrete, where there is asbestos, and things of that 
nature. A lot of electrical issues would also be a RAC one--
where a worker could be exposed to an electrical hazard.
    Senator Allard. Bare wires or something like that.
    Mr. Eveleth. Bare wires and so forth.
    Senator Allard. Okay.
    Mr. Eveleth. And when we do the RAC's, it is not a one-
size-fits-all kind of RAC. In other words, an electrical hazard 
in one situation might be a RAC one and another might be a RAC 
four, depending on the circumstances. For example, if there 
were a wet floor or something, that would heighten the risk, if 
someone were to be shocked.

FIRST OFFICE OF COMPLIANCE COMPLAINT UNDER THE OCCUPATIONAL SAFETY AND 
                               HEALTH ACT

    Senator Allard. Now I would like to proceed to one of the 
RAC ones, the one that has the most publicity at this point in 
time. That is the complaint that you filed with the Architect 
of the Capitol regarding a condition of the Capitol complex 
utility tunnels. Now this is the first time that OOC has filed 
a complaint under the Occupational Safety and Health Act. You 
have filed other complaints, but this is the first one under 
that act.
    Mr. Eveleth. That is correct.
    Senator Allard. Why did the OOC believe it necessary to 
file a complaint?
    Mr. Eveleth. Well, my predecessor, as you know, issued a 
citation back in the year 2000. And when I came on board in 
2003, my intent was to determine which were the most hazardous 
areas. And the first areas that we began to look at were areas 
that had not been inspected at all in the past. And I wanted to 
be sure what was going on there.
    And in 2005, we began, when we had additional resources 
that we did not have before, we began our inspection of the 
Capitol Power Plant tunnels and the Capitol Power Plant itself, 
because that was an area where a citation had been issued 
previously. And what we discovered in the course of that, that 
while some work had been done, in effect very little work had 
been done. That is to say, in 2000 a contractor that had been 
inspecting the tunnels under the engagement of the Architect of 
the Capitol--that contractor identified areas within the 
tunnels that needed to be fixed within 1 year, immediate 
attention, as well as other ones that had to be done within 5 
years.
    What we discovered in our inspection was--and they were 
also required to monitor the progress of those things, because 
they continued to deteriorate. Those tunnels are very hot. They 
go up to 130 degrees, some of the tunnels, and they are also 
damp. And that combination causes rust. And the rust in the 
rebar that is under the cement, it expands as a result of 
rusting. And whole sections can and have delaminated. That is, 
they have fallen down. And smaller areas have spalled. So that 
is a very serious situation. And the contractor said, ``You 
need to do these things within a certain period of time.''
    Senator Allard. Is that what the original contractor said 
in 2000?
    Mr. Eveleth. That is what the original contractor said, 
right, back in 2000. Our citation back in 2000 basically 
tracked what that contractor had found and said to fix these 
issues. Continue to monitor, fix the safety communication 
system so that people within the tunnels can notify the people 
outside the tunnels, if they have to get out, if there is an 
emergency, and also to assure that there were sufficient number 
of egress points so they could be rescued in the event of a 
collapse or injury or what have you.
    And when we went through the tunnels in June 2005, we 
discovered that the communications system, although it had 
initially been improved, was not working properly. And not all 
the areas were covered by the communications system.
    A number of the egress points had been welded shut during 
past years. And there were not--there was an insufficient 
number of egress points. And finally, they had not completed 
the repairs or made any attempt to do the repairs in most of 
the areas that had been identified by the contractor.
    We met with the Architect of the Capitol, as we do monthly, 
that is to say, representatives of the Architect of the Capitol 
and described the problem. They gave us a tentative mitigation 
plan, which we examined. And we reached the conclusion--and I 
told the Architect about this as well--we reached the 
conclusion that it was insufficient. And it was insufficient in 
at least two respects.
    In one respect, it was insufficient because insufficient 
monies were going to be reprogrammed or were going to be asked 
for in this fiscal year. I think less than $4 million was being 
requested. Whereas the contractor back in 2000 had said it will 
be at least $13 million in order to just do the concrete, to 
prevent the spalling of the concrete and things like that. So 
we knew that an insufficient amount was being requested. And 
therefore, it would not be possible to do all the repairs 
within short order.
    And the other aspect of it that was of most concern to us 
was that there were no intermediate measures that were being 
undertaken or proposed by the Architect until the full repairs 
could be made. And there was no suggestion about putting in 
netting or any other kinds of things that might be able to be 
done to protect the workers.
    And because of that, we decided that it was necessary to 
file a complaint.
    Senator Allard. Okay.
    Mr. Eveleth. I am sorry if that is an overlong answer.
    Senator Allard. No, we needed that detail. Thank you.
    The question, then, is what kind of follow up do you have? 
This has gone on for 6 years now.
    Mr. Eveleth. Right.
    Senator Allard. Well, 5\1/2\ years. I have been an 
inspector myself, and I always would say I will be back in 1 
month and see how you are doing. Why was there not that kind of 
follow up?
    Mr. Eveleth. I cannot answer that entirely, because I was 
not on duty at that time. But what I can tell you is that under 
the citation, the Architect was supposed to have completed the 
repairs during the following fiscal year.
    Senator Allard. So we were just taking the word of the 
Architect that the work had been done?
    Mr. Eveleth. No, no, sir, no. I am saying that they had a 
couple of years in order to do the work.
    Senator Allard. Yes.
    Mr. Eveleth. And then we would go back and see whether they 
had done the work.
    Senator Allard. I see.
    Mr. Eveleth. There was not a continuing reporting process. 
That is number one.
    Two, we did not have the resources, frankly, to do all the 
inspections and to follow up on all these things until--as I 
say, when I got on duty, my primary interest was to look at 
those violations and citations that looked the most serious and 
those that had not been inspected at all. And so I turned to 
that.
    Now should we have done more? Absolutely we should have 
done more. And now we are in a position to do more. And that is 
what our whole intention is to do by this RACS system, is to be 
able to identify those violations that are the most serious in 
terms of likelihood of occurrence and likelihood of injury to 
people. And that is going to be our emphasis.
    Senator Allard. And do you have a system of tracking these 
violations now within the Office of Compliance?
    Mr. Eveleth. We do now.
    Senator Allard. When did you put that into effect?
    Mr. Eveleth. Pardon me?
    Senator Allard. When did you put that into effect?
    Mr. Eveleth. We asked for that, I believe it was, for our 
fiscal year 2005 budget. And then we have been in the process 
ever since of loading into that tracking system not only our 
current inspections--that is, when the inspectors go out, they 
come back to the Office, they load it into our system, and it 
says exactly where the violation is, the RAC number, what code 
section is being violated, and when the employing office or the 
Architect will abate it. And then we analyze that data, and we 
will go back as soon as we have the information from them and 
tell them, yes, we think that is appropriate or no, you have to 
speed that process up.
    But thank goodness for that appropriation, because when you 
are talking about 10,000 violations, plus what we have found in 
earlier years, it is impossible to keep track of it without 
some kind of a solid database.
    Senator Allard. You do. And you have to prioritize.
    Mr. Eveleth. Right.
    Senator Allard. As an inspector, if I found a serious 
violation, I would say I will be back in 2 weeks or I will be 
back in 30 days----
    Mr. Eveleth. Right.
    Senator Allard [continuing]. To follow up on things. If it 
was less serious, I would say, well, I will pick it up in a 
couple of months and see how you are doing.
    Mr. Eveleth. Right.
    Senator Allard. So it seems to me that if it is a RAC one, 
it needs to be followed up a little more closely than if it is 
some other less serious violation.
    Mr. Eveleth. Absolutely. And what we do, when our 
inspectors go in and they see a RAC one situation, they 
immediately issue a notice of serious deficiency and tell them 
to fix it. And we follow up on all those RAC ones right away.
    Senator Allard. Okay.
    Mr. Eveleth. Now obviously if you have a situation like the 
tunnels, that is not something that can be fixed like that.
    Senator Allard. No. I understand that.
    Mr. Eveleth. Right.
    Senator Allard. We are doing our best to respond to that, 
by the way, if you noticed.
    Mr. Eveleth. Right. And we greatly appreciate that.
    Senator Allard. Yes.
    Mr. Eveleth. That is critical.

      COMPLAINT AGAINST ARCHITECT OF THE CAPITOL ABOUT THE TUNNELS

    Senator Allard. Apparently your office is involved in a 
legal proceeding to address the complaint with the Architect of 
the Capitol, I understand.
    Mr. Eveleth. That is correct.
    Senator Allard. What is the status of that process? And how 
do you expect it will conclude?
    Mr. Eveleth. Well, we are now in the process of--we have 
submitted position papers, both sides. The hearing officer has 
been appointed. We will be setting out our respective witnesses 
and all the pretrial stuff that goes with that.
    Senator Allard. This is a hearing procedure----
    Mr. Eveleth. That is correct.
    Senator Allard [continuing]. Using a hearing officer, not a 
full-blown court case. Is that right?
    Mr. Eveleth. Well, the process is this: A hearing officer 
is appointed by the Executive Director of the Office of 
Compliance. A full litigation proceeds with discovery and so 
forth. There is then a hearing before a hearing officer, who 
issues a report. That report then may be appealed. The results 
of his order in this case will be appealed to the board of 
directors of the Office of Compliance. And then the 
dissatisfied party may go to the United States Court of Appeals 
for the Federal Circuit. So it is an administrative proceeding 
before the Office of Compliance, but subject to appeal to the 
court.

         ARCHITECT OF THE CAPITOL PLAN TO REMEDY TUNNEL ISSUES

    Senator Allard. Now, has the Office of Compliance had an 
opportunity to review the Architect's plan that was submitted 
on April 10, to both Senator Durbin and myself to remedy the 
tunnel problems?
    Mr. Eveleth. There was an excerpt given to us, I believe, 
last week. And later last week, we asked the Architect to 
provide that to us.
    Senator Allard. That is, almost 30 days after we received 
it, it was given to you?
    Mr. Eveleth. Right. And we just received it this morning. 
So I have not had a chance to look at it yet. But we were asked 
by the Architect's Office to respond to that. But as I said, we 
just got it this morning.
    Senator Allard. Okay. I am surprised that he did not allow 
you to review that before he submitted it to the subcommittee.
    Mr. Eveleth. Well, I believe the position of the 
Architect's counsel was that because we were in litigation, 
they were not going to share that information with us, and that 
was really something that should be governed by the discovery 
under the proceedings that are now before the hearing officer.
    Senator Allard. When did the litigation get filed?
    Mr. Eveleth. February 28.
    Senator Allard. The 28th.
    Mr. Eveleth. Right.
    Senator Allard. So their immediate response is not to talk 
to you after that litigation is filed?
    Mr. Eveleth. Well, I think there could be more 
communication, yes, sir.
    Senator Allard. Yes. So you would have preferred that they 
communicated with you at least before they submitted the plan 
to us.
    Mr. Eveleth. Right.
    Senator Allard. As a consequence, we do not know how you 
really feel about that evaluation because you just got it 
yesterday.
    Mr. Eveleth. Right. Today.
    Senator Allard. Today?
    Mr. Eveleth. Right. This morning. That is correct.
    Senator Allard. You did not have a chance to review it for 
this testimony.
    Mr. Eveleth. No, I did not.
    Senator Allard. I would like to get your evaluation on that 
as soon as possible. As soon as you do get a chance to evaluate 
it, would you send it to the subcommittee as part of your 
response for this hearing?
    Mr. Eveleth. Yes, indeed.
    [The information follows:]

    As was discussed at the hearing, that report was not provided to 
the Office of the General Counsel (OGC) until the morning of the 
hearing. We are attempting to provide overall comments to the abatement 
plan itself, but also to the specific questions you posed. This is 
based on the assessment of the members of our staff and our contract 
safety consultants as well as a recent summary briefing by the staff of 
the Architect of the Capitol on May 11, 2006, respecting the AOC plan.
    The Architect's plan raises complex technical questions that this 
office will need to address with respect to the adequacy of the 
measures proposed to be undertaken, both in the short and long term, to 
correct the hazardous conditions. This will require the services of 
structural engineering firms and other experts in order to make these 
assessments. Since this office does not presently have on hand the 
necessary technical expertise to evaluate the AOC plan, it is in the 
process of interviewing experts for these purposes. Accordingly, this 
should be considered to be a preliminary report. With this caveat, 
however, the OOC is fully supportive of the emergency supplemental 
budgetary support to fund the AOC plan.
    We met with representatives from the AOC's safety, engineering, and 
tunnels staffs on May 11, 2006, to provide further explanation of the 
report. The AOC's report (on page 42) provides immediate and mid-term 
estimates of costs exceeding $117 million. While that estimate provides 
a breakdown of costs for each tunnel for fiscal year 2006, 2007, and 
2008, it does not provide a similar breakdown for each program area 
(i.e., asbestos abatement, communications upgrade, egress improvements, 
etc.). At the meeting with the AOC officials, we became aware that 
additional financial sheets existed that would provide this 
information. The AOC provided those figures to the OGC on May 16, 2006, 
and they are currently being reviewed by this office.
    The Architect's abatement plan provides a plan of action, not only 
for the conditions identified in the Complaint, dated February 28, 2006 
(falling concrete, emergency communications, and emergency egress), but 
also for those conditions identified in Citations 60 and 61 (asbestos 
and heat stress).
Comments on the Abatement Plan
    At our meeting with the AOC on May 11, 2006, Susan Adams, Director, 
Safety, Fire and Environmental Programs for the AOC, noted that the 
abatement plan was developed by the AOC in a 10-day period immediately 
following their March hearings before the Appropriations Subcommittee 
and in response to specific requests from Senators Durbin and Mikulski. 
This fact raises two concerns. First, the Report indicates that even 
though the Architect was aware of the serious conditions in the tunnels 
as a result of Citation 24 issued in CY 2000 and the repeated inquiries 
from OOC inspectors on behalf of the tunnels workers during the 108th 
inspections, the original fiscal year 2007 budget request from the AOC 
identified only $1.8 million to be reprogrammed in fiscal year 2006 and 
$1.75 million in fiscal year 2007 for the correction of the hazards and 
tunnel maintenance. That is a very small percentage of the amount now 
identified as necessary to correct these significant hazards. Second, 
we are concerned about the accuracy of both the monetary and time 
allocations assessed for the individual elements of the abatement plan. 
While we are certain that the AOC made every reasonable and good faith 
efforts to prepare reasonable estimates, past experience would indicate 
that estimates developed under such conditions may not necessarily 
prove to be accurate either in terms of the length of time or the 
amount of resources it will take to effectively abate the hazards, 
especially since the contracted for condition assessments have not been 
completed, and the full extent of remedial measures necessarily have 
not been determined. Therefore, both interim and long-term measures 
proposed by the AOC plan may be inadequate to fully protect the tunnel 
workers, and may consequently place them at further risk.
    In addition, we believe that parts of the AOC's abatement plan do 
not provide adequate interim protective measures. For example, one 
interim measure involves the Construction Management Division of the 
AOC (now Construction Division) conducting visual inspections in order 
to identify those areas where the risk of falling concrete is most 
severe. Prior consultant reports indicate that visual inspections may 
not adequately identify all areas of potential delamination and 
spalling. The CD is tasked with removing concrete sections at risk of 
falling. This is a cumbersome and time consuming process. Workers must 
erect structures to protect the piping system from falling concrete 
pieces, and the small, confined spaces make access to the spalling 
concrete difficult. Therefore, it is unlikely that these interim 
measures can be completed by the end of the calendar year as estimated 
by the AOC. The longer this process takes, of course, the longer tunnel 
workers and others will be exposed to this serious hazard. Additional 
information should be sought from the AOC to ascertain whether 
sufficient resources are being dedicated to this task.
    Under the AOC plan, hazards in the Y tunnel will be among the last 
to be permanently fixed. The study which will advise whether the Y 
tunnel should be replaced or repaired is scheduled to be completed by 
the end of fiscal year 2006. However, if the recommendation is made to 
replace the tunnel, then another study will be required to determine if 
other options, such as alternative sources of power for the buildings 
serviced by the Y tunnel, are available. That study is not anticipated 
to be completed until at least the middle of 2007. Again, because of 
the lack of sufficient egress points, the high heat levels, and the 
advanced state of deterioration in this tunnel, we are concerned about 
the adequacy of interim measures to protect workers using this tunnel.
    In the abatement plan, the AOC requests approximately $14 million 
for complete asbestos removal in the tunnels and the installation of 
new insulation. The OOC endorses this approach in theory. GAO 
accurately testified to the Appropriations Subcommittee on April 27, 
2006, that the industry standard calls to leave asbestos in place, 
unless it is going to be subject to further damage, or access is needed 
for maintenance. During that hearing, however, neither GAO nor the AOC 
discussed a principal justification for complete removal of asbestos in 
additional areas of the tunnels where the steam pipes generate 
excessive heat levels that adversely affects the integrity of the 
tunnels and the health and safety of tunnel workers. These adverse heat 
conditions only serve to exacerbate the problems already present 
causing further deterioration and spalling of the concrete. We are 
informed by the AOC that by replacing the current asbestos coverings 
with other types of insulation, the temperatures in tunnels could be 
significantly reduced. Therefore. the hybrid approach of removing only 
damaged or friable asbestos and the asbestos found in the excessively 
hot areas, therefore, may not be effective from either an abatement or 
cost effectiveness standpoint. Accordingly, we believe that before a 
decision is made with respect to adopting the hybrid approach this 
issue should be carefully studied.
    Of particular concern is the fact that the abatement plan provides 
no mechanism for the sharing of information with the Office of 
Compliance which is responsible for assuring that the violations set 
forth in the underlying citations are fully abated. The General Counsel 
is responsible for monitoring abatement. In order to provide 
appropriate oversight and evaluation of the effectiveness and progress 
of the abatement measures, the AOC must make continuously available 
full access to the information produced by the AOC and its contractors. 
This is an area where this office can be of assistance in providing 
independent analyses and assessments for the Subcommittee.
Comments to Specific Questions
    We were asked to address those priorities that are most urgent and 
those that could be dealt with at a later time.
    While all of the conditions addressed in our Complaint and 
Citations 60 and 61 are significant, in our judgment the highest 
priority must be given to those hazards that create the most serious 
and imminent risk of harm. First and foremost are those measures that 
protect the tunnel workers from falling concrete. Second, is protection 
from friable asbestos exposure. Finally, are those risks that are 
exacerbated as a result of the heat stress.
      Asbestos Issues in the Tunnels and Vaults As of May 2, 2006
A.What has the AIR SAMPLING shown so far?
    1. We have reviewed 79 ``valid'' sample results provided to us by 
the AOC.
  --``Valid'' means samples that were not overloaded, voided or field 
        blanks.
    2. Nine (9) of these sample results exceeded 0.1 fiber per cubic 
centimeter; however, only one employee's exposure exceeded 0.1 fiber/cc 
after the results were adjusted for time.
  --0.1 fiber/cc is the OSHA permissible exposure limit (``PEL'') for 
        an 8-hour time-weighted average (``TWA'').
  --``Adjusted for time'' means time-weighted or averaged for an 8- 
        hour period.
    3. The one employee whose ``time-weighted'' sample exceeded 0.1 
fiber/cc had a TWA exposure of 0.30 fiber/cc averaged from the two (2) 
samples of his exposure for that day.
  --That employee was an AOC inspector, but it is not clear from the 
        monitoring records what he was doing that produced a much 
        higher exposure level.
    4. That employee's 30-minute exposure (3.49 fiber/cc) exceeded the 
excursion limit.
  --The excursion limit (``EL'') is another OSHA PEL for asbestos; the 
        EL limits 30-minute exposures to 1.0 fiber/cc.
    5. The documentation records did not have sufficient detail to 
explain why this worker's exposure was significantly greater than the 
other employees' sample results.
    6. The OOC performed five samples on Tunnel Shop employees last 
week.
  --The ``preliminary'' results for both time-weighted averages and 30-
        minute excursions have been less than the OSHA PELs.
  --``Preliminary'' means we have received facsimile results from the 
        OSHA laboratory but do not have the formal confirmation of the 
        results.
    7. The OOC monitoring for the Tunnel Shop is not complete.
  --During the sampling done last week, Tunnel Shop employees were 
        performing escort duties, tracing circuits and walk-through 
        duties.
  --These duties would not be expected to disturb the asbestos and 
        create large exposures.
  --The OOC intends to sample Tunnel Shop employees during repairs and 
        when they use equipment likely to disturb asbestos.
  --These tasks occur intermittently; therefore, it might take some 
        months before the OOC's sampling has been completed.
B. Is the personal protective equipment (PPE) used in the tunnels 
        adequate?
    1. From the sample results done so far, so good. The ``half-face'' 
respirators and Tyvek coveralls (which also cover the shoes) provide 
adequate protection for these levels.
  --``Half-face'' respirators seal across the top of the nose and don't 
        cover the eyes.
  --``Full-face'' respirators seal across the forehead and shield the 
        eyes.
    2. OSHA requires different types of respiratory protection for 
higher exposure levels.
  --Half-face respirators may be used if exposures don't exceed 10 
        times the PEL.
  --The highest exposure (time-weighted and excursion) is 3 to 3.5 
        times the PEL.
    3. If future samples (done during operations that disturb asbestos 
more than the samples taken to date) exceed 10 times the PEL, full-face 
respirators would need to be used.
  --Higher levels would require even more protective respirators.
  --If levels exceed 10 times the PEL, then (at least) full-face 
        ``powered-air purifying'' would be needed.
  --Levels higher than 100 times the PEL would require supplied-air 
        respirators operated in the pressure demand mode.
  --The highest levels (more than 1,000 times the PEL) would also 
        require an auxiliary self-contained breathing apparatus (often 
        called an ``escape bottle'').
C. What DECONTAMINATION is required?
    There are two sets of requirements for decontamination.
    1. One set is for workers who maintain the tunnels and the 
equipment within the tunnels.
  --Hygiene requirements for these workers are found in the General 
        Industry Standard [Sec. 1910.1001].
    2. A second set of requirements for hygiene is found in the 
Construction industry standard [Sec. 1926.1101]
  --The definition of construction work [Sec. 1926.32(g)] lists 
        ``construction, alteration, and/or repair.''
  --Workers who are abating the asbestos, performing cleanup associated 
        with abatement activities, or performing construction, 
        alterations and/or repair must comply with the Construction 
        Industry requirements.
D. What decontamination does the general industry standard require for 
        asbestos?
    The General Industry requirements for ``hygiene facilities and 
practices'' lists the following required elements for employees who are 
exposed above a TWA or EL:
  --Clean change rooms must be provided with separate storage areas to 
        prevent street clothes from being contaminated from protective 
        clothing and equipment.
  --Showers must be used, at least at the end of the shift.
  --Employees required to shower must not wear clothing or equipment 
        outside the workplace during the shift.
  --Lunchroom facilities with positive pressure, filtered air supply 
        must be readily accessible to employees.
  --Employees must wash their hands and faces before eating, drinking 
        or smoking.
  --Employees must not enter lunchroom facilities with protective work 
        clothing or equipment unless surface asbestos fibers have been 
        removed.
E. What decontamination is required by the construction industry 
        standard?
    1. The Construction Industry standard [Sec. 1926.1101(j)] has 
different ``hygiene facilities and practices'' required for different 
types of asbestos work.
    2. The most stringent requirements are for ``large Class I'' jobs.
  --``Class I'' work involves removing thermal system insulation or 
        surfacing asbestos-containing materials or presumed asbestos-
        containing materials (``ACM/PACM'').
  --``Large jobs'' involve more than 25 linear feet or 10 square feet 
        of thermal system insulation or surfacing ACM/PACM.
    3. The less stringent requirements are for ``small'' Class I jobs, 
and for Class II and Class III jobs where exposures exceed a PEL or 
where exposures have not been determined.
  --``Small jobs'' involve less than 25 linear feet or 10 square feet 
        of thermal system insulation or surfacing ACM/PACM.
  --Class II work involves removing ACM other than that in Class I. 
        Examples include: wallboard, floor tile, roofing, siding, and 
        mastics.
  --Class III work involves repair and maintenance operations where ACM 
        is likely to be disturbed.
    4. Employees doing Class IV work in a regulated must comply with 
the hygiene practices of the other employees in the area.
  --Class IV work during which employee contact, but do not disturb, 
        ACM or PACM, and activities to clean up dust, waste and debris 
        resulting from Class I, II and III activities.
F. What decontamination is required for ``large'' Class I jobs?
    1. Decontamination area must be adjacent to, and connected with, 
the regulated area.
    The decontamination area must have an equipment room, shower, and 
clean room in series.
  --Employees must enter and exit through the decontamination area.
    2. Equipment rooms must have impermeable, labeled containers to 
contain and dispose of contaminated PPE.
  -- Employees do not remove their respirators in the equipment room.
    3. A shower area must be adjacent to equipment room and the clean 
room, unless the employer can demonstrate that this location is not 
feasible.
    4. Where the shower area is not adjacent to the equipment room, 
before proceeding to the shower, employee must either--
  --remove contamination from their work suits using a HEPA vacuum, or
  --remove contaminated work suits and don clean work suits.
    5. A clean change room must be equipped with storage containers for 
each employee.
  --Employees must change into street clothing in the clean change 
        rooms, or in a clean change area if a room adjacent to the 
        equipment room is not feasible.
  --Upon entering a regulated area, employees must don PPE and 
        respirators in the clean room or area.
    6. Lunch areas on site must be in areas where exposures are less 
than the PELs.
G. What are the decontamination requirements for ``small Class I'' 
        jobs, or ``Class II'' or ``Class III'' jobs where exposures 
        either exceed a PEL or haven't been determined?
    1. An equipment room or area must be established adjacent to the 
regulated area, covered by an impermeable drop cloth on the floor or 
horizontal working surface.
  --The room or area must have impermeable, labeled containers to 
        contain and dispose of contaminated PPE.
  --Area must be of sufficient size for cleaning equipment and removing 
        PPE without spreading visible contamination beyond the area.
  --Work clothing must be cleaned with a HEPA vacuum before it is 
        removed.
  --All equipment and surfaces of containers must be cleaned before 
        removing them from the equipment room or area.
  --Employees must enter and exit the regulated area through the 
        equipment area.
H. What have our inspectors found regarding decontamination procedures?
    1. During an inspection, one of our inspectors observed a briefing 
to Tunnel Shop personnel from a safety contractor (Mr. Hedges from 
``The Safety Company'') on AOC decontamination policy.
  --The stated goal was to use some General Industry and some 
        Construction Industry requirements; that goal would not produce 
        a compliant policy.
  --The briefing resulted in a discussion of end-of-day showering 
        versus showering to prevent contamination from spreading into 
        other campus buildings.
  --The only decontamination that our inspectors observed was the 
        removal of PPE, which had been worn over the work clothes that 
        are taken home for cleaning.
I. What information is required in monitoring records?
    1. Monitoring records must include the following information 
[Sec. 1910.1001(m)(1) and Sec. 1926.1101(n)(2)]:
  --The date of measurement;
  --The operation involving exposure to asbestos which is being 
        monitored;
  --Sampling and analytical methods used and evidence of their 
        accuracy;
  --Number, duration, and results of samples taken;
  --Type of respiratory protective devices worn, if any; and
  --Name, social security number and exposure of all employees whose 
        exposure are represented.
    2. The two required items that we have found to be of concern in 
the past are:
  --The description of the operations lack sufficient detail to 
        determine the potential sources and pathways of exposure.
    --For example, there is no information associated with the single 
            employee whose exposure is 3 times the PEL to offer an 
            explanation as to why both of his sample results on that 
            day were much higher than the others.
  --All of the employees whose exposure is represented by a sample are 
        not documented.
    --For example, the descriptions that AOC provided indicated one or 
            two people were doing the same operations in the same area 
            and, presumably, their exposures would be similar. The 
            names of these employees, however, are not identified in 
            the records.

    Senator Allard. Thank you. Now, rather than both your 
office and the AOC spending a lot of resources in litigation, I 
am interested in focusing on results wherever possible. Can the 
Office of Compliance work cooperatively with the Architect to 
come up with appropriate remedies to this, or has this 
litigation step made that impossible?
    Mr. Eveleth. No. I would certainly prefer to do it that 
way. I think that is really what should be done. I think we 
should be working--we do work--we do meet with the Architect 
monthly on other matters, as well. And we have worked fairly 
cooperatively with them. And I do not see why it could not be 
done in this instance. I also think that we could be working as 
well with the Government Accountability Office (GAO), because 
we know that they are involved in this, as well. And I would 
think that the combined resources of all of us--and as I have 
said before, we all lay our cards out on the table, because 
this is one entity, this is the legislative branch. This is not 
x corporation versus something or other. This is one entity, 
and I look forward to working with the Architect and GAO, if at 
all possible, in this.
    Senator Allard. I think one thing that would help us in 
working with him is to set priorities of those items that are 
most urgent to take care of and those that could be dealt with 
at a later time. We tried to work that out with our emergency 
supplemental request. But I think at some point in time we will 
ask you that question, and the Architect. So when you are 
discussing back and forth with one another, that would be an 
important helpful response for this subcommittee.
    Mr. Eveleth. We would be certainly pleased to do that. And 
that is what we are trying to do.

  OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION APPROVED METHODS FOR 
                            ABATING ASBESTOS

    Senator Allard. Very good. Now the Architect of the Capitol 
testified last week that they were using Occupational Safety 
and Health Administration (OSHA) approved methods. From what 
you understand, are they using OSHA approved methods or not, or 
do you need to review the plan before you respond to that?
    Mr. Eveleth. Is this with respect to asbestos?
    Senator Allard. Yes. That is on the decontamination 
procedures.
    Mr. Eveleth. Right. Right. Yes and no. We have reviewed 
some of the samples that we were provided and the data that 
accompanied that. I do not think that we received all the data 
yet. And in addition, we are also doing some asbestos testing 
ourselves, as an office. There are certain requirements that 
are set out under the OSHA regulations. And there are two 
problems that we are seeing now, and one is that there is a 
lack of a description of the operations, adequate description 
of the operations, that the tunnel workers, or whoever it is 
that is in the tunnel, could be the CMD people, as well as the 
tunnel workers who are doing work in the tunnels.
    And there is a lack of sufficient detail to determine what 
it is that they are doing. That is very important in order to 
make a determination about whether the levels of asbestos 
exceed the standards. Because you could just be walking through 
the tunnel, and it is not--you are not--if you are not engaged 
in your usual activity, you are not in a position to judge what 
the degree of risk is.
    And this is very important because the amount of protection 
that you are required to have, in terms of face masks and other 
things like that, come into play, depending on whether or not 
you are exceeding the exposure levels or not. If you exceed 
them greatly, then you need different kinds of masks than you 
would need if you are only exceeding it----
    Senator Allard. If I remember his testimony, he talked 
about a half face mask----
    Mr. Eveleth. Right.
    Senator Allard [continuing]. As opposed to a full face 
mask.
    Mr. Eveleth. There are full face masks there. And there are 
others, as well.
    Senator Allard. Do you think there might be a need for a 
full face mask?
    Mr. Eveleth. It would depend on the degree of exposure to 
asbestos.
    Senator Allard. Okay.
    Mr. Eveleth. And if there is a great deal, then you need a 
full face mask. And if there is even more than that, then you 
need something that actually pumps air, oxygen, into the mask 
and so forth.
    Senator Allard. So you are not sure that they are complying 
with OSHA approved methods at this point. That is the bottom 
line. Is that correct?
    Mr. Eveleth. I think that would be an accurate way of 
putting it. And also, there are issues, I think, that involve 
decontamination, that is to say, whether they provide a clean 
room for people to take off their work clothes, if there may be 
fibers of asbestos on it. There are certain requirements with 
regard to taking a shower before they go out of the area and so 
forth and so on. And some of those are still questionable.
    Senator Allard. Well, when you review his report that you 
just received----
    Mr. Eveleth. Yes.
    Senator Allard [continuing]. Keep that question in mind. If 
you could give us a more complete answer back, we would 
appreciate that.
    Mr. Eveleth. Okay. Happy to.
    [The information follows:]

    Question. Does the AOC follow OSHA-approved methods with 
regard to asbestos, in terms of personal protective equipment 
and decontamination procedures?
    Answer. The type of personal protective equipment (PPE) 
that is required depends on the exposure level. For example, if 
the level of exposure does not exceed 10 times the permissible 
exposure limit (PEL), half-face mask respirators may be used. 
The limited sample data available to date shows the highest 
exposure is 3 to 3.5 times the PEL. If this were the highest 
exposure, then half-face mask respirators would be adequate. 
If, however, future samples were taken during operations that 
disturbed asbestos more than the samples taken to date, and the 
samples exceeded 10 times the PEL, full-face mask respirators 
would be required. See Asbestos Issues in the Tunnels and 
Vaults, B.1. below. Because we currently do not have sufficient 
data to ascertain whether the PPE now used in the tunnels is 
adequate, we cannot definitively determine the amount of 
asbestos to which workers are exposed in the course of 
performing their usual duties.
    With regard to decontamination procedures, based upon 
limited inspection, it did not appear that the decontamination 
procedures followed by the AOC in April 2006 were fully code-
compliant. As discussed more fully in Asbestos Issues in the 
Tunnels and Vaults, pp. 6-8, below, the OSHA General Industry 
Standard that applies to workers who maintain the tunnels and 
equipment within the tunnels sets forth specific protective 
measures for employees who are exposed to asbestos levels above 
the PEL. These include providing clean changing rooms with 
separate storage areas to prevent street clothes from being 
contaminated from protective clothing and equipment, showers, 
and limitations upon workers wearing protective equipment in 
areas outside the workplace. A second set of requirements is 
found in the Construction Industry Standard. We understand from 
recent discussions with the AOC that it will be revising its 
decontamination procedures to bring them into compliance with 
OSHA requirements.

                              AIR SAMPLING

    Senator Allard. Now, unfortunately, the Architect of the 
Capitol has not consistently and systematically sampled the air 
in the tunnels for the presence of asbestos. And as a result, 
we have no documentation on what exposure there may have been 
in the past. Is AOC currently using appropriate methods of 
sampling? Can you answer that question?
    Mr. Eveleth. I would prefer, if I could, to defer to submit 
this afterward, because I would rather use the knowledge of my 
safety experts on that. And they could give you a much more 
detailed and----
    Senator Allard. That would be fine.
    Mr. Eveleth [continuing]. Precise answer. Because I am a 
lawyer, as you know, and----
    Senator Allard. Okay. I will give you some time to do that. 
I am wondering is it unreasonable to request that you respond 
back to our concerns within 10 days?
    Mr. Eveleth. I think we could certainly do that.
    Senator Allard. Okay. Well, we will expect it in 10 days. 
If you cannot, if you would notify the subcommittee----
    Mr. Eveleth. I will do so.
    Senator Allard. I would appreciate that.
    Mr. Eveleth. Right.
    [The information follows:]

    Question. Is the AOC currently using appropriate methods of 
sampling the air in the tunnels for the presence of asbestos?
    Answer. Sampling asbestos correctly necessitates collecting 
samples under all several scenarios, from those with the most 
exposure risk to those with the least. This includes taking 
samples under circumstances under which asbestos may be 
disturbed and become airborne. In our discussions with the AOC, 
it appears that it recognizes deficiencies in the methods it 
has employed in taking asbestos samples. Specifically, there 
are too few samples, taken under circumstances that are the 
least likely to disturb the asbestos, and the monitoring 
records lack sufficient detail to determine potential sources 
and pathways of exposure. For example, the monitoring is 
unrepresentative because the samples we reviewed were not taken 
when employees were performing duties such as performing 
repairs or using equipment likely to disturb asbestos and 
create greater exposures. Specific details follow in Asbestos 
Issues in the Tunnels and Vaults, A. 6&7 & I, below.

                     DISTANCE BETWEEN EGRESS POINTS

    Senator Allard. With respect to the new utility tunnel for 
the Capitol Visitor Center, we had some discussion on that in 
our last hearing as to the appropriate travel distance between 
egress points in such tunnels. Now that is a 750-foot tunnel 
that has no escape hatches. Is there a safety code that 
mandates what the distance should be?
    Mr. Eveleth. Yes, there is. And I would--let me give you, 
if I may, a brief response to that. And I will also supplement 
that, if I may. But it is my understanding, after speaking to 
our safety experts is that yes, there is a requirement. And as 
we understand it, the distance, there should be an exit at 
least every 800 feet, which means--in other words, there would 
be a 400-foot travel distance for an employee to get to an 
exit. It is every 800 feet if the tunnel is fire sprinkler 
protected. In other words, you get a greater distance if there 
is a sprinkler in there. If there is not----
    Senator Allard. Is that tunnel that was just constructed 
fire sprinkler protected?
    Mr. Eveleth. We have not inspected that. I do not know the 
answer to that. But I do know that that is the requirement. In 
other words, there would be 600 feet between exits if it is not 
fire sprinklered. It is 800 if it is fire sprinklered.
    Senator Allard. I see.
    Mr. Eveleth. So that in this instance, it is assuming that 
it is not fire sprinklered. It would appear--but, of course, we 
have not inspected it. We do not know what it looks like. There 
may be something that we do not know about it. So I do not 
really want to opine more than I just have.
    Senator Allard. Now there seems to be more confusion. The 
Department of Labor has their Occupational Safety and Health 
Administration and they have a fire code here. It is the NEPA 
101 Life Safety Code. If I refer to that document, does that 
make sense to you?
    Mr. Eveleth. Yes.
    Senator Allard. Okay. In that document, in paragraph 
40.2.6.1, they say the travel distance measured in accordance 
with section 7.6, that is the travel distance to exits, shall 
not exceed 200 feet or 60 meters.
    Mr. Eveleth. Right. But I believe that there is another 
section, which is 40.2.6.3.
    Senator Allard. Okay. Well, I think we are confused on the 
subcommittee. I am wondering if you can resolve this.
    Mr. Eveleth. Certainly.
    Senator Allard. And get a memo to us on that.
    Mr. Eveleth. Right. Because there is a special exit travel 
distance requirement for low and ordinary hazard special 
purpose industrial occupancy. That is the way it----
    Senator Allard. Okay.
    Mr. Eveleth. And that is apparently a more lenient issue.
    Senator Allard. It depends on the type of tunnel that you 
are dealing with.
    Mr. Eveleth. That is correct. That is correct.
    Senator Allard. Okay. Well, if you would work that out.
    Mr. Eveleth. Sure.
    Senator Allard. And we are interested in making sure that 
we are meeting the code with the new tunnel.
    Mr. Eveleth. Right.
    Senator Allard. That is the bottom line.
    Mr. Eveleth. Right.
    [The information follows:]

    Question. Clarify the travel distances between escape hatch 
for tunnels (with and without sprinkler). Which Life Safety 
code applies under what circumstances?
    Answer. The Life Safety Code was developed to provide 
protective measures for building occupants when there is a 
fire. However, the main hazard in Capitol Hill utility tunnels 
is a steam leak. Although most of the time when safety people 
think about a ``travel distance'' issue, they think of fire 
safety and the Life Safety Code, unfortunately, there is not a 
specific tunnel safety code. Although we are not certain what 
standard should apply in steam tunnels, we want to be very sure 
we understand what the generally applied practice is. There 
probably is an ``industry practice'' for the major tunnel 
designers and builders, and we have been received some 
preliminary data that indicates it may be about 500 feet, from 
exit to exit (point-to-point). We need to ascertain the 
industry practice in order to determine if the General Duty 
Clause of the Occupational Safety and Health Act applies in 
this circumstance; if there is an industry practice, the 
General Duty Clause requires that it be followed.
    Some of the remedies in the Life Safety Code to protect 
tunnel occupants from fire could actually make conditions in 
the tunnels more hazardous, if a steam leak were to occur. For 
example, a fire barrier would not help, because it would 
compartmentalize sections of the tunnel and cause steam buildup 
and intensity. If steam leaks, what the workers need to be able 
to do is to run away from the leak and get out of the area or 
tunnel. In the case of the Capitol Visitor Center utility 
tunnel the only safety item at issue is whether the distance 
between the two exits is too great. The tunnel was installed 
with only two exits--one at either end, with the distance 
between exits of almost 800 feet.
    We have had discussions of this issue with the AOC and the 
CVC contractors who built this tunnel. A review of the 
engineering consultant's assertions to the AOC would appear to 
indicate that there is no outside limit to the travel distance 
that is required under the Life Safety Code due to the way the 
engineering contractor characterized the tunnel. We disagree 
with the underlying assertion that unlimited distance is 
acceptable, since, among other factors, the industry practice 
would suggest otherwise.
    What we have been told by the AOC is that installing 
another egress point would be expensive and that there is no 
money for doing it. This week, the Office of Compliance met 
with representatives from the AOC and the CVC contractors, and 
explained to them that we wanted to do further research into 
the issue and verify what is the ``acceptable norm'' for tunnel 
egress, as a matter of industry practice. Until we've completed 
our research, the OOC is not taking the position that another 
egress is needed in the CVC tunnel, but we do want to find out 
what other organizations are doing when they build new utility 
tunnels. We anticipate that we will reach a conclusion by the 
end of this month, and we will so advise the Subcommittee.
    If an additional egress is required, the additional 
construction may be done after the CVC has been opened to the 
public. Hence, the opening need not be delayed by this 
consideration.

            FIRE ALARM SYSTEM IN THE CAPITOL VISITOR CENTER

    Senator Allard. As you know, a debate is going on now 
between the Architect of the Capitol's fire marshal and the 
Capitol Police Board as to the fire alarm system in the Capitol 
Visitor Center. Do you have any comments as to how this issue 
can be resolved expeditiously, and who ultimately should have 
the authority to make the final determination?
    Mr. Eveleth. We have not been involved in these discussions 
or consulted in these discussions, but I think we are generally 
aware of the position of the fire marshal. Our position has 
been during our inspections, and this does not deal with the 
CVC, but our belief is that, certainly except for the Capitol, 
our belief is that if a fire alarm is pulled, then the alarm 
should go off. And rather than having it do what it does in the 
Capitol, where there is an annunciator board, and the Capitol 
Police then go and check to see whether there is actually a 
fire or not. And then they come back and do what they need to 
do. If there is a fire, obviously they allow the alarm to go 
off.
    That is a unique situation. And it is unique. And for a 
number of good reasons, it is done that way. But it is done 
that way because there are a large number of Capitol police 
available, which means that they can travel to the location of 
wherever that fire alarm has been pulled in short order and get 
back and do something about it.
    That is not the case with some of the larger office 
buildings on the Hill. And that is not the case with the 
visitor center, as well. So it would be--our belief is that 
when a fire alarm is pulled, that the alarm itself should 
sound.
    Senator Allard. So your recommendation would be to treat 
the Capitol Visitor Center like any of the other large 
buildings around and still keep the Capitol under its exemption 
status because of the number of officers that are available in 
the immediate area.
    Mr. Eveleth. That is correct.
    Senator Allard. I see. I understand that that is the 
position of the fire marshal.
    Mr. Eveleth. Right.
    Senator Allard. But it is not the position of the Police 
Board. Is that correct?
    Mr. Eveleth. That is correct. Right. Now your other 
question was who should make the decision, I believe.
    Senator Allard. Yes.
    Mr. Eveleth. And normally the decision like that is made by 
the authority having jurisdiction, which, of course, is a term 
of art in the building industry. And normally that is an 
authority that is sort of independent of the parties in the 
sense that, for example, if I am a builder and I want to do 
something, I either have to follow code or I have to come up 
with something that provides the equivalent level of safety and 
protection, safety protection. And it is usually some 
independent entity that makes that decision.
    A number of years ago, a couple of years ago, the Architect 
asked to be designated as the authority having jurisdiction, so 
that it could in effect waive the prescriptive requirements and 
implement its own. This agency notified the Senate that it 
objected to that position, because it felt like it needed the 
separation between the individual deciding the case and the--I 
think that the----
    Senator Allard. So the OOC has notified the Senate that 
they do not think there is enough distance between the 
Architect, as far as personal culpability, I guess, for you to 
be happy with the Architect making the decision. Is that right?
    Mr. Eveleth. We would not be happy with the Architect being 
the authority having jurisdiction over matters of which it is 
itself both an advocate for change and approving the change. 
And so that was the position we took then.
    Senator Allard. I see.
    Mr. Eveleth. Our position----
    Senator Allard. Now where did that recommendation go to?
    Mr. Eveleth. I cannot recall. We received notice that they 
had asked for that authority. And we wrote a letter. And I 
cannot tell you at this point----
    Senator Allard. Well, you had asked through the 
appropriation process.
    Mr. Eveleth. It could have been. I can dig that up. I just 
do not remember off the top of my head.
    Senator Allard. Okay.
    Mr. Eveleth. But what I am getting at is I think we also 
took the position then that the Office of Compliance is a 
perfect model for being an authority having jurisdiction. That 
is to say, it is an independent entity that can make judgment 
about health and safety issues. And I would think that would 
also be true in this sort of situation.
    Senator Allard. Okay.
    Mr. Eveleth. And there is a full method of litigating that, 
really, if they object and we would issue a citation, I mean, 
our board would decide. And if they wanted to challenge it in 
the court, they could do that. Hopefully, it would not come to 
all that. But it is the principle that we are talking about.
    Senator Allard. Hopefully you would work it out and 
quickly.
    Mr. Eveleth. Right. Right. We would do it, we would hope to 
do it quickly.
    Senator Allard. Okay.
    Mr. Eveleth. We think the law is pretty clear on this.
    [The information follows:]

    Question. With regard to the debate between the Fire 
Marshall and the Capitol Police Board as to the fire alarm 
system in the Capitol Visitor Center, how can this issue be 
resolved expeditiously? Who should have the authority to make 
the final determination? When and to whom in the Senate did the 
OOC recommend that the AOC not be the authority having 
jurisdiction (AHJ)?
    Answer. Relevant to the question of the proper procedures 
to be applied in the operation of the fire alarm systems in the 
CVC are the findings by the OOC's General Counsel described in 
his biennial report to Congress, Report on Occupational Safety 
and Health Inspections during the 108th Congress pursuant to 
the Congressional Accountability Act, pp. 19-21 (excerpt 
attached). As noted in that Report, under the Fire Code, a fire 
alarm system is required that activates a general alarm 
throughout a building to alert occupants of fire or other 
emergencies.
    There are two exceptions to this requirement. First, a 
positive alarm sequence is permitted that allows a three-minute 
delay in the activation of the general alarm. Trained personnel 
are allowed up to 180 seconds to investigate; if the system is 
not reset, all alarms are activated automatically. This delay 
is intended to permit an investigation to determine whether 
there is a false alarm. The AOC Fire Marshal has endorsed the 
use of the pre-signal sequence in the Capitol building where 
there is a sufficient number of trained officers on duty to 
enable them to complete an investigation within three minutes. 
The second exception permits a pre-signal system that requires 
that the initial fire alarm system be automatically transmitted 
without delay to a municipal fire department and an on-site 
person to respond to a fire emergency. The specific 
deficiencies in the existing fire alarm system procedures in 
the House and Senate office buildings are discussed in detail 
in the Report.
    With regard to who should have the authority to make the 
final determination on this and other issues, we noted some of 
this agency's concerns in a letter to the Honorable C.W. Bill 
Young dated February 20, 2004 (copy attached). Although the 
Life Safety code does have not any conflict of interest 
restrictions, other building codes do place such restrictions 
on the official enforcing the code. If the Appropriations and 
relevant Oversight Committees determine that the Office of 
Compliance should be specifically designated as the authority 
having jurisdiction over these matters or to resolve disputes 
between other entities, the Office is well-situated to handle 
such responsibilities. Indeed, under the Congressional 
Accountability Act, the Board of Directors of the Office of 
Compliance is designated to serve as a neutral forum for 
resolving all disputes arising under the CAA, subject to court 
review.
    In particular, Congress vested the Board with the authority 
to determine whether a modification in the application of a 
health or safety standard is warranted because of special 
circumstances. In particular, by virtue of Sec. 1341(c)(4) of 
the CAA, employing offices may request from the Board of 
Directors of the Office of Compliance variances from the health 
and safety standards otherwise applicable by showing that the 
alternative proposed would provide a place of employment which 
is as safe and healthful as required by the standard from which 
the variance is sought. Procedural Rules of the Office of 
Compliance, Sec. 4.26 (b)(4). Alternatively, the citation and/
or complaint procedures under the Office of Compliance's 
Occupational Safety and Health Act jurisdiction could be 
followed to make a final decision on the issue.

    Senator Allard. Thank you for your testimony. You have been 
helpful.
    Mr. Eveleth. Thank you.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER
ACCOMPANIED BY:
        MIKE WASH, CHIEF TECHNICAL OFFICER
        STEVE SHEDD, CHIEF FINANCIAL OFFICER

    Senator Allard. We will go to the next panel now. Our next 
panel will be the Government Printing Office.
    I want to welcome Mr. Bruce James and his team. GPO is 
requesting $151 million, an increase of $29 million over the 
current year or a 24-percent increase. The increase is in part 
due to the requirement to update the U.S. Code over 6 years, as 
well as some initiatives to further modernize the agency.
    Mr. James, you have accomplished much in your 4 years as 
Public Printer, and we appreciate your service. You have a 
great deal to be proud of, including reversing the trend of 
annual losses at the Government Printing Office, revamping the 
agency into, as you put it, a 21st century digital platform 
capable of addressing ongoing technological changes in how 
information is processed and disseminated, and developing new 
business lines, such as the electronic passports.
    You will be a tough act to follow. And we hope you will 
stay on in the Government Printing Office until the President 
can find a suitable replacement. We look forward to reviewing 
the various initiatives you have requested for fiscal year 2007 
and a status report of your efforts to make further 
improvements to modernize the Government Printing Office.
    You may proceed with your testimony now, Mr. James.

                   OPENING REMARKS OF BRUCE R. JAMES

    Mr. James. Thank you and good morning, Mr. Chairman.
    Senator Allard. Good morning.
    Mr. James. I have a statement I would like to submit for 
the record.
    Senator Allard. I will ask unanimous consent. Without 
objection, we will do that.
    Mr. James. Thank you. And I will make a few opening 
remarks. But before I do, I would like to introduce two of my 
colleagues at the table with me. The first is Mike Wash, who is 
the Chief Technical Officer of the Government Printing Office. 
Mike came in about 2 years ago to join us and has the 
responsibility for evaluating new technologies that are coming 
down the road that could impact Government printing, 
particularly the dissemination of Government information.
    He also has a responsibility for the development of what we 
are calling the future digital system, which is the system that 
will ingest all Government information and then be in a 
position to reprocess that information and send it to the 
Internet or send it out for printing or however else in the 
future someone might want to use it.
    I also have with me Steve Shedd, who is the Chief Financial 
Officer of the Government Printing Office. Steve has been with 
us for nearly 3 years now. He came to us after experience in 
the private sector both with private and public companies as a 
chief financial officer. And they will assist me, if you ask me 
any tough questions.
    Now as I was sitting in the audience, Mr. Chairman, I could 
not help but observe your shirt. And, you know, some people 
might just say, well, this is just another shirt with, you 
know, a suit. But as I sat out there, I was trying to think of 
the exact mix of cyan, magenta, yellow, and black that I would 
use to print that shirt, to reproduce it. And, you know, that 
got me thinking that much of what we do at the Government 
Printing Office is just that subject, that there is a certain 
mix of colors that we would use in printing ink to reproduce 
that shirt accurately.
    That would be analog printing, of course. But interestingly 
enough, if we presented it in a digital form on a TV set or on 
a computer screen, there would be a different set of primary 
colors involved with it. And I think what has happened here not 
only in the Government, but what has happened in the 
information industry, is that for many, many years we went 
along as if everything would be printed. So all of the 
information was gathered. It was maintained. It was coded for 
future printing.
    And what we found, of course, today is that printing is 
just one way of delivering information. As a matter of fact, 
much of the Government's information is now being delivered in 
digital format, as you are well aware. Last year, the 
Government Printing Office put 92 percent of all Government 
publications on the Internet. And the 8 percent missing is 
because we have not figured out how to do maps and other kinds 
of things, but we will get there.
    So we are making great progress. There are certain things 
that we are focused on, in particular that I am focused on, in 
my last months of service. First is the GPO building complex 
itself. In terms of square footage, the complex is twice the 
size of the Capitol. It is almost the size of the Empire State 
Building. It is a very large building complex that was built 
for a different purpose than the enterprise that we have today. 
At one time, there were nearly 10,000 employees housed in the 
Government Printing Office buildings. Today we are down to just 
above 2,000. And we do not see that number of employees 
climbing greatly.
    So we have a facility that is obsolete in every way. Now 
rather than come to this subcommittee and to Congress and ask 
for public funds to replace that building and re-equip it for 
the future, instead we have worked out, I think, a very 
ingenious plan for converting the existing real estate we have 
into cash that would allow us to build a new building and equip 
that building as we need to do without losing title to that 
property for the Government.
    What is significant about that is that about $35 million of 
what we spend each year at the Government Printing Office goes 
to the maintenance of this obsolete campus. And it is money 
that we would not have to otherwise spend if we were not there.
    And, you know, I sit here in front of you asking for a 
relatively modest amount of money. But I want you to think 
about that $35 million that we are spending each year that we 
do not have to spend. If we get on with this building project, 
we will be able to actually reduce the request to this 
subcommittee for appropriations each year. So any help that you 
can give us in helping to move this project along, we would 
much appreciate it.
    The second very important thing that we are engaged in is 
the building of the future digital system, which falls under 
Mike Wash. That system, as I mentioned 1 minute ago, is the 
future. What it will do is take Government information into the 
system. It will not be coded for printing. It will have a 
generic coding scheme in it that both identifies the kind of 
information it is, whether it is a headline or a paragraph or 
what it is.
    It also will contain the source, who created the document, 
when was it created, that type of information. And it will be 
stored in such a way that it will allow us to authenticate the 
fact that the information is actually what the author wrote. It 
will allow us to preserve that information in perpetuity. And 
it will allow us to repurpose that information and send it out 
however the Government might require it in the future, or 
however a public user might want that information in the 
future.
    The third thing that I think is very important is that it 
is one thing to take the ongoing information of the Government 
and be prepared to deliver it digitally. But, you know, we have 
a 200-year history. And that history is very important. We have 
tons, carloads, trucks, warehouses full of paper all across the 
country that represent the legacy documents of the United 
States Government.
    Now we are very fortunate to have 1,250 library partners in 
the Federal depository library system, which has maintained 
those books for us in print, and not only maintained those 
books, but most importantly have helped the public get the 
information from those books.
    But our libraries are changing. The entire world is 
changing. And we have to be able to go back and digitize that 
legacy collection and also make it available over the Internet. 
Now we believe we probably can find the funds to do this 
ourselves, with not much help from Congress.
    The next area that we are focused on is workforce 
retraining. We have a lot of people at GPO that are used to the 
analog world, those who once set type with linotype machines, 
once made plates, once operated offset presses. And I do not 
believe they are threatened in any way by the changes that we 
are talking about. As a matter of fact, our 23 bargaining units 
have been very supportive of the changes that we are making. 
And I think the reason is that over our 145-year history we 
have been through many technological changes, each of which 
made the Government Printing Office stronger. And they see this 
as just part of a pattern.
    But we owe it to these folks to build on the skills that 
they have acquired over the years, to now introduce and train 
them in new digital skills. And we are focused on that.
    We also are focused on replacing our legacy computer 
systems. You hear this, the Appropriations Committee hears 
this, almost from every agency. When I walked in the door, I 
could not believe the state of the computer systems. I mean, 
these were machines that I had not seen in 30 years that were 
held together with spit and chewing gum. And as our employees 
retire, we had a 81-year-old retire not so long ago, I mean, we 
are losing the skills that are required to keep those systems 
up to date. So we are in the process of replacing our legacy 
computer systems with state-of-the-art equipment that is 
properly sized, properly constructed to be able to allow us to 
move along in the future. And we are asking for help in regard 
to replacing those systems.

                           PREPARED STATEMENT

    And the last thing that we are all focused on, particularly 
Judy Russell, the Superintendent of Documents, with me, and 
that is working with our Federal depository libraries to create 
the Federal depository library system of the future. It is 
clear that as we change in the way we process information, 
libraries, too, are changing. And we want to make sure that we 
are completely aligned with our libraries. These have been very 
valuable partners for many years. And we do not want to lose 
the value of that partnership, which we believe is helping the 
American public find and use Government information.
    And that concludes my opening remarks, Mr. Chairman.
    [The statement follows:]
                  Prepared Statement of Bruce R. James
    Mr. Chairman and Members of the Subcommittee on Legislative Branch 
Appropriations: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2007.
    Mr. Chairman, this will be the last time I have the privilege of 
appearing before you. Over the past three years, with the strong 
support of this Subcommittee, we have managed to turn GPO in a new 
direction, one that promises a positive future for our great agency for 
many years to come. Now, after three and a half years of working to 
achieve that result and much more, it is time for me to begin the plans 
for return to my home in Nevada. My pledge was to remain as Public 
Printer for the 3 to 5 years it would take to reposition GPO for the 
future. I have advised the President that I will continue to serve 
until a new Public Printer is chosen. I want to assure you that I will 
work hard to make a smooth transition of leadership so that GPO does 
not miss a step going forward.
                              2005 results
    Since my appointment as Public Printer, we have been transforming 
GPO into a 21st century digital platform capable of addressing ongoing 
technological changes in how information is processed and disseminated.
    Our goal is to provide Government information in the form and 
formats our customers want and need in this burgeoning digital era, and 
to ensure that the abiding mission of the GPO--Keeping America 
Informed--continues to be carried out for generations to come.
    A primary order of business has been restoring and maintaining 
GPO's financial health. I am pleased to report that our efforts to 
modernize and prepare GPO for the future, with Congress's support, are 
generating measurable--and ever improving--returns to GPO's bottom 
line.
    Net income from consolidated GPO operations for fiscal year 2005 
increased to $6.1 million from $1.3 million the previous year, 
reversing the pattern of losses from the last decade. We also recorded 
another reduction to our long-term liability for the Federal workers 
compensation program.
    Our financial turnaround has also been aided significantly by 
efforts to right-size GPO's workforce through voluntary separation 
incentive programs supported by Congress. In 2003 and 2004 we reduced 
GPO's workforce by 542 positions, resulting in a savings in personnel 
compensation and benefits costs of about $38 million annually.
    During the first quarter of fiscal year 2006, another incentive 
program, which was carried out under the Consolidated Appropriations 
Act for Fiscal Year 2005 (Public Law 108-447), resulted in a further 
reduction of 89 positions. Recurring annual savings from this recent 
program will be approximately $8 million commencing October 1, 2006.
    Fiscal year 2005 marked a turning point in our transformation 
efforts with the release early in the year of our Strategic Vision for 
the 21st Century, which was transmitted to Congress and distributed to 
GPO's stakeholders in both the public and private sectors.
    This document provides a framework for how our transformation 
goals--development of a digital content system to anchor all future 
operations, reorganization of the agency into new product- and service-
oriented business lines along with investment in the necessary 
technologies, adoption of management best practices agency-wide 
including retraining to provide needed skills, and relocation of the 
GPO to facilities that are sized and equipped to meet our future 
needs--will be carried out and funded. During the year we made 
significant progress in each of these directions.
    The core of our future operations will revolve around a digital 
content system that we currently refer to as FDsys, for Future Digital 
System. FDsys is being designed to organize, manage, and output 
authenticated content for any use or purpose.
    With the approval for transferring the unexpended balances of prior 
year appropriations to GPO's revolving fund, we secured the majority of 
the funds we will need to bring FDsys into operation. In the 
development of this system, we are engaging key elements of our 
customer community in Congress, in Federal agencies, and in the library 
community, and we are working under the guidance of the Joint Committee 
on Printing.
    We created a new business line for Security and Intelligent 
Documents in 2005 that consolidates our longstanding expertise in 
security documents and offers a broad range of consultative services to 
Congress and Federal agencies attempting to respond to new standards 
and statutory requirements in this area. An early product of the unit 
was the security printing requested by the Joint Congressional 
Committee on the Inauguration to support the first Presidential 
inaugural ceremonies since 9/11. This business unit is working closely 
with the Social Security Administration, the State Department, the 
Department of Homeland Security, and other Federal agencies with secure 
and intelligent documents responsibilities.
    We also created a new Digital Media Services business line to 
provide essential retraining in digital production skills and 
eventually generate content from legacy documents for ingest to FDSys. 
We are developing an efficient and cost-effective approach to legacy 
digitization to be carried out by this new business line, and are 
currently engaged in a demonstration project as approved by the Joint 
Committee on Printing.
    During 2005 we endowed other business lines with new capabilities. 
To improve plant production efficiency and broaden the range of product 
and service options for Congress and Federal agencies, we invested in a 
variety of new color and digital production technologies.
    We augmented our expert printing procurement services by partnering 
with a nationwide firm to provide innovative new convenience 
duplicating and printing services to Federal agencies across the 
country. This contracting mechanism features provisions for capturing 
Federal documents electronically, which will significantly assist our 
efforts to broaden the availability of Federal information for public 
access and reduce the incidence of ``fugitive documents.'' We also 
significantly increased the dollar limit on our popular simplified 
purchase agreements, expanding and simplifying the ability of Federal 
agencies to procure products and services directly from lists of pre-
qualified vendors without first having to go through GPO.
    Under the leadership of GPO's Superintendent of Documents, we 
engaged the depository library community in a dialog to define the 
future of the Federal Depository Library Program while continuing to 
move the Program toward a predominately electronic basis as required by 
Congress. The total number of titles we now make available on GPO 
Access (www.gpoaccess.gov) increased to more than 300,000, with an 
average of 37 million retrieved every month, and the dollars we now 
dedicate to distributing print publications to depository libraries has 
fallen by at least 50 percent over the past decade.
    In our Sales of Publications Program, we developed a plan to 
partner with private sector sales and distribution providers who can 
expand Government publications sales offerings to the public, 
implementing a key recommendation of a management audit of GPO ordered 
by the House and Senate Appropriations Committees in Public Law 105-55. 
The plan would also return a portion of the revenues to GPO. We have 
issued a Request for Proposal for these services.
    We continued work on our Oracle enterprise system, which will 
replace a number of labor intensive accounting and inventory functions 
with IT solutions, reducing cost and speeding work throughput. Expanded 
employee training opportunities were also made available, ranging from 
new offerings on the shop floor to ``transformational leadership'' 
seminars for all supervisors and managers. Our Digital Conversion 
System will also provide new retraining opportunities.
    Although the GPO is not subject to the Government Performance and 
Results Act (GPRA), we take the spirit and intent of its provisions 
seriously, particularly its emphasis on performance measurement. During 
the year we worked to design systems to provide quantitative 
measurement in evaluating the progress of our strategic and management 
initiatives, and in this request we are seeking funds to implement that 
system.
    Progress toward our goal to relocate the GPO to new facilities 
moved ahead in fiscal year 2005 with the delivery of a formal plan for 
this project by our expert real estate advisory consultant. The plan, 
along with draft legislative language to authorize the project, was 
submitted to our oversight and Appropriations Committees accompanied by 
legislative briefings. We also began work on a plan to establish an 
ancillary production site for passports and other essential Government 
documents, and will be consulting further with our oversight committee 
on this matter this year.
                        fiscal year 2007 request
    Our fiscal year 2007 appropriations request is designed to provide 
for:
  --Continuation of our congressional printing and binding operations 
        and information dissemination services at required levels;
  --Essential investment in projects to continue the transformation of 
        the Federal Depository Library Program to a predominately 
        electronic basis, by improving the cataloging, preservation, 
        authentication, and provision of public access to electronic 
        Federal Government information; and
  --Investment in information technology to improve the efficiency and 
        effectiveness of GPO's operations, and completion of the 
        program we have begun to retrain GPO's workforce to meet 
        changing technology demands.
    Congressional Printing and Binding.--For the Congressional Printing 
and Binding Appropriation, which covers printing and related services 
for Congress, we are requesting $100,285,000. This is an increase of 
$13,076,000 over the level provided for fiscal year 2006. As you know, 
the funding level provided for this appropriation in fiscal year 2006 
is equal to fiscal year 2005, minus the one percent rescission. The 
increase is required to cover mandatory pay and price level changes and 
projected changes in specific congressional printing categories based 
on historical data, and is partially offset by ongoing improvements in 
productivity. Mandatory items include funding for the production of the 
2006 Edition of the U.S. Code, which by law is fully updated and issued 
every six years by the Office of the Law Revision Counsel, as well as 
required support capabilities residing at the alternative computing 
facility. Our request also provides funding to begin investment in a 
new generation of publishing systems that will be capable of fully 
supporting Congress's current and future information product needs.
    Salaries and Expenses Appropriation.--For the Salaries and Expenses 
Appropriation of the Superintendent of Documents, we are requesting 
$43,000,000, an increase of $9,996,000 over the level provided for 
fiscal year 2006. This appropriation provides for the cataloging, 
indexing, and distribution of Government publications to Federal 
Depository and International Exchange libraries and other recipients 
designated by law.
    The increase is necessary for mandatory pay and price level 
changes, increased information technology support costs, and 
distribution of the 2006 edition of the U.S. Code to depository 
libraries and other recipients as required by law. Equally as 
important, our request includes funding for essential investments to 
sustain our commitment to meeting the changing needs of the Federal 
Depository Library Program (FDLP) in the digital era. For fiscal year 
2005, 71 percent of all new titles made available to the FDLP were in 
online format only, while an additional 21 percent of new titles were 
in electronic and one or more tangible formats such as print or 
microfiche. Only 8 percent of new were made available in print only. In 
other words, 92 percent of new titles in the program were made 
available online, whether or not there were tangible equivalents.
    As this data shows, the FDLP is now a predominately electronic 
program. The funding increase we are seeking will nurture and sustain 
the digital transformation of the FDLP, expanding the availability of 
the program's resources nationwide while providing for essential 
improvements to ensure permanent access and authenticity. The projects 
we are proposing include digital conversion of GPO's pre-1976 
cataloging records to expand the availability of our online catalog 
resource; targeted capital investment for authentication and other 
technologies supporting GPO Access; authentication and cataloging of 
Web-harvested documents; and essential training for depository 
librarians and other user support.
    Our request is also designed to advance another key initiative of 
our strategic vision for the future. In cooperation with the Library of 
Congress and the National Archives and Records Administration (NARA), 
we are developing an agreement under which the three agencies will make 
a concerted effort to digitize and provide online public access to 
Federal documents reaching back to the Nation's earliest days. As a 
result of this effort, the comprehensive historical collection of 
Federal publications--reports, legislation, congressional proceedings, 
executive orders, presidential papers, regulations, and more--will be 
available for search and retrieval at the push of a button from any 
library, classroom, office, or home. We are now involved in a 
demonstration project for legacy digitization.
    As our society becomes increasingly electronic, the demand for 
access to Government information--including information that until now 
has been available only in print--is growing. Several elements of both 
the public and private sectors have begun to respond to need for 
retrospective digitization to meet that demand and reduce costs to 
libraries. These efforts are commendable, but with their proliferation 
there is a growing need for an approach that will ensure 
standardization, comprehensiveness, and efficiency while preventing 
wasteful overlap and duplication of effort. I have met on this subject 
with the Librarian of Congress and the Archivist of the United States 
and we expect to conclude an agreement on this effort in the near 
future. While GPO will fund its role in this effort from available 
resources, our request for fiscal year 2007 includes $2 million to 
provide data tagging and related technical support for newly digitized 
content that is made available to the FDLP.
    Revolving Fund.--For GPO's revolving fund, we are requesting an 
appropriation of $8,231,000, an increase of $6,251,000 over the level 
provided for fiscal year 2006.
    This will provide funds to acquire essential information technology 
infrastructure and systems development, including risk reduction and 
security enhancements, computer-aided manufacturing, replacement of our 
antiquated job-cost reporting system, implementation of a Government 
Performance and Results Act (GPRA) compliance system, and other 
measures. Our request will also be used to complete the training 
program we have initiated with fiscal year 2006 funds to define GPO's 
workforce needs, assess the skills of current employees, identify the 
gaps, and design and deliver targeted, just-in-time training to close 
those gaps. A well-trained workforce and modernized information 
technology architecture are prerequisites to implementing our vision of 
GPO's digital future.
    Mr. Chairman and Members of the Subcommittee on Legislative Branch 
Appropriations, thank you for all the support you have shown for our 
efforts to transform GPO. With your support we can continue our record 
of achievement. We look forward to working with you in your review and 
consideration of our request.

                          FACILITY RELOCATION

    Senator Allard. Well, thank you for your testimony, Mr. 
James. We have just a few questions here.
    It appears that your plans to move the Government Printing 
Office out of the current facility are not moving along quite 
as expeditiously as you would like. If the Government Printing 
Office is unable to relocate in the near future, how will that 
impact the Government Printing Office's plans to further 
modernize its operations?
    Mr. James. Well, we are not going to let a building stop 
us. I mean, the Government Printing Office is not about a 
building. It is about systems and people. And so we are not 
about to let a building stop us. But I think this is maybe even 
more personal to me as the leader of the GPO. It just to me is 
a travesty to allow taxpayer money to be flushed down the drain 
the way we are doing this.
    I mean, we can do a better job. And that is what I have 
been working at, to try and give the taxpayers a better deal on 
this. And I know that you have, too. This subcommittee and the 
House Appropriations Committee have been working with us all 
the way along on trying to get this done, too.

                             TOP CHALLENGES

    Senator Allard. What are the top challenges that you face 
or the Government Printing Office faces? And what advice would 
you provide for your successor?
    Mr. James. Well, I think the things I've talked about today 
are the remaining big challenges in front of the Government 
Printing Office. The most important things, I think, that I 
have done over the last almost 4 years are to make certain we 
had the right people in the right positions and then to help 
them to develop a long-term strategy that would serve the 
American public and serve Congress, and then to help get that 
program off and going. And we are there.
    The remaining big challenges include the redevelopment of 
the building. And, you know, it is not just a matter of getting 
congressional approval to proceed. Once we have that approval, 
there is a big challenge of finding a new location for the GPO 
and hiring an architect and building a building and equipping 
that building. So that is probably the largest challenge.
    And I think that everything surrounding digital information 
is the other challenge. I think Mike Wash and his team are 
doing a superb job of building the system, but it will require 
continual attention and strict attention to make sure it is 
successful.

                           BUDGET PRIORITIES

    Senator Allard. Given the budget constraints we are faced 
with, it is unlikely that we are going to be able to come up 
with a 24-percent increase. It will probably be something less 
than that. And as I have asked of all the other agencies, I 
hope you can give us a prioritized list, because that would be 
very helpful as we negotiate with the House on this, if we know 
which things are most important to you. I would hate to think 
that in the negotiating process we gave up the most valuable 
for something of less importance.
    Mr. James. Sure.
    Senator Allard. So it would help us to make sure that your 
agency gets its badly needed resources in the proper priority.
    Mr. James. We would be pleased to do that. And I think we 
have a good relationship with staff and would be pleased to 
work with them and help them understand the priorities.
    Senator Allard. If you could do that, for the record, we 
would appreciate it.
    Mr. James. Yes, sir, be happy to.
    [The information follows:]
             GPO Fiscal Year 2007 Appropriations Priorities
                   congressional printing and binding

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal year 2006 Enacted Level.............................        $87.2
Fiscal Year 2007 Requested Level...........................        100.3
                                                            ------------
      Total Increase Originally Requested..................         13.1
------------------------------------------------------------------------

    Approximately $12.1 million is needed for essential requirements, 
including funding for mandatory pay and price changes to cover 
contractual wage agreements and inflation, an adjustment to the fiscal 
year 2006 base to cover a projected shortfall for fiscal year 2006 
(which will be funded from unexpended balances of prior year 
appropriations transferred to the revolving fund last year), 
anticipated workload increases in several congressional printing 
categories based on projections from historical data, and the 
production of official and bylaw copies of the 2006 edition of the U.S. 
Code in accordance with statutory requirements.
    Additional requirements of $1 million include funding for a planned 
replacement of GPO's Microcomp composition system, which will require 
the approval of the Joint Committee on Printing.

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Essential Requirements:
    Mandatory pay and price changes........................         $2.3
    Adjustment to fiscal year 2006 base....................          1.4
    Anticipated workload increases.........................          3.7
    Production of 2006 U.S. Code...........................          4.7
                                                            ------------
      Total................................................         12.1
                                                            ============
Additional Requirements: Microcomp replacement.............          1.0
------------------------------------------------------------------------

                         salaries and expenses

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal Year 2006 Enacted Level.............................        $33.0
Fiscal Year 2007 Requested Level...........................         43.0
                                                            ------------
      Total Increase Originally Requested..................         10.0
------------------------------------------------------------------------

    With the exception of the mandatory pay increases and the printing 
and distribution of copies of the 2006 edition of the U.S. Code to 
depository libraries, GPO's requested increase of approximately $10 
million covers projects directly related to the broad range of 
information life-cycle activities required by the congressionally-
mandated transition to a primarily electronic Federal Depository 
Library Program (FDLP) and to building the infrastructure to support 
it. Because these activities are interrelated and support each other, 
GPO must proceed with multiple priorities to meet Title 44 mandates in 
the online information environment.
    If funding at the originally requested level is not an option, GPO 
will scale back digital initiatives or slow down progress on the 
electronic transition rather than pursue one or two priorities to the 
exclusion of others. Elimination or more substantial reduction of any 
of these activities through funding prioritization will necessitate 
consultation with the depository library community.
    If appropriations cuts are required GPO could still support its 
mission with essential requirements totaling approximately $7.1 
million, a 29 percent reduction from the initial request for the 
Salaries and Expenses Appropriation. These requirements include 
mandatory pay and related costs, printing and distribution of the 2006 
edition of the U.S. Code for depository libraries, expenses due to 
investment in IT and GPO's Future Digital System (FDsys), FDLP training 
and user support of FDsys (with funding reduced by 20 percent, or 
$265,000, from the original request), conversion of pre-1976 cataloging 
records (with funding reduced by 63 percent, or $500,000; 
implementation of this project will be modified from a single multi-
year contract to multiple single-year contracts, with requests for 
funding to be made in subsequent years), cataloging of web-harvested 
documents (with funding reduced by 10 percent, or $63,000), 
authentication of web-harvested and digitized documents (with funding 
reduced by 10 percent, or $45,000), and capital expenses associated 
with authentication and access.
    Additional requirements shown below total approximately $2.9 
million. They include funds for data tagging and processing new 
digitized content for access (while a demonstration project for legacy 
digitization has been authorized by the Joint Committee on Printing, 
GPO does not yet have authorization for the full legacy digitization 
project, and if not provided for fiscal year 2007, funding could be 
requested in subsequent years once the project is approved), as well as 
restoration of the reductions shown above for FDLP training and user 
support for FDsys, conversion of pre-1976 cataloging records, 
cataloging of web-harvested documents, authentication of web-harvested 
and digitized documents, and capital expenses associated with 
authentication and access.

------------------------------------------------------------------------
                                                            In millions
------------------------------------------------------------------------
Essential Requirements:
    Mandatory pay and related costs.....................           $0.8
    U.S. Code 2006 edition, printing and distribution...            2.0
    Expenses due to investment in IT and FDsys..........            1.2
    FDLP training and user support of FDsys.............            1.1
    Conversion of pre-1976 cataloging records...........             .3
    Cataloging of web-harvested documents...............             .6
    Authentication of web-harvested and digitized                    .4
     documents..........................................
    Capital expenses associated with authentication and              .7
     access.............................................
                                                         ---------------
      Total.............................................            7.1
                                                         ===============
Additional Requirements:
    FDLP training and user support of FDsys.............             .3
    Conversion of pre-1976 cataloging records...........             .5
    Cataloging of web-harvested documents...............             .05
    Authentication of web-harvested and digitized                    .05
     documents..........................................
    Data tagging and processing new digitized content               2.0
     for access.........................................
                                                         ---------------
      Total.............................................            2.9
------------------------------------------------------------------------

                             revolving fund

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal Year 2006 Enacted Level.............................         $2.0
Fiscal Year 2007 Requested Level (Fiscal year 2007 request           8.2
 is a total of $3 million for training and $5.2 million for
 IT projects; fiscal year 2006 enacted provided $2 million
 for training).............................................
                                                            ------------
      Total Increase Originally Requested..................          6.2
------------------------------------------------------------------------

    Of the requested increase, approximately $1.0 million is needed for 
essential requirements, which represents an increase over the funds 
provided for fiscal year 2006 for workforce training and development to 
provide GPO employees with the skills needed for GPO's digital future. 
Total funds approved for fiscal year 2006 for training were $2 million; 
GPO is requesting a total of $3 million for training for fiscal year 
2007.
    Additional requirements of $5.2 million are requested for high risk 
infrastructure replacement to cover 8 projects to mitigate high 
technical risk areas, a secure documents system infrastructure to 
provide IT support for GPO's secure and intelligent documents business 
unit, a computer-aided manufacturing system to integrate GPO's 
production systems with IT monitoring, replacement of GPO's outdated 
PROBE system that provides job cost tracking, an application 
infrastructure to integrate GPO business systems into Oracle, a 
Government Performance and Results Act (GPRA) compliance system to 
monitor and evaluate program performance, and a metadata repository to 
standardize data used in GPO's business systems.

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Essential Requirements: Workforce retraining...............         $1.0
                                                            ============
Additional Requirements:
    High risk infrastructure replacement...................          2.3
    Secure documents system infrastructure.................           .8
    Computer-aided manufacturing...........................           .5
    PROBE replacement......................................           .5
    Oracle application infrastructure......................           .5
    GPRA compliance system and implementation..............           .3
    Metadata repository....................................           .3
                                                            ------------
      Total................................................          5.2
------------------------------------------------------------------------

                          EMPLOYEE RETRAINING

    Senator Allard. Now Congress approved $2 million in the 
Government Printing Office 2006 budget for workforce training. 
Can you update us on your efforts on that?
    Mr. James. You want to know how we spent that money?
    Senator Allard. Yes. We want to know what the results are.
    Mr. James. I would like to submit the specifics for the 
record. But I will give you sort of a general view of what we 
have done with this.
    In my judgment, the most important thing was to make 
certain our 330 supervisors are completely trained in what 
being a supervisor is all about. In the past, we moved people 
from the workforce that were skilled craftsmen just almost 
based on seniority into these, what I call, these leadership 
positions without sufficient background and training of what it 
takes to be a leader.
    So the first thing we did was focus on helping all of our 
roughly 330 supervisors/leaders to understand their 
responsibilities and what they need to do in a digital world 
and actually in a world of today. And we used the strategic 
vision document as the working tool of how to get them to 
understand what their role was and how to carry this down to 
employees.
    We then set up a new business unit that we call the digital 
media group. And this is the group that will do the conversion 
of the legacy documents of the Government into digital 
documents. And this will create hands-on training for hopefully 
several hundred GPO employees over the next few years as we 
complete that digitization. So those are the big initiatives 
that were undertaken in the last year. But I will give you a 
full explanation of that for the record.
    Senator Allard. Thank you.

                       Use of GPO Training Funds

    For fiscal year 2006, Congress appropriated $1.9 million 
(after rescission) to GPO's revolving fund for workforce 
development and training.
    Approximately $500,000 has been allocated to a 
demonstration project for the digitization of selected legacy 
Government documents that has been approved by the Joint 
Committee on Printing. The project will train a targeted 
element of GPO's workforce in essential digitization skills.
    Approximately $100,000 has been allocated to the provision 
of training in PC skills, electronic publishing, new pre-press 
technologies, customer service improvement, and apprentice 
training.
    The balance of the funds are for a GPO-wide skills 
assessment and implementation of retraining and include the 
following: $170,000 for a needs analysis and skills assessment, 
$630,000 for classroom training, $270,000 for e-training, 
$130,000 for a Learning Management System, and $100,000 for 
career transition services.

                      ELECTRONIC PASSPORT PROGRAM

    Senator Allard. What is the status of the electronic 
passport program that you are working on with the State 
Department?
    Mr. James. That is one of the most challenging jobs that we 
have had. The State Department is one of our best customers. 
And as you know, this is a program that has been mandated by 
Congress. And that is to include a biometric chip in all of the 
U.S. passports. And the law is requiring that of other 
countries, too, that want to have the visa exemption.
    We have been working for about 2 years on that program with 
the State Department. We actually have working samples out in 
the field right now. We are delivering official passports. I 
believe in the last couple of weeks, we started delivering 
official passports with chips and antennas. We have learned a 
lot in this process. We probably have more knowledge than 
perhaps any other organization in the country at this point 
about what goes into dealing with these chips in a paper 
product.
    As a matter of fact, we have learned so much that we are 
looking at sharing this with other agencies to meet some of 
their requirements, both for ID cards and for other kinds of 
secure and intelligent documents that the Government will need. 
I have come to the conclusion that I think the Government 
Printing Office can be of great service to other agencies in 
the development and maintaining of a proprietary Government 
technology that will help ensure that documents cannot be 
counterfeited and they are authentic documents.
    We are looking at doing this with some interesting models. 
We are looking at getting in the business of producing ID 
cards.
    Senator Allard. What kind of ID cards?
    Mr. James. These are the new ID cards that are required 
that have RFD devices in them that will be for all agency 
employees. And there we are looking at the possibility of doing 
a Government-owned, contractor-operated plant within GPO 
facilities. In other words, taking the best advantage of the 
private sector and their know-how and how to officially 
manufacture, but yet keeping it within a Government facility 
for the necessary security protections.
    So we have learned at lot. We have made great progress. I 
think this will be one of the fast-growing areas in the future 
for the Government Printing Office.
    Senator Allard. So you actually have it in some passports 
now.
    Mr. James. Yes, we do.
    Senator Allard. Is that part of the trial basis, or is this 
now just part of routine procedure in those few that you have 
out there?
    Mr. James. I think you are asking me to speak for my 
customer here, the State Department, on this. And it is my 
impression that we are still moving cautiously. You know, with 
old U.S. passports, I should say the former passports, we knew 
what would happen if somebody left it in the trunk of their car 
or ran it through a washing machine. You know, we need more 
experience here in what happens in the real world as people use 
these devices or these passports, so that we can make certain 
that the manufacturing techniques we have used will withstand 
as much as they possibly can. So we are moving cautiously on 
this one.

                FUTURE OF THE DEPOSITORY LIBRARY PROGRAM

    Senator Allard. Thank you. You also said you are engaging 
the depository library community in a dialogue on the future of 
the depository library system. What is the status of that 
effort?
    Mr. James. Well, let me put it this way. I think that 
together the library community and the GPO have come a long way 
in the last 3 years. I began to discuss with the depositories a 
little over 3 years ago what I thought was going to be required 
in the digital future. And there were, I think it is fair to 
say, some real skeptics initially.
    But as we have, over the last 3 years, worked so closely 
together on taking a look at this, I think that probably it is 
best summed up by a letter I think you recently received, 
signed by the presidents of the five largest library 
associations strongly endorsing the direction that we are 
going. And I think that while we do not have a complete 
solution yet, I think we are engaged in a very positive way. We 
know we cannot please everybody. But it is our intention to get 
to the point that we have a consensus within the community of 
the best way to go forward with this.
    Senator Allard. So you are in the discussion process right 
now.
    Mr. James. Yes, sir.
    Senator Allard. And you have not decided exactly how you 
are going to proceed from this point.
    Mr. James. That is absolutely correct.
    Senator Allard. Thank you. That is all I need for your 
testimony. Thank you very much.
    Mr. James. Thank you, Mr. Chairman.
    Senator Allard. We wish you well.
    Mr. James. Thank you.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DR. DONALD B. MARRON, ACTING DIRECTOR
    Senator Allard. Good morning, Dr. Marron. We meet again 
today. It seems like we have been seeing each other on a fairly 
regular basis here. You are the last panel for this morning. I 
would ask that you, Dr. Marron, Acting Director of CBO, to 
present your testimony on CBO's $37 million request. This is a 
5.5-percent increase over fiscal year 2006 and supports current 
services.
    Now, Dr. Marron, we understand you have done an excellent 
job heading up the CBO since your appointment just a few months 
ago. And we appreciate your service. Please go ahead with your 
testimony.
    Dr. Marron. Thank you, Mr. Chairman. It is a pleasure to be 
here today. You have our written statement, so I will try to be 
very brief. Let me start by thanking you for your past support 
of CBO's budget request, most recently for the 2006 request.
    As you know, CBO's mission is to provide the Congress with 
timely, objective, nonpartisan information about budget and 
economic issues. It has been my great privilege to be with the 
agency for about 6 months now and to be Acting Director since 
early this year. And just on a personal note I would like to 
say I am just incredibly impressed with the enthusiasm and 
skill and esprit de corps of the CBO and its people. I feel 
like we are doing an excellent job for the Congress. And I hope 
to keep that up.
    As you say, our fiscal 2007 request is for $37 million, 
which would be an increase of $1.9 million over our 
appropriation for 2006. It is an increase of 5.5 percent. This 
is pretty much a plain vanilla request on our part. There are 
no new initiatives. We view it as a current services budget. It 
allows us to maintain a level of productivity, allows us to 
maintain our 235 FTEs, and hopefully allows us to, you know, 
continue the productivity that we have built up in recent 
years. Hopefully, it is well documented in our submission.
    Our budget is overwhelmingly for people. As we discussed 
the other day, about 90 percent of the budget goes toward our 
people. And in essence, that is what is driving our budget 
request this year. Most of the request is concentrated in 
people, both because of benefit increases, because of a cost of 
living adjustment (COLA), and because of merit increases that 
we would expect to award to people.
    In addition, there is a component in there for IT. As you 
will recall, last year there was an across-the-board 
rescission. We, to get through this year, focused most of that 
on our IT budget. We deferred a variety of projects. And so our 
budget request in essence has a variety of those investments 
coming back in 2007 being funded.
    I am happy to say that I believe CBO provides good value to 
the Congress and through the Congress to the American people. 
It has been true in the past, and we intend to make sure it is 
true in the future.

                           PREPARED STATEMENT

    And with that, happy to take any questions.
    Senator Allard. Well, thank you, Dr. Marron.
    [The statement follows:]
                 Prepared Statement of Donald B. Marron
    Mr. Chairman and Members of the Committee, I am pleased to present 
the fiscal year 2007 budget request for the Congressional Budget Office 
(CBO).
    CBO is a small legislative support agency. Its mission is to 
provide the Congress with timely, objective, nonpartisan analyses of 
the budget and the economy and to furnish the information and cost 
estimates required for the Congressional budget process. That mission 
is its single ``program.'' Approximately 90 percent of CBO's 
appropriation is devoted to personnel, and the remaining 10 percent, to 
information technology, equipment, supplies, and other small purchases.
    The total current-services request for fiscal year 2007 is 
$37,026,000 a $1.9 million, or 5.5 percent, increase over the 
appropriation for fiscal year 2006 (after the 1 percent rescission). 
Although CBO's original projected increase from fiscal year 2006 to 
fiscal year 2007 was 4.4 percent, this request incorporates CBO's need 
to restore resources that were eliminated in fiscal year 2006 by the 
rescission.
    The requested increase is dominated by $1.7 million for increases 
in staff salaries and benefits, which are estimated to grow by 5.3 
percent in 2007. CBO's information technology accounts will increase by 
$220,000, or 15.6 percent, primarily to restore information technology 
funding that was reduced to meet the fiscal year 2006 rescission. The 
remainder of CBO's nonpersonnel budget will increase by 1.7 percent to 
cover modest inflationary increases in various accounts.
    With the requested funds for 2007, CBO plans to continue to support 
the Congress in exercising its responsibilities for the budget of the 
U.S. government. CBO supports the Congressional budget process by 
providing analyses required by law or requested by the Committees on 
the Budget, the Committees on Appropriations, the Senate Committee on 
Finance, the House Committee on Ways and Means, other committees, and 
individual Members. Contributing in various forms, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year, including the 
        construction of baseline budget projections to serve as neutral 
        benchmarks for gauging the effects of spending and revenue 
        proposals;
  --Estimates the effects of the President's budgetary proposals on 
        outlays and revenues, including effects resulting from impacts 
        on macroeconomic activity;
  --Assists the Committees on the Budget in developing the 
        Congressional budget resolution by providing alternative 
        spending and revenue paths and the estimated effects of a 
        variety of budget options;
  --Reports on programs and activities for which authorizations for 
        appropriations were not enacted or are scheduled to expire;
  --Estimates the costs of legislative proposals, including formal cost 
        estimates for bills reported by committees of the House and 
        Senate, which also identify the costs of mandates on states, 
        localities, Indian Tribes, and the private sector;
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts;
  --Provides the Congress with analyses of policy options, but not 
        policy recommendations, to alter federal outlays and receipts 
        in the near term and over the longer horizon to help the 
        Congress make budgetary choices, set priorities, and adapt to 
        changes in circumstances;
  --Constructs statistical, behavioral, and computational models to 
        project short- and long-term costs and revenues of government 
        programs and their effects on the economy; and
  --Reports on emerging economic developments (such as natural 
        disasters) and their possible budgetary consequences.
    In fiscal year 2007, CBO's request will allow the agency to build 
on current efforts specifically, the request:
  --Supports a workload of more than 1,700 formal estimates of the 
        costs of proposed or enacted legislation and of mandates 
        included in legislation (generally conveyed in about 600 
        separate documents) and approximately 160 analytical reports 
        and other products, as well as a heavy schedule of 
        Congressional testimony;
  --Supports 235 FTEs, the same number as in 2006, including an across-
        the-board pay adjustment of 2.7 percent for staff earning a 
        salary of less than $100,000 (which is consistent with the pay 
        adjustment requested by other legislative branch agencies);
  --Funds a projected 5.4 percent increase in the cost of benefits and 
        funds a combination of promotions and merit increases, 
        including pay adjustments for staff whose salary exceeds 
        $100,000 and who therefore do not receive an automatic annual 
        increase;
  --Supports CBO's share of the Federal Accounting Standards Advisory 
        Board (FASAB) budget requirement ($443,025);
  --Sustains management and professional training and development 
        ($152,400);
  --Maintains and continues development of CBO's financial management 
        system ($101,390);
  --Supports the agency's telecommunications services to the Alternate 
        Computing Facility ($75,000); and
  --Allows for upgrading Microsoft Office software throughout the 
        agency ($75,000).
    Before I close, I would like to point out that over the past two 
fiscal years, CBO has streamlined operations while increasing services 
to the Congress and meeting ever growing requirements. Those efforts, 
which have included working in cooperation with other legislative 
branch agencies and other government organizations, have focused on 
reducing costs in information technology; library operations; printing 
and reproduction; storage services; and financial management, including 
payroll processing, auditing, and reporting. Consequently, the fiscal 
year 2007 submission requests the funding required for CBO to maintain 
its current services.
    I would also like to report that CBO received a clean opinion on 
its fiscal year 2004 financial statements.
    In addition, I would like to state that the agency is committed to 
applying many principles of the Government Performance Results Act as 
discussed in the Senate's fiscal year 2006 report.
    Finally, I would like to thank the Committee for its support of 
CBO's 2006 budget request. The funding provided this year will allow 
CBO to continue to provide the Congress with vital analyses as well as 
enable the agency to make cost-effective investments to enhance 
productivity and reduce costs.

                   PREPARATION OF REPORTS TO CONGRESS

    Senator Allard. Now, in the past 2 years, CBO has increased 
the number and reduced the preparation time of reports for the 
Congress. That is admirable. Would you explain to the 
subcommittee how you managed to accomplish that?
    Dr. Marron. Absolutely. I would say the key to that really 
is good management, to establishing timelines, deadlines, and 
encouraging folks to meet those. There are always some 
slippages, but, you know, to have guideposts for people to 
strive for, and then also to have a culture in which we make a 
lot of effort up front to make sure that the projects that we 
choose to undertake are ones that we can get through the entire 
process to see the light of day, to make sure that we have 
requests whenever possible from Members of Congress, and then 
just to carry that forward.
    So, I would ascribe that essentially to good management.

                         ONE PERCENT RESCISSION

    Senator Allard. Now in fiscal year 2006, a 1-percent 
rescission was applied to all the agencies. The one exception 
would have been the Department of Veterans Affairs. What was 
the impact of that reduction on your activities?
    Dr. Marron. The primary impact on us was to defer a variety 
of information technology investments, upgrading servers, 
upgrading PCs. Some of those have some flexibility in the 
timing of those. And we decided to put them out of this year 
and push them into next year.
    Senator Allard. And that is reflected in this year's 
budget?
    Dr. Marron. Exactly right. You will see that there is a 
larger percentage increase in the IT budget, somewhere in the 
11-percent range--and a significant part of that increase is 
essentially those investments showing up in 2007.

                BUDGETARY ANALYSIS OF DRAFT LEGISLATION

    Senator Allard. I see. Now I understand CBO has had a draft 
of Senator Lott's legislation to redevelop the Government 
Printing Office facility since December. We had a discussion 
about that in the panel before you. As I understand it, until 
the bill is scored, Senator Lott is reluctant to move forward. 
What is the status of your efforts to provide a budgetary 
analysis of this draft legislation to the Rules Committee?
    Dr. Marron. Our people are definitely working on it. The 
proposal raises some challenging issues which raise some nuance 
scoring issues, but we are working to expedite and it should be 
available quite soon.
    Senator Allard. I would urge you move ahead with that. Is 
it possible for you to give us a commitment on a date?
    Dr. Marron. I cannot right now, but let me check with my 
folks back in the office, and I will get back to you.
    Senator Allard. Okay. I think it is important for us to get 
the Government Printing Office issue settled as fast as we 
possibly can. If you can get that to us quickly, we would all 
appreciate it.
    Dr. Marron. Okay. Absolutely.

                         CONCLUSION OF HEARINGS

    Senator Allard. Very good. I do not have any other 
questions. You got off kind of easy.
    Dr. Marron. So I will thank you for that.
    Senator Allard. Thank you for your testimony.
    And this subcommittee stands in recess.
    [Whereupon, at 11:45 a.m., Wednesday, May 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]










       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado:
    Opening Statement of.........................75, 167, 199, 223, 269
    Questions Submitted by......................................45, 261
    Statement of.................................................     1
Ayers, Stephen, Chief Operating Officer, Architect of the Capitol   141

Billington, James H., Librarian of Congress; Chairman of the 
  Board, Open World Leadership Program, Library of Congress......     1
    Prepared Statement of........................................     4

Brown, Beth Hughes, Budget and Finance Officer, Office of 
  Compliance.....................................................   269

Candelaria, Alma, Deputy Executive Director, Office of Compliance   269
Chrisler, Tamara E., Acting Executive Director, Office of 
  Compliance.....................................................   269
    Prepared Statement of........................................
      271........................................................
    Summary Statement of.........................................   269
Cylke, Kurt, Director, Books for the Blind and Physically 
  Handicapped, Library of Congress...............................     1

Doby, Chris, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................    75
Dodaro, Gene L., Chief Operating Officer, Government 
  Accountability Office..........................................   223
Durbin, Senator Richard J., U.S. Senator From Illinois:
    Prepared Statement of........................................   142
    Questions Submitted by......................................50, 263

Eveleth, Peter, General Counsel, Office of Compliance............   269

Hantman, Alan M., FAIA, Architect of the Capitol..........141, 199, 217
    Prepared Statement of........................................   146
    Summary Statement of.........................................   143
Harper, Sallyanne, Chief Administrative Officer, Government 
  Accountability Office..........................................   223
Huff, Julia, Chief of Operations, Copyright Office, Library of 
  Congress.......................................................     1

James, Bruce R., Public Printer, Government Printing Office......   295
    Opening Remarks of...........................................   295
    Prepared Statement of........................................
      298........................................................
Jones, Mary Suit, Assistant Secretary of the Senate, Office of 
  the Secretary, U.S. Senate.....................................    75

Livingood, Hon. Wilson, Chairman, Capitol Police Board and 
  Capitol Guide Service, Capitol Guide Board...................199, 217
    Prepared Statements of.....................................200, 218
    Statement of.................................................   199

Marron, Dr. Donald B., Acting Director, Congressional Budget 
  Office.........................................................   309
    Prepared Statement of........................................   310
McGaffin, Chris, Acting Chief of Police, U.S. Capitol Police 
  Board..........................................................   199
    Prepared Statement of........................................   201
    Statement of.................................................   201
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................     1
    Prepared Statement of........................................    25
Peters, Marybeth, Register of Copyrights, Library of Congress, 
  Prepared Statement of..........................................    14
Pickle, Hon. William H., Sergeant at Arms and Doorkeeper, U.S. 
  Senate..................................................167, 199, 217
    Prepared Statement of........................................   170
    Statement of.................................................   168

Reynolds, Emily, Secretary of the Senate, Office of the 
  Secretary, U.S. Sen- 
  ate............................................................    75
    Prepared Statement of........................................    78
Robfogel, Susan, Chairwoman, Board of Directors, Office of 
  Compliance.....................................................   269
    Prepared Statement of........................................
      275........................................................
    Summary Statement of.........................................
      275........................................................

Schornagel, Karl, Inspector General, Library of Congress.........     1
Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.......................................................     1
Shedd, Steve, Chief Financial Officer, Government Printing Office   295
Stevens, Tom, Director of Visitor Services, Capitol Guide Board..   217
Strader, George G., Controller, Government Accountability Office.   223

Walker, David M., Comptroller General of the United States, 
  Government Accountability Office...............................   223
    Prepared Statement of........................................
      233........................................................
Wash, Mike, Chief Technical Officer, Government Printing Office..   295
Weiss, Mark, Director, Capitol Power Plant, Architect of the 
  Capitol........................................................   141


                             SUBJECT INDEX

                              ----------                              
                                                                   Page

                        ARCHITECT OF THE CAPITOL

Accomplishments..................................................   151
Annual Operating Budget..........................................   149
Architect of the Capitol Chief Financial Officer Selection.......   164
Capital Projects:
    Budget.......................................................   148
    And the Library Logistics Warehouse Prioritization...........   159
Capitol Visitor Center Budget....................................   150
Construction Overhead Costs......................................   161
Contract Management Improvements.................................   164
Dirksen Infrastructure Improvement Project.......................   160
Employee Safety in the Tunnels...................................   158
Fiscal Year 2007 Budget:
    Concerns.....................................................   141
    Increase.....................................................   154
Government Accountability Office Reports on Power Plant Staffing.   163
Internal Controls Implementation.................................   164
Office of Compliance Complaint...................................   157
Overall Planning Process.........................................   147
Performance-based Budget.........................................   163
Safety Hazards in the Utility Tunnels............................   141
Senate Office Building Improvements..............................   150
Stewardship and Prioritizing Projects............................   146
Tracking Office of Compliance Citations..........................   159
Tunnel Repair Plans..............................................   159
Utility Tunnel Conditions........................................   155
Welcoming Remarks................................................   141
West Refrigeration Plant Project.................................   162
    Challenges...................................................   162

                          CAPITOL GUIDE BOARD

Budget Request...................................................   218
Capitol Visitor Center Opening...................................   219
Certificate of Occupancy.........................................   221
Full-time Equivalents............................................   220
Hiring for the Capitol Visitor Center............................   220
Primary Function.................................................   217

                      CONGRESSIONAL BUDGET OFFICE

Budgetary Analysis of Draft Legislation..........................   312
One Percent Rescission...........................................   311
Preparation of Reports to Congress...............................   311

                    GOVERNMENT ACCOUNTABILITY OFFICE

Additional Committee Questions...................................   260
Background on Missile Defense Article............................   225
Band II Restructuring............................................   253
Calculating the Total Employee Cost to the Government............   250
Changes to the Government Accountability Office's Pay System in 
  the Past Year..................................................   252
Comparative Analysis of the Government Accountability Office's 
  Supply-Demand Imbalance........................................   257
Cost for 50 Additional Full-time Equivalents.....................   249
Criteria for Coming On and Off the Government Accountability 
  Office's High Risk List........................................   260
Early Retirements................................................   251
Employee Perception of New Pay System............................   254
Ensuring the Government Accountability Office Reports are 
  Impartial......................................................   228
Government Accountability Office's (GAO's):
    Fiscal Year 2005 Accomplishments.............................   231
    Fiscal Year 2007:
        Budget Request...........................................   232
        Request to Support the Congress..........................   235
    High Risk:
        List.....................................................   258
        Program..................................................   247
    Market-based Pay System......................................   252
    Policy on Engagements Pending Litigation.....................   227
    Quality Control Procedures...................................   227
History and Importance of the Government Accountability Office's 
  High Risk List.................................................   259
Lessons Learned:
    From Missile Defense Engagement..............................   225
    In Implementing Market-based Pay.............................   256
Mr. Walker's Response to the New York Times Article..............   224
New York Times Article on Missile Defense Program................   223
Outcomes of Our Work and the Road Ahead..........................   238
Performance, Results, and Plans..................................   236
Potential for Government-wide Use of Market-based Pay............   255
Prior Discussions With the Congress on Missile Defense...........   226
Staffing up to Reduce Backlogs...................................   256

                       GOVERNMENT PRINTING OFFICE

Budget Priorities................................................   302
Congressional Printing and Binding...............................   302
Electronic Passport Program......................................   305
Employee Retraining..............................................   305
Facility Relocation..............................................   301
Fiscal Year 2007 Request.........................................   300
Future of the Depository Library Program.........................   306
GPO Fiscal Year 2007 Appropriations Priorities...................   302
Revolving Fund...................................................   304
Salaries and Expenses............................................   303
Top challenges...................................................   302
2005 Results.....................................................   298
Use of GPO Training Funds........................................   305

                          LIBRARY OF CONGRESS

Acquisitions Budget Request......................................     3
Additional Committee Questions...................................    45
Analog-Digital Transition........................................    40
Architect of the Capitol--Library of Congress Buildings and 
  Grounds........................................................     8
Building the Library for the Future..............................     6
Capitol Visitor Center...........................................    41
Cassette Machine Replacement.....................................    39
Celebration of American Creativity...............................    42
Congressional Research Service Realignment.......................23, 48
    Savings......................................................    28
Consultation With Congressional Research Service Staff...........    29
Copyright:
    Deposits Facility............................................    21
    Records Preservation.........................................    46
    Reengineering Program........................................    31
Digital:
    Competencies.................................................    47
    Talking Books:
        Audit....................................................    41
        Program..................................................    38
Director's Report--Fiscal Year 2006 Staffing Changes, November 3, 
  2005...........................................................    56
Federal Agency Overhead..........................................    21
Fee Service Activities...........................................    49
Fiscal Year 2007 Budget Request..................................18, 25
Future Fee Increase..............................................    19
GENPAC...........................................................    45
Government Performance and Results Act (GPRA)....................    20
    And Library Planning.........................................    21
Impact of Retirements............................................    31
Introduction of Inspector General................................    22
Library of Congress..............................................     4
Logistics Center.................................................     4
    Cost.........................................................    19
    Review.......................................................20, 22
Management Initiatives...........................................    26
National Audio-Visual Conservation Center--Culpeper..............     3
    Status.......................................................    32
National Audio-Visual Conservation Center--Packard Contribution..    33
Open World Leadership Center.....................................     9
Open World Leadership Program....................................    44
Open World Strategic Plan........................................    44
Options for Displaced Employees..................................    29
Other Budget Priorities..........................................     3
Partnerships With National Libraries.............................    43
Performance Measurement..........................................    34
Proposed Changes to Legislative Language.........................     8
Reengineering Project Delays.....................................    32
Research Agenda..................................................    25
Results-based Decisionmaking.....................................    37
Retirement Incentives............................................    29
Review of Copyright Office Work and Accomplishments..............    14
Technology and Staffing..........................................    24
The Library of Congress of Today.................................     5
The Library's:
    Fiscal Year 2007 Budget Request..............................     6
    Funding Priorities...........................................     6
Workforce Transformation......................................2, 30, 46
World Digital Library............................................    43

                          OFFICE OF COMPLIANCE

Air Sampling.....................................................   289
Architect of the Capitol Plan to Remedy Tunnel Issues............   282
Asbestos Issues in the Tunnels and Vaults as of May 2, 2006......   284
Biennial Safety and Health Inspections...........................   277
Complaint Against Architect of the Capitol About the Tunnels.....   281
Dispute Resolution...............................................   272
Distance Between Egress Points...................................   290
Educating our Constituency.......................................   273
Findings by Risk Assessment Code.................................   277
Fire Alarm System in the Capitol Visitor Center..................   292
First Office of Compliance Complaint Under the Occupational 
  Safety and Health Act..........................................   278
Management Support...............................................   273
New FTE Positions Requested......................................   270
Occupational Safety and Health Administration Approved Methods 
  for Abating Asbestos...........................................   288
Safety and Health Enforcement....................................   272

                       U.S. CAPITOL POLICE BOARD

Accolade:
    For U.S. Capitol Police Department...........................   204
    To Departing Chief Gainer....................................   200
Capitol Police General Counsel Discussion........................   208
Chief Administrative Officer:
    Action Plan..................................................   210
    Responsibilities.............................................   209
Discussion on:
    Comp Time Balance Reduction..................................   207
    New Police Chief Selection Status............................   213
Explanation of Fiscal Year 2007 Increases........................   204
Implementation of New Financial Management System................   211
Inspector General Selection Status...............................   214
Library of Congress:
    Attrition and Other New Position Requests....................   205
    Merge Progress...............................................   207
Master Training Plan--Capitol Police.............................   214
Nonpersonnel Increases...........................................   205
Reduction in Police Overtime Explained...........................   206
Screening Vehicles at Library of Congress........................   208
Summary of Remaining Chief Administrative Officer Initiatives....   211
Tiger Team and Dignitary Protection Division New Positions 
  Discussed......................................................   206

                              U.S. SENATE

                        Office of the Secretary

Administrative Offices...........................................   105
Capitol Visitor Center...........................................    81
Continuity of Operations and Emergency Preparedness Planning.....    81
Disbursing Office Information Technology.........................    99
Federal Election Commission Online Filing........................   140
Financial Operations: Disbursing Office..........................    90
Implementing Mandated Systems....................................    79
Legislative Offices..............................................    82
Lobbying Disclosure Reports......................................   138
Maintaining and Improving Current and Historic Legislative, 
  Financial and Administrative Services..........................    82
New Technology in the Senate.....................................   138
Presenting the Fiscal Year 2007 Budget Request...................    79
Study of Senate Staff Pay........................................   139

                    Sergeant at Arms and Doorkeeper

Challenges for Next Year.........................................   181
Custodial Workers for the Senate Capitol Visitor Center Expansion 
  Space..........................................................   195
Guiding Principals...............................................   169
Information Technology: A Strategy for Security and Customer 
  Service........................................................   175
Mail:
    Processing Facility..........................................   197
    Safety.......................................................   188
Operations and Support: Consistently Delivering Excellent Service   180
Security and Emergency Preparedness..............................   196
Security and Preparedness: Protecting the Senate and Planning for 
  the Unknown....................................................   173
Sergeant at Arms Position Justification--Fiscal Year 2007........   189
Staffing Increases.............................................188, 194
Strategic:
    Plan.........................................................   169
    Planning.....................................................   198
Telephone System Replacement.....................................   196
Vendor Deliveries................................................   197

                                   - 

</pre></body></html>
